<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA


                             ANNUAL REPORT
 
 
                                  2015

=======================================================================


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China



[GRAOPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.cecc.gov
                                __________

                  U.S. GOVERNMENT PUBLISHING OFFICE
96-106 PDF                  WASHINGTON : 2015

_____________________________________________________________________________

   For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov.  Phone: toll-free (866)-512-1800;DC area 202-512-1800
        Fax: (202-512-2104 Mail: Stop IDCC, Washington, DC 20402-0001 


 

 


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    MARCO RUBIO, Florida, Cochairman
Chairman                             JAMES LANKFORD, Oklahoma
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             BEN SASSE, Nebraska
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
MARCY KAPTUR, Ohio                   DIANNE FEINSTEIN, California
MICHAEL M. HONDA, California         JEFF MERKLEY, Oregon
TED LIEU, California                 GARY PETERS, Michigan

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                             CO N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Overview.....................................................     2
    Key Recommendations..........................................    11
    Specific Findings and Recommendations........................    17
    Political Prisoner Database..................................    61

II. Human Rights.................................................    65

    Freedom of Expression........................................    65
    Worker Rights................................................    84
    Criminal Justice.............................................   101
    Freedom of Religion..........................................   120
    Ethnic Minority Rights.......................................   138
    Population Control...........................................   143
    Freedom of Residence and Movement............................   164
    Status of Women..............................................   172
    Human Trafficking............................................   184
    North Korean Refugees in China...............................   196
    Public Health................................................   202
    The Environment..............................................   208

III. Development of the Rule of Law..............................   223

    Civil Society................................................   223
    Institutions of Democratic Governance........................   236
    Commercial Rule of Law.......................................   252
    Access to Justice............................................   267

IV. Xinjiang.....................................................   281

V. Tibet.........................................................   298

VI. Developments in Hong Kong and Macau..........................   325
                          I. Executive Summary

    The Congressional-Executive Commission on China (the 
Commission), established by the U.S.-China Relations Act (19 
U.S.C. 1307) as China prepared to enter the World Trade 
Organization, is mandated to monitor human rights and the 
development of the rule of law in China, and to submit an 
annual report to the President and the Congress. The Commission 
is also mandated to maintain a database of political prisoners 
in China--individuals who have been imprisoned by the Chinese 
government for exercising their civil and political rights 
under China's Constitution and law or under China's 
international human rights obligations. The Commission consists 
of nine Senators, nine Members of the House of Representatives, 
and five senior Administration officials appointed by the 
President and representing the Department of State, Department 
of Labor, and the Department of Commerce. The Commission's 
Executive Branch members have participated in and supported the 
work of the Commission. The content of this Annual Report, 
including its findings, view, and recommendations, does not 
necessarily reflect the views of individual Executive Branch 
members or the policies of the Administration. The report 
covers the period from fall 2014 to fall 2015.

    The Commission adopted this report by a vote of 22 to 
0.<dagger>


    <dagger> Voted to adopt: Representatives Smith, Pittenger, Franks, 
Hultgren, Walz, Kaptur, Honda, and Lieu; Senators Rubio, Lankford, 
Cotton, Daines, Sasse, Brown, Feinstein, Merkley, and Peters; and 
Deputy Secretary Lu, Under Secretary Sewall, Under Secretary Selig, 
Assistant Secretary Russel, and Assistant Secretary Malinowski.

                                Overview

    Human rights and rule of law conditions in China 
deteriorated in many of the areas covered by this year's 
report, continuing a downward trend since Xi Jinping took power 
as Chinese Communist Party General Secretary in November 2012 
and President in March 2013. The Commission continued to 
observe a range of legal and political developments that could 
have significant impact on the rights and welfare of China's 
citizens. Potentially positive developments are overshadowed by 
the Chinese government and Party's efforts to silence dissent, 
suppress human rights advocacy, and control civil society. 
These efforts are broader in scope than any other period 
documented since the Commission started issuing Annual Reports 
in 2002. Targets include human rights defenders, media outlets 
and journalists, public interest and human rights lawyers, 
Tibetans and Uyghurs, religious groups and edifices, non-
governmental organizations (NGOs), intellectuals and democracy 
advocates, petitioners and peaceful protesters, and supporters 
of universal suffrage in Hong Kong.
    The political direction set by President Xi and other 
Chinese leaders aims to build and expand upon that of their 
predecessors, with a core tenet of unchallenged Party 
leadership and a commitment to suppress discussions about the 
legitimacy of the Party's power. The Party and government 
continue to violate the human rights of Chinese citizens in 
ways that significantly influence their daily lives. For 
example, despite international condemnation and widespread 
public dissatisfaction, China's population control policies 
continued into their 35th year. Even after a slight 
modification of those policies in 2013, it remains the Chinese 
government's mode of operation to interfere with and control 
the reproductive lives of China's citizens--particularly 
women--and to enforce coercive birth limitation policies that 
violate China's obligations under international agreements. 
Restrictions on cultural and religious practices have resulted 
in authorities restricting the kinds of clothing worn by Uyghur 
women and the styles of facial hair of Uyghur men. Without an 
independent judiciary, citizens across China have little legal 
recourse and face significant challenges, for example, in 
seeking legal redress when local officials appropriate their 
land or homes for development projects.
    It is increasingly clear that President Xi and the current 
cohort of Chinese leaders, will tolerate even less dissent than 
the previous administration. Even those making modest calls for 
reform--such as civil society organizations, intellectuals, and 
public interest lawyers who work in areas prioritized by the 
government--have faced harassment, detention, and arrest. 
State-approved Catholic Patriotic Association and ``Three-Self 
Patriotic'' Protestant churches in Wenzhou municipality, 
Zhejiang province, have faced demolitions and cross removals. 
Authorities ordered the removal of an environmental 
documentary, ``Under the Dome,'' produced by a well-known 
journalist and former television broadcaster of state-run China 
Central Television, from China's Internet portals after it went 
viral with over 200 million views. Just before International 
Women's Day, Chinese authorities detained five women's rights 
advocates and held them in abusive conditions for more than 
five weeks because they had planned to distribute brochures to 
raise awareness of sexual harassment on public transportation.
    The government and Party's rhetoric against ``foreign'' 
ideals, values, and influence was increasingly strident and 
widespread this past year. The Party used various forms of 
media, internal decrees, public statements, and security-
related legislation to warn the Chinese public and officials of 
the distinctions between Chinese and Western ideology, norms, 
and notions of judicial independence. Efforts continued to 
strengthen ideological control over the media, universities, 
the bureaucracy, the Internet, and the arts and entertainment 
industries. In May 2015, the government released a draft PRC 
Overseas Non-Governmental Organizations (NGO) Management Law 
that may make it difficult for foreign-based or -funded NGOs to 
operate in China. The Communist Party issued an internal 
document--Document No. 30--reportedly to purge ``Western-
inspired liberal ideas'' from universities and prohibit 
teaching and research on a number of topics including judicial 
independence, media freedom, human rights, and criticism of the 
Communist Party's history. Taken along with the draft PRC 
Overseas NGO Management Law, Document No. 30 may have serious 
implications for academic partnerships formed between the 
United States and China, including exchange and study abroad 
programs and new ``satellite campuses'' established within U.S. 
colleges and universities.
    The theme of the Fourth Plenum of the 18th Party Congress 
Central Committee held in November 2014, ``yifa zhiguo,'' is 
often translated as ``rule by law'' or ``rule in accordance 
with law,'' though Chinese leaders often point to the decision 
issued during the Fourth Plenum to demonstrate the government's 
commitment to the ``rule of law.'' The actions of the Party 
leadership and government officials over the past year indicate 
that China is not moving toward a rule of law system, but is 
instead further entrenching a system where the Party utilizes 
statutes to strengthen and maintain its leading role and power 
over the country. Party documents expressly stated the 
intention to use the law to strengthen the Party's leadership 
over legislative, administrative, judicial, and other 
institutions.
    During the 2015 reporting year, the Commission observed a 
persistent gap between the Chinese government's rhetoric 
regarding the importance of laws and the ability of citizens to 
use the legal system to protect their rights. Many of China's 
religious and political prisoners are subject to harsh and 
lengthy prison sentences as well as various forms of extralegal 
and administrative detention, including arbitrary detention in 
``black jails'' and ``legal education centers.'' China's 
continued use of extralegal and administrative detention 
remains an acute problem and overshadows China's abolition in 
late 2013 of the reeducation through labor system. The 
continuing and expanded uses of vaguely defined criminal 
charges and extralegal detention also raise questions about 
China's commitments to international human rights norms. For 
example, prominent public interest lawyer Pu Zhiqiang faces 
charges of ``picking quarrels and provoking trouble'' and 
``inciting ethnic hatred'' for social media posts that mocked 
several government officials and that criticized China's ethnic 
policy. Liu Xia, wife of imprisoned Nobel Peace Prize laureate 
Liu Xiaobo, remains isolated under extralegal detention at her 
home in Beijing municipality and reportedly is in poor health. 
The Commission's Political Prisoner Database has information on 
approximately 1,300 cases of political and religious prisoners 
currently known, or believed, to be detained or imprisoned, 
though the actual number is certain to be much higher, given 
the lack of transparency in the Chinese legal and prison system 
and other obstacles to the free flow of news and information.
    Reports of torture and other human rights abuses in 
detention continued to be routine, including the denial of 
medical treatment and the use of forced hospitalization in 
psychiatric facilities to detain some individuals without 
mental health issues. Authorities in one Tibetan county issued 
regulations that provide for the collective punishment of an 
entire Tibetan family for possessing an image of the Dalai 
Lama. In addition, Chinese authorities harassed and detained 
students, family members, and associates of detained or 
imprisoned democracy and human rights advocates, as well as the 
lawyers who sought to defend them.
    Since 2012 authorities have harassed, detained, or 
sentenced an increasing number of public interest lawyers, and 
efforts expanded this past year to disrupt rights lawyers' 
activities. Lawyers who accept politically sensitive cases 
continue to face disbarment, physical violence, and the closure 
of their law firms. In July 2015, Chinese authorities took into 
custody more than 250 individuals in an unprecedented 
nationwide sweep. Many of those interrogated, detained, or 
``disappeared'' are self-described human rights lawyers and 
rights defenders. Several of the lawyers worked in one Beijing-
based law firm. As of August 2015, 23 of those taken into 
custody were criminally detained, put under residential 
surveillance, or made a victim of enforced disappearance. 
Authorities engaged in a public smear campaign in government-
run media to accuse the lawyers of ``creating chaos'' and being 
part of a ``criminal gang'' that engaged in plots in the name 
of ``rights defense, justice, and public interest.''
    The Chinese government and Communist Party's violations of 
human rights and the rule of law have implications for U.S.-
China relations. Chinese leaders are seeking a ``new type'' of 
U.S.-China relations and aim to play an expanded role in global 
institutions, yet continue to ignore international human rights 
norms. Human rights and rule of law are essential components of 
economic development, domestic stability, and the type of trust 
and confidence necessary to strengthen bilateral and 
multilateral cooperation on a range of issues that will define 
the 21st century.
    It is increasingly clear that China's domestic human rights 
problems are of critical interest to U.S. foreign policy. There 
is a direct link between concrete improvements in human rights 
and the rule of law in China and the security and prosperity of 
both the United States and China. The security of U.S. 
investments and personal information in cyberspace, the health 
of the economy and environment, the safety of food and drug 
supplies, the protection of intellectual property, and the 
stability of the Pacific region are linked to China. They 
depend on the Chinese government's willingness to comply with 
international law, enforce its own laws, allow the free flow of 
news and information, fulfill its WTO obligations, and protect 
the basic rights of Chinese citizens, including the fundamental 
freedoms of religion, expression, assembly, and association.

                       Major Developments in 2015

    During the past reporting year, the Commission has observed 
the tightening of controls over the media, universities, civil 
society, and rights advocacy, and on members of ethnic 
minorities, especially Tibetans and Uyghurs. Concurrently, the 
Commission observed apparent efforts to limit the exchange of 
people and ideas between China and the international community 
through a series of new laws, some still in draft form, and 
increasingly alarmist rhetoric against ``foreign'' ideas and 
institutions. Meanwhile, other areas that the Commission is 
mandated to monitor, such as freedom of expression and 
religion, human trafficking, population control, democratic 
governance issues, and WTO compliance either have seen little 
improvement or deteriorated. While the Chinese government 
promoted legislation and national plans to improve some 
criminal and administrative legal procedures, enforce 
environmental standards, and protect the rights of survivors of 
domestic violence, among other plans, the lack of transparency 
and accountability and weak implementation reduces the 
possibility of significant improvements in the rule of law and 
democratic governance.

       China Restructuring Links With the International Community

    The Chinese government issued a series of far-reaching new 
laws during the past year: the PRC Counterespionage Law passed 
in November 2014 and the PRC National Security Law passed in 
July 2015. Drafts of the PRC Overseas NGO Management Law, the 
PRC Counterterrorism Law, and the PRC Cybersecurity Law were 
also the focus of domestic and international attention. Human 
rights advocates and legal experts expressed concern that these 
laws could provide the basis for an even broader and more 
severe crackdown on legal advocacy, civil society, and ethnic 
minority groups like the Uyghurs and Tibetans; impact 
international businesses that operate in or trade with China; 
and expand restrictions on the Internet and journalists.
    The new PRC National Security Law, passed in July 2015, 
defines the Chinese government's national interests broadly, 
domestically, and globally. The law identifies cyberspace, 
outer space, the oceans, and the Arctic as parts of China's 
national security interests, as well as ensuring supplies of 
food, energy, and resources. It emphasizes the need not only to 
maintain territorial integrity but also to ``guard against 
negative cultural influences'' and ``dominate the ideological 
sphere.'' The new law provides additional legal basis for 
continued Internet censorship as well, saying China will 
protect ``Internet sovereignty'' and prevent and punish the 
``spread of harmful information.'' The draft PRC Cybersecurity 
Law would grant authorities the legal power to cut Internet 
access to ``safeguard national security and social public 
order.'' The law also stipulates that user data from Internet 
companies must be stored in China.
    The draft PRC Overseas NGO Management Law has the potential 
to affect a wide range of international organizations that 
operate inside China, from charitable groups to universities to 
industry associations. The draft law shifts regulation of 
international NGOs from the Ministry of Civil Affairs to the 
Ministry of Public Security, and requires overseas NGOs to find 
government-approved domestic sponsors in order to open a branch 
office in China, or even to conduct temporary activities. If 
the current draft passes, overseas NGOs--including those based 
in Hong Kong and Taiwan--will not be able to engage in or 
provide financial assistance for ``political activities or 
illegal religious activities.'' Some international NGOs have 
voiced concerns that they may need to pull out of China if the 
NGO law passes. Human rights observers raised concerns that the 
law could further impede the work of domestic rights-based 
NGOs, many of which are unable to fundraise in China and thus 
must rely on international funding.

                 Intensified Crackdown on Civil Society

    During this reporting year, authorities expanded a 
crackdown that began in 2013, which included the suppression of 
individuals and organizations previously tolerated by 
authorities. For example, Liren, a network of rural libraries, 
closed under government pressure, and authorities temporarily 
detained several individuals associated with the organization. 
Beijing authorities shut down the Transition Institute, a non-
governmental think tank with a focus on economic and social 
policy research, detained several staff members, and 
subsequently charged two of its directors, Guo Yushan and He 
Zhengjun, with ``illegal business activity.'' The five women's 
rights advocates detained in the run-up to International 
Women's Day worked for non-governmental organizations (NGOs). 
Authorities later forcibly closed Weizhiming, a women's rights 
organization in Hangzhou municipality, Zhejiang province, 
started by one of the five women's rights advocates. Several of 
the advocates also had direct ties to Beijing Yirenping Center, 
a public health and anti-discrimination NGO. In March, 
officials raided Yirenping's office in Beijing, and in June, 
they briefly detained two former employees on suspicion of 
``illegal business activity.''

               The Lasting Effects of Population Control

    Faced with a rapidly aging population, a shrinking pool of 
working-age people, international condemnation, and high levels 
of public dissatisfaction, the Chinese government eased its 
coercive population control policies somewhat in 2013, allowing 
couples to have two children if at least one spouse was an only 
child. Despite gaining international acclaim for the 
adjustment, the Chinese government did not abolish the 
underlying one-child policy. This policy violates international 
standards, leads to official abuse and corruption, and 
exacerbates a looming demographic problem with likely economic, 
social, and security consequences. Authorities continued to use 
coercive population control methods as well as incentives, 
including job promotions, for officials who meet birth-
limitation targets. There were reports of officials withholding 
social benefits and household registration, imposing heavy 
fines, coercing people to undergo sterilization or use 
contraception, and using arbitrary detention to punish birth 
limitation violators. Wang Feng, the former director of the 
Brookings-Tsinghua Center for Public Policy, said he believed 
``history will judge the `One-Child Policy' as worse than the 
Cultural Revolution [as] the One-Child Policy will influence 
more than one generation.''
    The Chinese government's population control policies are a 
critical factor in creating a sex ratio imbalance resulting in 
the birth of significantly more males, millions of whom may not 
be able to find a female partner in China. This severe 
imbalance may already be driving regional human trafficking for 
the purposes of forced marriage and sexual exploitation. 
Chinese and Southeast Asian governments, non-governmental 
organizations (NGOs), and the United Nations report that cross-
border trafficking into China for forced marriage and sexual 
exploitation appears to be increasing.

          Ideological Control of the Internet and Social Media

    The Chinese government committed to expand Internet access 
and broadband speed for China's citizens while increasing 
control of the Internet and the censorship of information 
perceived as ``harmful'' or critical of Party authority. 
China's digital space is highly policed, enforced by unknown 
numbers of security personnel and manipulated by paid 
commentators who seek to promote loyalty to government policies 
and counteract criticism. The Communist Youth League launched a 
plan this year to recruit 10 million ``online youth 
civilization volunteers'' to spread pro-government messages and 
``positive energy'' via social media. Authorities continued to 
rein in media and opinion-makers critical of government 
policies and those viewed as potential threats to Party 
authority. The government continued efforts to control social 
media by harassing China's Internet bloggers, shutting down 
popular chat site accounts, requiring real-name registration of 
accounts, limiting access to foreign services such as Flickr 
and Instagram, and blocking services that allow Internet users 
to circumvent China's Great Firewall.

               Continued Repression of Ethnic Minorities

    Chinese authorities continue to implement intrusive and 
repressive policies in ethnic minority areas, particularly 
among Tibetans and Uyghurs. During the past year, officials 
continued to carry out rights abuses in the Xinjiang Uyghur 
Autonomous Region (XUAR). Amid deadly attacks reportedly 
committed by Uyghurs during the year, international observers 
expressed concerns over top-down security measures and the 
excessive use of force in the region. Authorities also 
introduced harsh and far-reaching new measures to restrict 
further Uyghur religious practice, ethnic identity, culture, 
and freedom of movement. The draft PRC Counterterrorism Law may 
justify additional human rights abuses. The draft law broadly 
defines terrorism to include ``speech or behavior'' intended to 
``create ethnic hatred, subvert state power, [or] split the 
state,'' while the law's expansive definition of ``extremism'' 
includes ``forcing minors to take part in religious 
activities'' and ``misrepresenting or insulting national 
policy.''
    There is little evidence that Party and government 
officials will tolerate Tibetans' interest in preserving their 
culture, language, religion, and the environment on terms 
acceptable to Tibetans. During the reporting year, the 
Commission observed heightened efforts to control and interfere 
with Tibetan Buddhist religious practice and the selection of 
its leaders. Tibetan self-immolations continued in the past 
year in numbers similar to the previous year, as expanded 
security efforts and punitive measures continued. The formal 
dialogue between the Dalai Lama's representatives and Communist 
Party and government officials has been stalled since January 
2010, the longest break since the dialogue resumed in 2002.

         Challenges to Hong Kong's ``High Degree of Autonomy''

    Last year's pro-democracy protests revealed deep divisions 
over the degree of Hong Kong's autonomy within China. The 
actions of the Chinese and Hong Kong governments during the 
reporting year continue to raise serious concerns about the 
future of the freedoms and rule of law that distinguish Hong 
Kong from mainland China and underpin Hong Kong's financial 
reputation and prosperity. Chinese leaders continued to 
emphasize Chinese sovereignty and control over Hong Kong. 
Attacks on journalists and the editorial and financial 
pressures placed on media organizations by advertisers 
contributed to the steady erosion of press freedoms.
    Pro-democracy protesters rejected a plan put forward by the 
National People's Congress Standing Committee (NPCSC) in August 
2014 for electing Hong Kong's Chief Executive because it 
imposed a screening process designed to ensure that only 
candidates supportive of the central government in mainland 
China could be nominated. The non-violent protests, also 
referred to as ``Occupy Central'' and the ``Umbrella 
Movement,'' stretched from September to early December 2014. 
Despite the efforts of protesters, opposition legislators, and 
other Hong Kong leaders to develop election reform proposals, 
Chinese and Hong Kong authorities continue to insist that any 
election reform plan must be in strict conformity with the 
undemocratic framework laid out by the NPCSC.

       As Businesses Face New Challenges, Labor Problems Persist

    There was optimism about the fiscal and bureaucratic 
reforms announced by President Xi at the Third Plenum of the 
18th Party Congress in November 2013, but the investment 
environment for foreign companies in China has not improved. 
During this reporting year, there were record trade deficits in 
China's favor, and U.S. exports to China decreased. U.S. and 
other foreign businesses faced significant difficulties in the 
past year due to the weak rule of law, lack of government 
transparency, and preferential treatment for state-owned 
enterprises. Foreign businesses faced discriminatory monopoly 
investigations, intellectual property theft, and draft laws 
that will require the transfer of technology and encryption 
keys for information technology firms seeking a share of the 
Chinese market. Many of these actions contravene China's WTO 
commitments, but the United States has only initiated one WTO 
dispute in the past two-and-a-half years. As China's economy 
slows, U.S. media have reported on increasing difficulties for 
foreign companies due to China's emerging economic nationalism.
    Ongoing Internet censorship continues to affect negatively 
the bottom lines of businesses and the ability of journalists 
to distribute news and information across borders. Google, 
Facebook, YouTube, Twitter, Bloomberg, Instagram, the New York 
Times, and many e-commerce websites remain blocked. Foreign 
journalists, who play a critical role reporting on financial 
and political information about China that their Chinese 
counterparts cannot cover, continue to face restrictions, 
harassment, surveillance, threats, and the detention of their 
local Chinese assistants. The difficulty in obtaining visas for 
foreign journalists seems to have eased somewhat in the past 
year, according to a survey done by the Foreign Correspondents' 
Club of China, but that same survey concluded that authorities 
continued to use the visa renewal and press accreditation 
process politically, targeting reporters and media 
organizations for their coverage that is critical of the 
Chinese government.
    Despite seemingly high levels of unionization, the 
government-controlled All-China Federation of Trade Unions 
(ACFTU) is the only union workers may join. The ACFTU has 
proven ineffective in dealing with strikes, labor protests, and 
the needs of migrant workers. Chinese workers cannot freely 
join or organize independent unions. The government continued 
to curb the activities of labor NGOs, introducing registration 
hurdles and occasionally detaining NGO staff.

                         Positive Developments

    Chinese authorities undertook initiatives and issued 
legislation with the potential to protect the rights of victims 
of domestic violence and improve environmental protections. A 
draft PRC Anti-Domestic Violence Law under consideration 
formally defines domestic violence in law for the first time 
and includes provisions for issuing restraining orders. 
Revisions to the PRC Environmental Protection Law went into 
effect in January 2015 with governmental pledges to improve 
enforcement of environmental laws. Some lawyers continue to 
report better access to criminal defendants since the revision 
of the PRC Criminal Procedure Law in 2012, but substantial 
impediments were reported in cases authorities deemed 
politically sensitive.
    In February 2015, the Supreme People's Court publicly 
released its fourth five-year reform plan, which included 
limited calls for judicial independence when deciding some 
cases. Articles in state-run Chinese media were emphatic that 
the Chinese government was not adopting a model of judicial 
independence based on the United States or other ``Western'' 
nations. Chinese courts have also taken steps to increase 
judicial transparency.
    This past year also brought significant changes to the PRC 
Administrative Litigation Law, which strengthens the framework 
for citizens to challenge government actions in court, 
including by expanding the scope of cases that may be heard in 
court. With millions of petitions (xinfang) filed annually, the 
revised law potentially could funnel some citizen complaints 
away from the petitioning system and into the courts. Amid 
these changes, lawyers who represented petitioners in cases the 
government deemed politically sensitive faced escalating 
reprisals and retribution.
    The Chinese government made adjustments to the hukou, or 
household registration, system, which could ease registration 
if implemented effectively. The hukou system restricts access 
to health, education, and other social service benefits to 
China's rural migrants working in urban areas. Some local 
authorities continue to deny hukou to children born in 
violation of the Chinese government's population control 
policies. These children face difficulties accessing education 
and other government benefits.

                          Key Recommendations

    With the deteriorating human rights situation in China and 
rapidly changing bilateral and global dynamics in the Asia-
Pacific region, the United States faces a multitude of serious 
challenges in promoting internationally recognized human rights 
standards in China. In chartering an effective, integrated 
diplomatic path forward, the Administration--in partnership 
with the Congress and in consultation with civil society--
should consider employing tactics and points of leverage that 
are consistent with U.S. interests and values, prioritize the 
protection of victims of human rights abuses, and maximize 
available resources. The Commission recognizes that only 
China's leaders and the Chinese people can determine the course 
and progress of their domestic affairs and the scope of China's 
compliance with international standards. Yet given the 
strategic and economic interdependencies of the U.S.-China 
relationship, and the importance of rights protections for 
advancing U.S. interests, there is a critical role for 
principled U.S. leadership in advancing democratic governance, 
human rights, and the rule of law in China.
    For these purposes, the Commission makes the following 
recommendations to Congress and the Administration to encourage 
China's compliance with international human rights standards 
and the development of the rule of law.

    <bullet> Mainstreaming Human Rights Promotion. The 
Administration should continue to expand interagency 
coordination and its stated ``whole-of-government'' approach to 
ensure that all agencies interacting with the Chinese 
government are prepared to discuss relevant human rights and 
rule of law issues in the over 90 bilateral dialogues and other 
high-level meetings that occur annually. Congress and the 
Administration should work together to consider whether 
legislation or other measures are needed to develop a human 
rights action plan for implementation across all U.S. 
Government agencies and entities. The plan could incorporate 
the development of targeted talking points and prisoner lists, 
support for all U.S. delegations visiting China, and 
coordination with various ``People-to-People'' and multitrack 
diplomatic efforts that include both governmental and non-
governmental actors. Congress should consider requesting a one-
time report outlining existing progress on interagency human 
rights coordination efforts from the Administration and a study 
of the effectiveness, utility, and outcomes of the U.S.-China 
Human Rights Dialogue from the Government Accountability 
Office.
    <bullet> Rebalancing the ``Asia Pivot'' Toward Human 
Rights. The Administration's efforts to refocus U.S. attention 
and resources toward the Asia-Pacific region has broad support 
in Congress, but there is a need for strategic coordination on 
ways to pursue U.S. interests in human rights and the rule of 
law. Congress could consider requesting a one-time interagency 
report from the Administration on its strategies for making 
promotion of human rights and the rule of law an integral part 
of U.S. policy in the region, incorporating human rights into 
U.S. trade and security policy, and coordinating with regional 
allies on raising human rights concerns with China. The 
Administration and Congress should work together, and with 
regional allies and policy specialists, on ways to bring China 
into a regional economic and security cooperation system that 
includes human rights and humanitarian dimensions, similar to 
the Organization of Security and Cooperation in Europe (OSCE). 
The inclusion of a ``third basket'' of human rights concerns is 
a critically important aspect to any regional architecture, 
particularly given China's efforts to reinterpret international 
rules to suit its own purposes and the foundational importance 
of democratic governance, the rule of law, and rights 
protections to the long-term success of economic and security 
cooperation.
    <bullet> Strategic Use of Visa Policy and Other Diplomatic 
Tools. Congress and the Administration should work together to 
make better use of existing laws that restrict visa access to 
the United States for human rights violations, including 
Section 604 of the International Religious Freedom Act, Section 
801 of the Admiral James W. Nance and Meg Donovan Foreign 
Relations Authorization Act, and the relevant parts of Section 
212 of the Immigration and Nationality Act. The Administration 
and Congress should work together to consider whether 
additional legislation is needed to address human rights 
challenges in China, specifically restrictions on the free flow 
of news and information, visa delays or denials for journalists 
and scholars, trafficking in persons, prolonged arbitrary 
detention and torture, allegations of organ harvesting, and 
massive discrimination and violence in ethnic minority areas. 
Options such as prohibiting meetings with Chinese officials 
responsible for carrying out or authorizing human rights abuses 
or denying such individuals access to programs or institutions 
that receive U.S. Government funding should be considered.
    <bullet> Ending China's Population Control Policies. The 
Administration should consider raising the issue of China's 
population control policies and discuss, as part of security, 
legal, trafficking, and human rights dialogues, concrete 
responses to potential humanitarian, economic, societal, and 
security problems exacerbated by China's sex ratio imbalance. 
Congress and the Administration should work together to 
integrate the provisions of the Girls Count Act (P.L. 114-24) 
into foreign assistance programs for China and seek 
collaborative technical assistance and capacity-building 
projects with inter-governmental organizations that increase 
property and inheritance rights for girls, ensure official 
registration for all of China's boys and girls, protect women 
and their families from the coercive aspects of China's 
population control policies, and retrain officials who engaged 
in population control and coercive family planning efforts.
    <bullet> Human Trafficking and Forced Labor. The 
Administration should ensure that existing laws and policies 
intended to prevent U.S. Government procurement of goods made 
with forced labor, prison labor, or child labor are applied to 
goods imported from China. Congress and the Administration 
should consider whether additional legislation or other 
measures are needed to remove obstacles to effective 
enforcement of U.S. laws, such as requiring businesses to 
publicly report on their efforts and policies to prevent human 
trafficking in their supply chains or by offering procurement 
contracts only to businesses that can certify that they have 
inspected their supply chains and made significant efforts to 
prevent human trafficking. Congress and the Administration 
should work together to ensure that the U.S. Department of 
State's Office To Monitor and Combat Trafficking in Persons and 
the U.S. Department of Labor's Bureau of International Labor 
Affairs have sufficient resources and status within their 
departments to effectively combat modern-day slavery, and that 
the U.S. Department of State's Annual Trafficking in Persons 
Reports' ``Tier Rankings'' and country summaries accurately 
reflect current conditions.
    <bullet> Hong Kong. The Administration should continue to 
issue annually the report outlined in Section 301 of the United 
States-Hong Kong Policy Act of 1992. The Administration and 
Congress should work together to determine whether to 
reconsider some or all of the Hong Kong Policy Act's provisions 
allowing separate treatment for Hong Kong, particularly given 
the increasing role played by the central government in 
deciding Hong Kong's political development and the 
corresponding erosions in Hong Kong's autonomy and freedom of 
expression. Members of Congress should consider expressing 
support for Hong Kong democracy and human rights through 
resolutions, statements, and meetings at the highest levels 
during visits to both mainland China and Hong Kong. The 
Administration and Congress should press the Chinese government 
to permit individuals who peacefully participated in the Hong 
Kong pro-democracy demonstrations to travel freely to mainland 
China.
    <bullet> Internet Freedom. Congress and the Administration 
should support the expansion of programs that distribute 
technologies to help Chinese human rights advocates and civil 
society organizations circumvent Internet restrictions in 
China. Congress should expand Internet freedom programs at the 
U.S. Department of State and the Broadcasting Board of 
Governors (BBG) that fund non-governmental organizations and 
media outlets that promote the free flow of information and 
those that track, preserve, and recirculate media and Internet 
content produced within China that has been deleted by censors. 
Members of Congress should again urge the BBG to promptly use 
allocated Internet freedom funds to employ firewall 
circumvention technologies. The Administration should work 
through the WTO and its member states to encourage and enforce 
the elimination of China's barriers to freedom of information 
so as to facilitate market growth. With Internet freedom and an 
end to the censorship of cross-border news and information of 
critical interest to Chinese civil society, U.S. investors in 
Chinese stocks, and U.S. businesses operating in China, freedom 
of information ``deliverables'' should be incorporated into the 
U.S.-China Bilateral Investment Treaty and any future trade 
regime negotiated with China.
    <bullet> Ethnic Minorities. The Administration and Congress 
should work together to build cooperative exchanges with 
Chinese officials on ways to balance civil rights and national 
security, to differentiate between peaceful dissent and acts of 
violence, to protect human rights during ``anti-terrorism'' 
campaigns, and to understand how expanding protections for the 
freedom of religion can promote stability and be an effective 
antidote to extremism. The Administration should consider 
raising issues of human rights alongside security and stability 
in China's ethnic minority regions at bilateral security and 
counterterrorism dialogues and in any bilateral or multilateral 
discussions with Chinese military or policy officials. Congress 
should make sure that U.S. counterterrorism cooperation 
arrangements do not endorse or support the Chinese government's 
suppression of Chinese citizens, including Uyghurs, Tibetans, 
and other ethnic minorities. The Administration and Congress 
should work together to press for unrestricted access to ethnic 
minority regions and to facilitate implementation of the 
Tibetan Policy Act of 2002, including establishing a diplomatic 
office in Lhasa, the capital of the Tibet Autonomous Region, 
encouraging development projects that comply with the Tibet 
Project Principles, and urging renewed dialogue between 
representatives of the Chinese government and the Dalai Lama's 
representatives.
    <bullet> Press Freedom. The Administration should consider 
giving greater priority to the problems of censorship and 
limited press freedom in China and link these issues to U.S. 
economic interests. Restrictions on the free flow of news and 
information should be treated as trade barriers affecting 
foreign media companies attempting to access the Chinese market 
and investors seeking uncensored information about China's 
political and business climate. The Office of the U.S. Trade 
Representative should ensure that protection for investing in 
news agency services and online media is included as part of 
the negotiations for the Bilateral Investment Treaty. The 
Administration and Congress should also work together on 
legislation or other measures to further protect U.S. and other 
foreign journalists in China, including by considering the 
possibility of limiting the number of visas allowed to 
executives or administrative personnel from Chinese state-owned 
media enterprises operating in the United States.
    <bullet> Commercial Rule of Law. The Administration and 
Congress should ensure that the Chinese government makes 
concrete improvements in the policies outlined in this report 
that violate China's existing international trade obligations 
as a condition for progress in any U.S. trade-related 
negotiations with China. Congress and the Administration should 
consider opposing the inclusion of the yuan as a reserve 
currency by the International Monetary Fund until the Chinese 
government ends Internet censorship and restrictions on the 
media that violate China's international obligations to protect 
the freedom of expression. Congress should consider requesting 
updated briefings and/or a one-time report on the U.S.-China 
Strategic and Economic Dialogue (S&ED) and the U.S.-China Joint 
Commission on Commerce and Trade (JCCT) in order to examine the 
effectiveness of these dialogues in achieving and fulfilling 
significant commitments on U.S. priorities in the bilateral 
relationship.
    <bullet> Engaging in Multilateral Action. The 
Administration should continue to raise pertinent human rights 
issues in multilateral institutions where the United States and 
China are members and expand coordination efforts with other 
countries and international organizations on human rights 
dialogues and technical assistance, public statements, 
information about human rights perpetrators and visa bans, 
prisoner cases, and support for victims' families. Given the 
scope of this year's detentions and disappearances of human 
rights lawyers and defenders and the ongoing use of torture, 
especially against political prisoners, the Administration 
should consider, together with allies, introducing a resolution 
on China at the next session of the UN Human Rights Council. 
The Administration should also work with the United Nations to 
implement the Human Rights Upfront (HRuF) initiative in China 
to make sure that the protection of civilians is a core 
responsibility of UN officials, especially in anticipation of 
the 2022 Winter Olympic Games in Beijing and in light of the 
findings from the UN Commission of Inquiry on Human Rights in 
the Democratic People's Republic of Korea. In addition, the 
Administration should expand collaboration on efforts to 
encourage Chinese engagement with UN special rapporteurs and 
other special procedures, and to end the Chinese government's 
reprisals against human rights defenders trying to access UN 
human rights mechanisms.
    <bullet> Training Programs. Congress should continue to 
support efforts by the Administration to encourage genuine 
democratic governance and rule of law in China and improve the 
well-being of Chinese citizens through capacity-building 
programs for non-governmental organizations (NGOs) and a wide 
range of exchanges. The Administration should look for creative 
ways to continue existing aid and grant programs despite the 
Chinese government's efforts to further suppress international 
and domestic civil society, and should work with foreign NGOs 
and other countries on a unified approach to China's draft PRC 
Overseas NGO Management Law and other security legislation 
drafted or enacted in the past year. The Administration and 
Congress should look to expand technical assistance and 
capacity-building programs where Chinese officials have made 
recent commitments, such as efforts to curb torture and 
wrongful convictions.
    <bullet> North Korean Refugees. The Administration should 
prioritize implementation of key recommendations of the UN 
Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea (UN COI), including by urging China 
to protect asylum seekers, immediately halt its practice of 
forcibly repatriating people to North Korea, and provide the 
office of the UN High Commissioner for Refugees complete and 
unfettered access to North Korean refugees. Congress and the 
Administration should work together to fully implement the 
bipartisan North Korean Human Rights Act and to determine if 
additional legislation or other measures are needed to end what 
the UN COI characterized as ``systematic, widespread and gross 
human rights violations'' in North Korea.
    Congress and the Administration should work with China, 
South Korea, and the United Nations to establish multilateral 
``First Asylum'' arrangements for North Korean refugees, as was 
done for the Vietnamese boat people in the late 1970s. 
Arrangements should be negotiated with countries in the region 
to provide temporary asylum to North Korean refugees with the 
assurance that they will be permanently resettled elsewhere.
    <bullet> Individual Political Prisoner Cases. In meetings 
with Chinese officials, the President, Cabinet Secretaries, 
other administration officials, and Congressional leaders 
should raise cases, both publicly and privately, of individual 
victims of religious or political repression. It is important 
that these discussions occur across the broad spectrum of U.S.-
China interactions. The Secretaries of Defense, Education, 
Commerce, Labor, Homeland Security, and other agencies also 
should raise cases during regular interactions with Chinese 
officials.
    U.S. Embassy and consular officials, including the 
Ambassador, should regularly seek visits with prominent 
prisoners, even if denied access, and should maintain contact 
with family members and associates of those unjustly detained 
or imprisoned. There is compelling evidence that even if case 
discussions do not immediately result in the end of repression 
or detention, conditions are often improved for individuals 
whose cases are raised, particularly if such cases are raised 
publicly.
    Members of Congress and the Administration are encouraged 
to consult the Commission's Political Prisoner Database for 
credible information on individual prisoners or groups of 
prisoners.

                 Specific Findings and Recommendations

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        the Chinese government and Communist Party continued to 
        restrict expression in contravention of international 
        human rights standards, including Article 19 of the 
        International Covenant on Civil and Political Rights 
        and Article 19 of the Universal Declaration of Human 
        Rights. While such standards permit states in limited 
        circumstances to restrict expression to protect 
        interests such as national security and public order, 
        official Chinese restrictions covered a broader range 
        of activity, including peaceful dissent and expression 
        critical of the government and Party.
        <bullet> Significant legislative developments with 
        potential implications for freedom of expression took 
        place in China during this reporting year, including 
        the passage of the PRC Counterespionage Law in November 
        2014, the PRC National Security Law in July 2015, and 
        the Ninth Amendment to the PRC Criminal Law in August. 
        Commentators raised concerns about the government and 
        Party's potential use of vaguely worded provisions in 
        these laws to restrict and jeopardize the right to 
        freedom of expression and the press, and the free flow 
        of information.
        <bullet> Chinese officials promoted national control of 
        the Internet, or ``Internet sovereignty'' (wangluo 
        zhuquan), in domestic legislation and international 
        standards for Internet governance. Draft cybersecurity 
        legislation advanced the principle that ``Internet 
        sovereignty is . . . an extension of national 
        sovereignty in cyberspace.''
        <bullet> Chinese authorities continued to use 
        provisions in the PRC Criminal Law to prosecute 
        citizens for exercising their right to freedom of 
        speech. Authorities targeted dozens of mainland 
        supporters of the fall 2014 pro-democracy protests in 
        Hong Kong, and detained many of them on suspicion of 
        ``picking quarrels and provoking trouble,'' Article 293 
        of the PRC Criminal Law. Representative cases included 
        poet Wang Zang, housing rights advocate Han Ying, 
        activist Xu Chongyang, and rights defender Song Ze. In 
        addition, authorities used the charge of ``illegal 
        business activity,'' Article 225, against individuals 
        who published unauthorized accounts of Chinese history 
        and other material that authorities deemed to be 
        politically sensitive. Cases reported on this past year 
        included Huang Zerong, Shen Yongping, Fu Zhibin, and 
        Wang Hanfei.
        <bullet> By late 2014, Chinese authorities reportedly 
        ``returned to using more explicitly political charges'' 
        against rights defenders and activists in contrast to 
        the frequent use of ``public order'' charges between 
        2012 and 2014. Representative cases involving charges 
        of ``inciting subversion of state power'' included 
        democracy activists Xie Wenfei and Wang Mo, and 
        bloggers Liang Qinhui, Zheng Jinxian, and Huang Qian. 
        Nobel Peace Prize laureate Liu Xiaobo remains in 
        prison, serving year 6 of an 11-year sentence on the 
        charge of ``inciting subversion of state power'' for 
        several of his essays and his co-authorship of Charter 
        08. Chinese public security authorities, moreover, 
        continued to hold his wife, poet and artist Liu Xia, 
        under extralegal detention at her home in Beijing 
        municipality.
        <bullet> In May 2015, the Beijing Municipal People's 
        Procuratorate indicted prominent public interest lawyer 
        Pu Zhiqiang on the charges of ``inciting ethnic 
        hatred'' and ``picking quarrels and provoking 
        trouble,'' based on several microblog posts Pu made 
        between 2011 and 2014 that either criticized the 
        Chinese government's ethnic policy in the Xinjiang 
        Uyghur Autonomous Region or mocked officials. 
        Authorities detained Pu amid a nationwide crackdown in 
        China prior to the 25th anniversary of the 1989 
        Tiananmen protests and their violent suppression.
        <bullet> The Chinese government continued to take steps 
        to expand the country's telecommunications 
        infrastructure and provide greater Internet access, 
        particularly to rural and less developed areas of 
        China. There reportedly were 649 million Internet users 
        in China at the end of December 2014, including 557 
        million who accessed the Internet from mobile devices.
        <bullet> In February 2015, the Cyberspace 
        Administration of China issued new user account name 
        regulations that some commentators believe will be a 
        more effective tool to monitor Internet users than 
        prior attempts at real-name registration.
        <bullet> The government and Party continued to control 
        the press in violation of international press standards 
        with censorship and propaganda instructions to limit 
        the scope of news content, by stifling reporting with 
        restrictive regulations, and by punishing journalists 
        and media personnel. In April 2015, the Beijing No. 3 
        Intermediate People's Court sentenced 71-year-old 
        journalist Gao Yu to seven years' imprisonment for 
        ``leaking state secrets.'' Official media reported 
        increased anticorruption investigations of staff 
        working at state-run and more market-oriented media 
        outlets.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Give greater public expression, including at the 
        highest levels of the U.S. Government, to the 
        importance of press freedom in China, condemning the 
        harassment and detention of both domestic and foreign 
        journalists; the denial, threat of denial, or delay of 
        visas for foreign journalists; and the censoring or 
        blockage of foreign media websites. Consistently link 
        press freedom to U.S. interests, noting how censorship 
        and restrictions on journalists and media websites 
        prevent the free flow of information on issues of 
        public concern--including public health and 
        environmental crises, food safety problems, and 
        corruption--and acts as a trade barrier for foreign 
        media and companies attempting to access the Chinese 
        market. Raise these issues with Chinese officials 
        during future rounds of the Strategic and Economic 
        Dialogue. Assess the extent to which China's treatment 
        of foreign journalists contravenes its WTO or other 
        obligations.
        <all> Sustain, and where appropriate expand, programs 
        that develop and distribute widely technologies that 
        will assist Chinese human rights advocates and civil 
        society organizations in circumventing Internet 
        restrictions, in order to access and share content 
        protected under international human rights standards. 
        Continue to maintain Internet freedom programs at the 
        U.S. Department of State and the Broadcasting Board of 
        Governors that provide digital security training and 
        capacity-building efforts for bloggers, journalists, 
        civil society organizations, and human rights and 
        Internet freedom activists in China.
        <all> Raise with Chinese officials, during all 
        appropriate bilateral discussions, the costs to U.S.-
        China relations and to the Chinese public's confidence 
        in government institutions that occur when the Chinese 
        government restricts political debate, advocacy for 
        democracy or human rights, and other forms of peaceful 
        political expression. Emphasize that such restrictions 
        exceed international standards for the restrictions on 
        free expression, particularly those contained in 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Article 19 of the Universal 
        Declaration of Human Rights. Emphasize that such 
        restrictions erode confidence in media and government 
        institutions. Submit questions for China's next 
        Universal Periodic Review asking China to explain what 
        steps it will take to ensure its restrictions on free 
        expression conform to international standards.
        <all> Urge Chinese officials to end unlawful detention 
        and official harassment of Chinese activists, lawyers, 
        and journalists for exercising their right to freedom 
        of expression. Call on officials to end the illegal 
        home confinement of individuals such as Liu Xia; and 
        release or confirm the release of individuals detained 
        or imprisoned for exercising freedom of expression, 
        such as Liu Xiaobo, Gao Yu, Pu Zhiqiang, Xie Wenfei, 
        and Wang Mo. Raise this issue in bilateral dialogues, 
        such as the U.S.-China Human Rights Dialogue, U.S.-
        China Legal Experts Dialogue, and Strategic and 
        Economic Dialogue, as well as through multilateral 
        institutions, such as China's Universal Periodic Review 
        and the UN Human Rights Council Working Group on 
        Arbitrary Detention.

                             Worker Rights

                                Findings

        <bullet> The Chinese government's laws and practices 
        continue to contravene international standards on 
        freedom of association. The right to freely associate 
        is identified as a fundamental labor right by the 
        International Labour Organization (ILO) and is 
        protected under international law, including the 
        Universal Declaration of Human Rights and the 
        International Covenant on Civil and Political Rights. 
        Yet, Chinese workers are not free to form or join trade 
        unions of their own choosing. The All-China Federation 
        of Trade Unions remains the only trade union 
        organization allowed under Chinese law.
        <bullet> Collective bargaining in China remains deeply 
        flawed due to structural limitations of trade unions in 
        representing workers. Many enterprise-level trade 
        unions remain subject to undue influence by employers, 
        while higher-level trade unions continue to be 
        subordinate to the interests of national and provincial 
        Chinese Communist Party and government authorities.
        <bullet> Throughout the 2015 reporting year, labor non-
        governmental organizations (NGOs) and independent labor 
        rights activists reported facing increased harassment 
        and intimidation. Of particular concern, labor 
        activists have increasingly become the target of 
        violent attacks by unidentified assailants. In one such 
        case, a group of unidentified men abducted labor 
        activist Peng Jiayong in April 2015 outside a police 
        station in Guangdong province and severely beat him.
        <bullet> Child labor continues to be a problem in China 
        despite the existence of legal measures prohibiting its 
        practice. Systemic problems in enforcement of the law 
        continue to facilitate the employment of children. 
        Reports of child labor continued in 2015, including 
        reports on the death of a 13-year-old in November 2014 
        at a shoe factory in Guangdong.
        <bullet> Vocational school and college students engaged 
        in work-study programs continue to be subject to 
        hazardous working conditions that did not meet minimum 
        Chinese standards for labor protections, and in some 
        circumstances constitute forced labor. Estimates 
        indicate that 10 million vocational school students 
        participate in internships each year in China.
        <bullet> Chinese workers, particularly migrant workers, 
        continue to face significant challenges obtaining 
        social insurance benefits. The failure of employers to 
        purchase insurance for workers or provide regular 
        insurance contributions remains widespread. Labor 
        experts have raised concerns over a lack of pension 
        insurance, particularly as an estimated 40 million 
        migrant workers over the age of 50 approach retirement. 
        Throughout the reporting year, these older workers were 
        at the forefront of protests demanding insurance 
        payments.
        <bullet> Although disposable income and absolute wage 
        levels reportedly have increased, the growth in wage 
        levels has slowed in recent years. A comparison of 
        minimum wage growth between 2011 and 2015 shows that 
        the rate of growth declined over the past five years. 
        At the same time, income inequality between industrial 
        sectors and groups of workers has been increasing.
        <bullet> Wage arrears and the nonpayment of wages 
        remain significant problems, particularly for migrant 
        workers. Chinese officials cited wage arrears as a 
        primary factor prompting labor-related conflict in the 
        reporting year, and labor experts predict the problem 
        could become worse as economic growth continues to 
        slow. Use of violence by law enforcement, security 
        personnel, and criminal syndicates to suppress worker-
        led wage arrears protests was also common. One NGO 
        documented 63 cases between February 2014 and January 
        2015 in which authorities used violence to suppress 
        workers protesting over wage arrears, including the 
        reported deaths of four workers.
        <bullet> Workers in China continue to be exposed to a 
        variety of occupational health and safety risks, due in 
        part to weak regulation and enforcement of health and 
        safety standards. Despite a measurable decrease in 
        recent years in the number of officially reported 
        workplace accidents and fatalities, Chinese officials 
        indicate substantial occupational hazards persist and 
        industrial accidents and deaths remain too high.
        <bullet> Some employers also frequently ignore 
        mandatory health and safety standards and take actions 
        that put the health and safety of workers at risk. 
        Significant safety violations observed in the past 
        reporting year included excessive overtime, unsafe 
        working conditions, and a lack of safety training.
        <bullet> Occupational disease remains a significant and 
        growing problem in China. Experts indicate that around 
        36 percent of workers in China are exposed to hazards 
        in the workplace and that occupational hazards overall 
        are increasing. Research published in April 2015 found 
        that the number of people suffering from occupational 
        diseases in China, as well as the cumulative number of 
        new cases and disease-related deaths, ranked among the 
        highest in the world. Cases of the lung disease 
        pneumoconiosis remain particularly high, with experts 
        indicating 10,000 new cases are recorded on average 
        each year and account for between 80 and 90 percent of 
        all occupational disease cases in China.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to respect 
        international rights to freedom of association and 
        collective bargaining, and allow workers to organize 
        and establish labor unions. Urge the Chinese government 
        to enable workers to elect their union representatives 
        democratically.
        <all> Convey support in all appropriate bilateral 
        dialogues for functioning collective bargaining and 
        direct elections of trade union representatives, 
        emphasizing the benefits that increased worker 
        representation has for resolving workplace grievances 
        and preventing wildcat strikes.
        <all> Support ongoing cooperation between the U.S. 
        Department of Labor and the China National Coal 
        Association by increasing work on and funding for 
        technical cooperation and exchange projects regarding 
        industry regulatory compliance, worker representation 
        at coal mines, and safety and health improvements.
        <all> Engage Chinese government interest through all 
        appropriate bilateral discussions for establishing a 
        multistakeholder initiative between the U.S. and 
        Chinese governments, multinational corporations, and 
        relevant civil society organizations, providing a set 
        of principles to address the challenges of child labor 
        and its root causes, particularly poverty and the low 
        quality of education in rural areas.
        <all> Encourage Chinese officials through all 
        appropriate bilateral discussions to publish detailed 
        statistical data on child labor and information on 
        measures taken to prevent the employment of children 
        under the age of 16.
        <all> Seek opportunities to support capacity-building 
        programs to strengthen Chinese labor and legal aid 
        organizations involved in defending the rights of 
        workers. Encourage Chinese officials at local levels to 
        develop, maintain, and deepen relationships with labor 
        organizations and businesses inside and outside of 
        China, and to invite these groups to increase the 
        number of training programs in China.
        <all> Support China's increased engagement and 
        cooperation with the International Labour Organization 
        (ILO) through select funding for ILO technical 
        cooperation projects with China. Request that the ILO 
        increase its work with China on observing core labor 
        standards including freedom of association and the 
        right to organize.
        <all> Support and provide adequate resources for the 
        exchange programs between the U.S. Department of Labor 
        and China's State Administration of Work Safety on 
        understanding and promoting active participation by 
        businesses, workers, and NGOs in efforts to promote a 
        safety culture--the shared beliefs, practices, and 
        attitudes of an establishment that encourage everyone 
        to feel responsible for workplace safety. Encourage 
        meaningful exchanges between Chinese and U.S. 
        professional organizations, such as those between 
        China's National Center for International Cooperation 
        on Work Safety and the American Industrial Hygiene 
        Association.

                            Criminal Justice

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        implementation of certain criminal justice reforms 
        remained constrained in a political climate that 
        emphasized perpetuating one-party rule at the expense 
        of individual freedoms.
        <bullet> Despite the abolition of the extrajudicial 
        reeducation through labor system at the end of 2013, 
        the Chinese government continued to use an array of 
        other extrajudicial measures including 
        ``administrative'' or otherwise non-criminal detention, 
        disciplinary actions by the Chinese Communist Party 
        against its own members, and other actions without 
        adequate legal support. These measures are often 
        arbitrary in nature according to the definition of 
        arbitrary detention put forth by the UN Working Group 
        on Arbitrary Detention in that they restrict personal 
        liberty as severely, if not more, than some sanctions 
        allowed by the PRC Criminal Law, and lack sufficient 
        judicial procedures.
        <bullet> China prepared a draft PRC Counterterrorism 
        Law and adopted revisions to the PRC Criminal Law 
        regarding the punishments for ``terrorism'' and 
        ``extremism.''
        <bullet> The Chinese government continued to bring 
        criminal charges against government critics and rights 
        advocates such as public interest lawyer Pu Zhiqiang 
        (charged with ``picking quarrels and provoking 
        trouble'' and ``inciting ethnic hatred''), democracy 
        advocate Liu Jiacai (charged with ``inciting subversion 
        of state power''), documentary filmmaker Shen Yongping 
        (convicted of ``illegal business activity''), and civil 
        society advocate Guo Yushan (charged with ``illegal 
        business activity'').
        <bullet> Authorities publicly supported the rights of 
        criminal suspects to meet with their lawyers, yet the 
        Commission did not observe full implementation of 
        provisions in the PRC Criminal Procedure Law regarding 
        access to counsel. Criminal provisions on inducing 
        witnesses to change their testimony have created a 
        chilling effect among defense lawyers, which is 
        exacerbated by a new revision to the PRC Criminal Law 
        targeting lawyers that criminalizes ``insulting, 
        defaming, or threatening a judicial officer'' and 
        ``engaging in other acts that seriously disrupt the 
        order of the court.''
        <bullet> The Commission observed continued reports of 
        wrongful convictions as well as the use of torture and 
        coercive tactics short of torture to obtain 
        confessions. For example, in December 2014, the Inner 
        Mongolia Autonomous Region High People's Court 
        overturned the April 1996 wrongful guilty verdict for 
        rape and murder that resulted in the swift execution of 
        18-year-old ethnic Mongol Huugjilt. The announcement in 
        early 2015 that the Chinese government would end quotas 
        for ``arrests, indictments, guilty verdicts and case 
        conclusions'' could positively impact the incentive 
        structure for police, prosecutors, and judges, if fully 
        implemented, by reducing pressure to extract 
        confessions.
        <bullet> Authorities expressed heightened concern over 
        the procedures for granting clemency and parole. 
        Various government agencies involved in the criminal 
        justice process called for greater transparency in the 
        way penal institutions are run, with the Supreme 
        People's Procuratorate announcing in March 2015 that 
        252 officials were punished in 2014 for ``illegally 
        granting parole or shortening prison terms.''
        <bullet> The annual number of executions in China 
        remained a state secret, with indications that the 
        number stayed relatively steady for 2014. In keeping 
        with the overall trend of curbing executions, the 
        Chinese government reduced the number of capital crimes 
        from 55 to 46. Judicial authorities also issued new 
        measures that detailed how judges should take defense 
        lawyers' opinions into account during the review of 
        death sentences.
        <bullet> In late 2014, the Chinese government vowed to 
        stop using executed prisoners as a source of transplant 
        organs, though it remained unclear how quickly 
        authorities would follow through on this pledge.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to publicly commit 
        to a specific timetable for ratification of the 
        International Covenant on Civil and Political Rights 
        (ICCPR), which the Chinese government signed in 1998 
        but has not yet ratified.
        <all> Urge Chinese officials to end all forms of 
        extrajudicial detention--such as ``custody and 
        education,'' compulsory drug treatment, and extralegal 
        home confinement--that are imposed without meeting the 
        standards for a fair trial as set forth in the ICCPR 
        and other international human rights instruments.
        <all> Raise with Chinese officials, during all 
        appropriate bilateral discussions, individual cases 
        where the investigation of allegedly criminal activity 
        has been used to target government critics and rights 
        advocates, including the ongoing treatment as criminal 
        suspects of five women's rights advocates detained in 
        March 2015 for peaceful acts connected to their 
        advocacy against sexual harassment.
        <all> Publicly convey support for human rights 
        advocates who have been deprived of liberty on 
        unsubstantiated criminal charges, as in the prominent 
        example of public interest lawyer Pu Zhiqiang.
        <all> Raise concerns regarding the draft PRC 
        Counterterrorism Law and recently adopted revisions to 
        the PRC Criminal Law regarding the punishments for 
        ``terrorism'' and ``extremism'' that threaten to 
        criminalize activities falling within the freedoms of 
        expression and religion that are protected under 
        international human rights norms.
        <all> As part of the 2015 review of China's compliance 
        with the UN Convention against Torture and Other Cruel, 
        Inhuman or Degrading Treatment or Punishment by the UN 
        Committee against Torture, draw attention to ongoing 
        issues with the conditions under which suspects 
        confess. Further encourage China to extend invitations 
        to all UN special rapporteurs who have requested to 
        visit China, and cooperate with other UN special 
        procedures.
        <all> Stress to the Chinese government the need for 
        greater transparency in the number and circumstances of 
        executions, and urge China to further limit the crimes 
        for which the death penalty is available.
        <all> Continue, and where appropriate, expand support 
        for programs involving U.S. entities engaging with 
        reform-minded Chinese organizations and individuals 
        (both within and outside the government) in hopes of 
        drawing on comparative experience to improve the 
        criminal justice process. For example, the experience 
        of the United States and other jurisdictions can inform 
        China as it charts a path toward reducing reliance on 
        confessions, enhancing the role of witnesses at trials, 
        and creating more reliable procedures for reviewing 
        death penalty cases.

                          Freedom of Religion

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        the Chinese government and Communist Party continued to 
        restrict freedom of religion in China. China's 
        Constitution guarantees ``freedom of religious belief'' 
        but limits protection of religious activities to 
        ``normal religious activities,'' a narrow protection 
        that contravenes international human rights standards 
        such as Article 18 of the Universal Declaration of 
        Human Rights. The Chinese government continued to 
        recognize only five religions: Buddhism, Catholicism, 
        Islam, Protestantism, and Taoism. Authorities required 
        groups wishing to practice these religions to register 
        with the government and subject themselves to 
        government controls. Registered and unregistered 
        religious groups deemed to run afoul of state-set 
        parameters continued to face harassment, detention, 
        imprisonment, and other abuses, and the government 
        continued to outlaw some religious and spiritual 
        communities, including Falun Gong.
        <bullet> The government and Party continued to call on 
        officials and religious groups to ensure that religious 
        doctrine and practices served government and Party 
        goals. Officials called for a strengthening of the role 
        of laws and regulations in governing religious 
        practices, property, and sites of worship.
        <bullet> Authorities continued to take steps designed 
        to ensure that Buddhist doctrine and practices in non-
        Tibetan areas of China conformed to government and 
        Party policy. Authorities continued to take steps to 
        bring registered and unregistered Buddhist monasteries 
        under stricter government and Party control.
        <bullet> The government and Party continued to harass, 
        detain, or hold incommunicado Catholics who practiced 
        their religion outside of state-approved parameters. In 
        January 2015, authorities told relatives of Shi 
        Enxiang, an unregistered bishop whom authorities 
        detained in 2001, that Shi had died in custody. 
        Authorities later said this information was incorrect, 
        and Shi's current status is unclear. Talks between 
        Chinese and Holy See authorities regarding China's 
        state-controlled system of bishop appointments did not 
        result in an agreement, leaving in place the system in 
        which state-controlled organizations can select and 
        ordain bishops without approval from the Holy See.
        <bullet> The government and Party continued a 
        campaign--initiated in 1999--of extensive, systematic, 
        and in some cases violent efforts to pressure Falun 
        Gong practitioners to renounce their belief in and 
        practice of Falun Gong. Authorities also continued to 
        harass and detain family members, lawyers, and others 
        who had contact or were affiliated with Falun Gong 
        practitioners. Examples from this past year include 
        Bian Xiaohui--daughter of imprisoned Falun Gong 
        practitioner Bian Lichao--and Falun Gong practitioner 
        Chen Yinghua.
        <bullet> The government and Party continued to call for 
        Muslims in China to practice Islam in conformity with 
        government and Party goals, including attending state-
        controlled Hajj pilgrimages. Authorities in the 
        Xinjiang Uyghur Autonomous Region (XUAR) continued to 
        enforce measures directed at ``terrorism'' and 
        ``religious extremism'' that had the effect of 
        restricting peaceful religious practices. For example, 
        authorities in Urumqi municipality, XUAR, banned the 
        wearing of full facial or body coverings in public, and 
        authorities in Hotan prefecture, XUAR, ordered local 
        shopkeepers to sell alcohol and cigarettes.
        <bullet> Authorities continued to restrict freedom of 
        religion for Protestants in China, including by 
        harassing and detaining Protestants from registered and 
        unregistered churches who worshipped outside of state-
        approved parameters. Authorities interfered with 
        Christmas activities in multiple locations, including 
        by detaining members of the Langzhong house church for 
        an ``illegal gathering'' in Sichuan province. 
        Authorities in Zhejiang province continued to target 
        Protestant churches for demolition or cross removal as 
        part of a systematic campaign.
        <bullet> Authorities from the State Administration for 
        Religious Affairs ``guided'' preparations for the 
        Chinese Taoist Association Ninth National Conference. 
        Authorities carried out campaigns that distinguished 
        registered Taoist temples from unregistered Taoist 
        temples by publicly hanging placards on registered 
        temples.
        <bullet> Despite lacking formal central government 
        recognition, some religious communities have been able 
        to operate inside China. Chinese officials and 
        authorities from the Moscow Patriarchate agreed to the 
        ordination of an Eastern Orthodox priest.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to guarantee to 
        all citizens freedom of religion in accordance with 
        Article 18 of the Universal Declaration of Human Rights 
        and to remove its framework for recognizing only select 
        religious communities for limited state protections. 
        Stress to Chinese authorities that freedom of religion 
        includes the right to freely adopt and practice 
        religious beliefs, and that China's limited protections 
        for ``normal religious activities'' do not meet 
        international standards.
        <all> Stress to the Chinese government that the right 
        to freedom of religion includes, but is not limited to: 
        The right of Buddhists to carry out activities in 
        temples and select monastic teachers independent of 
        state controls over religion; the right of Catholics to 
        recognize the authority of the Holy See in matters 
        relating to the practice of their faith, including to 
        make bishop appointments; the right of Falun Gong 
        practitioners to freely practice Falun Gong inside 
        China; the right of Muslims to engage in preaching, 
        overseas pilgrimage, the selection and training of 
        religious leaders, and the wearing of clothing with 
        religious significance; the right of Protestants to 
        worship free from state controls over doctrine and 
        worship, and free from harassment, detention, and other 
        abuses for public and private manifestations of their 
        faith, including the display of crosses; and the right 
        of Taoists to interpret their teachings and carry out 
        activities in temples independent of state controls 
        over religion.
        <all> Call for the release of Chinese citizens 
        confined, detained, or imprisoned for peacefully 
        pursuing their religious beliefs, as well as people 
        confined, detained, or imprisoned in connection to 
        their association with those people. Such prisoners 
        include: Bishop Ma Daqin, who has been under extralegal 
        confinement since July 2012 for renouncing his 
        affiliation with the Chinese Catholic Patriotic 
        Association; Bian Xiaohui, daughter of imprisoned Falun 
        Gong practitioner Bian Lichao; Zhang Shaojie, pastor of 
        an officially sanctioned church in Nanle county, Henan 
        province, sentenced to 12 years' imprisonment in 
        connection to a church land dispute with the local 
        government; and other prisoners mentioned in this 
        report and in the Commission's Political Prisoner 
        Database.
        <all> Call on the Chinese government to fully implement 
        accepted recommendations from its October 2013 UN 
        Universal Periodic Review, including: taking necessary 
        measures to ensure that rights to freedom of religion, 
        religious culture, and expression are fully observed 
        and protected; cooperating with the UN human rights 
        system, specifically UN special procedures and mandate 
        holders; facilitating visits for UN High Commissioners 
        to China, and cooperating with UN special procedures; 
        taking steps to ensure lawyers working to advance 
        religious rights can practice their profession freely 
        and promptly investigating allegations of violence and 
        intimidation impeding their work; and considering 
        possible revisions to legislation and administrative 
        restrictions to provide better protection of freedom of 
        religion.
        <all> Call on China to eliminate criminal and 
        administrative penalties that target religious and 
        spiritual movements, which have been used to punish 
        Chinese citizens for exercising their right to freedom 
        of religion. Specifically, call on China to abolish 
        Article 300 of the PRC Criminal Law, which criminalizes 
        ``organizing and using a cult to undermine 
        implementation of the law,'' and Article 27 of the PRC 
        Public Security Administration Punishment Law, which 
        stipulates detention or fines for organizing or 
        inciting others to engage in ``cult'' activities and 
        for using ``cults'' or the ``guise of religion'' to 
        disturb social order or to harm others' health.
        <all> Encourage U.S. political leaders to visit 
        religious sites in China to raise awareness and promote 
        freedom of religion, in keeping with international 
        human rights standards.

                         Ethnic Minority Rights

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        central government officials emphasized the importance 
        of ``ethnic unity'' and a shared national identity over 
        ethnic identity and religious beliefs. Reports from the 
        past year noted the concern of scholars and others 
        regarding the impact that official policies carried out 
        in the name of ``ethnic unity'' may have on ethnic 
        minority populations' cultural and religious 
        identities.
        <bullet> Central and regional officials developed 
        counterterrorism measures that some international 
        observers said increased the possibility of official 
        abuses and human rights violations against ethnic 
        minority groups. For instance, in January 2015, Human 
        Rights Watch stated that the draft of the country's 
        first counterterrorism legislation, made public for 
        consultation in November 2014, would ``establish a 
        counterterrorism structure with enormous discretionary 
        powers, [and] define terrorism and terrorist activities 
        so broadly as to easily include peaceful dissent or 
        criticism of the government or the Communist Party's 
        ethnic and religious policies . . . .''
        <bullet> Inner Mongolia Autonomous Region (IMAR) 
        officials continued to detain and beat Mongol herders 
        who protested against state and private exploitation of 
        their traditional grazing lands and resulting 
        environmental degradation. In addition, authorities 
        reportedly restricted independent reporting on herders' 
        protests and pollution-related grievances by harassing 
        journalists and threatening herders.
        <bullet> In December 2014, authorities released Mongol 
        rights advocate Hada (who served a 15-year prison 
        sentence, ending in 2010, after pursuing activities to 
        promote Mongols' rights and democracy) from extralegal 
        detention, but froze his bank account and restricted 
        his movements and freedom of speech. Authorities also 
        restricted the movements of Hada's son Uiles.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Continue to build the capacity of Mongol, Uyghur, 
        and Tibetan groups working to advance human rights, 
        environmental protection, economic development, and 
        rule of law in China through U.S. foreign assistance 
        funding and by encouraging additional support from both 
        UN and non-governmental sources.
        <all> Convey to the Chinese government the importance 
        of respecting and protecting ethnic minority cultures 
        and languages. In accordance with the PRC Regional 
        Ethnic Autonomy Law, urge Chinese officials to provide 
        ethnic minority students and parents a choice of what 
        language or languages of instruction should be used at 
        schools they attend.
        <all> Urge Chinese officials to meet with the UN 
        Special Rapporteur on the Promotion and Protection of 
        Human Rights and Fundamental Freedoms While Countering 
        Terrorism, in addition to other international experts 
        on human rights and security, in order to find ways to 
        ensure security and guard against terrorism without 
        violating the rights of ethnic minority groups.
        <all> Call on the Chinese government to allow Mongol 
        herders to exercise their fundamental rights of freedom 
        of expression, association, and peaceful assembly, as 
        well as the right to be free from arbitrary detention.
        <all> Call on Chinese officials to refrain from 
        detaining, harassing, and otherwise pressuring 
        journalists seeking to report on herders' protests, 
        herders' pollution-related grievances, or the situation 
        of rights advocates such as Hada in the IMAR.
        <all> Urge Chinese authorities to end restrictions on 
        the freedom of movement and other unlawful restrictions 
        against Hada and his son Uiles. The Universal 
        Declaration of Human Rights grants ``everyone . . . the 
        right to freedom of movement and residence within the 
        borders of each state.''

                           Population Control

                                Findings

        <bullet> The PRC Population and Family Planning Law is 
        inconsistent with standards set forth in international 
        agreements, including the 1995 Beijing Declaration and 
        the 1994 Programme of Action of the Cairo International 
        Conference on Population and Development. Controls 
        imposed on Chinese women and their families, and 
        additional abuses engendered by the system, including 
        forced abortion and discriminatory policies against 
        ``out-of-plan'' children, also violate standards set 
        forth in the Convention on the Rights of the Child and 
        the International Covenant on Economic, Social and 
        Cultural Rights. China is a State Party to these 
        treaties and has committed to upholding their terms.
        <bullet> In November 2013, the Chinese government 
        announced a slight modification of China's population 
        planning policy, allowing couples to bear a second 
        child if one parent is an only child (dandu erhai 
        policy). As of November 2014, all 31 provincial-level 
        jurisdictions in China had amended population and 
        family planning regulations in accordance with the new 
        policy.
        <bullet> Government statistics revealed the limited 
        impact of the policy revision during its first year of 
        implementation in 2014. The National Health and Family 
        Planning Commission (NHFPC) had predicted that the 
        policy would result in approximately two million 
        additional births per year. As of December 2014, 
        however, roughly 1.07 million out of 11 million 
        eligible couples nationwide (less than 10 percent) had 
        applied to have a second child, and only 470,000 
        additional children were born in 2014 as a result of 
        the policy, significantly less than the 2 million 
        additional births the NHFPC had predicted.
        <bullet> Despite looming demographic challenges and 
        calls from domestic and international experts for the 
        cancellation of the one-child policy, NHFPC officials 
        downplayed these concerns and insisted that ``currently 
        there are no plans to suspend or further relax the one-
        child policy.'' During the annual meetings of the 
        National People's Congress and Chinese People's 
        Political Consultative Conference in March 2015, 
        however, Premier Li Keqiang commented that the 
        government was conducting comprehensive reviews of the 
        implementation of the policy revision, fueling 
        speculation that central government authorities were 
        considering further changes to family planning 
        policies.
        <bullet> This past year, government authorities also 
        took measures to implement reforms to the 
        ``reproductive services permit'' (shengyu fuwu zheng) 
        system, commonly known as the ``birth permit'' 
        (zhunsheng zheng) system. Under the planned reform, 
        localities are to shift to a ``first-child 
        registration'' (yihai dengji) system, whereby married 
        couples register their first child and obtain a 
        ``reproductive services permit'' without going through 
        a complicated approval or application process. An 
        approval process, however, is still in place for 
        couples who intend to have a second child, but local 
        family planning authorities are to promote 
        standardization and simplification of that process. As 
        of July 2015, 25 provinces and provincial-level 
        municipalities have implemented the ``first-child 
        registration'' system.
        <bullet> Chinese law prohibits official infringement 
        upon the rights and interests of citizens while 
        implementing population planning policies but does not 
        define what constitutes a citizen's right or interest. 
        Provincial population planning regulations in many 
        provinces explicitly instruct officials to implement 
        abortions for ``out-of-plan'' pregnancies, often 
        referred to as a ``remedial measure'' (bujiu cuoshi), 
        with no apparent requirement for parents' consent.
        <bullet> Chinese government officials continued to 
        implement coercive family planning policies that 
        interfere with and control the reproductive lives of 
        Chinese citizens, especially women. Officials employed 
        various methods to enforce family planning policies and 
        punish violators, including levying heavy fines, 
        withholding social benefits and permits, job 
        termination, forced sterilization, and arbitrary 
        detention.
        <bullet> Authorities in some localities denied birth 
        permits and household registration (hukou) to children 
        whose parents violated local family planning 
        requirements. People who lack hukou in China face 
        considerable difficulty accessing social benefits 
        compared to registered citizens.
        <bullet> The Chinese government's population planning 
        policies continue to exacerbate the country's 
        demographic challenges, which include an aging 
        population, diminishing workforce, and sex ratio 
        imbalance.
        <bullet> This past year, reports continued to suggest a 
        link between China's large number of ``surplus males'' 
        and the trafficking of foreign women into China for 
        forced marriage or commercial sexual exploitation. 
        Reports also indicate that the Chinese government's 
        population planning policies have contributed to 
        illegal adoptions, as a traditional preference for sons 
        combined with birth limits is thought to encourage a 
        black market for adoptions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Press Chinese government officials to reevaluate 
        the PRC Population and Family Planning Law and bring it 
        into conformance with international standards set forth 
        in international agreements, including the 1995 Beijing 
        Declaration, the 1994 Programme of Action of the Cairo 
        International Conference on Population and Development, 
        the Convention on the Rights of the Child, and the 
        International Covenant on Economic, Social and Cultural 
        Rights.
        <all> Call on China's central and local governments to 
        vigorously enforce provisions of Chinese law that 
        provide for punishment of officials and other 
        individuals who violate the rights of citizens when 
        implementing population planning policies, and to 
        clearly define what these rights entail. Urge the 
        Chinese government to establish penalties, including 
        specific criminal and financial penalties, for 
        officials and individuals found to have committed 
        abuses such as coercive abortion and coercive 
        sterilization.
        <all> Support the development of international 
        cooperation and legal aid and training programs that 
        help citizens pursue compensation under the PRC State 
        Compensation Law and that help citizens pursue other 
        remedies from the government for injuries suffered as a 
        result of official abuse related to China's population 
        planning policies.
        <all> Urge Chinese authorities to heed the 
        recommendations of the UN Committee on the Rights of 
        the Child to ``reform family planning policies in order 
        to remove all forms of penalties and practices that 
        deter parents or guardians from registering their 
        children'' and ``abandon the hukou system in order to 
        ensure birth registration for all children.''
        <all> In bilateral meetings with Chinese government 
        officials, highlight the looming demographic challenges 
        currently facing China--including a rapidly aging 
        population, shrinking workforce, and sex ratio 
        imbalance. Urge the Chinese government to take the 
        recent policy modification further, abolishing all 
        birth restrictions on families, and instead to employ a 
        human rights-based approach by providing freedom to 
        build their families as they see fit and privacy for 
        all citizens, especially women.
        <all> Publicly link, with supporting evidence, the sex 
        ratio imbalance exacerbated by China's population 
        planning policies with potential regional humanitarian 
        and security concerns--trafficking, crime, increased 
        internal and external migration, and other possible 
        serious social, economic, and political problems--and 
        discuss these issues in bilateral dialogues.
        <all> Urge the Chinese government to take note of South 
        Korea's success in normalizing its sex ratio by 
        aggressively taking concrete steps to elevate the 
        status of daughters and women's rights, particularly in 
        terms of access to education and inheritance, marriage, 
        and property rights.

                   Freedom of Residence and Movement

                                Findings

        <bullet> The Chinese government largely continued to 
        enforce the household registration (hukou) system 
        established in 1958. This system limits the right of 
        Chinese citizens to freely determine their place of 
        residence. The hukou system classifies Chinese citizens 
        as either rural or urban and confers legal rights and 
        access to social services based on that classification. 
        The implementation of hukou  regulations discriminates 
        against rural hukou holders, including those who 
        migrate to urban areas, by denying them equal access to 
        social benefits and public services enjoyed by 
        registered urban residents. The hukou system conflicts 
        with international human rights standards guaranteeing 
        freedom to choose one's residence and prohibiting 
        discrimination on the basis of ``national or social 
        origin[,] . . . birth or other status.''
        <bullet> The Chinese central government took steps 
        toward establishing a nationwide system of residence 
        permits that would, in theory, give migrants and their 
        families the same resident status as local residents 
        after meeting certain criteria, affording them greater 
        access to public benefits. The State Council released 
        draft measures for residence permit systems in December 
        2014, setting the conditions migrants must meet in 
        order to apply for local resident status. These 
        conditions vary depending on the size of the locality, 
        with larger cities allowed to retain heavier 
        restrictions on migrants. The conditions include 
        requirements on length of residence, employment, and 
        educational attainment, among others, some of which are 
        reportedly difficult for many migrant workers to meet.
        <bullet> Hukou system reforms in the past year did not 
        remove the link between resident status and the 
        provision of social benefits, including public 
        education, health care, public housing, and pensions. 
        Local governments reportedly sought to restrict 
        migrants in part to avoid the financial pressure of 
        providing these benefits.
        <bullet> Chinese authorities continued to deny Chinese 
        citizens who criticize the government their 
        internationally recognized right to leave the country. 
        Uyghurs and Tibetans continued to face substantial 
        restrictions on leaving China, including in obtaining 
        passports. The Chinese government continued to deny the 
        right to enter China to those expressing views the 
        government perceives as threatening, in violation of 
        international standards.
        <bullet> Chinese authorities continued to violate the 
        internationally recognized right which provides that 
        ``[e]veryone lawfully within the territory of a State 
        shall . . . have the right to liberty of movement . . . 
        .'' As the Commission has observed in previous years, 
        authorities heightened restrictions on freedom of 
        movement during politically sensitive periods. 
        Prominent cases of Chinese citizens suffering 
        restrictions on their freedom of movement included 
        rights lawyer Gao Zhisheng, whom authorities held in 
        extralegal detention, even after his release from 
        prison, and prevented from leaving China to join his 
        family; and Mongol rights advocate Hada, whom 
        authorities prevented from leaving Hohhot municipality, 
        Inner Mongolia Autonomous Region, to seek medical 
        treatment abroad for injuries suffered under torture in 
        prison.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on Chinese authorities to accelerate reforms 
        to the hukou system, focusing on fully opening 
        migration to major cities where migrants can more 
        easily seek economic opportunity; relaxing conditions 
        on obtaining local resident status to allow migrant 
        workers and their families to more easily access public 
        benefits and services; and implementing laws and 
        regulations to provide equal treatment to all Chinese 
        citizens, regardless of place of birth or residence.
        <all> Support programs, organizations, and exchanges 
        with Chinese policymakers and academic institutions 
        engaged in research and outreach to migrants, in order 
        to advance legal assistance and anti-discrimination 
        programs for migrants and their families and encourage 
        policy debates on the hukou system.
        <all> Emphasize in meetings with Chinese government 
        officials that the Chinese government's noncompliance 
        with international standards on freedom of movement and 
        travel negatively affects confidence in the Chinese 
        government's commitment to broader international 
        standards. Call on the Chinese central government to 
        combat local authorities' arbitrary and discriminatory 
        restrictions on the ability of Uyghurs and Tibetans in 
        particular to move freely inside China. Urge the 
        Chinese central government to apply uniform passport 
        application procedures nationwide and to end 
        discriminatory passport application procedures in areas 
        with significant Uyghur and Tibetan populations.
        <all> Raise specifically Chinese authorities' 
        restrictions on the freedom of movement and the right 
        to leave the country of rights defenders, advocates, 
        government critics, and their families and associates, 
        including, among others: Gao Zhisheng, a prominent 
        rights lawyer; Mongol rights advocate Hada; HIV/AIDS 
        activist Wang Qiuyun; rights lawyer Sui Muqing; and Bao 
        Zhuoxuan, 16-year-old son of detained lawyers Wang Yu 
        and Bao Longjun.

                            Status of Women

                                Findings

        <bullet> For the first time, mainland Chinese non-
        governmental organizations (NGOs) submitted reports to 
        the UN Committee on the Elimination of Discrimination 
        against Women (Committee) for its October 2014 review 
        of China's compliance with the Convention on the 
        Elimination of All Forms of Discrimination against 
        Women (CEDAW). The Chinese government reportedly did 
        not allow domestic NGOs to submit reports for prior 
        Committee reviews. The government reportedly censored 
        some of the groups' reports, however, and prevented at 
        least two women from participating in international 
        women's rights forums, including the CEDAW review.
        <bullet> On March 6 and 7, 2015, police detained 10 
        women in three major Chinese cities who planned to 
        raise awareness of sexual harassment on public 
        transportation by distributing stickers and pamphlets 
        on March 8, International Women's Day. After five of 
        the women were released, police from Beijing 
        municipality criminally detained the remaining five on 
        suspicion of ``picking quarrels and provoking 
        trouble.'' Authorities released the five women on bail 
        after 37 days, and their freedom remained curtailed. 
        While observers noted surprise at the detentions--the 
        government had previously tolerated some advocacy on 
        women's issues--they also viewed the detentions as part 
        of a broader crackdown on civil society.
        <bullet> Women's labor force participation is 
        relatively high, but women continue to face 
        discrimination in hiring, a growing pay gap, and 
        underrepresentation in management positions. During the 
        Commission's 2015 reporting year, Chinese courts heard 
        at least two lawsuits for gender-based discrimination 
        in hiring. Domestic and international media also 
        reported cases of employers pressuring women to sign 
        ``no pregnancy'' agreements as part of employment 
        contracts and pushing pregnant women to resign in order 
        to avoid paying maternity benefits.
        <bullet> In November 2014, the State Council issued a 
        draft PRC Anti-Domestic Violence Law for public 
        comment, following over a decade of advocacy both 
        within government and by civil society. Chinese 
        domestic violence experts and women's rights advocates 
        described the draft law as ``significant'' and a 
        ``milestone.'' Many advocates and lawyers recommended 
        expanding the law's definition of domestic violence and 
        removing a requirement that restraining orders must be 
        part of a civil suit. The National People's Congress 
        Standing Committee issued a revised draft in September 
        2015 that no longer linked restraining orders to civil 
        suits but removed psychological abuse from the 
        definition of domestic violence.
        <bullet> In April 2015, the Sichuan Province High 
        People's Court issued a suspended death sentence in the 
        high-profile retrial of Li Yan, who killed her husband 
        in 2010 after enduring months of spousal abuse. Li is 
        now unlikely to face execution, but many Chinese 
        advocates still expressed disappointment with the 
        severity of the sentence.
        <bullet> This past year, Chinese and international NGOs 
        and the UN Committee to Eliminate Violence against 
        Women voiced concern over arbitrary detention and 
        violence against women in ``black jails'' and ``custody 
        and education'' facilities.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Publicly and privately urge the Chinese 
        government to drop all charges against the five women's 
        rights advocates whom authorities criminally detained 
        prior to International Women's Day on March 6 and 7, 
        2015.
        <all> Support Chinese civil society groups and 
        exchanges among Chinese and international non-
        governmental organizations (NGOs) that focus on 
        securing Chinese women's land and property rights, 
        increasing women's political participation, and 
        combating violence against women, sexual harassment, 
        and gender-based employment discrimination.
        <all> Facilitate and support legal training for and 
        domestic and international exchanges among judges, 
        lawyers, anti-domestic violence advocates, law 
        enforcement, and the government-affiliated All-China 
        Women's Federation in order to share ideas and best 
        practices for implementing, if passed, the PRC Anti-
        Domestic Violence Law, specifically with regard to 
        police intervention techniques, the issuing of 
        restraining orders, and the handling of domestic 
        violence cases in the courts.
        <all> Encourage and facilitate international dialogues 
        to discuss the complex cultural and political factors 
        that create sex ratio imbalances in China and 
        elsewhere, with the goal of reversing such imbalances 
        and raising the status of women.
        <all> Support international exchanges among 
        policymakers, legal advocates, academics, NGOs, and the 
        private sector that focus on gender-based employment 
        and education discrimination and sexual harassment in 
        the workplace.

                           Human Trafficking

                                Findings

        <bullet> China remains a country of origin and 
        destination for the trafficking of men, women, and 
        children for the purposes of forced labor, sexual 
        exploitation, and forced marriage. Many groups remain 
        at risk, including migrant workers and their children, 
        people with disabilities, North Korean refugees in 
        China, and Uyghurs fleeing China through Southeast 
        Asia.
        <bullet> Chinese and Southeast Asian governments, non-
        governmental organizations (NGOs), and the United 
        Nations report that cross-border trafficking for forced 
        marriage and sexual exploitation appears to be 
        increasing. During the Commission's 2015 reporting 
        year, reports emerged of Burmese, Cambodian, and 
        Vietnamese women being trafficked into China for forced 
        marriage.
        <bullet> China's ongoing human trafficking problem 
        stems from a variety of factors, including domestic 
        socio-economic factors and poverty and regional 
        instability. China's sex ratio imbalance--exacerbated 
        by government-imposed birth limits and in keeping with 
        a traditional bias toward sons--has created a demand 
        for marriageable women and may contribute to human 
        trafficking for forced marriage and sexual 
        exploitation.
        <bullet> In August 2015, the National People's Congress 
        Standing Committee issued the Ninth Amendment to the 
        PRC Criminal Law, effective November 1, 2015, that 
        included a change to Article 241. Based on the current 
        version of Article 241, buyers of trafficked women and 
        children can avoid criminal liability if they have not 
        harmed or prevented authorities from rescuing the 
        victim. The amended law provides that buyers face 
        criminal liability, although they may still receive a 
        lighter or reduced punishment.
        <bullet> Following the abolition of reeducation through 
        labor (RTL) in 2013, authorities have reportedly 
        continued the use of other forms of administrative 
        detention, including ``custody and education'' 
        facilities and compulsory drug detoxification centers, 
        where detainees perform forced labor. At a press 
        conference in November 2014, the vice minister of 
        China's Ministry of Justice said that the ``vast 
        majority'' of China's RTL facilities had been converted 
        to compulsory drug detoxification centers.
        <bullet> The PRC Criminal Law prohibits trafficking, 
        but China's domestic legislation remains inconsistent 
        with standards set forth in the UN Protocol to Prevent, 
        Suppress and Punish Trafficking in Persons, Especially 
        Women and Children. For example, the current definition 
        of trafficking under Chinese law does not clearly cover 
        offenses against male victims, and conflates illegal 
        adoptions with human trafficking.
        <bullet> Hong Kong is a transit point and destination 
        for human trafficking. Migrant domestic workers in Hong 
        Kong are particularly vulnerable to exploitation and 
        abuse. The UN Committee on the Elimination of 
        Discrimination against Women and domestic and 
        international NGOs expressed concern that Hong Kong's 
        laws do not adequately address human trafficking, as 
        the definition of human trafficking in Hong Kong's 
        Crimes Ordinance covers only the transboundary movement 
        of persons ``for the purpose of prostitution,'' not 
        forced labor.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Incorporate language into bilateral and 
        multilateral trade and investment agreements requiring 
        member countries to take concrete steps toward 
        eliminating human trafficking and the use of forced 
        labor within their borders.
        <all> Support and facilitate international exchanges 
        among civil society groups and industry associations to 
        raise awareness of best practices for identifying and 
        combating human trafficking in supply chains.
        <all> Support exchanges and training programs for 
        police departments in mainland China and Hong Kong that 
        focus on best practices for identifying and assisting 
        trafficking victims; pursue cooperation on anti-
        trafficking efforts through the U.S.-China Joint 
        Liaison Group on Law Enforcement Cooperation; and 
        provide support to non-governmental organizations 
        working on anti-human trafficking education and 
        victims' services both in China and throughout Asia.
        <all> Encourage and engage in continued regional 
        cooperation to combat human trafficking through 
        multilateral agreements and meetings such as the 
        Coordinated Mekong Ministerial Initiative Against 
        Trafficking (COMMIT), Asia-Pacific Economic Cooperation 
        (APEC), and the East Asia Summit.
        <all> Urge the Chinese government to abide by its 
        commitments under the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children and to bring anti-trafficking legislation into 
        alignment with international standards, specifically 
        with regard to China's legal definition of human 
        trafficking.

                     North Korean Refugees in China

                                Findings

        <bullet> Throughout the Commission's 2015 reporting 
        year, the Chinese government continued to detain and 
        repatriate North Korean refugees to the Democratic 
        People's Republic of Korea (DPRK), in violation of its 
        obligations under international human rights and 
        refugee law.
        <bullet> Heightened security and instability along the 
        China-North Korea and China-Southeast Asia borders 
        increased the dangers for North Korean refugees fleeing 
        the DPRK. The number of refugees who reached South 
        Korea decreased from 1,514 in 2013 to 1,397 in 2014, 
        reflecting a trend that has seen a significant drop in 
        the number of refugees entering South Korea since 2011.
        <bullet> North Korean women who enter China illegally 
        remain particularly vulnerable to human trafficking. 
        Estimates suggest between 70 and 90 percent of them 
        become victims of human trafficking for the purposes of 
        forced marriage or sexual exploitation.
        <bullet> Many children born to Chinese fathers and 
        North Korean mothers remain deprived of basic rights to 
        education and other public services owing to a lack of 
        legal resident status in China, contravening China's 
        obligations under international law, including the 
        Convention on the Rights of the Child and the 
        International Covenant on Economic, Social and Cultural 
        Rights.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Use public sanctions against Chinese government 
        agencies and individuals involved in the repatriation 
        of North Korean refugees, and press for increased 
        international monitoring of and accountability for 
        China's treatment of refugees.
        <all> Call on the Chinese government to allow the 
        United Nations High Commissioner for Refugees 
        unhindered access to North Korean refugees residing in 
        China.
        <all> Raise China's treatment of North Korean refugees 
        in bilateral dialogues with China, and in ongoing 
        discussions with China and other nations on 
        denuclearization of the Korean Peninsula.
        <all> Urge Chinese officials to abide by their 
        obligations under international law, including the UN 
        Protocol to Prevent, Suppress and Punish Trafficking in 
        Persons, Especially Women and Children and the 
        Convention on the Elimination of All Forms of 
        Discrimination against Women, to prosecute human 
        traffickers operating in China and along the China-
        North Korea border.
        <all> Urge Chinese officials to recognize the legal 
        status of North Korean women who marry or have children 
        with Chinese citizens, and ensure that all such 
        children are granted resident status and access to 
        education and other public services.

                             Public Health

                                Findings

        <bullet> The prevalence of infectious disease continued 
        to be a public health concern in China, yet increasing 
        rates of non-communicable diseases, such as diabetes, 
        chronic kidney disease, and mental health conditions, 
        pose challenges to Chinese policymakers and government 
        officials.
        <bullet> Although the Chinese government announced it 
        would cease harvesting organs from executed prisoners 
        for organ transplantation and move to a voluntary 
        donation system on January 1, 2015, international 
        medical professionals and human rights organizations 
        remained highly skeptical of the ``voluntary'' nature 
        of a system that allows death row prisoners to donate.
        <bullet> Human rights organizations reported that 
        Chinese authorities continued to forcibly commit 
        individuals without mental illness, including those 
        with ``grievances against officials'' and ``government 
        critics,'' to psychiatric facilities, even though 
        provisions in the PRC Mental Health Law (MHL) prohibit 
        such abuses. Involuntary commitment admissions and 
        discharge procedures in the MHL do not fully comply 
        with international legal standards.
        <bullet> On a positive note, the Chinese government at 
        central and local levels made efforts to strengthen 
        implementation of the MHL. In November 2014, Shanghai 
        municipality updated mental health regulations from 
        2001, thus issuing the first local mental health 
        regulations since the MHL took effect in 2013.
        <bullet> During the Commission's 2015 reporting year, 
        the Chinese government and Communist Party harassed 
        non-governmental organizations (NGOs) and individuals 
        engaged in public health advocacy. In March 2015, 
        public security officials from Beijing municipality 
        raided the Beijing Yirenping Center, an anti-
        discrimination public health group.
        <bullet> The Chinese government and media outlets 
        reported on cases of employment discrimination against 
        persons with health-based conditions, in spite of 
        provisions in national laws and regulations that 
        prohibit such discrimination. Physical eligibility 
        requirements continued to be a basis for denying 
        employment to persons with HIV/AIDS and other health 
        conditions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to put in place 
        mechanisms to strengthen legislation, regulation, and 
        oversight of organ donation and transplantation 
        activities.
        <all> Call on the Chinese government to strengthen 
        implementation of the PRC Mental Health Law (MHL) and 
        stop forcibly committing petitioners and others without 
        mental illness to psychiatric facilities. Urge the 
        Chinese government to establish an independent panel 
        made up of legal and medical professionals from both 
        within and outside of the government to monitor and 
        report on implementation of the MHL, particularly in 
        the use of involuntary commitment and treatment, and in 
        accessing legal remedies in the courts.
        <all> Call on the Chinese government to cease harassing 
        NGOs and individuals who advocate for greater rights 
        protections for individuals with health conditions 
        mentioned in this report and in the Commission's 
        Political Prisoner Database.
        <all> Urge Chinese officials to focus attention on 
        effective implementation of laws and regulations that 
        prohibit health-based discrimination in access to 
        employment and education, including revision of the 
        national physical eligibility standards for civil 
        servants and teachers that discriminate against persons 
        with health-related conditions. Where appropriate, 
        share the United States' ongoing experience and efforts 
        through legal, regulatory, and non-governmental means 
        to promote the rights of persons with disabilities in 
        education and employment.

                            The Environment

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        reports noted widespread and severe environmental 
        challenges confronting China, as well as the potential 
        effects of pollution on citizens' health. Environmental 
        authorities acknowledged that relocation of polluting 
        enterprises to less developed areas--known as dirty 
        migration--and inadequate environmental protection in 
        rural villages remain problematic, leaving rural 
        residents more vulnerable to the effects of pollution.
        <bullet> Amid serious environmental challenges, Chinese 
        citizens have become more environmentally aware and 
        concerned about pollution. In 2015, over 200 million 
        viewers watched an online documentary on air pollution, 
        ``Under the Dome,'' by Chinese journalist Chai Jing.
        <bullet> In response to rising awareness, central 
        authorities have promoted the ``healthy development'' 
        and standardization of public participation in 
        environmental affairs. Channels of participation, 
        however, are underdeveloped.
        <bullet> During this reporting year, authorities in 
        some locations attempted to silence environmental 
        advocates. In one example, local authorities continued 
        to monitor, restrict the movements of, and interfere 
        with the livelihood of environmentalist Wu Lihong, a 
        long-term advocate of cleaning up pollution in Lake Tai 
        in Jiangsu province.
        <bullet> The number of environmental protests has 
        increased annually by 29 percent on average since 1996, 
        and pollution problems remain among the primary 
        triggers of environmentally focused mass incidents. 
        Throughout this reporting year, many citizen anti-
        pollution protests in multiple provinces and autonomous 
        regions were marked by censorship and ended in violent 
        suppression by authorities. During many of these 
        protests, authorities detained individuals, but the 
        status of most of these individuals remained unclear as 
        of August 2015.
        <bullet> Reports highlighted China's progress in 
        building an environmental court system. As of March 
        2015, there were 382 environmental courts of various 
        types. The number of environment and natural resources 
        offenses and civil lawsuits adjudicated nationwide 
        reportedly increased in 2014 compared to 2013. In 
        general, however, the trend has been that courts hear a 
        low number of environmental cases.
        <bullet> News reports also highlighted problems 
        affecting environmental litigation processes and 
        barriers to utilizing the courts to resolve 
        environmental grievances, including local government 
        interference and official pressure on citizens not to 
        file environmental lawsuits.
        <bullet> Authorities continued to establish a legal 
        framework to make it easier for environmental 
        organizations to file environmental public interest 
        lawsuits under certain circumstances. Despite this 
        progress, reports noted that the number of such 
        lawsuits in the courts has not met expectations and 
        that numerous challenges to environmental public 
        interest litigation remain. For example, relatively few 
        environmental non-governmental organizations (NGOs) 
        have the capacity or willingness to file such lawsuits.
        <bullet> The Chinese Communist Party signaled its 
        support for strengthening rule of law and legal 
        enforcement in the environmental sector within the 
        context of concerns over social stability and building 
        an ``ecological civilization'' as part of achieving the 
        ``Chinese dream.'' Some sources noted positive 
        developments in enforcement of environmental laws, but 
        overall, enforcement remains lax. Official 
        accountability mechanisms remained underdeveloped and 
        implementation problems persisted, hindering the 
        development of the rule of law in the sector. In 
        addition, corruption remained a problem within the 
        environmental protection apparatus and noncompliance 
        with environmental laws and regulations remained 
        common.
        <bullet> Throughout this reporting year, central 
        authorities continued to build China's environmental 
        regulatory framework, but gaps remain. In addition, 
        Chinese media highlighted new measures intended to 
        improve government transparency in the environmental 
        sector, but official censorship persisted and citizens 
        continued to face obstacles in accessing environmental 
        information from government agencies.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Continue U.S.-China technical and legal 
        collaboration in the environmental protection sector, 
        including the U.S.-China EcoPartnership projects and 
        the U.S.-China Ten-Year Framework for Cooperation on 
        Energy and Environment. Add collaborative programs 
        focusing on improving transparency, reducing soil 
        contamination, and improving government accountability, 
        as well as programs to address environmental health 
        issues and promote environmental justice. Encourage 
        collaborative programs that include participation by 
        independent Chinese environmental NGOs. Support efforts 
        to assist China in training judges to handle 
        environmental court cases.
        <all> Urge Chinese authorities to fully implement 
        provisions providing for public participation in 
        environmental policy and project decisions. Support 
        programs intended to improve the scientific, technical, 
        legal, and operational capacity of Chinese 
        environmental NGOs, including programs that assist NGOs 
        in taking full advantage of opportunities to file 
        environmental public interest lawsuits and submit open 
        government information requests.
        <all> Support efforts by Chinese and U.S. groups 
        working to expand awareness of citizens' environmental 
        rights in China and the protection of those rights. 
        Include environmental law and transparency issues in 
        the bilateral human rights and legal expert dialogues. 
        Include discussion of human rights dimensions of 
        climate change in the U.S.-China Climate Change Working 
        Group.
        <all> Support programs that improve environmental 
        information disclosure in China. Share U.S. Government 
        experiences with the Toxics Release Inventory Program 
        and other U.S. programs that seek to provide more 
        environmental transparency. Continue U.S. Government 
        engagement with relevant individuals and organizations 
        in developing China's capacity to reliably measure, 
        report, publicize, and verify carbon emissions 
        reduction strategies and techniques. In future U.S.-
        China Strategic and Economic Dialogue meetings, expand 
        upon previous discussions regarding environmental 
        transparency and greenhouse gas data reliability and 
        transparency.

                             Civil Society

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        the Chinese central government narrowed the already 
        restricted space within which non-governmental 
        organizations (NGOs) are allowed to work. Authorities 
        targeted some NGOs and their staff throughout the past 
        year, including Liren Rural Library, the Transition 
        Institute, and the Beijing Yirenping Center. Liren and 
        Transition Institute closed, and current or former 
        employees from all three NGOs were detained.
        <bullet> The government's crackdown on NGOs and civil 
        society networks has intensified, reportedly making the 
        climate for civil society one of the worst in recent 
        years. The international human rights NGO Chinese Human 
        Rights Defenders reported that in 2014 authorities 
        arbitrarily detained nearly as many rights defenders as 
        in 2012 and 2013 combined.
        <bullet> The regulatory environment for independent 
        Chinese NGOs continues to be challenging for NGOs to 
        navigate. Since the Chinese government restricts the 
        growth of civil society organizations, independent NGOs 
        are often forced to remain unregistered or to register 
        as businesses, leaving them at risk of prosecution. In 
        May 2015, Chinese Communist Party authorities 
        reportedly decided to strengthen requirements to 
        establish Party groups ``in social, economic and 
        cultural organizations.'' An international law expert 
        observed that authorities encouraged NGOs to form 
        internal Party groups in previous Party-building 
        efforts, but under a new directive, such Party groups 
        are mandatory.
        <bullet> In December 2014, the Ministry of Finance and 
        other government agencies issued interim measures on 
        government service procurement. The measures predicate 
        funding on an organization's registration status and 
        allow quasi-governmental organizations to compete for 
        service bids. Chinese commentators observed that the 
        participation of quasi-governmental organizations may 
        exclude independent NGOs.
        <bullet> International media and Chinese scholarly 
        estimates of unregistered NGOs ranged from 1.2 million 
        to 8 million, yet few met the criteria of being 
        ``voluntary, private, non-profit, and self-governing.'' 
        In a 2014 report, one Chinese NGO counted 6,000 to 
        7,000 ``weak and scattered'' grassroots NGOs. A 2014 
        study reportedly found that the number of independent 
        NGOs shrank over the last seven years, attributing the 
        decrease to the difficulty of obtaining funding.
        <bullet> The Chinese government has not released draft 
        revisions, originally slated for 2013, to three 
        regulations that Chinese officials say are key to the 
        current legal framework for NGOs. In March 2015, a 
        National People's Congress deputy requested that the 
        government finish revising the regulations soon, saying 
        that NGOs ``have operated de facto without laws'' since 
        2013.
        <bullet> In May 2015, the National People's Congress 
        Standing Committee issued the second draft of the PRC 
        Overseas NGO Management Law. International human rights 
        groups and Chinese observers asserted that the 
        potential loss of international funding under the law 
        is likely to set back independent Chinese NGOs, 
        especially those engaged in rights advocacy. Scholars 
        and advocates warned that universities and other 
        organizations could face significant hurdles in 
        conducting activities in China. Dozens of U.S. trade 
        and lobby groups predicted that the draft law, if 
        passed in its current form, would ``have a significant 
        adverse impact on the future of U.S.-China relations.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to hasten the 
        enactment or revision of legal provisions pertaining to 
        civil society that are consistent with China's 
        Constitution as well as China's international 
        obligations. Urge China to ratify the International 
        Covenant on Civil and Political Rights (ICCPR). Urge 
        the Chinese government to revise the draft PRC Overseas 
        NGO Management Law, the draft PRC Counterterrorism Law, 
        the PRC Counterespionage Law, and the PRC National 
        Security Law to reflect the principles of the ICCPR.
        <all> Call on the Chinese government to release 
        detained civil society advocates and cease harassment 
        of NGOs. Integrate civil society needs and issues into 
        bilateral discussions and policies, including U.S. 
        Government programs in China, such as aid to civil 
        society groups and legal exchanges.
        <all> Take measures to facilitate the participation of 
        Chinese civil society and NGO advocates in relevant 
        international conferences and forums, and support 
        international training to build their leadership 
        capacity in non-profit management and best practices, 
        public policy advocacy, strategic planning, and media 
        relations.
        <all> Encourage the Chinese government to establish a 
        fair and transparent framework for implementation and 
        regulation of government procurement of social services 
        from NGOs. Where appropriate, support civil society 
        leaders and advocates in visiting other WTO Agreement 
        on Government Procurement signatories to observe 
        government procurement of services from NGOs.

                 Institutions of Democratic Governance

                                Findings

        <bullet> During the Commission's 2015 reporting year, 
        the Chinese Communist Party sought to strengthen its 
        control over politics and society in order to maintain 
        its rule in China's authoritarian political system. 
        Central Party leaders stressed the objective of 
        enhancing Party leadership over non-governmental 
        organizations, businesses, government agencies, and 
        judicial and legislative institutions. The Party 
        reportedly aims to ``incentivize specific behaviors'' 
        by individuals and groups through a new ``social 
        credit'' system which some observers have likened to a 
        proxy for the legal system or labeled as another method 
        of social control. Party authorities expressed the 
        intention to use the law as a tool to impose the 
        Party's will.
        <bullet> Sources documented a ``hardening'' of 
        political discourse and a tightening of ideological 
        control, including an emphasis on ``ideological 
        security.'' Authorities issued edicts calling for 
        enforcement of prescribed Party ideological norms in 
        academia and requiring that ``Western-inspired liberal 
        ideas'' be purged from universities. Reports noted an 
        upswing in blaming overseas forces for China's domestic 
        problems and demonizing the West. The new PRC National 
        Security Law included ``cultural security'' as a 
        component of national security and calls for resistance 
        to the penetration of negative perspectives, such as 
        Western values that may be antagonistic to Chinese 
        ``core values.''
        <bullet> Sources asserted that human rights abuses in 
        China reportedly were ``at their worst since 1989.'' 
        Chinese authorities continued to harass, detain, and 
        impose prison sentences on democracy advocates who 
        exercised their rights to the freedoms of speech, 
        assembly, association, and demonstration, including 
        individuals who advocated for democracy in Hong Kong. 
        Some representative cases of detained democracy 
        advocates include Zhao Haitong, Chen Shuqing, Yao Lifa, 
        and Shen Yongping.
        <bullet> In the lead-up to the 26th anniversary of the 
        1989 Tiananmen protests and their violent suppression, 
        authorities questioned or held in custody, criminally 
        detained, sent on forced ``vacation,'' or harassed 
        individuals, including Chen Yunfei, for holding 
        memorial events for victims. Authorities also pursued 
        cases against people first detained in 2014, including 
        Pu Zhiqiang, Tang Jingling, Yu Shiwen, and Chen Wei.
        <bullet> During the reporting year, Chinese authorities 
        did not undertake any significant democratic political 
        reforms. Authorities pledged, however, to improve 
        existing ``socialist political democratic consultative 
        processes'' in order to strengthen Party leadership. 
        Central leaders also issued policies promoting 
        government ``administration according to law,'' 
        emphasizing the goals of strengthening legal 
        enforcement, improving the organization of government, 
        and bolstering administrative procedural systems of 
        law. Authorities called for the establishment of top-
        down systems whereby leaders and other responsible 
        parties will ``assume lifelong accountability for major 
        policy decisions.''
        <bullet> During this reporting period, Chinese leaders 
        continued to encourage elections at local levels, but 
        news reports highlighted problems with local village 
        committee elections in some locations, including 
        interference from officials, irregular election 
        procedures, silencing of candidates or election 
        winners, and physical violence. Chinese political 
        institutions remain out of compliance with the 
        standards defined in Article 25 of the International 
        Covenant on Civil and Political Rights (ICCPR), which 
        China has signed and declared an intention to ratify. 
        Chinese political institutions also remain out of 
        compliance with the standards set forth in Article 21 
        of the Universal Declaration of Human Rights.
        <bullet> Chinese authorities reiterated previous 
        pledges to improve ``open government affairs'' 
        (proactive government transparency), but transparency 
        and access to government data are still lacking. 
        Government implementation of the 2008 Open Government 
        Information Regulations remains problematic.
        <bullet> Widespread corruption continued to be a 
        serious challenge facing China. During the reporting 
        year, central authorities expanded and reorganized 
        anticorruption institutions and clarified the rights of 
        informants who provide tips on suspected corruption. 
        Chinese leaders' wide-reaching anticorruption campaign 
        continued snaring ``tigers'' and ``flies'' (high- and 
        low-level officials) including Zhou Yongkang, a former 
        member of the Standing Committee of the Political 
        Bureau of the Communist Party Central Committee and 
        head of the Party Central Committee Political and Legal 
        Affairs Commission, whom a Tianjin municipality court 
        sentenced to life imprisonment in a closed trial.
        <bullet> Despite the seriousness of anticorruption 
        efforts at the central level, preventing corruption 
        remains challenging. Questions regarding the political 
        motives behind those chosen for investigations, and 
        accounts of torture and unnatural deaths and 
        ``suicides'' of officials continued to surface. In 
        addition, some officials continued to suppress 
        anticorruption advocates.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support U.S. research programs that seek to 
        document and analyze the governing institutions and 
        ideological campaigns of the Chinese Communist Party, 
        as well as its influence over companies, government 
        agencies, and legislative, judicial, and non-
        governmental institutions.
        <all> Employ a whole-of-government approach to 
        encourage Chinese authorities to improve China's human 
        rights record, ratify the ICCPR, and release 
        individuals detained or imprisoned for exercising their 
        rights to the freedoms of speech, association, and 
        assembly. Those political prisoners may include those 
        who sought to hold memorials for victims of the violent 
        suppression of the 1989 Tiananmen protests, those who 
        have advocated for democratic reforms, those supporting 
        universal suffrage in Hong Kong, those engaged in 
        anticorruption advocacy, or other prisoners of 
        conscience mentioned in this report and in the 
        Commission's Political Prisoner Database.
        <all> Support joint U.S.-China cooperative programs to 
        develop independent village committee and people's 
        congress election monitoring systems and encourage 
        central and local Party and government leaders to 
        implement free and fair elections across China. 
        Continue to support democracy promotion and rule of law 
        programs that are adapted to China.
        <all> Support organizations working in China that seek 
        to work with local Chinese governments and non-
        governmental organizations to improve transparency, 
        especially efforts to expand and improve China's 
        government information disclosure initiatives. Urge 
        Chinese officials to further increase the transparency 
        of Party affairs.
        <all> Call on the Chinese government to expand upon 
        planned systems of government accountability to include 
        procedures whereby citizens may hold their officials 
        accountable. Urge Chinese officials to strengthen and 
        expand protections for corruption informants, 
        investigate irregularities associated with corruption-
        related detentions, and release detained anticorruption 
        advocates.

                         Commercial Rule of Law

                                Findings

        <bullet> In December 2001, China acceded to the World 
        Trade Organization (WTO), yet the Chinese government 
        continued to fail to meet many of its WTO commitments 
        regarding transparency and rule of law, such as 
        reducing subsidies and preferential treatment to state-
        owned enterprises (SOEs). During the Commission's 2015 
        reporting year, negotiations for a Bilateral Investment 
        Treaty (BIT) between China and the United States 
        continued. According to both countries, BIT principles 
        should include non-discrimination, fairness, openness, 
        and transparency. Developments during this reporting 
        year, moreover, highlighted significant concerns 
        regarding China's discrimination against foreign 
        companies, unfair enforcement, censorship, and problems 
        with a lack of transparency.
        <bullet> Developments during this reporting year raised 
        concerns about the Chinese government's commitment to 
        market-based reforms. State-owned enterprises (SOEs) 
        continued to play a major role in China's economy. In 
        the 2015 Fortune Global 500 list, 76 of 98 Chinese 
        companies included were SOEs. In July and August 2015, 
        the Chinese government made unprecedented interventions 
        in the stock market, and on August 11, 2015, the 
        Chinese government devalued the yuan by 1.9 percent, 
        the largest one-day depreciation in over 20 years.
        <bullet> Challenging China on its failure to comply 
        with its WTO commitments remained difficult. In 
        February 2015, the Office of the U.S. Trade 
        Representative (USTR) formally initiated a dispute 
        against China for the first time since September 2012, 
        challenging Chinese export subsidies that are part of 
        the ``Demonstration Bases-Common Service Platform.'' In 
        July 2015, a WTO compliance report found that China's 
        import duties on high-tech U.S. steel were inconsistent 
        with China's WTO commitments. China had first imposed 
        duties in April 2010. According to USTR, these duties 
        contributed to more than US$250 million in annual 
        export losses. In 2014, the U.S. trade deficit in goods 
        with China set a record of US$342.6 billion, an 
        increase of US$23.9 billion from 2013. In the 12-month 
        period from July 2014 through June 2015, U.S. goods 
        exports to China decreased by US$4.2 billion compared 
        to the previous 12-month period.
        <bullet> The Chinese government continued to censor the 
        Internet in a manner that negatively affected U.S. 
        businesses and violated China's WTO commitments. 
        Accessing accurate information on the economy and 
        commercial companies remained challenging. The U.S. 
        Securities and Exchange Commission and the Public 
        Company Accounting Oversight Board reportedly had 
        difficulties obtaining audit documents for China-based 
        companies listed on U.S. stock exchanges. As of October 
        2014, there were reportedly 548 China-based companies 
        traded on U.S. capital markets. In September 2014, the 
        Chinese e-commerce company Alibaba raised US$25 billion 
        on the New York Stock Exchange in the largest initial 
        public offering in history. In April 2015, American 
        geologist Xue Feng, whom authorities detained in 2007 
        on charges related to the purchase of a commercial 
        database, was released from a prison in Beijing 
        municipality.
        <bullet> U.S. companies in China expressed concerns 
        about government discrimination against foreign 
        companies and targeted enforcement of vague and 
        unwritten rules. In February 2015, Chinese authorities 
        fined U.S.-based chip manufacturer Qualcomm nearly US$1 
        billion and placed restrictions on its operations in 
        China for alleged anticompetitive activities. In 
        September 2014, Chinese authorities fined 
        GlaxoSmithKline nearly US$500 million for bribery-
        related charges.
        <bullet> In May 2015, the Chinese government published 
        a second draft of the PRC Overseas Non-Governmental 
        Organizations (NGO) Management Law that may restrict 
        foreign industry groups and civil society organizations 
        from operating in China. Forty-five U.S. business 
        groups reportedly submitted comments on the draft law 
        and recommended revisions, stating that non-profits 
        play an ``integral part'' in their operations.
        <bullet> In March 2015, the National Development and 
        Reform Commission and the Ministry of Commerce jointly 
        released a revised Foreign Investment Catalogue. The 
        National People's Congress also published draft 
        revisions to the PRC Foreign Investment Law that would 
        change the treatment of Variable-Interest Entities. 
        During this reporting year, the State Council also 
        announced plans to establish three new free trade 
        zones. In July 2015, the National People's Congress 
        passed a new PRC National Security Law, which may 
        negatively impact foreign investment in China.
        <bullet> Intellectual property theft and economic 
        espionage, including cyber espionage, originating in 
        China remained a significant concern. In 2014, 88 
        percent of counterfeit goods seized by U.S. Customs and 
        Border Protection were from China (63 percent) and Hong 
        Kong (25 percent). In May 2015, the U.S. Department of 
        Justice announced the indictment of six Chinese 
        nationals, including three Tianjin University 
        professors, for charges including economic espionage 
        and theft of trade secrets that may benefit Chinese 
        government-controlled companies and universities. In 
        July 2015, the U.S. Federal Bureau of Investigation 
        reported a 53-percent increase in economic espionage 
        cases under investigation from the past year, and 
        reported that its survey had found 95 percent of victim 
        companies suspected that the perpetrators were 
        associated with the Chinese government. During this 
        reporting year, China opened new intellectual property 
        courts in Beijing and Shanghai 
        municipalities, and Guangzhou municipality in Guangdong 
        province.
        <bullet> In April 2015, 57 countries, including the 
        United Kingdom, Germany, and France, were approved as 
        founding members of the Asian Infrastructure Investment 
        Bank. During this reporting year, the Chinese 
        government also announced additional details for the 
        New Development Bank with Brazil, Russia, India, and 
        South Africa; the Silk Road Economic Belt; and the 
        maritime Silk Road.
        <bullet> Food and drugs from China continued to be an 
        issue of concern in the United States. U.S. officials 
        had difficulty obtaining visas for inspections in 
        China, and foreign companies expressed concerns over 
        administrative enforcement actions and libel by Chinese 
        companies. In April 2015, the National People's 
        Congress revised the PRC Food Safety Law and the PRC 
        Advertising Law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Require and urge the Chinese government, during 
        Bilateral Investment Treaty (BIT) negotiations and 
        other forums, to stop blocking access to U.S. media and 
        technology companies in China, including the New York 
        Times, Bloomberg News, Google, Facebook, and Dropbox. 
        The Office of the U.S. Trade Representative should 
        ensure that protection for investing in news agency 
        services and online media and funding of trade 
        associations and non-profits in China is included in 
        the BIT.
        <all> Take further action in the WTO to ensure that 
        China fulfills its transparency obligations and 
        eliminates subsidies for Chinese state-owned 
        enterprises (SOEs). Request up-to-date and complete 
        notification of Chinese national and provincial 
        subsidies that benefit SOEs and discriminate against 
        U.S. investment.
        <all> Study ways to respond to China's increased 
        funding of international investment projects. The 
        United States should consider approving the December 
        2010 International Monetary Fund (IMF) reform measures 
        to increase IMF funding and representation of emerging 
        economies.
        <all> Provide additional support to U.S. companies 
        facing administrative enforcement actions in China and 
        litigating significant intellectual property cases, 
        including AMSC in its trade secrets litigation against 
        Sinovel involving over US$450 million in damages.
        <all> Increase reporting on intellectual property theft 
        and cyber espionage from China. The U.S. Department of 
        Justice should consider reporting intellectual property 
        cases involving Chinese companies and Chinese nationals 
        on an annual basis. The Director of National 
        Intelligence should consider assessing and reporting on 
        the vulnerability of U.S. telecommunications networks 
        to cyber espionage due to foreign suppliers of 
        information technology equipment, software, and 
        services.
        <all> The U.S. Securities and Exchange Commission 
        should require full access to corporate documents for 
        Chinese companies listed on U.S. stock exchanges, and 
        should raise improvements in corporate transparency in 
        discussions with Chinese officials.
        <all> Press for U.S. Government food and drug safety 
        inspection officials to obtain visas and conduct 
        unannounced inspections of Chinese facilities that are 
        exporting goods and products to the United States.

                           Access to Justice

                                Findings

        <bullet> In October 2014, at the Fourth Plenum of the 
        18th Party Congress Central Committee, central Party 
        authorities announced a number of reforms under the 
        slogan of ``advancing governance of the country 
        according to law.'' Despite the Chinese government and 
        Communist Party's emphasis on the importance of the 
        legal system, the Commission observed a persistent gap 
        between the rhetoric regarding the importance of laws 
        and the actual ability of citizens to use the legal 
        system to protect their rights.
        <bullet> In February 2015, the Supreme People's Court 
        (SPC) released its fourth five-year reform plan. The 
        plan called for establishing mechanisms to prevent 
        interference in judicial activities, but articles in 
        state- and Party-run Chinese media emphasized that the 
        Chinese government was not adopting a model of judicial 
        independence based on the United States or other 
        Western nations.
        <bullet> Despite Party statements on the importance of 
        China's Constitution and the Chinese government's 
        declaration that ``Constitution Day'' would be 
        commemorated on December 4, the ability of citizens to 
        invoke China's Constitution as a basis for challenging 
        government actions remains limited.
        <bullet> In March 2015, the SPC issued a white paper on 
        judicial transparency that called for greater access to 
        trials, increased use of electronic filing systems, and 
        expanded access to case decisions. The SPC released its 
        10th batch of ``guiding cases'' in April 2015 and in 
        June 2015 issued rules specifying how judges should 
        refer to guiding cases in subsequent cases.
        <bullet> On May 1, 2015, the first-ever amendment to 
        the PRC Administrative Litigation Law took effect. 
        Application of the law that was initially enacted 25 
        years ago was hindered by common barriers referred to 
        as the ``three difficulties'' (san nan): difficulties 
        in filing cases, trying cases, and enforcing judgments. 
        The Commission has not observed statistics establishing 
        whether the revised law has begun to address long-
        standing obstacles to administrative cases.
        <bullet> The basic legal framework for the petitioning 
        system--the 2005 Regulations on Letters and Visits--
        remained unchanged during the 2015 reporting year. The 
        Ministry of Justice, however, issued new measures on 
        how judicial and administrative agencies should handle 
        petitions, and the State Bureau for Letters and Visits 
        announced plans to consider drafting a petitioning law.
        <bullet> Citizens who engaged in causes that the 
        government and Party deemed politically sensitive 
        continued to face reprisals, as did the lawyers who 
        represented people seeking justice. Individual cases of 
        concern during the 2015 reporting year included lawyers 
        Pu Zhiqiang, Qu Zhenhong, Xia Lin, Tang Jingling, and 
        Yu Wensheng.
        <bullet> Beginning on July 9, 2015, Chinese authorities 
        took into custody more than 200 lawyers and rights 
        advocates within a 48-hour time period in what appeared 
        to be a nationwide, coordinated move against human 
        rights lawyers. Some of the cases of concern from the 
        crackdown are shown in the following table. Additional 
        details from these cases and others related to the 
        crackdown are available in the Commission's Political 
        Prisoner Database.


                 july 2015 crackdown: cases of concern
[GRAPHIC] [TIFF OMITTED] T6106.001

[GRAPHIC] [TIFF OMITTED] T6106.002

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Stress to the Chinese government the importance 
        of translating the policy of ``advancing governance of 
        the country according to law'' into concrete legal 
        reforms that improve citizens' access to justice. Such 
        reforms could include further changes to the procedures 
        that courts use when deciding whether to accept cases 
        and reducing Party interference in the courts' 
        decisionmaking.
        <all> Encourage expansion of the initial steps toward 
        greater transparency of the judicial system by, for 
        example, publishing all court decisions and further 
        clarifying how courts and litigants can use ``guiding 
        cases.''
        <all> Call on the Chinese government to implement 2015 
        revisions to the PRC Administrative Litigation Law in a 
        timely manner, to further expand avenues for citizens 
        to challenge government actions in court, and to 
        improve the legal framework for petitioning.
        <all> Urge the Chinese government to protect the 
        fundamental civil and professional rights of China's 
        lawyers, to investigate all allegations of abuse, and 
        to ensure that those responsible are brought to 
        justice.
        <all> Raise specifically the injustice of authorities' 
        treatment of public interest and human rights lawyers 
        Pu Zhiqiang, Qu Zhenhong, Xia Lin, Tang Jingling, and 
        Yu Wensheng as criminal suspects and, more broadly, 
        concerns about the crackdown on hundreds of lawyers and 
        rights advocates, including Wang Yu, Zhou Shifeng, and 
        Li Heping that began in July 2015.
        <all> Increase support for programs that promote 
        dialogue between U.S. and Chinese legal experts 
        regarding how China can structure and implement legal 
        reforms. Concomitantly increase support for 
        collaboration between U.S. and Chinese academic and 
        other non-governmental entities to foster programs that 
        enhance the Chinese legal system's potential to be a 
        vehicle for protecting citizens' rights.

                                Xinjiang

                                Findings

        <bullet> Violent clashes that took place during the 
        Commission's 2015 reporting year in the Xinjiang Uyghur 
        Autonomous Region (XUAR) and that likely involved 
        ethnic or political tensions led to more than 160 
        fatalities. International media and rights advocates 
        raised concerns about Chinese authorities' failure to 
        report information and attempts to suppress information 
        regarding deadly clashes involving Uyghurs.
        <bullet> Central lawmakers considered counterterrorism 
        legislation that human rights organizations and other 
        critics assert, if passed, would provide officials with 
        a pretext to commit human rights abuses in the name of 
        counterterrorism, including in the XUAR. An 
        international human rights organization cautioned that 
        language in the draft law could be used to carry out 
        rights abuses in the XUAR; for instance, under Article 
        24, minors' participation in religious activity could 
        be ``characterized as `terrorist or extremist 
        tendencies.' ''
        <bullet> In conjunction with security measures, 
        authorities launched activities aimed at eradicating 
        ``religious extremism,'' which international media and 
        other observers argued frequently targeted Uyghurs' 
        peaceful Islamic religious practices.
        <bullet> According to the XUAR annual work report on 
        the region's courts, XUAR authorities oversaw a 40-
        percent rise in concluded criminal trials in 2014 and 
        carried out nearly twice as many arrests as compared to 
        the previous year. The U.S.-based Dui Hua Foundation 
        stated that the increase in criminal trials indicated 
        ``heightened . . . suppression of human rights activism 
        and dissent in Xinjiang.''
        <bullet> In July 2015, Thai authorities forcibly 
        deported 109 Uyghurs to China, in spite of widespread 
        concern on the part of rights groups that Chinese 
        authorities would persecute them upon their return. 
        Chinese officials had reportedly pressured Thai 
        authorities to deport the Uyghurs. The U.S. State 
        Department, the United Nations High Commissioner for 
        Refugees, and some international rights groups 
        condemned the deportation, describing it as a violation 
        of international law and warning that Chinese 
        authorities were likely to subject them to harsh 
        treatment.
        <bullet> In December 2014, the Urumqi Intermediate 
        People's Court sentenced six Uyghurs and one member of 
        the Yi minority to prison terms ranging from three to 
        eight years on the charge of ``separatism,'' a crime 
        falling under the category of ``endangering state 
        security.'' The seven individuals had reportedly been 
        students of Uyghur scholar Ilham Tohti, and at least 
        some had contributed to the website Uyghur Online, 
        which Tohti founded. In September 2014, authorities 
        convicted Tohti of ``separatism'' and sentenced him to 
        life in prison.
        <bullet> In November 2014, the XUAR People's Congress 
        amended the XUAR Regulations on Religious Affairs 
        (RRA), which took effect on January 1, 2015. The RRA 
        were first passed in 1994 and last amended in 2001. The 
        newly-amended regulations broaden XUAR officials' 
        authority to limit religious practices, control online 
        expression, and restrict the wearing of beards or 
        attire perceived to have religious connotations.
        <bullet> In October 2014, XUAR authorities issued new 
        guidelines for the region's household registration 
        (hukou) system, relaxing restrictions on people 
        settling in southern parts of the XUAR but limiting 
        migration to the more developed northern cities of 
        Urumqi and Qaramay. Local officials reportedly said the 
        relaxation of guidelines was aimed at facilitating Han 
        Chinese migration to certain areas in the XUAR, and 
        that Uyghurs were less likely to qualify for hukou in 
        these areas under the guidelines. Regional authorities 
        promoted the plan, which facilitates migration to areas 
        predominantly populated by Uyghurs, as aimed at 
        boosting ``the establishment of mixed communities.''
        <bullet> In April 2015, authorities in Ili Kazakh 
        Autonomous Prefecture ordered residents to turn in 
        their passports to police by May 15 and said border 
        control officials would cancel passports that were not 
        turned in. In addition, reports indicated officials 
        continued to restrict Uyghurs' rights to stay in hotels 
        in areas outside of the XUAR.
        <bullet> Central and regional authorities continued to 
        focus on cultivating the XUAR as a central focus of 
        China's new Silk Road development strategy, promoting 
        extensive ``Silk Road'' projects for their ability to 
        simultaneously stimulate economic growth and ``maintain 
        stability'' in the region. Central and regional 
        authorities also continued to invest substantial funds 
        in the XUAR to extract coal and gas, as well as to 
        construct oil and gas pipelines and high-voltage 
        electricity lines to transport energy resources between 
        the XUAR and other parts of China and Central Asia. 
        Some observers expressed concern over the environmental 
        impact of new and ongoing development projects in the 
        XUAR. Other observers raised concerns that development 
        initiatives could further exacerbate existing regional 
        economic inequality and ethnic tensions.
        <bullet> As in past reporting years, the Commission 
        observed employment advertisements that reserved 
        positions exclusively for Han Chinese, including civil 
        servant and private-sector positions, in contravention 
        of Chinese labor law. Private and public employers also 
        continued to reserve some positions exclusively for 
        men, causing non-Han women to face both ethnic and 
        gender discrimination in the hiring process.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support efforts to raise greater public awareness 
        of human rights conditions in the XUAR, support 
        initiatives to protect Uyghur culture, increase avenues 
        for Uyghurs to protect their human rights, and 
        undertake more frequent human rights-
        focused visits to the XUAR.
        <all> Call on Chinese authorities to provide 
        international humanitarian organizations with access to 
        the 109 Uyghurs who were forcibly deported from 
        Thailand to China in July 2015, in order to determine 
        their status.
        <all> Call on the Chinese government to increase 
        transparency when reporting instances of violence and 
        terrorism and during the criminal prosecution of 
        defendants in cases involving separatism, violence, and 
        terrorism.
        <all> Call on the Chinese government to allow domestic 
        and international journalists and observers greater 
        freedom to independently verify official media accounts 
        of violent and ``terrorist'' incidents.
        <all> Urge Chinese authorities, when adopting 
        legislation regarding counterterrorism, to adhere to 
        international standards for the protection of human 
        rights, including stipulations in United Nations 
        Security Council resolutions that stress the need for 
        countries to ensure compliance with ``human rights, 
        refugee, and humanitarian law'' while countering 
        terrorism.
        <all> Call on the Chinese government to adhere to 
        domestic laws and regulations guaranteeing freedom of 
        religious belief as well as international regulations 
        guaranteeing religious practice free from state 
        restrictions.
        <all> Call for the release of Ilham Tohti, Mutellip 
        Imin, Atikem Rozi, Perhat Halmurat, Shohret Nijat, 
        Akbar Imin, Abduqeyum Ablimit, Luo Yuwei, and others 
        who were detained or imprisoned for exercising their 
        right to freedom of expression.
        <all> Urge Chinese officials to end restrictions on 
        Uyghurs' access to passports and to ensure Uyghurs are 
        given the right to exit China, in accordance with the 
        internationally recognized right to leave the country.
        <all> Call on the Chinese government to consult with 
        non-Han Chinese parents, teachers, and students 
        regarding which language or languages of instruction 
        should be used in XUAR schools, from the preschool to 
        the university level. Call on Chinese officials to 
        provide parents and students a choice of instruction in 
        the Uyghur language and other non-Chinese languages 
        prevalent in the XUAR, as mandated in Article 4 of 
        China's Constitution and Article 10 of the PRC Regional 
        Ethnic Autonomy Law.
        <all> Encourage U.S. companies conducting business or 
        investing in development initiatives in the XUAR to 
        promote equal opportunity employment for ethnic 
        minorities and to support development projects that 
        incorporate consultation with ethnic minorities 
        regarding the economic, political, and social impact of 
        such projects. Encourage U.S. companies investing in 
        XUAR business opportunities to actively recruit ethnic 
        minority candidates for employment positions, implement 
        mechanisms to eliminate hiring and workplace 
        discrimination, and urge Chinese counterparts to 
        provide equal opportunity employment to ethnic 
        minorities.

                                 Tibet

                                Findings

        <bullet> Formal dialogue between the Dalai Lama's 
        representatives and Chinese Communist Party and 
        government officials has been stalled since the January 
        2010 ninth round. The Commission observed no indication 
        during the 2015 reporting year of official Chinese 
        interest in resuming a dialogue that takes into account 
        the concerns of Tibetans who live in the Tibetan 
        autonomous areas of China. An April 2015 government 
        white paper reiterated that Chinese officials would 
        ``only talk with private representatives of the Dalai 
        Lama'' to discuss ``the future of the Dalai Lama and 
        some of his followers'' and how the Dalai Lama would 
        ``gain the forgiveness of the central government and 
        the Chinese people.''
        <bullet> The Commission observed no evidence during its 
        2002 to 2015 period of reporting that the Party or 
        government solicited systematic or representative input 
        from the Tibetan population on economic development in 
        the Tibetan autonomous areas of China. This past year, 
        the Commission observed a series of reports likely to 
        prove of unprecedented consequence to the pace and 
        scale of economic development and urbanization on the 
        Tibetan plateau, and to Tibetans living there. 
        Urbanization, population, and railways will be among 
        principal changes.
        <bullet> The frequency of Tibetan self-immolation 
        reportedly focusing on political and religious issues 
        during the Commission's 2015 reporting year remained 
        similar to the 2014 reporting year as security and 
        punitive measures targeting self-immolation remained in 
        effect. The Commission has not observed any sign that 
        Party and government leaders intend to respond to 
        Tibetan grievances in a constructive manner or accept 
        any accountability for Tibetans' rejection of Chinese 
        policies. Senior officials continued to blame self-
        immolation on foreign incitement.
        <bullet> The Party and government continued efforts 
        this past year to deepen the transformation of Tibetan 
        Buddhism into a state-managed institution that 
        prioritizes adherence to Party and government policies 
        as a principal feature of the religion. An April 2015 
        government white paper outlined the rationale for 
        claiming authority over Tibetan Buddhist reincarnation, 
        including that of the Dalai Lama, and noted that 2007 
        government regulations ``further institutionalize the 
        reincarnation process.'' The Commission observed no 
        developments this past year indicating that Party and 
        government leaders intend to develop a ``harmonious 
        society'' that tolerates Tibetan commitment toward 
        their culture, language, and environment. In some 
        areas, greater obstacles emerged for Tibetans seeking 
        to organize efforts to preserve the Tibetan language or 
        protect the environment.
        <bullet> As of September 1, 2015, the Commission's 
        Political Prisoner Database contained records of 646 
        Tibetan political prisoners believed or presumed 
        currently detained or imprisoned. Of those, 635 are 
        records of Tibetans detained on or after March 10, 
        2008; 43 percent of them are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus. On July 12, 2015, Tenzin 
        Deleg, recognized by the Dalai Lama as a reincarnated 
        Tibetan Buddhist teacher, died in prison in Sichuan 
        province. He was sentenced in December 2002 to death 
        with a two-year reprieve on charges of ``splittism'' 
        and conspiracy to cause explosions, charges that he 
        denied in a smuggled audiotape.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to resume contact 
        with the Dalai Lama or his representatives and engage 
        in dialogue without preconditions. Such a dialogue 
        should aim to protect the Tibetan culture, language, 
        religion, and heritage within the Tibet Autonomous 
        Region (TAR) and the Tibetan autonomous prefectures and 
        counties in Qinghai, Gansu, Sichuan, and Yunnan 
        provinces. A Chinese government decision to engage in 
        dialogue can result in a durable and mutually 
        beneficial outcome for the government and Tibetans that 
        will benefit local and regional security in coming 
        decades.
        <all> Encourage the Chinese government to take fully 
        into account the views and preferences of Tibetans when 
        planning infrastructure, natural resource development, 
        and settlement or resettlement projects in the Tibetan 
        areas of China. Encourage the government to engage with 
        appropriate experts in assessing the impact of such 
        projects and in advising the government on the 
        implementation and progress of such projects. Encourage 
        the government to provide accurate and comprehensive 
        data on the population in Tibetan areas of China.
        <all> Urge the Chinese government to recognize the role 
        of government regulatory measures and Party policies in 
        the wave of Tibetan self-immolations and other 
        protests. Stress to Chinese officials that 
        strengthening the measures and policies that Tibetans 
        resent is unlikely to promote ``social stability'' or a 
        ``harmonious society.'' Urge the government to refrain 
        from using security and judicial institutions to 
        intimidate Tibetan communities by prosecuting and 
        imprisoning Tibetans with alleged links to a self-
        immolator or for sharing self-immolation information.
        <all> Urge the Chinese government to refrain from using 
        intrusive management and legal measures to infringe 
        upon and repress Tibetan Buddhists' right to freedom of 
        religion. Urge the government to cease treating the 
        Dalai Lama as a security threat instead of as Tibetan 
        Buddhism's principal teacher. Urge the government to 
        cease interference in the long-standing practices 
        Tibetan Buddhists use to identify reincarnated teachers 
        and to respect the principle summarized by the Dalai 
        Lama that the person who reincarnates ``has sole 
        legitimate authority'' over the circumstances and 
        recognition of reincarnation. Urge the government to 
        respect the right of Tibetan Buddhists to identify and 
        educate religious teachers, including the Dalai Lama, 
        in a manner consistent with Tibetan Buddhist 
        preferences and traditions. Stress to Chinese officials 
        that increasing pressure on Tibetan Buddhists by 
        aggressive use of regulatory measures, ``patriotic'' 
        and ``legal'' education, and anti-Dalai Lama campaigns 
        is likely to harm social stability, not protect it.
        <all> Stress to the Chinese government the importance 
        of respecting and protecting the Tibetan culture and 
        language. Urge Chinese officials to promote a vibrant 
        Tibetan culture by honoring the reference in China's 
        Constitution to the freedoms of speech, association, 
        assembly, and religion, and refrain from using the 
        security establishment, courts, and law to infringe 
        upon and repress Tibetans' exercise of such rights. 
        Stress the importance of respecting Tibetan wishes to 
        maintain the role of both the Tibetan and Chinese 
        languages in teaching modern subjects, and to refrain 
        from criminalizing Tibetans' passion for their language 
        and culture.
        <all> Continue to stress to the Chinese government the 
        importance of distinguishing between peaceful Tibetan 
        protesters and rioters; condemn the use of security 
        campaigns to suppress human rights; and request the 
        government to provide complete details about Tibetans 
        detained, charged, or sentenced for protest-related and 
        self-immolation-related ``crimes.'' Continue to raise 
        in meetings and correspondence with Chinese officials 
        the cases of Tibetans who remain imprisoned as 
        punishment for the peaceful exercise of human rights.
        <all> Encourage the Chinese government to respect the 
        right to freedom of movement of Tibetans who travel 
        domestically, including for the purpose of visiting 
        Tibetan economic, cultural, and religious centers, 
        including Lhasa; to provide Tibetans with reasonable 
        means to apply for and receive documents necessary for 
        lawful international travel; to respect the right of 
        Tibetan citizens of China to reenter China after 
        traveling abroad; to eliminate the unique travel permit 
        required of foreign nationals who wish to travel to the 
        Tibet Autonomous Region; and to allow access to the 
        Tibetan autonomous areas of China to international 
        journalists, representatives of non-governmental 
        organizations, representatives of the United Nations, 
        and U.S. Government officials.
        <all> Request that the Chinese government follow up on 
        a 2010 statement by the Chairman of the Tibet 
        Autonomous Region (TAR) government, reported in the 
        Commission's 2010 Annual Report, that Gedun Choekyi 
        Nyima, the Panchen Lama whom the Dalai Lama recognized 
        in 1995, is living in the TAR as an ``ordinary 
        citizen'' along with his family. Urge the government to 
        invite a representative of an international 
        organization to meet with Gedun Choekyi Nyima so that 
        he can express to the representative his wishes with 
        respect to privacy.

                  Developments in Hong Kong and Macau

                                Findings

        <bullet> The Basic Laws of Hong Kong and Macau confirm 
        the applicability of the International Covenant on 
        Civil and Political Rights (ICCPR) to both territories. 
        The Basic Law of Hong Kong provides specifically for 
        universal suffrage in electing the Chief Executive upon 
        nomination by a ``broadly representative nominating 
        committee in accordance with democratic procedures,'' 
        while Macau's does not.
        <bullet> In April 2015, the Hong Kong government 
        announced its proposal for reforming Chief Executive 
        (CE) elections, adhering to the restrictive framework 
        mandated by the National People's Congress Standing 
        Committee (NPCSC) in an August 31, 2014, decision. In 
        June, Hong Kong's legislature voted down the proposal. 
        All 27 pro-democratic legislators and 1 pro-Beijing 
        legislator voted against the proposal.
        <bullet> In response to the NPCSC's August 31 decision, 
        pro-democracy activists launched massive civil 
        disobedience protests. After police fired tear gas and 
        pepper spray on non-violent protesters, tens of 
        thousands of people joined the demonstrations, 
        occupying major streets across Hong Kong for 79 days. 
        Protesters remained encamped at three separate protest 
        sites until the Hong Kong government enforced a civil 
        court order to clear the majority of protesters in 
        November and December 2014.
        <bullet> During the largely non-violent demonstrations, 
        there were reports of violence between police, 
        protesters, and counter-protesters, including some 
        reports of police use of excessive force and protester 
        violence against police. Journalists and media 
        organizations reported dozens of attacks directed 
        against reporters covering the protests, including 
        attacks by police. During and after the demonstrations, 
        some protesters reported that they were unable to 
        travel to mainland China or Macau due to their 
        participation in the demonstrations.
        <bullet> Hong Kong police reportedly selectively 
        enforced the law, arresting pro-democracy activists and 
        demonstrators to harass and intimidate them. Police 
        arrested, and then released, dozens of prominent pro-
        democracy advocates but reserved the right to prosecute 
        them later. There were reports of Chinese intelligence 
        services and groups connected to the Chinese government 
        harassing and surveilling people perceived to oppose 
        the Chinese government.
        <bullet> Hong Kong journalists and media reported 
        threats to press freedom due to self-censorship and 
        editorial interference, pressure from the Chinese and 
        Hong Kong governments, and intimidation and violent 
        attacks on journalists. According to the international 
        media non-governmental organization Reporters Without 
        Borders, press freedom continued to deteriorate in Hong 
        Kong in 2014, with Hong Kong's international ranking 
        dropping to 70 from 61 in 2013.
        <bullet> The Commission observed no progress regarding 
        the UN Human Rights Committee's 2013 recommendation 
        that Macau work to establish ``an electoral system 
        based on universal and equal suffrage . . .'' in line 
        with provisions of the ICCPR, or that the reservation 
        to Article 25(b) of the ICCPR be withdrawn. Civil 
        society and media organizations in Macau reported 
        threats from intimidation and self-censorship. Macau 
        authorities reportedly refused Hong Kong journalists 
        and activists entry for political reasons.
        <bullet> Macau authorities expanded coordination with 
        mainland Chinese authorities, in part to fight 
        financial crimes, including cooperating with the 
        central government in its campaign against corruption. 
        Macau continued to be a center for violations of 
        mainland China's currency controls connected to its 
        gambling industry. Macau authorities' pursuit of an 
        extradition agreement with mainland China raised 
        concerns regarding the rights of individuals facing 
        extradition from Macau and Macau's autonomy from 
        mainland China.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Consider enacting the Hong Kong Human Rights and 
        Democracy Act (H.R. 1159) to monitor the state of Hong 
        Kong's autonomy and freedoms and to promote democratic 
        development in Hong Kong.
        <all> Urge the Chinese central government and the Hong 
        Kong government to restart the electoral reform process 
        and work without delay toward implementing Chief 
        Executive and Legislative Council elections by 
        universal suffrage, in accordance with the provisions 
        of the Basic Law and the International Covenant on 
        Civil and Political Rights (ICCPR). Issues relating to 
        Hong Kong's autonomy and freedoms should be raised in 
        meetings with central government officials.
        <all> Urge Hong Kong authorities to reaffirm the rights 
        of the people of Hong Kong to assemble and demonstrate 
        peacefully, and the right of journalists to work safely 
        and without hindrance. In meetings with Hong Kong 
        officials, express U.S. concerns over the safety of 
        reporters and urge Hong Kong officials to resolve 
        outstanding cases of violence and intimidation against 
        journalists.
        <all> Increase support for democratic reforms in Macau. 
        Urge Macau authorities to set a clear timeline for 
        transition to universal suffrage in executive and 
        legislative elections, as required by Article 25 of the 
        ICCPR and as repeatedly urged by the UN Human Rights 
        Committee.

                      Political Prisoner Database

                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

        <bullet> Check the Political Prisoner Database (PPD) 
        (http://ppdcecc.gov) for reliable, up-to-date 
        information on a prisoner or groups of prisoners. 
        Consult a prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime, specific human rights that officials 
        have violated, stage in the legal process, and location 
        of detention or imprisonment, if known.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database, 
        and to advocate for the release of political and 
        religious prisoners in China.


                    a powerful resource for advocacy


    The Commission's 2015 Annual Report provides information 
about Chinese political and religious prisoners \1\ in the 
context of specific human rights and rule of law abuses. Many 
of the abuses result from the Chinese Communist Party's and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report, and to access and make use of the upgraded PPD at 
http://ppdcecc.gov. (Information about the PPD is available at 
http://www.cecc.gov/resources/political-prisoner-database.)
    The PPD received approximately 117,200 online requests for 
prisoner information during the 12-month period ending August 
31, 2015--an increase of approximately 36 percent over the 
86,100 requests during the 12-month period ending August 31, 
2014.\2\ During the 12-month period ending in August 2015, 
China was for the first time the country of origin of the 
largest share of requests for information, with approximately 
40.4 percent of such requests--a 78 percent increase over the 
22.7 percent of requests for information reported for China in 
the Commission's 2014 Annual Report.\3\ The United States was 
second with approximately 26.7 percent (a decrease compared to 
29.7 percent in the 2014 reporting period \4\), followed by 
Japan with 6.0 percent (a decrease compared to 20.3 percent in 
the 2014 reporting period \5\), Ukraine (4.1 percent), Germany 
(2.7 percent), India (2.0 percent), France (1.6 percent), the 
United Kingdom (1.4 percent), the Russian Federation (1.0 
percent), and the Republic of Korea (0.8 percent).
    Worldwide commercial (.com) domains were for the first time 
the source of the largest share of online requests for 
information. Approximately 38.4 percent of the 117,200 requests 
for PPD information during the 12-month period ending in August 
2015 originated from .com domains--a 130-percent increase 
compared to the 16.7 percent reported for such requests during 
the 2014 reporting period.\6\ Numerical Internet addresses that 
do not provide information about the name of the registrant or 
the type of domain were second with approximately 31.8 percent 
of requests for PPD information. That figure represents a 
decrease of 6.6 percent from the 38.4 percent reported for such 
addresses during the period ending in August 2014,\7\ and 
followed a decrease of 18.4 percent from the 56.8 percent 
reported for such addresses during the period ending in August 
2013.\8\
    Worldwide network (.net) domains were third with 
approximately 8.4 percent of online requests for PPD 
information during the period ending in August 2015, followed 
by domains in China (.cn) with 5.9 percent--a substantial drop 
from the 19.5 percent reported for the period ending in August 
2014 \9\--then by U.S. Government (.gov) domains with 4.6 
percent; domains in Germany (.de) with 2.0 percent; in the 
European Union (.eu) with 1.0 percent; in France (.fr), Ukraine 
(.ua), and Brazil (.br) with approximately 0.6 percent each; 
worldwide non-profit organization (.org) domains with 
approximately 0.4 percent; and U.S. educational (.edu) domains 
with 0.3 percent.
    China's rise during the Commission's 2015 reporting period 
to be the country of origin for the largest share of requests 
for PPD information coincides with the rise of worldwide 
commercial (.com) domains to be the type of domain that is the 
origin for the largest share of requests for PPD information.


                          political prisoners


    The PPD seeks to provide users with prisoner information 
that is reliable and up to date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. The staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of September 1, 2015, the PPD contained information on 
8,029 cases of political or religious imprisonment in China. Of 
those, 1,310 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
6,719 are cases of prisoners who are known or believed to have 
been released, or executed, who died while imprisoned or soon 
after release, or who escaped. The Commission notes that there 
are considerably more than 1,310 cases of current political and 
religious imprisonment in China. The Commission staff works on 
an ongoing basis to add cases of political and religious 
imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by non-
governmental organizations (NGOs), other groups that specialize 
in promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.


                   more powerful database technology


    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    The PPD aims to provide a technology with sufficient power 
to handle the scope and complexity of political imprisonment in 
China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and free expression, including the freedom to advocate peaceful 
social or political change and to criticize government policy 
or government officials.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.


                new political prisoner database features


    This past year the Commission enhanced the functionality of 
the PPD to empower the Commission, the U.S. Congress and 
Administration, other governments, NGOs, and individuals to 
strengthen reporting on political and religious imprisonment in 
China and advocacy undertaken on behalf of Chinese political 
prisoners.
        <bullet> The PPD full text search and the basic search 
        both provide an option to return only records that 
        either include or do not include an image of the 
        prisoner.
        <bullet> PPD record short summaries accommodate more 
        text as well as greater capacity to link to external 
        websites.
    Notes to Section I--Political Prisoner Database

    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's Constitution and law, or by international law, or both. Chinese 
security, prosecution, and judicial officials sometimes seek to 
distract attention from the political or religious nature of 
imprisonment by convicting a de facto political or religious prisoner 
under the pretext of having committed a generic crime. In such cases 
defendants typically deny guilt but officials may attempt to coerce 
confessions using torture and other forms of abuse, and standards of 
evidence are poor. If authorities permit a defendant to entrust someone 
to provide him or her legal counsel and defense, as China's Criminal 
Procedure Law guarantees in Article 32, officials may deny the counsel 
adequate access to the defendant, restrict or deny the counsel's access 
to evidence, and not provide the counsel adequate time to prepare a 
defense.
    \2\ CECC, 2014 Annual Report, 9 October 14, 58.
    \3\ Ibid., 58.
    \4\ Ibid., 58.
    \5\ Ibid., 58.
    \6\ Ibid., 59.
    \7\ Ibid., 59.
    \8\ Ibid., 55.
    \9\ Ibid., 59.

                            II. Human Rights


                         Freedom of Expression


            International Standards on Freedom of Expression

    During the Commission's 2015 reporting year, the Chinese 
government and Communist Party continued to restrict expression 
in contravention of international human rights standards, 
including Article 19 of the International Covenant on Civil and 
Political Rights (ICCPR) and Article 19 of the Universal 
Declaration of Human Rights.\1\ According to the ICCPR--which 
China signed \2\ and has stated its intent to ratify \3\--and 
as reiterated by the Special Rapporteur on the Promotion and 
Protection of the Right to Freedom of Opinion and Expression, 
countries may impose certain restrictions or limitations on 
freedom of expression, if such restrictions are provided by law 
and are necessary for the purpose of respecting the ``rights or 
reputations of others'' or protecting national security, public 
order, public health, or morals.\4\ The UN Human Rights 
Committee specified in a 2011 general comment that restrictions 
on freedom of expression specified in Article 19(3) should be 
interpreted narrowly and that the restrictions ``may not put in 
jeopardy the right itself.'' \5\ An October 2009 UN Human 
Rights Council resolution, moreover, stated that restrictions 
on the ``discussion of government policies and political 
debate,'' ``peaceful demonstrations or political activities, 
including for peace or democracy,'' and ``expression of opinion 
and dissent'' are inconsistent with Article 19(3) of the 
ICCPR.\6\

                        Legislative Developments

    Significant legislative developments took place in China 
during this reporting year, including the passage of the PRC 
Counterespionage Law in November 2014,\7\ the PRC National 
Security Law in July 2015,\8\ and the Ninth Amendment to the 
PRC Criminal Law in August.\9\ Commentators raised concerns 
about the government and Party's potential use of vaguely 
worded legal provisions to restrict and jeopardize the right to 
freedom of expression \10\ and the press,\11\ and the free flow 
of information.\12\ Examples of such provisions include:

        <bullet> Article 13 of the PRC Counterespionage Law, 
        which allows national security agencies to seize 
        telecommunications equipment and to shut down or 
        confiscate such equipment if an 
        organization or individual found to be ``harming 
        national security . . . refuses to change or makes 
        changes that do not comply'' with the agencies' 
        requests; \13\
        <bullet> Article 76 of the PRC National Security Law, 
        which calls for the nation to ``strengthen press 
        publicity and public opinion guidance on national 
        security,'' \14\ a provision that violates press 
        freedom, according to press advocacy organizations; 
        \15\
        <bullet> Article 25 of the PRC National Security Law, 
        which allows for the punishment of the ``dissemination 
        of unlawful and harmful information on the Internet.'' 
        \16\ Similarly, the amended version of Article 291 in 
        the PRC Criminal Law punishes the fabrication and 
        dissemination of certain types of false information--
        including regarding ``dangerous situations,'' 
        ``epidemics,'' and ``disasters''--on the Internet and 
        other media with up to seven years' imprisonment; \17\ 
        and
        <bullet> Draft cybersecurity legislation issued for 
        public comment in July 2015,\18\ which contains a 
        provision allowing authorities to temporarily suspend 
        Internet services to ``maintain national security and 
        social order or to deal with sudden incidents.'' \19\

                   PROMOTING ``INTERNET SOVEREIGNTY''

    Chinese officials promoted national control of the 
Internet, or ``Internet sovereignty'' (wangluo zhuquan),\20\ in 
domestic legislation and international standards for Internet 
governance this past year. The draft PRC Cybersecurity Law 
advanced the principle that ``Internet sovereignty is . . . an 
extension of national sovereignty in cyberspace.'' \21\ In 
November 2014, delegates representing international businesses 
at an Internet conference in China convened by the Cyberspace 
Administration of China, also known as the State Internet 
Information Office,\22\ reportedly did not sign a draft 
declaration disseminated among participants by the conference 
host that called on the international community to ``respect 
Internet sovereignty of all countries.'' \23\ In addition, 
China and other members of the Shanghai Cooperation 
Organization submitted a revised draft of the International 
Code of Conduct for Information Security (ICCIS) to the UN 
General Assembly in January 2015 that establishes 
``multilateral, transparent and democratic international 
Internet governance mechanisms.'' \24\ Commentators raised 
concerns that the draft emphasized state control of the 
Internet and is contrary to a multistakeholder model of 
Internet governance \25\ that includes civil society and 
business interests.\26\ According to a U.S. legal expert, the 
revised ICCIS draft may reflect the Chinese government's 
reluctance to ``[apply] existing international law to 
cyberspace.'' \27\

        Abuse of the PRC Criminal Law To Punish Free Expression

    The Chinese government and Communist Party continue to 
exploit provisions within international standards, as stated 
above, as well as to use vague provisions in the PRC Criminal 
Law to prosecute citizens for exercising their right to freedom 
of speech. Examples documented during this reporting year 
included Article 293 (``picking quarrels and provoking 
trouble''), Article 225 (``illegal business activity''), and 
Article 105(2) (``inciting subversion of state power'').\28\ 
Chinese legal experts continued to criticize a 2013 judicial 
interpretation that expanded ``picking quarrels and provoking 
trouble'' to penalize online speech, noting the interpretation 
goes beyond the provision's scope of tangible acts of 
disorderly conduct.\29\
    Chinese authorities used criminal charges to target dozens 
of mainland Chinese supporters of the fall 2014 Hong Kong pro-
democracy protests for detention and harassment.\30\ For 
example, of the 117 cases that the international non-
governmental organization Chinese Human Rights Defenders (CHRD) 
documented of mainland Chinese citizens detained in connection 
to the pro-democracy protests in Hong Kong,\31\ many were on 
suspicion of ``picking quarrels and provoking trouble.'' \32\ 
Some of the detained individuals had posted online or sent via 
social media photos of themselves holding printed signs and, in 
at least one case, holding an umbrella \33\--one of the symbols 
associated with the protests \34\--to demonstrate their support 
for the Hong Kong protesters' aspirations.\35\ Authorities 
arrested some of the detainees, including poet Wang Zang,\36\ 
housing rights advocate Han Ying,\37\ activist Xu 
Chongyang,\38\ and rights defender Song Ze.\39\ Prosecutors in 
Guangdong province charged some local protest supporters, 
including democracy advocates Xie Wenfei \40\ and Wang Mo,\41\ 
with ``inciting subversion of state power''--a crime of 
``endangering state security'' under the PRC Criminal Law.\42\ 
In addition, officials detained Yu Wensheng \43\ and Xia 
Lin,\44\ lawyers who attempted to protect the rights of clients 
in detention for their support of the pro-democracy 
protests.\45\
    The government and Party also continued to use the charge 
of ``illegal business activity'' to prosecute individuals who 
published unauthorized accounts of Chinese history \46\ and 
other material that authorities deemed to be politically 
sensitive. These individuals included 82-year-old journalist 
Huang Zerong (also known as Tie Liu),\47\ documentarian Shen 
Yongping,\48\ and writer Fu Zhibin.\49\ In September 2014, the 
UN Working Group on Arbitrary Detention censured the Chinese 
government for ``exploit[ing] the vagueness of Article 225 to 
justify the prosecution'' of Wang Hanfei, the mainland Chinese 
publisher of a Hong Kong-based periodical, ``for the peaceful 
exercise of his fundamental rights protected by international 
law.'' \50\ In 2012, authorities in Hunan province sentenced 
Wang to three years and six months' imprisonment on the charges 
of ``illegal business activity'' and ``fraud.'' \51\
    According to Chinese Human Rights Defenders, by late 2014, 
Chinese authorities ``returned to using more explicitly 
political charges'' against rights defenders and activists as 
demonstrated by the use of the charge of ``inciting subversion 
of state power,'' in contrast to the frequent use of ``public 
order'' charges between 2012 and 2014.\52\ For example, 
Guangdong security officials arrested bloggers Liang Qinhui in 
February 2015,\53\ and Zheng Jingxian \54\ and Huang Qian in 
April,\55\ on the charge of ``inciting subversion of state 
power'' for posting comments about government and Party 
leaders. They detained Zheng after he reportedly posted a 
microblog comment about the July 2014 detention of Zhou 
Yongkang, a former member of the Standing Committee of the 
Political Bureau of the Communist Party Central Committee and 
Minister of Public Security, three hours prior to the Party's 
formal announcement of it.\56\
    Nobel Peace Prize laureate Liu Xiaobo remains in prison, 
serving year 6 of an 11-year sentence on the charge of 
``inciting subversion of state power'' for several of his 
essays and his co-authorship of Charter 08.\57\ Foreign 
government leaders and advocacy organizations continued to call 
for his release from prison \58\ and for the release of his 
wife, poet and artist Liu Xia, from extralegal detention at 
their home in Beijing municipality.\59\

------------------------------------------------------------------------
              Pu Zhiqiang and the Criminalization of Speech
-------------------------------------------------------------------------
  Authorities in Beijing detained and then arrested lawyer Pu Zhiqiang
 \60\--well-known for his work on freedom of speech,\61\ his
 representation of defendants in politically sensitive cases,\62\ and
 his public criticism of the reeducation through labor system \63\--amid
 a nationwide crackdown in China prior to the 25th anniversary of the
 1989 Tiananmen protests and their violent suppression.\64\ At the time
 of Pu's detention in May 2014, the Party-run media outlet Global Times
 editorialized that the private gathering Pu attended to commemorate the
 Tiananmen anniversary that month was an event that ``clearly crossed
 the red line of law'' because the ``June 4th incident'' is ``the most
 sensitive political issue in China.'' \65\
  A year after Pu's detention, in May 2015, the Beijing Municipal
 People's Procuratorate indicted him on the charges of ``inciting ethnic
 hatred'' and ``picking quarrels and provoking trouble,'' \66\ based on
 several microblog posts Pu made between 2011 and 2014 that either
 criticized the Chinese government's ethnic policy in the Xinjiang
 Uyghur Autonomous Region \67\ or mocked officials.\68\ Domestic
 commentators raised concerns that the authorities' prosecution of Pu
 criminalizes speech protected under China's Constitution.\69\ One of
 the commentators, moreover, questioned the premise that Pu's posts
 incited ethnic hatred, arguing instead that Pu's condemnation of
 terrorist acts and his calls for authorities to improve ethnic minority
 policies served to ``promote ethnic reconciliation and unity.'' \70\ In
 August 2015, the Beijing No. 2 Intermediate People's Court reportedly
 notified Pu's defense counsel that his trial would be delayed an
 additional three months.\71\
------------------------------------------------------------------------

      Growth and Control of the Internet and Mobile Communications


                            EXPANDING ACCESS

    The Chinese government continued to take steps to expand 
the country's telecommunications infrastructure and provide 
greater Internet access in rural and less developed areas of 
China.\72\ Government spending on Internet infrastructure 
reportedly is set to reach 430 billion yuan (US$69.4 billion) 
in 2015 and 700 billion yuan (US$112.9 billion) in total for 
2016 and 2017.\73\ According to the China Internet Network 
Information Center, there were 649 million Internet users in 
China by the end of 2014, close to 48 percent of the total 
population.\74\ Also by the end of 2014, 557 million people in 
China accessed the Internet from mobile phones, amounting to 
85.8 percent of Internet users in China, according to official 
data.\75\ The telecommunications company Tencent reported that 
in 2014, active accounts for its messaging services WeChat 
(also known as Weixin) and QQ had already reached 500 million 
and 815 million, respectively.\76\ Since 2012, WeChat's public 
accounts platform reportedly has gained popularity--and 
increasing government scrutiny--by ``empower[ing] users to 
reach mass 
audiences . . . .'' \77\

           GOVERNMENT AND PARTY CENSORSHIP OF ONLINE CONTENT

    The Cyberspace Administration of China (CAC) issued the 
Internet User Account Name Management Regulations (2015 
Regulations) in February 2015.\78\ Commentators believe that 
the 2015 Regulations hold the potential to be a more effective 
tool for monitoring Internet users than prior real-name account 
registration regulations.\79\ The 2015 Regulations require 
real-name account registration for individuals and entities 
using a range of Internet services, including ``blogs, 
microblogs, instant-messaging tools, online forums, [and] 
online commentary . . .,'' among others.\80\ Internet service 
providers, moreover, are required to ``implement security 
management'' \81\ over prohibited content that the government 
deems harmful to national security, or that incites ``ethnic 
hatred'' or ``destroys'' national policies on religion.\82\ 
Internet service providers are also required to cancel accounts 
that use purportedly false information or misuse the names of 
celebrities or organizations.\83\ In preparation for the 
implementation of the 2015 Regulations, which took effect on 
March 1, 2015, Chinese Internet companies reportedly deleted 
more than 60,000 Internet accounts in February.\84\ In March, 
state- and Party-run news agencies, such as Xinhua and People's 
Daily, shut down more than 7,000 Internet accounts that 
violated the 2015 Regulations.\85\ Government agencies, 
including the CAC and the Ministry of Culture, reportedly 
investigated, threatened punishment for, fined, or shut down 
websites with content that included sexual content,\86\ 
violence,\87\ anime cartoons,\88\ and online dating 
services.\89\ The South China Morning Post reported that the 
CAC also shut down dozens of social media accounts that shared 
unofficial versions of Chinese and Communist Party history.\90\ 
Domestic websites deleted ``more than one billion pornographic 
and harmful posts . . . as part of a clean-up of the 
[I]nternet.'' \91\ In addition, the Communist Party Youth 
League issued a document \92\ in February 2015 calling for the 
recruitment of more than 10 million ``online youth civilization 
volunteers'' tasked with spreading ``positive energy,'' the 
``Chinese dream,'' and ``promoting rule of law'' online and via 
social media outlets.\93\

------------------------------------------------------------------------
                      ``Great Cannon'' Cyberattacks
-------------------------------------------------------------------------
  International media reported on unprecedented, massive cyberattacks in
 March 2015 \94\ against GreatFire.org, a site that monitors Web-based
 censorship in China,\95\ and GitHub, a program-sharing repository.\96\
 Web pages for GreatFire.org and the New York Times' Chinese-language
 site hosted at GitHub were specifically targeted.\97\ According to
 Citizen Lab, a human rights and information technology research center
 at the University of Toronto, the tool used for the cyberattacks--a so-
 called ``Great Cannon''--hijacked traffic from overseas users to the
 domestic Chinese website Baidu and injected malicious code that was
 redirected against the targeted websites, thus overwhelming their
 servers and preventing user access.\98\ Citizen Lab found that the
 Great Cannon appears to share some of its code with and was housed in
 the same infrastructure as the Great Firewall,\99\ the Chinese
 government's primary tool to prevent users from within China from
 accessing foreign websites that contain content the government deems
 politically sensitive.\100\ Citizen Lab concluded that such an attack
 ``would require the approval of high-level authorities within the
 Chinese government.'' \101\
------------------------------------------------------------------------

                          Freedom of the Press


      POLITICAL CONTROL OF THE MEDIA: ``GUIDANCE,'' INTERFERENCE, 
                             AND REGULATION

    International experts have identified media serving ``as 
government mouthpieces instead of as independent bodies 
operating in the public interest'' as a major challenge to free 
expression.\102\ According to a 2015 Freedom House report, 
Chinese government and Communist Party ``censorship and 
propaganda directives that are distributed to news outlets, 
websites, and portals . . . allow key state-run outlets to 
cover potentially damaging news in a timely but selective 
manner, then require other media to restrict their reporting to 
the established narrative.'' \103\ The official term for this 
form of control is the ``guidance of public opinion'' (yulun 
daoxiang).\104\ China Digital Times, a U.S.-based media 
aggregator, documented directives providing ``guidance'' for a 
wide range of events, political figures, and topics during this 
reporting year.\105\ These included the 2014 pro-democracy 
protests in Hong Kong; \106\ the criminal case against Zhou 
Yongkang, a former member of the Standing Committee of the 
Political Bureau of the Communist Party Central Committee and 
Minister of Public Security; \107\ and a ferry accident in June 
2015 along the Yangtze River.\108\ In March 2015, the Shanghai 
Propaganda Department Information Service noted that censorship 
activity was targeted against ``speech that . . . cast doubt or 
attack[ed] the government'' in a directive to discontinue 
coverage and public feedback about ``Under the Dome,'' \109\ a 
documentary about air pollution that reportedly received over 
100 million views in its first 48 hours online.\110\
    Government and business interference in news coverage 
continued to hinder the news media from fulfilling a public 
function to serve as a watchdog.\111\ As a result, the state of 
Chinese investigative and independent journalism has 
deteriorated further,\112\ with one commentator asserting that, 
``At no point in the past 10 years have things been quite so 
impossible as they have been under [Chinese President and 
Communist Party General Secretary] Xi Jinping.'' \113\ The head 
editor of Southern Weekend, a market-driven newspaper based in 
Guangdong province that had been known for its investigative 
reporting, linked the newspaper's recent decline to several 
factors, including fewer readers, high production costs, the 
departure of talented staff, and competition from new online 
media.\114\ A former staff journalist and a media scholar, 
however, ascribed Southern Weekend's decline to a provincial 
propaganda official's censoring of an editorial in support of 
constitutional rights in 2013 \115\ and aggressive censorship 
of the newspaper since that time.\116\ In a March 2015 
editorial, Beijing News asserted that government and business 
interference caused the Beijing News to withhold previous 
investigative reports, thus preventing it from exercising its 
``supervision of public opinion,'' \117\ a reference to the 
government's official term for journalism's watchdog 
function.\118\ In the immediate aftermath of deadly chemical 
explosions in a facility near residential areas of Tianjin 
municipality in August 2015, Beijing News, China Youth Daily, 
and Caixin Media, among others, published reports that ``were 
probing more deeply into the people and decisions behind the 
Tianjin explosion[s].'' \119\ Yet censorship instructions 
indicated that Chinese authorities directed journalists to only 
use coverage from the state media agency Xinhua and refrain 
from posting ``private'' commentary through social media 
outlets about the Tianjin explosions.\120\
    The pressures placed on Yanhuang Chunqiu (known in English 
as ``China Through the Ages'') \121\--one of China's most 
influential reform-oriented political magazines \122\--
illustrated the government's use of regulatory measures to 
obstruct independent journalism.\123\ In September 2014, the 
government reassigned the magazine to a more restrictive 
``supervisory unit'' (zhuguan danwei), a move that a Yanhuang 
Chunqiu senior editor said might compromise editorial 
independence and force the magazine to become another voice of 
the state.\124\ In April 2015, the State Administration for 
Press, Publications, Radio, Film and Television (SAPPRFT) 
warned the magazine that 37 articles published since the 
beginning of 2015 violated guidelines, including articles with 
content about former political leaders Deng Xiaoping, Hu 
Yaobang, and Zhao Ziyang.\125\ Reports in October 2014 \126\ 
and April 2015 \127\ also pointed to ongoing interference in 
the selection and retention of the magazine's editorial 
leadership.

------------------------------------------------------------------------
            Anticorruption Investigations of Media Personnel
-------------------------------------------------------------------------
  The Chinese government and Communist Party targeted individuals
 working in the media industry for investigation for alleged corruption
 and fraud during this reporting year,\128\ including staff from China
 Central Television (CCTV) \129\ and the 21st Century Business
 Herald.\130\ Widespread government and business misconduct \131\ and
 the lack of a free market for information \132\ reportedly contribute
 to a media environment in China where corruption, such as payments to
 publish favorable stories and to expunge negative ones,\133\ is rampant
 \134\ and systemic.\135\ According to an official from the Party's
 Central Commission for Discipline Inspection who conducted
 investigations at SAPPRFT, in 2014, the highest number of media
 industry officials in five years were found to be in violation of Party
 ``discipline,'' \136\ and investigations reportedly were to increase in
 2015.\137\ In addition, in 2014, the ``Sweep Away Pornography, Strike
 Down Illegal Publications'' Task Force Office reportedly investigated
 212 cases of suspected extortion, operating as a journalist without an
 official press card, or involvement in illegal publications.\138\
------------------------------------------------------------------------


------------------------------------------------------------------------
       Anticorruption Investigations of Media Personnel--Continued
-------------------------------------------------------------------------
  The government and Party's charges against some senior executives at
 state-run and commercial media outlets, however, may have been
 motivated by political concerns. For example, authorities sentenced
 former Liaoning province television executive Shi Lianwen to life
 imprisonment for corruption in 2014.\139\ A more critical problem,
 according to David Bandurski of the University of Hong Kong's China
 Media Project, was Shi's alleged emphasis on the media market's
 commercial demands rather than on government and Party priorities.\140\
 Simon Denyer of the Washington Post wrote that authorities targeted
 Shen Hao, the founding editor of the 21st Century Business Herald,
 because under Shen's leadership, the publication had ``stepped on many
 powerful toes in its reporting of the business dealings of China's
 Communist elite.'' \141\ In August 2015, the Shanghai Municipality
 People's Procuratorate brought indictments against Shen and 29 others,
 as well as 15 business entities, associated with the 21st Century
 Business Herald on charges of extortion and forced transactions.\142\
------------------------------------------------------------------------

 HARASSMENT AND CRIMINAL PUNISHMENT OF DOMESTIC JOURNALISTS AND MEDIA 
                                 STAFF

    The Committee to Protect Journalists reported an increase 
in the number of journalists and Internet writers imprisoned in 
China to 44 in 2014 from 32 in 2013, making China ``the world's 
worst jailer of the press'' in 2014.\143\ Representative cases 
of imprisonment and detention of journalists include:

        <bullet> Ilham Tohti's Seven Students. In December 
        2014, authorities in the Xinjiang Uyghur Autonomous 
        Region imposed prison sentences of between three and 
        eight years \144\ on Atikem Rozi, Mutellip Imin, Perhat 
        Halmurat, Shohret Nijat, Luo Yuwei, Abduqeyum Ablimit, 
        and Akbar Imin on the charge of ``separatism'' \145\ 
        for alleged work on the Uyghur-language news website 
        Uyghur Online.\146\ The seven had been students of 
        Ilham Tohti,\147\ a university professor and founder of 
        Uyghur Online who was sentenced to life imprisonment in 
        September 2014 on the same charge.\148\
        <bullet> Gao Yu. In April 2015, the Beijing No. 3 
        Intermediate People's Court sentenced 71-year-old 
        journalist Gao Yu to seven years' imprisonment for 
        ``leaking state secrets.'' \149\ According to People's 
        Daily, the court reportedly alleged that Gao provided a 
        central government circular to a foreign website in 
        July 2013.\150\ The media website in question denied 
        receiving the document from Gao,\151\ and her lawyer, 
        Mo Shaoping, asserted that authorities did not show 
        evidence that Gao was the source.\152\ Commentators 
        further noted the contents of the circular had already 
        been distributed among government and Party officials 
        and in state media; \153\ one commentator rejected the 
        premise that the document should even be classified as 
        ``secret.'' \154\
        <bullet> Zhang Miao. Public security officials from 
        Beijing municipality detained Zhang Miao, a news 
        assistant for the German newspaper Die Zeit, from 
        October 2014 through July 2015 on suspicion of 
        ``picking quarrels and provoking trouble.'' \155\ In 
        the days prior to her detention, she accompanied Die 
        Zeit's Beijing correspondent to Hong Kong to cover the 
        2014 pro-democracy protests.\156\ Zhang's detention 
        demonstrates the risks involved for Chinese nationals 
        assisting foreign correspondents in China.\157\

            HARASSMENT OF FOREIGN JOURNALISTS AND NEWS MEDIA

    The Chinese government and Communist Party continued to use 
a range of methods to restrict and harass foreign journalists 
and news media in an attempt to silence independent reporting 
in China. According to the Foreign Correspondents' Club of 
China (FCCC) annual report on working conditions in 2014, these 
methods included official harassment of reporters, news 
assistants, and sources; attempts to block coverage of issues 
that authorities deemed ``sensitive''; restrictions on travel 
to areas along China's border and ethnic minority regions; visa 
delays, denials, and threats of denial; \158\ and blockage of 
foreign media websites \159\ and social media accounts in 
China.\160\

Physical and psychological intimidation. Authorities harassed 
foreign journalists on assignments covering mainland supporters 
of the 2014 pro-democracy protests in Hong Kong,\161\ ethnic 
rights advocates,\162\ and striking workers.\163\ Some examples 
from this past year included:

        <bullet> October 2014. Security officials in Beijing 
        municipality repeatedly interrogated Angela Kockritz, 
        then the Beijing-based correspondent for the German 
        newspaper Die Zeit, in connection to the October 
        detention of her news assistant Zhang Miao.\164\ 
        According to the FCCC, Kockritz ``felt so intimidated 
        by the experience that she resigned her job as her 
        paper's Beijing correspondent and left China.'' \165\
        <bullet> May 2015. Police in Beijing stopped CNN 
        correspondent David McKenzie and his cameraman from 
        covering a peaceful street protest in which migrant 
        workers were demonstrating for access to education for 
        their children.\166\ In a video segment aired on CNN, 
        the police are shown shoving McKenzie, covering the 
        camera lens with a hand, and temporarily detaining the 
        reporting team.\167\
        <bullet> May 2015. Al Jazeera reported that police from 
        Chongqing municipality pointed assault rifles at an Al 
        Jazeera reporter and crew while they were reporting on 
        the aftermath of a protest over a proposed railway in 
        Sichuan province, ``despite having official approval 
        from the local government to film in the area.'' \168\

Visa delays and denial. The FCCC remained concerned that 
``Chinese authorities are continuing to abuse the press card 
and visa renewal process in a political manner.'' \169\ 
Representative trends and examples observed during this 
reporting year include the following:

        <bullet> 2014. The FCCC reported that the end-of-year 
        visa renewal process in 2014 improved in comparison to 
        delays experienced in 2013.\170\ Some journalists faced 
        ``extreme delays'' in 2014 when trying to obtain short-
        term J-2 visiting journalists visas.\171\
        <bullet> November 2014. Nicholas Kristof, a columnist 
        and former Beijing bureau chief for the New York Times, 
        wrote in November 2014 that Chinese authorities would 
        not issue him a visa.\172\
        <bullet> November 2014. When a New York Times reporter 
        asked Chinese President and Communist Party General 
        Secretary Xi Jinping about easing visa restrictions for 
        foreign correspondents at a press conference held 
        during the November 2014 Asia-Pacific Economic 
        Cooperation summit in Beijing,\173\ Xi reportedly 
        responded with metaphors that some commentators 
        interpreted as ``plac[ing] the blame with the 
        journalists'' and their media organizations for the 
        visa problems.\174\
    Notes to Section II--Freedom of Expression

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) on 
10 December 48, art. 19.
    \2\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights (ICCPR), last 
visited 26 July 15. China signed the ICCPR on October 5, 1998.
    \3\ See, e.g., State Council Information Office, ``Progress in 
China's Human Rights in 2012,'' reprinted in Xinhua, 14 May 13, sec. 6. 
The State Council did not mention the International Covenant on Civil 
and Political Rights in its most recent human rights white paper, 
``Progress in China's Human Rights in 2014.'' State Council Information 
Office, ``Progress in China's Human Rights in 2014,'' reprinted in 
Xinhua, 8 June 15.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19(3); Frank La Rue, Report of the Special 
Rapporteur on the Promotion and Protection of the Right to Freedom of 
Opinion and Expression, UN Human Rights Council, A/HRC/17/27, 16 May 
11, para. 24.
    \5\ UN Human Rights Committee, General Comment No. 34, Article 19: 
Freedoms of Opinion and Expression, CCPR/C/GC/34, 12 September 11, 
para. 21.
    \6\ UN GAOR, Hum. Rts. Coun., 12th Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, adopted by Human Rights 
Council resolution 12/16, A/HRC/RES/12/16, 12 October 09, para. 
5(p)(i).
    \7\ PRC Counterespionage Law [Zhonghua renmin gongheguo fanjiandie 
fa], passed and effective 1 November 14.
    \8\ PRC National Security Law [Zhonghua renmin gongheguo guojia 
anquan fa], passed and effective 1 July 15.
    \9\ National People's Congress Standing Committee, PRC Criminal Law 
Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an (jiu)], 
issued 29 August 15, effective 1 November 15.
    \10\ See, e.g., Verna Yu, ``Legal Experts Fear China's National 
Security Law Will Stifle Freedoms,'' South China Morning Post, 11 March 
15; ``UN Human Rights Chief Says China's New Security Law Is Too Broad, 
Too Vague,'' UN News Centre, 7 July 15.
    \11\ See, e.g., International Federation of Journalists and Hong 
Kong Journalists Association, ``New National Security Law in China 
Suppresses Media Freedom,'' 2 July 15, reprinted in IFEX, 7 July 15; 
Yaqiu Wang, Committee to Protect Journalists, ``How China's National 
Security and Cybersecurity Laws Will Further Curb Press Freedom,'' 
Committee to Protect Journalists (blog), 22 July 15.
    \12\ See, e.g., Verna Yu, ``Legal Experts Fear China's National 
Security Law Will Stifle Freedoms,'' South China Morning Post, 11 March 
15; Edward Wong, ``Chinese Security Laws Elevate the Party and Stifle 
Dissent. Mao Would Approve.,'' New York Times, 29 May 15.
    \13\ PRC Counterespionage Law [Zhonghua renmin gongheguo fanjiandie 
fa], passed and effective 1 November 14, art. 13.
    \14\ PRC National Security Law [Zhonghua renmin gongheguo guojia 
anquan fa], passed and effective 1 July 15, art. 76.
    \15\ International Federation of Journalists (IFJ) and Hong Kong 
Journalists Association (HKJA), ``New National Security Law in China 
Suppresses Media Freedom,'' 2 July 15, reprinted in IFEX, 7 July 15. 
The IFJ and HKJA refer to Article 73 in their public statement rather 
than Article 76. Article 76 in the final version of the National 
Security Law is Article 73 in the second review draft of the National 
Security Law. PRC National Security Law [Zhonghua renmin gongheguo 
guojia anquan fa], passed and effective 1 July 15, art. 76; National 
People's Congress Standing Committee, PRC National Security Law (Second 
Review Draft) [Zhonghua renmin gongheguo guojia anquan fa (cao'an erci 
shenyi gao), National People's Congress, 6 May 15, art. 73.
    \16\ PRC National Security Law [Zhonghua renmin gongheguo guojia 
anquan fa], passed and effective 1 July 15, art. 25.
    \17\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 291; National 
People's Congress Standing Committee, PRC Criminal Law Amendment (Nine) 
[Zhonghua renmin gongheguo xingfa xiuzheng'an (jiu)], issued 29 August 
15, effective 1 November 15, item 32.
    \18\ National People's Congress Standing Committee, PRC 
Cybersecurity Law (Draft) [Zhonghua renmin gongheguo wangluo anquan fa 
(cao'an)], issued 6 July 15. See also Adam Segal, ``China's New 
Cybersecurity Law,'' Council on Foreign Relations, Net Politics (blog), 
8 July 15.
    \19\ National People's Congress Standing Committee, PRC 
Cybersecurity Law (Draft) [Zhonghua renmin gongheguo wangluo anquan fa 
(cao'an)], issued 6 July 15, art. 50. See also ``China Voice: Cyber 
Security High on China's Agenda,'' Xinhua, 9 July 15; Gerry Shih et 
al., ``China's Draft Cybersecurity Law Could Up Censorship, Irk 
Business,'' Reuters, 8 July 15.
    \20\ Luo Yufan and Chen Fei, ``China To Draft Cybersecurity Law To 
Protect Internet Sovereignty and National Security'' [Woguo ni zhiding 
wangluo anquan fa weihu wangluo zhuquan guojia anquan], Xinhua, 
reprinted in National People's Congress, 25 June 15; Joel Simon, ``The 
New Censorship: Inside the Global Battle for Media Freedom'' (New York: 
Columbia University Press, 2015), 104. According to Joel Simon of the 
Committee to Protect Journalists, Internet sovereignty is `` . . . the 
principle that within a state's territory the Internet should be under 
the jurisdiction of that country.''
    \21\ National People's Congress Standing Committee, PRC 
Cybersecurity Law (Draft) [Zhonghua renmin gongheguo wangluo anquan fa 
(cao'an)], issued 6 July 15, Explanation [Shuoming], sec. 3(1). 
According to the explanatory section issued with the draft law, 
``Internet sovereignty'' undergirds Article 2. See also Luo Yufan and 
Chen Fei, ``China To Draft Cybersecurity Law To Protect Internet 
Sovereignty and National Security'' [Woguo ni zhiding wangluo anquan fa 
weihu wangluo zhuquan guojia anquan], Xinhua, reprinted in National 
People's Congress, 25 June 15. For an English translation of this 
Xinhua article, see Rogier Creemers, ``Cybersecurity Law Draft Under 
Discussion at NPC,'' China Copyright and Media (blog), 25 June 15.
    \22\ Li Yuxiao and Xu Lu, ``China's Cybersecurity Situation and the 
Potential of International Cooperation,'' in China and Cybersecurity: 
Espionage, Strategy, and Politics in the Digital Domain, eds. Jon R. 
Lindsay et al. (New York: Oxford University Press, 2015), 236.
    \23\ Catherine Shu, ``China Tried To Get World Internet Conference 
Attendees To Ratify This Ridiculous Draft Declaration,'' TechCrunch, 20 
November 14. TechCrunch posted a link to the draft declaration. James 
T. Areddy, ``China Delivers Midnight Internet Declaration--Offline,'' 
Wall Street Journal, China Real Time Report (blog), 21 November 14.
    \24\ UN General Assembly, ``Letter Dated 9 January 2015 From the 
Permanent Representatives of China, Kazakhstan, Kyrgyzstan, the Russian 
Federation, Tajikistan and Uzbekistan to the United Nations Addressed 
to the Secretary-General,'' A/69/723, 13 January 15, item 2(8). Item 
2(8) of the draft states, ``All States must play the same role in, and 
carry equal responsibility for, international governance of the 
Internet, its security, continuity and stability of operation, and its 
development in a way which promotes the establishment of multilateral, 
transparent and democratic international Internet governance mechanisms 
which ensure an equitable distribution of resources, facilitate access 
for all and ensure the stable and secure functioning of the Internet.''
    \25\ Kristen Eichensehr, ``International Cyber Governance: 
Engagement Without Agreement? '' Just Security (blog), 2 February 15; 
J. Michael Daniel et al., ``China's Undermining an Open Internet,'' 
Politico, 4 February 15.
    \26\ J. Michael Daniel et al., ``China's Undermining an Open 
Internet,'' Politico, 4 February 15.
    \27\ Kristen Eichensehr, ``International Cyber Governance: 
Engagement Without Agreement? '' Just Security (blog), 2 February 15. 
See also Henry Roigas, ``An Updated Draft of the Code of Conduct 
Distributed in the United Nations--What's New? '' NATO Cooperative 
Cyber Defence Centre of Excellence, 10 February 15.
    \28\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 293, 225, 105(2). 
For the distinction between the charge of ``subversion'' and ``inciting 
subversion,'' see Joshua Rosenzweig, ``What's the Difference Between 
Subversion and Inciting Subversion? '' Siweiluozi Blog, 19 January 12.
    \29\ Zhang Qianfan, `` `Picking Quarrels and Provoking Trouble' 
Extended to Online Speech'' [Yanshen dao wangluo yanlun de ``xunxin 
zishi''], Financial Times, 4 February 15; Zhang Mingkai, ``Freedom of 
Online Speech and Criminal Offense'' [Wangluo yanlun ziyou yu xingshi 
fanzui], Tencent Internet Crime Research Center, 12 December 14, 
reprinted in New Citizens' Movement Blog, 18 December 14; Zhou Dongxu, 
``Wei Dong: Internet Rumors Not Appropriately Defined as Picking 
Quarrels and Provoking Trouble'' [Wei dong: wangluo zaoyao buyi bei 
jieding wei xunxin zishi], Caixin, 29 September 14. For a translation 
of Zhang Qianfan's Financial Times article, see Dui Hua Foundation, 
``Article 293: Deeming Free Speech Disorder in Internet Space,'' Dui 
Hua Human Rights Journal, 3 March 15. See also Jeremy Daum, ``Updated: 
Quick Note on `Picking Quarrels,' '' China Law Translate (blog), 6 May 
14.
    \30\ Chinese Human Rights Defenders, ``Individuals Detained in 
Mainland China for Supporting Hong Kong Pro-Democracy Protests,'' 19 
October 14, updated 9 July 15.
    \31\ Ibid.
    \32\ Chinese Human Rights Defenders, ``[CHRB] China's Draft 
National Security Law: More License To Abuse Human Rights (5/15-21/
2015),'' 21 May 15.
    \33\ Tom Phillips, ``Chinese Poet Faces Jail for Possession of 
Umbrella,'' Telegraph, 7 October 14.
    \34\ John Henley, ``How the Umbrella Became a Symbol of the Hong 
Kong Democracy Protests,'' Guardian, 29 September 14.
    \35\ Chinese Human Rights Defenders, ``Individuals Detained in 
Mainland China for Supporting Hong Kong Pro-Democracy Protests,'' 19 
October 14, updated 9 July 15.
    \36\ Tom Phillips, ``Chinese Poet Faces Jail for Possession of 
Umbrella,'' Telegraph, 7 October 14; Jack Chang, ``Chinese Art Colony's 
Free-Speech Illusion Shatters,'' Associated Press, 17 October 14. For 
more information on Wang Zang, see the Commission's Political Prisoner 
Database record 2014-00420.
    \37\ ``Urgent: Many Mainland Supporters of Hong Kong's Occupy 
Central Detained (Group Photo)'' [Jinji: dalu duo ming zhichi xianggang 
zhan zhong renshi bei zhua (zutu)], Banned Books, 1 October 14; Chinese 
Human Rights Defenders, ``Prisoner of Conscience--Han Ying,'' 24 
December 14. For more information on Han Ying, see the Commission's 
Political Prisoner Database record 2014-00409.
    \38\ Chinese Human Rights Defenders, ``Individuals Detained in 
Mainland China for Supporting Hong Kong Pro-Democracy Protests,'' 19 
October 14, updated 9 July 15. For more information on Xu Chongyang, 
see the Commission's Political Prisoner Database record 2014-00434.
    \39\ Rights Defense Network, ``Song Ze and Two Others Arrested for 
Supporting Hong Kong's `Occupy Central,' Released on Bail'' [Yin 
shengyuan xianggang ``zhan zhong'' bei bu de song ze deng san ren qubao 
huoshi], 6 June 15. For more information on Song Ze, see the 
Commission's Political Prisoner Database record 2013-00283.
    \40\ ``Mainland Severely Punishes Occupy Central Supporter Xie 
Wenfei With Arrest for Incitement'' [Dalu yancheng zhan zhong zhichizhe 
xie wenfei yi shandian zui pibu,'' Radio Free Asia, 25 November 14; 
Chinese Human Rights Defenders, ``[CHRB] `Inciting Subversion' Cases 
Move Forward; Pu Zhiqiang Still in Legal Limbo (4/23-5/17/15),'' 7 May 
15. For more information on Xie Wenfei, see the Commission's Political 
Prisoner Database record 2014-00209.
    \41\ Rights Defense Network, ``Jiangsu, Huai'an Rights Defender 
Wang Mo Arrested for Inciting Subversion of State Power'' [Jiangsu 
huai'an weiquan renshi wang mo bei yi shexian shandong dianfu guojia 
zhengquan zui daibu], 17 November 14. For more information on Wang Mo, 
see the Commission's Political Prisoner Database record 2014-00328.
    \42\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 105.
    \43\ Rights Defense Network, ``Xu Yan: Lawyer Yu Wensheng Arrested 
on November 20'' [Xu yan: yu wensheng lushi yi yu 11 yue 20 ri bei 
pibu], 23 November 14. For more information on Yu Wensheng, see the 
Commission's Political Prisoner Database record 2014-00387.
    \44\ Chinese Human Rights Defenders, ``Prisoner of Conscience--Xia 
Lin,'' 16 February 15. For more information on Xia Lin, see the 
Commission's Political Prisoner Database record 2014-00432.
    \45\ Rights Defense Network, ``Xu Yan: Lawyer Yu Wensheng Arrested 
on November 20'' [Xu yan: yu wensheng lushi yi yu 11 yue 20 ri bei 
pibu], 23 November 14; Chinese Human Rights Defenders, ``Prisoner of 
Conscience--Xia Lin,'' 16 February 15.
    \46\ For information on the political sensitivity of historical 
accounts, see Ian Johnson, ``China's Brave Underground Journal,'' New 
York Review of Books, 4 December 14. History, according to Johnson, 
``is one of China's most sensitive issues . . . posing challenges to a 
regime for which history represents legitimacy.''
    \47\ Chinese Human Rights Defenders, ``[CHRB] 82-Year-Old Dissident 
Writer Found `Guilty,' Given 2.5-Year Suspended Sentence (2/20-26/
2015),'' 26 February 15. Tie's wife reported that the case was linked 
to Tie's publication of the memoirs of individuals labeled 
``Rightists'' during Mao era political campaigns and a July 2014 essay 
critical of Liu Yunshan, a member of the Standing Committee of the 
Political Bureau of the Party Central Committee and the long-time head 
of the Central Propaganda Department. Chris Buckley, ``Beijing Formally 
Charges Writer Who Published Memoirs of Victims of Mao Era,'' New York 
Times, 23 October 14; ``Tie Liu: Liu Yunshan Is the Behind-the-Scenes 
Backer of China's News and Publishing Corruption'' [Tie liu: liu 
yunshan shi zhongguo xinwen chuban fubai de zonghoutai], China Free 
Press, 29 July 14. For background information on the Anti-Rightist 
Campaign, see Shao Yangxiang, ``Who Will Compensate Victims of the 
Anti-Rightist Campaign? '' in Human Rights in China, China Rights 
Forum: Legal Reform and Accountability, 2007, No. 2, 171. For more 
information on Huang Zerong, see the Commission's Political Prisoner 
Database record 2014-00347.
    \48\ Edward Wong, ``Prison Sentence for Maker of Documentary on 
Chinese Constitutional Rule,'' New York Times, 30 December 14; ``China 
Jails Filmmaker Over Documentary on the Country's Constitution,'' Radio 
Free Asia, 30 December 14. For more information on Shen Yongping, see 
the Commission's Political Prisoner Database record 2014-00389.
    \49\ ``We Are No Longer Silent--Fundraising Notice for Mr. Fu 
Zhibin'' [Women bu zai chenmo--wei fu zhibin xiansheng mukuan gonggao], 
reprinted in Rights Defense Network, 8 March 15; Rights Defense 
Network, ``Fu Zhibin, a Writer From Nanchang, Jiangxi, Faces Litigation 
After Six-Month Detention'' [Jiangxi nanchang zuojia fu zhibin bei juya 
bannian hou mianlin bei qisu], 9 March 15. Fu reportedly published a 
collection of his essays on the history of the Chinese Communist Party 
and the Soviet Union which was available for purchase online. For more 
information on Fu Zhibin, see the Commission's Political Prisoner 
Database record 2015-00085.
    \50\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinions adopted by the Working Group on Arbitrary Detention at Its 
70th Sess., No. 21/2014 (China), A/HRC/WGAD/2014/xx, 23 September 14, 
para. 28. For more information on Wang Hanfei, see the Commission's 
Political Prisoner Database record 2015-00218.
    \51\ Chinese Human Rights Defenders, ``Submission to UN on Wang 
Hanfei--August 29, 2013,'' 17 September 13; PRC Government, ``Chinese 
Government's Response on Case of Wang Hanfei, November 1, 2013,'' 
reprinted in Chinese Human Rights Defenders, 30 October 13. Chinese 
Human Rights Defenders noted in its August 2013 submission that the 
court sentenced Wang Hanfei to four years in prison--three years and 
six months on the fraud charge and six months on the illegal business 
activity charge. The Chinese government response to the UN Working 
Group on Arbitrary Detention indicated that Wang's sentence is for 
three years and six months. The discrepancy in the actual length of 
sentence is provided for in Article 69 of the PRC Criminal Law. See PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, art. 69.
    \52\ Chinese Human Rights Defenders, ``[CHRB] `Inciting Subversion' 
Cases Move Forward; Pu Zhiqiang Still in Legal Limbo (4/23-5/7/15),'' 7 
May 15.
    \53\ Rights Defense Network, ``Guangzhou Netizen Liang Qinhui 
(Online Name: Dagger) Faces Criminal Detention for Posting Comments'' 
[Guangzhou wangyou liang qinhui (wangming: jiandao) yin fatie zao 
xingshi juliu], 5 February 15; ``Internet Authors `Dagger' and `Right 
Path for China' Among Four Formally Arrested for `Inciting Subversion' 
'' [Wangluo zuojia ``jiandao'' ji ``huaxia zhengdao'' deng si ren bei 
yi ``shandian zui'' pibu], Radio Free Asia, 2 April 15. For more 
information on Liang Qinhui, see the Commission's Political Prisoner 
Database record 2015-00045.
    \54\ ``Internet Authors `Dagger' and `Right Path for China' Among 
Four Formally Arrested for `Inciting Subversion' '' [Wangluo zuojia 
``jiandao'' ji ``huaxia zhengdao'' deng si ren bei yi ``shandian zui'' 
pibu], Radio Free Asia, 2 April 15; ``Police in China's Guangdong Widen 
Crackdown on Activists, Netizens,'' Radio Free Asia, 10 April 15. For 
more information on Zheng Jingxian, see the Commission's Political 
Prisoner Database record 2015-00046.
    \55\ ``Police in China's Guangdong Widen Crackdown on Activists, 
Netizens,'' Radio Free Asia, 10 April 15.
    \56\ ``Well-Known Blogger `Right Path for China' Kidnapped by 
Guangdong National Security'' [Zhiming bozhu ``huaxia zhengdao'' bei 
guangdong guo'an bangjia], Epoch Times, 18 February 15.
    \57\ Peter Foster, ``Four Years On, Nobel Prize Winner Liu Xiaobo 
Still Unable To Collect Prize From Chinese Prison,'' Telegraph, 10 
October 14; Office of the Spokesperson, U.S. Department of State, 
``Statement by Secretary Kerry: Fifth Anniversary of Liu Xiaobo's 
Conviction,'' 24 December 14; Edward Wong and Ian Johnson, ``Liu 
Xiaobo, Nobel-Winning Chinese Dissident, Is Said To Send Message From 
Prison,'' New York Times, 10 December 14.
    \58\ Global Voice Advocacy, ``Global Voices Calls for Immediate 
Release of Jailed Online Media Workers and Activists,'' 24 January 15; 
PEN International, ``China: PEN Renews Calls for Release of Poet Liu 
Xiaobo and Wife Liu Xia,'' 8 December 14; Mairead Maguire, Arch. 
Desmond Tutu, Jody Williams, Shirin Ebadi, et al., ``Letter to UN 
Secretary General et al.,'' reprinted in Human Rights Foundation, 10 
October 14; Naomi Woodley, ``Prime Minister Tony Abbott Praises Chinese 
President Xi Jinping's Commitment to Democracy, but Tourism Industry 
Not Convinced by FTA,'' Australian Broadcasting Corporation, 17 
November 14; Office of the Spokesperson, U.S. Department of State, 
``Statement by Secretary Kerry: Fifth Anniversary of Liu Xiaobo's 
Conviction,'' 24 December 14.
    \59\ Amnesty International, ``AI: Liu Xia,'' 12 November 14; ``Liu 
Xia: A Photographer From China,'' Wall Street Journal, February 2015; 
PEN International, ``China: PEN Renews Calls for Release of Poet Liu 
Xiaobo and Wife Liu Xia,'' 8 December 14; U.S. Embassy in China, 
``Human Rights Day Statement by Ambassador Max Baucus,'' 10 December 
14.
    \60\ ``Lawyer Denied Bail After Detention Ahead of Tiananmen 
Anniversary,'' Associated Press, reprinted in South China Morning Post, 
10 June 14.
    \61\ William Dobson, ``The World's Toughest Job: Try Being a Human 
Rights Lawyer in China,'' Slate, 6 June 12 (on Pu's defense of China 
Reform magazine); Philip P. Pan, ``In China, Turning the Law Into the 
People's Protector,'' Washington Post, 28 December 04 (on Pu's 
representation of Chen Kuidi and Wu Chuntao in 2004 over the right to 
criticize officials); Li Lingli, ``Pu Zhiqiang: Little by Little, 
Moving Toward the Abolition of the RTL System'' [Pu zhiqiang: yi 
diandian cujin laojiao zhidu feichu], Southern Weekend, 10 September 12 
(on four speech-related reeducation through labor cases in Chongqing 
municipality, including college graduate village head Ren Jianyu).
    \62\ Teng Biao, ``What Will This Crackdown on Activists Do to 
China's Nascent Civil Society? '' Guardian, 24 January 15.
    \63\ Li Lingli, ``Pu Zhiqiang: Little by Little, Moving Toward the 
Abolition of the RTL System'' [Pu zhiqiang: yi diandian cujin laojiao 
zhidu feichu], Southern Weekend, 10 September 12.
    \64\ Chinese Human Rights Defenders, ``Individuals Affected by 
Government Crackdown Around 25th Anniversary of Tiananmen Massacre,'' 
29 May 14, updated 10 July 15; China Digital Times, ``Tiananmen 25: 
Tight Control on Square and Online,'' 5 June 14; John Garnaut, 
``Tiananmen Square 25 Years On: New Repression a Bitter Echo of the 
Past,'' The Age, 4 June 14; CECC, 2014 Annual Report, 9 October 14, 66-
67, 141. See also Pu Zhiqiang, `` `June Fourth' Seventeen Years Later: 
How I Kept a Promise,'' translated by Perry Link in New York Review of 
Books, 10 August 06. A graduate student at China University of Politics 
and Law in Beijing municipality at the time, Pu spent the early morning 
hours of June 4, 1989, in Tiananmen Square with other classmates and 
reported that he visited the square on June 3 every year at least until 
2005.
    \65\ Shan Renping, ``Legal Activists Must Also Respect Rule of 
Law,'' Global Times, 8 May 14; Austin Ramzy, ``Communist Party 
Newspaper Denounces Detained Lawyer,'' New York Times, 9 May 14. 
According to the New York Times report, ``Shan Renping'' is a pen name 
for Global Times editor Hu Xijin.
    \66\ Beijing Municipal People's Procuratorate Second Branch, ``Pu 
Zhiqiang Indictment'' [Pu zhiqiang qisu shu], reprinted in Rights 
Defense Network, 20 May 15; PRC Criminal Law [Zhonghua renmin gongheguo 
xingfa], passed 1 July 79, amended 14 March 97, effective 1 October 97, 
amended 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
28 February 05, 29 June 06, 28 February 09, 25 February 11, arts. 249, 
293(2). Article 249 is a subset of Part 2, Chapter 4, or ``crimes of 
infringing upon citizens' right of the person and democratic rights.'' 
Article 293(2) is a subset of Part 2, Chapter 6 ``crimes of obstructing 
the administration of public order,'' Section 1 ``crimes of disturbing 
public order.'' See also Rights Defense Network, ``News Flash: Pu 
Zhiqiang Today Indicted on Crimes of Suspected Incitement of Ethnic 
Hatred and Picking Quarrels and Provoking Trouble'' [Kuaixun: pu 
zhiqiang jinri bei yi shexian shandong minzu chouhen zui, xunxin zishi 
zui qisu], 15 May 15; Chris Buckley, ``Chinese Rights Lawyer Detained 
in 2014 Will Stand Trial,'' New York Times, 15 May 15.
    \67\ Oiwan Lam, Global Voices Advocacy, ``Human Rights Lawyer's 
Indictment Marks the Beginning of a `Weibo Inquisition' in China,'' 22 
May 15; Rights Defense Network, ``Content of Pu Zhiqiang's 28 Weibo 
Posts Used by the Police and Procuratorate To Indict on Picking 
Quarrels and Provoking Trouble, Incitement of Ethnic Hatred and 
Splittism Charges'' [Pu zhiqiang bei gongjianfang zhikong shexian 
xunxin zishi, shandong minzu chouhen, shandong fenlie guojia de 28 tiao 
weibo neirong], 28 January 15, items 14, 15, 18, 19, 21.
    \68\ Perry Link, ``China: Inventing a Crime,'' New York Review of 
Books, 9 February 15; Oiwan Lam, Global Voices Advocacy, ``Human Rights 
Lawyer's Indictment Marks the Beginning of a `Weibo Inquisition' in 
China,'' 22 May 15; Rights Defense Network, ``Content of Pu Zhiqiang's 
28 Weibo Posts Used by the Police and Procuratorate To Indict on 
Picking Quarrels and Provoking Trouble, Incitement of Ethnic Hatred and 
Splittism Charges'' [Pu zhiqiang bei gongjianfang zhikong shexian 
xunxin zishi, shandong minzu chouhen, shandong fenlie guojia de 28 tiao 
weibo neirong], 28 January 15, items 3 (on Shen Jilan and Mao Xinyu), 
10 (Tian Zhenhui), 11 (Huang Qifan); Beijing Municipal People's 
Procuratorate Second Branch, ``Pu Zhiqiang Indictment'' [Pu zhiqiang 
qisu shu], reprinted in Rights Defense Network, 20 May 15. The 
indictment only mentions ``Shen Xx'' and ``Tian Xx'' and not Mao Xinyu 
or Huang Qifan. ``Human Rights Lawyer Pu Zhiqiang's Case Again Sent to 
Procuratorate'' [Renquan lushi pu zhiqiang an zaici yisong 
jianchayuan], Radio Free Asia, 8 April 15. Authorities also had 
investigated Pu on two other charges--``illegally obtaining personal 
information of citizens'' and ``inciting splittism''--but did not 
include these in the May 2015 indictment.
    \69\ ``Zhang Xuezhong: Writing Weibo Posts Also Is a Crime?--A 
Legal Analysis of Pu Zhiqiang's Case'' [Zhang xuezhong: xiexie weibo ye 
fanzui?--guanyu pu zhiqiang an de falu fenxi], Outside the Great 
Firewall (blog), 21 May 15; Zhang Qianfan, ``Conviction for One's Words 
Is a Legal Travesty'' [Yi yan dingzui shi fazhi daji], Financial Times, 
22 May 15.
    \70\ ``Zhang Xuezhong: Writing Weibo Posts Also Is a Crime?--A 
Legal Analysis of Pu Zhiqiang's Case'' [Zhang xuezhong: xiexie weibo ye 
fanzui?--guanyu pu zhiqiang an de falu fenxi], Outside the Great 
Firewall (blog), 21 May 15.
    \71\ ``Trial Period for Pu Zhiqiang's Case Again Extended by Three 
Months'' [Pu zhiqiang an shenxian zai yanchang 3 ge yue], Radio Free 
Asia, 20 August 15.
    \72\ State Council General Office, Guiding Opinion on Speeding Up 
High-Speed Broadband Internet Construction To Advance Internet Speeds 
and Reduce Costs [Guowuyuan bangongting guanyu jiakuai gaosu kuandai 
wangluo jianshe tuijin wangluo tisu jiangfei de zhidao yijian], 16 May 
15, reprinted in Ministry of Industry and Information Technology, 20 
May 15; ``China Vows Massive Investment To Improve Internet Services,'' 
Xinhua, 20 May 15. See also CECC, 2014 Annual Report, 9 October 14, 62.
    \73\ Ibid.
    \74\ ``CNNIC Issues 35th `Statistical Report on Internet 
Development in China' '' [CNNIC fabu di 35 ci ``zhongguo hulian wangluo 
fazhan zhuangkuang tongji baogao''], China Internet Network Information 
Center, 3 February 15; China Internet Network Information Center, ``The 
35th Statistical Report on Internet Development in China'' [Di 35 ci 
zhongguo hulian wangluo fazhan zhuangkuang tongji baogao], January 
2015, 25.
    \75\ Ibid.; Ibid., 28.
    \76\ ``Active Weixin Accounts Exceeded 500 Million by End of 2014'' 
[Weixin huoyue yonghu 2014 niandi tupo 5 yi], Radio Free Asia, 19 March 
15; Jason Q. Ng, Citizen Lab, Munk School of Global Affairs, University 
of Toronto, ``Politics, Rumors, and Ambiguity: Tracking Censorship on 
WeChat's Public Accounts Platform,'' 20 July 15. Jason Q. Ng of the 
University of Toronto Citizen Lab notes that WeChat ``is the primary 
communications application for many Chinese Internet users . . . .''
    \77\ Jason Q. Ng, Citizen Lab, Munk School of Global Affairs, 
University of Toronto, ``Politics, Rumors, and Ambiguity: Tracking 
Censorship on WeChat's Public Accounts Platform,'' 20 July 15.
    \78\ Cyberspace Administration of China, Internet User Account Name 
Management Provisions [Hulian wang yonghu zhanghao mingcheng guanli 
guiding], issued 4 February 15, effective 1 March 15. For an unofficial 
English translation of the regulations, see Rogier Creemers, ``Internet 
User Account Name Management Regulations,'' China Copyright and Media 
(blog), 4 February 15.
    \79\ Josh Chin, ``China Is Requiring People To Register Real Names 
for Some Internet Services,'' Wall Street Journal, 4 February 15; 
Rogier Creemers, ``New CAC Rules for User Names and Social Media 
Handles,'' China Copyright and Media (blog), 4 February 15; Paul 
Carsten, ``China Censorship Sweep Deletes More Than 60,000 Internet 
Accounts,'' Reuters, reprinted in New York Times, 27 February 15.
    \80\ Cyberspace Administration of China, Internet User Account Name 
Management Provisions [Hulian wang yonghu zhanghao mingcheng guanli 
guiding], issued 4 February 15, effective 1 March 15, arts. 2, 5. See 
also ``Internet User Account Name Management Regulations,'' translated 
in China Copyright and Media (blog), 4 February 15.
    \81\ Cyberspace Administration of China, Internet User Account Name 
Management Provisions [Hulian wang yonghu zhanghao mingcheng guanli 
guiding], issued 4 February 15, effective 1 March 15, art. 4.
    \82\ Ibid., art 6. See also ``Internet User Account Name Management 
Regulations,'' translated in China Copyright and Media (blog), 4 
February 15.
    \83\ Ibid., arts. 7, 8. Ibid.
    \84\ Paul Carsten, ``China Censorship Sweep Deletes More Than 
60,000 Internet Accounts,'' Reuters, reprinted in New York Times, 27 
February 15.
    \85\ ``Central Government Key News Websites Cleaned Up and More 
Than 7,000 Closed for Violating Regulations'' [Zhongyang zhongdian 
xinwen wangzhan qingli guanbi qiqian duo ge weigui zhanghao], Radio 
Free Asia, 18 March 15.
    \86\ Gerry Shih, ``China Clamps Down on Sexual Content on WeChat,'' 
Reuters, 25 March 15; ``Chinese Internet Giant NetEase Accused of 
Rumour-Mongering, Spreading Pornography,'' Agence France-Presse, 
reprinted in South China Morning Post, 3 February 15; ``China Blasts 
NetEase for Spreading Porn in Latest Push To Cleanse Cyberspace,'' 
Reuters, reprinted in New York Times, 2 February 15.
    \87\ Wu Weizhen, ``People's Daily Online Commentary: Creating a 
Healthy and Green Online Space for Young People'' [Renmin wangping: wei 
qingshaonian dazao jiankang luse wangluo kongjian], People's Daily, 25 
May 15.
    \88\ Wang Changqin, ``Ministry of Culture Rectifies Violent- and 
Terror-Themed Anime, Many Anime Websites Investigated'' [Wenhuabu 
zhengzhi baokong dongman duo jia dongman wangzhan bei cha], Prospects 
Net, 31 March 15; Leo Kelion, ``China Cracks Down on Violent Anime 
Online Cartoons,'' BBC, 1 April 15; Lilian Lin, ``China's Censors Take 
Aim at a New Target: Japanese Cartoons,'' Wall Street Journal, China 
Real Time Report (blog), 3 April 15.
    \89\ ``Internet Regulator Shuts Down 100-Plus Illegal Dating 
Websites,'' Xinhua, 18 May 15.
    \90\ Adrian Wan, ``Censors Close WeChat Accounts for `Spreading 
Distorted Historical Information,' '' South China Morning Post, 20 
January 15, updated 21 April 15. See also ``Government Shuts Websites, 
Wechat Accounts for `Distorting History,' `Publishing News Without a 
Permit,' '' Fei Chang Dao (blog), 9 February 15; ``Chinese Authorities 
Close History Websites, CPC Strengthens Ideological Control'' [Zhongguo 
dangju feng lishi wangzhan zhonggong jiaqiang yishi xingtai kongzhi], 
Radio Free Asia, 16 February 15.
    \91\ Adrian Wan, ``Censors Close WeChat Accounts for `Spreading 
Distorted Historical Information,' '' South China Morning Post, 20 
January 15, updated 21 April 15.
    \92\ Communist Party Youth League, Central Committee Circular on 
Extensive Establishment of Youth Online Civilization Volunteer Teams 
[and] Further Advancing Youth Online Civilization Volunteer Actions 
[Guanyu guangfan zujian qingnian wangluo wenming zhiyuanzhe duiwu, 
shenru tuijin qingnian wangluo wenming zhiyuan xingdong de tongzhi], 
reprinted in Hegang Teacher's College website, last visited 29 July 15; 
``Communist Youth League To Recruit 10 Million Youth Internet 
Volunteers'' [Gongqingtuan zhao guo qianwan qingnian wangluo yigong], 
South China Morning Post, 7 April 15.
    \93\ Communist Party Youth League, Central Committee Circular on 
Extensive Establishment of Youth Online Civilization Volunteer Teams 
[and] Further Advancing Youth Online Civilization Volunteer Actions 
[Guanyu guangfan zujian qingnian wangluo wenming zhiyuanzhe duiwu, 
shenru tuijin qingnian wangluo wenming zhiyuan xingdong de tongzhi], 
reprinted in Hegang Teacher's College Website, last visited 29 July 15, 
3; Xu Yangjingjing and Simon Denyer, ``Wanted: Ten Million Chinese 
Students To `Civilize' the Internet,'' Washington Post, 10 April 15; 
Patrick Wong, ``Leaked Emails Reveal Details of China's Online `Youth 
Civilization Volunteers,' '' Global Voices Online, 25 May 15.
    \94\ Patrick Boehler, ``Hackers Attack GreatFire.org, a Workaround 
for Websites Censored in China,'' New York Times, Sinosphere (blog), 20 
March 15; Paul Mozur, ``China Appears To Attack GitHub by Diverting Web 
Traffic,'' New York Times, 30 March 15; Eva Dou, ``U.S. Coding Website 
GitHub Hit With Cyberattack,'' Wall Street Journal, 29 March 15. For a 
list of media sources covering the cyberattacks, see Bill Marczak, 
Nicholas Weaver, et al., Citizen Lab, Munk School of Global Affairs, 
University of Toronto, ``China's Great Cannon,'' 10 April 15. See also 
GreatFire.org, ``Chinese Authorities Compromise Millions in 
Cyberattacks,'' 31 March 15.
    \95\ For GreatFire.org's website, see https://en.greatfire.org.
    \96\ Klint Finley, ``What Exactly Is GitHub Anyway? '' TechCrunch, 
14 July 12.
    \97\ Eva Dou, ``U.S. Coding Website GitHub Hit With Cyberattack,'' 
Wall Street Journal, 29 March 15.
    \98\ Bill Marczak, Nicholas Weaver, et al., Citizen Lab, Munk 
School of Global Affairs, University of Toronto, ``China's Great 
Cannon,'' 10 April 15.
    \99\ Ibid.
    \100\ Paul Mozur, ``China Appears To Attack GitHub by Diverting Web 
Traffic,'' New York Times, 30 March 15.
    \101\ Bill Marczak, Nicholas Weaver, et al., Citizen Lab, Munk 
School of Global Affairs, University of Toronto, ``China's Great 
Cannon,'' 10 April 15.
    \102\ UN Human Rights Council, ``Tenth Anniversary Joint 
Declaration: Ten Key Challenges to Freedom of Expression in the Next 
Decade,'' Addendum to Report of the Special Rapporteur on the Promotion 
and Protection of the Rights to Freedom of Opinion and Expression, A/
HRC/14/23/Add.2, 25 March 10, art. 1(a).
    \103\ Sarah Cook, Freedom House, ``The Politburo's Predicament: 
Confronting the Limitations of Chinese Communist Party Repression,'' 
January 2015, 11.
    \104\ David Bandurski, ``Taming the Flood: How China's Leaders 
`Guide' Public Opinion,'' Asia Society, ChinaFile (blog), 20 July 15.
    \105\ See the Chinese Digital Times Ministry of Truth archives at 
http://www.china
digitaltimes.net/china/ministry-of-truth.
    \106\ ``Minitrue: Beijing's Decision on Hong Kong Elections,'' 
China Digital Times, 1 September 14; ``Minitrue: HK Student Federation 
Boycotts Class,'' China Digital Times, 23 September 14.
    \107\ ``Minitrue: The Zhou Yongkang Case,'' China Digital Times, 7 
December 14; Michael Forsythe, ``Zhou Yongkang, Ex-Security Chief in 
China, Gets Life Sentence for Graft,'' New York Times, 11 June 15.
    \108\ ``Minitrue: Cruise Capsizes in Yangtze,'' China Digital 
Times, 2 June 15. See also Mimi Lau, ``Gag Order Imposed on Chinese 
Media Over Cruise Ship Disaster,'' South China Morning Post, 4 June 15.
    \109\ ``Minitrue: Clamping Down on `Under the Dome,' '' China 
Digital Times, 3 March 15.
    \110\ Celia Hatton, ``Under the Dome: The Smog Film Taking China by 
Storm,'' BBC, 2 March 15.
    \111\ Ba Cheng, ``Beijing News: Abnormal Interference With the 
Supervision of Public Opinion, Breeding Tigers Inevitably Brings 
Trouble'' [Xinjingbao: bu zhengchang ganyu yulun jiandu, biran yanghu 
yihuan], Beijing News, reprinted in Caixin, 31 March 15. For a 
translation of the March 31, 2015, Beijing News editorial, see David 
Bandurski, ``Breeding Tigers, and China's Caged Press,'' China Media 
Project, 10 April 15.
    \112\ Sarah Cook, Freedom House, ``The Politburo's Predicament: 
Confronting the Limitations of Chinese Communist Party Repression,'' 
January 2015, 29. According to the Freedom House report, ``The space 
for investigative reporting shrank, as several prominent journalists 
were forced to leave their positions, while others were detained and 
faced potential imprisonment.'' Hu Yong, `` `A Power Capable of Making 
Us Weep': Journalism Under Attack,'' Asia Society, ChinaFile (blog), 20 
October 14. See also Malcolm Moore, ``Advice for Journalists in China: 
Hire a Lawyer,'' Telegraph, 17 July 14.
    \113\ David Bandurski, ``Breeding Tigers, and China's Caged 
Press,'' China Media Project, 10 April 15.
    \114\ Wang Wei, ``Only the Very Best: A Discussion of Southern 
Weekend's Methodology in Revamping the Newspaper'' [Zhi zuo jingpin: 
nanfang zhoumo 2014 gaiban fangfa lun], Southern Media Net, 13 November 
14.
    \115\ Keith B. Richburg, ``Chinese Journalists Mount Rare Protest 
Over an Alleged Act of Government Censorship,'' Washington Post, 4 
January 13; CECC, 2013 Annual Report, 10 October 13, 6.
    \116\ Maria Repnikova and Kecheng Fang, ``Behind the Fall of 
China's Greatest Newspaper,'' Foreign Policy, TeaLeafNation (blog), 29 
January 15.
    \117\ Ba Cheng, ``Beijing News: Abnormal Interference With the 
Supervision of Public Opinion, Breeding Tigers Inevitably Brings 
Trouble'' [Xinjingbao: bu zhengchang ganyu yulun jiandu, biran yanghu 
yihuan], Beijing News, reprinted in Caixin, 31 March 15; David 
Bandurski, ``Breeding Tigers, and China's Caged Press,'' China Media 
Project, 10 April 15.
    \118\ China Media Project (CMP), ``Supervision by Public Opinion'' 
[Yulun jiandu], CMP Media Dictionary, 9 December 10, last visited 1 
August 15.
    \119\ Han Xiao, ``Chinese Media and the Tianjin Disaster,'' China 
Media Project, 20 August 15. See also ``Tianjin: Journalism Stands as 
Official Line Stumbles,'' China Digital Times, 19 August 15.
    \120\ ``Minitrue: Media Directives on Tianjin Port Explosions,'' 
China Digital Times, 13 August 15. China Digital Times reposted 
directives from the Cyberspace Administration of China, the Tianjin 
municipality Propaganda Department, and a province-level Internet 
propaganda office. See also ``Tianjin: Journalism Stands as Official 
Line Stumbles,'' China Digital Times, 19 August 15.
    \121\ Verna Yu, ``Publisher of China's Leading Pro-Reform Magazine 
Vows To Carry on Despite Growing Pressure From Authorities,'' South 
China Morning Post, 29 April 15.
    \122\ Ibid.; `` `Yanhuang Chunqiu' Forced To `Switch Mother-in-
Law,' Du Daozheng: Prepared To Discontinue Publication'' [``Yanhuang 
chunqiu'' bei po ``huan pojia'' du daozheng: zuohao tingkan zhunbei], 
Deutsche Welle, 19 September 14.
    \123\ Minnie Chan, ``Princeling Hu Deping To Head Up Embattled 
Liberal Magazine Yanhuang Chunqiu,'' South China Morning Post, 27 
October 14; Verna Yu, ``Publisher of China's Leading Pro-Reform 
Magazine Vows To Carry on Despite Growing Pressure From Authorities,'' 
South China Morning Post, 29 April 15.
    \124\ `` `Yanhuang Chunqiu' Forced To `Switch Mother-in-Law,' Du 
Daozheng: Prepared To Discontinue Publication'' [``Yanhuang chunqiu'' 
bei po ``huan pojia'' du daozheng: zuohao tingkan zhunbei], Deutsche 
Welle, 19 September 14.
    \125\ ``Chinese Magazine Warned by Censors, Future Now Uncertain,'' 
Radio Free Asia, 27 April 15.
    \126\ ``RFA Exclusive: Hu Deping To Serve as Publisher of `Yanhuang 
Chunqiu,' Lu De To Serve as Executive Deputy Publisher'' [RFA duijia: 
hu deping churen ``yanhuang chunqiu'' shezhang lu de ren changwu fu 
shezhang], Radio Free Asia, 25 October 14; Minnie Chan, ``Princeling Hu 
Deping To Head Up Embattled Liberal Magazine Yanhuang Chunqiu,'' South 
China Morning Post, 27 October 14.
    \127\ `` `Yanhuang Chunqiu' Purged, Xinhua News Agency Asks General 
Editor To Leave'' [``Yanhuang chunqiu'' bei zheng zongbian zao 
xinhuashe yaoqiu tuichu], Ming Pao, reprinted in Aboluowang, 25 April 
15; ``Chinese Magazine Warned by Censors, Future Now Uncertain,'' Radio 
Free Asia, 27 April 15.
    \128\ Edward Wong, ``CCTV, China's Propaganda Tool, Finds Itself at 
Center of Antigraft Drive,'' New York Times, 13 February 15; Liu Xin, 
``CCDI Vows To Fight Graft in Film, Radio, Television Industries,'' 
Global Times, 9 February 15; Alice Yan, ``China To Step Up Anti-Graft 
Drive in Media and Broadcasting Sector,'' South China Morning Post, 31 
January 15.
    \129\ Edward Wong, ``CCTV, China's Propaganda Tool, Finds Itself at 
Center of Antigraft Drive,'' New York Times, 13 February 15.
    \130\ State Administration for Press, Publications, Radio, Film and 
Television (SAPPRFT), ``SAPPRFT Announcement on Extortion Case of 21st 
Century Business Herald et al., Administrative Handling Details'' 
[Guojia xinwen chuban guangdian zongju tongbao 21 shijie wang deng 
xinwen qiaozha anjian xingzheng chuli qingkuang], 30 April 15; 
``Suspension and Closure of Publications Highlight the Dilemma of 
Chinese Media'' [Tingban tingkan zhengdun zhangxian zhongguo xinwen 
jiongjing], Radio Free Asia, 30 April 15; Joe McDonald, ``China Closes 
Major Business News Website in Extortion Case,'' Washington Post, 30 
April 15.
    \131\ ``Zhan Jiang: Chinese Media's Predicament and the Way 
Forward'' [Zhan jiang: zhongguo meiti de kunjing yu chulu], Consensus 
Net, 22 January 15, 10-22 14:46:22. This interview with Zhan Jiang 
apparently took place on October 22, 2014, but was posted in late 
January 2015.
    \132\ ``China Holds Eight Journalists Amid Allegations of 
`Extortion,' '' Radio Free Asia, 4 September 14.
    \133\ Ibid.
    \134\ Edward Wong, ``CCTV, China's Propaganda Tool, Finds Itself at 
Center of Antigraft Drive,'' New York Times, 13 February 15.
    \135\ ``Zhan Jiang: Chinese Media's Predicament and the Way 
Forward'' [Zhan jiang: zhongguo meiti de kunjing yu chulu], Consensus 
Net, 22 January 15, 10-22 16:39:22. This interview with Zhan Jiang 
apparently took place on October 22, 2014, but was posted in late 
January 2015.
    \136\ Liu Xin, ``CCDI Vows To Fight Graft in Film, Radio, 
Television Industries,'' Global Times, 9 February 15.
    \137\ Ibid.; Alice Yan, ``China To Step Up Anti-Graft Drive in 
Media and Broadcasting Sector,'' South China Morning Post, 31 January 
15.
    \138\ Hu Jianhui, ``Phony Xinhua Reporter Named Huang Sentenced to 
6 Years and 6 Months for Fraud, National `Sweep Away Pornography, 
Strike Down Illegal Publications' Office Announced Fourth Group of 
`Three Fakes' Target Cases'' [Jiamao xinhuashe jizhe xingpian huang mou 
huoxing 6 nian 6 ge yue, quanguo ``saohuang dafei'' ban tongbao si qi 
``san jia'' zhongdian anjian], Legal Daily, reprinted in China Court, 
16 January 15. The ``Sweep Away Pornography, Strike Down Illegal 
Publications'' Task Force Office continued similar investigations in 
2015. See, e.g., ``National Sweep Away Pornography, Strike Down Illegal 
Publications Office Announcement on Second Group Totaling 5 Cases of 
Fake Journalists' Fraud, Etc.'' [Quanguo saohuang dafei ban tongbao 
di'er pi gong 5 qi jia jizhe zhapian deng anjian], People's Daily, 28 
April 15.
    \139\ He Yong, ``Former Liaoning Television Executive Director Shi 
Lianwen Repents in Prison'' [Liaoning guangbo dianshitai yuan taizhang 
shi lianwen yuzhong chanhui], People's Daily, 21 January 15.
    \140\ David Bandurski, ``Fifty Shades of Xi,'' China Media Project, 
30 March 15.
    \141\ Simon Denyer, ``Arrest of Inspirational Editor Shen Hao Marks 
End of an Era for Chinese Journalism,'' Washington Post, 10 January 15.
    \142\ ``In `21st Century Media' Cases, Indictments Brought Against 
30 Defendants and 15 Accused Entities'' [``Ershiyi shiji chuanmei'' 
xilie an 30 ming beigaoren ji 15 jia beigao danwei bei tiqi gongsu], 
People's Daily, 20 August 15. See also ``China Indicts Dozens of 
Journalists, Media Companies for `Extortion,' '' Radio Free Asia, 21 
August 15; PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 274, 226.
    \143\ Bob Dietz, Committee to Protect Journalists, ``In China, 
Mainstream Media as Well as Dissidents Under Increasing Pressure,'' 
Committee to Protect Journalists (blog), 17 December 14; Shazdeh Omari, 
Committee to Protect Journalists, ``China Is World's Worst Jailer of 
the Press; Global Tally Second Worst on Record,'' 17 December 14.
    \144\ ``Seven of Ilham's Students Sentenced to Between Three and 
Eight Years'' [Yilihamu an 7 xuesheng huoxing 3 zhi 8 nian], Radio Free 
Asia, 9 December 14.
    \145\ Michael Martina, ``China Jails Seven Students of Uighur 
Scholar for Separatism,'' Reuters, 9 December 14. For more information, 
see the Commission's Political Prisoner Database records 2014-00082 on 
Atikem Rozi, 2013-00347 on Mutellip Imin, 2014-00100 on Perhat 
Halmurat, 2015-00009 on Shohret Nijat, 2015-00007 on Luo Yuwei, 2014-
00134 on Abduqeyum Ablimit, and 2014-00115 on Akbar Imin.
    \146\ Shazdeh Omari, Committee to Protect Journalists, ``China Is 
World's Worst Jailer of the Press; Global Tally Second Worst on 
Record,'' 17 December 14.
    \147\ Ibid.
    \148\ ``Ilham Tohti Charged With Separatism,'' Global Times, 31 
July 14. See also CECC, 2014 Annual Report, 9 October 14, 166.
    \149\ Chris Buckley, ``Chinese Journalist Sentenced to 7 Years on 
Charges of Leaking State Secrets,'' New York Times, 16 April 15; ``Gao 
Yu Sentenced to 7 Years in First Instance Trial for Illegally Providing 
State Secrets Abroad'' [Gao yu wei jingwai feifa tigong mimi yishen bei 
pan youqi tuxing 7 nian], People's Daily, 17 April 15.
    \150\ ``Gao Yu Sentenced to 7 Years in First Instance Trial for 
Illegally Providing State Secrets Abroad'' [Gao yu wei jingwai feifa 
tigong mimi yishen bei pan youqi tuxing 7 nian], People's Daily, 17 
April 15.
    \151\ Ho Pin, ``Gao Yu's Real Crime,'' New York Times, 28 April 15.
    \152\ Verna Yu, ``Jailed Chinese Journalist Appeals Against 
`Shameless' Sentencing,'' South China Morning Post, 22 April 15.
    \153\ ``Baidu and Sina Weibo Begin Censoring Search Results for 
`Gao Yu,' '' Fei Chang Dao (blog), 19 April 15; Nicholas Bequelin 
(@bequelin), Twitter post, 17 April 15, 12:56 a.m.
    \154\ ``Lawyer Zhang Xuezhong: Gao Yu's Conviction Is `Perversion 
of the Law,' '' translated and reprinted in Siweiluozi's Blog, 17 April 
15.
    \155\ Committee to Protect Journalists, ``Chinese Reporter Arrested 
in Connection With Hong Kong Protest Coverage,'' 14 October 14; Angela 
Kockritz, ``They Have Miao,'' Die Zeit, 14 January 15; Chris Buckley, 
``Chinese Employee of German Weekly Is Freed After 9-Month Detention,'' 
New York Times, 9 July 15. The Committee to Protect Journalists report 
indicates authorities detained Zhang Miao on suspicion of ``committing 
provocative activities and creating trouble'' in reference to Article 
293 in the PRC Criminal Law. The Commission uses the translation 
``picking quarrels and provoking trouble.'' PRC Criminal Law [Zhonghua 
renmin gongheguo xingfa], passed 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 293. For more information on Zhang Miao, see 
the Commission's Political Prisoner Database record 2014-00371.
    \156\ Angela Kockritz, ``They Have Miao,'' Die Zeit, 14 January 15.
    \157\ William Wan, ``China Harassing and Imprisoning Chinese 
Working for Foreign News Outlets,'' Washington Post, 22 January 15; 
Matt Schiavenza, ``News Assistants: The Unsung Heroes of Journalism in 
China,'' Atlantic, 19 January 15.
    \158\ Foreign Correspondents' Club of China, ``FCCC Annual Working 
Conditions Report 2015,'' reprinted in Wall Street Journal, May 2015.
    \159\ ``Reuters Websites Become Inaccessible in China,'' Reuters, 
20 March 15; Alistair Charlton, ``Reuters News Banned in China: English 
and Chinese Versions Inaccessible,'' International Business Times, 20 
March 15. Western media blocked in China include the New York Times, 
Bloomberg, the Wall Street Journal, and Reuters.
    \160\ David Dawson, ``Chinese Authorities Snuff Out Last Online 
Remnants of the New York Times,'' The Diplomat, 11 February 15.
    \161\ ``BBC Reporter's Press Credentials Confiscated During Attempt 
To Interview Supporters of Hong Kong Protest Event'' [BBC jizhe caifang 
shengyuan xianggang kangyi huodong zhengjian zao moshou], BBC, 2 
October 14; ``Beijing's Artist Supporters of Occupy Central Taken Away, 
Foreign Journalist Obstructed'' [Beijing yishujia shengyuan zhan zhong 
bei zhua, waimei jizhe zao zurao], Radio Free Asia, 2 October 14.
    \162\ ``Two French Reporters Attempting To Interview Hada Detained 
for Several Hours by Public Security and Then Expelled'' [Liang ming 
faguo jizhe ni caifang hada bei gong'an kouliu shu xiaoshi hou quzhu], 
Radio Free Asia, 23 February 15; Liu Yizong, ``AP Journalists 
Interviewing Striking Workers in Guangdong Taken Away by Officials'' 
[Meilianshe jizhe caifang guangdong bagong gongren bei guanfang 
daizou], Epoch Times, 29 March 15.
    \163\ Liu Yizong, ``AP Journalists Interviewing Striking Workers in 
Guangdong Taken Away by Officials'' [Meilianshe jizhe caifang guangdong 
bagong gongren bei guanfang daizou], Epoch Times, 29 March 15; 
``Protest at Japanese-Financed Factory Continues, Two Associated Press 
Reporters Detained Briefly'' [Rizi chang gongchao chixu meilianshe 
liang jizhe yidu bei daizou], Radio Free Asia, 26 March 15.
    \164\ Angela Kockritz, ``They Have Miao,'' Die Zeit, 14 January 15. 
According to Kockritz, authorities threatened her with visa problems 
and ``negative consequences,'' and accused her of helping to organize 
the 2014 pro-democracy protests in Hong Kong.
    \165\ Foreign Correspondents' Club of China, ``Foreign 
Correspondents' Club of China (FCCC) Visa Survey 2014 Findings,'' 
reprinted in International Association of Press Clubs, 4 March 15.
    \166\ David McKenzie, ``CNN Crew Roughed Up by Police,'' 13 May 15, 
00:30-01:09.
    \167\ Ibid.
    \168\ Scott Murdoch, ``Al Jazeera Veteran Adrian Brown Strikes 
Trouble in China,'' Australian, 25 May 15.
    \169\ Foreign Correspondents' Club of China, ``Foreign 
Correspondents' Club of China (FCCC) Visa Survey 2014 Findings,'' 
reprinted in International Association of Press Clubs, 4 March 15.
    \170\ Ibid. See also Freedom House, ``Freedom of the Press 2015,'' 
April 2015, section on China.
    \171\ Foreign Correspondents' Club of China, ``Foreign 
Correspondents' Club of China (FCCC) Visa Survey 2014 Findings,'' 
reprinted in International Association of Press Clubs, 4 March 15.
    \172\ Nicholas Kristof, ``A Changed China Awaits Mr. Obama,'' New 
York Times, 8 November 14.
    \173\ Office of the Press Secretary, The White House, ``Remarks by 
President Obama and President Xi Jinping in Joint Press Conference,'' 
12 November 14; Mark Landler, ``A Fruitful Visit by Obama Ends With 
Blunt Words by Xi Jinping,'' New York Times, 12 November 14.
    \174\ Mark Landler, ``A Fruitful Visit by Obama Ends With Blunt 
Words by Xi Jinping,'' New York Times, 12 November 14. Landler reported 
that Xi Jinping said that ``When a car breaks down on the road, perhaps 
we need to step down and see what the problem is . . .'' and ``Let he 
who tied the bell on the tiger take it off.'' Michael Calderone, 
``Chinese President Xi Jinping Suggests News Outlets Are the Ones To 
Blame for Visa Problems,'' Huffington Post, 12 November 14; Erik 
Wemple, ``New York Times Editor on China Visa Problem: `We're a Little 
Bit Hostages,' '' Washington Post, 12 November 14.

                             Worker Rights


                         Freedom of Association

    The Chinese government's laws and practices continue to 
contravene international standards on freedom of association. 
The right to freely associate is identified as a fundamental 
labor right by the International Labour Organization (ILO) and 
is protected under international law, including the Universal 
Declaration of Human Rights and the International Covenant on 
Civil and Political Rights.\1\ Although China is a member of 
the ILO, Chinese labor law does not incorporate basic 
obligations relating to freedom of association as defined under 
international law.\2\ Chinese workers are not free to form or 
join trade unions of their own choosing.\3\ Organizing 
independent trade unions outside the structure of the state 
remains illegal, and authorities continue to suppress the work 
of independent labor rights groups.\4\
    The All-China Federation of Trade Unions (ACFTU) remains 
the only legal trade union organization allowed under Chinese 
law.\5\ The PRC Trade Union Law requires that all union 
activity be approved by and organized under the ACFTU, an 
organization under the direction of the Chinese Communist Party 
and government.\6\ The ACFTU Constitution and the PRC Trade 
Union Law mandate that the ACFTU protect the legal rights and 
interests of workers while supporting the leadership of the 
Party and the broader goals and interests of the government.\7\ 
Leading union officials hold concurrent high-ranking positions 
in the Party and government,\8\ while enterprise-level union 
officials are frequently appointed by management, undermining 
union autonomy and giving employers influence over union policy 
and decisionmaking.\9\ The ACFTU is reportedly the largest 
trade union organization in the world in terms of members, with 
a reported 290 million members at the end of 2014.\10\

                         Collective Bargaining

    Collective bargaining in China remains limited in both law 
and practice. A series of provisions found in the PRC Labor 
Law, PRC Labor Contract Law, and PRC Trade Union Law together 
provide a legal framework for negotiating collective contracts 
and some process of collective consultation between employers 
and workers.\11\ Under this framework, workers and employers 
can negotiate collective contracts on a range of work-related 
issues, with the trade union specified as the principal 
negotiator and representative of workers.\12\ In addition to 
national law, 29 of 31 provincial-level governments have issued 
regulations on collective negotiations.\13\ Several central 
government officials have criticized inadequacies in national 
labor laws, indicating that provisions related to collective 
bargaining lack substance and are ineffective in requiring 
employers to negotiate with workers.\14\
    Additionally, the limitations of trade unions in 
representing workers' interests make genuine collective 
bargaining difficult, if not unattainable.\15\ Many enterprise-
level trade unions remain subject to undue influence by 
employers, while higher level trade unions continue to be 
subordinate to the interests of national and provincial Party 
and government authorities.\16\ Top-down benchmarks issued by 
the central government and ACFTU on quantifiable rates for 
concluded collective contracts have also led enterprises to 
enter into agreements that either reflect minimum legal labor 
standards or fail to be implemented after signing.\17\

         Civil Society and Labor Non-Governmental Organizations

    Throughout the 2015 reporting year, labor non-governmental 
organizations (NGOs) and independent labor rights advocates 
reported increased harassment and intimidation. Labor NGOs have 
long worked under uncertain conditions, with many groups forced 
to operate informally due to their inability to officially 
register with the authorities.\18\ Yet a number of labor 
advocates described the scope and intensity of the pressure 
over the past year as unprecedented.\19\ Concerns over 
``maintaining social stability'' amid rising labor unrest have 
led authorities to use aggressive tactics to monitor and 
restrict the activities of labor advocates and NGOs.\20\ 
Several NGOs shut down or significantly reduced their 
operations reportedly due to pressure from local 
authorities.\21\ In one example, police harassment forced the 
Chunfeng Labor Dispute Service Center in Shenzhen municipality, 
Guangdong province, to move its offices 13 times in 2014.\22\
    Labor NGOs and advocates also reported numerous cases in 
which individuals faced heightened surveillance,\23\ 
harassment,\24\ and detention \25\ as a result of their work. 
Authorities in Guangzhou municipality, Guangdong, criminally 
detained labor advocate Liu Shaoming on suspicion of ``picking 
quarrels and provoking trouble'' on May 30, 2015, reportedly 
due to his advocacy and efforts to organize a labor NGO, and 
formally arrested him on unknown charges on July 14.\26\ Of 
particular concern, labor advocates have increasingly been 
subject to violent attacks.\27\ The Commission observed reports 
of at least eight attacks against labor advocates or NGO 
offices since October 2014.\28\ In several of these incidents, 
local authorities reportedly failed to investigate or solve the 
crimes.\29\ In one case, a group of unidentified men abducted 
labor advocate Peng Jiayong outside a police station in 
Zhongshan municipality, Guangdong, severely beat him, and later 
abandoned him in the countryside.\30\
    Domestic labor NGOs' and advocates' ties to foreign 
organizations were reportedly of particular concern to 
authorities throughout the past reporting year. In November 
2014, authorities in Guangzhou closed the International Center 
for Joint Labor Research (ICJLR)--established in 2010 by the 
University of California, Berkeley, and Sun Yat-sen University 
in Guangzhou--without specific reason.\31\ The ICJLR hosted 
local and foreign researchers studying industrial relations in 
China and organized academic forums on labor-related 
issues.\32\ According to Chinese academics and others, the 
ICJLR's closure came amid authorities' growing concern over 
foreign influence on Chinese universities and civil 
society.\33\ Other labor NGOs and advocates also reported 
facing pressure from authorities for accepting foreign 
funding.\34\ In March 2015, Vice Chairman and Party Secretary 
of the ACFTU Li Yufu stated that ``overseas hostile forces'' 
were increasingly ``attempting to wreck the solidarity of the 
working class and trade union unity with the help of some 
illegal labor `rights defense' organizations and `rights 
defense' activists.'' \35\ Measures that went into effect in 
Guangzhou in January 2015 and a draft PRC Overseas NGO 
Management Law released in April 2015 may intensify scrutiny of 
domestic NGOs that receive foreign funding.\36\ [For more 
information on the January 2015 Guangzhou Measures and the 
draft PRC Overseas NGO Management Law, see Section III--Civil 
Society.]

                              Child Labor

    Child labor continues to be a problem in China despite the 
existence of legal measures prohibiting its practice. As a 
member of the International Labour Organization (ILO), China 
has ratified the two core conventions on the elimination of 
child labor.\37\ The PRC Labor Law and related legislation also 
prohibit the employment of minors under 16, and national legal 
provisions prohibiting child labor stipulate fines and other 
punishments for employing children.\38\ Systemic problems in 
implementation and enforcement of the law, however, have 
hindered the effects of these legal measures.\39\ Collusion 
between private businesses and local authorities reportedly 
continues to facilitate child labor.\40\ In addition, a 
reported lack of government resources has hindered monitoring 
and oversight in the workplace.\41\ In 2015, the ILO's 
Committee of Experts on the Application of Conventions and 
Recommendations (CEACR) expressed ``deep concern that, to date, 
not a single case of child labour has been found [by government 
regulators], despite the Government's indication that its 
labour inspectors conduct routine visits and inspections.'' 
\42\
    The overall extent of child labor remains difficult to 
assess due to a lack of data and official reporting on 
cases.\43\ In 2015, the CEACR expressed concern over this lack 
of transparency and urged the Chinese government to ``take 
necessary measures to ensure that sufficient up-to-date data on 
the situation of working children in China is made available . 
. . .'' \44\ Chinese experts and media reports indicated child 
laborers work primarily in low-skill service sectors as well as 
in small workshops and businesses, including textile and 
electronics manufacturing enterprises.\45\ In a December 2014 
report, the U.S. Department of Labor reported it had ``reason 
to believe'' six categories of goods--bricks, cotton, 
electronics, fireworks, textiles, and toys--were being produced 
in China with child labor.\46\ Chinese experts and judicial 
officials identified poverty and the low quality of education 
in rural areas as underlying factors contributing to child 
labor in China.\47\ Increased labor shortages in recent years 
and a desire to cut down on labor costs were also reported to 
be motivating factors for hiring underage workers.\48\
    Reports of child labor continued during the reporting year 
with a high-profile case surfacing at a factory in Guangdong 
province. A migrant worker, Li Youbin, reportedly died in 
November 2014 after regularly working 10- to 12-hour shifts at 
a factory that manufactured shoes in Dongguan municipality, 
Guangdong.\49\ Li was only 13 years old when the factory hired 
him and at the time of his death.\50\ Southern Metropolitan 
Daily reported a labor dispatch agency provided Li with false 
identity documents to obscure his real age,\51\ a problem 
authorities have acknowledged is widespread.\52\

                  Student Labor in Work-Study Programs

    The expansion of internship programs for vocational school 
and college students in recent years increased attention to the 
misuse of student labor through work-study programs. The 
Ministry of Education reported in October 2014 that 10 million 
vocational school students participate in internships each year 
in China.\53\ The PRC Education Law and related legislation 
support the establishment of work-study and other vocational 
programs provided they contain educational content and do not 
negatively affect the safety and health of students.\54\
    Reports throughout the 2015 reporting year, however, found 
student workers engaged in industrial and service sector 
internships that did not meet these standards and often 
violated Chinese labor law.\55\ Chinese experts and media 
reports indicate that student interns often work for 
substandard wages in internships largely lacking educational or 
vocational content.\56\ A survey published in September 2014 by 
the ILO and the China National Textile and Apparel Council 
found that 52 percent of student interns working in the textile 
and apparel industries worked under conditions that did not 
meet minimum Chinese labor standards, and in some circumstances 
constituted forced labor.\57\ The survey found that in other 
cases, students worked full and overtime schedules under 
hazardous conditions.\58\ An October 2014 report by the 
Ministry of Education found that for every 100,000 students 
engaged in internships, around 78 students on average were 
injured and 4 died.\59\ In December 2014, Vice Minister of 
Education Lu Xin criticized the practice of vocational schools 
sending underage students to perform internships at low-end 
enterprises as a violation of Chinese labor law, saying that 
``it is never permitted for vocational students to be used as 
child labor.'' \60\ Although student workers are not explicitly 
excluded from protection under Chinese labor law, the absence 
of specific legal provisions addressing student workers has 
been cited as a reason for continued violations.\61\

                            Social Insurance

    Chinese workers continue to face significant challenges 
obtaining social insurance benefits, despite progress made in 
recent years expanding insurance coverage nationwide.\62\ The 
PRC Social Insurance Law provides all workers with the right to 
social security by requiring employers to enroll their 
employees in five social insurance schemes, including basic 
pension insurance, medical insurance, work-related injury 
insurance, unemployment insurance, and maternity insurance.\63\ 
The failure of employers to purchase insurance for workers or 
provide regular insurance contributions, however, remains 
widespread.\64\ An October 2014 study published by a group of 
Chinese labor experts found that none of the five factories 
examined in their investigation had purchased pension insurance 
for their workers as required by law.\65\ Labor experts and 
advocates have cited ineffective punitive measures, as well as 
collusion between local authorities and businesses, as 
underlying causes for employers' noncompliance with the 
law.\66\ Moreover, government policies in some instances have 
allowed employers to delay insurance contribution payments.\67\ 
A government policy introduced during the 2008 financial crisis 
allowed employers to delay insurance payments for up to six 
months.\68\ Authorities reportedly never formally rescinded 
this policy, and the practice continues in some areas, 
including in the Guangxi Zhuang Autonomous Region and Shanxi 
and Zhejiang provinces.\69\
    Migrant workers in particular continue to lack social 
insurance coverage. The National Bureau of Statistics of China 
indicated in 2015 that a minority of migrants had pension 
insurance (16.7 percent), medical insurance (17.6 percent), 
work-related injury insurance (26.2 percent), unemployment 
insurance (10.5 percent), and maternity insurance (7.8 
percent).\70\ Migrants also continue to have trouble 
transferring insurance when moving and in some instances faced 
restrictions filing claims for insurance compensation.\71\ 
Labor experts have raised concerns specifically over the lack 
of pension insurance, as an estimated 40 million migrant 
workers over the age of 50 approach retirement age.\72\ 
Throughout the 2015 reporting year, these older workers were at 
the forefront of protests demanding insurance payments.\73\

                                 Wages

    Disposable income and absolute wage levels reportedly 
increased in China during this reporting year. The National 
Bureau of Statistics of China reported the national per capita 
disposable income in 2014 was 20,167 RMB (US$3,300), an 
increase of 10.1 percent from 2013.\74\ Monthly minimum wage 
levels also increased in 2014, with state media reporting a 
14.1-percent average rise in minimum wages in 19 provincial-
level areas.\75\ As of April 2015, the Commission observed an 
increase in monthly minimum wages in 11 provincial-level areas 
at an average of 10 percent for 2015.\76\ Structural changes in 
China's labor market, in particular a decline in the working 
age population, as well as an increasingly assertive workforce, 
have in part driven wage increases in recent years.\77\
    The growth in wage levels, however, has slowed in recent 
years. A comparison of minimum wage growth between 2011 and 
2015 shows that the rate of growth declined over the past five 
years, from an average increase of 22 percent in 2011 to 20 
percent in 2012, 17 percent in 2013, 14 percent in 2014, and 
around 10 percent as of April 2015.\78\ Chinese and 
international labor experts indicate slowing economic growth, 
declining business profits, and economic restructuring have all 
contributed to lower wage growth and will likely continue to do 
so in the near future.\79\ Moreover, minimum wage growth in 
some areas has reportedly failed to achieve targets outlined in 
the 12th Five-Year Plan on Employment Promotion issued in 2011, 
which calls for minimum wage levels to increase by an average 
of 13 percent per year and reach 40 percent of the average wage 
in each region by 2015.\80\ Current data indicates that minimum 
wage levels in many cities are less than the 40 percent target 
and remain generally insufficient to cover basic living 
expenses.\81\
    As wage level growth has declined, income inequality 
between industrial sectors and groups of workers has been 
increasing.\82\ In a study published by the International 
Monetary Fund in March 2015, the top fifth of earners in China 
accounted for 47 percent of total income while the bottom fifth 
accounted for less than 5 percent, making China ``one of the 
most unequal countries in the world.'' \83\

                 Wage Arrears and Non-Payment of Wages

    Wage arrears and the non-payment of wages remain 
significant problems, particularly for migrant workers. The 
Ministry of Human Resources and Social Security (MOHRSS) 
reported that labor authorities handled a total of 228,000 
cases involving wage violations in the first 11 months of 2014, 
an increase of 7 percent from 2013.\84\ Chinese and 
international media indicate deteriorating business conditions 
have made wage arrears especially common in the construction 
and manufacturing industries, where widespread use of 
subcontracting and tightening credit controls have caused the 
delay or non-payment of wages.\85\ Vice Minister of the MOHRSS 
Qiu Xiaoping cited wage arrears as a primary factor prompting 
labor-related conflict in the past year, and labor experts 
predict wage arrears could become more common as economic 
growth continues to slow.\86\
    Throughout the 2015 reporting year, protests by workers 
over wage arrears remained widespread, particularly in the 
weeks prior to the Chinese Lunar New Year holiday.\87\ Use of 
violence by law enforcement and security personnel, and 
criminal syndicates, to suppress worker-led wage arrears 
protests is common, according to Chinese labor experts and 
advocates.\88\ A February 2015 report published by a Chinese 
non-governmental human rights organization documented 63 cases 
between February 2014 and January 2015 in which authorities 
used violence to suppress workers protesting over wage arrears, 
causing the deaths of at least four workers.\89\ In a case that 
attracted wide public attention, police beat to death female 
migrant worker Zhou Xiuyuan in December 2014 amid a dispute 
over unpaid wages at a construction site in Taiyuan 
municipality, Shanxi province.\90\ Authorities tried the three 
police officers involved in the incident in May 2015.\91\ In 
March 2015, Premier Li Keqiang indicated in the government's 
annual work report that authorities would ``deal with the 
`missing' or delayed wages of migrant workers.'' \92\ 
Regulations released by the MOHRSS in December 2014 aim to 
streamline procedures for investigating and prosecuting cases 
of wage arrears.\93\ Employers who fail to pay workers are 
already subject to criminal punishment under a provision in the 
2011 amendment to the PRC Criminal Law,\94\ yet few cases have 
been prosecuted.\95\

                     Occupational Health and Safety

    Workers in China continue to be exposed to a variety of 
occupational safety and health risks. The director of the 
International Labour Organization's China and Mongolia office 
stated that ``China is likely to continue to face major 
[occupational safety and health] challenges'' as the country's 
industrial and urban landscape changes.\96\ High-risk 
industries such as mining and chemical manufacturing still 
constitute a major part of the economy, while emerging 
industries present new challenges for workplace safety.\97\ 
Amid slowing economic growth, government officials found some 
enterprises have reduced investment in workplace safety or 
lowered safety standards in order to attract business.\98\ 
Despite a measurable decrease in recent years in the number of 
officially reported workplace accidents and fatalities, 
substantial occupational hazards persist and industrial 
accidents and deaths remain ``too high,'' according to Yang 
Dongliang, former director of the State Administration of Work 
Safety (SAWS).\99\ SAWS reported a total of 290,000 accidents 
and 66,000 deaths in 2014, a decrease from 2013 of 3.5 percent 
and 4.9 percent, respectively.\100\ Officially reported 
accidents and deaths in the mining industry in 2014 declined by 
16.3 percent and 14.3 percent, respectively,\101\ although some 
experts have suggested the actual number of accidents and 
deaths could be higher due to underreporting and cover-ups by 
local government authorities and mining enterprises.\102\
    Weak regulation and enforcement of health and safety 
standards remain significant problems due, in part, to a lack 
of adequate resources. A December 2014 State Council report on 
workplace safety found that only 54 percent of China's 3,312 
economic development zones had adequate safety 
supervision.\103\ For example, the economic development zone in 
Kunshan municipality, Jiangsu province, was reported in 2015 to 
have only three safety regulators for over 4,000 
enterprises.\104\ In some cases, enterprises were found to be 
operating without proper licensing. For example, the State 
Council reported in 2014 that 3,840 mines were operating 
without necessary permits or were engaged in illegal mining 
activity.\105\ Some employers also frequently ignore mandatory 
health and safety standards and take actions that put the 
health and safety of workers at risk.\106\ Significant safety 
violations observed in the past reporting year included the 
following:

        <bullet> Excessive Overtime. Excessive overtime in 
        violation of Chinese labor law remained 
        widespread.\107\ A November 2014 report by Beijing 
        Normal University estimated that 90 percent of 
        enterprises nationwide violated legal limits on 
        overtime.\108\ A January 2015 investigation on working 
        conditions at two textile factories in Guangdong 
        province found that workers performed between 112 and 
        134 hours of overtime per month.\109\ To supplement low 
        base wages, workers often requested overtime, which 
        encouraged employers' noncompliance with overtime 
        limits.\110\
        <bullet> Unsafe Working Environment. Labor non-
        governmental organizations (NGOs) and Chinese and 
        international media highlighted a variety of 
        occupational health and safety risks Chinese workers 
        faced in some industries, including unsanitary working 
        conditions, exposure to hazardous materials, and poor 
        air quality.\111\ Basic personal protection equipment 
        was often inadequate or absent.\112\ A March 2015 media 
        investigation found that several textile factories in 
        Guangdong used sandblasting in the production of jeans, 
        a dangerous manufacturing process that can cause the 
        respiratory disease silicosis.\113\ The investigation 
        uncovered evidence that factories provided workers with 
        little or no protective equipment when sandblasting and 
        handling harmful chemicals.\114\
        <bullet> Lack of Safety Training. Employers frequently 
        failed to provide workers with legally mandated safety 
        training.\115\ A December 2014 State Council report on 
        workplace safety found that 70 percent of workers in 
        the mining, construction, and fireworks industries did 
        not receive required safety training.\116\ An 
        investigation into a November 2014 fire at a food 
        processing plant in Shandong province found a lack of 
        safety training and emergency drills had contributed to 
        the deaths of 18 workers and injuries of 13 
        others.\117\

    Occupational disease remains a significant and growing 
problem in China. Experts indicate that around 36 percent of 
workers in China are exposed to hazards in the workplace and 
that occupational hazards overall are increasing, particularly 
in small and medium enterprises.\118\ Former Director of the 
State Administration of Work Safety Yang Dongliang stated in 
February 2015 that ``large gaps'' still exist in preventing 
occupational diseases.\119\ Research published in April 2015 by 
a consortium of Chinese universities and government-led 
research centers found that the number of people suffering from 
occupational diseases in China, as well as the cumulative 
number of new cases and disease-related deaths, ranked among 
the highest in the world.\120\ The Chinese Center for Disease 
Control and Prevention recorded 15,871 new occupational disease 
cases in the first eight months of 2014, although labor experts 
indicate the actual number of new cases each year is most 
likely much higher than official reports.\121\ Limited 
government disclosure of occupational disease rates, cases 
concealed by employers and local authorities, and the failure 
of many workers to undergo medical examinations reportedly 
cause many cases to go unaccounted for and undiagnosed.\122\
    Instances of the lung disease pneumoconiosis remain 
particularly high, with government experts indicating 10,000 
new cases on average are recorded each year, and reportedly 
account for between 80 and 90 percent of all occupational 
disease cases in China.\123\ State-run media reported a total 
of 720,000 pneumoconiosis sufferers in China, but an NGO that 
does research on the disease estimated a number closer to 6 
million.\124\ Chinese medical experts and government officials 
have cited weak government oversight and inadequate investment 
in occupational health services as two of the factors 
contributing to high rates of occupational disease in 
China.\125\ Research from 2015 indicated basic occupational 
health services only covered 10 to 20 percent of workers 
nationwide, while there was also a serious shortage of 
occupational health service professionals.\126\

------------------------------------------------------------------------
                      Contract Labor: Firefighters
-------------------------------------------------------------------------
  During the past reporting year, the Commission observed that
 overreliance on and abuse of contract and subcontract labor remained a
 problem across many industries,\127\ including for public safety
 services such as firefighting.\128\ The Ministry of Public Security
 reportedly employs approximately 130,000 official firefighters,\129\
 far fewer per capita than in other developing countries.\130\ To cope
 with this shortage, local governments, public institutions, and
 enterprises throughout China employ approximately 113,000 contract
 firefighters in addition to those officially employed, according to
 government statistics from December 2014.\131\ Contract firefighters
 reportedly receive low pay, few opportunities for advancement,
 insufficient training, and limited social insurance.\132\ The adverse
 work conditions of contract firefighters pose serious hazards to both
 firefighters and the public. After a fire in Harbin municipality,
 Heilongjiang province, killed five firefighters in January 2015, a
 veteran Harbin firefighter stated that one of the deceased firefighters
 had been at the job for less than two months. Standard practice
 reportedly requires a year of training before being allowed to
 participate in firefighting,\133\ but some new recruits are deployed
 after only a few months of training.
  Such problems were seen in the case of a deadly chemical fire and
 explosions in Tianjin municipality on August 12, 2015.\134\ Contract
 firefighters employed by the state-owned Tianjin Port Group were the
 first on the scene of the fire.\135\ According to international and
 Chinese media reports, the contract firefighters attempted to
 extinguish the blaze with water because they were unaware that it was a
 chemical fire and had limited training on controlling such a fire.\136\
 Some experts indicated that water may have combined with the industrial
 chemicals to cause two massive explosions.\137\ As of August 21, state-
 run media reported that 65 firefighters were among the 116 dead and 39
 firefighters were among the 60 missing,\138\ making it the deadliest
 incident for Chinese firefighters since 1949.\139\ Reports that
 contract firefighters were omitted from the initial list of dead and
 missing persons raised concerns that the government would not recognize
 their sacrifices.\140\ Premier Li Keqiang addressed such concerns
 during an inspection visit to Tianjin by stating that all the deceased
 firefighters ``must be treated equally with the same burial treatment,
 honor and compensation.'' \141\
------------------------------------------------------------------------

    Notes to Section II--Worker Rights

    \1\ International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work, 18 June 98, art. 2; 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, art. 23; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 22(1). China has signed, and stated its 
intent to ratify, the ICCPR.
    \2\ ILO Convention (No. 87) Freedom of Association and Protection 
of the Right to Organize, 4 July 1950. Article 2 of the ILO Convention 
on Freedom of Association and Protection of the Right to Organize 
stipulates that ``workers and employers, without distinction 
whatsoever, shall have the right to establish and, subject only to the 
rules of the organization concerned, to join organizations of their own 
choosing without previous authorization.'' PRC Trade Union Law 
[Zhonghua renmin gongheguo gonghui fa], passed and effective 3 April 
92, amended 27 October 01, arts. 10-11. Article 10 of the PRC Trade 
Union Law establishes the All-China Federation of Trade Unions (ACFTU) 
as the ``unified national trade union federation'' and Article 11 
mandates that all unions must be approved by the next higher-level 
union body, giving the ACFTU an absolute veto over the establishment of 
any local union and the legal authority to block independent labor 
associations. UN GAOR Committee on Economic, Social and Cultural 
Rights, Concluding Observations on the Second Periodic Report of China, 
Including Hong Kong, China and Macao, China, Adopted at Its 52nd 
Session (28 April-23 May 2014), 13 June 14, para. 23. Paragraph 23 of 
the concluding observations on the second periodic report of China by 
the UN Committee on Economic, Social and Cultural Rights expressed 
concern ``that workers cannot freely exercise their right to form and 
join trade unions outside the option of the All-China Federation of 
Trade Unions.''
    \3\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed and effective 3 April 92, amended 27 October 01, arts. 10-11. 
Article 10 of the PRC Trade Union Law establishes the All-China 
Federation of Trade Unions (ACFTU) as the ``unified national trade 
union federation'' and Article 11 mandates that all unions must be 
approved by the next higher level union body, giving the ACFTU an 
absolute veto over the establishment of any local union and the legal 
authority to block independent labor associations.
    \4\ Ibid.; ``As Labor-Capital Disputes Increase Dramatically, Labor 
Groups Also Become Targets of Attack'' [Laozi jiufen juzeng laogong 
tuanti yi chengwei daji duixiang], Radio Free Asia, 30 December 14.
    \5\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed and effective 3 April 92, amended 27 October 01, arts. 10-11.
    \6\ Ibid., arts. 9-12, 56; Constitution of the Chinese Trade Unions 
[Zhongguo gonghui zhangcheng], adopted 26 September 03, amended 21 
October 08, General Principles.
    \7\ Ibid., arts. 4-6; Ibid.
    \8\ For example, during the past year, ACFTU Chairman Li Jianguo 
was concurrently a member of the Political Bureau of the Communist 
Party Central Committee. See ``Li Jianguo, All-China Federation of 
Trade Unions Chairman'' [Li jianguo quanguo zong gonghui zhuxi], All-
China Federation of Trade Unions, last visited 23 July 15. See also 
Manfred Elfstrom, ``Whither China's New Worker Militancy? '' China 
Policy Institute Blog, 31 March 15; ``Collective Wage Consultations, 
Can They Only `Look Nice? ' '' [Gongzi jiti xieshang, zhineng 
``kanshangqu hen mei''?], Tencent, 23 April 15.
    \9\ Manfred Elfstrom, ``Whither China's New Worker Militancy? '' 
China Policy Institute Blog, 31 March 15; ``Collective Wage 
Consultations, Can They Only `Look Nice? ' '' [Gongzi jiti xieshang, 
zhineng ``kanshangqu hen mei''?], Tencent, 23 April 15; Jane Slaughter, 
``Review: Behind China's Wildcat Strike Wave,'' Labor Notes, 
Troublemakers (blog), 15 October 14.
    \10\ Lily Kuo, ``The Company That Made Your iPhone Is Reluctantly 
Bringing Democracy to Chinese Labor,'' Quartz, 22 September 14; Wang 
Jiaoping et al., ``Looking Back To Have an Even Better Start'' [Huimou, 
shi weile geng hao di chufa], Workers' Daily, 26 December 14.
    \11\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, chap. 3, arts. 16-35; PRC Labor 
Contract Law [Zhonghua renmin gongheguo laodong hetong fa], passed 29 
June 07, effective 1 January 08, amended 28 December 12, chap. 5, secs. 
1-2, arts. 51-67; PRC Trade Union Law [Zhonghua renmin gongheguo 
gonghui fa], passed and effective 3 April 92, amended 27 October 01, 
arts. 6, 20.
    \12\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed and effective 3 April 92, amended 27 October 01, arts. 6, 20; 
PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 July 94, 
effective 1 January 95, chap. 3, arts. 16-35; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
effective 1 January 08, amended 28 December 12, chap. 5, secs. 1-2, 
arts. 51-67.
    \13\ Chen Xiaoyan and Shen Gang, ``Enact Legislation, Allow Workers 
Daring To Talk With Bosses Their Desire To Talk'' [Lifa, rang zhigong 
gan tan laoban yuan tan], Workers' Daily, 9 March 15; Wang Kailei, 
``More and More Migrant Workers Brought Into China's Union System'' 
[Yuelaiyue duo nongmingong bei naru zhongguo gonghui tixi], Xinhua, 12 
November 14.
    \14\ Chen Xiaoyan and Shen Gang, ``Enact Legislation, Allow Workers 
Daring To Talk With Bosses Their Desire To Talk'' [Lifa, rang zhigong 
gan tan laoban yuan tan], Workers' Daily, 9 March 15; Chen Xiaoyan and 
Shen Gang, ``Union Committee Members Offer Suggestions for Amending 
Labor Law'' [Gonghui jie weiyuan zhizhao ``laodong fa'' xiugai], 
Workers' Daily, 4 March 15.
    \15\ ``Collective Wage Consultations, Can They Only `Look Nice? ' 
'' [Gongzi jiti xieshang, zhineng ``kanshangqu hen mei''?], Tencent, 23 
April 15.
    \16\ Liu Jiaying, ``Report States Migrant Workers' Collective 
Action Pushes Forward Labor Union Reform'' [Baogao cheng nongmingong 
jiti xingdong tuidong gonghui gaige], Caixin, 8 December 14; Manfred 
Elfstrom, ``Whither China's New Worker Militancy? '' China Policy 
Institute Blog, 31 March 15; ``Collective Wage Consultations, Can They 
Only `Look Nice? ' '' [Gongzi jiti xieshang, zhineng ``kanshangqu hen 
mei''?], Tencent, 23 April 15; Jane Slaughter, ``Review: Behind China's 
Wildcat Strike Wave,'' Labor Notes, Troublemakers (blog), 15 October 
14. See also Chris King-Chi Chan and Elaine Sio-leng Hui, ``The 
Development of Collective Bargaining in China: From `Collective 
Bargaining by Riot' to `Party State-Led Wage Bargaining,' '' China 
Quarterly, Vol. 216 (December 2013), 7.
    \17\ ``Collective Wage Consultations, Can They Only `Look Nice? ' 
'' [Gongzi jiti xieshang, zhineng ``kanshangqu hen mei''?], Tencent, 23 
April 15. See also Chris King-Chi Chan and Elaine Sio-leng Hui, ``The 
Development of Collective Bargaining in China: From `Collective 
Bargaining by Riot' to `Party State-Led Wage Bargaining,' '' China 
Quarterly, Vol. 216 (December 2013), 7.
    \18\ ``Mainland Will Enact Law Overseeing Foreign NGOs, Civil 
Society Organizations More at Risk'' [Dalu jiang lifa jianguan jingwai 
NGO minjian zuzhi geng kanyu], Radio Free Asia, 10 March 15.
    \19\ Andrew Jacobs and Chris Buckley, ``In China, Civic Groups' 
Freedom, and Followers, Are Vanishing,'' New York Times, 26 February 
15; Alexandra Harney, ``China Labor Activists Say Facing Unprecedented 
Intimidation,'' Reuters, 21 January 15; Mimi Lau, ``Chinese Labour 
Activists `Increasingly Targets of Violent Attacks, Intimidation,' '' 
South China Morning Post, 30 April 15.
    \20\ Anita Chan, ``As Supply Drops, China's Factory Workers Are 
Becoming More Restive,'' Yale Global Online, 21 May 15.
    \21\ Alexandra Harney, ``China Labor Activists Say Facing 
Unprecedented Intimidation,'' Reuters, 21 January 15; Jennifer Zhang, 
``USi Exclusive: Young Chinese Labour Activist: I Want To Set Up My Own 
NGO,'' Union Solidarity International, 30 March 15; Anita Chan, 
``China's Factory Workers Are Becoming More Restive,'' Yale Global 
Online, 21 May 15; ``Sunflower Center Suspects Registration Revoked 
Over Rights Defense for Female Workers'' [Xiangyanghua zhongxin yi wei 
nugong weiquan bei che dengji], Radio Free Asia, 8 July 15.
    \22\ Alexandra Harney, ``China Labor Activists Say Facing 
Unprecedented Intimidation,'' Reuters, 21 January 15.
    \23\ See, e.g., ``Guangzhou Shoe Factory Strike Continues, Workers 
Occupying Factory Building Confront Police'' [Sui xie chang bagong 
chixu gongren zhanju changfang yu jing duizhi], Radio Free Asia, 23 
April 15; Anita Chan, ``China's Factory Workers Are Becoming More 
Restive,'' Yale Global Online, 21 May 15.
    \24\ See, e.g., ``Striking Workers in Cuiheng, Guangdong Threatened 
With Return to Work, Rights Activists Providing Aid Are Invited to 
Tea'' [Guangdong cuiheng bagong gongren zao weixie fugong xiezhu 
weiquan gongyi renshi bei hecha], Radio Free Asia, 1 April 15; Anita 
Chan, ``China's Factory Workers Are Becoming More Restive,'' Yale 
Global Online, 21 May 15.
    \25\ ``Xitiecheng Company Staff in Guangzhou Threatened With Having 
Contracts Terminated, Citizens Who Found Out About the Situation 
Detained by Police'' [Guangzhou xitiecheng gongsi yuangong bei weixie 
jieyue gongmin liaojie qingkuang zao jing kouliu], Radio Free Asia, 10 
February 15; ``Guangdong Workers' Collective Rights Defense Continues 
To Face Suppression'' [Guangdong gongren jiti weiquan jielian zao 
daya], Radio Free Asia, 20 April 15.
    \26\ ``Liu Shaoming Missing for Half a Month, Confirmed as 
Criminally Detained, Accused of `Picking Quarrels and Provoking 
Trouble' Possibly for Rights Defense Activities'' [Liu shaoming shizong 
banyue zhengshi zao xingju bei kong ``xunxin zishi'' huo yin weiquan 
huodong], Radio Free Asia, 15 June 15; Rights Defense Network, ``Well-
Known Labor Movement Activist, Human Rights Defender Liu Shaoming 
Criminally Detained by Guangzhou Police'' [Zhuming gong yun renshi, 
renquan hanweizhe liu shaoming zao guangzhou jingfang xingshi juliu], 
15 June 15; ``Labor Movement Figure Liu Shaoming Formally Arrested'' 
[Gong yun renshi liu shaoming bei zhengshi daibu], Radio Free Asia, 14 
July 15; ``August 10th Rights Defense Developments'' [8 yue 10 ri 
weiquan dongtai], New Tang Dynasty Television, 10 August 15. For more 
information on Liu Shaoming, see the Commission's Political Prisoner 
Database record 2015-00216.
    \27\ Mimi Lau, ``Chinese Labour Activists `Increasingly Targets of 
Violent Attacks, Intimidation,' '' South China Morning Post, 30 April 
15; Rights Defense Network, ``22 Labor NGOs and 1,386 Citizens' `Joint 
Declaration Strongly Denouncing Violent Actions Directed Against Labor 
Public Interest Activists and Demanding Police Handle and Investigate 
According to Law' '' [22 jia laogong NGO ji 1386 ming gongmin ``guanyu 
yanli qianze zhendui laogong gongyi renshi de baoli xingwei, qianglie 
yaoqiu jingfang yifa chachu de lianhe shengming''], 29 December 14.
    \28\ Civil Rights & Livelihood Watch, ``Zhejiang Grassroots Labor 
Organization Yongkang Small Fish Office Smashed, Suspected To Be 
Retaliation'' [Zhejiang caogen laogong jigou yongkang xiao xiao yu 
bangongshi zao daza yi zao baofu], 16 October 14; Rights Defense 
Network, ``Shenzhen Labor NGO Chunfeng Labor Service Center Suffers 
Smashed Car and Paint Splash for Helping Defend Dongguan Migrant 
Workers' Rights'' [Shenzhen laogong NGO chunfeng laodong fuwu bu bang 
dongguan nongmingong weiquan zao za che po qi], 19 November 14; Rights 
Defense Network, ``22 Labor NGOs and 1,386 Citizens' `Joint Declaration 
Strongly Denouncing Violent Actions Directed Against Labor Public 
Interest Activists and Demanding Police Handle and Investigate 
According to Law' '' [22 jia laogong NGO ji 1386 ming gongmin ``guanyu 
yanli qianze zhendui laogong gongyi renshi de baoli xingwei, qianglie 
yaoqiu jingfang yifa chachu de lianhe shengming''], 29 December 14; 
Mimi Lau, ``Chinese Labour Activists `Increasingly Targets of Violent 
Attacks, Intimidation,' '' South China Morning Post, 30 April 15.
    \29\ Rights Defense Network, ``Guangdong Labor Rights Activists 
Suffer Consecutive Attacks at Entrance to Police Station'' [Guangdong 
laogong weiquan renshi lianxu zai paichusuo menkou yuxi], 4 April 15; 
Mimi Lau, ``Chinese Labour Activists `Increasingly Targets of Violent 
Attacks, Intimidation,' '' South China Morning Post, 30 April 15; 
Alexandra Harney, ``China Labor Activists Say Facing Unprecedented 
Intimidation,'' Reuters, 21 January 15.
    \30\ Rights Defense Network, ``Guangdong Labor Rights Activists 
Suffer Consecutive Attacks at Entrance to Police Station'' [Guangdong 
laogong weiquan renshi lianxu zai paichusuo menkou yuxi], 4 April 15; 
Mimi Lau, ``Chinese Labour Activists `Increasingly Targets of Violent 
Attacks, Intimidation,' '' South China Morning Post, 30 April 15.
    \31\ Chun Han Wong, ``China Labor Ties Fray as Grievances Rise, 
Economic Growth Slows,'' Wall Street Journal, 9 February 15; Center for 
Labor Research and Education, University of California, Berkeley, 
``Labor in China: Joint Center,'' last visited 12 July 15.
    \32\ Ibid.
    \33\ Chun Han Wong, ``China Labor Ties Fray as Grievances Rise, 
Economic Growth Slows,'' Wall Street Journal, 9 February 15.
    \34\ Alexandra Harney, ``China Labor Activists Say Facing 
Unprecedented Intimidation,'' Reuters, 21 January 15.
    \35\ Yang Lin, ``Advance the Rise of the Construction of the Rule 
of Law in Trade Union Work'' [Tuijin gonghui gongzuo fazhi hua jianshe 
shang taijie], Outlook Weekly, 1 March 15; Tom Mitchell, ``China Union 
Chief Warns of `Foreign Forces' in Labour Movement,'' Financial Times, 
2 March 15.
    \36\ National People's Congress Standing Committee, PRC Overseas 
Non-Governmental Organizations Management Law (Draft) (Second Review 
Draft) [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi guanli fa 
(cao'an) (erci shenyi gao)], 5 May 15; Andrew Jacobs and Chris Buckley, 
``In China, Civic Groups' Freedom, and Followers, Are Vanishing,'' New 
York Times, 26 February 15; Verna Yu, ``Draft Chinese Law Puts NGOs' 
Future on the Line,'' South China Morning Post, 4 June 15.
    \37\ ILO Convention (No. 138) Concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) Concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, 17 June 99; International Labour Organization, 
``Ratifications of C138--Minimum Age Convention, 1973 (No. 138),'' last 
visited 16 July 14; International Labour Organization, ``Ratifications 
of C182--Worst Forms of Child Labour Convention, 1999 (No. 182),'' last 
visited 16 July 14.
    \38\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 15, 94. Article 15 of the PRC 
Labor Law prohibits an employer from hiring minors under the age of 
sixteen, with exceptions made for institutions of literature, art, 
physical culture, and special crafts, which may employ minors through 
prior investigation and approval of the government authorities while 
also ensuring their right to receive a compulsory education. See also 
PRC Law on the Protection of Minors [Zhonghua renmin gongheguo wei 
chengnian ren baohu fa], passed 4 September 91, effective 1 January 92, 
arts. 28, 49; State Council, Provisions on Prohibiting the Use of Child 
Labor [Jinzhi shiyong tonggong guiding], issued 1 October 02, effective 
1 December 02, arts. 6-8.
    \39\ Yang Zhaokui, `` `Helpless' Child Laborers'' [``Shangbuqi'' de 
tonggong], Workers' Daily, 19 March 15; International Labour Office, 
Report of the Committee of Experts on the Application of Conventions 
and Recommendations, Application of International Labour Standards 2015 
(I), International Labour Conference, 104th Session, 2015, 207.
    \40\ International Labour Office, Report of the Committee of 
Experts on the Application of Conventions and Recommendations, 
Application of International Labour Standards 2015 (I), International 
Labour Conference, 104th Session, 2015, 207.
    \41\ Ibid.
    \42\ Ibid.
    \43\ Office of Child Labor, Forced Labor, and Human Trafficking, 
Bureau of International Labor Affairs, U.S. Department of Labor, ``U.S. 
Department of Labor's List of Goods Produced by Child Labor or Forced 
Labor,'' 1 December 14, 21; International Labour Office, Report of the 
Committee of Experts on the Application of Conventions and 
Recommendations, Application of International Labour Standards 2015 
(I), International Labour Conference, 104th Session, 2015, 207.
    \44\ International Labour Office, Report of the Committee of 
Experts on the Application of Conventions and Recommendations, 
Application of International Labour Standards 2015 (I), International 
Labour Conference, 104th Session, 2015, 207.
    \45\ Shen Tingting, ``Why Do Small Enterprises Continue To 
Illegally Use Child Labor Despite Repeated Prohibitions? '' [Xiao wei 
qiye weifa shiyong tonggong weihe lujinbujue?], Yangcheng Evening News, 
27 January 15; `` `Child Laborers,' How Should We Rescue You? '' 
[``Tonggong'', women gai ruhe jiejiu ni?], Xinhua, 29 December 14.
    \46\ Office of Child Labor, Forced Labor, and Human Trafficking, 
Bureau of International Labor Affairs, U.S. Department of Labor, ``List 
of Goods Produced by Child Labor or Forced Labor,'' 1 December 14, 1, 
4.
    \47\ Shen Tingting, ``Why Do Small Enterprises Continue To 
Illegally Use Child Labor Despite Repeated Prohibitions? '' [Xiao wei 
qiye weifa shiyong tongong weihe lujinbujue?], Yangcheng Evening News, 
27 January 15; Yang Zhaokui, `` `Helpless' Child Laborers'' 
[``Shangbuqi'' de tonggong], Workers' Daily, 19 March 15.
    \48\ Ibid.; `` `Child Laborers,' How Should We Rescue You? '' 
[``Tonggong'', women gai ruhe jiejiu ni?], Xinhua, 29 December 14.
    \49\ Rao Dehong, ``Youngster Uses Other Person's ID To Work, Falls 
Ill From Constant Work and Dies at Factory'' [Shaonian mao yong taren 
shenfen dagong jilaochengji bingsi gongchang], Southern Metropolitan 
Daily, reprinted in Global Times, 5 December 14; ``13 Year Old Boy 
Loses Consciousness at Shoe Factory in Dongguan From Overwork, Factory 
Owners Give 200 RMB To Send Him to Hospital but He Dies'' [13 sui 
nantong dongguan xiechang dagong guolao hunmi changfang renminbi 200 
yuan da fasong yi siwang], Radio Free Asia, 5 December 14.
    \50\ Ibid.
    \51\ Rao Dehong, ``Youngster Uses Other Person's ID To Work, Falls 
Ill From Constant Work and Dies at Factory'' [Shaonian mao yong taren 
shenfen dagong jilaochengji bingsi gongchang], Southern Metropolitan 
Daily, reprinted in Global Times, 5 December 14.
    \52\ Shen Tingting, ``Why Do Small Enterprises Continue To 
Illegally Use Child Labor Despite Repeated Prohibitions? '' [Xiao wei 
qiye weifa shiyong tongong weihe lujinbujue?], Yangcheng Evening News, 
27 January 15; `` `Child Laborers,' How Should We Rescue You? '' 
[``Tonggong'', women gai ruhe jiejiu ni?], Xinhua, 29 December 14.
    \53\ Zhai Fan, ``2013 Annual Report on National Vocational School 
Student Internship Liability and Safety Work'' [Quanguo zhiye yuanxiao 
xuesheng shixi zeren baoxian gongzuo 2013 niandu baogao], China 
Education News, 13 October 14.
    \54\ PRC Education Law [Zhonghua renmin gongheguo jiaoyu fa], 
passed 18 March 95, effective 1 September 95, amended 27 August 09, 
art. 58; PRC Vocational Education Law [Zhonghua renmin gongheguo zhiye 
jiaoyu fa], passed 15 May 96, effective 1 September 96, arts. 9-11; 
State Council, Provisions on Prohibiting the Use of Child Labor [Jinzhi 
shiyong tonggong gui-
ding], issued 1 October 02, effective 1 December 02, art. 13.
    \55\ Huang Lanlan, ``Legal Limbo Allows Employers To Violate Rights 
of Student Workers,'' Global Times, 8 March 15; Deng Dongjing et al., 
``18 Province Investigation Report Shows: Internships, How Terrible a 
Word'' [18 sheng diaocha baogao xianshi: dinggang shixi, zen yi ge nan 
zi liaode], China Education News, 19 January 15.
    \56\ ``8 Million Vocational Students Become Workers, Whose Pain? '' 
[800 wan zhi xiao xuesheng bian gongren, shei zhi tong?], Tencent, 1 
October 14; Deng Dongjing et al., ``18 Province Investigation Report 
Shows: Internships, How Terrible a Word'' [18 sheng diaocha baogao 
xianshi: dinggang shixi, zen yi ge nan zi liaode], China Education 
News, 19 January 15.
    \57\ International Labour Organization and China National Textile 
and Apparel Council, ``Labour Protection of Interns in Chinese Textile 
and Apparel Enterprises,'' September 2014, ix-x.
    \58\ Deng Dongjing et al., ``18 Province Investigation Report 
Shows: Internships, How Terrible a Word'' [18 sheng diaocha baogao 
xianshi: dinggang shixi, zen yi ge nan zi liaode], China Education 
News, 19 January 15.
    \59\ Di Fan, ``2013 Annual Report on National Vocational School 
Student Internship Liability and Safety Work'' [Quanguo zhiye yuanxiao 
xuesheng shixi zeren baoxian gongzuo 2013 niandu baogao], China 
Education News, 13 October 14.
    \60\ Li Jianping, ``Vice Minister of Education Lu Xin: In No Way 
Permit the Use of Vocational Students as Child Labor'' [Jiaoyubu 
fubuzhang lu xin: juebu yunxu ba zhiye yuanxiao xuesheng dang tonggong 
yong], China Youth Daily, reprinted in Xinhua, 27 December 14.
    \61\ Huang Lanlan, ``Legal Limbo Allows Employers To Violate Rights 
of Student Workers,'' Global Times, 8 March 15; Chen Weiche, 
``Criticizing Use of Student Interns as Child Labor: Enterprises Must 
Be Held Accountable'' [Ping shixisheng dang tonggong yong: qiye xu bei 
zhui ze], Guangzhou Daily, reprinted in China News Service, 23 December 
14.
    \62\ Ministry of Human Resources and Social Security, ``2014 Annual 
Ministry of Human Resources and Social Security Enterprise Development 
Statistical Bulletin'' [2014 niandu renli ziyuan he shehui baoxian 
shiye fazhan tongji gongbao], 28 May 15.
    \63\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, arts. 1-4.
    \64\ China Labour Bulletin, ``China's Social Security System,'' 
last visited 15 May 15; Alexandra Harney, ``China's Slowdown Spells 
Trouble for Migrant Workers' Pensions,'' Reuters, 5 February 15.
    \65\ ``Investigation Into the Difficulty of Social Insurance for 
Workers'' [Gongren shebao kunjing diaocha], South Reviews, 28 October 
14.
    \66\ Alexandra Harney, ``China's Slowdown Spells Trouble for 
Migrant Workers' Pensions,'' Reuters, 5 February 15; ``Investigation 
Into the Difficulty of Social Insurance for Workers'' [Gongren shebao 
kunjing diaocha], South Reviews, 28 October 14; ``Several Thousand 
Workers at Dongguan Yue Yuen Factory Again Strike, Several Hundred 
Workers at Jundi Clothing Manufacturing Factory Defend Rights at 
Municipal Government'' [Dongguan yueyuan gongchang shu qian ren zaici 
bagong jundi zhiyi chang shubai gongren shi fu weiquan], Radio Free 
Asia, 19 March 15.
    \67\ Xu Bo, ``Social Security Fund Run Smoothly in the First Half 
of the Year, Monitoring Efforts Should Continue To Be Strengthened'' 
[Shangbannian shebao jijin yunxing pingwen jiance lidu ying chixu 
jiaqiang], Xinhua, reprinted in Sohu, 13 August 09; Alexandra Harney, 
``China's Slowdown Spells Trouble for Migrant Workers' Pensions,'' 
Reuters, 5 February 15; Li Bin, ``Guangxi: Small Service Industry 
Companies Can Apply for Delay or Reduction in Social Insurance 
Payments'' [Guangxi: fuwuye xiao wei qiye ke shenqing huan jiao huo 
jiangdi shebao fei], Xinhua, 18 November 14; Zhu Ningyu, ``Enterprises 
in Difficulty Can Delay Payment of Five Social Insurance Fees'' [Kunnan 
qiye ke huan jiao wu xiang shebao fei], Wenzhou Net, 28 September 12; 
Shanxi Provincial Ministry of Human Resources and Social Security, 
Circular on Helping Enterprises in Difficulty Continue Operations, 
``Five Delays'' and ``Three Subsidies'' Policy [Guanyu bang fu kunnan 
qiye jixu shishi ``wu xian,'' ``san butie'' zhengce de tongzhi], issued 
5 February 15.
    \68\ Xu Bo, ``Social Security Fund Run Smoothly in the First Half 
of the Year, Monitoring Efforts Should Continue To Be Strengthened'' 
[Shangbannian shebao jijin yunxing pingwen jiance lidu ying chixu 
jiaqiang], Xinhua, reprinted in Sohu, 13 August 09; Alexandra Harney, 
``China's Slowdown Spells Trouble for Migrant Workers' Pensions,'' 
Reuters, 5 February 15.
    \69\ Alexandra Harney, ``China's Slowdown Spells Trouble for 
Migrant Workers' Pensions,'' Reuters, 5 February 15; Li Bin, ``Guangxi: 
Small Service Industry Companies Can Apply for Delay or Reduction in 
Social Insurance Payments'' [Guangxi: fuwuye xiao wei qiye ke shenqing 
huan jiao huo jiangdi shebao fei], Xinhua, 18 November 14; Zhu Ningyu, 
``Enterprises in Difficulty Can Delay Payment of Five Social Insurance 
Fees'' [Kunnan qiye ke huan jiao wu xiang shebao fei], Wenzhou Net, 28 
September 12; Shanxi Provincial Ministry of Human Resources and Social 
Security, Circular on Helping Enterprises in Difficulty Continue 
Operations, ``Five Delays'' and ``Three Subsidies'' Policy [Guanyu bang 
fu kunnan qiye jixu shishi ``wu xian,'' ``san butie'' zhengce de 
tongzhi], issued 5 February 15.
    \70\ National Bureau of Statistics of China, ``2014 National 
Migrant Workers Monitoring Investigative Report'' [2014 nian quanguo 
nongmingong jiance diaocha baogao], 29 April 15.
    \71\ Shao Xi, ``Study Finds Migrant Workers Excluded From Insurance 
Coverage,'' Caixin, 13 October 14; ``Investigation Into the Difficulty 
of Social Insurance for Workers'' [Gongren shebao kunjing diaocha], 
South Reviews, 28 October 14.
    \72\ ``Elderly Migrant Workers Possibly Already Broken Through to 
40 Million, Social Security Is Less Than Satisfactory'' [Gaoling 
nongmingong huo yi tupo 4000 wan shehui baozhang bujin ru ren yi], East 
Day, reprinted in Southern News Network, 21 March 15; Anita Chan, 
``China's Factory Workers Are Becoming More Restive,'' Yale Global 
Online, 21 May 15.
    \73\ Anita Chan, ``China's Factory Workers Are Becoming More 
Restive,'' Yale Global Online, 21 May 15.
    \74\ National Bureau of Statistics of China, ``2014 National 
Economy Moving Steadily to New Normal'' [2014 nian guomin jingji zai 
xin changtai xia pingwen yunxing], 20 January 15.
    \75\ Li Jinlei, ``Did Your Wages Increase This Year? 19 Regions 
Have Raised Minimum Wage Standards'' [Jinnian ni de gongzi zhang le ma? 
19 diqu yi shangtiao zuidi gongzi biaozhun], China News Service, 26 
December 14.
    \76\ Li Jinlei, ``11 Regions Publish 2015 Minimum Wage Standards, 
Beijing and Shanghai `Gold Content' High'' [11 diqu gongbu 2015 nian 
zuidi gongzi biaozhun jinghu ``hanjin liang'' gao], China News Service, 
3 April 15.
    \77\ China Labour Bulletin, ``Wages in China,'' last visited 27 May 
15.
    \78\ China Labour Bulletin, ``Increases in China's Minimum Wage 
Begin To Stall in 2014,'' 16 December 14; Li Jinlei, ``11 Regions 
Publish 2015 Minimum Wage Standards, Beijing and Shanghai `Gold 
Content' High'' [11 diqu gongbu 2015 nian zuidi gongzi biaozhun jinghu 
``hanjin liang'' gao], China News Service, 3 April 15.
    \79\ China Labour Bulletin, ``Increases in China's Minimum Wage 
Begin To Stall in 2014,'' 16 December 14; Li Jinlei, ``Did Your Wages 
Increase This Year? 19 Regions Have Raised Minimum Wage Standards'' 
[Jinnian ni de gongzi zhang le ma? 19 diqu yi shangtiao zuidi gongzi 
biaozhun], China News Service, 26 December 14.
    \80\ Ministry of Human Resources and Social Security et al., 12th 
Five Year Plan on Employment Promotion (2011-2015) [Cujin jiuye guihua 
(2011-2015 nian)], 24 January 12; China Labour Bulletin, ``Wages in 
China,'' last visited 27 May 15.
    \81\ China Labour Bulletin, ``Wages in China,'' last visited 27 May 
15.
    \82\ Ibid.
    \83\ Serhan Cevik and Carolina Correa-Caro, International Monetary 
Fund Working Paper, ``Growing (Un)equal: Fiscal Policy and Income 
Inequality in China and BRIC+,'' March 2015, 3; Ian Talley, ``China Is 
`One of the Most Unequal Countries in the World,' IMF Paper Says,'' 
Wall Street Journal, China Real Time Report (blog), 27 March 15.
    \84\ Zhou Wenqi et al., ``China Publishes Labor Relations Model 
Cases Giving Prominence to Underlying Contradictions'' [Zhongguo gongbu 
laodong guanxi dianxing anli tuxian shenceng maodun], Xinhua, 3 
February 15; Xu Bo and Wang Zheng, ``China Focus: Wage Arrears Crime in 
China Will Be Subject to More Severe Measures'' [Zhongguo jujiao: 
qianxin fanzui zai zhongguo jiang shoudao geng yanli daji], Xinhua, 6 
January 15.
    \85\ Xu Bo and Wang Zheng, ``China Focus: Wage Arrears Crime in 
China Will Be Subject to More Severe Measures'' [Zhongguo jujiao: 
qianxin fanzui zai zhongguo jiang shoudao geng yanli daji], Xinhua, 6 
January 15; Chun Han Wong, ``Not Part of the Bargain: Chinese Premier's 
Speech Omits Key Phrase for Workers,'' Wall Street Journal, China Real 
Time Report (blog), 6 March 15.
    \86\ ``Ministry of Human Resources and Social Security: Wage 
Arrears of Migrant Workers Wages Becoming a Prominent Labor Conflict'' 
[Renshibu: tuoqian nongminggong gongzi shi you fasheng yi cheng tuchu 
laozi maodun], China News Service, 6 January 15; ``Nanjing Migrant 
Workers' Blood-Soaked Demand for Wages Makes Clear Wage Arrears Problem 
Is Still Widespread'' [Nanjing mingong yuxue taoxin tuxian qianxin 
wenti rang pubian], Radio Free Asia, 18 February 15.
    \87\ Wu Lina, ``Why Can't `Sentencing for Malicious Wage Arrears' 
Work Like `Sentencing for Drunk Driving? ' '' [Weihe ``eyi qianxin 
ruxing'' buneng xiang ``zuijia ruxing'' yiyang qi zuoyong?], Xinhua, 11 
February 15; Zhong Wei, ``Liu Li: Make Good the Bridge Between Migrant 
Workers and the Government'' [Liu li: zuohao nongminggong he zhengfu 
zhijian de qiaoliang], People's Daily, 13 February 15; ``Nanjing 
Migrant Workers' Blood-Soaked Demand for Wages Makes Clear Wage Arrears 
Problem Is Still Widespread'' [Nanjing mingong yuxue taoxin tuxian 
qianxin wenti rang pubian], Radio Free Asia, 18 February 15.
    \88\ Civil Rights & Livelihood Watch, ``Respect Human Rights, Care 
For Life--2014 Statistics on Cases of Migrant Workers Demanding Wages 
and Suffering Violence and Injury'' [Zunzhong renquan guan'ai 
shengming--2014 nian nongmingong tao xin zao baoli shanghai anjian 
tongji], 2 February 15. According to Civil Rights & Livelihood Watch, 
the law enforcement and security personnel involved in the violent 
suppression of wage arrear protests included local police, People's 
Armed Police (wujing), and S.W.A.T. forces (tejing). ``Annual 
Statistics Released on Incidents of Workers Injured While Demanding 
Wages, Incidents Where Wages Are Demanded Considered Law and Order 
Stability Maintenance Cases Leading to a Vicious Cycle'' [Niandu 
mingong taoxin shanghai an tongji chulu taoxin an dangcheng zhian 
weiwen an daozhi exing xunhuan], Radio Free Asia, 2 February 15; 
``Nanjing Migrant Workers' Blood-Soaked Demand for Wages Makes Clear 
Wage Arrears Problem Is Still Widespread'' [Nanjing mingong yuxue 
taoxin tuxian qianxin wenti rang pubian], Radio Free Asia, 18 February 
15.
    \89\ Civil Rights & Livelihood Watch, ``Respect Human Rights, Care 
For Life--2014 Statistics on Cases of Migrant Workers Demanding Wages 
and Suffering Violence and Injury'' [Zunzhong renquan guan'ai 
shengming--2014 nian nongmingong tao xin zao baoli shanghai anjian 
tongji], 2 February 15; ``Annual Statistics Released on Incidents of 
Workers Injured While Demanding Wages, Incidents Where Wages Are 
Demanded Considered Law and Order Stability Maintenance Cases Leading 
to a Vicious Cycle'' [Niandu mingong taoxin shanghai an tongji chulu 
taoxin an dangcheng zhian weiwen an daozhi exing xunhuan], Radio Free 
Asia, 2 February 15.
    \90\ Zhou Zunyou, ``Shanxi Police Force Must Be Cleaned Up if China 
Is To Honour Pledge of Accountability,'' South China Morning Post, 13 
January 15; ``Trial Begins for Zhou Xiuyun, Beaten to Death When 
Demanding Wages: Family and Lawyer Blocked From Attending Trial'' [Tao 
xin bei dasi zhou xiuyun an kaiting shenli: jiashu, lushi bei zu 
pangting], Radio Free Asia, 18 May 15.
    \91\ Di Xingli, ``Case of Taiyuan Female Migrant Worker Killed When 
Demanding Wages Begins, Police Officers Admit Striking Victim'' 
[Taiyuan nu mingong tao xin siwang an tingshen jingyuan chengren 
daren], Beijing News, reprinted in Xinhua, 20 May 15; ``Trial Begins 
for Zhou Xiuyun, Beaten to Death When Demanding Wages: Family and 
Lawyer Blocked From Attending Trial'' [Tao xin bei dasi zhou xiuyun an 
kaiting shenli jiashu, lushi bei zu pangting], Radio Free Asia, 18 May 
15.
    \92\ State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], Xinhua, 16 March 15; State Council, ``Report on the Work of 
the Government,'' reprinted in Xinhua, 16 March 15.
    \93\ Ministry of Human Resources and Social Security, ``Circular on 
Strengthening Joint Investigation Work of Suspected Crime of Refusal To 
Pay Labor Remuneration'' [Guanyu jiaqiang shexian ju bu zhifu laodong 
baochou fanzui anjian chachu xianjie gongzuo de tongzhi], 23 December 
14; Wang Xiaodong, ``Unpaid Migrant Workers To Gain Leverage,'' China 
Daily, 8 January 15.
    \94\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 276.
    \95\ Wu Lina, ``Why Can't `Sentencing for Malicious Wage Arrears' 
Work Like `Sentencing for Drunk Driving? ' '' [Weihe ``eyi qianxin 
ruxing'' buneng xiang ``zuijia ruxing'' yiyang qi zuoyong?], Xinhua, 11 
February 15; ``Ministry of Human Resources and Social Security: Wage 
Arrears of Migrant Workers Wages Becoming a Prominent Labor Conflict'' 
[Renshibu: tuoqian nongminggong gongzi shi you fasheng yi cheng tuchu 
laozi maodun], China News Service, 6 January 15.
    \96\ Tim De Meyer, International Labour Organization, ``Join in 
Building a Culture of Prevention on OSH,'' Speech at the ILO/SAWS 
Commemoration of World Day of Safety and Health and the Seminar on 
Preventative Safety Inspection, 28 April 15.
    \97\ Ibid. See also ``State Administration of Work Safety Director 
Yang Dongliang and Others Answer Reporters' Questions (Record)'' [An 
jian zongju juzhang yang dongliang deng da jizhe wen (shilu)], Caixin, 
10 March 15; Chen Jing, ``Occupational Disease in China Widespread, 
Experts Call for Establishing Comprehensive Occupational Disease Risk 
Early Warning System'' [Zhongguo zhiyebing gaofa zhuanjia yu jian 
quanmian de zhiyebing weihai yujing tixi], China News Service, 29 April 
15.
    \98\ State Council, ``State Council Report on Circumstances of Work 
Safety'' [Guowuyuan guanyu anquan shengchan gongzuo qingkuang de 
baogao], 23 December 14; ``State Administration of Work Safety Director 
Yang Dongliang and Others Answer Reporters' Questions (Record)'' [An 
jian zongju juzhang yang dongliang deng da jizhe wen (shilu)], Caixin, 
10 March 15.
    \99\ Wang Yichen, ``2014 National Work Safety Accidents and Death 
Toll Totals Decline 3.5 Percent and 4.9 Percent'' [2014 nian quanguo 
anquan shengchan shigu shu he siwang renshu xiajiang 3.5% he 4.9%], 
China Economic Net, 27 January 15; ``State Administration of Work 
Safety Director Yang Dongliang and Others Answer Reporters' Questions 
(Record)'' [An jian zongju juzhang yang dongliang deng da jizhe wen 
(shilu)], Caixin, 10 March 15.
    \100\ State Administration of Work Safety, ``2014 National Work 
Safety Review'' [2014 nian quanguo anquan shengchan gongzuo huigu], 26 
January 15; ``State Administration of Work Safety Director Yang 
Dongliang and Others Answer Reporters' Questions (Record)'' [An jian 
zongju juzhang yang dongliang deng da jizhe wen (shilu)], Caixin, 10 
March 15.
    \101\ State Administration of Work Safety, ``2014 National Work 
Safety Review'' [2014 nian quanguo anquan shengchan gongzuo huigu], 26 
January 15.
    \102\ Michael Lelyveld, ``China Cuts Coal Mine Deaths, but Count in 
Doubt,'' Radio Free Asia, 16 March 15; Gao Yulong, ``Coal Mine Conceals 
Reports of Deaths and Smuggles Black Coal, Workers Collectively 
Denounce Wage Arrears'' [Meikuang man bao shangwang tou yun hei mei 
tuoqian gongzi zao gongren jiti jubao], China Business News, 7 April 
15; ``Seventeen Officials Punished After Mine Accident Cover-Up,'' 
Xinhua, 28 January 15.
    \103\ State Council, ``State Council Report on Circumstances of 
Work Safety'' [Guowuyuan guanyu anquan shengchan gongzuo qingkuang de 
baogao], 23 December 14.
    \104\ ``State Administration of Work Safety Director Yang Dongliang 
and Others Answer Reporters' Questions (Record)'' [An jian zongju 
juzhang yang dongliang deng da jizhe wen (shilu)], Caixin, 10 March 15.
    \105\ State Council, ``State Council Report on Circumstances of 
Work Safety'' [Guowuyuan guanyu anquan shengchan gongzuo qingkuang de 
baogao], 23 December 14.
    \106\ Ibid.
    \107\ See, e.g., ``Investigation States Overtime in Labor Intensive 
Industries Has Become Normal State of Affairs, Costs of Rights Defense 
High'' [Diaocha cheng laodong miji xing qiye jiaban yi cheng changtai 
weiquan chengben gao], China National Radio, reprinted in People's 
Daily, 5 February 15. According to Article 41 of the PRC Labor Law, 
employers may extend work hours, but the total number of overtime hours 
per month that a worker is allowed to perform may not exceed 36 hours. 
See PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 July 
94, effective 1 January 95, art. 41.
    \108\ ``90 Percent of Industry Workers' Working Hours Exceed 
Limits, Holiday Overtime Pay `Disappears Without a Trace' '' [Jiu cheng 
hangye laodongzhe gongzuo shijian chao biao jie jiari jiaban fei 
``buyierfei''], CCTV, reprinted in China News Service, 24 November 14.
    \109\ Students and Scholars Against Corporate Misbehavior et al., 
``Investigation Report on the Working Conditions in UNIQLO's China 
Suppliers,'' January 2015, 1.
    \110\ ``Investigation States Overtime in Labor Intensive Industries 
Has Become Normal State of Affairs, Costs of Rights Defense High'' 
[Diaocha cheng laodong miji xing qiye jiaban yi cheng changtai weiquan 
chengben gao], China National Radio, reprinted in People's Daily, 5 
February 15.
    \111\ Yuan Suwen et al., ``Behind Rights Defense Difficulties of 
Migrant Workers With Occupational Disease: Settling Out of Fear That 
Things Will Drag on Becomes the Convention'' [Zhiye bing nongmin gong 
weiquan nan beihou: haipa tuo buqi siliao cheng guanli], Xinhua, 
reprinted in China News Service, 3 January 15; ``Sandblasting Still 
Being Used in Chinese Jean Factories,'' Al Jazeera, 11 March 15; 
Students and Scholars Against Corporate Misbehavior, ``The Lives of 
iSlaves: Report on Working Conditions at Apple's Supplier Pegatron,'' 
September 2014, 3, 11-12; China Labor Watch, ``Barbie, Mickey Mouse, 
Optimus Prime, Thomas the Tank Engine: Who Else Continues To Exploit 
Toy Workers? '' 18 November 14, 4, 10-11; Students and Scholars Against 
Corporate Misbehavior et al., ``Investigation Report on the Working 
Conditions in UNIQLO's China Suppliers,'' January 2015, 2, 19.
    \112\ ``Sandblasting Still Being Used in Chinese Jean Factories,'' 
Al Jazeera, 11 March 15; Students and Scholars Against Corporate 
Misbehavior, ``The Lives of iSlaves: Report on Working Conditions at 
Apple's Supplier Pegatron,'' September 2014, 3, 11-12; China Labor 
Watch, ``Barbie, Mickey Mouse, Optimus Prime, Thomas the Tank Engine: 
Who Else Continues To Exploit Toy Workers? '' 18 November 14, 4, 10-11; 
Students and Scholars Against Corporate Misbehavior et al., 
``Investigation Report on the Working Conditions in UNIQLO's China 
Suppliers,'' January 2015, 14, 17.
    \113\ ``Sandblasting Still Being Used in Chinese Jean Factories,'' 
Al Jazeera, 11 March 15.
    \114\ Ibid.
    \115\ See, e.g., Students and Scholars Against Corporate 
Misbehavior, ``The Lives of iSlaves: Report on Working Conditions at 
Apple's Supplier Pegatron,'' September 2014, 15; China Labor Watch, 
``Barbie, Mickey Mouse, Optimus Prime, Thomas the Tank Engine: Who Else 
Continues To Exploit Toy Workers? '' 18 November 14, 4.
    \116\ State Council, ``State Council Report on Circumstances of 
Work Safety'' [Guowuyuan guanyu anquan shengchan gongzuo qingkuang de 
baogao], 23 December 14.
    \117\ State Council and State Administration of Work Safety, 
``State Council, Office of the Committee on Safety Announcement on the 
Serious Fire Accident on `11.16' in Shouguang, Shandong'' [Guowuyuan 
anweihui bangongshi guanyu shandong shouguang ``11.16'' zhongda huozai 
shigu de tongbao], 24 November 14.
    \118\ Chen Jing, ``Occupational Disease in China Widespread, 
Experts Call for Establishing Comprehensive Occupational Disease Risk 
Early Warning System'' [Zhongguo zhiyebing gaofa zhuanjia yu jian 
quanmian de zhiyebing weihai yujing tixi], China News Service, 29 April 
15; State Council, ``State Council Report on Circumstances of Work 
Safety'' [Guowuyuan guanyu anquan shengchan gongzuo qingkuang de 
baogao], 23 December 14.
    \119\ Zheng Genling et al., ``Yang Dongliang: Great Disparity in 
Occupational Health, Particularly in the Prevention of Occupational 
Disease'' [Yang dongliang: zhiye jiankang tebie shi zhiyebing fangzhi 
gongzuo chaju hen da], CCTV, 10 March 15.
    \120\ Han Xiaorong, ``Number of People Suffering From Occupational 
Disease in China Ranks First in the World, Are You Infected? '' 
[Zhongguo zhiyebing renshu ju quanqiu shouwei, ni zhongzhao le ma?], 
Shanghai Education News, 30 April 15; Chen Jing, ``Occupational Disease 
in China Widespread, Experts Call for Establishing Comprehensive 
Occupational Disease Risk Early Warning System'' [Zhongguo zhiyebing 
gaofa zhuanjia yu jian quanmian de zhiyebing weihai yujing tixi], China 
News Service, 29 April 15.
    \121\ Chinese Center for Disease Control and Prevention, ``2014 
National Occupational Disease Report Work Conference Opens in Chengdu'' 
[2014 nian quanguo zhiyebing baogao gongzuo huiyi zai chengdu zhaokai], 
30 September 14; Li Letao, ``Occupational Disease Dangers Increasingly 
Serious, Lack of Health Examinations Leads to Difficulty in Rights 
Defense'' [Zhiyebing weihai riqu yanzhong quefa jiankang tijian daozhi 
nan weiquan], Dazhong Net, reprinted in Gaowei Law Firm, 22 April 15; 
China Labor Support Network, ``The Current Situation Concerning 
Occupational Diseases and Disclosure of Government Information in 
China,'' Asia Monitor Resource Center, Asian Labour Update, No. 85, 
January 2015, 7-8.
    \122\ Li Letao, ``Occupational Disease Dangers Increasingly 
Serious, Lack of Health Examinations Leads to Difficulty in Rights 
Defense'' [Zhiyebing weihai riqu yanzhong quefa jiankang tijian daozhi 
nan weiquan], Dazhong Net, reprinted in Gaowei Law Firm, 22 April 15; 
China Labor Support Network, ``The Current Situation Concerning 
Occupational Diseases and Disclosure of Government Information in 
China,'' Asia Monitor Resource Center, Asian Labour Update, No. 85, 
January 2015, 7-8.
    \123\ Chen Jing, ``Occupational Disease in China Widespread, 
Experts Call for Establishing Comprehensive Occupational Disease Risk 
Warning System'' [Zhongguo zhiyebing gaofa zhuanjia yu jian quanmian de 
zhiyebing weihai yujing tixi], China News Service, 29 April 15; Gui 
Jie, ``Love Save Pneumoconiosis: Let Everyone Know These Three 
Characters Pneumoconiosis'' [Da'ai qingchen: rang chenfeibing san ge zi 
renren jie zhi], China Youth Daily, 4 February 15.
    \124\ Gao Zhu and Li Na, ``The Road to Protecting Rights for Those 
With Pneumoconiosis: Medical Fees Are a Bottomless Pit and Claiming 
Compensation Is Arduous'' [Chenfeibing huanzhe weiquan lu: yiyao fei 
shi ge wudidong suopei jianxin], Workers' Daily, reprinted in Xinhua, 5 
April 15; Gui Jie, ``Love Save Pneumoconiosis: Let Everyone Know These 
Three Characters Pneumoconiosis'' [Da'ai qingchen: rang chenfeibing san 
ge zi renren jie zhi], China Youth Daily, 4 February 15. See also Love 
Save Pneumoconiosis, ``About Us: Foundation Introduction'' [Guanyu 
women: jijin jianjie], last visited 27 July 15.
    \125\ Li Letao, ``Occupational Disease Dangers Increasingly 
Serious, Lack of Health Examinations Leads to Difficulty in Rights 
Defense'' [Zhiyebing weihai riqu yanzhong quefa jiankang tijian daozhi 
nan weiquan], Dazhong Net, reprinted in Gaowei Law Firm, 22 April 15; 
Chen Jing, ``Occupational Disease in China Widespread, Experts Call for 
Establishing Comprehensive Occupational Disease Risk Warning System'' 
[Zhongguo zhiyebing gaofa zhuanjia yu jian quanmian de zhiyebing weihai 
yujing tixi], China News Service, 29 April 15.
    \126\ Chen Jing, ``Occupational Disease in China Widespread, 
Experts Call for Establishing Comprehensive Occupational Disease Risk 
Warning System'' [Zhongguo zhiyebing gaofa zhuanjia yu jian quanmian de 
zhiyebing weihai yujing tixi], China News Service, 29 April 15.
    \127\ New Generation Task Force, ``Investigative Report on the 
State of Dispatch Labor Use in Guangzhou--Taking Automotive 
Manufacturing and Electronics Industries as Examples'' [Guangzhou laowu 
paiqian shiyong zhuangkuang diaoyan baogao--yi qiche zhizao ji dianzi 
hangye wei li], iLabour.org, 20 October 14; `` `State Enterprise 
Dispatch Labor' Dispute'' [``Guoqi laowu paiqian gong'' zhi bian], 
Worker's Daily, 12 March 15; Jonathan Landreth and Kevin Slaten, 
``Major China Apple Supplier Pays Worker Less Than Foxconn: A Q&A With 
Kevin Slaten of China Labor Watch,'' Asia Society, ChinaFile (blog), 20 
February 15.
    \128\ Zheping Huang, ``China's Teenage, Untrained Firefighters Make 
Disasters Like Tianjin Worse,'' Quartz, 18 August 15.
    \129\ Ibid.; ``United States Does Not Encourage `Non-Permanent 
Staff Heroes' To Serve as Heroes'' [Meiguo bu guli ``bianwai 
yingxiong'' dang yingxiong], Caijing, 18 August 15.
    \130\ China Labour Bulletin, ``In China, There Is No Firefighters' 
Trade Union and It Shows,'' 19 August 15; ``United States Does Not 
Encourage `Non-Permanent Staff Heroes' To Serve as Heroes'' [Meiguo bu 
guli ``bianwai yingxiong'' dang yingxiong], Caijing, 18 August 15. 
According to Caijing, China employs fewer than 0.9 firefighters per 
10,000 residents, while other developing countries have 3 firefighters 
per 10,000 residents, and developed countries employ between 10 and 15 
firefighters per 10,000 residents. Zhang Yongsheng and Zhai Xingli, 
``Behind Deaths of Firefighters, Investigation Into Professionalization 
Dilemma'' [Xiaofangyuan zhi si beihou zhiyehua kunjing diaocha], 
Beijing News, 15 January 15. Beijing News reports that China has fewer 
than 2 firefighters per 10,000 residents while the averages for 
developing and developed countries are 3 to 5 per 10,000 residents and 
more than 10 per 10,000 residents, respectively.
    \131\ Ministry of Public Security Fire Department, China Fire 
Yearbook (2014) [Zhongguo xiaofang nianjian (2014 nian)], December 
2014, 378, 380, 382; Zheping Huang, ``China's Teenage, Untrained 
Firefighters Make Disasters Like Tianjin Worse,'' Quartz, 18 August 15. 
See also PRC Fire Protection Law [Zhonghua renmin gongheguo xiaofang 
fa], passed 29 April 98, amended 29 October 08, effective 1 May 09, 
art. 39.
    \132\ China Labour Bulletin, ``In China, There Is No Firefighters' 
Trade Union and It Shows,'' 19 August 15; Luo Ting et al., ``Many From 
First Firefighting Team To Enter Scene of Fire Still Out of Contact'' 
[Shou zhi jin huochang xiaofangdui reng duo ren shilian], Beijing News, 
16 August 15.
    \133\ Zhang Yongsheng and Zhai Xingli, ``Behind Deaths of 
Firefighters, Investigation Into Professionalization Dilemma'' 
[Xiaofangyuan zhi si beihou zhiyehua kunjing diaocha], Beijing News, 15 
January 15; Xu Ye and Ye Yuting, ``Investigation of China's `Non-
Permanent Staff' Firefighters: First Day Entering Scene of Fire, Third 
Day Moving Corpses'' [Zhongguo ``bianwai'' xiaofangyuan diaocha: ru dui 
diyi tian shang huochang disan tian ban shiti], Phoenix Net, 21 August 
15.
    \134\ Didi Kirsten Tatlow, ``One Week After the Tianjin Blasts: 
What We Know,'' New York Times, Sinosphere (blog), 19 August 15.
    \135\ Andrew Jacobs, ``In Tianjin Blasts, a Heavy Toll for 
Unsuspecting Firefighters,'' New York Times, 17 August 15; Zheping 
Huang, ``China's Teenage, Untrained Firefighters Make Disasters Like 
Tianjin Worse,'' Quartz, 18 August 15.
    \136\ Andrew Jacobs, ``In Tianjin Blasts, a Heavy Toll for 
Unsuspecting Firefighters,'' New York Times, 17 August 15; Luo Ting et 
al., ``Many From First Firefighting Team To Enter Scene of Fire Still 
Out of Contact'' [Shou zhi jin huochang xiaofangdui reng duo ren 
shilian], Beijing News, 16 August 15.
    \137\ ``China Explosions: Potent Chemical Mix Behind Tianjin 
Blasts,'' BBC, 15 August 15.
    \138\ ``Tianjin Blasts Death Toll Rises to 116, 60 Missing,'' 
Xinhua, 21 August 15.
    \139\ Andrew Jacobs, ``In Tianjin Blasts, a Heavy Toll for 
Unsuspecting Firefighters,'' New York Times, 17 August 15; Bai Ying, `` 
`This Is an Unprecedented Firefight and Rescue'--Exclusive Interview 
With Ministry of Public Security Fire Department Deputy Director, Chief 
Engineer Du Lanping'' [``Zhe shi yi ci qiansuoweiyou de meihuo 
jiuyuan''--zhuanfang gong'anbu xiaofangju fu juzhang, zong gongchengshi 
du lanping], Xinhua, 15 August 15.
    \140\ Andrew Jacobs, ``In Tianjin Blasts, a Heavy Toll for 
Unsuspecting Firefighters,'' New York Times, 17 August 15; Chi Haibo, 
``Searching for Tianjin Port's Full-Time Firefighters'' [Xunzhao 
tianjin gang zhuanzhi xiaofangyuan], Beijing Youth Daily, 19 August 15.
    \141\ Zhao Yinan, ``Premier Li Pledges Thorough Investigation Into 
Deadly Blasts,'' China Daily, 17 August 15.

                            Criminal Justice


                              Introduction

    Criminal justice was an area of significant concern during 
the Commission's 2015 reporting year. Chinese authorities 
introduced discrete reforms that could improve the criminal 
justice system's fairness and accuracy.\1\ The Commission did 
not observe statistics establishing the impact of reforms from 
the past reporting year, such as whether they led to a decrease 
in death sentences or a higher rate of convictions being 
overturned on appeal. A May 2015 report by an international 
human rights non-governmental organization (NGO) found that 
Chinese authorities have failed to fully enforce certain 
criminal justice reforms introduced in past years, especially 
measures that provide for excluding suspects' confessions and 
written statements obtained through torture.\2\ Fundamental 
structural issues--including the dominance of police \3\ in the 
police-procuratorate-court ``iron triangle'' \4\ and the 
overriding influence of the Chinese Communist Party \5\--
remained impediments to creating a criminal justice system that 
comports with standards dictated by both Chinese law \6\ and 
international human rights instruments.\7\ Although reform-
minded individuals both within and outside the government 
continued to press for reforms furthering the protection of 
human rights,\8\ their ability to bring about meaningful reform 
was constrained in a political climate that emphasized 
perpetuating one-party rule at the expense of individual 
freedoms.\9\

              Alternatives to the Criminal Justice System

    A narrow view of criminal justice in China that considers 
only formal criminal processes fails to capture the full 
breadth of extrajudicial measures used by the Chinese 
government and Communist Party. So-called ``administrative'' or 
otherwise non-criminal measures,\10\ disciplinary actions by 
the Party against its own members,\11\ and other actions taken 
by Chinese authorities that lack adequate legal support \12\ 
continued to be tools for suppressing behavior that the 
government and Party deem dangerous, socially undesirable, or 
threatening to the existing political structure.\13\ For 
example, an amendment to the PRC Food Safety Law to take effect 
in October 2015 provides that people who add inedible 
substances to food can be detained for 15 days without being 
afforded the protections in the PRC Criminal Procedure Law.\14\
    While not labeled ``criminal'' by the Chinese government, 
these ``administrative,'' Party-controlled, and extralegal 
measures can restrict personal liberty as severely, if not 
more, than some sanctions allowed by the PRC Criminal Law,\15\ 
and lack sufficient judicial procedures.\16\ These deprivations 
of liberty raise concerns under international law because of 
the Chinese government's failure to observe international norms 
relating to the right to a fair trial,\17\ including as set 
forth in the International Covenant on Civil and Political 
Rights (ICCPR),\18\ which China signed in 1998 but still has 
not ratified.\19\

                        ADMINISTRATIVE MEASURES

    In December 2013, the Chinese government ended the 
longstanding practice of reeducation through labor (RTL)--a 
form of administrative detention that could result in up to 
four years' deprivation of liberty without a trial.\20\ The 
Commission's 2014 Annual Report cautioned, however, that 
alternative ``administrative'' measures remained after RTL's 
abolition.\21\ Chinese authorities continued to use various 
extrajudicial measures during this reporting year.\22\ For 
instance, although the PRC Mental Health Law took effect in 
2013,\23\ the use of psychiatric facilities to detain people 
who do not necessarily have mental health conditions continued 
to receive international attention as a form of arbitrary 
detention.\24\ A report by a China-based NGO found that, in 
2014, the government used mental health facilities to detain 
rights advocates.\25\ Attention has also focused on China's use 
of involuntary detention of drug addicts in compulsory drug 
treatment centers,\26\ with the public health advocacy NGO 
Beijing Aizhixing Institute questioning the conditions of 
confinement and use of forced labor at drug treatment centers 
in a February 2015 submission to the UN Committee against 
Torture.\27\
    A focal point of concern has been ``custody and 
education,'' a form of administrative detention that can 
deprive people of liberty for up to two years.\28\ In response 
to a request through China's open government information 
system, the government reported there were 116 ``custody and 
education'' centers as of August 2014.\29\ Authorities have 
largely used this form of detention against sex workers, and 
sometimes their customers,\30\ though authorities have also 
reportedly used it against government critics.\31\ Although 
UNAIDS has advised, ``Sex workers and clients should have 
access to high-quality educational opportunities,'' \32\ a 
report by the international NGO Asia Catalyst concluded that 
``custody and education'' detainees ``are required to engage in 
long hours of uncompensated labor, and have few opportunities 
for skill training and education.'' \33\ The release of actor 
Huang Haibo in December 2014 after six months' detention for 
soliciting a sex worker brought greater attention to the use of 
``custody and education,'' \34\ but the centers remained in 
use.\35\

              CHINESE COMMUNIST PARTY DISCIPLINARY PROCESS

    The approximately 87 million members of the Chinese 
Communist Party \36\ are subject to a complex and opaque 
disciplinary process entirely within the Party's control.\37\ 
The Party has special measures for investigating, detaining, 
and punishing members prior to transferring them to the formal 
criminal justice system.\38\ Party members can be subject to a 
Party disciplinary process called shuanggui (sometimes 
translated as ``double designation''),\39\ which requires them 
to appear for interrogation at a designated time and place.\40\ 
Shuanggui not only contravenes the right to be free from 
arbitrary detention guaranteed by the Universal Declaration of 
Human Rights and the ICCPR,\41\ but also violates Chinese 
law.\42\ Shuanggui remains governed by internal Party rules 
\43\ despite calls by voices ranging from Chinese legal experts 
\44\ to a member of the Chinese People's Political Consultative 
Conference \45\ for the Party to consider bringing shuanggui 
into the legal system.
    President and Party General Secretary Xi Jinping's ongoing 
anticorruption campaign brought new emphasis on the 
intersection of the Party disciplinary process with the formal 
criminal justice process.\46\ By April 2015, the campaign had 
led to the removal of 100 high-ranking officials in addition to 
scores of low-ranking ones.\47\ Most prominently, the June 2015 
conviction of Zhou Yongkang, a former member of the Standing 
Committee of the Political Bureau of the Communist Party 
Central Committee and Minister of Public Security, for bribery, 
abusing power, and disclosing state secrets followed months of 
detention under the Party's disciplinary process.\48\ The 
Tianjin No. 1 Intermediate People's Court sentenced Zhou to 
life in prison.\49\ The PRC Criminal Procedure Law provides 
that trials be held in open court sessions by default.\50\ In 
Zhou Yongkang's case, however, the government chose to hold the 
trial entirely behind closed doors, citing the legal exception 
for cases involving disclosure of state secrets.\51\
    The lack of transparency regarding Party members' 
experiences when subjected to disciplinary measures complicates 
efforts to evaluate the extent to which the Party's procedures 
comply with international human rights norms.\52\ The limited 
reports available indicate that, at a minimum, there are 
violations with respect to the arbitrary nature of the 
detention as well as the conditions of detention.\53\

                       OTHER EXTRALEGAL MEASURES

    During the past reporting year, the Party and government 
continued to take actions without legal basis in order to 
silence voices perceived as threatening to the Party's 
control.\54\ These extralegal measures were expedient tools for 
suppressing dissent and, because the Party and government do 
not formally recognize them, have been especially difficult to 
monitor and evaluate.\55\ Measures range from home confinement 
(sometimes called ``soft detention'' for the Chinese term 
ruanjin) \56\ to holding people at secret detention sites known 
as ``black jails.'' \57\ Prominent human rights lawyer Gao 
Zhisheng,\58\ for example, was released from prison in August 
2014 following completion of a three-year sentence for 
``inciting subversion of state power.'' \59\ After his release, 
however, he remained under 24-hour surveillance at his home 
with limited telephone access.\60\

                              Criminal Law

    During the Commission's 2015 reporting year, important 
developments took place in the formal criminal justice system 
with respect to both the substantive laws that could be used to 
support a conviction as well as the procedures that people 
undergo once identified as criminal suspects.
    This past year the Chinese government adjusted the types of 
conduct subject to criminal sanctions and the severity of 
possible punishments. The National People's Congress Standing 
Committee passed the Ninth Amendment to the PRC Criminal Law in 
August 2015 with 51 revisions that will take effect in November 
2015.\61\ The Ninth Amendment included positive changes such as 
reducing the number of capital crimes \62\ and increasing 
protections for vulnerable populations by criminalizing the 
buying of women and children.\63\ [For more information, see 
Section II--Human Trafficking.] Under the previous iteration of 
the law, Article 291 criminalized gathering a crowd to disturb 
order in a public place.\64\ The new addition to Article 291 
punishes the fabrication and dissemination of certain types of 
false information--including regarding ``dangerous 
situations,'' ``epidemics,'' and ``disasters''--on the Internet 
and other media with up to seven years' imprisonment.\65\ The 
amendment did not include definitions of key terms like 
``dangerous situations,'' ``epidemics,'' and ``disasters.'' 
\66\ An amendment to Article 308 provides up to three years' 
imprisonment for the transmission of certain information 
regarding court cases that are not to be tried in public.\67\ 
The amendments to Articles 291 and 308 thus create new criminal 
liability for transmitting various types of information, in 
addition to existing PRC Criminal Law provisions criminalizing 
the disclosure of state secrets.\68\ The April 2015 sentencing 
of veteran journalist Gao Yu to seven years' imprisonment for 
allegedly leaking state secrets \69\ was criticized by foreign 
governments \70\ and international non-governmental 
organizations (NGOs) \71\ as an abuse of criminal laws to 
silence peaceful criticism of the government. [For more 
information on Gao's case, see Section II--Freedom of 
Expression.]

               LAWS CRIMINALIZING TERRORISM AND EXTREMISM

    The Chinese government's June 2015 report on ``Progress in 
China's Human Rights in 2014'' highlighted efforts to combat 
terrorism, reporting ``[T]he judicial organs severely punished 
crimes such as the terrorist attacks at Tiananmen on October 
28, 2013 and at Kunming railway station on March 1, 2014 to 
ensure the safety of life and property of the people.'' \72\ 
During the 2015 reporting year, the government considered 
adopting a counterterrorism law \73\ and passed revisions to 
the PRC Criminal Law regarding the punishments for 
``terrorism'' and ``extremism.'' \74\ The Supreme People's 
Court's (SPC) 2014 work report noted a 14.8-percent increase 
over the previous year in cases handled by Chinese courts 
involving terrorist attacks and ``separatism.'' \75\ The draft 
PRC Counterterrorism Law has garnered attention for its 
potential to criminalize activities that are freedoms protected 
under international human rights norms.\76\ One international 
human rights NGO warned that ``in its present form [the PRC 
Counterterrorism Law (Draft)] is little more than a license to 
commit human rights abuses.'' \77\

                           ``POCKET CRIMES''

    This past year, Chinese authorities expanded the use of 
``pocket crimes'' (koudai zui) \78\--such as ``gathering a 
crowd to disturb social order'' \79\--so named because Chinese 
authorities incorporate a wide variety of conduct within their 
definitions.\80\ In May 2015, authorities indicted Pu Zhiqiang, 
a public interest lawyer, with ``inciting ethnic hatred'' \81\ 
and ``picking quarrels and provoking trouble'' \82\ related to 
comments on his microblog.\83\ The PRC Criminal Law provision 
for ``picking quarrels and provoking trouble'' lists four 
relatively specific acts,\84\ and the SPC and Supreme People's 
Procuratorate have issued a joint judicial interpretation of 
the crime.\85\ One expert on Chinese law commented that the 
crime ``as applied to Pu's case has to be stretched beyond all 
recognition in order to apply.'' \86\ Authorities initially 
detained Pu in May 2014.\87\
    Authorities have used the offense of ``inciting subversion 
of state power'' \88\ to imprison human rights advocates such 
as lawyer Gao Zhisheng in 2006,\89\ Nobel Peace Prize laureate 
Liu Xiaobo in 2009,\90\ and, in May 2015, democracy advocate 
Liu Jiacai.\91\ Similarly, authorities have charged people whom 
the government and Party see as threats with engaging in 
``illegal business activity.'' \92\ Authorities arrested Guo 
Yushan,\93\ founder of the think tank and NGO Transition 
Institute, in January 2015.\94\ The Beijing Municipal Public 
Security Bureau accused Guo of ``illegal business activity'' 
for publishing the Transition Institute's various research 
reports on tax reforms, education equality, legal reforms, and 
social and economic issues.\95\ Authorities released Guo and He 
Zhengjun, a Transition Institute manager arrested on the same 
charge, on ``guarantee pending further investigation'' 
(``bail'') the week prior to President Xi Jinping's state visit 
to the United States in September 2015.\96\ In December 2014, a 
district court in Beijing sentenced Shen Yongping,\97\ the 
creator of a documentary about the history of constitutional 
governance in China, to one year's imprisonment on the basis 
that disseminating copies of the film constituted ``illegal 
business activity.'' \98\

                           Criminal Procedure

    Chinese authorities' implementation of key provisions in 
the 2012 PRC Criminal Procedure Law (CPL) \99\ remained 
inconsistent \100\ during the Commission's 2015 reporting year. 
Even when Chinese authorities followed the CPL, they continued 
to target government critics in an effort to suppress rights 
advocacy.\101\ In March 2015, authorities detained five women's 
rights advocates \102\ on suspicion of ``picking quarrels and 
provoking trouble'' \103\--later changed to ``gathering a crowd 
to disturb order in a public place'' \104\--for planning to 
distribute materials calling attention to sexual 
harassment.\105\ Authorities released the five women over a 
month later on bail (also translated as ``guarantee pending 
further investigation''),\106\ meaning that they remained 
criminal suspects who were limited in their freedom of movement 
and communications for an investigation period of up to 12 
months.\107\ After their release, one of the women reported 
that authorities summoned her back for eight hours of 
interrogation and verbal abuse.\108\ As the government 
reportedly continued surveillance of the women,\109\ another 
Chinese women's rights advocate wrote, ``The police punished my 
friends to intimidate other social and political activists.'' 
\110\

               ACCESS TO COUNSEL AND TREATMENT OF LAWYERS

    Following the 2012 CPL's clarification of procedures for 
lawyer-client contact,\111\ the Supreme People's Procuratorate 
(SPP) introduced new regulations in December 2014 aimed at 
improving the ability of lawyers to perform their professional 
duties by, for example, emphasizing the right to lawyer-client 
meetings in criminal cases.\112\ In March 2015, the head of the 
SPP reportedly stated that all levels of procuratorates should 
safeguard the rights of lawyers who represent defendants in 
major bribery cases \113\--a noteworthy development because 
lawyer-client contact had been especially constrained in cases 
involving serious bribery, endangering state security, and 
terrorism.\114\ In general, however, lawyers continued to face 
substantial impediments when trying to play a meaningful role 
in criminal cases.\115\ As explained by a Chinese legal 
scholar, ``[T]he Chinese government was not prepared to adopt 
broad legal protections for defendants, including the right to 
remain silent and allowing lawyers to be present during 
interrogations.'' \116\ The Commission did not observe any 
change in the long-standing problem that most criminal suspects 
are not assisted by counsel.\117\
    Criminal detentions and prosecutions of lawyers, 
particularly rights defense lawyers who took on cases deemed 
sensitive by the government, continued during the reporting 
year.\118\ Article 306 of the PRC Criminal Law creates a strong 
disincentive for lawyers to collect evidence on their clients' 
behalf because the government has used the provision to allege 
that lawyers who take on sensitive cases have fabricated 
evidence or induced witnesses to change their testimony.\119\ A 
revision to the PRC Criminal Law amended Article 309 to 
stipulate that ``insulting, defaming, or threatening a judicial 
officer'' and ``engaging in other acts that seriously disrupt 
the order of the court'' may be punishable by up to three 
years' imprisonment.\120\ Over 500 lawyers signed an open 
letter in November 2014 expressing concerns that this provision 
could criminalize lawyers' speech during trials if they 
challenge the court.\121\
    Lawyers also faced reprisals short of formal criminal 
prosecution. In December 2014, authorities detained defense 
lawyer Zhang Keke after he invoked China's Constitution in 
court while representing a Falun Gong practitioner.\122\ 
Approximately 260 Chinese lawyers signed an open letter 
protesting Zhang's treatment.\123\ In April 2015, court 
personnel removed defense lawyer Chen Jian'gang from the 
courtroom and detained him after he objected to the court's 
decision to shackle his client in contravention of Chinese 
law.\124\
    Concerns for lawyers' safety go beyond official government 
action. In April 2015, unidentified assailants attacked four 
defense lawyers outside a court after they had publicly accused 
police of having coerced their clients into confessing.\125\ 
Hundreds of lawyers responded by calling for an investigation 
into the beatings.\126\ [For information on a crackdown against 
rights lawyers launched in July 2015, see Section III--Access 
to Justice--Harassment and Abuse of Human Rights and Public 
Interest Lawyers.]

         SOURCES OF EVIDENCE: TORTURE AND WRONGFUL CONVICTIONS

    Numerous reports have surfaced over the past decade of 
innocent people convicted in China based on faulty 
evidence.\127\ The Chinese government for years has 
acknowledged the problem of wrongful convictions, including the 
use of torture to extract confessions.\128\ In a major policy 
document issued in October 2014, the Chinese Communist Party 
emphasized strengthening procedures for gathering and using 
evidence in criminal cases.\129\ In March 2015, the head of the 
Supreme People's Court (SPC) apologized for past wrongful 
convictions and called on courts to improve practices.\130\ 
Also in March 2015, the Supreme People's Procuratorate (SPP) 
issued ``Five Major Cases in Correcting Wrongful Convictions.'' 
\131\ In April 2015, the SPP announced that it was launching a 
special campaign to rectify ``miscarriages of justice.'' \132\ 
According to a December 2014 media report, the SPC was 
reportedly drafting more detailed guidance in conjunction with 
other government bodies regarding the procedures for excluding 
evidence, but this document had not been released publicly as 
of September 2015.\133\
    Sources continued to report on high-profile wrongful 
convictions this past year.\134\ In December 2014, the Inner 
Mongolia Autonomous Region High People's Court posthumously 
overturned an April 1996 guilty verdict for rape and murder 
that resulted in the swift execution of Huugjilt, an 18-year-
old ethnic Mongol.\135\ The case's handling came under intense 
scrutiny when, in December 2014, the commanding officer faced 
criminal charges for using force to extract confessions in 
other cases \136\--a rare example of police being held 
accountable for their interrogation practices.\137\ Huugjilt 
reportedly confessed to the murder after 48 hours of 
interrogation but subsequently proclaimed his innocence.\138\ 
Other examples from the 2015 reporting year included the Fujian 
Province High People's Court's decision in August 2014 to 
overturn Nian Bin's conviction for murder after eight years in 
prison following a coerced confession,\139\ and the Shandong 
Province High People's Court's review of the infamous 1995 
execution of Nie Shubin for a murder he did not commit.\140\
    In early 2015, the Party called for an end to quotas for 
``arrests, indictments, guilty verdicts and case conclusions.'' 
\141\ Depending on the implementation of such a plan,\142\ this 
change could positively influence the incentive structure for 
police, as well as for prosecutors and judges, by reducing 
pressure to extract confessions.\143\ Chinese authorities took 
steps to require that police film all interrogations \144\ and 
to increase accountability of individual police officers for 
their conduct.\145\ In addition, discussions continued 
regarding possible adoption of a new PRC Detention Center 
Law,\146\ covering interrogation conditions at centers 
controlled by the Public Security Bureau.\147\ One Chinese law 
professor pointed out, however, that rules for excluding 
illegally obtained evidence and other discrete legal reforms 
are insufficient,\148\ and improvements to the overarching 
structure of the criminal process are necessary.\149\
    Chinese authorities have stated their intention to place 
greater emphasis on trials,\150\ including increasing citizen 
participation in the trial process.\151\ For those cases 
proceeding from police investigation to formal charges and a 
trial, however, defendants regularly faced substantial 
challenges when countering the government's case. China had a 
nearly 100-percent conviction rate as of 2013 \152\ and has 
long had a practice of leniency for those who confess and 
severity for those who do not.\153\ Witnesses rarely appear in 
court for questioning,\154\ and the Commission observed few 
reports of successful use of the rules on excluding illegally 
obtained evidence contained in the 2012 Criminal Procedure 
Law.\155\ In a May 2015 report, Human Rights Watch (HRW) 
reviewed 158,000 criminal court verdicts published on the 
Supreme People's Court (SPC) website and found 432 in which the 
suspects alleged torture.\156\ HRW reported that, ``The 
defendants were convicted in all 432 cases, and judges excluded 
confessions in only 23 cases (6 percent of the verdicts) due to 
concerns over police torture. And even in those 23 cases, the 
defendants were convicted.'' \157\
    The conditions under which suspects confess will be subject 
to detailed international scrutiny on November 17 and 18, 2015, 
when the UN Committee against Torture (Committee) reviews 
China's compliance with the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment.\158\ 
A number of NGOs have submitted to the Committee issues of 
concern ranging from an insufficient legal definition of 
torture under Chinese law to the use of extralegal detention 
facilities such as ``black jails.'' \159\

                          CLEMENCY AND PAROLE

    The Chinese government took steps during the 2015 reporting 
year to address the use of clemency and parole in criminal 
cases. Following issuance in 2014 of various new rules on 
commutations and parole by the SPC,\160\ Supreme People's 
Procuratorate (SPP),\161\ and the Ministry of Justice,\162\ the 
SPP announced in March 2015 that 252 officials were punished in 
2014 for ``illegally granting parole or shortening prison 
terms.'' \163\ In February 2015, the SPC provided additional 
guidance in the form of eight typical cases involving 
commutations, parole, and temporarily serving sentences outside 
prison.\164\ In April 2015, the Ministry of Justice issued an 
``Opinion on Further Deepening Prison Affairs Openness'' that 
included provisions on information that should be provided to 
the public as well as to the families of prisoners.\165\ The 
Ministry of Justice also warned about abuses of the medical 
parole system.\166\ This past year, there were allegations that 
some wealthy prisoners bought patents to take advantage of an 
early release arrangement for prisoners who developed new 
technologies.\167\
    The PRC Criminal Law further allows early release on the 
basis of good behavior.\168\ American geologist Xue Feng was 
released on this basis in April 2015, 10 months before the end 
of his 8-year sentence.\169\ The Beijing No. 1 Intermediate 
People's Court convicted Xue in July 2010 of ``illegally 
procuring state secrets'' following a trial reportedly marred 
by numerous procedural abuses.\170\

                             Death Penalty

    In its 2014 annual report on the death penalty, the 
international NGO Amnesty International once again was unable 
to publish an exact figure for executions in China because of 
the information's classification and inaccessibility as a state 
secret.\171\ Amnesty International noted, however, 
``[A]vailable information indicates that thousands of people 
are executed and sentenced to death in China each year.'' \172\ 
There were signs that the overall trend of curbing use of the 
death penalty had not reversed course.\173\ The U.S.-based 
human rights organization Dui Hua Foundation estimated that 
executions would stay steady at about 2,400 in 2013 and 2014 
because ``[a]nnual declines in executions recorded in recent 
years are likely to be offset in 2014 by the use of capital 
punishment in anti-terrorism campaigns in the Xinjiang Uyghur 
Autonomous Region and the anticorruption campaign nationwide.'' 
\174\
    Public support in China for retaining the death penalty 
remained strong, including in corruption cases.\175\ 
Nonetheless, in line with the goal announced at the Third 
Plenum of the 18th Party Congress Central Committee in November 
2013 \176\ of ``gradually reducing the number of crimes 
punishable by the death penalty,'' \177\ the Chinese government 
reduced the number of capital crimes from 55 to 46.\178\ The 
crimes for which the death penalty is most commonly applied 
were not among those on the list.\179\
    The Chinese government continued to reevaluate the 
procedures used to determine and carry out death 
sentences,\180\ procedures that were overhauled in 2006 when 
the SPC took back final review power of capital cases.\181\ In 
January 2015, the SPC issued new measures that detailed how 
judges should take defense lawyers' opinions into account 
during the review of death sentences.\182\ Courts also 
continued to face scrutiny from the general public regarding 
whether death sentences were warranted in individual 
cases.\183\ An example of public pressure followed the April 
2015 decision by a court in Anyue county, Ziyang municipality, 
Sichuan province, to suspend the death sentence of Li Yan, a 
woman who murdered her abusive husband.\184\ [For more 
information on Li Yan's case, see Section II--Status of Women.] 
Another point of concern was the conditions under which 
detainees on death row are held,\185\ with reports that one 
prisoner was handcuffed and shackled for eight years.\186\
    According to state-run media, the Chinese government 
announced the end of harvesting organs from executed prisoners 
starting in January 2015,\187\ but further reported that death 
row prisoners remained ``among the qualified candidates for 
donations.'' \188\ International medical professionals and 
human rights advocates expressed concerns regarding the 
voluntary nature of such donations.\189\ One international 
human rights NGO cautioned that weaning China off harvesting 
organs from executed prisoners was a ``marathon, not a 
sprint.'' \190\
    Notes to Section II--Criminal Justice

    \1\ See, e.g., Supreme People's Court, Measures Concerning 
Listening to Defense Lawyers' Opinions in Handling Death Penalty Review 
Cases [Zuigao renmin fayuan guanyu banli sixing fuhe anjian tingqu 
bianhu lushi yijian de banfa], issued 29 January 15; Supreme People's 
Procuratorate, People's Procuratorate Guidelines for Reviews of 
Criminal Case Appeals [Renmin jianchayuan fucha xingshi shensu anjian 
guiding], issued 29 April 14, reprinted in Procuratorial Daily, 21 
November 14.
    \2\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 3.
    \3\ Hu Wei, ``Experts Call for Less Police Dominance in China Legal 
System,'' Voice of America, 10 September 14; Murray Scot Tanner and 
Eric Green, ``Principals and Secret Agents: Central Versus Local 
Control Over Policy and Obstacles to `Rule of Law' in China,'' China 
Quarterly, Vol. 191 (September 2007), 644; Kam C. Wong, Chinese 
Policing, History, and Reform (New York: Peter Lang Publishing, 2009), 
157. The colloquial term ``police'' encompasses a variety of law 
enforcement officials in China, e.g., local public security officers, 
state security officers, and People's Armed Police.
    \4\ Mike McConville, Criminal Justice in China: An Empirical 
Inquiry (Northampton, MA: Edward Elgar, 2011), 378-79.
    \5\ ``Xi Makes the Rules,'' Economist, Analects (blog), 24 October 
14.
    \6\ See, e.g., PRC Criminal Procedure Law [Zhonghua renmin 
gongheguo xingshi susong fa], passed 1 July 79, amended 17 March 96, 14 
March 12, effective 1 January 13, arts. 33, 54, 121; Human Rights Watch 
(HRW), ``Tiger Chairs and Cell Bosses: Police Torture of Criminal 
Suspects in China,'' May 2015. HRW's report describes the Chinese 
government's failure to fully implement Articles 33, 54, and 121 of the 
PRC Criminal Procedure Law. See also Chinese Human Rights Defenders, 
``New Rules on Lawyers' Input on Death Penalty Reviews Too Weak To Cut 
Down on Executions,'' 5 February 15.
    \7\ See, e.g., UN Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment, adopted by UN General 
Assembly resolution 39/46 of 10 December 84, entry into force 26 June 
87; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76.
    \8\ See, e.g., ``China's Broken Justice System,'' New York Times, 
17 March 15. During an annual report to the National People's Congress, 
President of the Supreme People's Court Zhou Qiang reportedly stated, 
``We deeply reproach ourselves for letting wrongful convictions happen 
. . ..'' Luo Guoping, ``Committee Member Li Wai: `Shuanggui' Must Be 
Clearly Stipulated by Law'' [Li wai weiyuan: ``shuanggui'' ying minque 
rufa], Caixin, 9 March 15; Tom Mitchell, ``Lunch With FT: He Jiahong,'' 
Financial Times, 20 February 15; Elizabeth M. Lynch, ``Translation--
Beijing News Interviews Tian Wenchang on Custody & Education,'' China 
Law & Policy (blog), 25 June 14.
    \9\ See, e.g., ``Xi Makes the Rules,'' Economist, Analects (blog), 
24 October 14.
    \10\ See, e.g., State Council, Measures on Sex Workers' Custody and 
Education [Maiyin piaochang renyuan shourong jiaoyu banfa], issued and 
effective 4 September 93.
    \11\ See, e.g., ``What Is `Shuanggui': Special Organizational and 
Investigative Measures'' [Shenme shi ``shuanggui'': teshu de zuzhi 
cuoshi he diaocha shouduan], China News, reprinted in Sina, 19 October 
03.
    \12\ See, e.g., ``To Date, Qin Yongmin and His Wife Kept Under Soft 
Detention for Over Two Months'' [Qin yongmin fufu bei ruanjin liang ge 
duo yue zhijin], Radio Free Asia, 20 March 15.
    \13\ Peter Larson, ``Laying Down the Law: Jerome Cohen on the Rule 
of Law in China Pt. 2,'' China Focus (blog), 25 April 15.
    \14\ PRC Food Safety Law [Zhonghua renmin gongheguo shipin anquan 
fa], passed 28 February 09, amended 24 April 15, effective 1 October 
15, art. 123; Zhou Dongxu, ``Changes to Food Safety Law Include Tougher 
Punishments,'' Caixin, 4 May 15.
    \15\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 32-58.
    \16\ See, e.g., Jerome A. Cohen, ``Incommunicado Detention in 
China,'' New York University School of Law, US-Asia Law Institute, 18 
April 12.
    \17\ UN Office of the High Commissioner for Human Rights, ``Fact 
Sheet No. 26, The Working Group on Arbitrary Detention,'' May 2000, 
sec. IV(C).
    \18\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 9(1). See also CECC, 2014 Annual Report, 9 
October 14, 207-08, endnotes 14, 15.
    \19\ ``Over One Hundred Lawyers and Citizens Urge National People's 
Congress To Ratify International Conventions on Human Rights and Enact 
Press Laws'' [Yu bai lushi ji gongmin yu renda pizhun guoji gongyue 
baozhang renquan ji banbu xinwen fa], Radio Free Asia, 10 March 15.
    \20\ ``China Abolishes Reeducation Through Labor,'' Xinhua, 28 
December 13.
    \21\ CECC, 2014 Annual Report, 9 October 14, 82-84. See also ``Four 
Cities Pilot Reeducation Through Labor System Reform; Unlawful 
Activities in Education and Corrections To Be Replaced'' [Si shi 
shidian laojiao zhidu gaige you weifa xingwei jiaoyu jiaozhi qudai], 
Beijing News, reprinted in Xinhua, 29 August 12.
    \22\ See, e.g., Human Rights Watch, ``World Report 2015: China,'' 
last visited 22 June 15.
    \23\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13.
    \24\ Chinese Human Rights Defenders, ``[CHRB] Forced Psychiatric 
Detention Persists 2 Years After China Enacted Mental Health Law,'' 8 
May 15. See also Chinese Human Rights Defenders, `` `The Darkest 
Corners': Abuses of Involuntary Psychiatric Commitment in China,'' 6 
August 12.
    \25\ Civil Rights & Livelihood Watch, ``2014 Year-End Report on 
Mental Health and Human Rights (Forced Psychiatric Commitment) in 
China'' [2014 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong baogao], 14 January 15; ``Forced `Psychiatric 
Care' for China's Government Critics Now Endemic: Report,'' Radio Free 
Asia, 15 January 15.
    \26\ See, e.g., Dan Levin, ``Despite a Crackdown, Use of Illegal 
Drugs in China Continues Unabated,'' New York Times, 25 January 15.
    \27\ Beijing Aizhixing Institute, ``List of Issues on the Rights of 
Drug Addicts in China Submitted to UN Committee against Torture by 
Beijing Aizhixing Institute, on Feb 8th, 2015,'' 8 February 15, 1-2.
    \28\ State Council, Measures on Sex Workers' Custody and Education 
[Maiyin piaochang renyuan shourong jiaoyu banfa], issued and effective 
4 September 93, art. 9; Asia Catalyst, `` `Custody and Education': 
Arbitrary Detention for Female Sex Workers in China,'' December 2013.
    \29\ Wang Xing, ``Ministry of Public Security Answers Information 
Request; Entire Country Presently Has 116 Custody and Education 
Centers'' [Gong'anbu dafu xinxi gongkai shenqing quanguo xian you 116 
ge shourong jiaoyu suo], Southern Metropolitan Daily, 1 August 14.
    \30\ Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013, 14, 18-20; Lu Yijie 
et al., ``Three Questions on the Measures on Sex Workers' Custody and 
Education'' [San wen maiyin piaochang renyuan shourong jiaoyu banfa], 
China Youth Daily, 6 June 14.
    \31\ Dui Hua Foundation, ``Custody and Education Worse Than 
Reeducation Through Labor? '' Dui Hua Reference Materials, 26 December 
13.
    \32\ ``UNAIDS Guidance Note on HIV and Sex Work,'' UNAIDS/09.09E/
JC1696E, updated April 2012, 10-11.
    \33\ Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013, 8.
    \34\ Wang Gangqiao, ``Robust Constitutional Supervisory System 
Makes Custody and Education Abolition a Real Question'' [Jianquan 
xianfa jiandu zhidu xi shourong jiaoyu cunfei zhen wenti], Yangcheng 
Evening News, reprinted in People's Daily, 2 December 14; Wang Ruiqi, 
``Actor Huang Haibo Released After Six-Month Detention,'' Sina English, 
1 December 14; Li Yunfang, ``Lawyers Propose Repeal of Measures on Sex 
Workers' Custody and Education'' [Lushi jianyi chexiao maiyin piaochang 
renyuan shourong jiaoyu banfa], 17 April 14.
    \35\ ``Committee Member Zhang Kangkang Calls for Abolition of the 
Custody and Education System'' [Zhang kangkang weiyuan huyu feizhi 
shourong jiaoyu zhidu], Caixin, 4 March 15.
    \36\ Evan Osnos, ``Born Red,'' New Yorker, 6 April 15.
    \37\ ``Policing the Party,'' Economist, 1 September 12.
    \38\ Tania Branigan, ``Bo Xilai's Fate Lies With the Communist 
Party,'' Guardian, 10 May 12.
    \39\ Jerome A. Cohen, ``Incommunicado Detention in China,'' New 
York University School of Law, US-Asia Law Institute, 18 April 12.
    \40\ ``What is `Shuanggui': Special Organizational and 
Investigative Measures'' [Shenme shi ``shuanggui'': teshu de zuzhi 
cuoshi he diaocha shouduan], China News, reprinted in Sina, 19 October 
03; Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' China 
Information, Vol. 22, No. 1, March 2008.
    \41\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights, adopted by 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 9.
    \42\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 37; PRC Legislation Law 
[Zhonghua renmin gongheguo lifa fa], passed 15 March 00, effective 1 
July 00, arts. 8, 9. See also Donald Clarke, ``Discipline Inspection 
Commissions and Shuanggui Detention,'' Chinese Law Prof Blog, 5 July 
14; Eva Pils, China's Human Rights Lawyers: Advocacy and Resistance 
(New York: Routledge, 2015), 80; Flora Sapio, ``Shuanggui and 
Extralegal Detention in China,'' China Information, Vol. 22, No. 1, 
March 2008, 23-24.
    \43\ Lucy Hornby, ``China Eyes Rule-Based System but Flexes 
Extrajudicial Muscles,'' Financial Times, 16 October 14. See also Fu 
Hualing, ``Wielding the Sword: President Xi's New Anti-Corruption 
Campaign,'' Social Science Research Network, 7 September 14, revised 8 
July 15, last visited 29 July 15, 148.
    \44\ ``Pu's Video Workshop Exposed Party Abuses,'' Pu Zhiqiang, The 
Lawyer (blog), 22 August 14; Ye Zhusheng, `` `Shuanggui': Between 
Discipline and the Law'' [Jilu yu falu zhi jian de ``shuanggui''], 
South Reviews, reprinted in Boxun, 13 June 13. For an English 
translation of Ye's article, see Dui Hua Foundation, ``Corruption, 
Shuanggui and Rule of Law,'' Dui Hua Human Rights Journal, 27 June 13.
    \45\ Luo Guoping, ``Committee Member Li Wai: `Shuanggui' Must Be 
Clearly Stipulated by Law'' [Li wai weiyuan: ``shuanggui'' ying minque 
rufa], Caixin, 9 March 15.
    \46\ See, e.g., Tania Branigan, ``Politburo, Army, Casinos: China's 
Corruption Crackdown Spreads,'' Guardian, 14 February 15.
    \47\ ``Most Complete `Hundred Tigers Map': Guide to High Officials 
Sacked Since Start of 18th National Congress'' [Zui wanzheng ``bai hu 
tu'': shibada yilai luoma gaoguan yilan], China Economic Net, 27 April 
15; Joseph Fewsmith, ``China's Political Ecology and the Fight Against 
Corruption,'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 46 (Winter 2015), 19 March 15, 1-2; Human Rights Watch, 
``Political Repression at a High Mark,'' 29 January 15.
    \48\ ``Zhou Yongkang Sentenced to Life in Prison, No Limits for 
Anti-Corruption,'' Xinhua, 11 June 15; Jerome A. Cohen, ``Zhou Yongkang 
Case Shows China's Rule of Law Still Good Only in Theory,'' South China 
Morning Post, 18 August 14.
    \49\ ``Zhou Yongkang Sentenced to Life in First Instance Trial'' 
[Zhou yongkang yishen bei panchu wuqi tuxing], Caixin, 11 June 15.
    \50\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 183.
    \51\ ``Zhou Yongkang Sentenced to Life in Prison, No Limits for 
Anti-Corruption,'' Xinhua, 11 June 15. See also Jerome A. Cohen, ``Why 
Was Zhou Yongkang Denied a Public Trial Like Bo Xilai's? '' South China 
Morning Post, 7 July 15; ``Can Zhou Yongkang and Others Have Open 
Trials? Zhou Qiang: Open in Accordance With the Law,'' [Zhou yongkang 
deng shibushi dou hui gongkai shenpan? zhou qiang: yifa gongkai], CCTV, 
reprinted in Legal Daily, 16 March 15.
    \52\ David Wertime, ``Inside China's Blackest Box,'' Foreign 
Policy, TeaLeafNation (blog), 2 July 14.
    \53\ ``Bengbu, Anhui, Disciplinary Cadre Dies During Discussion, 
Family Members Say Deceased Had Four Broken Ribs'' [Anhui bengbu jijian 
ganbu tanhua qijian siwang, jiashu cheng sizhe si gen leigu duanlie], 
The Paper, 16 January 15; ``Pu's Video Workshop Exposed Party Abuses,'' 
Pu Zhiqiang, The Lawyer (blog), 22 August 14; ``Lawyers Call for Probe 
Into Torture by China's Party Investigators,'' Radio Free Asia, 15 
August 14. See also Jamil Anderlini, ``China Launches Survey of 
Suicides Among Communist Party Officials,'' Financial Times, 29 January 
15. In early 2015, the Chinese Communist Party reportedly launched a 
survey concerning suicides among officials.
    \54\ Ian Johnson, ``China's Unstoppable Lawyers: An Interview With 
Teng Biao,'' New York Review of Books (blog), 19 October 14. See also 
Teng Biao, ``What Is a `Legal Education Center' in China,'' China 
Change, 3 April 14.
    \55\ See, e.g., ``Chinese Rights Lawyer Marks Ten Months Under 
House Arrest,'' Radio Free Asia, 6 May 15; ``Authorities Suppress 
Commemoration of Sensitive Figures on Eve of Qingming'' [Qingming 
qianxi dangju daya jidian min'gan renshi], Radio Free Asia, 3 April 15; 
Rights Defense Network, ``Democracy Rights Defender and Professor Sun 
Wenguang Again Held in Soft Detention During Qingming'' [Minzhu weiquan 
renshi sun wenguang jiaoshou qingming zai zao ruanjin], 5 April 15; 
Rights Defense Network, ``Petitioner Yue Ailing From Zibo, Shandong, 
Under Soft Detention for 10 Days for Going to Beijing To Petition'' 
[Shandong zibo fangmin yue ailing yin fu jing shangfang bei ruanjin 
yijing 10 tian], 18 January 15; Rights Defense Network, ``Famous Artist 
Mr. Li Xianting Under Soft Detention, House Under Guard'' [Zhuming 
yishujia li xianting xiansheng bei ruanjin jia bei shanggang], 2 
November 14; Ren Zhongyuan and Yang Baolu, ``Detective Work by Group in 
`Black Jail' Claim Leads to Trial,'' Caixin, 23 April 14.
    \56\ ``During 26th Anniversary of June 4th, Many Human Rights and 
Democracy Public Figures in Guizhou and Zhejiang Placed Under Soft 
Detention or Forced To Travel'' [Liu si 26 zhounian qijian guizhou 
zhejiang duo ming renquan ji minzhu renshi zao ruanjin huo bei luyou], 
Radio Free Asia, 8 June 15; ``To Date, Qin Yongmin and His Wife Under 
Soft Detention for Over Two Months'' [Qin yongmin fufu bei ruanjin 
liang ge duo yue zhijin], Radio Free Asia, 20 March 15. PRC Criminal 
Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], passed 1 
July 79, amended 17 March 96, 14 March 12, effective 1 January 13, 
arts. 72-77. Home confinement without legal basis and ``soft 
detention'' (ruanjin) should be distinguished from ``residential 
surveillance'' (jianshi juzhu), which is provided for in the PRC 
Criminal Procedure Law.
    \57\ Chinese Human Rights Defenders, ``We Can Beat You to Death 
With Impunity,'' October 2014; ``Shanghai Petitioner Ma Yalian Put in 
`Black Jail'; Following Refusal of Required Medical Attention Begins 
Hunger Strike'' [Shanghai fangmin ma yalian bei guan ``hei jianyu'' 
yaoqiu kanbing bei ju bei po jueshi kangyi], Radio Free Asia, 12 March 
15. See also Sophie Richardson, Human Rights Watch, ``Dispatches: 
Casting a Light Into China's Black Jails,'' 28 March 14.
    \58\ For more information on Gao Zhisheng, see the Commission's 
Political Prisoner Database record 2005-00291.
    \59\ ``Chinese Rights Lawyer Marks Ten Months Under House Arrest,'' 
Radio Free Asia, 6 May 15. See also Sophie Richardson, Human Rights 
Watch, ``Dispatches: Making 2015 `Unforgettable' in China,'' 7 January 
15; Jared Genser, Freedom Now, ``A Major Setback to the Rule of Law in 
China,'' The Diplomat, 15 September 14; Teng Biao, ``A Chinese 
Activist: Out of Prison but Not Free,'' Washington Post, 7 September 
14.
    \60\ ``Chinese Rights Lawyer's Phone Calls Limited Under House 
Arrest,'' Radio Free Asia, 8 January 15. Dui Hua Foundation, ``Gao 
Zhisheng Begins Sentence of Deprivation of Political Rights,'' Dui Hua 
Human Rights Journal, 7 August 14; ``Geng He: Gao Zhisheng Is Starting 
To Regain His Health and Is Retaining His Self-Confidence and 
Optimism'' [Geng he: gao zhisheng shenti kaishi huifu reng baochi zixin 
leguan], Radio Free Asia, 9 February 15; Austin Ramzy, ``Family of 
Dissident Lawyer Fears for His Health After Prison,'' New York Times, 
Sinosphere (blog), 14 August 14. After his release from prison, Gao 
began serving a ``supplemental sentence of one year of deprivation of 
political rights'' and reportedly suffered from serious medical 
ailments.
    \61\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15. For previous 
drafts, see National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) (Draft) (Second Reading) [Zhonghua renmin 
gongheguo xingfa xiuzheng'an (jiu) (cao'an) (erci shenyi gao)], issued 
6 July 15; National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) (Draft) [Zhonghua renmin gongheguo xingfa 
xiuzheng'an (jiu) (cao'an)], issued 3 November 14. See also National 
People's Congress Law Committee, ``Deliberative Conclusions Report 
Regarding `PRC Criminal Law Amendment (Nine) (Draft)' '' [Guanyu 
``zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)'' shenyi 
jieguo baogao], 24 August 15.
    \62\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15; Zhang Yi, ``Fewer 
Crimes To Be Subject to Death Penalty,'' China Daily, 31 August 15. See 
also Xie Wenying, ``Corruption Is Not Simply a Matter of Sentencing by 
the Numbers'' [Tanwu shouhui buneng danchun yi shu'e liangxing], 
Procuratorial Daily, 3 November 14.
    \63\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15. See also National 
People's Congress, ``Explanation of `PRC Criminal Law Amendment (Nine) 
(Draft)' '' [Guanyu ``zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu) (cao'an)'' de shuoming], 3 November 14.
    \64\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 291.
    \65\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 32.
    \66\ Ibid.
    \67\ Ibid., item 36.
    \68\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 398.
    \69\ Verna Yu, ``Chinese Journalist Gao Yu: An Egg Breaking Against 
the Communist Party's Wall,'' South China Morning Post, 16 May 15. For 
more information on Gao Yu, see the Commission's Political Prisoner 
Database record 2004-05037.
    \70\ Office of Press Relations, U.S. Department of State, ``Daily 
Press Briefing--April 17, 2015,'' 17 April 15; ``U.S. State Department 
Publicly Calls on China To Release Reporter Gao Yu'' [Meiguo guowuyuan 
gaodiao huyu zhongguo shifang jizhe gao yu], BBC, 28 April 15; European 
Union External Action, ``Statement by the Spokesperson on the 
Sentencing of Veteran Chinese Journalist Gao Yu,'' 17 April 15.
    \71\ Human Rights in China, ``Heavy Sentence for Gao Yu Exposes 
Hollowness of `Rule by Law' in China,'' 17 April 15; Maya Wang, Human 
Rights Watch, ``Dispatches: Silencing a Veteran Chinese Journalist,'' 
15 April 15.
    \72\ State Council Information Office, ``White Paper on Progress in 
China's Human Rights in 2014,'' reprinted in Xinhua, 8 June 15, sec. 2. 
For information on the October 28, 2013, attack in Tiananmen Square, 
Beijing municipality, see Rebecca Valli, ``3 Sentenced to Death in 
China for Organizing Terror Plot,'' Voice of America, 16 June 14; 
Barbara Demick, ``Tiananmen Square Attack Sows Terror in Spiritual 
Heart of China,'' Los Angeles Times, 28 October 13. For information on 
the March 2014 attack in Kunming municipality, Yunnan province, see 
Shannon Tiezzi, ``China Executes 3 for Deadly Kunming Attack,'' The 
Diplomat, 24 March 15.
    \73\ ``Counterterrorism Law Draft Enters Second Reading, Further 
Improving Definition of Terrorism'' [Fan kongbu zhuyi fa cao'an jinru 
ershen jinyibu wanshan kongbu zhuyi deng dingyi], China News Net, 25 
February 15; Shannon Tiezzi, ``US Claims Victory in Debate Over Chinese 
Terror Law,'' The Diplomat, 17 March 15.
    \74\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 7.
    \75\ Supreme People's Court, ``Supreme People's Court Work Report'' 
[Zuigao renmin fayuan gongzuo baogao], 12 March 15, 2; ``Cases of 
Terrorism, Separatism Up 15%: Chief Justice,'' China Daily, 12 March 
15. See also Dui Hua Foundation, ``Xinjiang State Security Trials Flat, 
Criminal Trials Soar in 2014,'' Dui Hua Human Rights Journal, 10 March 
15.
    \76\ Amnesty International, ``China: Draconian Anti-Terror Law an 
Assault on Human Rights,'' 4 March 15; Shuan Sim, ``China Terrorism 
Crackdown: Rising Cases in 2014 Concern Rights Groups,'' International 
Business Times, 12 March 15.
    \77\ Human Rights Watch, ``China: Draft Counterterrorism Law a 
Recipe for Abuses,'' 20 January 15.
    \78\ Xu Qianchuan, ``The Pockets of Criminal Law,'' Caijing, 21 
January 14.
    \79\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 290.
    \80\ Zhao Bingzhi, ``Zhao Bingzhi: Be Aware That Picking Quarrels 
and Provoking Trouble Has Become a New `Pocket Crime,' '' [Zhao 
bingzhi: jingti xunxin zishi zui chengwei xin ``koudai zui''], Wo 
Bianhu, 8 May 15; Alinda Vermeer, ``Renowned Chinese Human Rights 
Lawyer Still Detained After 10 Months,'' Global Voices Online, 27 
February 15.
    \81\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 249.
    \82\ Ibid., art. 293.
    \83\ Chris Buckley, ``Human Rights Lawyer Pu Zhiqiang Is Charged'' 
[Renquan lushi pu zhiqiang bei tiqi gongsu], New York Times, 15 May 15; 
Zhang Qianfan, ``Conviction for One's Words Is a Legal Travesty'' [Yi 
yan dingzui shi fazhi daji], Financial Times, 22 May 15. See also Perry 
Link, ``China: Inventing a Crime,'' New York Review of Books (blog), 9 
February 15. For more information on Pu Zhiqiang, see the Commission's 
Political Prisoner Database record 2014-00174.
    \84\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 293.
    \85\ Interpretation of the Supreme People's Court and the Supreme 
People's Procuratorate on Several Issues Concerning the Application of 
Law in the Handling of Criminal Cases of Picking Quarrels and Provoking 
Trouble [Zuigao renmin fayuan, zuigao renmin jiachayuan guanyu banli 
xunxin zishi xingshi anjian shiyong falu ruogan wenti de jieshi], 15 
July 13; Jeremy Daum, ``Quick Note on `Picking Quarrels,' '' China Law 
Translate (blog), 6 May 14. See also Edward Wong, ``China Uses `Picking 
Quarrels' Charge To Cast a Wider Net Online,'' New York Times, 26 July 
15.
    \86\ Donald Clarke, `` `Picking Quarrels and Stirring Up Trouble' 
in Chinese Law,'' Chinese Law Prof Blog, 1 July 14. See also Edward 
Wong, ``China Uses `Picking Quarrels' Charge To Cast a Wider Net 
Online,'' New York Times, 26 July 15.
    \87\ Luo Jieqi, ``Prominent Lawyer Pu Zhiqiang Arrested'' [Zhiming 
lushi pu zhiqiang zao pibu], Caixin, 13 June 14; ``On the Anniversary 
of Pu Zhiqiang's Detention; Beijing Prosecutors Conduct Three 
Supplemental Investigations'' [Pu zhiqiang shouya zhounian beijing 
jianfang sanling buchong zhencha], BBC, 5 May 15; Celia Hatton, ``The 
Case Against Chinese Human Rights Lawyer Pu Zhiqiang,'' BBC, China 
Blog, 28 January 15; ``Case of Human Rights Lawyer Pu Zhiqiang Enters 
Critical Prosecutorial Investigative Period'' [Renquan lushi pu 
zhiqiang an jinru shencha qisu guanjian qi], Voice of America, 7 May 
15. See also Bernhard Zand, ``Interview with Chinese Artist Ai Weiwei: 
The State is Scared,'' Spiegel Online, 20 May 15. Artist Ai Weiwei 
commented on the broader implications of Pu's case that, ``There is not 
a shred of evidence, of course. No one knows what is going to happen to 
him. But his case will show where China will move in the coming years. 
Will he get a fair trial? Will there be rule of law in China? Will we 
ever respect each other's free speech and opinion? ''
    \88\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 105.
    \89\ Julie Makinen, ``In China, Human Rights Lawyer Leaves Prison, 
but Has No Freedom,'' Los Angeles Times, 12 September 14.
    \90\ Beijing Mo Shaoping Law Firm, ``Concerning Liu Xiaobo's Appeal 
Against the Charge of Inciting Subversion of State Power,'' translated 
by Human Rights in China, 28 January 10. For more information on Liu 
Xiaobo, see the Commission's Political Prisoner Database record 2004-
03114.
    \91\ ``Chinese Activist Sentenced to Five Years in Prison for 
Inciting Subversion'' [Zhongguo huodong renshi yin shandong dianfu zui 
bei pan 5 nian jianjin], BBC, 11 May 15. For more information on Liu 
Jiacai, see the Commission's Political Prisoner Database record 2013-
00281.
    \92\ China Digital Times, ``NGOs' `Illegal Business Operation' 
[Updated],'' 14 May 15.
    \93\ For more information on Guo Yushan, see the Commission's 
Political Prisoner Database record 2014-00370.
    \94\ Edward Wong, ``China Arrests Activist Amid a Clampdown,'' New 
York Times, 6 January 15; Gianluca Mezzofiore, ``Chinese Scholar Who 
Helped Blind Dissident Chen Guangcheng Flee Is Arrested,'' 
International Business Times, 6 January 15; Zeng Jinyan, ``Guo Yushan 
and the Predicament of NGOs in China,'' Probe International, 21 May 15.
    \95\ Beijing Municipality Public Security Bureau, ``Opinion 
Recommending Prosecution for Guo Yushan'' [Guo yushan qisu yijianshu], 
2 April 15, reprinted in Boxun, 24 April 15.
    \96\ ``China Releases Two NGO Activists `On Bail' Ahead of 
President's US Trip,'' Radio Free Asia, 15 September 15.
    \97\ For more information on Shen Yongping, see the Commission's 
Political Prisoner Database record 2014-00389.
    \98\ Edward Wong, ``Prison Sentence for Maker of Documentary on 
Chinese Constitutional Rule,'' New York Times, Sinosphere (blog), 30 
December 14; Clifford Coonan, ``Chinese Filmmaker Jailed After 
Documentary About Constitution,'' Hollywood Reporter, 1 January 15.
    \99\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13.
    \100\ Sun Qian, ``Reflections on the Implementation of the Revised 
Criminal Procedure Law'' [Guanyu xiugai hou xingshi susong fa zhixing 
qingkuang de ruogan sikao], Procuratorial Daily, 9 April 15.
    \101\ See, e.g., Maya Wang, ``China's Chilling Message to Women,'' 
CNN, 7 April 15; ``China's Dissidents Feel the `Chilling Effect' as 
Party's Muzzling Tactics Prove Effective,'' Agence France-Presse, 
reprinted in South China Morning Post, 10 July 14.
    \102\ Chinese Human Rights Defenders, ``[CHRB] 5 Women's & LGBT 
Rights Activists Detained in Escalating Clampdown on NGOs (3/6-12/
15),'' 12 March 15. For more information on the five women's rights 
advocates and their cases, see the following records in the 
Commission's Political Prisoner Database: 2015-00114 on Wei Tingting, 
2015-00115 on Wang Man, 2015-00116 on Li Tingting, 2015-00117 on Wu 
Rongrong, and 2015-00118 on Zheng Churan.
    \103\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 293.
    \104\ Ibid., art. 291. See also Elizabeth M. Lynch, ``To Arrest or 
Not To Arrest--Prosecutors Have to Today To Determine Fate of Five 
Female Activists,'' China Law & Policy (blog), 13 April 15.
    \105\ Edward Wong, ``China Releases 5 Women's Rights Activists 
Detained for Weeks,'' New York Times, 13 April 15; Zhao Sile, ``The 
Inspirational Backstory of China's `Feminist Five,' '' Foreign Policy, 
17 April 15.
    \106\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, chap. 4.
    \107\ Human Rights in China, ``HRIC Law Note: Five Detained Women 
Released on `Guarantee Pending Further Investigation,' '' 13 April 15.
    \108\ John Ruwitch and Sui-Lee Wee, ``Chinese Woman Activist Says 
Interrogated a Week After Release,'' Reuters, 25 April 15.
    \109\ Lu Jun, Yirenping, ``Five Women's Rights Sisters Under Close 
Police Surveillance, After Visit, Li Tingting's Close Friend Not in 
Contact'' [Nuquan wu jiemei shoudao jingfang yanmi jiankong, li 
tingting miyou tanwang hou shilian], Yirenpingnews Google Group, 15 
April 15.
    \110\ Xiao Meili, ``China's Feminist Awakening,'' New York Times, 
13 May 15.
    \111\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37.
    \112\ Supreme People's Procuratorate, Supreme People's 
Procuratorate Regulations on Protecting Lawyers' Practice Rights 
According to Law [Zuigao renmin jiancha yuan guanyu yifa baozhang lushi 
zhiye quanli de guiding], issued 23 December 14, arts. 2, 5; Chen Kai, 
``SPP Introduces New Regulations to Protect Lawyers' Practices, 
Resolving `Three Difficulties' and Other Problems'' [Zuigao jian chutai 
baozhang lushi zhiye xingui jiejue ``sannan'' deng wenti], China 
Internet Information Center, 15 February 15; Zhou Bin, ``Lawyers' 
Meetings at Detention Centers Usually Arranged Within Half an Hour'' 
[Lushi kanshousuo huijian yiban ban xiaoshi nei anpai], Legal Daily, 17 
August 15; Xing Shiwei, ``Five Ministries Will Jointly Issue Document 
Protecting Lawyers' Practice Rights'' [Wu bumen jiang lian fawen 
baozhang lushi zhiye quanli], Beijing News, 21 August 15. See, e.g., 
``Ganyu Procurator Notifies Detention Centers To Correct Violations; 
Protect the Right To Meet With Lawyers'' [Ganyu jiancha tongzhi 
kanshousuo jiuzheng weifa baozhang lushi huijian quan], Jiangsu 
Province People's Procuratorate Net, 14 April 15.
    \113\ Luo Sha and Chen Fei, ``SPP: Strict Standards in Major 
Bribery Cases for Lawyers' Meetings, Protect Lawyers' Rights and 
Interests'' [Zuigao jian: yan'ge guifan zhongda huilu anjian lushi 
huijian baozhang lushi quanyi], Xinhua, 24 March 15.
    \114\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37; Human Rights Watch, ``China: End 
Nationwide Crackdown on Activists,'' 29 June 14.
    \115\ Dui Hua Foundation, ``Despite Legal Reform: SPC Still Blocks 
Lawyer-Client Access,'' Dui Hua Human Rights Journal, 9 June 15; Wang 
Feng, ``One-and-a-Half Years After Implementation of the New Criminal 
Procedure Law, Difficulties Meeting Clients and Having Witnesses Appear 
in Court Are Still Prominent'' [Xin xing su fa shishi yi nian ban hui 
jian nan he zhengren chuting nan wenti rengran tuchu], 21st Century 
Business Herald, 15 September 14; Shangquan Law Firm, `` `New Three 
Difficulties' Appear for Criminal Defense'' [Xingshi bianhu chuxian 
``xin san nan''], Shangquan Criminal Defense Network, 5 November 14.
    \116\ Andrew Jacobs, ``Conviction Rates Count More in Chinese 
Justice Than Innocence,'' New York Times, 12 May 15.
    \117\ Zhang Youyi, ``High Risk and Low Quality, Revealing Criminal 
Defense Lawyers' Six Major Difficulties'' [Gao fengxian di zhiliang 
jiemi xingshi bianhu lushi liu da nanti], Legal Daily, reprinted in 
Nanjing Lawyers Net, 7 January 08; Jia Jinfeng, ``Investigation of 
Lawyer Representation Rates in Criminal Cases'' [Xingshi susong anjian 
de lushi bianhu lu qingkuang diaocha], Lunwen Wang, 23 December 14; US-
Asia Law Institute, New York University School of Law, ``Professional 
Responsibility for Chinese Criminal Defense Lawyers--A Potential Source 
of Protected Space,'' 21 October 14; ``Mu Ping: In Twenty Thousand 
Criminal Cases, Lawyers Represented [Defendants] in Only 2.5 Percent of 
Cases'' [Mu ping: liangwan xingsu'an lushi jin daili 2.5%], Beijing 
News, 9 March 12; Zhu Lei, ``CPPCC Member Yu Ning: Proposal To Increase 
Criminal Case Lawyer Participation Rate'' [Yu ning weiyuan: jianyi 
tigao xing'an lushi canyu lu], Legal Daily, 12 March 12.
    \118\ See, e.g., Chinese Human Rights Defenders, ``Silencing the 
Messenger: 2014 Annual Report on the Situation of Human Rights 
Defenders in China,'' March 2015, 20-23; ``China Human Rights Lawyers 
Concern Group Calls for Attention to Detained Mainland Human Rights 
Lawyers'' [Zhongguo weiquan lushi guanzhu zu huyu guanzhu neidi bei 
jiya weiquan lushi], Radio Free Asia, 17 February 15; Amnesty 
International, ``China: Drop Politically Motivated Charges Against 
Prominent Human Rights Lawyer,'' 15 May 15. For background on the long-
term harassment of Chinese lawyers, see, e.g., Human Rights Watch, 
``China: Restrictions on Lawyers Fuel Unrest,'' 30 April 08.
    \119\ Human Rights Watch, ``China: Protect Lawyers From Beatings 
and Harassment,'' 25 June 15; Human Rights Watch, ``Tiger Chairs and 
Cell Bosses: Police Torture of Criminal Suspects in China,'' May 2015, 
60, 113; Chen Xiao and Zhu Yuchen, ``The Pain of the Criminal Law's 
Article 306'' [Xingfa di 306 tiao zhi tong], Legal Weekend, reprinted 
in Legal Daily, 2 July 11; `` `Big Stick 306' and China's Contempt for 
the Law,'' New York Times, 5 May 11. The 2010 conviction by a Chongqing 
municipality court of lawyer Li Zhuang, for example, received national 
and international attention as an abusive use of this provision. See 
Wang Huazhong, ``Lawyer for Gang Boss Suspect Gets Prison Sentence,'' 
China Daily, 9 January 10; Donald Clarke, ``Li Zhuang's Conviction and 
the Problem of Witnesses,'' Chinese Law Prof Blog, 8 January 10, 
updated 9 January 10; Vincent R. Johnson and Stephen C. Loomis, ``The 
Rule of Law in China and the Prosecution of Li Zhuang,'' Chinese 
Journal of Comparative Law, Vol. 1, No. 1, 1 March 13, 66-83.
    \120\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 37. See also 
National People's Congress Legal Committee, ``Deliberative Conclusions 
Report Regarding `PRC Criminal Law Amendment (Nine) (Draft)' '' [Guanyu 
``zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)'' shenyi 
jieguo baogao], issued 24 August 15, item 6.
    \121\ ``Legal Opinion on Revisions to Article 35 in `Criminal Law 
Amendment (9)' Draft,'' [Guanyu ``xingfa xiuzheng'an (9)'' cao'an di 35 
tiao xiugai neirong de falu yijian], reprinted in Boxun, 22 November 
14; Joshua Rosenzweig, ``Chinese Lawyers to Chinese Lawmakers: Let Us 
Defend Our Clients,'' Asia Society, ChinaFile (blog), 15 January 15; 
Frances Eve, ``The Plight of China's Rights Lawyers,'' Asia Society, 
ChinaFile (blog), 16 January 15.
    \122\ ``Over 200 Chinese Lawyers Jointly Protest Lawyer's Detention 
in Court'' [Zhongguo yu 200 ming lushi lianshu kangyi lushi ting shang 
bei zhua], BBC, 12 December 14.
    \123\ ``260 China Rights Lawyers Protest Detention of Fellow 
Lawyer,'' Jurist, 14 December 14. Earlier in 2014, the Wuhan Municipal 
Lawyers Association delayed renewing Zhang's lawyer's license 
reportedly in connection with his representation of Falun Gong 
practitioners. See ``Over a Hundred Lawyers `Fast' in Support of Zhang 
Keke'' [Bai duo lushi ``jinshi'' shengyuan zhang keke], Radio Free 
Asia, 11 June 14.
    \124\ Leo Timm and Frank Fang, ``Chinese Judge on Shackles: `Who 
Cares If It's Illegal? ' '' Epoch Times, 28 April 15; Tian Jing, 
``Jiangsu Court Violates the Law, 14 Lawyers Jointly Promote Justice 
for Colleague'' [Jiangsu fayuan weifa 14 lushi lianhe wei tonghang 
shenzhang zhengyi], New Tang Dynasty Television, 5 May 15.
    \125\ ``Four Lawyers Beaten at Court in Hengyang, Hunan, Before 
Defending Case'' [4 ming lushi zai hunan hengyang chuting bianhu qian 
zao ren ouda], BBC, 21 April 15.
    \126\ ``Four Lawyers Outside Hunan Court Beaten, 400 Lawyers 
Jointly Call for a Thorough Investigation'' [Si lushi hunan fayuan wai 
zao ou 400 lushi lianming cu checha], Boxun, 23 April 15.
    \127\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015; Ira Belkin, 
``China's Tortuous Path Toward Ending Torture in Criminal 
Investigations,'' Columbia Journal of Asian Law, Vol. 24, 2011, 273.
    \128\ See, e.g., Chinese Communist Party Central Committee, 
Decision on Certain Major Issues Regarding Comprehensively Deepening 
Reforms [Zhonggong zhongyang guanyu quanmian shenhua gaige ruogan 
zhongda wenti de jueding], reprinted in Xinhua, 15 November 13, sec. 
9(34); Yue Deliang, ``Zhejiang Provincial People's Congress Standing 
Committee Special Supervision of Confessions Extracted Through Torture 
and Other Problems'' [Zhejiang sheng renda changweihui zhuanxiang 
jiandu xingxun bigong deng wenti], 6 April 14; Chen Hongyang, ``To 
Prevent Torture Focus on Excluding Illegal Evidence'' [Fang xingxun 
bigong zhong zai feifa zhengju paichu], Guangzhou Daily, 15 May 14; 
Yang Yi, ``Top Chinese Procurator Vows To Better Protect Rights, 
Prevent Wrongful Judgements,'' Xinhua, 10 March 14; Xing Shiwei, 
``Establish `Wrongful Convictions Alert Day' To Reflect Upon Cases of 
Injustice'' [Sheli ``cuo'an jingshi ri'' lai fansi yuanjiacuo'an], 
Beijing News, 19 August 13; Shen Deyong, ``How We Should Be Preventing 
Miscarriages of Justice'' [Women yingdang ruhe fangfan yuanjiacuo'an], 
People's Court Daily, 6 May 13; Melissa Bancroft, ``China Admits 
Torture Behind Recent Wrongful Convictions,'' Jurist, 20 November 06.
    \129\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
item 4(5).
    \130\ ``Zhou Qiang Gives Supreme People's Court Work Report'' [Zhou 
qiang zuo zuigao renmin fayuan gongzuo baogao], reprinted in Caixin, 12 
March 15; Zhang Jian, ``Zhou Qiang: Regarding the Occurrence of 
Miscarriages of Justice, We Are Deeply Remorseful'' [Zhou qiang: dui 
cuo'an fasheng women shen'gan zize], Beijing Times, 13 March 15.
    \131\ ``SPP Releases 2014 Procuratorial Agencies' Rectifications of 
Miscarriages of Justice in Five Major Cases'' [Zuigao jian fabu 2014 
nian jiancha jiguan jiuzheng yuanjiacuo'an wu da anli], Procuratorial 
Daily, reprinted in Supreme People's Procuratorate, 14 March 15. In 
October 2014, the SPP publicly released updated standards for reviewing 
criminal appeals, the stage at which the higher courts examine cases to 
determine whether mistakes were made earlier in the cases' handling. 
See Supreme People's Procuratorate, ``People's Procuratorate Guidelines 
for Reviews of Criminal Case Appeals'' [Renmin jianchayuan fucha 
xingshi shensu anjian guiding], issued 29 April 14, reprinted in 
Procuratorial Daily, 27 October 14.
    \132\ ``China Launches Special Campaign To Rectify Miscarriages of 
Justice,'' Xinhua, 28 April 15. In August 2015, the Supreme People's 
Procuratorate issued a document listing eight prohibitions during the 
investigation of official crimes that included the prohibition of 
torture and other acts of illegal collection of evidence. See Supreme 
People's Procuratorate, ``Supreme People's Procuratorate Eight 
Prohibitions in the Investigation of Official Crimes'' [Zuigao renmin 
jianchayuan zhiwu fanzui zhencha gongzuo baxiang jinling], issued 4 
August 15, item 7.
    \133\ Xing Shiwei, ``Grueling Interrogations Can Be Considered 
Torture-Extracted Confessions in Disguise'' [Pilao shenxun ni suan 
bianxiang xingxun bigong], Beijing Times, 8 December 14.
    \134\ Jia Shiyu et al., ``Chasing Injustice: 10 Cases, 3 Already 
Disposed Of'' [Yuan'an zhui ze: 10 qi anjian 3 qi yi chuli], Beijing 
News, 18 December 14.
    \135\ ``Courts Find Executed Chinese Teenager `Not Guilty,' '' BBC, 
15 December 14; Shi Wansen and Zhang Chi, ``Inner Mongolia Autonomous 
Region High People's Court Finds Huugjilt Not Guilty'' [Neimenggu 
gaoyuan xuanpan hugejileitu wuzui], Legal Daily, 15 December 14. See 
also ``Second-Instance Trial in Zhao Zhihong Case Upholds Death 
Sentence'' [Zhao zhihong an ershen weichi sixing panjue], Legal Daily, 
4 May 15.
    \136\ Adam Withnall, ``Parents of Teenager `Tortured' and 
Wrongfully Executed for Rape and Murder Watch in Court as Another Man 
is Convicted of the Crime,'' Independent, 9 February 15.
    \137\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 103. Human Rights 
Watch noted that, ``Our search of all Chinese court verdicts published 
on the SPC website during the first four months of 2014 found only one 
case in which police officers were convicted for abusing criminal 
suspects.''
    \138\ Josh Chin, ``China Court Reverses Death Penalty Verdict, 18 
Years Too Late,'' Wall Street Journal, China Real Time Report (blog), 
15 December 14.
    \139\ William Wan, ``In China, A Rare Criminal Case in Which 
Evidence Made a Difference,'' Washington Post, 29 December 14; ``Man 
Compensated for 8-Year Wrongful Custody,'' China Internet Information 
Center, 18 February 15; Zhu Changjun, ``How To Write the Final Result 
of the `Nian Bin Case' '' [``Nian bin an'' de xiaoguo daodi gai ruhe 
shuxie], Beijing News, 2 February 15.
    \140\ Dui Hua Foundation, ``Quest for Retrial: Court Holds Novel 
Hearing on Nie Shubin Case,'' Dui Hua Human Rights Journal, 19 May 15; 
Xu Mingxuan, ``Whether Nie Shubin Case Is Reviewed or Not, All Must 
Oppose `Intervention of Public Opinion' '' [Nie shubin an fucha yu fou, 
dou dei fang ``yulun ganyu''], Beijing News, 5 May 15. See also Zhan 
Shanfeng, ``He Weifang: Why I Grabbed Hold of the Nie Shubin Case'' [He 
weifang: wo weishenme jiuzhu nie shubin an bu fang], China Business 
Morning Post, reprinted in He Weifang's blog, 22 December 14.
    \141\ Josh Chin, ``China's Communist Party Sounds Death Knell for 
Arrest, Conviction Quotas,'' Wall Street Journal, China Real Time 
Report (blog), 22 January 15.
    \142\ Stanley Lubman, ``Why Scrapping Quotas in China's Criminal 
Justice System Won't Be Easy,'' Wall Street Journal, China Real Time 
Report (blog), 30 January 15.
    \143\ Shannon Tiezi, ``In China, A Move Away From Conviction 
Quotas,'' The Diplomat, 23 January 15; Human Rights Watch, ``Tiger 
Chairs and Cell Bosses: Police Torture of Criminal Suspects in China,'' 
May 2015, 33-34.
    \144\ ``Police To Film Interrogations,'' Xinhua, reprinted in China 
Daily, 15 February 15. For a critique of the actual efficacy of 
recording interrogations in curbing extorted confessions see Wu Liwei, 
`` `Preventing and Correcting' Unjust and Wrongful Cases'' 
[Yuanjiacuo'an ``fang yu jiu''], Caixin, 20 April 15.
    \145\ ``China To Hold Police Accountable for Erroneous Cases, for 
Life,'' Xinhua, reprinted in China Daily, 15 February 15.
    \146\ Susan Finder, ``Senior Chinese Judges Speak Out on Preventing 
Injustices in China's Criminal Justice System,'' Supreme People's Court 
Monitor (blog), 17 May 15; `` `Detention Center Law (Draft for 
Examination)' Experts' Seminar Was a Success'' [``Kanshousuo fa 
(songshen gao)'' zhuanjia yantaohui chenggong juban], China Law Society 
Research Office, 1 April 15; Wang Shoufeng et al., ``Ministry of Public 
Security: Humanized Management Ensures Legitimate Rights and Interests 
of Imprisoned'' [Gong'anbu: renxing hua guanli baozhang zai ya renyuan 
hefa quanyi], Public Security Daily, reprinted in Legal Daily, 19 
September 14. See also Gao Yifei, ``Detention Center Legislation From 
the Perspective of Protecting Human Rights'' [Baozhang renquan shiye 
xia de kanshousuo lifa], Procuratorial Daily, reprinted in People's 
Daily, 2 July 15.
    \147\ Xu Xiaotong, ``Can a Detention Center Law End `Death by Blind 
Man's Bluff ' '' [Kanshousuo fa neng fou zhongjie ``duo mao mao si''], 
China Youth Daily, 14 May 14; Dui Hua Foundation, ``Is Detention Center 
Law Enough To Prevent Police Abuse? '' Dui Hua Human Rights Journal, 2 
July 14. Detention centers are currently subject to the 1990 Detention 
Center Regulations. See State Council, PRC Regulations on Detention 
Centers [Zhonghua renmin gongheguo kanshousuo tiaoli], issued and 
effective 17 May 90.
    \148\ Duan Wen, ``Why Do Courts Dare Not Acquit? '' [Fayuan 
weishenme bu gan zuo wuzui panjue?], Phoenix Weekly, reprinted in QQ, 1 
April 15.
    \149\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015.
    \150\ Zhou Bin, ``48-Item Reform Initiative Is a Strong Guarantee 
of Impartial Justice'' [48 xiang gaige jucuo quanli baozheng gongzheng 
sifa], Legal Daily, 9 April 15; Xing Shiwei, ``Central Judicial Reform 
Office: Strengthening of Trial Stage Central in Preventing Miscarriages 
of Justice'' [Zhongyang si gai ban: qianghua yi shenpan wei zhongxin 
fangzhi yuanjiacuo'an], Beijing News, 31 October 14. See also Tang 
Ya'nan and Ji Tianfu, ``From the Perspective of Making Trials the 
Central, Preventing the Next Miscarriage of Justice'' [Yi shenpan wei 
zhongxin shijiao xia de yuan cuo anjian fangfan], People's Court Daily, 
13 May 15.
    \151\ Zhou Dongxu, ``Legislature Approves Reform of Jury System,'' 
Caixin, 27 April 15.
    \152\ Andrew Jacobs, ``Conviction Rates Count More in Chinese 
Justice Than Innocence,'' New York Times, 14 May 15; Terrence McCoy, 
``China Scored 99.9 Percent Conviction Rate Last Year,'' Washington 
Post, 11 March 14. See also Supreme People's Court, ``2015 Supreme 
People's Court Work Report'' [2015 nian zuigao renminfayuan gongzuo 
baogao], 12 March 15, 4.
    \153\ Supreme People's Court, ``Opinion on Comprehensively 
Deepening Reform of the People's Courts--Fourth Five-Year Outline for 
Reform of the People's Courts (2014-2018)'' [Zuigao renmin fayuan 
guanyu quanmian shenhua renmin fayuan gaige de yijian--renmin fayuan 
disi ge wu nian gaige gangyao (2014-2018)], 4 February 15, para. 13. 
See also Margaret K. Lewis, ``Leniency and Severity in China's Death 
Penalty Debate,'' Columbia Journal of Asian Law, Vol. 24, No. 2, 2011, 
304-32.
    \154\ Li Shouwei, ``Witnesses Appearing in Court: A New Scheme To 
Resolve a Longstanding Problem'' [Zhengren chuting zuozheng: jiejue lao 
wenti de xin fang'an], Chinese Social Sciences Today, 30 April 14; Ma 
Aihu, ``Improving the System of Chinese Witnesses Appearing in Court To 
Testify'' [Zhongguo zhengren chuting zuozheng zhidu de wanshan], 
Lanzhou Lawyer (blog), 3 May 15. See also Human Rights Watch, ``Tiger 
Chairs and Cell Bosses: Police Torture of Criminal Suspects in China,'' 
May 2015, 131; He Xin, ``Dai Yuqing Case: When Witnesses Do Not Appear 
in Court, How To Distinguish Between Truth and Falsehood? '' [Dai 
yuqing an: zhengren bu chuting zhenjia he bian], Caixin, 27 November 
14.
    \155\ Ouyang Yanqin, ``Courts Slow To Throw Illegally Collected 
Evidence Out of Trials,'' Caixin, 8 January 15; Liu Ling, ``Lawyer Liu 
Ling: Speaking Again on Illegal Evidence Exclusion Rules'' [Liu ling 
lushi: zai tan feifa zhengju paichu guize], Lawyer Liu Ling's Blog, 9 
March 15.
    \156\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 82.
    \157\ Ibid.
    \158\ UN Committee against Torture, Annotated Provisional Agenda, 
CAT/C/56/1, 4 September 15, item 4; UN Committee against Torture, 
``List of Issues in Relation to the Fifth Periodic Report of China,'' 
CAT/C/CHN/Q/5/Add.1, 15 June 15, paras. 31-32. The Committee most 
recently reviewed China in 2008. See UN Committee against Torture, 
Consideration of Reports Submitted by States Parties Under Article 19 
of the Convention: Concluding Observations of the Committee against 
Torture: China, Adopted by the Committee at Its 41st Session (3-21 
November 2008), CAT/C/CHN/CO/4, 12 December 08.
    \159\ See, e.g., Letter From Human Rights Watch to Members of the 
UN Committee against Torture, Office of the UN High Commissioner for 
Human Rights, 12 February 15, 5-7; China Human Rights Lawyers Concern 
Group Limited, ``An NGO Submission to the UN Committee Against Torture 
for the LOIs and LOIPR of the 54th Session for the 6th Periodic Report 
of the People's Republic of China on the Implementation of the 
Convention Against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment,'' 9 February 15, paras. 2-3; Chinese Human 
Rights Defenders, ``Specific Information on the Implementation of the 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment,'' 9 February 15, paras. 1, 2, 11.
    \160\ Supreme People's Court, Supreme People's Court Provisions on 
Procedures for Sentence Commutation and Parole Case Hearings [Zuigao 
renmin fayuan guanyu jianxing, jiashi anjian shenli chengxu de 
guiding], reprinted in China Court Network, issued 23 April 14, 
effective 1 June 14.
    \161\ Supreme People's Procuratorate, Supreme People's 
Procuratorate Provisions on Handling Commuted Sentences and Parole 
[Zuigao renmin jianchayuan banli jianxing, jiashi anjian gui-
ding], issued and effective 27 August 14.
    \162\ Ministry of Justice, Provisions on Work Procedures for 
Prisons Proposing Commutations or Parole [Jianyu tiqing jianxing jiashi 
gongzuo chengxu guiding], reprinted in PRC Central Government, issued 
11 October 14, effective 1 December 14.
    \163\ ``China Punishes Officials for Illegal Sentence Reductions,'' 
Xinhua, 9 March 15. See also Zhang Hong, ``Abuse of Parole System 
Targeted in Corruption Crackdown,'' South China Morning Post, 25 
February 14; `` `Commutation After an Appointed Time,' `Bail Instead of 
Medical Treatment,' `Pay To Get Out'--Committee Members Fiercely Debate 
`Covert Jailbreaks' Phenomenon'' [``Dao dian jianxing'' ``bao er bu 
yi'' ``ti qian chulong''--daibiao weiyuan reyi ``bianxiang yueyu'' 
xianxiang], Xinhua, 11 March 15; PRC Criminal Law [Zhonghua renmin 
gongheguo xingfa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, art. 81.
    \164\ Li Jing, ``Supreme People's Court Releases Eight Typical 
Cases of Commutation, Parole, and Serving Time Outside of Prison'' 
[Zuigao fa fabu jianxing, jiashi, zan yu jianwai zhixing 8 jian 
dianxing anli], People's Daily, 13 February 15.
    \165\ Ministry of Justice, Ministry of Justice Opinion on Further 
Deepening Prison Affairs Openness [Sifabu guanyu jinyibu shenhua yu wu 
gongkai de yijian], reprinted in China Court Network, 1 April 15. See 
also Yuan Dingbo, ``202 Prisons Establish Platform for Handling 
Commutation, Parole, and Serving Time Outside of Prison Cases'' [202 
suo jianyu jiancheng jian jia zan ban'an pingtai], Legal Daily, 11 May 
15.
    \166\ Danzeng Sangzhou, ``Ministry of Justice Answers Question of 
Commutation and Parole: Criminals on Medical Parole All Brought Back To 
Be Checked'' [Sifabu huiying jianxing jiashi zhiyi: baowaijiuyi zuifan 
dou daihui jiancha], China News Service, 5 November 14.
    \167\ Austin Ramzy, ``In China, an Ingenious Scheme for Getting Out 
of Jail Early,'' New York Times, Sinosphere (blog), 20 January 15; 
``China: Wealthy Prisoners Buy `Get Out of Jail' Patents,'' BBC, 19 
January 15; Gao Yuyang et al., ``Have `Prison Inventors' Already Become 
a Supply Chain? '' [``Jianyu famingjia'' yi cheng chanyelian?], Beijing 
Youth Daily, 19 January 15.
    \168\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 81-86.
    \169\ Dui Hua Foundation, ``Dui Hua Welcomes Release of American 
Geologist Xue Feng,'' 3 April 15; Xue Feng, ``Thank You,'' reprinted in 
University of Chicago, Department of Geophysical Sciences, Faculty Page 
of David Rowley, 4 April 15.
    \170\ Keith B. Richburg, ``China Sentences American Geologist to 8 
Years for Stealing State Secrets,'' Washington Post, 5 July 10; Andrew 
Jacobs, ``China Upholds Conviction of American Geologist,'' New York 
Times, 18 February 11; ``Beijing Court Upholds Eight-Year Sentence for 
American Geologist Xue Feng,'' Congressional-Executive Commission on 
China, 23 February 11.
    \171\ Amnesty International, ``Death Sentences and Executions 
2014,'' 31 March 15, 2.
    \172\ Ibid.
    \173\ Mara Hvistendahl, ``China Rethinks the Death Penalty,'' New 
York Times, 8 July 14.
    \174\ Dui Hua Foundation, ``China Executed 2,400 People in 2013,'' 
20 October 14; Amnesty International, ``Death Sentences and Executions 
2014,'' 31 March 15, 11. Amnesty International reported that 
``[b]etween June and August [2014], 21 people were executed in the 
Xinjiang Uighur Autonomous Region in relation to separate terrorist 
attacks.''
    \175\ ``No Change Seen in China's Use of Death Penalty Amid Broad 
Public Support,'' Radio Free Asia, 2 April 15; Zachary Keck, ``China 
Overwhelmingly Supports Death Penalty for Corrupt Officials,'' The 
Diplomat, 7 November 14; Lijia Zhang, ``China's Death-Penalty Debate,'' 
New York Times, 29 December 14; Margaret K. Lewis, ``Leniency and 
Severity in China's Death Penalty Debate,'' Columbia Journal of Asian 
Law, Vol. 24, No. 2, 2011, 304-32.
    \176\ Chinese Communist Party Central Committee, Decision on 
Certain Major Issues Regarding Comprehensively Deepening Reforms 
[Zhonggong zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti 
de jueding], 12 November 13, sec. 9(34).
    \177\ National People's Congress, ``Explanation of `People's 
Republic of China Criminal Law Amendment (Nine) (Draft),' '' [Guanyu 
``zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)'' de 
shuoming], 3 November 14, sec. 2(1).
    \178\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, items 9, 11, 41, 
49; Zhang Yi, ``Fewer Crimes To Be Subject to Death Penalty,'' China 
Daily, 31 August 15. See also National People's Congress Legal 
Committee, ``Deliberative Conclusions Report Regarding `PRC Criminal 
Law Amendment (Nine) (Draft)' '' [Guanyu ``zhonghua renmin gongheguo 
xingfa xiuzheng'an (jiu) (cao'an)'' shenyi jieguo baogao], 24 August 
15, item 8. The revisions to the PRC Criminal Law further heighten the 
legal requirements for executing prisoners who are sentenced to death 
with a two-year reprieve. National People's Congress Standing 
Committee, PRC Criminal Law Amendment (Nine) [Zhonghua renmin gongheguo 
xingfa xiuzheng'an (jiu)], issued 29 August 15, effective 1 November 
15, item 2.
    \179\ Susan Trevaskes, The Death Penalty in Contemporary China (New 
York: Palgrave Macmillan, 2012), 42-46; Dui Hua Foundation, ``China 
Mulls Harsher Penalties for Protesters, `Cults'; Fewer Capital 
Crimes,'' Dui Hua Foundation Human Rights Journal, 6 August 15.
    \180\ Susan Finder, ``What Does the 4th Plenum Mean for Death 
Penalty Reviews? '' Supreme People's Court Monitor (blog), 10 November 
14.
    \181\ Ren Zhongyuan, ``Death Penalty Review Power Held for Eight 
Years; How Does the Supreme People's Court Stay Executions'' [Sixing 
fuhe quan shang shou ba nian zuigao fayuan ruhe daoxia liuren], 
Southern Weekend, 16 October 14; ``The Death Penalty: Strike Less 
Hard,'' Economist, 3 August 13.
    \182\ Supreme People's Court, Measures Concerning Listening to 
Defense Lawyers' Opinions in Handling Death Penalty Review Cases 
[Zuigao renmin fayuan guanyu banli sixing fuhe anjian tingqu bianhu 
lushi yijian de banfa], issued 29 January 15, effective 1 February 15; 
Dan Yuxiao, ``In Death Penalty Review Cases, Lawyers Opinions Shall Be 
Heard'' [Sixing fuhe anjian lushi yijian ying bei tingqu], Caixin, 29 
January 15. For a contrasting view see Chinese Human Rights Defenders, 
``New Rules on Lawyers' Input on Death Penalty Reviews Too Weak To Cut 
Down on Executions,'' 5 February 15.
    \183\ Yang Tao, ``It's Possible To Have a System of Hesitating in 
Implementation of the Death Penalty'' [Sixing zhixing youyu zhidu zhe 
ge keyi you], Beijing Youth Daily, 12 February 15; Lijia Zhang, 
``China's Death Penalty Debate,'' New York Times, 29 December 14.
    \184\ Didi Kirsten Tatlow, ``Courts in China Face Balancing Act on 
Domestic Abuse,'' New York Times, Sinosphere (blog), 6 May 15; Ren 
Zhongyuan, ``Shadow of Domestic Abuse Over Protection of Women's 
Rights; Failure To Fully Reverse Li Yan Case'' [Jiabao yinying xia de 
funu quanyi baohu weineng wanquan fanzhuan de li yan an], Southern 
Weekend, 30 April 15. See also Chenjie Ma, ``China's Death Penalty 
Practice Undermines the Integrity of the Death Penalty as a Sentencing 
Option,'' Australian Journal of Asian Law, Vol. 15, No. 2, 7.
    \185\ Chen Baocheng, ``Continuing To Ask About the Heilongjiang 
Incident: How To Monitor `Death Row? ' '' [Zai wen heilongjiang 
shijian: ruhe kanguan ``sixingfan''?], Caixin, 3 September 14.
    \186\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 5.
    \187\ ``China Will Completely Stop Use of Executed Prisoners' 
Organs as Donor Source of Organ Transplants'' [Zhongguo jiang quanmian 
tingzhi shiyong siqiu qiguan zuowei yizhi gongti laiyuan], China 
National Radio, reprinted in Xinhua, 2 January 15; ``China To Scrap 
Organ Harvesting From Executed Prisoners,'' China Daily, 4 December 14; 
``Weaning China Off Organs From Executed Prisoners,'' Lancet, Vol. 385, 
No. 9962, 3 January 15. See also Tania Branigan, ``China To Stop Using 
Executed Prisoners as Source of Transplant Organs,'' Guardian, 4 
December 14; Alex Hosenball and Cho Park, ``China's New Year's 
Resolution: No More Harvesting Executed Prisoners' Organs,'' ABC, 1 
January 15. For background information on the topic, see Adnan Sharif 
et al., ``Organ Procurement From Executed Prisoners in China,'' 
American Journal of Transplantation, 2014.
    \188\ ``China To Scrap Organ Harvesting From Executed Prisoners,'' 
China Daily, 4 December 14.
    \189\ ``Loopholes Remain in China's Organ Harvesting Ban,'' Radio 
Free Asia, 7 December 14; Katie Hunt, ``Why China Will Struggle To End 
Organ Harvesting From Executed Prisoners,'' CNN, 5 December 14; Liz 
Kerr and Deborah Collins-Perrica, ``Correspondence: Organ 
Transplantation in China: Concerns Remain,'' Lancet, Vol. 385, No. 
9971, 7 March 15, 856. For an example of a preliminary report on organ 
donations following the reforms, see Jia Peng, ``Huang Jiefu: Use of 
Executed Prisoners' Organs Stopped for Two Months, Citizens Donate 937 
Organs'' [Huang jiefu: siqiu qiguan ting yong liang yue gongmin juan 
937 ge qiguan], Beijing News, 6 March 15.
    \190\ ``Weaning China Off Organs From Executed Prisoners,'' Lancet, 
Vol. 385, No. 9962, 3 January 15, 1.

                          Freedom of Religion


              Regulatory and Policy Framework for Religion

    During the Commission's 2015 reporting year, the Chinese 
government and Communist Party continued to restrict freedom of 
religion in China. China's Constitution guarantees ``freedom of 
religious belief'' \1\ but limits protection of religious 
activities to ``normal religious activities.'' \2\ This narrow 
protection contravenes international human rights standards. 
Article 18 of the Universal Declaration of Human Rights (UDHR) 
and Article 18 of the International Covenant on Civil and 
Political Rights (ICCPR)--the latter of which China has signed 
\3\ and stated its intent to ratify \4\--recognize not only an 
individual's right to adopt a religion or belief, but also the 
freedom to manifest one's religion in ``worship, observance, 
practice and teaching.'' \5\
    The Chinese government continued to recognize only five 
religions: Buddhism, Catholicism, Islam, Protestantism, and 
Taoism. The 2005 Regulations on Religious Affairs (RRA) require 
groups wishing to practice these religions to register with the 
government and subject such groups to government controls.\6\ 
The government and Party control religious affairs mainly 
through the State Administration for Religious Affairs (SARA) 
and lower level religious affairs bureaus under the State 
Council,\7\ the Party Central Committee United Front Work 
Department (UFWD),\8\ and the five ``patriotic'' religious 
associations--the Buddhist Association of China (BAC), the 
Catholic Patriotic Association of China (CPA), the Islamic 
Association of China (IAC), the Three-Self Patriotic Movement 
of Protestant Churches in China (TSPM), and the Chinese Taoist 
Association (CTA) \9\ among other government and Party 
organizations.\10\ As documented in this section, members of 
both registered and unregistered religious groups who ran afoul 
of state-set parameters continued to face harassment, 
detention, imprisonment, and other abuses.\11\
    Authorities continued to carry out a crackdown against 
groups they deemed ``cults.'' The crackdown spanned multiple 
provinces \12\ and targeted different religious communities, 
including Buddhists,\13\ Protestant house churches,\14\ and 
practitioners of Falun Gong \15\--a spiritual practice that the 
government continued to outlaw.\16\ The crackdown began in 
2014,\17\ but new legislation this year bolstered official 
efforts to target ``cults.'' For example, in July 2015, the 
National People's Congress Standing Committee (NPCSC) passed 
the PRC National Security Law,\18\ which explicitly banned 
``cult organizations.'' \19\ In August 2015, the NPCSC passed 
an amendment to the PRC Criminal Law that increased the maximum 
possible sentence for ``organizing and using a cult to 
undermine implementation of the law''--a crime under Article 
300 \20\--from 15 years to life in prison.\21\
    This past year, the government and Party continued to call 
on officials and religious groups to ensure that religious 
doctrine and practices adhered to government policy and Party 
goals. For example, at a May 2015 UFWD meeting, President and 
Party General Secretary Xi Jinping emphasized that ``religious 
work . . . should comprehensively implement the Party's policy 
on freedom of religious belief'' and to ``proactively guide 
religion to be in keeping with socialism.'' \22\ Xi also called 
for ``leading religion to strive to promote the service of 
economic development, social harmony, flourishing of culture, 
ethnic solidarity, and unification of the motherland.'' \23\ 
Officials also called for strengthening the role of laws and 
regulations in governing religious practices, property, and 
sites of worship. For example, a January 2015 SARA document 
outlining SARA's work in the upcoming year called for 
strengthening the role of laws and regulations in its work,\24\ 
as well as an improvement in guiding opinions regarding the 
management of sites of worship.\25\ Other official statements 
echoed similar themes.\26\

                         Buddhism (Non-Tibetan)

    This past year, the Chinese government and Communist Party 
continued to take steps designed to ensure that Buddhist 
doctrine and practices in non-Tibetan areas of China conformed 
to government and Party policy. [For information on Tibetan 
Buddhists, see Section V--Tibet.] In April 2015, the state-
controlled Buddhist Association of China (BAC) convened its 
Ninth National Conference in Beijing municipality,\27\ during 
which authorities selected new BAC leadership.\28\ Yu 
Zhengsheng, a member of the Standing Committee of the Political 
Bureau of the Communist Party Central Committee, met with the 
new BAC leadership and called on them to work towards 
government and Party goals, including ``[having] a firm and 
correct political orientation'' and ``comprehensively 
implementing the Party's basic policy on religion . . . .'' 
\29\ Yu's remarks echoed similar themes from the 2010 BAC 
Eighth National Conference \30\--for example, that Buddhist 
clergy should be ``politically reliable'' and that Buddhism 
should follow the Party's policy on religion \31\--as well as 
statements by government and Party officials in other 
settings.\32\
    Authorities continued to take steps to bring registered and 
unregistered Buddhist monasteries under stricter government and 
Party control,\33\ as outlined in the 2012 Opinion Regarding 
Issues Related to the Management of Buddhist Monasteries and 
Taoist Temples, a joint opinion issued by 10 government and 
Party offices.\34\ For example, in March 2015, officials from 
the bureau of ethnic and religious affairs, public security 
bureau, and Buddhist association in Yuhang district, Hangzhou 
municipality, Zhejiang province, conducted a ``surprise 
inspection'' of Buddhist monasteries and folk religious sites 
in Yuhang in part to investigate the registration status of 
religious personnel.\35\ In another example, authorities in 
Chongqing municipality reportedly carried out a campaign that 
would publicly distinguish registered Buddhist monasteries from 
unregistered Buddhist monasteries by hanging placards on 
registered monasteries.\36\
    On July 14, 2015, the Zhuhai Intermediate People's Court, 
in Zhuhai municipality, Guangdong province, tried Wu Zeheng, 
founder of the Buddhist group ``Huazang Zongmen,'' \37\ for 
``organizing and using a cult to undermine implementation of 
the law,'' rape, fraud, and producing and selling toxic and 
dangerous food products, and tried four others for similar 
crimes.\38\ Central government news agency Xinhua quoted 
anonymous sources--reportedly former followers of Wu--as 
corroborating the charges against him.\39\ Wu's lawyer Lin 
Qilei and international observers reportedly characterized the 
case as religious persecution.\40\ Authorities criminally 
detained Wu and over 10 of his followers in July 2014,\41\ 
during a crackdown on ``cults.'' \42\ The Zhuhai Municipal 
People's Procuratorate subsequently returned the case at least 
twice to the public security bureau for supplementary 
investigation.\43\

                              Catholicism


                   OFFICIAL HARASSMENT AND DETENTION

    This past year, the Chinese government and Communist Party 
continued to harass, detain, or hold incommunicado Catholics 
who practiced their religion outside of state-approved 
parameters. For example:

        <bullet>  Cao Jianyou and Quan Xiaoyun. On March 22, 
        2015, authorities in Harbin municipality, Heilongjiang 
        province, detained two unregistered priests--Cao 
        Jianyou and Quan Xiaoyun--as the two officiated a 
        mass.\44\ Authorities reportedly detained the two 
        priests on suspicion of ``holding illegal religious 
        activities at an unregistered worshipping venue.'' \45\
        <bullet>  Peng Weizhao. In November 2014, authorities 
        in Linchuan district, Fuzhou city, Jiangxi province, 
        released underground bishop Peng Weizhao,\46\ whom they 
        detained in May 2014 after the Holy See appointed him a 
        bishop without approval from Chinese authorities.\47\ 
        After Peng's release, authorities reportedly ordered 
        him to report to local authorities periodically, not 
        leave Jiangxi, and not carry out his episcopal 
        duties.\48\
        <bullet>  Shi Enxiang. A relative of Shi Enxiang, an 
        unregistered bishop whom authorities detained in 
        Beijing in 2001 without disclosing charges,\49\ 
        reportedly said officials in Baoding municipality, 
        Hebei province, informed Shi's family on January 30, 
        2015, that Shi had died in custody.\50\ Officials in 
        Baoding reportedly said later that this was ``false 
        information'' spread by a ``drunkard.'' \51\ The 
        Commission has not observed any reports from Chinese 
        authorities regarding Shi's status.\52\
        <bullet>  Su Zhimin and Ma Daqin. According to a 
        November 19, 2014, Asia News report, authorities 
        continued to hold Bishops Su Zhimin and Ma Daqin in 
        custody.\53\ Authorities detained Su, an underground 
        bishop, in 1997.\54\ The Commission has observed no 
        information from Chinese authorities regarding charges 
        against Su or his location.\55\ Authorities detained Ma 
        after he announced publicly during his July 7, 2012, 
        ordination ceremony that he planned to leave the 
        Chinese Catholic Patriotic Association (CPA).\56\ 
        Authorities then placed Ma under extralegal confinement 
        at the Sheshan seminary in Shanghai municipality.\57\
        <bullet>  Demonstration in Linxi county. On August 15, 
        2014, public security officials in Linxi county, 
        Chifeng municipality, Inner Mongolia Autonomous Region, 
        reportedly used force--including pepper spray--against 
        a group of ``several hundred'' Catholics who gathered 
        outside an office of the Linxi County People's 
        Government to protest local officials' plans to build 
        housing on the property of a local Catholic church.\58\ 
        The U.S.-based non-governmental organization ChinaAid 
        reported that over 10 of the Catholics were injured, 
        including 6 with ``serious'' injuries.\59\

                        CHINA-HOLY SEE RELATIONS

    During this reporting year, Chinese and Holy See 
authorities reportedly discussed potential changes to China's 
state-controlled system of bishop appointments but did not 
reach an agreement,\60\ leaving in place the system in which 
the state-controlled CPA and Bishops' Conference of the 
Catholic Church in China (BCCCC) can select and ordain bishops 
without approval from the Holy See.\61\ In November 2014, the 
Hong Kong-based newspaper Wen Wei Po cited an anonymous 
``authority'' as saying that China had proposed a system in 
which Chinese and Holy See authorities must jointly agree to 
any bishop appointment, and that neither side would 
unilaterally appoint bishops in China.\62\ The same source 
reportedly said that the Holy See wanted an agreement that 
would address the possible dissolution of the CPA and the 
possible cancellation of the National Conference of Chinese 
Catholic Representatives (NCCCR),\63\ which authorities 
reportedly forced some bishops to attend against their will 
when the NCCCR last convened in 2010.\64\ According to the 
charter of the state-led BCCCC, the NCCCR convenes every five 
years,\65\ and in March 2015, the Hong Kong-based newspaper Ta 
Kung Pao cited the same anonymous source as the Wen Wei Po 
report as saying that ``this year's NCCCR'' would be a 
``touchstone'' for China-Holy See relations.\66\

                               Falun Gong

    Government and Party officials continued a campaign--
initiated in 1999--of extensive, systematic, and in some cases 
violent efforts to pressure Falun Gong practitioners to 
renounce their belief in and practice of Falun Gong.\67\ For 
example:

        <bullet>  Kong Qiuge. In October 2014, Falun Gong 
        practitioner Kong Qiuge, in her late 60s, reportedly 
        died in a prison hospital in Urumqi municipality, 
        Xinjiang Uyghur Autonomous Region,\68\ after 
        authorities detained her on suspicion of a ``cult''-
        related crime.\69\
        <bullet>  Wang Zhiwen. In October 2014, authorities 
        released Falun Gong practitioner Wang Zhiwen--sentenced 
        to 16 years in prison in 1999 on ``cult''-related 
        charges \70\--from Qianjin Prison in Beijing.\71\ 
        Authorities reportedly then transferred him to a 
        ``transformation through reeducation center'' \72\ (or 
        ``brainwashing center'') \73\--a facility where 
        authorities allegedly pressure Falun Gong practitioners 
        to renounce their belief in Falun Gong.\74\ Authorities 
        released Wang from the ``transformation through 
        reeducation center'' on October 24, 2014.\75\ Wang 
        reportedly suffered various forms of torture during his 
        time in prison and was in poor physical and mental 
        condition upon release.\76\
        <bullet>  Zuo Kangwei. On August 22, 2014, the Qinghe 
        District People's Court, in Huai'an city, Jiangsu 
        province, reportedly sentenced 55-year-old Falun Gong 
        practitioner Zuo Kangwei to three years' 
        imprisonment.\77\ Officials in Huai'an detained Zuo on 
        March 5, 2014, in apparent connection to her practice 
        of Falun Gong,\78\ and on March 17, 2014, the Qinghe 
        District People's Procuratorate approved indictment on 
        charges of ``organizing and using a cult to undermine 
        implementation of the law,'' \79\ a crime under Article 
        300 of the PRC Criminal Law.\80\
        <bullet>  Li Guifang, Meng Fanli, Wang Yanxin, and Shi 
        Mengwen. On May 21, 2015, the Jiansanjiang Agriculture 
        Reclamation People's Court, in Fujin city, Jiamusi 
        municipality, Heilongjiang province, sentenced Falun 
        Gong practitioner Shi Mengwen to three years' 
        imprisonment and Falun Gong practitioners Li Guifang, 
        Meng Fanli, and Wang Yanxin each to two years' 
        imprisonment for ``organizing and using a cult to 
        undermine implementation of the law.'' \81\ Authorities 
        in Jiansanjiang detained the four on March 21, 2014, 
        for joining rights lawyers and others on March 20, 
        2014, outside a ``legal education center'' in 
        Jiansanjiang where authorities had arbitrarily detained 
        Falun Gong practitioners.\82\ In 2015, the 
        practitioners' lawyers filed an appeal, but the 
        Heilongjiang Agriculture Reclamation Intermediate 
        People's Court, in Harbin municipality, Heilongjiang, 
        reportedly informed the practitioners' lawyers that the 
        appeal would not be heard in court.\83\

    Prior to the March 2015 National People's Congress and 
Chinese People's Political Consultative Conference (CPPCC) 
meetings (Two Sessions), authorities in Tianjin municipality 
reportedly detained at least 20 Falun Gong practitioners and 
confiscated literature, computers, and other personal items 
from Falun Gong practitioners as part of a coordinated 
crackdown.\84\ According to Minghui (or Clear Wisdom), a U.S.-
based news organization affiliated with Falun Gong, Zhao Fei--
head of the Tianjin Municipal Public Security Bureau \85\--
offered cash rewards to officials who detained Falun Gong 
practitioners.\86\ Officials reportedly detained at least some 
of the practitioners in connection to their speaking to others 
about Falun Gong or possessing Falun Gong literature.\87\ Those 
reportedly detained include Zhuge Yufang and her daughter Chen 
Ruoming, Fu Shaojuan, Zhang Cuihuan, Zhao Manhong, Song 
Yunling, Qu Lingyun, Tang Yuehua, Li Hongji, Li Jianmin, Zheng 
Qinglan, Niu Shuhua, Zhao Yuehua, Song Huichan, Wang Huizhen, 
Li Shanshan, Liu Qiong, Yang Hong, Jiang Yahui, and ``Lu Jie'' 
and ``Xiao Gao''--names that may be pseudonyms.\88\ Rights 
lawyers Tang Jitian and Cheng Hai both reportedly told the 
Epoch Times--a New York-based newspaper linked to Falun Gong 
and known for its critical coverage of China--that the Tianjin 
officials' actions had no legal basis.\89\
    This past year, authorities continued to harass, detain, 
and sentence family members, lawyers, and others who had 
contact or were affiliated with Falun Gong practitioners. For 
example, on April 15, 2015, the Qiaodong District People's 
Court, in Shijiazhuang municipality, Hebei province, sentenced 
Bian Xiaohui, the daughter of Falun Gong practitioner Bian 
Lichao, and Falun Gong practitioner Chen Yinghua to prison 
terms of three years and six months and four years, 
respectively.\90\ On March 12, 2014, officials in Shijiazhuang 
detained Bian Xiaohui and Chen Yinghua on suspicion of 
``organizing and using a cult to undermine implementation of 
the law'' \91\ after Bian held up a sign that said ``I want to 
see my father'' outside Shijiazhuang Prison where her father 
was serving a 12-year sentence.\92\ Chen took a photo of Bian's 
protest and posted it online.\93\ Following those detentions, 
officials detained Bian Xiaohui's mother Zhou Xiuzhen when Zhou 
went to report the disappearance of her daughter.\94\ On August 
5, 2014, the Lu'nan District People's Court in Tangshan 
municipality, Hebei, reportedly tried Zhou,\95\ but sources did 
not provide information on formal charges or sentencing of 
Zhou.\96\ In July 2015, authorities launched a crackdown 
against rights defense lawyers that resulted in the detention 
of multiple lawyers who had defended Falun Gong 
practitioners.\97\ Wang Yu and Wang Quanzhang, who had defended 
Li Guifang, Meng Fanli, Wang Yanxin, and Shi Mengwen in the 
case described above,\98\ were among those detained in the July 
2015 crackdown.\99\
    In December 2014, Huang Jiefu, a CPPCC Standing Committee 
member and head of the Human Organ Donation and Transplant 
Committee,\100\ reportedly announced that China would stop 
using organs from death row inmates for organ 
transplantation,\101\ a practice that international observers 
asserted continues to affect Falun Gong practitioners.\102\ 
State-run media reported harvesting organs from executed 
prisoners would end in January 2015 with a move to a fully 
voluntary organ donation system,\103\ but international medical 
professionals \104\ and human rights advocates \105\ raised 
doubts about the ``voluntary'' nature of such donations, and 
emphasized the use of prisoners' organs violates international 
ethical standards in transplantation.\106\ [For more 
information, see Section II--Public Health.]

                                 Islam

    The Chinese government and Communist Party continued to 
call for Muslims in China to practice Islam in conformity with 
government and Party priorities. For example, during an April 
2015 ``Hajj pilgrimage work meeting,'' Jiang Jianyong, Deputy 
Director of the State Administration for Religious Affairs 
(SARA), instructed participants to ``make political security 
and personal security a top priority in Hajj pilgrimage work 
from start to finish . . ., to continue to consolidate the 
results of the work of controlling unauthorized Hajj 
pilgrimages, and to prevent backlash from unauthorized Hajj 
pilgrimage events.'' \107\ During a May 2015 event focused on 
interpretation of the Quran in Qianxi'nan Buyi and Miao 
Autonomous Prefecture, Guizhou province, Wu Jianmin, Deputy 
Head of the Ethnic and Religious Affairs Commission of Guizhou 
Province, told participants that the event was a ``concrete 
manifestation'' of Islam's ``patriotism,'' among other 
attributes.\108\
    Authorities in the Xinjiang Uyghur Autonomous Region (XUAR) 
continued to enforce measures directed at ``terrorism'' and 
``religious extremism'' that had the effect of restricting 
peaceful religious practices. [For more information, see 
Section IV--Xinjiang--Freedom of Religion.] In December 2014, 
the Standing Committee of the Urumqi Municipal People's 
Congress passed regulations intended to curb ``religious 
extremism'' \109\ that banned the wearing of full facial or 
body coverings in public,\110\ practices that have become more 
common among Muslim women in the XUAR.\111\ In January 2015, 
the XUAR People's Congress Standing Committee approved the 
regulations.\112\ The regulations follow other official efforts 
in recent years to prevent Muslim women from wearing veils and 
Muslim men from wearing beards, practices that authorities in 
some cases identified with ``extremism.'' \113\ Authorities in 
the XUAR also continued to call for minors not to enter sites 
of worship \114\ and forbade fasting during Ramadan.\115\ 
Authorities in Yining (Ghulja) municipality, Ili Kazakh 
Autonomous Prefecture, XUAR, reportedly ordered local residents 
to surrender their passports or face cancelation of their 
passports.\116\ In April 2015, authorities in Aktash village, 
Laskuy township, Hotan county, Hotan prefecture, XUAR, ordered 
local shopkeepers to sell alcohol and cigarettes--the use of 
which many local Muslims considered a ``sin'' and ``self-
destructive,'' respectively \117\--as well as to display the 
alcohol and cigarettes prominently.\118\ Adil Sulayman, 
Secretary of the Aktash Village Party Committee, reportedly 
said that XUAR authorities considered abstaining from smoking 
to be a ``form of religious extremism'' and that increasing 
``religious sentiment'' was ``affecting stability.'' \119\ 
Describing the order, Sulayman reportedly said, ``We have a 
campaign to weaken religion here and this is part of that 
campaign.'' \120\

                             Protestantism

    The Chinese government and Communist Party continued to 
restrict freedom of religion for Protestants in China. For 
example, officials in various locations in China called on the 
Three-Self Patriotic Movement (TSPM) and China Christian 
Council (CCC)--the official organizations that manage 
registered Protestants under the leadership of the government 
and Party \121\--to work toward government and Party goals, 
such as to ``hold on to a proper political orientation,'' \122\ 
to facilitate and liaise about the Party's policy on 
religion,\123\ and to assist with economic and social 
development.\124\

                   OFFICIAL HARASSMENT AND DETENTION

    Authorities continued to harass and detain registered and 
unregistered Protestants who worshipped outside of state-
approved parameters. For example:

        <bullet>  Zhao Weiliang and Cheng Hongpeng. Authorities 
        sentenced Zhao Weiliang and Cheng Hongpeng, members of 
        a house church in Cao county, Heze municipality, 
        Shandong province,\125\ to four and three years in 
        prison, respectively, on charges of ``organizing and 
        using a cult to undermine implementation of the law'' 
        following a May 27, 2015, trial.\126\ Authorities 
        reportedly determined Zhao and Cheng were members of 
        the ``Full-Scope Church'' (or ``All-Scope Church''), 
        which authorities had officially designated a ``cult.'' 
        \127\
        <bullet>  Liu Fenggang, Lu Jingxiang, and Yan Jinwei. 
        In March 2015, authorities reportedly refused to issue 
        entry-exit permits to several house church pastors--
        including Liu Fenggang of Beijing municipality and Lu 
        Jingxiang and Yan Jinwei of Anhui province--to attend a 
        religious meeting in Hong Kong.\128\ Lu's wife 
        reportedly said that public security officials told Lu 
        they could not process his permit because he was 
        affiliated with a house church.\129\
        <bullet>  Guo Yongfeng and Cai Yongsheng. In January 
        2015, religious affairs officials in Shenzhen 
        municipality, Guangdong province, reportedly took into 
        custody Pastor Cai Yongsheng when democracy advocate 
        Guo Yongfeng attempted to meet with him for Bible 
        study.\130\ Guo reportedly posted a message for help 
        online, after which authorities allowed Cai to return 
        home.\131\ On January 23, domestic security officers 
        (guobao) reportedly went to Guo's house and told him 
        not to participate in religious activities but told him 
        he could go to TSPM churches.\132\
        <bullet>  Langzhong house church. In December 2014, 
        officials in Langzhong city, Nanchong municipality, 
        Sichuan province, reportedly detained members of the 
        Langzhong house church (an unregistered Protestant 
        church) as church members prepared for a Christmas 
        celebration and ordered them to serve administrative 
        detention.\133\ The detentions occurred at a time when 
        authorities reportedly interfered with Christmas 
        activities in multiple locations.\134\ In January 2015, 
        officials in Langzhong reportedly disrupted another 
        meeting of the Langzhong house church and ordered five 
        members to serve 15 days of administrative detention 
        for ``illegal assembly.'' \135\
        <bullet>  Zhang Shaojie and Zhang Lingxin. In October 
        2014, the Nanle County People's Court in Puyang 
        municipality, Henan province, reportedly notified 
        family members of Zhang Shaojie, a registered pastor, 
        that their home would be auctioned to pay a fine Zhang 
        received in a July 2014 sentence.\136\ Authorities 
        ordered them to vacate the house by October 26 or face 
        forced eviction.\137\ In early November 2014, 
        authorities in Nanle took into custody Zhang's 
        daughter, Zhang ``Shanshan'' Lingxin; they reportedly 
        beat her and held her in a guest house, and then 
        released her the following week.\138\

                     CHURCH DEMOLITIONS IN ZHEJIANG

    This past year, authorities in Zhejiang province continued 
to target Protestant churches as part of the three-year (2013-
2015) ``Three Rectifications and One Demolition'' 
campaign.\139\ While the campaign's stated aim was to address 
``illegal structures,'' \140\ official rhetoric appeared to 
reflect an intention to target religious sites, especially 
Christian sites, for demolition.\141\ In a July 10, 2015, open 
letter to the Zhejiang Provincial Ethnic and Religious Affairs 
Committee, the Zhejiang Provincial Christian Council claimed 
that authorities had removed over 1,200 crosses since February 
2014.\142\ Authorities reportedly removed crosses from both 
registered and unregistered churches,\143\ and Christian 
Solidarity Worldwide reported 35 whole or partial demolitions 
of churches and church-owned buildings in Zhejiang between 
October 2013 and May 2015.\144\ Authorities in Zhejiang also 
reportedly drafted legislation that would limit the size, 
location, and colors of crosses on churches.\145\
    Authorities also detained and harassed people who 
protested, questioned, or disseminated information about the 
campaign. For example, on July 14, 2015, authorities in Shitang 
town, Wenling city, Taizhou municipality, Zhejiang, reportedly 
beat Christians who protested the removal of a church 
cross.\146\ On March 24, 2015, the Pingyang County People's 
Court in Wenzhou municipality, Zhejiang, sentenced Huang Yizi, 
a registered pastor, to one year in prison in connection to his 
participation in a July 2014 protest over the removal of a 
church cross and for allegedly ``frequently express[ing] his 
opposition to the provincial government's church-and-cross 
demolition campaign.'' \147\ On March 25, 2015, the Yongjia 
County People's Court in Wenzhou, Zhejiang, reportedly 
sentenced eight people associated with the Sanjiang Church--
which authorities demolished in April 2014 \148\--to varying 
prison terms,\149\ all with suspended sentences,\150\ for 
``gathering a crowd to disturb public order'' and ``illegal 
occupation of farmland.'' \151\ All eight reportedly 
participated in demonstrations against the demolition.\152\

                                 Taoism

    In January 2015, the Chinese Taoist Association (CTA) began 
preparations for its Ninth National Conference, which 
reportedly would be held later in 2015.\153\ According to the 
CTA, Jiang Jianyong, Deputy Director of the State 
Administration for Religious Affairs (SARA), attended a 
planning meeting as a representative of SARA and the Party's 
United Front Work Department (UFWD), in order to ``guide'' [the 
meeting].\154\
    Authorities in multiple locations carried out campaigns 
that distinguished registered and unregistered Taoist temples 
by publicly hanging placards on registered temples. For 
example, in May 2015, authorities in Beijing municipality hung 
a placard on the Dongyue Temple.\155\ Zhu Weiqun, Chairperson 
of the Ethnic and Religious Affairs Committee of the Chinese 
People's Political Consultative Conference, Ma Jiye, Head of 
the UFWD, Wang Xiaodong, Director of the Ethnic and Religious 
Affairs Committee of the Beijing Municipal People's 
Consultative Conference, and Li Shengyong, Deputy Director of 
the Beijing Municipal Bureau of Religious Affairs, reportedly 
performed the unveiling of the placard.\156\ Authorities in 
Chongqing municipality reportedly also carried out a campaign 
to hang placards on registered Taoist temples.\157\

                      Other Religious Communities

    During the reporting year, the Chinese government 
maintained its framework that extends official recognition only 
to five religions for limited government protection.\158\ 
Provisions allowed foreign religious communities, including 
communities not recognized as domestic religions by the 
government, to hold religious services for expatriates but 
forbade Chinese citizens from participating.\159\ Despite 
lacking formal central government recognition, some religious 
communities have been able to operate inside China.\160\ In May 
2015, Metropolitan Hilarion Alfeyev of Volokolamsk, head of the 
Moscow Patriarchate's Department of External Relations, and 
SARA officials reportedly agreed to the ordination of an ethnic 
Chinese Eastern Orthodox priest to serve in Harbin 
municipality, Heilongjiang province, and to send two others to 
Russia to study ``with a view to their possible ordination.'' 
\161\
    Notes to Section II--Freedom of Religion

    \1\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 83, 15 March 99, 14 March 04, art. 36.
    \2\ Ibid.
    \3\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights (ICCPR), last 
visited 23 June 14. China signed the ICCPR on October 5, 1998.
    \4\ See, e.g., State Council Information Office, ``Progress in 
China's Human Rights in 2012,'' reprinted in Xinhua, 14 May 13, chap. 
VI; Permanent Mission of the People's Republic of China to the UN, 
``Aide Memoire,'' reprinted in United Nations, 13 April 06, para. IV; 
State Council, European Council, Prime Minister's Office of Sweden, and 
European Commission, ``Joint Statement of the 12th China-EU Summit,'' 
reprinted in Ministry of Foreign Affairs, 30 November 09, para. 8. Upon 
presenting its candidacy for the 2013 UN Human Rights Council 
elections, China reportedly promised to ``further protect civil and 
political rights,'' although it did not specifically state intent to 
ratify the ICCPR. UN General Assembly, Sixty-Eighth Session, Item 
115(c) of the Preliminary List, Elections To Fill Vacancies in the 
Subsidiary Organs and Other Elections: Election of Fourteen Members of 
the Human Rights Council, Note Verbale Dated 5 June 2013 from the 
Permanent Mission of China to the United Nations Addressed to the 
President of the General Assembly, A/68/90, 6 June 13.
    \5\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) on 10 December 48, art. 
18; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) on 16 December 66, entry into 
force 23 March 76, art. 18.
    \6\ State Administration for Religious Affairs, Regulations on 
Religious Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, 
effective 1 March 05, arts. 6, 12.
    \7\ Yang Fenggang, Religion in China: Survival and Revival Under 
Communist Rule (New York: Oxford University Press, 2012), 78-84.
    \8\ Ibid., 78-79.
    \9\ Ibid., 69.
    \10\ Ibid., 78.
    \11\ See, e.g., ``Buddhist Wu Zeheng and Others Detained for Eight 
Months, Lawyer Says Case Qualifies as Religious Persecution'' [Fojiao 
tu wu zeheng deng ren bei ju ba ge yue, lushi zhi anjian shu zongjiao 
pohai], Radio Free Asia, 19 March 15; ``China Authorities in Harbin 
Detain Two `Underground' Priests,'' UCA News, 23 March 15; Michael 
Forsythe, ``Questions Rise on Fate of Chinese Bishop,'' New York Times, 
13 February 15; ``Yujiang's Underground Bishop Released but Under 
Police Surveillance,'' Asia News, 19 November 14; ChinaAid, ``Inner 
Mongolia: Catholic Believers Gather at County Government To Defend 
Rights, Demand Return of Church Property'' [Neimeng: tianzhujiao 
xinzhong xian zhengfu jihui weiquan, yaoqiu guihuan jiaochan], 4 
September 14; ``Sichuan Police Attack House Church, Detain Over 20 
People'' [Sichuan jingfang chongji jiating jiaohui, zhua 20 duo ren], 
Voice of America, 24 January 15; Minnie Chan, ``Huang Yizi, Detained 
Pastor in Wenzhou, Knew Risks in Fighting Removal of Crosses,'' South 
China Morning Post, 17 August 14; ``Pastor Huang Yizi Opposes Forcible 
Demolition of Church, Sentenced to One Year in Prison'' [Huang yizi 
mushi fandui qiangchai jiaotang huoxing 1 nian], Radio Free Asia, 24 
March 15.
    \12\ Tom Phillips, ``Chinese Christians Under Pressure From `Anti-
Cult' Campaign,'' Telegraph, 30 October 14; Zhuhai Municipal People's 
Procuratorate, `` `Huazang Zongmen' Case Begins Trial of First Instance 
in Zhuhai Intermediate Court'' [``Huazang zongmen'' an zai zhuhai 
zhongyuan yi shen kaiting], 14 July 15; ``Ms. Zuo Kangwei of Huai'an 
City, Jiangsu Illegally Sentenced to Three Years Again'' [Jiangsu 
huai'an shi zuo kangwei nushi zai bei feifa panxing san nian], Minghui 
(Clear Wisdom), 27 August 14; ``Ms. Zuo Kangwei Sentenced Second Time 
to Three Years in Prison,'' Minghui (Clear Wisdom), 3 September 14; 
Rights Defense Network, ``Bian Xiaohui Sentenced to Three Years and Six 
Months, Chen Yinghua Sentenced to Four Years in Trial of First Instance 
in Bian Xiaohui Case'' [Bian xiaohui an yi shen bian xiaohui bei pan 3 
nian 6 ge yue, chen yinghua bei pan 4 nian], 15 April 15; ``Falun Gong 
Practitioner's Wife and Daughter Falsely Accused, Daughter To Be 
Sentenced After Asking To See Father'' [Falun gong xueyuan qi nu zao 
wuhai nuer qiu jian fu yao panqiu], Radio Free Asia, 16 April 15.
    \13\ Zhuhai Municipal People's Procuratorate, `` `Huazang Zongmen' 
Case Begins Trial of First Instance in Zhuhai Intermediate Court'' 
[``Huazang zongmen'' an zai zhuhai zhongyuan yi shen kaiting], 14 July 
15.
    \14\ Tom Phillips, ``Chinese Christians Under Pressure From `Anti-
Cult' Campaign,'' Telegraph, 30 October 14.
    \15\ ``Ms. Zuo Kangwei of Huai'an City, Jiangsu Illegally Sentenced 
to Three Years Again'' [Jiangsu huai'an shi zuo kangwei nushi zai bei 
feifa panxing san nian], Minghui (Clear Wisdom), 27 August 14; ``Ms. 
Zuo Kangwei Sentenced Second Time to Three Years in Prison,'' Minghui 
(Clear Wisdom), 3 September 14; Rights Defense Network, ``Bian Xiaohui 
Sentenced to Three Years and Six Months, Chen Yinghua Sentenced to Four 
Years in Trial of First Instance in Bian Xiaohui Case'' [Bian xiaohui 
an yi shen bian xiaohui bei pan 3 nian 6 ge yue, chen yinghua bei pan 4 
nian], 15 April 15; ``Falun Gong Practitioner's Wife and Daughter 
Falsely Accused, Daughter To Be Sentenced After Asking To See Father'' 
[Falun gong xueyuan qi nu zao wuhai nuer qiu jian fu yao panqiu], Radio 
Free Asia, 16 April 15.
    \16\ See, e.g., China Anti-Cult Association, ``China Anti-Cult 
Association: Be Highly Vigilant About Various Cults That Harm the 
Public'' [Zhongguo fan xiejiao xiehui: yao gaodu jingti weihai 
gongzhong de gezhong xiejiao], reprinted in Kai Wind, 3 June 14; Human 
Rights Watch, ``Dangerous Meditation: China's Campaign Against 
Falungong,'' January 2002. Local government offices published similar 
``anti-cult'' reports during the 2015 reporting year, reflecting the 
ban on organizations designated as ``cults.'' See, e.g., Sha County 
News Net, ``Anti-Cult Knowledge--I Know'' [Fan xiejiao zhishi--wo 
zhidao], 28 May 15; KaiWind, reprinted in Anhui Provincial Public 
Security Bureau, ``Enumerating `Almighty God's' Five Crimes'' [Xishu 
``quanneng shen'' wu zong zui], 13 October 14; Boxing County Public 
Security Bureau, ``Eight Tricks Teach You To Recognize the `Guanyin 
Famen' Cult'' [Ba zhao jiao ni shibie xiejiao ``guanyin famen''], 16 
September 14. For background information on Falun Gong, see, e.g., 
Falun Dafa Information Center, ``Overview of Persecution,'' 9 April 15; 
Falun Dafa Information Center, ``A Systematic Suppression of 100 
Million People,'' 4 July 12.
    \17\ Tom Phillips, ``Chinese Christians Under Pressure From `Anti-
Cult' Campaign,'' Telegraph, 30 October 14.
    \18\ PRC National Security Law [Zhonghua renmin gongheguo guojia 
anquan fa], passed and effective 1 July 15.
    \19\ Ibid., art. 27.
    \20\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 300.
    \21\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 33; ``China 
Focus: China Adopts Amendments to Criminal Law,'' Xinhua, 29 August 15; 
Dui Hua Foundation, ``China Mulls Harsher Penalties for Protesters, 
`Cults'; Fewer Capital Crimes,'' Dui Hua Human Rights Journal, 6 August 
15.
    \22\ ``Xi Jinping: Consolidate and Develop the Most Extensive 
Patriotic United Front'' [Xi jinping: gonggu fazhan zui guangfan de 
aiguo tongyi zhanxian], Xinhua, 20 May 15. Xi further elaborated that 
religion must move in the direction of ``Sinicization'' (zhongguohua). 
Similarly, later in Xi's speech, he encouraged the cultivation of non-
Party members to ``unswervingly walk along the path of socialism with 
Chinese characteristics'' (jianding buyi de zou zhongguo tese shehui 
zhuyi daolu). For additional sources on the issue of ``adapting to 
socialism'' or ``socialist society,'' see, e.g., ``Five Major Sects of 
Tibetan Buddhism Discuss How To Adapt to Socialism,'' China Tibet News, 
1 July 15; ``Stand Firm on Atheism, Guide Religion To Adapt to 
Socialism, Communist Leaders Say,'' UCA News, 14 December 01; Ye 
Xiaowen, ``China's Religions Retrospect and Prospect,'' 19 February 01, 
reprinted in China Internet Information Center, 11 October 02.
    \23\ ``Xi Jinping: Consolidate and Develop the Most Extensive 
Patriotic United Front'' [Xi jinping: gonggu fazhan zui guangfan de 
aiguo tongyi zhanxian], Xinhua, 20 May 15.
    \24\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2015 Work Plan Key Points'' 
[Guojia zongjiao shiwu ju 2015 nian gongzuo yaodian], 15 January 15. 
This report calls for a strengthening of fazhi, a Chinese term that 
some observers claim can be translated either as ``rule of law'' or 
``rule by law.'' In the context of this report, either translation 
implies a stronger role for law in SARA's management of religious 
communities. For information regarding the translation of fazhi, see, 
e.g., Randall Peerenboom, China's Long March Toward the Rule of Law 
(New York: Cambridge University Press, 2002), 64-65.
    \25\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2015 Work Plan Key Points'' 
[Guojia zongjiao shiwu ju 2015 nian gongzuo yaodian], 15 January 15.
    \26\ See, e.g., ``Xi Jinping: Consolidate and Develop the Most 
Extensive Patriotic United Front'' [Xi jinping: gonggu fazhan zui 
guangfan de aiguo tongyi zhanxian], Xinhua, 20 May 15; ``Yu Zhengsheng 
Holds Spring Festival Discussion With Leadership of National Religious 
Organizations'' [Yu zhengsheng yu quanguoxing zongjiao tuanti fuzeren 
yingchun zuotan], Chinese Central Television, 15 February 15; ``Liu 
Yandong: Strengthen the Management of Religious Affairs According to 
Law, Protect the Lawful Rights and Interests of Religious Circles'' 
[Liu yandong: yifa jiaqiang zongjiao shiwu guanli, weihu zongjiaojie 
hefa quanyi], Xinhua, 14 February 15; Li Yumei and Lan Wenfei, 
``Proactively Lead Religion and Socialist Society To Mutually Adapt: 
State Administration for Religious Affairs Head Wang Zuo'an Answers 
Study Times Reporter's Questions'' [Jiji yindao zongjiao yu shehuizhuyi 
shehui xiang shiying: guojia zongjiao ju juzhang wang zuo'an da benbao 
jizhe wen], Study Times, 11 May 15; State Administration for Religious 
Affairs Party Committee, ``Managing Religious Affairs According to 
Law'' [Yifa guanli zongjiao shiwu], reprinted in China Ethnicity and 
Religion Net, 1 May 15; Luosang Danba, ``Strengthen Ethnic and 
Religious Legislation To Assist in Promoting `Ruling the City According 
to Law' '' [Jiaqiang minzu zongjiao lifa, zhu tui ``yifa zhi shi''], 
National People's Congress Magazine, vol. 4, 2015; Hu Meidong and Sun 
Li, ``Chinese People's Political Consultative Conference Member Zhan 
Silu: Religious Affairs Should Be Within a Legal Framework'' [Quanguo 
zhengxie weiyuan zhan silu: zongjiao shiwu dou yinggai zai falu de 
kuangjia nei], China Daily, reprinted in China Ethnicity and Religion 
Net, 9 March 15.
    \27\ Buddhist Association of China, ``Ninth National Conference of 
the Buddhist Association of China Opens in Beijing'' [Zhongguo fojiao 
xiehui dijiuci quanguo daibiao huiyi zai jing kaimu], 19 April 15, 
reprinted in State Administration for Religious Affairs; ``Yu 
Zhengsheng Meets With Delegates From the Ninth National Conference of 
the Buddhist Association of China'' [Yu zhengsheng huijian zhongguo 
fojiao xiehui dijiuci quanguo daibiao huiyi daibiao], Xinhua, 21 April 
15.
    \28\ Buddhist Association of China, ``Ninth National Conference of 
the Buddhist Association of China Opens in Beijing'' [Zhongguo fojiao 
xiehui dijiuci quanguo daibiao huiyi zai jing kaimu], 19 April 15, 
reprinted in State Administration for Religious Affairs.
    \29\ ``Yu Zhengsheng Meets With Delegates From the Ninth National 
Conference of the Buddhist Association of China'' [Yu zhengsheng 
huijian zhongguo fojiao xiehui dijiuci quanguo daibiao huiyi daibiao], 
Xinhua, 21 April 15.
    \30\ ``Director Wang Zuo'an's Remarks at the Eighth National 
Conference of the Buddhist Association of China'' [Wang zuo'an ju zhang 
zai zhongguo fojiao xiehui dibaci quanguo daibiao huiyi shang de 
jianghua], Buddhism Online, 2 February 10. See also ``National 
Conferences Highlight Restrictions on Buddhist and Taoist Doctrine,'' 
CECC China Human Rights and Rule of Law Update, No. 8, 9 November 10, 
4.
    \31\ ``Yu Zhengsheng Meets With Delegates From the Ninth National 
Conference of the Buddhist Association of China [Yu zhengsheng huijian 
zhongguo fojiao xiehui dijiuci quanguo daibiao huiyi daibiao], Xinhua, 
21 April 15; ``Director Wang Zuo'an's Remarks at the Eighth National 
Conference of the Buddhist Association of China'' [Wang zuo'an ju zhang 
zai zhongguo fojiao xiehui dibaci quanguo daibiao huiyi shang de jiang 
hua], Buddhism Online, 2 February 10. See also ``National Conferences 
Highlight Restrictions on Buddhist and Taoist Doctrine,'' CECC China 
Human Rights and Rule of Law Update, No. 8, 9 November 10, 4.
    \32\ See, e.g., State Administration for Religious Affairs, ``Wang 
Zuo'an's Address at the `Elder Benhuan and Contemporary Buddhism' 
Academic Conference'' [Wang zuo'an juzhang zai ``benhuan zhanglao yu 
dangdai fojiao'' xueshu yantaohui shang de zhici], 12 April 15; 
``Further Exhibit the Role of Patriotic Religious Figures, Proactively 
Lead Religion To Adapt to Socialist Society'' [Jinyibu fahui aiguo 
zongjiao renshi zuo yong, jiji yindao zongjiao yu shehui zhuyi shehui 
xiang shiying], Tianshan Net, 14 June 15.
    \33\ Chongqing Municipal Ethnic and Religious Affairs Committee, 
``Chongqing Municipality Comprehensively Begins Buddhist and Taoist 
Religious Activity Site Placard Hanging Work,'' [Chongqing shi quanmian 
qidong fojiao daojiao huodong changsuo biaozhi pai guapai gongzuo], 16 
March 15, reprinted in State Administration for Religious Affairs; 
``Religious Activity Site Placard Hanging Ceremony for Beijing's 
Dongyue Temple Takes Place'' [Beijing dongyue miao zongjiao huodong 
changsuo guapai yishi juxing], China News Service, 16 May 15.
    \34\ State Administration for Religious Affairs, United Front Work 
Department, National Development and Reform Commission, Ministry of 
Public Security, Ministry of Housing and Urban-Rural Development, 
Ministry of Culture, State Administration for Industry and Commerce, 
China National Tourism Administration, China Security Regulatory 
Commission, and State Administration of Cultural Heritage, Opinion 
Regarding Issues Related to the Management of Buddhist Monasteries and 
Taoist Temples [Guanyu chuli sheji fojiao simiao, daojiao gongguan 
guanli youguan wenti de yijian], issued 8 October 12.
    \35\ Tao Lei, Yuhang District Party Committee United Front Work 
Department, ``District Ethnic and Religious Affairs Bureau Conducts 
Surprise Nighttime Inspections of Religious Sites'' [Qu minzongju dui 
zongjiao huodong changsuo kaizhan yejian tuji jiancha], 25 March 15.
    \36\ Chongqing Municipal Ethnic and Religious Affairs Committee, 
``Chongqing Municipality Comprehensively Begins Buddhist and Taoist 
Religious Activity Site Placard Hanging Work,'' [Chongqing shi quanmian 
qidong fojiao daojiao huodong changsuo biaozhi pai guapai gongzuo], 16 
March 15, reprinted in State Administration for Religious Affairs.
    \37\ ``Buddhist Wu Zeheng and Others Detained for Eight Months, 
Lawyer Says Case Qualifies as Religious Persecution'' [Fojiao tu wu 
zeheng deng ren bei ju ba ge yue, lushi zhi anjian shu zongjiao pohai], 
Radio Free Asia, 19 March 15.
    \38\ Zhuhai Municipal People's Procuratorate, `` `Huazang Zongmen' 
Case Begins Trial of First Instance in Zhuhai Intermediate Court'' 
[``Huazang zongmen'' an zai zhuhai zhongyuan yi shen kaiting], 14 July 
15.
    \39\ ``The Destruction of `Huazang Zongmen'--Case of Head Wu 
Zeheng, Suspected of Crimes Including Organizing and Using a Cult To 
Undermine Implementation of the Law, Exposed'' [``Huazang zongmen'' 
fumie--jiaoshou wu zeheng shexian zuzhi, liyong xiejiao zuzhi pohuai 
falu shishi deng fanzui anjian jiemi], Xinhua, 15 July 15.
    \40\ ``Buddhist Wu Zeheng and Others Detained for Eight Months, 
Lawyer Says Case Qualifies as Religious Persecution'' [Fojiao tu wu 
zeheng deng ren bei ju ba ge yue, lushi zhi anjian shu zongjiao pohai], 
Radio Free Asia, 19 March 15.
    \41\ ``Zhuhai Buddhist Organization `Huazang Famen' Raided by 
Police, Founder and Followers Detained'' [Zhuhai fojiao zuzhi ``huazang 
famen'' zao jingfang chaocha chuangban ren ji duo ming dizi bei bu], 
Radio Free Asia, 6 August 14; ``Buddhist Wu Zeheng and Others Detained 
for Eight Months, Lawyer Says Case Qualifies as Religious Persecution'' 
[Fojiao tu wu zeheng deng ren bei ju ba ge yue lushi zhi anjian shu 
zongjiao pohai], Radio Free Asia, 19 March 15.
    \42\ See, e.g., Tom Phillips, ``Chinese Christians Under Pressure 
From `Anti-Cult' Campaign,'' Telegraph, 30 October 14; United States 
Commission on International Religious Freedom (USCIRF), ``CHINA: USCIRF 
Condemns Arrest of Chinese Buddhist Leader Wu Zeheng and Detention and 
Mistreatment of Religious Leaders,'' 30 October 14; Ben Blanchard, 
``China To Prosecute `Cult' Leader as Crackdown Continues,'' Reuters, 
16 July 15.
    \43\ ``Buddhist Wu Zeheng and Others Detained for Eight Months, 
Lawyer Says Case Qualifies as Religious Persecution'' [Fojiao tu wu 
zeheng deng ren bei ju ba ge yue, lushi zhi anjian shu zongjiao pohai], 
Radio Free Asia, 19 March 15.
    \44\ ``China Authorities in Harbin Detain Two `Underground' 
Priests,'' UCA News, 23 March 15.
    \45\ Ibid.
    \46\ ``Yujiang's Underground Bishop Released but Under Police 
Surveillance,'' Asia News, 19 November 14.
    \47\ ``China Detains Underground Catholic Administrator,'' UCA 
News, 9 June 14.
    \48\ ``Yujiang's Underground Bishop Released but Under Police 
Surveillance,'' Asia News, 19 November 14; ``Bishop Peng Weizhao of 
Yujiang Diocese, Jiangxi Released'' [Jiangxi yujiang jiaoqu peng 
weizhao zhujiao huoshi], UCA News, 19 November 14.
    \49\ Michael Forsythe, ``Questions Rise on Fate of Chinese 
Bishop,'' New York Times, 13 February 15.
    \50\ ``Chinese Prelate Held in Secret for 14 Years Dies at Age 
94,'' UCA News, 2 February 15.
    \51\ ``Missing, Presumed Dead: Underground Chinese Bishop, Aged 
93,'' Agence France-Presse, reprinted in Global Post, 25 February 15. 
See also Michael Forsythe, ``Questions Rise on Fate of Chinese 
Bishop,'' New York Times, 13 February 15.
    \52\ For more information on Shi Enxiang, see the Commission's 
Political Prisoner Database record 2004-05378.
    \53\ ``Yujiang's Underground Bishop Released but Under Police 
Surveillance,'' Asia News, 19 November 14.
    \54\ Ibid.; ``Bishops and Priests Currently Being Held in China,'' 
Sunday Examiner, last visited 1 July 15.
    \55\ For more information on Su Zhimin, see the Commission's 
Political Prisoner Database record 2004-05380.
    \56\ ``Shanghai Ordination Under Investigation,'' UCA News, 11 July 
12.
    \57\ ``Yujiang's Underground Bishop Released but Under Police 
Surveillance,'' Asia News, 19 November 14; Sui-Lee Wee, ``Special 
Report: The Bishop Who Stood up to China,'' Reuters, 31 March 14. For 
more information on Ma Daqin, see the Commission's Political Prisoner 
Database record 2013-00336.
    \58\ ChinaAid, ``Inner Mongolia: Catholic Believers Gather at 
County Government To Defend Rights, Demand Return of Church Property'' 
[Neimeng: tianzhujiao xinzhong xian zhengfu jihui weiquan, yaoqiu 
guihuan jiaochan], 4 September 14.
    \59\ Ibid.
    \60\ Yi Wei, ``China-Vatican Agreement on Bishop Appointments 
Nearly Complete, Expecting Reply From Vatican Late This Year or Early 
Next Year'' [Zhongfan zhujiao renming xieyi jin dacheng, jinnian di 
mingnian chu liao fan dafu], Wen Wei Po, 20 November 14.
    \61\ See, e.g., State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2015 Work Plan Key Points'' 
[Guojia zongjiao shiwu ju 2015 nian gongzuo yaodian], 15 January 15; 
Miko Morelos, ``China To Continue Ordaining Bishops, Clerics Without 
Vatican Blessing,'' Ecumenical News, 28 January 15.
    \62\ Yi Wei, ``China-Vatican Agreement on Bishop Appointments 
Nearly Complete, Expecting Reply From Vatican Late This Year or Early 
Next Year'' [Zhongfan zhujiao renming xieyi jin dacheng, jinnian di 
mingnian chu liao fan dafu], Wen Wei Po, 20 November 14. See also Jiang 
Jie, ``Beijing Offers Vatican Joint Bishop Review,'' Global Times, 21 
November 14.
    \63\ Yi Wei, ``China-Vatican Agreement on Bishop Appointments 
Nearly Complete, Expecting Reply From Vatican Late This Year or Early 
Next Year'' [Zhongfan zhujiao renming xieyi jin dacheng, jinnian di 
mingnian chu liao fan dafu], Wen Wei Po, 20 November 14.
    \64\ Keith B. Richburg, ``China Defies Vatican on Bishop 
Conclave,'' Washington Post, 8 December 10; ``Some Catholic Bishops 
Forced To Attend National Conference Against Their Will,'' 
Congressional-Executive Commission on China, 7 February 11.
    \65\ Charter of the Bishops' Conference of the Catholic Church in 
China [Zhongguo tianzhujiao zhujiao tuan zhangcheng], adopted 9 July 
04, art. 11.
    \66\ ``Hong Kong Media: Catholic `One Association, One Conference' 
Leadership Turnover Tests China-Vatican Relations'' [Gangmei: 
tianzhujiao ``yi hui yi tuan'' huanjie kaoyan zhongfan guanxi], Ta Kung 
Pao, 21 March 15.
    \67\ For background information, see Falun Dafa Information Center, 
``A Systematic Suppression of 100 Million People,'' 4 July 12.
    \68\ Rights Defense Network, ``Urumqi Falun Gong Practitioner Kong 
Qiuge Dies in Prison Hospital'' [Wulumuqi falun gong xueyuan kong qiuge 
zai jianyu yiyuan qushi], 23 October 14; ``Doctor Kong Qiuge of Urumqi, 
Xinjiang Persecuted to Death'' [Xinjiang wulumuqi kong qiuge yisheng 
bei pohai zhi si], Minghui (Clear Wisdom), 1 November 14.
    \69\ Rights Defense Network, ``Urumqi Falun Gong Practitioner Kong 
Qiuge Dies in Prison Hospital'' [Wulumuqi falun gong xueyuan kong qiuge 
zai jianyu yiyuan qushi], 23 October 14; PRC Criminal Law [Zhonghua 
renmin gongheguo xingfa], passed 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 300.
    \70\ Embassy of the People's Republic of China in the Republic of 
Lithuania, ``Four Key Falun Gong Cult Members Sentenced in Beijing,'' 
26 December 99.
    \71\ ``Wang Zhiwen Forcibly Sent to Brainwashing Center, Many Call 
for His Rescue'' [Wang zhiwen bei qiangsong xinaoban, gejie fasheng 
yingjiu], New Tang Dynasty Television, 26 October 14; Li Chen, ``Wang 
Xiaodan Prepares To Apply for Father Wang Zhiwen To Come to the United 
States To Receive Medical Treatment'' [Wang xiaodan ni shenqing fuqin 
wang zhiwen dao mei jiuyi], New Tang Dynasty Television, 11 November 
14; Meng Jun, ``Some of My Days With Wang Zhiwen, Unjustly Imprisoned'' 
[Yu wang zhiwen tong zai yuanyu de yiduan rizi], Minghui (Clear 
Wisdom), 23 October 14. For more information on Wang Zhiwen, see the 
Commission's Political Prisoner Database record 2004-02191.
    \72\ See, e.g., Falun Dafa Information Center, ``Overview of 
Persecution,'' 9 April 15. For more information on ``transformation 
through reeducation,'' see ``Communist Party Calls for Increased 
Efforts To `Transform' Falun Gong Practitioners as Part of Three-Year 
Campaign,'' Congressional-Executive Commission on China, 22 March 11.
    \73\ ``Wang Zhiwen Forcibly Sent to Brainwashing Center, Many Call 
for His Rescue'' [Wang zhiwen bei qiangsong xinaoban, gejie fasheng 
yingjiu], New Tang Dynasty Television, 26 October 14; Li Chen, ``Wang 
Xiaodan Prepares To Apply for Father Wang Zhiwen To Come to the United 
States To Receive Medical Treatment'' [Wang xiaodan ni shenqing fuqin 
wang zhiwen dao mei jiuyi], New Tang Dynasty Television, 11 November 
14; Meng Jun, ``Some of My Days With Wang Zhiwen, Unjustly Imprisoned'' 
[Yu wang zhiwen tong zai yuanyu de yiduan rizi], Minghui (Clear 
Wisdom), 23 October 14.
    \74\ See, e.g., Falun Dafa Information Center, ``Overview of 
Persecution,'' 9 April 15. For more information on ``transformation 
through reeducation,'' see ``Communist Party Calls for Increased 
Efforts To `Transform' Falun Gong Practitioners as Part of Three-Year 
Campaign,'' Congressional-Executive Commission on China, 22 March 11.
    \75\ Li Chen, ``Wang Xiaodan Prepares To Apply for Father Wang 
Zhiwen To Come to the United States To Receive Medical Treatment'' 
[Wang xiaodan ni shenqing fuqin wang zhiwen dao mei jiuyi], New Tang 
Dynasty Television, 11 November 14.
    \76\ Li Mingxi, ``Former Falun Dafa Research Society Volunteer 
Liaison Wang Zhiwen Released'' [Yuan falun dafa yanjiu hui yiwu lianxi 
ren wang zhiwen bei shifang], Epoch Times, 27 October 14.
    \77\ ``Ms. Zuo Kangwei of Huai'an City, Jiangsu Illegally Sentenced 
to Three Years Again'' [Jiangsu huai'an shi zuo kangwei nushi zai bei 
feifa panxing san nian], Minghui (Clear Wisdom), 27 August 14; ``Ms. 
Zuo Kangwei Sentenced Second Time to Three Years in Prison,'' Minghui 
(Clear Wisdom), 3 September 14. For more information on Zuo Kangwei, 
see the Commission's Political Prisoner Database record 2014-00320.
    \78\ Ibid.
    \79\ Ibid.
    \80\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 300.
    \81\ ``Sentence Announced in Jiansanjiang Case, Lawyers and Family 
Members Blocked, Defendants Refuse To Accept Verdict, Lodge Appeal'' 
[Jiansanjiang an xuan pan lushi, jiashu zao lanjie, dangshi ren bu fu 
panjue tichu shangsu], Radio Free Asia, 22 May 15; Li Yun and Shu Can, 
``No Trial of Second Instance in Jiansanjiang Case, Defense Attorneys 
Protest'' [Jiansanjiang an er shen bu kaiting bianhu lushi kangyi], New 
Tang Dynasty Television, 13 August 15. For more information on these 
cases, see the Commission's Political Prisoner Database records 2015-
00301 on Li Guifang, 2015-00302 on Meng Fanli, 2015-00303 on Wang 
Yanxin, and 2015-00304 on Shi Mengwen.
    \82\ ``Jiansanjiang, Heilongjiang, Responds Publicly to Case of 
Detention of Four Lawyers'' [Heilongjiang jiansanjiang gongkai huiying 
juliu si ming lushi anjian], Tencent, 1 April 14; Didi Kirsten Tatlow, 
``11 Detained After Protesting `Black Jail' in China,'' New York Times, 
Sinosphere (blog), 1 April 14; ``Heilongjiang Human Rights Case Follow-
up: Four Falun Gong Practitioners Illegally Tried,'' Minghui (Clear 
Wisdom), 21 December 14.
    \83\ Li Yun and Shu Can, ``No Trial of Second Instance in 
Jiansanjiang Case, Defense Attorneys Protest'' [Jiansanjiang an er shen 
bu kaiting bianhu lushi kangyi], New Tang Dynasty Television, 13 August 
15.
    \84\ ``Over 20 Falun Gong Practitioners Kidnapped in Tianjin 
Municipality'' [Tianjin shi ershi duo ming falun gong xueyuan bei 
bangjia], Minghui (Clear Wisdom), 7 March 15; Luo Ya and Lu Chen, 
``Chinese City Orchestrates Arrest of Falun Gong Before Political 
Meetings,'' Epoch Times, 10 March 15.
    \85\ Ministry of Public Security, ``Zhao Fei Appointed Head of 
Tianjin Municipal Public Security Bureau'' [Zhao fei bei renming wei 
tianjin shi gong'an ju juzhang], 26 July 14.
    \86\ ``Over 20 Falun Gong Practitioners Kidnapped in Tianjin 
Municipality'' [Tianjin shi ershi duo ming falun gong xueyuan bei 
bangjia], Minghui (Clear Wisdom), 7 March 15.
    \87\ Ibid.; Luo Ya and Lu Chen, ``Chinese City Orchestrates Arrest 
of Falun Gong Before Political Meetings,'' Epoch Times, 10 March 15.
    \88\ ``Over 20 Falun Gong Practitioners Kidnapped in Tianjin 
Municipality'' [Tianjin shi ershi duo ming falun gong xueyuan bei 
bangjia], Minghui (Clear Wisdom), 7 March 15.
    \89\ Luo Ya and Lu Chen, ``Chinese City Orchestrates Arrest of 
Falun Gong Before Political Meetings,'' Epoch Times, 10 March 15.
    \90\ Rights Defense Network, ``Bian Xiaohui Sentenced to Three 
Years and Six Months, Chen Yinghua Sentenced to Four Years in Trial of 
First Instance in Bian Xiaohui Case'' [Bian xiaohui an yishen bian 
xiaohui bei pan 3 nian 6 ge yue, chen yinghua bei pan 4 nian], 15 April 
15; ``Falun Gong Practitioner's Wife and Daughter Falsely Accused, 
Daughter To Be Sentenced After Asking To See Father'' [Falun gong 
xueyuan qinu zao wuhai nu'er qiu jian fu yao panqiu], Radio Free Asia, 
16 April 15. For more information, see the Commission's Political 
Prisoner Database records 2015-00171 on Bian Lichao, 2015-00152 on Bian 
Xiaohui, and 2015-00154 on Chen Yinghua.
    \91\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 300.
    \92\ Rights Defense Network, ``Bian Xiaohui Sentenced to Three 
Years and Six Months, Chen Yinghua Sentenced to Four Years in Trial of 
First Instance in Bian Xiaohui Case'' [Bian xiaohui an yishen bian 
xiaohui bei pan 3 nian 6 ge yue, chen yinghua bei pan 4 nian], 15 April 
15; ``Falun Gong Practitioner's Wife and Daughter Falsely Accused, 
Daughter To Be Sentenced After Asking To See Father'' [Falun gong 
xueyuan qinu zao wuhai nu'er qiu jian fu yao panqiu], Radio Free Asia, 
16 April 15.
    \93\ Ibid.
    \94\ Rights Defense Network, ``Lu'nan, Tangshan Court's 
Constitution of a Collegiate Bench in Zhou Xiuzhen Case Illegal, 
Lawyers Hu Guiyun and Wang Quanzhang Leave Courtroom To File 
Complaint'' [Zhou xiuzhen an tangshan lu'nan fayuan heyiting zucheng bu 
hefa, hu guiyun wang quanzhang lushi tuiting konggao], 5 August 14. For 
more information on Zhou Xiuzhen, see the Commission's Political 
Prisoner Database record 2015-00172.
    \95\ ``Over 100 Falun Gong Practitioners Kidnapped and Persecuted 
in the Tangshan Area in 2014'' [2014 nian tangshan diqu bai yu ming 
falun gong xueyuan zao bangjia pohai], Minghui (Clear Wisdom), 16 April 
15.
    \96\ See, e.g., Rights Defense Network, ``Lu'nan, Tangshan Court's 
Constitution of a Collegiate Bench in Zhou Xiuzhen Case Illegal, 
Lawyers Hu Guiyun and Wang Quanzhang Leave Courtroom To File 
Complaint'' [Zhou xiuzhen an tangshan lu'nan fayuan heyiting zucheng bu 
hefa, hu guiyun wang quanzhang lushi tuiting konggao], 5 August 14; 
``Over 100 Falun Gong Practitioners Kidnapped and Persecuted in the 
Tangshan Area in 2014'' [2014 nian tangshan diqu bai yu ming falun gong 
xueyuan zao bangjia pohai], Minghui (Clear Wisdom), 16 April 15.
    \97\ See, e.g., Sarah Cook, ``How China's Crackdown on Lawyers 
Affects Media Freedom,'' The Diplomat, 12 August 15; ``China's Missing 
Rights Lawyers,'' New York Times, 8 August 15.
    \98\ ``China Falun Gong Trial Lawyer Hits Out at Police Security 
Cordon,'' Radio Free Asia, 17 December 14; ``Heilongjiang Human Rights 
Case Follow-up: Four Falun Gong Practitioners Illegally Tried,'' 
Minghui (Clear Wisdom), 21 December 14.
    \99\ Chinese Human Rights Defenders, ``Individuals Affected by July 
10 Crackdown on Rights Lawyers,'' 13 July 15.
    \100\ Xing Jin and Gu Changle, ``China To Stop Organ Donation From 
Death Row Inmates Beginning Next Year'' [Mingnian woguo quxiao si qiu 
qiguan juanxian], Zhengzhou Evening News, 5 December 14; Wu Jin, 
``CPPCC Member: Death Row Organ Transplants Temporary,'' China Internet 
Information Center, 11 March 15.
    \101\ Xing Jin and Gu Changle, ``China To Stop Organ Donation From 
Death Row Inmates Beginning Next Year'' [Mingnian woguo quxiao si qiu 
qiguan juanxian], Zhengzhou Evening News, 5 December 14.
    \102\ See, e.g., ``China Has Stopped Using Organs From Executed 
Prisoners,'' Voice of America, 8 February 15; Committee on the 
Environment, Public Health, and Food Safety, European Parliament 
Workshop on Organ Harvesting in China, Revised Notes for Hon. David 
Kilgour, J.D., 21 April 15; Matthew Robertson, ``China's Former 
Security Chief Implicated in Organ Harvesting,'' Epoch Times, 16 March 
15; Pavel Porubiak, ``Renowned Guests Discuss Forced Organ Harvesting 
at Conference in Prague,'' Epoch Times, 27 February 15.
    \103\ ``China Will Completely Stop Use of Executed Prisoners' 
Organs as Donor Source of Organ Transplants'' [Zhongguo jiang quanmian 
tingzhi shiyong siqiu qiguan zuowei yizhi gongti laiyuan], China 
National Radio, reprinted in Xinhua, 2 January 15; ``China To Scrap 
Organ Harvesting From Executed Prisoners,'' China Daily, 4 December 14; 
``Weaning China Off Organs From Executed Prisoners,'' Lancet, 3 January 
15.
    \104\ Torsten Trey et al., ``Correspondence: Organ Transplantation 
in China: Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 
854; Huige Li et al., ``Correspondence: Organ Transplantation in China: 
Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 855-56; 
Jacob Lavee and Vivekanand Jha, ``Correspondence: Organ Transplantation 
in China: Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 
855; Liz Kerr and Deborah Collins-Perrica, ``Correspondence: Organ 
Transplantation in China: Concerns Remain,'' Lancet, Vol. 385, No. 
9971, 7 March 15, 856.
    \105\ David Matas, ``Organ Sourcing in China: The Official 
Version,'' Epoch Times, 24 April 15; ``Loopholes Remain in China's 
Organ Harvesting Ban,'' Radio Free Asia, 7 December 14; ``Why China 
Will Struggle To End Organ Harvesting From Executed Prisoners,'' CNN, 5 
December 14; Liz Kerr and Deborah Collins-Perrica, ``Correspondence: 
Organ Transplantation in China: Concerns Remain,'' Lancet, Vol. 385, 
No. 9971, 7 March 15, 856.
    \106\ Francis L. Delmonico et al., The Transplantation Society and 
the Declaration of Istanbul Custodian Group, ``Open Letter to President 
of China,'' Transplantation Society Tribune, Vol. 11(1), Spring 2014, 
10; Torsten Trey et al., ``Correspondence: Organ Transplantation in 
China: Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 854; 
Huige Li et al., ``Correspondence: Organ Transplantation in China: 
Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 855-56; 
Jacob Lavee and Vivekanand Jha, ``Correspondence: Organ Transplantation 
in China: Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 
855; Liz Kerr and Deborah Collins-Perrica, ``Correspondence: Organ 
Transplantation in China: Concerns Remain,'' Lancet, Vol. 385, No. 
9971, 7 March 15, 856.
    \107\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs Convenes 2015 Hajj Pilgrimage Work 
Meeting'' [Guojia zongjiao shiwu ju zhaokai 2015 nian chaojin gongzuo 
huiyi], 17 April 15.
    \108\ Guizhou Provincial Ethnic and Religious Affairs Commission, 
``Islamic Scripture Interpretation Work Training and First New `al-
Wa'z' Sermon Competition Held in Guizhou'' [Guizhou yisilan jiao 
jiejing gongzuo peixun ji shoujie xin ``wo'erzi'' yanjiang bisai 
juxing], 25 May 15.
    \109\ Urumqi Municipal People's Congress Standing Committee, 
Regulations Banning the Wearing of Facial or Body Coverings in Public 
Places in Urumqi City [Wulumuqi shi gonggong changsuo jinzhi chuandai 
mengmian zhaopao de guiding], issued 10 December 14, effective 1 
February 15, art. 1.
    \110\ Ibid., art. 2. See also Gai Youjun et al., ``Kashgar Area 
Deeply Launches the Full-Strength Advancement of `Anti-Extremism' 
Work'' [Kashi diqu quanli tuijin ``qu jiduan hua'' gongzuo shenru 
kaizhan], Xinjiang Daily, last visited 8 November 14; Hotan Prefectural 
Tax Bureau, ``Village Work Exchange Material Two: Feel Out the 
Situation, Organize One's Thoughts, Seize the Practical, Protect 
Stability'' [Zhu cun gongzuo jiaoliu cailiao zhi er: mo qingkuang, li 
silu, zhua luoshi, bao wending], reprinted in Xinjiang Uyghur 
Autonomous Region Provincial Tax Bureau, 15 January 15.
    \111\ Timothy Grose and James Leibold, ``China's Ban on Islamic 
Veils Is Destined To Fail,'' Foreign Policy, 5 February 15; Dan Levin, 
``Uighurs' Veils Signal Protest Against China's Restrictions,'' New 
York Times, 7 August 14; Palash Ghosh, ``Project Beauty: Chinese 
Officials Pressure Uighur Muslim Women in Xinjiang To Drop Their Veils, 
Men To Cut Beards,'' International Business Times, 27 November 13.
    \112\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Decision Regarding the Approval of the ``Urumqi Municipal 
People's Congress Standing Committee Regulations Banning the Wearing of 
Facial or Body Coverings in Public Places in Urumqi City'' [Zizhiqu 
renda changweihui guanyu pizhun ``wulumuqi shi gonggong changsuo jinzhi 
chuan dai mengmian zhaopao de guiding'' de jueding], Tianshan Net, 10 
January 15.
    \113\ See, e.g., Yang Liu and Dong Zhitao, ``Yanqi Uses Modern 
Culture To Lead the Launch of `Anti-Extremism' Propaganda and Education 
Work'' [Yanqi yi xiandai wenhua wei yinling kaizhan ``qu jiduan hua'' 
xuanchuan jiaoyu gongzuo], Xinhua, 2 December 14; Timothy Grose and 
James Leibold, ``China's Ban on Islamic Veils Is Destined To Fail,'' 
Foreign Policy, 5 February 15; Dan Levin, ``Uighurs' Veils Signal 
Protest Against China's Restrictions,'' New York Times, 7 August 14; 
Liu Xia, ``Kashgar, Xinjiang Holds Conference To Praise Mobilization of 
`Visit the People, Care for the People's Livelihoods, Win People's 
Hearts' Event'' [Xinjiang kashi zhaokai ``fang minqing hui minsheng ju 
minxin'' huodong biaoyang dongyuan dahui], Tianshan Net, reprinted in 
Makit County People's Government, 28 January 15; ``Xinjiang Agency 
Organizes the Public To Identify 75 Types of Religious Extremist 
Activities'' [Xinjiang judi zuzhi minzhong shibie 75 zhong zongjiao 
jiduan huodong], Observer, reprinted in Sina, 24 December 14, item 9; 
Simon Denyer, ``From Burqas to Boxing Gloves, China's 75 Tips for 
Spotting Extremist Muslims,'' Washington Post, WorldViews (blog), 12 
December 14; Palash Ghosh, ``Project Beauty: Chinese Officials Pressure 
Uighur Muslim Women in Xinjiang To Drop Their Veils, Men To Cut 
Beards,'' International Business Times, 27 November 13.
    \114\ See, e.g., Yang Liu and Dong Zhitao, ``Yanqi Uses Modern 
Culture To Lead the Launch of `Anti-Extremism' Propaganda and Education 
Work'' [Yanqi yi xiandai wenhua wei yinling kaizhan ``qu jiduan hua'' 
xuanchuan jiaoyu gongzuo], Xinhua, 2 December 14; Shi Xiaoxia, Qorghas 
County Party Committee, ``Multiple Measures in Sandaohe Township, 
Qorghas County, To Simultaneously and Effectively Do the Work of 
Banning Minors From Entering Religious Sites'' [Huocheng xian sandaohe 
xiang duo cuo bingju zuohao jinzhi weichengnian ren jin zongjiao 
changsuo gongzuo], 11 February 15; Julie Makinen and Glen Johnson, 
``Turkey Embraces Muslim Uighurs Who Made Perilous Escape From China,'' 
Los Angeles Times, 3 February 15; ``The Colourful Propaganda of 
Xinjiang,'' BBC, 12 January 15.
    \115\ Emma Graham-Harrison, ``Chinese Police Order Yining Residents 
To Hand in Passports in Latest Crackdown,'' Guardian, 13 May 15; Ivan 
Watson et al., ``China Criticized Over Ramadan Restrictions,'' CNN, 8 
July 15; Denise Hassanzade Ajiri, ``Why China Restricts Fasting by 
Xinjiang Muslims During Ramadan,'' Christian Science Monitor, 18 June 
15.
    \116\ Emma Graham-Harrison, ``Chinese Police Order Yining Residents 
To Hand in Passports in Latest Crackdown,'' Guardian, 13 May 15.
    \117\ ``Chinese Authorities Order Muslim Uyghur Shop Owners To 
Stock Alcohol, Cigarettes,'' Radio Free Asia, 4 May 15; Simon Denyer, 
``China Orders Muslim Shopkeepers To Sell Alcohol, Cigarettes, To 
`Weaken' Islam,'' Washington Post, 5 May 15.
    \118\ Ibid.; Mark L. Rienzi, ``American Nuns, Chinese Booze and 
Religious Persecution: Column,'' USA Today, 13 May 15.
    \119\ ``Chinese Authorities Order Muslim Uyghur Shop Owners To 
Stock Alcohol, Cigarettes,'' Radio Free Asia, 4 May 15.
    \120\ Ibid.
    \121\ Three-Self Patriotic Movement, Charter of the National 
Committee of Three-Self Patriotic Movement of the Protestant Churches 
in China [Zhongguo jidu jiao sanzi aiguo yundong weiyuanhui 
zhangcheng], passed 10 September 13, art. 6(1); China Christian 
Council, Charter of the China Christian Council [Zhongguo jidu jiao 
xiehui zhangcheng], passed 10 September 13, art. 7(1).
    \122\ See, e.g., Nanjing Municipality Gulou District People's 
Government, ``District Committee Standing Committee Member, United 
Front Work Department Head Ding Jiansheng Reviews Work of District 
`Three-Self' Patriotic Movement'' [Quwei changwei, tongzhan bu buzhang 
ding jiansheng diaoyan qu jidujiao ``sanzi'' aiguo hui gongzuo], 29 May 
15.
    \123\ Ibid.; Liaoning Provincial Ethnic Affairs Committee and 
Liaoning Provincial Bureau of Religious Affairs, ``Seventh Liaoning 
Provincial Christian Conference Convenes in Shenyang'' [Liaoning sheng 
jidujiao diqici daibiao huiyi zai shenyang zhaokai], 25 March 15.
    \124\ See, e.g., Nanjing Municipality Gulou District People's 
Government, ``District Committee Standing Committee Member, United 
Front Work Department Head Ding Jiansheng Reviews Work of District 
`Three-Self' Patriotic Movement'' [Quwei changwei, tongzhan bu buzhang 
ding jiansheng diaoyan qu jidujiao ``sanzi'' aiguo hui gongzuo], 29 May 
15; Liaoning Provincial Ethnic Affairs Committee and Liaoning 
Provincial Bureau of Religious Affairs, ``Seventh Liaoning Provincial 
Christian Conference Convenes in Shenyang'' [Liaoning sheng jidujiao 
diqici daibiao huiyi zai shenyang zhaokai], 25 March 15.
    \125\ ChinaAid, ``Two Christians in Shandong's Cao County Sentenced 
to Four, Three Years, Respectively for `Cult' Activities,'' 15 June 15.
    \126\ Ibid.; PRC Criminal Law [Zhonghua renmin gongheguo xingfa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, art. 300. For 
more information, see the Commission's Political Prisoner Database 
records 2015-00209 on Zhao Weiliang and 2015-00210 on Cheng Hongpeng.
    \127\ See, e.g., ``China Clearly Identified 14 Cult Organizations 
(List) Including the Shouters Sect'' [Zhongguo yi mingque rending huhan 
pai deng 14 ge xiejiao zuzhi (mingdan)], Youth Times, reprinted in 
People's Daily, 3 June 14; China Anti-Cult Association, ``China Anti-
Cult Association: Be Highly Vigilant About Various Cults That Harm the 
Public'' [Zhongguo fan xiejiao xiehui: yao gaodu jingti weihai 
gongzhong de gezhong xiejiao], reprinted in Kai Wind, 3 June 14; Sha 
County News Net, ``Anti-Cult Knowledge--I Know'' [Fan xiejiao zhishi--
wo zhidao], 28 May 15.
    \128\ ChinaAid, ``House Church Pastors in Places Including Beijing 
and Anhui Prohibited From Traveling to Hong Kong'' [Beijing, anhui deng 
di jiating jiaohui mushi bei jinzhi qianwang xianggang], 6 March 15.
    \129\ Ibid.
    \130\ ChinaAid, ``Eighty-Year-Old Wenzhou Preacher Cai Yongsheng 
Summoned by Shenzhen Police'' [Wenzhou bashi duo sui lao chuandao ren 
cai yongsheng bei shenzhen jingfang chuanhuan], 22 January 15; ``Guo 
Yongfeng Blocked From Attending Religious Activities'' [Guo yongfeng 
bei zu canjia zongjiao huodong], Radio Free Asia, 23 January 15.
    \131\ Ibid.
    \132\ ``Guo Yongfeng Blocked From Attending Religious Activities'' 
[Guo yongfeng bei zu canjia zongjiao huodong], Radio Free Asia, 23 
January 15.
    \133\ ``Sichuan Police Attack House Church, Detain Over 20 People'' 
[Sichuan jingfang chongji jiating jiaohui, zhua 20 duo ren], Voice of 
America, 24 January 15.
    \134\ See, e.g., ``Chinese University Bans Christmas,'' Guardian, 
25 December 14; ChinaAid, ``Chinese Communist Party and Government 
Firmly Oppress Church Christmas Activities in Multiple Locations on 
Christmas Eve'' [Shengdan qianxi duodi zhonggong zhengfu zhuajin daya 
jiaohui de shengdan huodong], 26 December 14; ``Wenzhou Prohibits 
School From Holding Christmas Activities'' [Wenzhou jinzhi xuexiao 
juxing shengdan huodong], Modern Gold News, reprinted in ChinaAid, 24 
December 14.
    \135\ ``Sichuan Police Attack House Church, Detain Over 20 People'' 
[Sichuan jingfang chongji jiating jiaohui, zhua 20 duo ren], Voice of 
America, 24 January 15.
    \136\ ChinaAid, ``Nanle Court Sent Notice To Auction Pastor Zhang 
Shaojie's Home, Elderly Parents Plan To Go to Beijing To Petition to 
President Xi Jinping'' [Nanle fayuan fachu gonggao yao paimai zhang 
shaojie mushi zhuzhai nianmai de fumu zhunbei jin jing xiang xi zhuxi 
gaozhuang], 24 October 14; Qiao Nong, ChinaAid, ``Zhang Shaojie Refuses 
To Give Up Appealing, Home Faces Auction, 80-Year-Old Father Departs To 
Petition in Beijing'' [Zhang shaojie ju qi shensu fangwu mianlin paimai 
baxun laofu qicheng fu beijing shangfang], 26 October 14; ``Pastor 
Zhang Shaojie of Nanle Religion Case Given Heavy Sentence of 12 Years, 
He Said in Court That He Would Appeal, Lawyers Said [Sentence] a 
Setback for Justice'' [Nanle jiao an zhang shaojie mushi bei zhongpan 
12 nian, dang ting cheng jiang shangsu lushi zhi sifa daotui], Radio 
Free Asia, 4 July 14; ``Chinese Christian Pastor's 12-Year Prison Term 
`A Miscarriage of Justice,' '' Radio Free Asia, 8 July 14.
    \137\ ChinaAid, ``Nanle Court Sent Notice To Auction Pastor Zhang 
Shaojie's Home, Elderly Parents Plan To Go to Beijing To Petition to 
President Xi Jinping'' [Nanle fayuan fachu gonggao yao paimai zhang 
shaojie mushi zhuzhai nianmai de fumu zhunbei jin jing xiang xi zhuxi 
gaozhuang], 24 October 14; Qiao Nong, ChinaAid, ``Zhang Shaojie Refuses 
To Give Up Appealing, Home Faces Auction, 80-Year-Old Father Departs To 
Petition in Beijing'' [Zhang shaojie ju qi shensu fangwu mianlin paimai 
baxun laofu qicheng fu beijing shangfang], 26 October 14.
    \138\ Qiao Nong, ChinaAid, ``Following the Nanle Church Case: Zhang 
Lingxin Gives an Account of Being Imprisoned in a Black Jail for 11 
Days, Zhang Shaojie Sees Relatives in Prison'' [Guanzhu nanle jiao an: 
zhang lingxin jiangshu bei qiu hei jianyu 11 tian, zhang shaojie yu 
zhong huijian jiaren], 14 November 14; ChinaAid, ``China 18 Member 
Pastor Zhang Shaojie's Daughter Released From Black Jail,'' 18 November 
14; Cath Martin, ``Imprisoned Chinese Pastor's Daughter Detained by 
Authorities; Husband Thinks It's an Attempt To Silence Her,'' Christian 
Today, 6 November 14.
    \139\ Zhejiang Provincial People's Government, ``Zhejiang 
Provincial People's Government Circular on the Launching of a Province-
Wide Three-Year `Three Rectifications and One Demolition' Operation'' 
[Zhejiang sheng renmin zhengfu guanyu zai quansheng kaizhan ``san gai 
yi chai'' san nian xingdong de tongzhi], 13 March 13. For more 
information, see CECC, 2014 Annual Report, 9 October 14, 96-97.
    \140\ Ibid.
    \141\ See, e.g., Dinghai District United Front Work Department, 
``Dinghai District's `Three Strengthens' Consolidates the Results of 
`Three Rectifications and One Demolition' Handling Illegal Religious 
Structures'' [Woqu ``san ge qianghua'' gonggu ``san gai yi chai'' sheji 
zongjiao weifa jianzhu chuzhi chengguo], 4 May 15; ``Zhejiang Catholic 
Patriotic Association Head: Religious Structures Should Abide by Law 
and Regulations'' [Zhejiang tianzhu jiao aiguo hui zhuren: zongjiao 
jianzhu lidang yifa yi gui], Zhejiang Daily, reprinted in China News 
Net, 27 August 14; Liuheng Urban Management Bureau, ``Liuheng `Three 
Rectifications and One Demolition' of Religious Sites Comprehensively 
Begins'' [Liuheng zongjiao changsuo ``san gai yi chai'' quanmian 
qidong], 24 June 14.
    \142\ Zhejiang Provincial Christian Council, ``An Open Letter to 
the Zhejiang Provincial Ethnic and Religious Affairs Committee'' [Zhi 
zhejiang sheng minzu zongjiao shiwu weiyuanhui de gongkai xin], 10 July 
15. A scanned image of the open letter appears in ``Zhejiang Demolishes 
Another Church and Injures Multiple People, Entire Province Madly Tears 
Down 1,200 Churches in One Year'' [Zhejiang zai chai jiaotang dashang 
duo ren quan sheng yi nian kuang qiangchai jiaotang 1200 zuo], Boxun, 
16 July 15. See also Ian Johnson, ``Chinese Christians Resist 
Government Plan To Remove Crosses,'' New York Times, 10 August 15; Tom 
Phillips, ``China's Christians Protest `Evil' Communist Campaign To 
Tear Down Crosses,'' Guardian, 27 July 15.
    \143\ ChinaAid, ``2014 Annual Report,'' April 2015, 2.
    \144\ Christian Solidarity Worldwide, ``Zhejiang Church 
Demolitions: Timeline of Events,'' last visited 30 May 15.
    \145\ ``China's Catholics, Protestants Hit Back Over Cross 
Restrictions,'' UCA News, 14 May 15.
    \146\ ``Zhejiang Demolishes Another Church and Injures Multiple 
People, Entire Province Madly Tears Down 1,200 Churches in One Year'' 
[Zhejiang zai chai jiaotang dashang duo ren, yi nian fengkuang qiang 
chai jiaotang 1200 zuo], Boxun, 16 July 15.
    \147\ Minnie Chan, ``Huang Yizi, Detained Pastor in Wenzhou, Knew 
Risks in Fighting Removal of Crosses,'' South China Morning Post, 17 
August 14; ``Pastor Huang Yizi Opposes Forcible Demolition of Church, 
Sentenced to One Year in Prison'' [Huang yizi mushi fandui qiangchai 
jiaotang huoxing 1 nian], Radio Free Asia, 24 March 15.
    \148\ ChinaAid, ``Zhejiang Christians Fear Sanjiang Church 
Demolition Sets Precedent for More Demolitions,'' 29 April 14.
    \149\ Rachel Ritchie, ChinaAid, ``Zhejiang Court Sentences 8 
Christians From Sanjiang Church,'' 26 March 15; ``Eight People From 
Sanjiang Church Given Sentence With Reprieve, Released'' [Sanjiang 
jiaotang an 8 ren bei pan huanxing huoshi], Radio Free Asia, 26 March 
15.
    \150\ Ibid.
    \151\ Ibid.
    \152\ Ibid.
    \153\ Chinese Taoist Association, ``Chinese Taoist Association 
Tenth Session of the Eighth Meeting of Association Leaders Convenes in 
Beijing'' [Zhongguo daojiao xiehui ba jie shi ci huizhang huiyi zai 
jing zhaokai], 22 January 15.
    \154\ Ibid.
    \155\ ``Religious Activity Site Placard Hanging Ceremony for 
Beijing's Dongyue Temple Takes Place'' [Beijing dongyue miao zongjiao 
huodong changsuo guapai yishi juxing], China News Service, 16 May 15.
    \156\ Ibid.
    \157\ Chongqing Municipal Ethnic and Religious Affairs Committee, 
``Chongqing Municipality Comprehensively Begins Buddhist and Taoist 
Religious Activity Site Placard Hanging Work'' [Chongqing shi quanmian 
qidong fojiao daojiao huodong changsuo biaoshi pai guapai gongzuo], 16 
March 15, reprinted in State Administration for Religious Affairs.
    \158\ For background information, see State Council Information 
Office, ``Freedom of Religious Belief in China,'' October 1997; Magda 
Hornemann, ``China: When Will Five-Fold State-Backed Religious Monopoly 
End? '' Forum 18 News Service, 16 September 13; ``Zhejiang and Other 
Provincial Governments Issue New Religious Regulations,'' CECC China 
Human Rights and Rule of Law Update, June 2006, 9.
    \159\ State Council, Provisions on the Management of the Religious 
Activities of Foreigners Within the PRC [Zhonghua renmin gongheguo 
jingnei waiguoren zongjiao huodong guanli gui-
ding], issued and effective 31 January 94, art. 4; State Administration 
for Religious Affairs, Detailed Implementation of Rules for the 
Provisions on the Management of the Religious Activities of Foreigners 
Within the PRC [Zhonghua renmin gongheguo jingnei waiguoren zongjiao 
huodong guanli guiding shishi xize], issued and effective 26 September 
00, amended 29 November 10, effective 1 January 11, arts. 7, 17(5).
    \160\ See, e.g., Becky Davis, ``Ancient Chinese Community 
Celebrates Its Jewish Roots, and Passover,'' New York Times, Sinosphere 
(blog), 6 April 15; Marta Allevato, ``Moscow Patriarchate: China 
Authorises the Ordination of Chinese Orthodox Priests on Its 
Territory,'' Asia News, 19 May 15; ``Orthodox Christianity in China: A 
Comb Worth Fighting For,'' Economist, 31 October 14; Magda Hornemann, 
``China: When Will Five-Fold State-Backed Religious Monopoly End? '' 
Forum 18 News Service, 16 September 13.
    \161\ Marta Allevato, ``Moscow Patriarchate: China Authorises the 
Ordination of Chinese Orthodox Priests on Its Territory,'' Asia News, 
19 May 15.

                         Ethnic Minority Rights


                         State Minority Policy

    During the Commission's 2015 reporting year, central 
government officials in China emphasized the importance of 
``ethnic unity'' and a shared national identity over ethnic 
identity and religious beliefs.\1\ Reports from the past year 
noted the concern of scholars and others regarding the impact 
that official policies carried out in the name of ``ethnic 
unity'' may have on ethnic minority populations' cultural and 
religious identities.\2\ A ``mass line'' program implemented in 
the Xinjiang Uyghur Autonomous Region for a second consecutive 
year, for example, promotes ``ethnic unity'' and requires 
grassroots officials to monitor and control Muslim residents' 
religious practices.\3\ At a Central Ethnic Work Conference 
held in late September 2014, Chinese President and Communist 
Party General Secretary Xi Jinping stressed the importance of 
``ethnic cohesion'' in achieving common ``prosperity and 
development'' and emphasized ethnic minorities' identification 
with Chinese culture and the ``great motherland.'' \4\
    Central and regional officials developed counterterrorism 
measures that some international observers said increase the 
possibility of official abuses and human rights violations 
against ethnic minority groups.\5\ For instance, in January 
2015, Human Rights Watch stated that the draft of the country's 
first counterterrorism legislation \6\--made public for 
consultation in November 2014 \7\--would ``establish a 
counterterrorism structure with enormous discretionary powers, 
[and] define terrorism and terrorist activities so broadly as 
to easily include peaceful dissent or criticism of the 
government or the Communist Party's ethnic and religious 
policies . . . .'' \8\ In February 2015, officials in the Tibet 
Autonomous Region (TAR) announced rewards of up to 300,000 yuan 
(US$48,000) for information on ``terrorist attacks,'' including 
information on ``terrorist organizations'' or individuals 
crossing international borders and the use of the Internet in 
carrying out ``terrorist activities.'' \9\ The announcement 
followed a June 2014 statement by the Ministry of Public 
Security that officials would develop a nationwide system of 
rewards for reporting ``terrorist activities.'' \10\ An 
American scholar wrote in February 2015 that the newly 
announced TAR rewards system policy was vaguely worded, and 
that Chinese officials could potentially use it as 
justification to crack down on legitimate dissent.\11\

                 Grasslands Protests in Inner Mongolia

    During the 2015 reporting year, Mongol herders and 
villagers in the Inner Mongolia Autonomous Region (IMAR) 
protested against state and private exploitation of their 
traditional grazing lands and the resulting environmental 
degradation. Authorities reportedly restricted independent 
reporting on herders' protests and pollution-related grievances 
by harassing journalists and threatening herders.\12\ IMAR 
officials continued to detain and beat Mongol herders who 
engaged in grasslands-related protests.\13\ At least two deaths 
reportedly were related to grasslands protests in the IMAR.\14\ 
An international advocacy group reported that in April 2015, 1 
protester died, 100 people were injured, and 50 people were 
detained in a police crackdown on more than 1,000 residents 
protesting pollution from a chemical refinery in Naiman Banner, 
Tongliao municipality, IMAR.\15\ In January 2015, Tumur, a 
herder in Zargalant Sum (Ji'ergalangtusumu),\16\ Abag (Abaga) 
Banner, Xilinhot (Xilinhaote) municipality, IMAR, committed 
suicide in front of a local government building to protest 
state appropriation of his grazing land.\17\
    Representative examples of protests by Mongol herders and 
villagers during the 2015 reporting year also include:

        <bullet>  On January 26, 2015, in Hohhot city, IMAR, 
        around 300 Mongol herders from different locations 
        demonstrated in front of the IMAR Department of 
        Agriculture and Animal Husbandry to protest the loss of 
        their grazing lands.\18\ Approximately 200 security 
        officials who came to the scene detained more than 30 
        of the protesters and forced others to return home.\19\
        <bullet>  In January 2015, in Beijing municipality, 
        dozens of Mongol herders from Durbed (Siziwang) Banner, 
        Ulanqab (Wulanchabu) municipality, and Sunid (Sunite) 
        Right Banner, Xilingol (Xilinguole) League, IMAR, 
        demonstrated in front of central government buildings 
        over their forced resettlement from traditional grazing 
        lands due to the expansion of a military base and 
        official policies regarding the use of grasslands.\20\
        <bullet>  On January 31, 2015, security officials in 
        Durbed Banner detained five herders who had protested 
        the previous day.\21\ Also on January 31, security 
        officials in Sunid Right Banner detained at least five 
        herders and reportedly beat dozens of others.\22\ 
        Approximately 200 herders in each location had 
        protested for weeks over state appropriation of their 
        grazing lands and forced resettlement.\23\
        <bullet>  In May and June 2015, herders numbering in 
        the hundreds staged numerous protests in several 
        different locations in the IMAR over grievances related 
        to their traditional grazing lands.\24\ Authorities 
        reportedly detained at least 17 herders and beat many 
        protesters.\25\

               Release of Hada and Continued Restrictions

    On December 9, 2014, authorities released Mongol rights 
advocate Hada from extralegal detention at Jinye Ecological 
Park in Hohhot municipality, IMAR.\26\ Authorities had 
continued to detain Hada despite his completion of a 15-year 
prison sentence on December 10, 2010.\27\ Following Hada's 
December 2014 release, authorities froze his bank account and 
restricted his movements and freedom of speech.\28\ In April 
2015, Hada reported that Hohhot officials had denied his 
application for a passport, which he had planned to use to 
travel overseas to seek medical treatment.\29\ Hada said 
following his release that he suffered from more than 10 
different health conditions that resulted from inhumane 
treatment during his detention.\30\ On February 21, 2015, 
security personnel detained two French reporters who tried to 
visit Hada at his home and expelled them from Hohhot after 
holding them at a police station for several hours.\31\ On 
March 4, public security authorities in Hohhot reportedly beat 
and detained Hada, and also detained his son Uiles, when Hada 
was on his way to meet with a Canadian reporter.\32\ On the 
evening of March 4, public security officers expelled the 
Canadian reporter and his Chinese interpreter from Hohhot.\33\ 
Authorities imprisoned Hada in 1995 after he organized peaceful 
protests for Mongol rights and for his role in the banned 
organization he founded, the Southern Mongolian Democratic 
Alliance (SMDA).\34\
    In January 2015, Mongol rights advocate and author Govruud 
Huuchinhuu, who was a member of the SMDA, called on Chinese 
authorities to cease her own home confinement and end 
restrictions on Hada.\35\ Also in January 2015, Huuchinhuu 
reported that local authorities had frozen her bank 
account.\36\ Hada's wife Xinna, moreover, said authorities 
seized money her son sent to Huuchinhuu because they suspected 
it was meant for Hada.\37\ In November 2010, public security 
officers in Tongliao placed Huuchinhuu under home confinement 
in apparent connection to her plans to welcome Hada upon his 
anticipated release from prison.\38\
    Notes to Section II--Ethnic Minority Rights

    \1\ James Leibold, ``A Family Divided: The CCP's Central Ethnic 
Work Conference,'' China Brief, Vol. 14, No. 21, 7 November 14. See 
also ``Unswervingly Take the Correct Path of Resolving Ethnic Problems 
With Chinese Characteristics'' [Jianding buyi zou zhongguo tese jiejue 
minzu wenti de zhengque daolu], Seeking Truth, 16 October 14; ``Ethnic 
Unity Is the Lifeline of People of All Ethnicities in Xinjiang'' [Minzu 
tuanjie shi xinjiang gezu renmin de shengmingxian], Tianshan Net, 10 
October 14; ``China To Favor Minority Officials in Ethnically-Diverse 
Regions,'' Xinhua, 22 December 14.
    \2\ See, e.g., Tom Phillips, ``China Launches Massive Rural 
`Surveillance' Project To Watch Over Uighurs,'' Telegraph, 20 October 
14; Julia Famularo, ``Chinese Religious Regulations in the Xinjiang 
Uyghur Autonomous Region: A Veiled Threat to Turkic Muslims?'' Project 
2049 Institute, 8 April 15, 1; Ben Blanchard, ``China Says Bilingual 
Education a Key for Xinjiang's Stability,'' Reuters, reprinted in 
Yahoo! News, 10 December 14.
    \3\ Tom Phillips, ``China Launches Massive Rural `Surveillance' 
Project To Watch Over Uighurs,'' Telegraph, 20 October 14; Reza 
Hasmath, ``Ethnic Violence in Xinjiang: Causes, Responses, and Future 
Outlook,'' China Policy Institute Policy Paper, No. 7, 2014, 3. These 
articles refer to the ``mass line'' program in the XUAR. For more 
information on this education and ideology campaign, see CECC, 2014 
Annual Report, 9 October 14, 42, 100, 140, 168.
    \4\ ``Unswervingly Take the Correct Path of Resolving Ethnic 
Problems With Chinese Characteristics'' [Jianding buyi zou zhongguo 
tese jiejue minzu wenti de zhengque daolu], Seeking Truth, 16 October 
14. See also ``Ethnic Unity Is the Lifeline of People of All 
Ethnicities in Xinjiang'' [Minzu tuanjie shi xinjiang gezu renmin de 
shengmingxian], Tianshan Net, 10 October 14.
    \5\ See, e.g., Human Rights Watch, ``China: Draft Counterterrorism 
Law a Recipe for Abuses,'' 20 January 15; Julia Famularo, ``Do China's 
New Terrorism Laws Go Too Far?'' National Interest, 13 February 15; 
International Campaign for Tibet, ``New Aggressive `Counter-Terrorism' 
Campaign Expands From Xinjiang to Tibet With Increased Militarization 
of the Plateau,'' 15 October 14.
    \6\ ``China Focus: Lawmakers Weigh China's Draft Anti-Terrorism 
Law,'' Xinhua, 25 February 15.
    \7\ Michael Martina, ``Draft Chinese Law Paves Way for Counter-
Terror Operations Abroad,'' Reuters, 27 February 15; National People's 
Congress Standing Committee, PRC Counterterrorism Law (Draft) [Zhonghua 
renmin gongheguo fan kongbu zhuyi fa (cao'an)], issued 3 November 14. 
See also ``Counter-Terrorism Law (Initial Draft),'' translated in China 
Law Translate (blog), 8 November 14.
    \8\ Human Rights Watch, ``China: Draft Counterterrorism Law a 
Recipe for Abuses,'' 20 January 15.
    \9\ Zhang Lili, ``Reporting Information on Terrorist and Violent 
Activities Can Be Rewarded With Up to 300,000 Yuan'' [Jubao she kong 
she bao xiansuo zuigao ke huo 30 wan yuan jiangli], Tibet Daily, 30 
January 15; Michael Martina and Norihiko Shirouzu, ``China's Tibet To 
Reward Tips on `Terror Attacks,' '' Reuters, 31 January 15.
    \10\ ``Interpreting `Ministry of Public Security's Circular on the 
Public Security Organs' Establishment and Improvement of Reward 
Mechanisms for Reporting Violent Terrorist Criminal Activities' '' 
[Jiedu ``gong'an bu guanyu gong'an jiguan jianli wanshan baoli kongbu 
fanzui huodong jubao jiangli jizhi de tongzhi''], China Police Daily, 
reprinted in Ministry of Public Security, 27 June 14.
    \11\ Julia Famularo, ``Do China's New Terrorism Laws Go Too Far?'' 
National Interest, 13 February 15.
    \12\ Simon Denyer, ``In China's Inner Mongolia, Mining Spells 
Misery for Traditional Herders,'' Washington Post, 7 April 15; 
``Detained Inner Mongolian Herder Monitored Following Release'' 
[Neimenggu bei ju mumin huoshi hou zao jiankong], Radio Free Asia, 17 
February 15; Southern Mongolian Human Rights Information Center, 
``Mongolian Herders Held Simultaneous Protests,'' 21 January 15.
    \13\ Southern Mongolian Human Rights Information Center, ``Herder 
Hanged Himself at Government Building Gate, Over 30 Arrested in Protest 
in the Regional Capital,'' 26 January 15; Southern Mongolian Human 
Rights Information Center, ``Protests Escalate, 15 Arrested, 6 
Detained,'' 3 February 15; Southern Mongolian Human Rights Information 
Center, ``2,000 Police Mobilized, 100 People Injured, 50 Arrested, 1 
Killed, Internet Cut Off, Highways Shutdown in Naiman Banner of 
Southern Mongolia,'' 6 April 15. See also Ben Blanchard, ``One Reported 
Dead After Pollution Protest in Northern China,'' Reuters, 6 April 15. 
For a review of protests and authorities' use of force against 
protesters in the 2014 reporting year, see CECC, 2014 Annual Report, 9 
October 14, 100-01.
    \14\ Southern Mongolian Human Rights Information Center, ``2,000 
Police Mobilized, 100 People Injured, 50 Arrested, 1 Killed, Internet 
Cut Off, Highways Shutdown in Naiman Banner of Southern Mongolia,'' 6 
April 15; Southern Mongolian Human Rights Information Center, ``Herder 
Hanged Himself at Government Building Gate, Over 30 Arrested in Protest 
in the Regional Capital,'' 26 January 15.
    \15\ Southern Mongolian Human Rights Information Center, ``2,000 
Police Mobilized, 100 People Injured, 50 Arrested, 1 Killed, Internet 
Cut Off, Highways Shutdown in Naiman Banner of Southern Mongolia,'' 6 
April 15; Ben Blanchard, ``One Reported Dead After Pollution Protest in 
Northern China,'' Reuters, 6 April 15.
    \16\ A ``sum'' (``sumu'') is an administrative division equivalent 
to a township in the IMAR. See, e.g., Inner Mongolia Autonomous Region 
People's Congress Standing Committee, Inner Mongolia Autonomous Region 
Sum, Township, Ethnic Township, Town People's Congress Work Regulations 
[Neimenggu zizhiqu sumu, xiang, minzu xiang, zhen renmin daibiao dahui 
gongzuo tiaoli], issued and effective 2 June 95.
    \17\ Southern Mongolian Human Rights Information Center, ``Herder 
Hanged Himself at Government Building Gate, Over 30 Arrested in Protest 
in the Regional Capital,'' 26 January 15; Sui-Lee Wee, ``Herder Kills 
Himself in Inner Mongolia Over Land Grab,'' Reuters, 26 January 15.
    \18\ Southern Mongolian Human Rights Information Center, ``Herder 
Hanged Himself at Government Building Gate, Over 30 Arrested in Protest 
in the Regional Capital,'' 26 January 15.
    \19\ Ibid. ``Chinese Police Detain Protesters Outside Regional 
People's Congresses,'' Radio Free Asia, 27 January 15.
    \20\ Southern Mongolian Human Rights Information Center, 
``Mongolian Herders Held Simultaneous Protests,'' 21 January 15; 
``Mongolian Herders Travel to Beijing Amid Grassland Dispute With 
Army,'' Radio Free Asia, 13 January 15.
    \21\ Southern Mongolian Human Rights Information Center, ``Protests 
Escalate, 15 Arrested, 6 Detained,'' 3 February 15; Su Rongfu, 
``Herders Continue To Fight Authorities' Repression, At Least 13 People 
Detained and Summoned'' [Mumin jixu kangzheng dangju kaishi zhenya, 
zhixiao 13 ren bei zhua chuanhuan], Mongolia News (blog), 31 January 
15. For information on the cases of four of the five herders detained 
in Durbed Banner, see the Commission's Political Prisoner Database 
records 2015-00286 on Odonhuaar, 2015-00287 on Davshilt, 2015-00288 on 
Naranhuaar, and 2015-00289 on Adiyaa.
    \22\ Southern Mongolian Human Rights Information Center, ``Protests 
Escalate, 15 Arrested, 6 Detained,'' 3 February 15.
    \23\ Ibid.; ``Chinese Police Jail Four Herders Over Grasslands 
Protest,'' Radio Free Asia, 3 February 15.
    \24\ Southern Mongolian Human Rights Information Center, ``Protests 
Spread in Southern Mongolia, Many Arrested,'' 9 June 15; ``Chinese 
Police Detain 17 Ethnic Mongolians as Grasslands Protests Spread,'' 
Radio Free Asia, 10 June 15.
    \25\ Ibid.
    \26\ ``China Releases Veteran Mongolian Activist, Who Says He Was 
Tortured,'' Radio Free Asia, 9 December 14; Ben Blanchard, ``China 
Releases One of Its Longest-Serving Political Prisoners, Relative 
Says,'' Reuters, 9 December 14.
    \27\ ``Wife of Inner Mongolian Political Prisoner Writes to Chinese 
President,'' Radio Free Asia, 19 March 14; Southern Mongolian Human 
Rights Information Center, ``Hada: `Ready To Sue the Authorities,' 
Xinna: `Ready To Go to Jail Again,' '' 19 March 14; ``Inner Mongolian 
Activist in Safe, Healthy State: Official,'' Xinhua, 6 March 13; 
Southern Mongolian Human Rights Information Center, ``Hada and Family 
Members Still Missing,'' 24 February 13.
    \28\ ``Mongolian Dissident Hada Denied ID Card, Bank Account After 
Interview,'' Radio Free Asia, 23 January 15; ``China Releases Veteran 
Mongolian Activist, Who Says He Was Tortured,'' Radio Free Asia, 9 
December 14; ``Hada Is Issued Identity Card and Plans To Apply for 
Passport in Order To Go Abroad, Donations From Overseas Are Again 
Frozen by Authorities'' [Hada huofa shenfenzheng jiang shenqing chuguo 
huzhao jingwai juankuan zai bei dangju dongjie], Radio Free Asia, 26 
March 15.
    \29\ ``China Denies Ethnic Mongolian Dissident a Passport To Seek 
Medical Help,'' Radio Free Asia, 30 April 15.
    \30\ Southern Mongolian Human Rights Information Center, ``Hada, 
Discharged From `Black Jail,' But Not Free,'' 10 December 14; ``China 
Releases Veteran Mongolian Activist, Who Says He Was Tortured,'' Radio 
Free Asia, 9 December 14.
    \31\ ``Two French Reporters Attempting To Interview Hada Detained 
for Several Hours by Public Security and Then Expelled'' [Liang ming 
faguo jizhe ni caifang hada bei gong'an kouliu shu xiaoshi hou quzhu], 
Radio Free Asia, 23 February 15.
    \32\ ``RFA Exclusive: Hada Kidnapped in the Street by Public 
Security Authorities When Going To Meet Foreign Journalist'' [RFA 
dujia: hada jian waimei jizhe dangjie zao gong'an bangjia], Radio Free 
Asia, 5 March 15; ``Hada and Son Kidnapped and Beaten in Broad 
Daylight, Canadian Reporter Expelled From Hohhot'' [Guangtianhuari 
bangjia ouda hada fuzi jia'nada jizhe zao quli huhehaote], Radio Free 
Asia, 5 March 15.
    \33\ Ibid.
    \34\ ``Inner Mongolian Dissident's Family Targeted,'' Radio Free 
Asia, 5 December 10; Hada, Xinna, and Uiles, Southern Mongolian Human 
Rights Information Center, ``Open Letter From Hada and His Family 
Members,'' 2 July 14; Southern Mongolian Human Rights Information 
Center, ``SMHRIC Statement to the UN Special Rapporteur on the Rights 
to Freedom of Peaceful Assembly and Association,'' 19 February 14. For 
Commission analysis on Hada and Uiles, see ``Authorities Heighten 
Persecution of Detained Mongol Rights Advocate's Wife and Son,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 3 January 13, 2. For 
more information on these cases, see the following records in the 
Commission's Political Prisoner Database: 2004-02045 on Hada and 2010-
00705 on Uiles.
    \35\ Southern Mongolian Human Rights Information Center, 
``Statements From Southern Mongolian Dissident Writer Huuchinhuu 
Govruud,'' 6 January 15; ``Mongolian Writer Hits Out at China Over 
Treatment of Dissident,'' Radio Free Asia, 6 January 15.
    \36\ Ibid.
    \37\ ``Mongolian Writer Hits Out at China Over Treatment of 
Dissident,'' Radio Free Asia, 6 January 15.
    \38\ Southern Mongolian Human Rights Information Center, ``Southern 
Mongolian Dissident Detained and Put Under House Arrest,'' 16 November 
10; ``Author Under House Arrest,'' Radio Free Asia, 18 November 10. For 
Commission analysis, see ``Mongol Activist, Family Members Harassed and 
Detained as Release Date of Political Prisoner Hada Nears (Updated),'' 
CECC China Human Rights and Rule of Law Update, No. 9, 8 December 10, 
2. For more information on Govruud Huuchinhuu, see the Commission's 
Political Prisoner Database record 2010-00597.

                           Population Control


    International Standards and China's Coercive Population Policies

    Chinese officials continue to actively promote and 
implement coercive population planning policies that violate 
international standards. The PRC Population and Family Planning 
Law and provincial regulations limit couples' freedom to build 
their families as they see fit.\1\ National and provincial 
population planning policies continue to require that couples 
be married to have children and limit them to bearing one 
child.\2\ Exceptions allowing for additional children exist for 
couples who meet certain criteria, which vary by province,\3\ 
including some exceptions for ethnic minorities and a new 
exception allowing couples to have two children if one of the 
parents is an only child (dandu erhai policy).\4\ Officials 
continue to enforce compliance with population planning targets 
using methods including heavy fines,\5\ arbitrary 
detentions,\6\ coerced abortions,\7\ and coerced 
sterilizations.\8\
    Coercive controls imposed on Chinese women and their 
families, and additional abuses engendered by China's 
population and family planning system, violate standards set 
forth in the 1995 Beijing Declaration and Platform for Action 
\9\ and the 1994 Programme of Action of the Cairo International 
Conference on Population and Development.\10\ China was a state 
participant in the negotiations and adoption of both.\11\ Acts 
of official violence committed in the implementation of 
population planning policies \12\ contravene provisions of the 
Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment,\13\ which China has 
ratified.\14\ Furthermore, discriminatory policies against some 
children whose parents fail to comply with population planning 
policies \15\ contravene the Convention on the Rights of the 
Child \16\ and the International Covenant on Economic, Social 
and Cultural Rights.\17\ China is a State Party to these 
treaties and has committed to uphold their terms.\18\

                   Policy Revision and Implementation

    At the Third Plenum of the 18th Party Congress Central 
Committee held in November 2013,\19\ central Party authorities 
issued the Decision on Certain Major Issues Regarding 
Comprehensively Deepening Reforms, which called for a broad 
range of reforms,\20\ including the provision of a new 
exception to China's population planning policy aimed at 
addressing the demographic challenges facing China.\21\ The 
exception allows couples to have two children if one of the 
parents is an only child (dandu erhai policy), which represents 
a slight modification of the previous policy.\22\ Rural 
couples,\23\ ethnic minority couples,\24\ and couples in which 
both parents are only children (shuangdu erhai policy) \25\ 
were among those already permitted under previous exceptions to 
bear a second child. Experts have predicted that the impact of 
the policy revision will be more noticeable in urban areas,\26\ 
and that the change may affect 15 to 20 million people across 
China.\27\ By November 2014, all 31 provincial-level 
jurisdictions in China had amended their population and family 
planning regulations in accordance with the new policy.\28\
    Government statistics revealed the limited impact of the 
policy revision during its first year of implementation in 
2014. The National Health and Family Planning Commission 
(NHFPC) had initially predicted that the policy would result in 
approximately 2 million additional births per year.\29\ As of 
December 2014, roughly 1.07 million out of 11 million eligible 
couples nationwide (less than 10 percent) reportedly had 
applied to have a second child.\30\ Moreover, official NHFPC 
data showed that only 470,000 additional children were born in 
2014 as a result of policy implementation, a number 
significantly lower than the 2 million additional births the 
NHFPC had predicted.\31\
    The policy revision also appears to have had limited impact 
at the provincial level. Reports from several provincial-level 
jurisdictions--including Beijing \32\ and Shanghai 
municipalities; \33\ Anhui,\34\ Gansu,\35\ Henan,\36\ 
Jilin,\37\ Liaoning,\38\ and Zhejiang provinces; \39\ and the 
Guangxi Zhuang Autonomous Region \40\--indicate an ``overall 
low willingness'' among couples eligible to have a second 
child.\41\ For example, in 2014, out of approximately 90,000 
couples in Jilin province who became eligible for a second 
child under the policy revision, only 7,004 couples 
(approximately 7.78 percent) applied to have a second 
child.\42\ 170 additional children were born to newly eligible 
couples in Jilin province in 2014, representing approximately 
2.43 percent of the 7,004 couples that applied and 
approximately 0.19 percent of the 90,000 eligible couples in 
the province.\43\ Factors that discourage eligible couples from 
having a second child reportedly include the high cost of 
rearing an additional child,\44\ couples' limited time and 
energy,\45\ lack of adequate child care options,\46\ disruption 
to career development,\47\ and the perception that ``one child 
is best'' due to decades-long government propaganda.\48\
    As the two-child policy exception appeared to have limited 
impact in its first year of implementation \49\ and China's 
demographic challenges remain daunting,\50\ some experts and 
media outlets called for further relaxation of the family 
planning policy to allow all couples to have two children (a 
universal two-child policy),\51\ while others called for 
cancellation of the entire policy on family planning.\52\ NHFPC 
officials, however, downplayed these concerns and repeatedly 
emphasized that ``currently there are no plans to suspend or 
further relax the one-child policy.'' \53\ They maintained that 
implementation of the policy revision allowing married couples 
to have a second child if one of the parents is an only child 
had been steady in 2014,\54\ and that the result was reasonable 
\55\ and had met official expectations.\56\ NHFPC officials 
also predicted that there would be 1 million more births in 
2015 than in 2014.\57\ Population experts, however, challenged 
the NHFPC's prediction, arguing that the impact of the policy 
revision would be limited and that the number of additional 
births is unlikely to increase in 2015, as 2014 data showed a 
monthly decline in birth permit applications for a second 
child.\58\
    In the 2015 government work report presented during the 
Third Meeting of the 12th National People's Congress, Premier 
Li Keqiang mentioned that the government will ``promote 
management reform for family planning services.'' \59\ 
According to a March 2015 article in Caixin, Li's mention of 
reform presented a ``marked contrast'' to past official 
declarations that ``family planning as a fundamental national 
policy cannot be shaken.'' \60\ Speaking at a news conference 
after the conclusion of the annual meetings of the National 
People's Congress and Chinese People's Political Consultative 
Conference in March 2015, Li said that ``. . . we are currently 
conducting comprehensive reviews of the [policy] . . . taking 
into consideration China's economic and social development as 
well as changes in the demographic structure, weighing the pros 
and cons, to adjust and improve population policies in 
accordance with legal procedures.'' \61\ Li's remarks fueled 
speculation that central government authorities were 
considering further changes to the family planning policy,\62\ 
although no specific timeframe was given.\63\ Chinese 
population experts expressed optimism that the current policy 
is only transitional and that a universal two-child policy will 
be implemented within the next few years.\64\
    This past year, government authorities also took measures 
to implement reforms to the ``reproductive services permit'' 
(shengyu fuwu zheng) system, commonly known as the ``birth 
permit'' (zhunsheng zheng) system.\65\ Following a July 2014 
guiding opinion issued by the NHFPC to ``actively promote 
reproductive services permit system reform,'' \66\ Li Bin, 
director of the NHFPC, emphasized the need to ``resolve the 
difficulty in getting a birth permit'' at a January 2015 work 
conference.\67\ Sources indicate that obtaining a birth permit 
is a burdensome process, involving visits to multiple offices 
to get stamps of approval in order to complete the necessary 
paperwork.\68\ The birth permit system reportedly has been a 
significant obstacle for married migrant worker couples who 
want to have children by requiring them to return to the locale 
of their household registration (hukou) to apply for birth 
permits.\69\ [For more information on China's hukou system, see 
Section II--Freedom of Residence and Movement. See also 
Punishment for Noncompliance below.] Localities are actively 
shifting to a ``first-child registration'' (yihai dengji) 
system whereby married couples register their first child and 
obtain a ``reproductive services permit'' without going through 
a complicated approval or application process.\70\ An approval 
process, however, is still in place for couples who intend to 
have a second child, but local family planning authorities are 
to promote standardization and simplification of that 
process.\71\ As of July 2015, 25 provinces and province-level 
municipalities--including Beijing municipality and Hebei, 
Shanxi, and Liaoning provinces--have implemented the ``first-
child registration'' system, and at least 6 provide online 
registration.\72\

                        Coercive Implementation

    The PRC Population and Family Planning Law contains 
provisions that prohibit officials from infringing upon the 
``legitimate rights and interests'' of citizens while 
implementing family planning policies, but does not define what 
constitutes a citizen's ``legitimate'' right or interest.\73\ 
Despite these provisions, abuses committed during the 
implementation of family planning policies continued during the 
Commission's 2015 reporting year. Many provincial-level 
population planning regulations explicitly instruct officials 
to carry out abortions, often referred to as ``remedial 
measures'' (bujiu cuoshi), for ``out-of-plan'' pregnancies, 
with no apparent requirement for parents' consent.\74\ 
Officials also reportedly continued to use other coercive 
methods--including arbitrary detention,\75\ forced insertion of 
long-term birth control devices,\76\ and forced sterilization 
\77\--to implement family planning policies.

                           OFFICIAL CAMPAIGNS

    Language used in official speeches and government reports 
from jurisdictions across China continued to reflect an 
emphasis on harsh enforcement of family planning measures. The 
Commission noted that during this reporting year, as in 
previous years,\78\ official reports from several provinces 
across China--including Anhui,\79\ Fujian,\80\ Gansu,\81\ 
Guangdong,\82\ Guizhou,\83\ Hebei,\84\ Henan,\85\ Hubei,\86\ 
Hunan,\87\ Jiangsu,\88\ Jiangxi,\89\ Shandong,\90\ and Sichuan 
\91\--continued to promote ``family planning implementation 
work'' which entailed harsh and invasive family planning 
measures. Phrases such as ``fight the family planning battle'' 
(dahao jisheng zhang),\92\ ``resolutely implement'' 
(henzhua),\93\ ``spare no efforts'' (quanli yifu),\94\ ``use 
hard measures and harsh tactics'' (caiqu ying cuoshi ying 
shouduan),\95\ and ``use all means necessary'' (qian fang bai 
ji) \96\ appeared in official speeches and government reports, 
indicating the aggressive nature of these family planning 
campaigns.
    Implementation targets promoted in local government reports 
were unrelenting, including some reports calling for a 100-
percent implementation rate \97\ in compelling women to undergo 
the invasive ``three inspections'' (intrauterine device (IUD), 
pregnancy, and health inspections),\98\ ``four procedures'' 
(IUD insertion, first-trimester abortion, mid- to late-term 
abortion, and sterilization),\99\ and the forcible collection 
of ``social compensation fees'' (shehui fuyang fei).\100\ [See 
Punishment for Noncompliance below for additional information 
on ``social compensation fees.''] For example, one March 2015 
government report from Baiyangxi township, Luxi county, Xiangxi 
Tujia and Miao Autonomous Prefecture, Hunan province, indicated 
that township authorities had formed a ``family planning work 
strike team'' (jisheng gongzuo tujidui) to ``comprehensively 
implement the task of the four procedures'' during a township-
wide family planning ``service'' campaign.\101\ According to 
the same report, as of March 5, 2015, Baiyangxi family planning 
authorities had carried out 28 ``four procedures'' operations--
2 sterilizations, 24 IUD insertions, and 2 abortions.\102\

------------------------------------------------------------------------
                    Representative Cases of Coercion
-------------------------------------------------------------------------
<bullet> Guizhou province. On May 12, 2015, the bureaus of education and
 of family planning in Libo county, Guizhou jointly issued a Notice of
 Order To Terminate Pregnancy to local school teacher Qin Yi.\103\ The
 notice demanded that she either have an abortion by May 31, 2015, or
 lose her job.\104\ Qin and her husband were remarried, and each had a
 child from their previous marriages.\105\ Under family planning
 regulations in Anhui province where Qin's  hukou  is registered, a
 couple in their circumstances are allowed to have another child,\106\
 and Qin had obtained a birth permit in advance from family planning
 authorities in Anhui in February 2015.\107\ But under Guizhou
 provincial family planning regulations, they were not permitted to have
 another child.\108\ Following public criticism of the decision, the
 Guizhou Provincial Health and Family Planning Commission intervened and
 rescinded the pregnancy termination order, allowing Qin to have another
 child under Anhui's provincial family planning regulations.\109\
<bullet> Guangdong province. In May 2015, the Dongguan No. 1 People's
 Court accepted an administrative lawsuit from a Mr. Chen of Zhongtang
 township, Dongguan municipality, Guangdong, against the Zhongtang
 Township Public Security Bureau for refusing to issue hukou to his twin
 sons who had been ``illegal residents'' (heihu) for over four years due
 to their lack of hukou.\110\ The public security bureau in charge of
 issuing hukou required Chen to provide a ``certificate of family
 planning'' from the local family planning office,\111\ but officials at
 the family planning office refused to issue the certificate unless
 Chen's wife underwent sterilization.\112\ According to Liu Huawen,
 Deputy Director of the Human Rights Research Center at the Chinese
 Academy of Social Sciences, there are many similar cases nationwide,
 and local regulations that link family planning measures to hukou
 registration are ``inappropriate'' and should be amended to protect the
 fundamental rights of children.\113\
<bullet> Hunan province. According to a December 2014 Consumption Daily
 report, family planning officials in Pingjiang county, Yueyang
 municipality, Hunan, required women who had given birth to undergo IUD
 insertions and sterilizations before they could obtain hukou for their
 children.\114\ According to the same report, Chinese legal experts and
 state-run news agency Xinhua noted that such arbitrary restrictions
 have no legal basis and violate Chinese laws.\115\
------------------------------------------------------------------------

                      Punishment for Noncompliance

    Chinese authorities continued to use various methods of 
punishment to enforce citizens' compliance with population 
planning policies. In accordance with national measures,\116\ 
local governments have directed officials to punish 
noncompliance with heavy fines, termed ``social compensation 
fees,'' \117\ which compel many couples to choose between 
undergoing an unwanted abortion and incurring a fine much 
greater than the average annual income of their locality.\118\ 
For example, in November 2014, local family planning officials 
in Tuanlin township, Lin'gang district, Linyi municipality, 
Shandong province, reportedly detained a couple and their 10-
month-old infant at a local hotel for failing to pay ``social 
compensation fees'' of 140,000 yuan (US$22,600).\119\ Family 
planning officials also detained others at the hotel, including 
an elderly woman whose daughter had given birth to an ``out-of-
plan'' child.\120\ According to a December 2014 report, these 
detentions were ``illegal'' and a Linyi spokesperson indicated 
that the offending officials were investigated and 
punished.\121\

------------------------------------------------------------------------
      Draft Regulations on the Collection and Management of Social
                            Compensation Fees
-------------------------------------------------------------------------
  In November 2014, the National Health and Family Planning Commission
 (NHFPC) issued draft Regulations on the Collection and Management of
 Social Compensation Fees (Regulations) for review by the State Council
 and for public comment.\122\ The draft Regulations marked several
 significant changes from the 2002 Measures for Collection of Social
 Compensation Fees, including the proposal of a unified national
 collection standard that limits fines for the first ``out-of-plan''
 child to no more than three times the local average annual disposable
 income per person, a significant reduction from current fine amounts if
 passed and implemented.\123\ Other changes introduced in the draft
 Regulations include eliminating fines for eligible couples who give
 birth to an additional child but fail to follow proper procedures,\124\
 and allowing only county-level family planning agencies to collect
 fines.\125\
  Despite these proposed changes in the draft Regulations, many
 continued to voice concerns over corruption, lack of transparency,
 abuses, and violations of citizens' legal rights in the collection and
 usage of ``social compensation fees.'' \126\ Demographers, legal
 experts, National People's Congress delegates, Internet users, and
 other individuals called on central government authorities this
 reporting year to amend the PRC Population and Family Planning Law and
 abolish ``social compensation fees.'' \127\ At a symposium in December
 2014, however, an NHFPC official emphasized that ``social compensation
 fees'' will not be abolished, saying that abolition would be ``unfair
 to Chinese citizens who comply with the family planning policy.'' \128\
 In its Concluding Observations on the Combined Seventh and Eighth
 Periodic Reports of China, issued in November 2014, the UN Committee on
 the Elimination of Discrimination against Women stated its concern that
 ``notwithstanding the recent relaxation of the State party's one-child
 policy, women who violate the policy are still subjected to fines . . .
 and continue to experience some difficulty in registering their
 children.'' \129\
------------------------------------------------------------------------

    During this reporting year, authorities in some localities 
denied birth permits and hukou for children whose parents 
violated local family planning policies. In one such example 
reported by the Party-run news outlet Global Times in March 
2015, family planning authorities in the Guangxi Zhuang 
Autonomous Region rejected a couple's application for a birth 
permit ``on the grounds that one of them had two children from 
a previous marriage.'' \130\ The couple was eligible to have a 
child together according to central government guidelines, but 
not under provincial-level regulations.\131\ According to the 
Global Times, NHFPC guidelines allow a remarried couple to have 
a child together if one of the parents is a single child who 
has no children and the spouse has two children from a previous 
marriage.\132\ The amended 2014 Guangxi Zhuang Autonomous 
Region Population and Family Planning Regulations, however, 
allow a remarried couple to have a child together only if one 
of the parents has no children and the spouse has only one 
child from a previous marriage.\133\ A local official admitted 
that Guangxi's family planning regulations ``might be a little 
harsh'' for such couples, and maintained that central 
government guidelines on remarried couples are ``only a 
recommendation'' which ``have not been applied in Guangxi due 
to its large population base and relatively fast population 
growth.'' \134\
    Authorities in some areas also withheld hukou from children 
born in excess of birth quotas, demanding that their parents 
must first pay the necessary ``social compensation fees'' 
associated with their births.\135\ In some localities, 
authorities would not issue hukou to children born to unmarried 
parents who lacked official documents--such as the child's 
birth permit and birth certificate, and the parents' marriage 
certificate and hukou.\136\ People who lack hukou in China are 
commonly referred to as ``illegal residents'' (heihu) \137\ and 
face considerable difficulty accessing social benefits 
typically afforded to registered citizens, including health 
insurance, public education, and state welfare.\138\ According 
to 2010 national census data released by the State Council, 
there are approximately 13 million ``illegal residents'' in 
China, of whom about 1.3 million (10 percent) are children born 
to unmarried parents.\139\ During this reporting year, in a 
positive development, Hubei province took steps to delink hukou 
registration from ``social compensation fees'' and birth 
control procedures, allowing children born to parents who 
violate family planning policies to register for hukou without 
the prerequisites of paying ``social compensation fees'' or 
undergoing birth control procedures.\140\
    In September 2013, the UN Committee on the Rights of the 
Child conducted a periodic review of China's compliance with 
the Convention on the Rights of the Child. In its Concluding 
Observations, the Committee stated its concern about low rates 
of birth registration in China--in part due to China's family 
planning policies--and recommended that China ``reform family 
planning policies in order to remove all forms of penalties and 
practices that deter parents or guardians from registering the 
birth of their children'' and ``abandon the hukou system in 
order to ensure birth registration for all children.'' \141\
    Officials also imposed or threatened other punishments for 
family planning violations. These punishments included job 
termination,\142\ arbitrary detention,\143\ abortion,\144\ and 
sterilization.\145\ The PRC Population and Family Planning Law 
prohibits and provides punishments for officials' infringement 
on citizens' personal, property, and other rights while 
implementing population planning policies.\146\

        Demographic Consequences of Population Control Policies

    The Chinese government's population planning policies 
continue to exacerbate the country's demographic challenges, 
which include a rapidly aging population, shrinking workforce, 
and sex ratio imbalance. Affected in recent decades by 
government restrictions on the number of births per couple, 
China's total fertility rate has dropped from 6 births per 
woman in the early 1970s \147\ to an estimated 1.2 to 1.6 
births per woman in 2015,\148\ below the replacement rate of 
2.1 births per woman necessary to maintain a steady 
population.\149\ The fertility rate is even lower in some major 
cities, such as Shanghai municipality, which currently has a 
fertility rate of 0.6 to 0.7 births per woman, reportedly one 
of the lowest in the world.\150\
    China's low fertility rate has contributed to a rapidly 
aging population and a shrinking workforce. From 2013 to 2014, 
China's working-age population (persons between the ages of 16 
and 59) declined by more than 6 million people \151\ to 915.8 
million,\152\ and according to a February 2015 report, is 
``expected to fall at an accelerating rate in the coming 
years.'' \153\ At the same time, the elderly population 
(persons aged 60 or older) increased by more than 10 million in 
2014 to 212.4 million people, or 15.5 percent of the total 
population.\154\ It is estimated that China's elderly 
population will reach 400 million, or a quarter of the 
population, by 2030,\155\ and will account for approximately 
one-third of China's total population by 2050.\156\ These 
demographic trends reportedly could burden China's health care, 
social services, and pension systems,\157\ and may weaken 
China's economy as labor costs rise and its competitiveness 
erodes.\158\ Chinese experts have voiced concerns that China's 
fertility rate is ``dangerously low'' \159\ and 
``unsustainable,'' \160\ and some experts have called on the 
central government to allow all families to have a second child 
or to abolish the entire family planning policy.\161\
    The Chinese government's restrictive family planning 
policies also continued to exacerbate China's sex ratio 
imbalance.\162\ Although Chinese authorities continue to 
implement a ban on ``non-medically necessary sex determination 
and sex-selective abortion,'' \163\ some people reportedly 
continue the practice in response to government-imposed birth 
limits and in keeping with a traditional cultural preference 
for sons.\164\ According to several reports, China's sex ratio 
at birth is about 116 to 118 males to 100 females (compared 
with a global average of 103 to 107 males per 100 
females).\165\ According to a CCTV report, census data from the 
National Bureau of Statistics of China showed that there were 
approximately 34 million more males than females in China.\166\ 
Officials from the National Health and Family Planning 
Commission described China's sex ratio imbalance as ``the most 
serious and prolonged in the world.'' \167\ In its October 2013 
Concluding Observations on the Combined Third and Fourth 
Periodic Reports of China, the UN Committee on the Rights of 
the Child urged China to ``take immediate legal, policy and 
awareness-raising measures to prevent sex-selective abortions, 
female infanticide and abandonment of girls, including by 
addressing factors that reinforce cultural norms and practices 
that discriminate against girls.'' \168\
    Demographic experts Andrea den Boer and Valerie Hudson 
expressed concerns that the sex ratio imbalance in China has 
contributed to ``increases in societal instability 
characterized by a rise in violent crime, the number of secret 
societies and gangs, the levels of muscular nationalism, and 
prostitution and trafficking in women and children,'' which may 
have ``regional and international repercussions . . . .'' \169\ 
This past year, reports continued to suggest a link between 
China's large number of ``surplus males'' and the trafficking 
of foreign women--from countries including Cambodia,\170\ 
Laos,\171\ Mongolia,\172\ Burma (Myanmar),\173\ North 
Korea,\174\ Thailand,\175\ and Vietnam \176\--into China for 
forced marriage or commercial sexual exploitation.
    Reports also indicate that decades of birth limits under 
China's population planning policies combined with a 
traditional preference for sons have helped create a ``black 
market'' for illegal adoptions.\177\ According to reports in 
January 2015, police in Shandong province rescued 37 infants 
who had been born in an ``underground delivery room,'' part of 
an illegal adoption scheme run by eight criminal 
syndicates.\178\ A police spokesperson revealed that almost all 
of the babies had health conditions, including seven found to 
have sexually-transmitted diseases.\179\ According to Chen 
Shiqu, Director of the Ministry of Public Security Anti-
Trafficking Office, moving pregnant women to a ``trafficking 
site'' for the purpose of selling their babies is a ``new form 
of child trafficking.'' \180\ On June 21, 2015, 52 fathers from 
20 provinces in China issued a ``Father's Day'' plea to central 
government authorities to abolish family planning policies, 
citing family planning policies and the ``social compensation 
fee'' system as major causes of illegal adoptions.\181\ [For 
information on the Chinese government's conflation of child 
trafficking with illegal adoption, see Section II--Human 
Trafficking.]
    Notes to Section II--Population Control

    \1\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, art. 18. Article 18 stipulates, ``The State maintains 
its current policy for reproduction, encouraging late marriage and 
childbearing and advocating one child per couple. Where the 
requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made. Specific measures in this 
regard shall be formulated by the people's congress or its standing 
committee of a province, autonomous region, or municipality directly 
under the Central Government.'' Implementing regulations in different 
provinces vary with respect to the ages at which couples may give birth 
or the spacing permitted between children; most provinces have 
cancelled limitations on birth spacing altogether. See, e.g., ``New 
Updates for Universal Two-Child Policy, When Will the Two-Child Policy 
Become Universal? '' [Quanmian fangkai ertai zuixin xiaoxi ertai 
zhengce heshi quanmian fangkai], Re Dian Shi Jian Net, 22 March 15; 
``19 Provinces in China Cancel [Mandatory] Birth Spacing, Central 
[Authorities] Call for Strict Control of the Births of Multiple 
Children'' [Woguo 19 sheng quxiao shengyu jian'ge zhongyang yaoqiu 
yankong duohai shengyu], Xinhua, reprinted in People's Daily, 31 
December 13. For provincial-level regulations limiting how many 
children married couples may bear, see, e.g., Beijing Municipality 
People's Congress Standing Committee, Beijing Municipality Population 
and Family Planning Regulations [Beijing shi renkou yu jihua shengyu 
tiaoli], effective 1 September 03, amended 21 February 14, art. 17, 
reprinted in Liuxiaoer; Zhejiang Province People's Congress Standing 
Committee, Zhejiang Province Population and Family Planning Regulations 
[Zhejiang sheng renkou yu jihua shengyu tiaoli], issued 3 September 02, 
amended 28 September 07, 17 January 14, art. 18, reprinted in 
Liuxiaoer.
    \2\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, art. 18. Article 18 stipulates, ``The State maintains 
its current policy for reproduction, encouraging late marriage and 
childbearing and advocating one child per couple. Where the 
requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made.'' For provincial population 
policies that limit married couples to bearing one child, see, e.g., 
Zhejiang Province People's Congress Standing Committee, Zhejiang 
Province Population and Family Planning Regulations [Zhejiang sheng 
renkou yu jihua shengyu tiaoli], issued 3 September 02, amended 28 
September 07, 17 January 14, art. 18, reprinted in Liuxiaoer; Beijing 
Municipality People's Congress Standing Committee, Beijing Municipality 
Population and Family Planning Regulations [Beijing shi renkou yu jihua 
shengyu tiaoli], issued 1 September 03, amended 21 February 14, art. 
17, reprinted in Liuxiaoer; Jiang Yuanbo, ``Suggestions Regarding the 
Initiation of Review on Provincial Family Planning Regulations'' 
[Guanyu qidong dui ge sheng jihua shengyu tiaoli jinxing shencha de 
jianyi], Population and Future, 15 March 15.
    \3\ Chen Wei and Jin Yongai, ``The Implementation and Influencing 
Factors of China's Family Planning Policy--A Micro-Level Perspective'' 
[Zhongguo jihua shengyu zhengce de zhixing ji qi yingxiang yinsu--ji yu 
weiguan de shijiao], Population and Economics, No. 4 (2014), 118-28, 
reprinted in China Social Sciences Net, 10 February 15; Jiang Yuanbo, 
``Suggestions Regarding the Initiation of Review on Provincial Family 
Planning Regulations'' [Guanyu qidong dui ge sheng jihua shengyu tiaoli 
jinxing shencha de jianyi], Population and Future, 15 March 15.
    \4\ Ibid. For provincial regulations that allow dandu couples to 
have two children, see, e.g., Zhejiang Province People's Congress 
Standing Committee, Zhejiang Province Population and Family Planning 
Regulations [Zhejiang sheng renkou yu jihua shengyu tiaoli], issued 3 
September 02, amended 28 September 07, 17 January 14, art. 19(1, 4), 
reprinted in Liuxiaoer; Beijing Municipality People's Congress Standing 
Committee, Beijing Municipality Population and Family Planning 
Regulations [Beijing shi renkou yu jihua shengyu tiaoli], issued 15 
January 91, amended 14 May 99, effective 1 September 03, amended 21 
February 14, art. 17(2, 5), reprinted in Liuxiaoer.
    \5\ See, e.g., ``First Child Born in Hong Kong, Couple Sues Family 
Planning Agency for Fining Them for Giving Birth to a Second Child in 
Mainland China'' [Fufu zai xianggang sheng toutai neidi er tai bei fa 
qisu jisheng bumen], Southern Metropolitan Daily, reprinted in Sina, 1 
December 14; Wu Tingting and Zhang Lu, ``Proposal To Unify Social 
Compensation Fee Collection Standards'' [Shehui fuyang fei ni tongyi 
jizheng biaozhun], Beijing Morning Post, 21 November 14; ``Shandong 
Family Unable To Pay Fines, [Authorities] Even Detain an Infant'' 
[Shandong chaosheng hu jiao bu qi fakuan lian dai ying'er ye bei ju], 
The Paper, reprinted in Women's Rights in China, 12 December 14.
    \6\ ``Shandong Family Unable To Pay Fines, [Authorities] Even 
Detain an Infant'' [Shandong chaosheng hu jiao bu qi fakuan lian dai 
ying'er ye bei ju], The Paper, reprinted in Women's Rights in China, 12 
December 14; ``Woman in Lanba Township, Shuicheng County, Guizhou 
Detained and Beaten During Forced Pregnancy Inspection'' [Guizhou 
shuicheng xian lanba zhen funu bei qiangzhi chayun zhong, bei guanya 
ouda], Radio Free Asia, 22 January 15.
    \7\ ``Two Provinces' Two-Child Policies for Remarried Couples Come 
Into Conflict, Pregnant Teacher With Anhui Birth Permit Is Ordered To 
Get Abortion in Guizhou'' [Liang sheng zaihun erhai zhengce chongtu, 
huaiyun jiaoshi you anhui zhunsheng zheng bei guizhou zeling yincan], 
The Paper, 18 May 15; Liu Xin, ``Shandong County Denies `Abortion 
Quotas,' '' Global Times, 26 May 15. See also Tan Fangzhi, Baiyangxi 
Township People's Government, ``Baiyangxi Township `Fights Hard' To 
Carry Out Targeted Family Planning Service Activities'' [Baiyangxi 
xiang kaizhan jizhong jisheng fuwu huodong yeshi ``man pin de''], 5 
March 15.
    \8\ Sun Ying, ``Twins Already Four Years Old but Are Still `Illegal 
Residents,' Public Security Bureau: [Mother] Must Be Sterilized Before 
Hukou Can Be Registered'' [Shuangbaotai chusheng si nian reng shi 
``heihu'' gong'anju: xiang shanghu xian jieza], China National Radio, 
19 May 15; Tang Ru, ``Pingjiang County, Hunan Province: Family Planning 
Office Distributes Assignments, Forced Procedures Imposed on Women'' 
[Hunan pingjiang xian: jisheng fenpei renwu funu qiangzhi shoushu], 
Consumption Daily, 11 December 14; ``Family Planning Office of Sizhang 
Township, Sishui County, Jining Municipality Illegally Implements 
Forced Sterilization'' [Jining shi sishui xian sizhang zhen jisheng ban 
weigui qiangzhi jieza], Qilu Net, 6 May 15. See also Tan Fangzhi, 
Baiyangxi Township People's Government, ``Baiyangxi Township `Fights 
Hard' To Carry Out Targeted Family Planning Service Activities'' 
[Baiyangxi xiang kaizhan jizhong jisheng fuwu huodong yeshi ``man pin 
de''], 5 March 15.
    \9\ Beijing Declaration and Platform for Action (1995), adopted at 
the Fourth World Conference on Women on 15 September 95, and endorsed 
by UN General Assembly resolution 50/203 on 22 December 95, Annex 1, 
paras. 9, 17. The Beijing Declaration states that governments which 
participated in the Fourth World Conference on Women reaffirmed their 
commitment to ``[e]nsure the full implementation of the human rights of 
women and of the girl child as an inalienable, integral and indivisible 
part of all human rights and fundamental freedoms; . . .'' (para. 9) 
and ``are convinced that . . . [t]he explicit recognition and 
reaffirmation of the right of all women to control all aspects of their 
health, in particular their own fertility, is basic to their 
empowerment . . .'' (para. 17).
    \10\ Programme of Action adopted at the Cairo International 
Conference on Population and Development, 13 September 94, paras. 7.2, 
8.25. Paragraph 7.2 states that, ``Reproductive health therefore 
implies that people . . . have the capability to reproduce and the 
freedom to decide if, when and how often to do so. Implicit in this 
last condition are the right of men and women to be informed and to 
have access to safe, effective, affordable and acceptable methods of 
family planning of their choice . . . .'' Paragraph 8.25 states, ``In 
no case should abortion be promoted as a method of family planning.''
    \11\ United Nations, ``Report of the Fourth World Conference on 
Women,'' 1996, chap. II., para. 3; chap. VI, para. 12. China was the 
host of and a participating state at the Fourth World Conference on 
Women, which adopted the Beijing Declaration and Platform for Action. 
United Nations Population Information Network, A/Conf.171/13: Report of 
the International Conference on Population and Development (ICPD), 18 
October 94, chap. II, sec. C, chap. VI, sec. 1. China was one of the 
participating states at the ICPD, which reached general agreement on 
the Programme of Action. The Programme of Action is provided as an 
annex to the above ICPD report.
    \12\ ``Shandong Family Unable To Pay Fines, [Authorities] Even 
Detain an Infant'' [Shandong chaosheng hu jiao bu qi fakuan lian dai 
ying'er ye bei ju], The Paper, reprinted in Women's Rights in China, 12 
December 14; ``Woman in Lanba Township, Shuicheng County, Guizhou 
Detained and Beaten During Forced Pregnancy Inspection'' [Guizhou 
shuicheng xian lanba zhen funu bei qiangzhi chayun zhong, bei guanya 
ouda], Radio Free Asia, 22 January 15.
    \13\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, art. 1; UN Committee against 
Torture, Consideration of Reports Submitted by State Parties Under 
Article 19 of the Convention: Concluding Observations of the Committee 
against Torture: China, Adopted at Its 41st Session (3-21 November 
2008) CAT/C/CHN/CO/4, 12 December 08, para. 29. In 2008, the Committee 
against Torture noted again with concern China's ``lack of 
investigation into the alleged use of coercive and violent measures to 
implement the population policy (A/55/44, para. 122).''
    \14\ See United Nations Treaty Collection, Chapter IV, Human 
Rights, Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, last visited 11 July 14. China 
signed the convention on December 12, 1986, and ratified it on October 
4, 1988.
    \15\ See, e.g., Sun Ying, ``Twins Already Four Years Old but Are 
Still `Illegal Residents,' Public Security Bureau: [Mother] Must Be 
Sterilized Before Hukou Can Be Registered'' [Shuangbaotai chusheng si 
nian reng shi ``heihu'' gong'anju: xiang shanghu xian jieza], China 
National Radio, 19 May 15; Tang Ru, ``Pingjiang County, Hunan Province: 
Family Planning Office Distributes Assignments, Forced Procedures 
Imposed on Women'' [Hunan pingjiang xian: jisheng fenpei renwu funu 
qiangzhi shoushu], Consumption Daily, 11 December 14.
    \16\ UN Convention on the Rights of the Child (CRC), adopted and 
opened for signature, ratification, and accession by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, signed by China 29 August 90, ratified 2 March 92, arts. 
2-4, 6, 24, 26, 28. Article 2 of the CRC calls upon States Parties to 
``respect and ensure the rights set forth . . . to each child within 
their jurisdiction without discrimination of any kind, irrespective of 
the child's or his or her parent's or legal guardian's . . . national, 
ethnic or social origin . . . birth or other status;'' and that ``State 
Parties shall respect and ensure the rights set forth in the present 
Convention to each child within their jurisdiction without 
discrimination of any kind, irrespective of the child's or his or her 
parent's or legal guardian's race, colour, sex, language, religion, 
political or other opinion, national, ethnic or social origin, 
property, disability, birth or other status.'' Article 24 sets forth 
the right of the child to access health care; Article 26 sets forth the 
right of the child to social security; and Article 28 sets forth the 
right of the child to free primary education and accessible secondary 
education and higher education.
    \17\ International Covenant on Economic, Social and Cultural 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, signed by China 27 October 
97, ratified 27 March 01, art. 10(3). Article 10(3) calls upon States 
Parties to recognize that ``Special measures of protection and 
assistance should be taken on behalf of all children and young persons 
without any discrimination for reasons of parentage or other 
conditions.''
    \18\ UN Convention on the Rights of the Child (CRC), adopted and 
opened for signature, ratification, and accession by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, signed by China 29 August 90, ratified 2 March 92. 
International Covenant on Economic, Social and Cultural Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 3 January 76, signed by China 27 October 97, ratified 27 
March 01.
    \19\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13; ``China To Ease One-Child Policy,'' 
Xinhua, 15 November 13.
    \20\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13. See also David Shambaugh, ``Breaking 
Down China's Reform Plan,'' National Interest, 2 December 13; 
Christopher K. Johnson, Center for Strategic and International Studies, 
``China Announces Sweeping Reform Agenda at Plenum,'' 15 November 13.
    \21\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13, para. 46; National Health and Family 
Planning Commission, ``National Health and Family Planning Commission 
Deputy Director Wang Pei'an Answers Reporters' Questions About 
Maintaining the Basic National Family Planning Policy and Launching the 
Implementation of Two Children for Married Couples in Which One Parent 
Is an Only Child Policy'' [Guojia weisheng jishengwei fu zhuren wang 
pei'an jiu jianchi jihua shengyu jiben guoce qidong shishi dandu erhai 
zhengce da jizhe wen], 16 November 13; Marcus Roberts, ``Why Aren't 
Chinese Couples Keen To Have More Children? '' MercatorNet, 6 February 
15; Elizabeth Economy, ``Time for Xi To Reform His Reforms,'' Forbes, 6 
February 15.
    \22\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13, para. 46. See also ``Chinese Communist 
Party Announces Revision to Population Planning Policy,'' CECC China 
Human Rights and Rule of Law Update, No. 2, 23 December 13.
    \23\ Jiang Yuanbo, ``Suggestions Regarding the Initiation of Review 
on Provincial Family Planning Regulations'' [Guanyu qidong dui ge sheng 
jihua shengyu tiaoli jinxing shencha de jianyi], Population and Future, 
15 March 15.
    \24\ Ibid.
    \25\ Tian Yuan and Zheng Songbo, ``All 31 Provinces in China Have 
Launched Two-Child Policy for Families in Which Both Parents Are Only 
Children'' [Quanguo 31 shengfen jun yi fangkai shuangdu jiating sheng 
ertai zhengce], China Radio International, reprinted in NetEase, 26 
November 11.
    \26\ Wei Gu, ``China's Coming Baby Boomlet Will Deliver a Boost,'' 
Wall Street Journal, 22 November 13; Shan Juan, ``Wait a Minute, 
Baby,'' China Daily, 17 November 13.
    \27\ Dai Lili, `` `Single Only-Child' Households Can Have a Second 
Child'' [``Dandu'' jiating fangkai sheng er tai], Beijing Evening News, 
reprinted in Beijing Daily, 16 November 13; ``Will a New `Baby Wave' 
Come With the Launch of the `Two Children for Married Couples in Which 
One Parent Is an Only Child' Policy? '' [``Dandu lianghai'' zhengce 
qidong xin yi lun ``ying'er chao'' hui lai ma?], People's Daily, 
reprinted in China News Service, 13 December 13.
    \28\ ``A Universal Two-Child [Policy], If Not Relaxed This Year 
When Will It Be? '' [Quanmian ertai, jinnian bu kaifang dai heshi?], 
China National Radio, 9 March 15; ``NHFPC Deputy Director: It Is Not 
Good To Have a Large Population, Nor Is It Good To Have Much Less'' 
[Weijiwei fu zhuren: renkou duo le bu hao ye bushi yue shao yue hao], 
China National Radio, reprinted in Boxun, 14 March 15.
    \29\ ``Relevant National Health and Family Planning Commission 
Officials Interpret Adjustment to the Family Planning Policy'' 
[Weisheng jisheng wei xiangguan fuzeren jiedu jihua shengyu tiaozheng 
zhengce], Xinhua, reprinted in PRC Central People's Government, 6 
December 13; Liu Yang, ``Two Million Additional Births Per Year After 
Implementation of `Two Children for Married Couples in Which One Parent 
Is an Only Child [Policy]' '' [``Dandu erhai'' shishi hou nian zeng 
xingsheng er yue 200 wan], Beijing Youth Daily, reprinted in Xinhua, 18 
April 14; Liang Jianzhang, ``NHFPC, Please Do Not Continue To Mislead 
Policy Making'' [Qing weiji wei buyao jixu wudao juece], Caixin, 14 
January 15; ``Scholar: Official Figure Incorrect, `Two Children for 
Married Couples in Which One Parent Is an Only Child [Policy]' Will 
Have Very Limited Impact on the Number of Births'' [Xuezhe: guanfang 
shuju bu zhun ``dandu erhai'' dui chusheng renshu yingxiang shen wei], 
Phoenix Net, 11 February 15.
    \30\ ``NHFPC Official: No Pilot Sites Planned This Year for 
Universal Two-Child Policy'' [Weijiwei guanyuan: jinnian buhui gao 
quanmian kaifang ertai quyu xing shidian], Beijing News, reprinted in 
China News Service, 4 March 15; Jeremy Koh, ``China May See New Baby 
Boom After Easing Policy,'' Channel NewsAsia, 25 February 15.
    \31\ ``NHFPC Official: No Pilot Sites Planned This Year for 
Universal Two-Child Policy'' [Weijiwei guanyuan: jinnian buhui gao 
quanmian kaifang ertai quyu xing shidian], Beijing News, reprinted in 
China News Service, 4 March 15; ``China Considering One-Child Policy 
Changes: Premier,'' Agence France-Presse, reprinted in Sudan Vision, 16 
March 15; ``Only 1/10th Chinese Couples Had 2nd Child After Policy 
Relaxed,'' Press Trust of India, reprinted in News Nation, 10 March 15.
    \32\ Li Xinling, ``Number of Applications for a `Second Child From 
Married Couples in Which One Parent Is an Only Child' Lower Than 
Expected Across the Nation'' [Gedi ``dandu erhai'' shenqing liang di yu 
yuqi], China Youth Daily, 12 January 15.
    \33\ ``China's `Two Children for Married Couples in Which One 
Parent Is an Only Child' Policy Encounters Chills'' [Zhongguo ``dandu 
ertai'' zhengce yu leng], Radio Free Asia, 29 January 15.
    \34\ Li Xinling, ``Number of Applications for a `Second Child From 
Married Couples in Which One Parent Is an Only Child' Lower Than 
Expected Across the Nation'' [Gedi ``dandu erhai'' shenqing liang di yu 
yuqi], China Youth Daily, 12 January 15.
    \35\ Tian Xiaodong, ``Last Year in Gansu Province 4,826 Couples 
Applied To Have a Second Child'' [Qunian gansu sheng 4826 dui dandu 
fufu shenqing shengyu ertai], Lanzhou Evening News, reprinted in 
People's Daily, 16 February 15.
    \36\ Liu Yang, ``Seventy Percent [of Couples] in Jilin Province 
Want `a Second Child,' 48 Percent Are Restricted [From Doing So] Due to 
[Lack of] `Parental Help' '' [Jilin sheng qicheng xiang yao ``er hai'' 
48% shouzhi yu ``fumu bangdai''], New Culture Net, 9 March 15.
    \37\ Ibid.
    \38\ ``China's `Two Children for Married Couples in Which One 
Parent Is an Only Child' Policy Encounters Chills'' [Zhongguo ``dandu 
ertai'' zhengce yu leng], Radio Free Asia, 29 January 15.
    \39\ Liu Yang, ``Seventy Percent [of Couples] in Jilin Province 
Want `A Second Child,' 48 Percent Are Restricted [From Doing So] Due to 
[Lack of] `Parental Help' '' [Jilin sheng qicheng xiang yao ``er hai'' 
48% shouzhi yu ``fumu bangdai''], New Culture Net, 9 March 15.
    \40\ Li Xinling, ``Number of Applications for a `Second Child From 
Married Couples in Which One Parent Is an Only Child' Lower Than 
Expected Across the Nation'' [Gedi ``dandu erhai'' shenqing liang di yu 
yuqi], China Youth Daily, 12 January 15.
    \41\ Liu Yang, ``Seventy Percent [of Couples] in Jilin Province 
Want `a Second Child,' 48 Percent Are Restricted [From Doing So] Due to 
[Lack of] `Parental Help' '' [Jilin sheng qicheng xiang yao ``er hai'' 
48% shouzhi yu ``fumu bangdai''], New Culture Net, 9 March 15.
    \42\ Ibid.
    \43\ Ibid.
    \44\ Frank Sieren, ``Sieren's China: Baby Boom Nowhere in Sight,'' 
Deutsche Welle, 23 January 15; ``Shanghai Couples Urged To Have More 
Children,'' China Daily, 28 January 15; Marcus Roberts, ``Why Aren't 
Chinese Couples Keen To Have More Children? '' MercatorNet, 6 February 
15; ``Fewer Couples in China Than Expected Apply for a Second Child,'' 
Want China Times, 4 March 15.
    \45\ Frank Sieren, ``Sieren's China: Baby Boom Nowhere in Sight,'' 
Deutsche Welle, 23 January 15; Han Zhang, ``Young Chinese Parents 
Hesitate on Second Child,'' The Diplomat, 24 February 15.
    \46\ Elizabeth Economy, ``Time for Xi To Reform His Reforms,'' 
Forbes, 6 February 15; Marcus Roberts, ``Why Aren't Chinese Couples 
Keen To Have More Children? '' MercatorNet, 6 February 15.
    \47\ ``Shanghai Couples Urged To Have More Children,'' China Daily, 
28 January 15; Marcus Roberts, ``Why Aren't Chinese Couples Keen To 
Have More Children? '' MercatorNet, 6 February 15.
    \48\ Marcus Roberts, ``Why Aren't Chinese Couples Keen To Have More 
Children? '' MercatorNet, 6 February 15; Elizabeth Economy, ``Time for 
Xi To Reform His Reforms,'' Forbes, 6 February 15. See also ``Shanghai 
Couples Urged To Have More Children,'' China Daily, 28 January 15.
    \49\ ``Only 1/10th Chinese Couples Had 2nd Child After Policy 
Relaxed,'' News Nation, 10 March 15; ``Provincial National People's 
Congress Delegates Wang Hai, Yang Hua: `[Universal] Two-Child Policy' 
Should Be Fully Implemented Soon'' [Sheng renda daibiao wang hai, yang 
hua: ``er tai'' jin zao quanmian fangkai], Anhui News, 28 January 15; 
Marcus Roberts, ``Why Aren't Chinese Couples Keen To Have More 
Children? '' MercatorNet, 6 February 15.
    \50\ Li Jinlei, ``CASS: China Is Nearing the Low Fertility Trap, 
Should Allow All Couples To Have Two Children'' [Shekeyuan: zhongguo 
jiejin di shengyu xianjing ying jinkuai quanmian fangkai erhai], China 
News Service, 15 December 14; Han Zhang, ``Young Chinese Parents 
Hesitate on Second Child,'' The Diplomat, 24 February 15; ``Expert: 
China Should Fully Relax Second Child Policy,'' CCTV, 6 March 15; 
Marcus Roberts, ``Why Aren't Chinese Couples Keen To Have More 
Children? '' MercatorNet, 6 February 15.
    \51\ Li Jinlei, ``CASS: China Is Nearing the Low Fertility Trap, 
Should Allow All Couples To Have Two Children'' [Shekeyuan: zhongguo 
jiejin di shengyu xianjing ying jinkuai quanmian fangkai erhai], China 
News Service, 15 December 14; ``Only 1/10th Chinese Couples Had 2nd 
Child After Policy Relaxed,'' News Nation, 10 March 15; Han Zhang, 
``Young Chinese Parents Hesitate on Second Child,'' The Diplomat, 24 
February 15; Li Wen, ``CASS: China Should Relax the Two-Child Policy as 
Soon as Possible'' [Shekeyuan: zhongguo ying jinkuai fangkuan shengyu 
liang hai zhengce], BBC, 15 December 14.
    \52\ ``China's `Two Children for Married Couples in Which One 
Parent Is an Only Child' Policy Encounters Chills'' [Zhongguo ``dandu 
ertai'' zhengce yu leng], Radio Free Asia, 29 January 15; Li Xinling, 
``Number of Applications for a `Second Child from Married Couples in 
Which One Parent Is an Only Child' Lower Than Expected Across the 
Nation'' [Gedi ``dandu erhai'' shenqing liang di yu yuqi], China Youth 
Daily, 12 January 15; Cao Siqi, ``Overhaul Family Planning Policy, Say 
Experts,'' Global Times, 22 March 15.
    \53\ Li Wen, ``CASS: China Should Relax the Two-Child Policy as 
Soon as Possible'' [Shekeyuan: zhongguo ying jinkuai fangkuan shengyu 
liang hai zhengce], BBC, 15 December 14; ``Shanghai Couples Urged To 
Have More Children,'' China Daily, 28 January 15.
    \54\ Liu Yang, ``Seventy Percent [of Couples] in Jilin Province 
Want `A Second Child,' 48 Percent Are Restricted [From Doing So] Due to 
[Lack of] `Parental Help' '' [Jilin sheng qicheng xiang yao ``er hai'' 
48% shouzhi yu ``fumu bangdai''], New Culture Net, 9 March 15.
    \55\ Han Zhang, ``Young Chinese Parents Hesitate on Second Child,'' 
The Diplomat, 24 February 15.
    \56\ Liu Yang, ``Seventy Percent [of Couples] in Jilin Province 
Want `A Second Child,' 48 Percent Are Restricted [From Doing So] Due to 
[Lack of] `Parental Help' '' [Jilin sheng qicheng xiang yao ``er hai'' 
48% shouzhi yu ``fumu bangdai''], New Culture Net, 9 March 15; 
``Scholar: Official Figure Incorrect, `Two Children for Married Couples 
in Which One Parent Is an Only Child [Policy]' Will Have Very Limited 
Impact on the Number of Births'' [Xuezhe: guanfang shuju bu zhun 
``dandu erhai'' dui chusheng renshu yingxiang shen wei], Phoenix Net, 
11 February 15; Liang Jianzhang, ``NHFPC, Please Do Not Continue To 
Mislead Policy Making'' [Qing weijiwei buyao jixu wudao juece], Caixin, 
14 January 15.
    \57\ ``NHFPC Predicts 1 Million More Births in 2015 Than in 2014'' 
[Weijiwei yuji 2015 nian chusheng renkou jiang bi 2014 nian duo 100 
wan], China News Service, 11 February 15; ``Scholar: Official Figure 
Incorrect, `Two Children for Married Couples in Which One Parent Is an 
Only Child [Policy]' Will Have Very Limited Impact on the Number of 
Births'' [Xuezhe: guanfang shuju bu zhun ``dandu erhai'' dui chusheng 
renshu yingxiang shen wei], Phoenix Net, 11 February 15.
    \58\ Liang Jianzhang, ``NHFPC, Please Do Not Continue To Mislead 
Policy Making'' [Qing weijiwei buyao jixu wudao juece], Caixin, 14 
January 15; ``Scholar: Official Figure Incorrect, `Two Children for 
Married Couples in Which One Parent Is an Only Child [Policy]' Will 
Have Very Limited Impact on the Number of Births'' [Xuezhe: guanfang 
shuju bu zhun ``dandu erhai'' dui chusheng renshu yingxiang shen wei], 
Phoenix Net, 11 February 15.
    \59\ State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], Xinhua, 16 March 15.
    \60\ Zhou Dongxu, `` `Family Planning as a Basic National Policy 
Cannot Be Shaken' Not Mentioned in Premier's Report'' [Zongli baogao 
wei ti jihua shengyu jiben guoce bu dongyao], Caixin, 5 March 15.
    \61\ ``Li Keqiang: Adjusting Population Policies According to 
Reviewed Results of `Two Children for Married Couples in Which One 
Parent Is an Only Child [Policy]' Implementation'' [Li keqiang: hui 
genju ``dandu erhai'' shishi hou de pinggu jieguo tiaozheng renkou 
zhengce], People's Daily, 15 March 15; ``China Weighing Further Birth 
Policy Changes: Premier,'' Xinhua, 15 March 15.
    \62\ Zhou Dongxu, ``Do the Premier's Remarks Mean Changes to Family 
Planning Policies? '' [Zongli biaotai shifou yiwei jisheng zhengce 
jiang bian], Caixin, 16 March 15; Maria Khan, ``China Plans Further 
Changes to One-Child Policy,'' Agence France-Presse, reprinted in 
International Business Times, 15 March 15; Margaux Schreurs, ``Further 
Relaxation of One Child Policy Expected, Pension Fund Wears Thin,'' 
Beijinger, 16 March 15; ``China Loosens Up on Hated One-Child Policy,'' 
Agence France-Presse, reprinted in Times Live, 16 March 15.
    \63\ ``China Weighing Further Birth Policy Changes: Premier,'' 
Xinhua, 15 March 15; ``China May Move To Relax One-Child Policy 
Further,'' Tribune India, 16 March 15.
    \64\ Wang Xiaodong, ``All Couples May Be Allowed To Have a Second 
Child Soon: Experts,'' China Daily, 8 May 15; Zhao Meng, ``Conversation 
With Director of Population Association of China Zhai Zhenwu, More 
Suitable To Implement a Full Universal Two-Child Policy Within the Next 
Five Years'' [Duihua renkou xuehui huizhang zhai zhenwu weilai wunian 
nei quanmian fangkai erhai bijiao heshi], The Paper, 25 March 15; Meng 
Qingwei, ``Expert Reveals: Early in `13th Five-Year [Plan]' May Be 
`Time To Open a Window' on Universal Two-Child Policy'' [Zhuanjia 
toulu: ``shisan wu'' zaoqi huo cheng lianghai zhengce quanmian fangkai 
``chuangkou qi''], China Business Journal, 23 March 15.
    \65\ See, e.g., Zhang Donghong, Xinxiang Municipality Population 
and Family Planning Commission, ``Municipal Population and Family 
Planning Leaders Guest-Host Live Radio Show To Explain Xinxiang 
Municipality's Reproductive Services Permit Reform Work'' [Shi renkou 
jishengwei lingdao zuoke zhibo jian xianchang jiedu wo shi gaige 
shengyu fuwu zheng gongzuo], 5 August 15 (Xinxiang municipality is 
located in Henan province). See also ``How To Abolish the Birth 
Permit'' [Ruhe quxiao zhunsheng zheng], Zongbao Net, 24 October 14; 
``Family Planning Services Permit'' [Jihua shengyu fuwu zheng], Mama 
Net, last visited 1 September 15. The ``birth permit'' (zhunsheng 
zheng) system was instituted in the 1980s to ``regulate and manage the 
population.'' In the 1990s, the ``birth permit'' was renamed in some 
locations as the ``reproductive health services permit'' (shengyu 
jiankang fuwu zheng) or ``family planning services permit'' (jihua 
shengyu fuwu zheng). It is also known as a ``reproductive services 
permit'' (shengyu fuwu zheng), ``family planning services manual'' 
(jihua shengyu fuwu shouce), or ``reproductive permit'' (shengyu 
zheng). While different names are used to refer to the same document, 
the original term, ``birth permit'' (zhunsheng zheng), continues to be 
used. The more restrictive ``birth permit'' system of the 1980s has 
largely been reformed and the newer birth permit serves multiple 
purposes, including: allowing a couple to legally bear a child; 
allowing couples to obtain reproductive health services and ``birth 
insurance'' during pregnancy; collecting marriage and reproduction 
information for official record keeping; and registering a child's 
hukou.
    \66\ National Health and Family Planning Commission, ``National 
Health and Family Planning Commission Guiding Opinion Regarding 
Strengthening Family Planning Grassroots Work'' [Guojia weisheng 
jishengwei guanyu jiaqiang jihua shengyu jiceng jichu gongzuo de zhidao 
yijian], issued 2 July 14, sec. 4(2).
    \67\ National Health and Family Planning Commission, ``National 
Health and Family Planning Commission Convenes Work Meeting on 
Reforming the Reproductive Services Permit System'' [Guojia weisheng 
jishengwei zhaokai gaige shengyu fuwu zheng zhidu gongzuo huiyi], 9 
January 15.
    \68\ Zhao Peng, ``Say Goodbye to Birth Permits for First Child'' 
[Sheng yihai he zhunsheng zheng shuo baibai], People's Daily, 3 June 
15; ``Birth Permit Now Easier Process,'' China Daily, 4 December 12.
    \69\ Ibid.
    \70\ See, e.g., Zhao Peng, ``Say Goodbye to Birth Permits for First 
Child'' [Sheng yihai he zhunsheng zheng shuo baibai], People's Daily, 3 
June 15; ``Beginning Next Month, by Supplying Complete Information 
Chongqing Couples Having First Child Can Obtain Birth Permit in One 
Day'' [Xia yue qi chongqing fuqi shengyu toutai ziliao qiquan ke 
dangtian ling zhunsheng zheng], Chongqing Morning Post, reprinted in 
Xinhua, 4 June 15. See also Zhang Shuhui, ``Hebei Province Implements 
First-Child Registration System'' [Hebei sheng yihai shengyu shixing 
jiu jin dengji zhidu], Hebei Daily, reprinted in Xinhua, 12 August 15.
    \71\ National Health and Family Planning Commission, ``National 
Health and Family Planning Commission Convenes Work Meeting on 
Reforming the Reproductive Service Permit System'' [Guojia weisheng 
jishengwei zhaokai gaige shengyu fuwuzheng zhidu gongzuo huiyi], 9 
January 15. See also Zhao Peng, ``Say Goodbye to Birth Permits for 
First Child'' [Sheng yihai he zhunsheng zheng shuo baibai], People's 
Daily, 3 June 15; Zhang Donghong, Xinxiang Municipality Population and 
Family Planning Commission, ``Municipal Population and Family Planning 
Leaders Guest-Host Live Radio Show To Explain Xinxiang Municipality's 
Reproductive Services Permit Reform Work'' [Shi renkou jishengwei 
lingdao zuoke zhibo jian xianchang jiedu wo shi gaige shengyu fuwu 
zheng gongzuo], 5 August 15.
    \72\ National Health and Family Planning Commission, ``July Regular 
News Briefing Material One: Relevant Population and Family Planning 
Work Situation'' [7 yue lixing fabuhui cailiao yi: renkou he jihua 
shengyu gongzuo youguan qingkuang], 10 July 15.
    \73\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39.
    \74\ For some specific examples, see Guangdong Province People's 
Congress Standing Committee, Guangdong Province Population and Family 
Planning Regulations [Guangdong sheng renkou yu jihua shengyu tiaoli], 
issued 2 February 80, amended 17 May 86, 28 November 92, 1 December 97, 
18 September 98, 21 May 99, 25 July 02, 28 November 08, 27 March 14, 
reprinted in Lawtime, 10 April 14, art. 25; Jiangxi Province People's 
Congress Standing Committee, Jiangxi Province Population and Family 
Planning Regulations [Jiangxi sheng renkou yu jihua shengyu tiaoli], 
issued 16 June 90, amended 30 June 95, 20 June 97, 29 July 02, 27 March 
09, 16 January 14, reprinted in Lawtime, 16 January 14, art. 15; Fujian 
Province People's Congress Standing Committee, Fujian Province 
Population and Family Planning Regulations [Fujian sheng renkou yu 
jihua shengyu tiaoli], issued 29 April 88, amended 28 June 91, 25 
October 97, 18 November 00, 26 July 02, 14 December 12, 29 March 14, 
reprinted in Lawtime, 9 April 14, art. 18; Sichuan Province People's 
Congress Standing Committee, Sichuan Province Population and Family 
Planning Regulations [Sichuan sheng renkou yu jinhua shengyu tiaoli], 
issued 2 July 87, amended 15 December 93, 17 October 97, 26 September 
02, 24 September 04, 20 March 14, art. 22; Anhui Province People's 
Congress Standing Committee, Anhui Province Population and Family 
Planning Regulations [Anhui sheng renkou yu jihua shengyu tiaoli], 
issued 22 January 14, reprinted in Population and Family Planning 
Commission of Anhui Province, 2 February 14, art. 27; Beijing Municipal 
Population and Family Planning Commission, ``Early Term Abortion'' 
[Zaoqi rengong liuchan], 10 April 09. The Beijing Municipal Population 
and Family Planning Commission clearly draws a link between the term 
``remedial measures'' and abortion: ``Early term abortion refers to the 
use of surgery or pharmaceuticals to terminate a pregnancy before the 
12th week of gestation; it is a remedial measure taken after the 
failure of contraception.'' See also Zhengzhou University Family 
Planning Office, ``From Family Planning to Planned Pregnancy'' [Cong 
jihua shengyu zou xiang jihua huaiyun], last visited 21 May 15.
    \75\ ``Shandong Family Unable To Pay Fines, [Authorities] Even 
Detain an Infant'' [Shandong chaosheng hu jiao bu qi fakuan lian dai 
ying'er ye bei ju], The Paper, reprinted in Women's Rights in China, 12 
December 14; ``Woman in Lanba Township, Shuicheng County, Guizhou 
Detained and Beaten During Forced Pregnancy Inspection'' [Guizhou 
shuicheng xian lanba zhen funu bei qiangzhi chayun zhong, bei guanya 
ouda], Radio Free Asia, 22 January 15.
    \76\ ``Internet Users From Across the Country Voice Complaints 
Regarding `Forced IUD Implants' '' [Gedi wangyou baoliao ``qiangzhi 
shang huan''], Chuansong Men, 30 April 15; Tang Ru, ``Pingjiang County, 
Hunan Province: Family Planning Office Distributes Assignments, Forced 
Procedures Imposed on Women'' [Hunan pingjiang xian: jisheng fenpei 
renwu funu qiangzhi shoushu], Consumption Daily, 11 December 14; ``Does 
Guizhou Province Require Forced IUD Implant After Giving Birth to First 
Child? '' [Guizhou sheng yi [tai] yao qiangzhixing shang huan ma], 
Message Board for Local Leaders, People's Daily, 28 January 15. See 
also Tan Fangzhi, Baiyangxi Township People's Government, ``Baiyangxi 
Township `Fights Hard' To Carry Out Targeted Family Planning Service 
Activities'' [Baiyangxi xiang kaizhan jizhong jisheng fuwu huodong 
yeshi ``man pin de''], 5 March 15.
    \77\ Sun Ying, ``Twins Already Four Years Old but Are Still 
`Illegal Residents,' Public Security Bureau: [Mother] Must Be 
Sterilized Before Hukou Can Be Registered'' [Shuangbaotai chusheng si 
nian reng shi ``heihu'' gong'anju: xiang shanghu xian jieza], China 
National Radio, 19 May 15; Tang Ru, ``Pingjiang County, Hunan Province: 
Family Planning Office Distributes Assignments, Forced Procedures 
Imposed on Women'' [Hunan pingjiang xian: jisheng fenpei renwu funu 
qiangzhi shoushu], Consumption Daily, 11 December 14; ``Family Planning 
Office of Sizhang Township, Sishui County, Jining Municipality 
Illegally Implements Forced Sterilization'' [Jining shi sishui xian 
sizhang zhen jisheng ban weigui qiangzhi jieza], Qilu Net, 6 May 15; 
Tan Fangzhi, Baiyangxi Township People's Government, ``Baiyangxi 
Township `Fights Hard' To Carry Out Targeted Family Planning Service 
Activities'' [Baiyangxi xiang kaizhan jizhong jisheng fuwu huodong 
yeshi ``man pin de''], 5 March 15.
    \78\ CECC, 2014 Annual Report, 9 October 14, 104; CECC, 2013 Annual 
Report, 10 October 13, 100; CECC, 2012 Annual Report, 10 October 12, 
91; CECC, 2011 Annual Report, 10 October 11, 111; CECC, 2010 Annual 
Report, 10 October 10, 118.
    \79\ ``Anfengtang Township, Shou County, Holds Family Planning 
Promotion Meeting'' [Shou xian anfengtang zhen zhaokai jihua shengyu 
tuijin hui], Liu'an News Net, reprinted in NetEase, 4 March 15.
    \80\ Langqi Township People's Government, Circular Regarding the 
Launch of 2015 Langqi Township Family Planning Work [Guanyu kaizhan 
2015 nian langqi zhen jihua shengyu gongzuo de tongzhi], issued 4 
December 14.
    \81\ Hu Xiaoyun, Lujiawan Township, ``Lujiawan Township Convenes 
2015 Township Special Family Planning Work Meeting'' [Lujiawan xiang 
zhaokai 2015 nian quan xiang renkou jisheng gongzuo zhuanti huiyi], 16 
March 15.
    \82\ Nanjiangkou Township Party Committee and Government Office, 
``Nanjiangkou Township Holds Health and Family Planning Work Meeting'' 
[Nanjiangkou zhen zhaokai weisheng yu jihua shengyu gongzuo huiyi], 13 
March 15; Liuhuang Township, ``Liuhuang Township Convenes Spring 2015 
Targeted Services Mobilization Meeting for Family Planning'' [Liuhuang 
zhen zhaokai 2015 nian chunji jihua shengyu jizhong fuwu huodong 
dongyuan da hui], 25 March 15.
    \83\ Zhang Jianping, Jinlong Township Family Planning Office, 
``Jinlong Township `Five Early [Campaign]' To Push the Launch of 2015 
Family Planning Work'' [Jinlong xiang ``wu zao'' zhu tui 2015 niandu ji 
shengyu gongzuo de kaizhan], 10 December 14; Yonghe Township People's 
Government, ``Yonghe Township Earnestly Plans 2015 Population and 
Family Planning Work'' [Yonghe zhen renzhen mouhua 2015 nian renkou 
jisheng gongzuo], 26 January 15.
    \84\ Nangong City Population and Family Planning Commission, 
``Nangong City Holds Family Planning Work Meeting Involving Three 
Levels of Cadres'' [Nangong shi zhaokai jihua shengyu gongzuo sanji 
ganbu da hui], 29 January 15; Niu Bai, Ningjin County Population and 
Family Planning Commission, ``Ningjin County Convenes Population and 
Family Planning Work Meeting'' [Ningjin xian zhaokai renkou he jihua 
shengyu gongzuo huiyi], 25 March 15.
    \85\ Chaoyang Township People's Government, ``Chaoyang Township 
Plans Spring Family Planning Work'' [Chaoyang zhen bushu chunji jihua 
shengyu gongzuo], 13 March 15; Song Mengjia, Mengjin County Party 
Committee, ``Baihe Township Holds Targeted Spring Family Planning 
Mobilization Activities'' [Baihe zhen juxing chunji jihua shengyu 
jizhong huodong dongyuan hui], China Mengjin Net, 10 March 15.
    \86\ Wang Deyou, Huangzhou District Health and Family Planning 
Commission, ``Family Planning Work in Chencelou Township Walks on the 
Path of a New Normal'' [Chencelou zhen jihua shengyu gongzuo bu ru xin 
changtai], 8 March 15; Tuanfeng County People's Government, ``2015 
County Family Planning Work Meeting Convenes'' [2015 nian quan xian 
jihua shengyu gongzuo huiyi zhaokai], 6 March 15; Zhou Wenhong, 
Huangmei County Health and Family Planning Commission, ``Huangmei 
County Family Planning Work Meeting Convenes'' [Huangmei xian jihua 
shengyu gongzuo huiyi zhaokai], 9 January 15.
    \87\ Tan Fangzhi, Baiyangxi Township People's Government, 
``Baiyangxi Township `Fights Hard' To Carry Out Targeted Family 
Planning Service Activities'' [Baiyangxi xiang kaizhan jizhong jisheng 
fuwu huodong yeshi ``man pin de''], 5 March 15; Hengyang Municipality 
Population and Family Planning Commission, ``Changning City: City 
Leaders Inspect Spring Birth Control Activities'' [Changning shi: shi 
lingdao ducha chunji jieyu huodong], 27 February 15; Hu Caixia, 
``Zimenqiao Township Plans Strict Spring Family Planning Work'' 
[Zimenqiao zhen yanmi bushu chunji jihua shengyu gongzuo], Shuang Feng 
Net, 9 March 15.
    \88\ Quxia Township, ``Quxia Township `Four Insists' To Continue To 
Elevate Family Planning Service Standard'' [Quxia zhen ``si ge 
jianchi'' buduan tigao jisheng fuwu shuiping], 26 December 14.
    \89\ ``Xiangdong Township Family Planning Service `Three Reaches' 
'' [Xiangdong zhen jisheng fuwu ``san daojia''], Pingxiang News, 25 
March 15.
    \90\ Ningjin County Fee Collection Administration, ``Spare No 
Efforts To Start an Upsurge for Family Planning Service Activities'' 
[Quanli yifu xianqi jisheng fuwu huodong gaochao], 25 March 15.
    \91\ Langzhong City Family Planning Commission, ``Hongshan Township 
Solidly Pushes Honest Family Planning Activities and Achieves Concrete 
Results'' [Hongshan zhen zhashi kaizhan chengxin jisheng huodong qude 
shi xiao], 16 March 15.
    \92\ Liuhuang Township, ``Liuhuang Township Convenes Spring 2015 
Targeted Services Mobilization Meeting for Family Planning'' [Liuhuang 
zhen zhaokai 2015 nian chunji jihua shengyu jizhong fuwu huodong 
dongyuan da hui], reprinted in Fengshun County People's Government, 25 
March 15.
    \93\ Chaoyang Township People's Government, ``Chaoyang Township 
Plans Spring Family Planning Work'' [Chaoyang zhen bushu chunji jihua 
shengyu gongzuo], 13 March 15.
    \94\ Zhou Wenhong, Huangmei County Health and Family Planning 
Commission, ``Huangmei County Family Planning Work Meeting Convenes'' 
[Huangmei xian jihua shengyu gongzuo huiyi zhaokai], 9 January 15; 
``Xiangdong Township Family Planning Service `Three Reaches' '' 
[Xiangdong zhen jisheng fuwu ``san daojia''], Pingxiang News, 25 March 
15; Ningjin County Fee Collection Administration, ``Spare No Efforts To 
Start an Upsurge for Family Planning Service Activities'' [Quanli yifu 
xianqi jisheng fuwu huodong gaochao], 25 March 15.
    \95\ Ningjin County Fee Collection Administration, ``Spare No 
Efforts To Start an Upsurge for Family Planning Service Activities'' 
[Quanli yifu xianqi jisheng fuwu huodong gaochao], 25 March 15.
    \96\ Quxia Township, ``Quxia Township `Four Insists' To Continue To 
Elevate Family Planning Service Standard'' [Quxia zhen ``sige jianchi'' 
buduan tigao jisheng fuwu shuiping], reprinted in Taixing City Family 
Planning Commission, 26 December 14; Niu Bai, Ningjin County Population 
and Family Planning Commission, ``Ningjin County Convenes Population 
and Family Planning Work Meeting'' [Ningjin xian zhaokai renkou he 
jihua shengyu gongzuo huiyi], 25 March 15.
    \97\ Hu Caixia, ``Zimenqiao Township Strictly Plans Spring Family 
Planning Work'' [Zimenqiao zhen yanmi bushu chunji jihua shengyu 
gongzuo], Shuang Feng Net, 9 March 15; Yonghe Township People's 
Government, ``Yonghe Township Earnestly Plans 2015 Population and 
Family Planning Work'' [Yonghe zhen renzhen mouhua 2015 nian renkou 
jisheng gongzuo], 26 January 15.
    \98\ Ma Jianwen, ``Investigation Into the `Three Inspections' of 
Rural Family Planning'' [Nongcun jihua shengyu zhong de ``san cha'' 
qingkuang diaocha], Women's Rights in China, reprinted in Boxun, 15 
April 09; Yonghe Township People's Government, ``Yonghe Township 
Earnestly Plans 2015 Population and Family Planning Work'' [Yonghe zhen 
renzhen mouhua 2015 nian renkou jisheng gongzuo], 26 January 15; Hu 
Caixia, ``Zimenqiao Township Strictly Plans Spring Family Planning 
Work'' [Zimenqiao zhen yanmi bushu chunji jihua shengyu gongzuo], 
Shuang Feng Net, 9 March 15.
    \99\ ``Chinese People Suffer From Family Planning [Policy's] Forced 
Sterilizations and Abortions'' [Jihua shengyu qiangzhi jieza renliu hai 
ku le zhongguo ren], Tencent, 15 June 12; Yonghe Township People's 
Government, ``Yonghe Township Earnestly Plans 2015 Population and 
Family Planning Work'' [Yonghe zhen renzhen mouhua 2015 nian renkou 
jisheng gongzuo], 26 January 15; Hu Caixia, ``Zimenqiao Township 
Strictly Plans Spring Family Planning Work'' [Zimenqiao zhen yanmi 
bushu chunji jihua shengyu gongzuo], Shuang Feng Net, 9 March 15.
    \100\ Nangong City Population and Family Planning Commission, 
``Nangong City Holds Family Planning Work Meeting Involving Three 
Levels of Cadres'' [Nangong shi zhaokai jihua shengyu gongzuo sanji 
ganbu da hui], 29 January 15; Ningjin County Fee Collection 
Administration, ``Spare No Efforts To Start an Upsurge for Family 
Planning Service Activities'' [Quanli yifu xianqi jisheng fuwu huodong 
gaochao], 25 March 15. ``Social compensation fees'' are also known as 
``social maintenance fees.''
    \101\ Tan Fangzhi, Baiyangxi Township People's Government, 
``Baiyangxi Township `Fights Hard' To Carry Out Targeted Family 
Planning Service Activities'' [Baiyangxi xiang kaizhan jizhong jisheng 
fuwu huodong yeshi ``man pin de''], 5 March 15.
    \102\ Ibid.
    \103\ ``Two Provinces' Two-Child Policies for Remarried Couples 
Come Into Conflict, Pregnant Teacher With Anhui Birth Permit Is Ordered 
To Get Abortion in Guizhou'' [Liang sheng zaihun erhai zhengce chongtu, 
huaiyun jiaoshi you anhui zhunsheng zheng bei guizhou zeling yincan], 
The Paper, 18 May 15.
    \104\ Ibid.
    \105\ Li Chunhui, ``Guizhou Province Responds to the Case of a 
Five-Months-Pregnant School Teacher With Birth Permit Still Being 
Ordered To Have an Abortion'' [Guizhou huiying huaiyun 5 yue nu jiaoshi 
chi zhunsheng zheng reng bei zeling yinchan], Xinhua, reprinted in 
CCTV, 20 May 15; ``Pregnant Female Teacher Has Birth Permit From Anhui 
Province, Guizhou Province Demands Abortion, Then Recants'' [Huaiyun nu 
jiaoshi chi anhui zhunsheng zheng guizhou yaoqiu yinchan you gaikou], 
Shanghai Morning Post, reprinted in Southern Metropolitan Daily, 20 May 
15.
    \106\ ``Pregnant Female Teacher Has Birth Permit From Anhui 
Province, Guizhou Province Demands Abortion, Then Recants'' [Huaiyun nu 
jiaoshi chi anhui zhunsheng zheng guizhou yaoqiu yinchan you gaikou], 
Shanghai Morning Post, reprinted in Southern Metropolitan Daily, 20 May 
15; Anhui Province People's Congress Standing Committee, Anhui Province 
Population and Family Planning Regulations [Anhui sheng renkou yu jihua 
shengyu tiaoli], issued 28 July 02, amended 26 June 04, 24 February 11, 
22 January 14, art. 20(4).
    \107\ Li Chunhui, ``Guizhou Province Responds to the Case of a 
Five-Months-Pregnant School Teacher With Birth Permit Still Being 
Ordered To Have an Abortion'' [Guizhou huiying huaiyun 5 yue nu jiaoshi 
chi zhunsheng zheng reng bei zeling yinchan], Xinhua, reprinted in 
CCTV, 20 May 15; ``Pregnant Female Teacher Has Birth Permit From Anhui 
Province, Guizhou Province Demands Abortion, Then Recants'' [Huaiyun nu 
jiaoshi chi anhui zhunsheng zheng guizhou yaoqiu yinchan you gaikou], 
Shanghai Morning Post, reprinted in Southern Metropolitan Daily, 20 May 
15.
    \108\ ``Pregnant Female Teacher Has Birth Permit From Anhui 
Province, Guizhou Province Demands Abortion, Then Recants'' [Huaiyun nu 
jiaoshi chi anhui zhunsheng zheng guizhou yaoqiu yinchan you gaikou], 
Shanghai Morning Post, reprinted in Southern Metropolitan Daily, 20 May 
15; Guizhou Province People's Congress Standing Committee, Guizhou 
Province Population and Family Planning Regulations [Guizhou sheng 
renkou yu jihua shengyu tiaoli], issued 24 July 98, effective 27 July 
98, amended 29 September 02, 25 September 09, 17 May 14, art. 34(4).
    \109\ ``Pregnant Female Teacher Has Birth Permit From Anhui 
Province, Guizhou Province Demands Abortion, Then Recants'' [Huaiyun nu 
jiaoshi chi anhui zhunsheng zheng guizhou yaoqiu yinchan you gaikou], 
Shanghai Morning Post, reprinted in Southern Metropolitan Daily, 20 May 
15; ``Guizhou Province Health and Family Planning Commission: Notice 
Used To Order Pregnant Teacher To Terminate Pregnancy Invalid'' 
[Guizhou sheng weijiwei: zeling huaiyun jiaoshi zhongzhi renshen de 
tongzhi wuxiao], Radio Free Asia, 19 May 15.
    \110\ Sun Ying, ``Twins Already Four Years Old but Are Still 
`Illegal Residents,' Public Security Bureau: [Mother] Must Be 
Sterilized Before Hukou Can Be Registered'' [Shuangbaotai chusheng si 
nian reng shi ``heihu'' gong'anju: xiang shanghu xian jieza], China 
National Radio, 19 May 15.
    \111\ Ibid.
    \112\ Ibid.
    \113\ Ibid.
    \114\ Tang Ru, ``Pingjiang County, Hunan Province: Family Planning 
Office Distributes Assignments, Forced Procedures Imposed on Women'' 
[Hunan pingjiang xian: jisheng fenpei renwu funu qiangzhi shoushu], 
Consumption Daily, 11 December 14.
    \115\ Ibid.
    \116\ PRC Measures for Administration of Collection of Social 
Maintenance Fees [Shehui fuyang fei zhengshou guanli banfa], issued 2 
August 02, effective 1 September 02, arts. 3, 7.
    \117\ All Girls Allowed, ``One-Child Policy Fines Relative to 
Income Levels in China,'' 1 November 12. See, e.g., Shaanxi Provincial 
Implementing Measures for Collection and Management of Social 
Maintenance Fees [Shanxi sheng shehui fuyang fei zhengshou guanli 
shishi banfa], issued 8 June 04, effective 1 August 04, art. 5(1). In 
Shaanxi province, individuals in violation of local population planning 
regulations can each be fined three to six times the amount of the 
average income of a resident in their locality, sometimes more, based 
on their income compared to the average income of local residents the 
previous year.
    \118\ See, e.g., Shaanxi Provincial Implementing Measures for 
Collection and Management of Social Maintenance Fees [Shanxi sheng 
shehui fuyang fei zhengshou guanli shishi banfa], issued 8 June 04, 
effective 1 August 04, art. 5(1). In Shaanxi province, married couples 
who violate local population planning regulations can each be fined 
three to six times the amount of the average income of a resident in 
their locality, sometimes more, based on their income compared to the 
average income of local residents the previous year. For a recent 
example in Lanba township, Shuicheng county, Guizhou province, see 
``Woman in Lanba Township, Shuicheng County, Guizhou, Detained and 
Beaten During Forced Pregnancy Inspection'' [Guizhou shuicheng xian 
lanba zhen funu bei qiangzhi chayun zhong, bei guanya ouda], Radio Free 
Asia, 22 January 15; ``Shandong Family Unable To Pay Fines, 
[Authorities] Even Detain an Infant'' [Shandong chaosheng hu jiao bu qi 
fakuan lian dai ying'er ye bei ju], The Paper, reprinted in Women's 
Rights in China, 12 December 14.
    \119\ ``Shandong Family Unable To Pay Fines, [Authorities] Even 
Detain an Infant'' [Shandong chaosheng hu jiao buqi fakuan lian dai 
ying'er ye bei ju], The Paper, reprinted in Women's Rights in China, 12 
December 14.
    \120\ Ibid. An ``out-of-plan'' child refers to a child born to 
parents who failed to obtain a birth permit prior to the birth of the 
child. An ``out-of-plan'' birth can include, but is not limited to, 
three scenarios: parents fail to obtain a marriage certificate prior to 
giving birth; parents are eligible to have a child but failed to obtain 
a birth permit; or parents give birth in excess of government-imposed 
limits. Children born in violation of relevant family planning 
regulations are considered ``out-of-plan.'' See Family Planning Office 
of the Ocean University of China, ``Must-Know Family Planning Knowledge 
Questions and Answers'' [Jisheng ying zhi ying hui zhishi wenda], 27 
November 07, item 18; ``Provincial Public Security Bureau, Family 
Planning Commission: Family Planning Certificate or Proof of 
Sterilization Are No Longer Required for Households To Register Out-of-
Plan Births'' [Sheng gong'anju, sheng weijiwei xiawen: zhengce wai 
shengyu ru hu buzai chayan jisheng zhengming huo jieza zhengming], 
Aiweibang, 1 July 15.
    \121\ ``Shandong Family Unable To Pay Fines, [Authorities] Even 
Detain an Infant'' [Shandong chaosheng hu jiao bu qi fakuan lian dai 
ying'er ye bei ju], The Paper, reprinted in Women's Rights in China, 12 
December 14.
    \122\ ``Regulations on the Collection and Management of Social 
Compensation Fees, Soliciting Comments and Proposing Unified Collection 
Standards'' [Shehui fuyang fei zhengshou guanli tiaoli zhengqiu yijian 
ni tongyi zhengshou biaozhun], People's Daily, 20 November 14.
    \123\ Ibid., art. 6; Zhang Ran, ``Fines for Second Child Not To 
Exceed Three Times the Per Capita Income of One's Hukou Locale'' 
[Chaosheng ertai fakuan bu gao yu huji di sanbei renjun shouru], 
Jinghua Net, 21 November 14; Wen Ru, ``Social Compensation Fees 
Expected To Lower in Beijing'' [Beijing shehui fuyang fei you wang 
jiangdi], Beijing News, 22 November 14.
    \124\ ``Regulations on the Collection and Management of Social 
Compensation Fees, Soliciting Comments and Proposing Unified Collection 
Standards'' [Shehui fuyang fei zhengshou guanli tiaoli zhengqiu yijian 
ni tongyi zhengshou biaozhun], People's Daily, 20 November 14, art. 3; 
Zhang Ran, ``Fines for Second Child Not To Exceed Three Times the Per 
Capita Income of One's Hukou Locale'' [Chaosheng ertai fakuan bu gao yu 
huji di sanbei renjun shouru], Jinghua Net, 21 November 14; ``Why Have 
Social Compensation Fees' Whereabouts Become A Mystery'' [Shehui fuyang 
fei, weihe quxiang cheng mi], China United Television, 10 December 14.
    \125\ ``Regulations on the Collection and Management of Social 
Compensation Fees, Soliciting Comments and Proposing Unified Collection 
Standards'' [Shehui fuyang fei zhengshou guanli tiaoli zhengqiu yijian 
ni tongyi zhengshou biaozhun], People's Daily, 20 November 14, art. 8; 
Zhang Ran, ``Fines for Second Child Not To Exceed Three Times the Per 
Capita Income of One's Hukou Locale'' [Chaosheng ertai fakuan bu gao yu 
huji di sanbei renjun shouru], Jinghua Net, 21 November 14.
    \126\ Jiang Jie, ``NPC Members Call for End to `Social Maintenance 
Fees,' '' Global Times, 29 November 14; ``Over Ten Thousand People Sent 
Joint Letter to the National People's Congress and State Council 
Calling for the Cancellation of Social Compensation Fees'' [Wan ren 
lianshu zhixin renda guowuyuan huyu quxiao shehui fuyang fei], Radio 
Free Asia, 8 December 14.
    \127\ Zhao Meng, ``Public Comments Solicitation for the Regulations 
on the Collection of Social Compensation Fees Closes, 14 Lawyers Sent 
Letter to State Council Calling for Abolishment'' [Shehui fuyang fei 
zhengshou tiaoli zhengqiu yijian jiezhi, 14 lushi zhi xin guowuyuan yu 
quxiao], The Paper, 21 December 14; Jiang Jie, ``NPC Members Call for 
End to `Social Maintenance Fees,' '' Global Times, 29 November 14; 
``Over Ten Thousand People Sent Joint Letter to the National People's 
Congress and State Council Calling for the Cancellation of Social 
Compensation Fees'' [Wan ren lianshu zhixin renda guowuyuan huyu quxiao 
shehui fuyang fei], Radio Free Asia, 8 December 14; ``50 Law Professors 
Sign Joint Proposal: Abolish Social Compensation Fees'' [50 ming faxue 
jiaoshou lianming jianyi: quxiao shehui fuyang fei], Tencent, 22 March 
15.
    \128\ ``NHFPC Said, Social Compensation Fees Will Not Be 
Abolished'' [Weijiwei shuo le, shehui fuyang fei bu quxiao], Anhui 
News, 3 December 14; ``Over Ten Thousand People Sent Joint Letter to 
the National People's Congress and State Council Calling for the 
Cancellation of Social Compensation Fees'' [Wan ren lianshu zhixin 
renda guowuyuan huyu quxiao shehui fuyang fei], Radio Free Asia, 8 
December 14; Shan Juan, ``Family Size Violation Fees To Stay,'' China 
Daily, 3 December 14.
    \129\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at Its 59th Session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
38.
    \130\ Cao Siqi, ``Remarried Couples Still Face Baby Restrictions,'' 
Global Times, 30 March 15.
    \131\ Ibid.; Guangxi Zhuang Autonomous Region People's Congress 
Standing Committee, Guangxi Zhuang Autonomous Region Population and 
Family Planning Regulations [Guangxi zhuangzu zizhiqu renkou yu jihua 
shengyu tiaoli (2014 nian 1 yue xiuzheng)], issued 23 March 12, amended 
13 January 14, art. 14(5).
    \132\ Cao Siqi, ``Remarried Couples Still Face Baby Restrictions,'' 
Global Times, 30 March 15; Zhao Meng, ``In Line With National 
Guidelines but Not Local Regulations, A Special Remarried Family in 
Guangxi Encounters Awkwardness With Giving Birth'' [Fuhe guojia wenjian 
bu fuhe difang tiaoli, guangxi teshu zaihun jiating zaoyu shengyu 
gan'ga], The Paper, 29 March 15.
    \133\ Cao Siqi, ``Remarried Couples Still Face Baby Restrictions,'' 
Global Times, 30 March 15; Guangxi Zhuang Autonomous Region People's 
Congress Standing Committee, Guangxi Zhuang Autonomous Region 
Population and Family Planning Regulations [Guangxi zhuangzu zizhiqu 
renkou yu jihua shengyu tiaoli (2014 nian 1 yue xiuzheng)], issued 23 
March 12, amended 13 January 14, art. 14(5).
    \134\ Cao Siqi, ``Remarried Couples Still Face Baby Restrictions,'' 
Global Times, 30 March 15.
    \135\ See, e.g., Dong Zhenjie, ``Child Born Ten Years Ago but Still 
Unable To Register Hukou, Father Sues Shenzhen Public Security Bureau'' 
[Haizi chusheng shi nian wufa ban hukou fuqin gao shenzhen gong'anju], 
Legal Evening Report, 8 January 15; Han Ximin, ``Girl Denied SZ Hukou 
Appeals Court Ruling,'' Shenzhen Daily, 25 June 15.
    \136\ Han Xiao, ``Unmarried Father Left, Son and Daughter Have 
Difficulty Registering Hukou and Will Face Problems at School Age'' 
[Weihun baba pao le nan luohu yi shuang ernu dao shangxue nianling 
cheng nanti], Qilu Evening News, reprinted in China Tibet Online, 13 
March 15; Wang Na, ``Lintong Court: Difficult for Children Born to 
Unmarried Parents To Obtain Hukou, Mediation Documents Solve the 
Problem'' [Lintong fayuan: feihun zinu nan luohu tiaojie wenshu jie qi 
nan], China Court Network, 27 March 15.
    \137\ Wan Haiyuan, ``China's `Illegal Residents' Survey'' [Zhongguo 
``heihu'' qunti diaocha], South Reviews, 27 February 15.
    \138\ Ibid.; Nathan VanderKlippe, ``The Ghost Children: In the Wake 
of China's One-Child Policy, A Generation Is Lost,'' Globe and Mail, 15 
March 15; Stephanie Gordon, ``China's Hidden Children,'' The Diplomat, 
12 March 15; Han Xiao, ``Unmarried Father Left, Son and Daughter Have 
Difficulty Registering Hukou and Will Face Problems at School Age'' 
[Weihun baba pao le nan luohu yi shuang ernu dao shangxue nianling 
cheng nanti], Qilu Evening News, reprinted in China Tibet Online, 13 
March 15.
    \139\ Wan Haiyuan, ``China's `Illegal Residents' Survey'' [Zhongguo 
``heihu'' qunti diaocha], South Reviews, 27 February 15.
    \140\ National Health and Family Planning Commission, ``Hubei 
Province Issues Regulations To Strengthen the Management of Birth 
Registration'' [Hubei sheng chutai guiding jiaqiang chusheng renkou 
dengji guanli], 23 March 15; Wu Changhua, ``Hubei Issues Newborn 
Children Hukou Registration Provisions, Children Born to Unmarried 
Parents and Parents Who Exceed Birth Quotas Can Register Hukou 
Normally'' [Hubei chutai xinsheng'er hukou dengji guiding feihun sheng 
ji chaosheng ying'er ke zhengchang shang hukou], Jingchu Net, 3 March 
15.
    \141\ UN Committee on the Rights of the Child, Concluding 
Observations on the Combined Third and Fourth Periodic Reports of 
China, Adopted by the Committee at Its Sixty-Fourth Session (16 
September-4 October 2013), CRC/C/CHN/CO/3-4, 29 October 13, paras. 39, 
40(a-b).
    \142\ Wang Zhenghua, `` `Secret' Children Could Cost State Workers 
Their Jobs,'' China Daily, 26 March 15; ``Two Provinces' Two-Child 
Policies for Remarried Couples Come Into Conflict, Pregnant Teacher 
With Anhui Birth Permit Is Ordered To Get Abortion in Guizhou'' [Liang 
sheng zaihun erhai zhengce chongtu, huaiyun jiaoshi you anhui zhunsheng 
zheng bei guizhou zeling yincan], The Paper, 18 May 15.
    \143\ For reports of officials depriving citizens of their personal 
liberty with no legal basis in order to forcibly implement population 
planning policies, see, e.g., ``Woman in Lanba Township, Shuicheng 
County, Guizhou, Detained and Beaten During Forced Pregnancy 
Inspection'' [Guizhou shuicheng xian lanba zhen funu bei qiangzhi 
chayun zhong, bei guanya ouda], Radio Free Asia, 22 January 15; 
``Shandong Family Unable To Pay Fines, [Authorities] Even Detain an 
Infant'' [Shandong chaosheng hu jiao bu qi fakuan lian dai ying'er ye 
bei ju], The Paper, reprinted in Women's Rights in China, 12 December 
14.
    \144\ ``Two Provinces' Two-Child Policies for Remarried Couples 
Come Into Conflict, Pregnant Teacher With Anhui Birth Permit Is Ordered 
To Get Abortion in Guizhou'' [Liang sheng zaihun erhai zhengce chongtu, 
huaiyun jiaoshi you anhui zhunsheng zheng bei guizhou zeling yincan], 
The Paper, 18 May 15. See also Liu Xin, ``Shandong County Denies 
`Abortion Quotas,' '' Global Times, 26 May 15; Tan Fangzhi, Baiyangxi 
Township People's Government, ``Baiyangxi Township `Fights Hard' To 
Carry Out Targeted Family Planning Service Activities'' [Baiyangxi 
xiang kaizhan jizhong jisheng fuwu huodong yeshi ``man pin de''], 5 
March 15.
    \145\ Sun Ying, ``Twins Already Four Years Old but Are Still 
`Illegal Residents,' Public Security Bureau: [Mother] Must Be 
Sterilized Before Hukou Can Be Registered'' [Shuangbaotai chusheng si 
nian reng shi ``heihu'' gong'anju: xiang shanghu xian jieza], China 
National Radio, 19 May 15. See also Tang Ru, ``Pingjiang County, Hunan 
Province: Family Planning Office Distributes Assignments, Forced 
Procedures Imposed on Women'' [Hunan pingjiang xian: jisheng fenpei 
renwu funu qiangzhi shoushu], Consumption Daily, 11 December 14; 
``Family Planning Office of Sizhang Township, Sishui County, Jining 
Municipality, Illegally Implements Forced Sterilization'' [Jining shi 
sishui xian sizhang zhen jisheng ban weigui qiangzhi jieza], Qilu Net, 
6 May 15; Tan Fangzhi, Baiyangxi Township People's Government, 
``Baiyangxi Township `Fights Hard' To Carry Out Targeted Family 
Planning Service Activities'' [Baiyangxi xiang kaizhan jizhong jisheng 
fuwu huodong yeshi ``man pin de''], 5 March 15.
    \146\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39. Article 4 of the PRC Population and Family 
Planning Law (PFPL) states that officials ``shall perform their 
administrative duties strictly in accordance with the law, and enforce 
the law in a civil manner, and they may not infringe upon the 
legitimate rights and interests of citizens.'' Article 39 states that 
an official is subject to criminal or administrative punishment if he 
``infring[es] on a citizen's personal rights, property rights, or other 
legitimate rights and interests'' or ``abus[es] his power, neglect[s] 
his duty, or engag[es] in malpractices for personal gain'' in the 
implementation of population planning policies.
    \147\ ``Another One on the Way,'' China Daily, reprinted in The 
Star, 3 May 15.
    \148\ Nicola Davison, ``China Struggles To Loosen One-Child Policy 
as Couples Urged To Apply for Second Child,'' Telegraph, 28 January 15; 
Winston Mok, ``China's Rise Jeopardised by Declining Workforce,'' South 
China Morning Post, 23 March 15; ``Experts Call for Accelerated Removal 
of China's 2nd Child Policy,'' CCTV America, 27 February 15; Mu 
Guangzong, ``Two-Child Policy Fundamental to Population Security,'' 
China Daily, 5 March 15; Liu Zhongliang, ``Ultra-Low Fertility Rate 
Will Cause China To Become the World's Largest `Industrial Wasteland' 
'' [Chao di shengyu lu jiang shi zhongguo bian cheng quanqiu zui da 
``gongye feixu''], Caogen, 7 March 15.
    \149\ Nicola Davison, ``China Struggles To Loosen One-Child Policy 
as Couples Urged To Apply for Second Child,'' Telegraph, 28 January 15; 
``Another One on the Way,'' China Daily, reprinted in The Star, 3 May 
15.
    \150\ Winston Mok, ``China's Rise Jeopardised by Declining 
Workforce,'' South China Morning Post, 23 March 15; Nicola Davison, 
``China Struggles To Loosen One-Child Policy as Couples Urged To Apply 
for Second Child,'' Telegraph, 28 January 15.
    \151\ Matt Joass, ``7 Big China Myths Busted,'' Motley Fool, 16 
February 15; ``China's One-Child Policy Backfires as Labor Pool Shrinks 
Again,'' Bloomberg, 20 January 15.
    \152\ National Bureau of Statistics of China, ``China's Economy 
Realized a New Normal of Stable Growth in 2014,'' 20 January 15; 
``China's Workforce Shrinks by Nearly 4 Million Amid Greying 
Population,'' South China Morning Post, 21 January 15; ``China Workers 
Decline as Demographic Time Bomb Ticks,'' Agence France-Presse, 
reprinted in Daily Mail, 20 January 15.
    \153\ Matt Joass, ``7 Big China Myths Busted,'' Motley Fool, 16 
February 15; John Knight et al., East Asia Forum, ``China's Declining 
Working-Age Population,'' 19 April 13.
    \154\ National Bureau of Statistics of China, ``China's Economy 
Realized a New Normal of Stable Growth in 2014,'' 20 January 15; 
``China's Workforce Shrinks by Nearly 4 Million Amid Greying 
Population,'' South China Morning Post, 21 January 15; ``China Workers 
Decline as Demographic Time Bomb Ticks,'' Agence France-Presse, 
reprinted in Daily Mail, 20 January 15.
    \155\ ``China Media: Ageing Concerns,'' BBC, 13 January 15; Simon 
Denyer, `` `One Is Enough': Chinese Families Lukewarm Over Easing of 
One-Child Policy,'' Washington Post, 25 January 15; ``Another One On 
the Way,'' China Daily, reprinted in The Star, 3 May 15.
    \156\ Jeremy Koh, ``China May See New Baby Boom After Easing 
Policy,'' Channel NewsAsia, 25 February 15; Wang Xiaodong, ``All 
Couples May Be Allowed To Have a Second Child Soon: Experts,'' China 
Daily, 8 May 15.
    \157\ Emily Tsang, ``Ageing China Braces for Onslaught of Dementia 
With 30M Cases Predicted by 2050,'' South China Morning Post, 26 
January 15; Simon Denyer, `` `One Is Enough': Chinese Families Lukewarm 
Over Easing of One-Child Policy,'' Washington Post, 25 January 15; 
David McKenzie, ``For China, Three Decades of One-Child Policy Proves 
Hard To Undo,'' CNN, 30 March 15.
    \158\ ``China's One-Child Policy Backfires as Labor Pool Shrinks 
Again,'' Bloomberg, 20 January 15; David McKenzie, ``For China, Three 
Decades of One-Child Policy Proves Hard To Undo,'' CNN, 30 March 15; 
Jeremy Koh, ``Greater Relaxation of China's One-Child Policy Needed: 
Analysts,'' Channel NewsAsia, 26 January 15.
    \159\ ``Experts Call for Accelerated Removal of China's 2nd Child 
Policy,'' CCTV America, 27 February 15.
    \160\ Mu Guangzong, ``Two-Child Policy Fundamental to Population 
Security,'' China Daily, 5 March 15.
    \161\ ``NHFPC Revealed for the First Time To Comprehensively Relax 
the Two-Child Policy, Currently Working on Drafting Relevant 
Regulations'' [Weijiwei shouci toulu quanmian fangkai ertai muqian 
zhengzai zhuajin zhiding xiangguan guiding], Morning Express, reprinted 
in China National Radio, 14 July 15; Li Wen, ``CASS: China Should Relax 
the Two-Child Policy as Soon as Possible'' [Shekeyuan: zhongguo ying 
jinkuai fangkuan shengyu liang hai zhengce], BBC, 15 December 14; Li 
Xinling, ``Number of Applications for a `Second Child for Married 
Couples in Which One Parent Is an Only Child' Lower Than Expected 
Across the Nation'' [Gedi ``dandu erhai'' shenqing liang di yu yuqi], 
China Youth Daily, 11 January 15.
    \162\ National Health and Family Planning Commission, 
``Interpretation of the `Circular on Strengthening the Fight, 
Prevention, and Control of Fetal Gender Identification by Blood Test' 
'' [``Guanyu jiaqiang daji fangkong caixie jianding tai'er xingbie 
xingwei de tongzhi'' wenjian jiedu], 21 January 15; Catherine Wong 
Tsoi-lai, ``Gender Imbalance Plagues Shandong,'' Global Times, 29 
January 15.
    \163\ For regulations prohibiting the practices of non-medically 
necessary gender determination testing and sex-selective abortion, see 
National Health and Family Planning Commission et al., Circular on 
Strengthening the Fight, Prevention, and Control of Fetal Gender 
Identification by Blood Test [Guanyu jiaqiang daji fangkong caixie 
jianding tai'er xingbie xingwei de tongzhi], issued 26 December 14; 
State Commission for Population and Family Planning, Ministry of 
Health, State Food and Drug Administration, Regulations Regarding the 
Prohibition of Non-Medically Necessary Gender Determination 
Examinations and Sex-Selective Termination of Pregnancy [Guanyu jinzhi 
fei yixue xuyao de tai'er xingbie jianding he xuanze xingbie de rengong 
zhongzhi renshen de guiding], issued 29 November 02, effective 1 
January 03. For a report on the earlier regulation, see ``China Bans 
Sex-Selection Abortion,'' Xinhua, reprinted in China Internet 
Information Center, 22 March 03. See also PRC Population and Family 
Planning Law [Zhonghua renmin gongheguo renkou yu jihua shengyu fa], 
passed 29 December 01, effective 1 September 02, art. 22. According to 
Article 22, ``Discrimination against, maltreatment, and abandonment of 
baby girls are prohibited.''
    \164\ Shan Juan, ``Gang Busted for Illegal Gender Selection 
Testing,'' China Daily, 20 January 14. According to Zhai Zhenwu, a 
professor at the Renmin University School of Sociology and Population 
Studies, son preference is the ``root cause'' of China's skewed sex 
ratio, and ``the preference for boys became more intense as the three-
decade-old family planning policy restricted most families to just one 
child.'' See also ``China Media: Economic Resilience,'' BBC, 21 January 
15; Will Hall, ``China Admits It Is Plunging Toward Crisis,'' Christian 
Examiner, 22 January 15.
    \165\ National Health and Family Planning Commission, 
``Interpretation of the `Circular on Strengthening the Fight, 
Prevention, and Control of Fetal Gender Identification by Blood Test' 
'' [``Guanyu jiaqiang daji fangkong caixie jianding tai'er xingbie 
xingwei de tongzhi'' wenjian jiedu], 21 January 15; ``China's Gender 
Imbalance Crisis `Most Serious in the World,' Direct Result of One-
Child Policy,'' Inquisitr, 21 January 15; ``China Workers Decline as 
Demographic Time Bomb Ticks,'' Agence France-Presse, reprinted in Daily 
Mail, 20 January 15; Will Hall, ``China Admits It Is Plunging Toward 
Crisis,'' Christian Examiner, 22 January 15; ``China Says Its Gender 
Imbalance Is `Most Serious' in the World,'' Reuters, 21 January 15.
    \166\ Hu Cao, ``Males Outnumber Females by 34 Million in China,'' 
CCTV, 30 January 15; Yuan Ren, ``Oh China, This Isn't How To Solve Your 
`Girl Problem,' '' Telegraph, 27 February 15.
    \167\ National Health and Family Planning Commission, 
``Interpretation of the `Circular on Strengthening the Fight, 
Prevention, and Control of Fetal Gender Identification by Blood Test' 
'' [``Guanyu jiaqiang daji fangkong caixie jianding tai'er xingbie 
xingwei de tongzhi'' wenjian jiedu], 21 January 15; Catherine Wong 
Tsoi-lai, ``Gender Imbalance Plagues Shandong,'' Global Times, 29 
January 15; ``Gender Crisis Spurs Call,'' The Standard, 22 January 15; 
Hu Cao, ``Males Outnumber Females by 34 Million in China,'' CCTV, 30 
January 15.
    \168\ UN Committee on the Rights of the Child, Concluding 
Observations on the Combined Third and Fourth Periodic Reports of 
China, Adopted by the Committee at Its Sixty-Fourth Session (16 
September-4 October 2013), CRC/C/CHN/CO/3-4, 29 October 13, para. 28.
    \169\ Andrea den Boer and Valerie M. Hudson, ``The Security Risk of 
China's Abnormal Demographics,'' Washington Post, 30 April 14.
    \170\ Khuon Narim and Simon Henderson, ``Nine Cambodian Women Seek 
Refuge in China,'' Cambodia Daily, 29 November 14; Jina Moore, 
``Cambodia Is China's Newest Market for Foreign Brides,'' BuzzFeed, 5 
February 15.
    \171\ ``Lao, Chinese Police Team Up in Search for Trafficked Lao 
Girl,'' Radio Free Asia, 13 March 15; U.S. Department of State, 
``Trafficking in Persons Report 2014,'' June 2014, 132.
    \172\ U.S. Department of State, ``Trafficking in Persons Report 
2014,'' June 2014, 132.
    \173\ Jonah Fisher, ``Sold in Myanmar and Trafficked to China,'' 
BBC, 11 January 15; Paul Carsten, ``China Seizes 31 Trafficking 
Suspects Holding Myanmar Women,'' Sydney Morning Herald, 25 November 
14; ``Burmese Girls `Sold As Brides' in Rural China,'' BBC, 24 November 
14.
    \174\ ``Lao, Chinese Police Team Up in Search for Trafficked Lao 
Girl,'' Radio Free Asia, 3 March 15; Lu Chen, ``Though Decreasing, 
China's Gender Gap Still Highest in World,'' Epoch Times, 12 February 
15; Lisa Curtis and Olivia Enos, Heritage Foundation, ``Combating Human 
Trafficking in Asia Requires U.S. Leadership,'' 26 February 15; Kyla 
Ryan, ``The Women Who Escape From North Korea,'' The Diplomat, 24 
November 14.
    \175\ Mark Magnier, ``Nearly 75% of Chinese Women Want Their Mate 
To Earn Double Their Salary: Survey,'' Wall Street Journal, China Real 
Time Report (blog), 16 January 15; Yuan Ren, ``Oh China, This Isn't How 
To Solve Your `Girl Problem,' '' Telegraph, 27 February 15.
    \176\ Ibid.; Madeline Fetterly, ``Sex Trafficking and China's One-
Child Policy,'' The Diplomat, 6 November 14; Nirmal Ghosh, ``Bride or 
Brothel--The Choice for Duped Vietnamese Women Trafficked to China in 
Thriving Industry,'' Straits Times, 7 December 14.
    \177\ ``China Police Bust Baby Trafficking Rings,'' Agence France-
Presse, reprinted in Capital News, 14 January 15; Charles Custer, 
``Missing, Kidnapped, Trafficked: China Has a Problem With Its 
Children,'' Guardian, 12 March 15.
    \178\ `` `Underground Delivery Room' in Jining Revealed: Living in 
an Old Abandoned Factory, Babies Restrained Under Quilts'' [Jiemi 
jining ``dixia chanfang'': feijiu gongchang shenghuo ying'er ya bei 
xia], Qilu Net, 13 January 15; ``Rented Factory Used as Delivery Room, 
Pregnant Women Sell Children After Giving Birth'' [Zu gongchang dang 
chanfang yunfu sheng zi jiu mai diao], Chinese Business View, 14 
January 15; ``Shandong Underground Delivery Room Sells Infants'' 
[Shandong dixia chanfang fanmai ying'er], Beijing News, 14 January 15.
    \179\ Ibid.
    \180\ ``Shandong Uncovers `Underground Delivery Room,' 7 Infants 
Suffer from Syphilis and AIDs'' [Shandong pohuo ``dixia chanfang'' 7 
yingyou'er huan meidu aizi], Beijing Times, 14 January 15.
    \181\ ``Fathers From 20 Provinces Send a Gift to All Fathers on 
Father's Day: A Joint Letter From 20 Provinces [Calling for] Abolition 
of Family Planning [Policies]'' [Fuqin jie 20 sheng fuqin zhi tianxia 
fuqin liwu: 20 sheng feichu jisheng lianming xin], Boxun, 22 June 15.

                   Freedom of Residence and Movement


                          Freedom of Residence

    The Chinese government largely continued to enforce the 
household registration (hukou) system established in 1958.\1\ 
The hukou system classifies Chinese citizens as either rural or 
urban, and confers legal rights and access to public services 
based on the classification.\2\ While Chinese officials have 
gradually loosened restrictions resulting from the hukou 
system, it remains a ``mechanism determining one's eligibility 
for full citizenship, social welfare, and opportunities for 
social mobility.'' \3\ The hukou system conflicts with 
international human rights standards guaranteeing freedom to 
choose one's residence and prohibiting discrimination on the 
basis of ``national or social origin[,] . . . birth or other 
status.'' \4\
    The implementation of hukou regulations discriminates 
against rural hukou holders, including those who migrate to 
urban areas, by denying them equal access to social benefits 
and public services enjoyed by registered urban residents.\5\ 
These benefits and services include, for example, equitable 
access to free education, social insurance programs, and 
housing funding.\6\ Many migrant workers do not participate in 
social insurance or health insurance programs, reportedly 
because they do not expect to qualify to receive adequate 
benefits after paying in.\7\ Additionally, authorities use the 
hukou system to punish parents who do not comply with family 
planning requirements.\8\ [For more information on the hukou 
system and population planning policy, see Section II--
Population Control.]
    Following the State Council's July 2014 opinion on hukou 
system reform,\9\ the Chinese government took steps toward 
establishing a nationwide system of residence permits that 
would in theory give migrants and their families local resident 
status after meeting certain criteria.\10\ The State Council in 
December 2014 released draft measures on the residence permit 
system, setting conditions that migrants must meet to apply for 
local resident status.\11\ These conditions vary depending on 
the size of the locality. In towns and small cities, migrants 
are required to have a stable residence and to have lived in 
the locality for more than six months.\12\ Large cities, 
however, are permitted to establish points systems whereby 
migrants must meet certain criteria in order to be eligible for 
residence permits, including having stable employment and 
residence, contributing to social insurance programs, and 
meeting educational requirements.\13\
    The draft measures do not eliminate the difficulties many 
migrants face in freely choosing their places of residence and 
obtaining equal access to public services. The residence permit 
criteria are reportedly difficult for many migrant workers to 
meet, due to their income levels and socio-economic status.\14\ 
Under the draft measures, large cities, which offer greater 
economic opportunity to migrant workers, maintain restrictive 
conditions for obtaining local resident status.\15\ Local 
governments have cited the fiscal burden of providing public 
benefits \16\ and ``carrying capacity'' \17\ among the reasons 
for restrictions on migrants.
    The national-level draft measures would neither delink 
resident status from provision of public benefits \18\ nor 
would they provide for reducing the disparity in benefits 
between rural and urban resident status.\19\ Some provincial 
authorities, however, planned to eliminate \20\ the distinction 
between rural and urban resident status.\21\ Several provinces 
planned to retain the linkage between residence and 
benefits.\22\ As of June 2015, 17 province-level governments 
had issued implementing or draft opinions outlining reforms to 
the hukou system.\23\
    During the Commission's 2015 reporting year, Chinese 
central and provincial authorities began to implement an 
urbanization plan, passed in March 2014, under which 100 
million migrants from rural areas will settle in urban areas by 
2020.\24\ The National Development and Reform Commission and 10 
other agencies issued an urbanization pilot project in December 
2014, selecting 2 provinces and 62 prefecture-level and county-
level cities and towns \25\ to implement its first stages 
before expanding it nationally.\26\ The pilot project outlines 
various mechanisms for promoting rural-to-urban migration, 
including sharing the cost of rural-to-urban population 
movement, financing and investment, and reforms to rural land 
management,\27\ as well as furthering hukou reform by revising 
conditions for settling in the pilot areas.\28\

                          International Travel

    Chinese officials continued to deny some citizens who 
criticize the government, those citizens' relatives, and some 
ethnic minority groups their internationally recognized right 
to leave the country. Article 12 of the International Covenant 
on Civil and Political Rights (ICCPR), which China has signed 
and committed to ratify, provides that ``[e]veryone shall be 
free to leave any country . . . .'' \29\ Under Article 12, 
countries may restrict this right, but only ``to protect 
national security, public order'' and other select public 
interests.\30\ Broadly written Chinese laws provide officials 
the authority to block those threatening state security or 
whose ``exit from China is not allowed'' from leaving the 
country,\31\ an authority which the Chinese government used to 
prevent government critics, rights defenders, and advocates 
from leaving China.\32\
    Tibetans \33\ and Uyghurs \34\ reportedly continued to face 
restrictions on leaving China, including in obtaining 
passports.\35\ According to Human Rights Watch, authorities 
used discriminatory ``slow-track'' passport application 
procedures in some areas with significant Tibetan and Uyghur 
populations to deny Tibetans and Uyghurs passports, or delay 
their issuance, due to their ethnic or religious minority 
status.\36\ In March, officials in Ili prefecture, Xinjiang 
Uyghur Autonomous Region (XUAR), ordered residents to turn in 
their passports to authorities, apparently as part of a 
regional security crackdown that critics said violates Uyghur 
residents' freedom of movement.\37\ As the Commission has 
observed in previous years, XUAR authorities reportedly 
restricted the ability of Muslims to travel abroad on 
pilgrimage, allowing only government-organized group 
travel.\38\ Authorities in the Tibet Autonomous Region 
reportedly continued to impose onerous and arbitrary 
bureaucratic procedures on Tibetans to obstruct or prevent them 
from obtaining passports and traveling internationally.\39\ 
[For more information on government restrictions on Uyghurs and 
Tibetans, see Section IV--Xinjiang and Section V--Tibet.]
    Article 12 of the ICCPR also provides that ``[n]o one shall 
be arbitrarily deprived of the right to enter his own 
country.'' \40\ The Chinese government, including Hong Kong and 
Macau authorities,\41\ continued to deny this right to those 
expressing views the government deems to be critical of the 
Party or government, in violation of international standards.
    The Commission observed reports on the following 
representative cases during the 2015 reporting year:

        <bullet>  In October 2014, authorities in Henan 
        province confiscated the passport of HIV/AIDS activist 
        Wang Qiuyun and placed her under surveillance in Hebi 
        city, Henan.\42\ Wang was to participate in the UN 
        Committee for the Elimination of Discrimination against 
        Women's review of China's compliance with the 
        Convention on the Elimination of All Forms of 
        Discrimination against Women (CEDAW) in Geneva.\43\
        <bullet>  In March 2015, domestic security officials in 
        Guangzhou municipality, Guangdong province, prevented 
        lawyer Sui Muqing from flying to Thailand for 
        vacation.\44\ Authorities reportedly considered Sui a 
        ``threat to state security'' and therefore stopped him 
        from traveling.\45\ Sui has provided legal assistance 
        to a number of rights advocates and activists, 
        including rights lawyer Ding Jiaxi,\46\ rights advocate 
        Guo Feixiong,\47\ and poet and artist Wang Zang.\48\
        <bullet>  In May 2015, public security authorities in 
        Yibing municipality, Sichuan province, held rights 
        advocate Deng Chuanbin for questioning and seized his 
        passport, Hong Kong-Macau travel permit, and computing 
        and communication devices.\49\ Deng said that the 
        authorities wanted to prevent him from flying to Geneva 
        in June to participate in training provided by an 
        international human rights organization.\50\
        <bullet>  In July 2015, authorities seized Bao Zhuoxuan 
        (also known as Bao Mengmeng),\51\ the 16-year-old son 
        of detained lawyers Wang Yu and Bao Longjun,\52\ at the 
        Beijing Capital International Airport in Beijing 
        municipality, as he was traveling with his father to 
        Australia to attend high school.\53\ Police reportedly 
        confiscated Bao's passport and held him in Tianjin 
        municipality for two days before he went to stay with 
        extended family in the Inner Mongolia Autonomous 
        Region.\54\ Bao reportedly remained under strict police 
        monitoring there.\55\

                           Domestic Movement

    This past year, the Commission observed reports of Chinese 
authorities punishing and harassing rights advocates and their 
families and associates by restricting their freedom of 
movement. Article 12 of the International Covenant on Civil and 
Political Rights provides that ``[e]veryone lawfully within the 
territory of a State shall, within that territory, have the 
right to liberty of movement . . . .'' \56\ Authorities 
heightened restrictions on freedom of movement during 
politically sensitive periods, including the November 2014 
Asia-Pacific Economic Cooperation Summit,\57\ March 2015 
meetings of the National People's Congress and Chinese People's 
Political Consultative Conference,\58\ and June anniversary of 
the 1989 Tiananmen protests.\59\ Representative cases of 
restrictions on freedom of movement include:

        <bullet>  Authorities continued to keep prominent 
        rights lawyer Gao Zhisheng in ``soft detention'' 
        (ruanjin), an extralegal form of home confinement, 
        after his August 2014 release from prison.\60\ 
        Authorities initially convicted Gao of ``inciting 
        subversion of state power'' in 2006, sentencing him to 
        three years' imprisonment, suspended for five 
        years.\61\ From 2006 to 2011, however, authorities 
        repeatedly abducted Gao and tortured him.\62\ In 2011, 
        a Beijing court ordered Gao to serve his original 
        three-year sentence.\63\ Gao's wife reported that 
        authorities prevented him from leaving Urumqi 
        municipality, Xinjiang Uyghur Autonomous Region, to 
        join his family in the United States and to seek 
        medical treatment for injuries he suffered during his 
        imprisonment.\64\
        <bullet>  Public security authorities prevented Mongol 
        rights advocate Hada from leaving Hohhot municipality, 
        Inner Mongolia Autonomous Region, after releasing him 
        from four years of extralegal detention in December 
        2014.\65\ In 1996, a Hohhot court sentenced Hada to 15 
        years' imprisonment for espionage and ``separatism,'' 
        but upon his 2010 release from prison, authorities 
        continued to detain him.\66\ Authorities initially 
        refused to issue Hada an identity card \67\ and froze 
        his family's bank accounts.\68\ Hada sought to leave 
        China to seek medical treatment for injuries suffered 
        under torture in prison.\69\ Chinese authorities also 
        denied Hada a passport, claiming his departure from 
        China would harm national security.\70\ [For more 
        information on Hada, see Section II--Ethnic Minority 
        Rights.]
    Notes to Section II--Freedom of Residence and Movement

    \1\ PRC Regulations on Household Registration [Zhonghua renmin 
gongheguo hukou dengji tiaoli], issued and effective 9 January 58.
    \2\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67.
    \3\ Ibid.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 2(1), 12(1), 12(3), 26; Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 2, 13(1).
    \5\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67.
    \6\ Zhou Tian, ``Closer Look: Local Officials Have Little Love for 
National Hukou Reform,'' Caixin, 25 February 15; Zhou Tian, ``Henan and 
Heilongjiang Abolish Agricultural and Non-Agricultural Hukou Divide'' 
[Henan heilongjiang quxiao nongye yu fei nong huji huafen], Caixin, 13 
November 14.
    \7\ Shao Xi, ``Study Finds Migrant Workers Excluded From Insurance 
Coverage,'' Caixin, 13 October 14; Liyan Qi and Laurie Burkitt, 
``Falling Through the Cracks of China's Health-Care System,'' Wall 
Street Journal, 4 January 15.
    \8\ Stephanie Gordon, ``China's Hidden Children,'' The Diplomat, 12 
March 15; Nathan VanderKlippe, ``The Ghost Children: In the Wake of 
China's One-Child Policy, a Generation Is Lost,'' Globe and Mail, 15 
March 15.
    \9\ State Council, Opinion on Further Carrying Out Household 
Registration System Reform [Guowuyuan guanyu jinyibu tuijin huji zhidu 
gaige de yijian], issued 30 July 14.
    \10\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Public Comment) [Juzhuzheng 
guanli banfa (zhengqiu yijian gao)], issued 4 December 14.
    \11\ Ibid., arts. 2, 16.
    \12\ Ibid., arts. 2, 16(1).
    \13\ Ibid., arts. 2, 16(4).
    \14\ Li Jinlei, ``Many Places Putting Forward Opinions on Household 
Registration System Reform, Abolishing Agricultural and Non-
Agricultural Hukou Differences'' [Duo di chutai huji zhidu gaige yijian 
quxiao nongye fei nongye hukou qufen], China News, 21 November 14; Zhao 
Han, ``Rule Change Forces Migrants' Children Out of Beijing for 
School,'' Caixin, 16 February 15; Zhou Tian, ``Closer Look: Local 
Officials Have Little Love for National Hukou Reform,'' Caixin, 25 
February 15; Chen Lei, ``Residence Permit System Reform `Arduous,' This 
Year There Will Be Breakthrough'' [Juzhuzheng zhidu gaige ``jianxin'' 
jinnian jiang you tupo], Legal Daily, 26 March 15.
    \15\ State Council, Opinion on Further Carrying Out Household 
Registration System Reform [Guowuyuan guanyu jinyibu tuijin huji zhidu 
gaige de yijian], issued 30 July 14, 2(6-7); State Council Legislative 
Affairs Office, Measures for Management of Residence Permits (Draft for 
Public Comment) [Juzhuzheng guanli banfa (zhengqiu yijian gao)], issued 
4 December 14, arts. 2, 16; Xue Lei, ``Hukou Reform--How Will 100 
Million People Settle in Cities and Towns? '' [Huji gaige 1 yi ren ruhe 
luohu chengzhen?], Beijing Youth Daily, 14 March 15; Organisation for 
Economic Cooperation and Development, ``Managing Urbanisation in China: 
Migration, Land and Planning,'' in OECD Urban Policy Reviews: China 
2015, 18 April 15, 92, 107.
    \16\ Kam Wing Chan, ``Paulson Policy Memorandum: Achieving 
Comprehensive Hukou Reform in China,'' Paulson Institute, December 
2014, 18; Liu Yichen et al., ``NDRC: Tongzhou and 61 Other Areas To 
Pilot Points-Based Settlement'' [Guojia fagaiwei: beijing tongzhou deng 
62 di jiang shidian jifen luohu], China National Radio, 7 February 15; 
Chun Han Wong, ``Residency Rights May No Longer Be a Pipe Dream for 
Beijing's Migrant Workers,'' Wall Street Journal, China Real Time 
Report (blog), 10 February 15; Zhou Tian, ``Closer Look: Officials Have 
Little Love for National Hukou Reform,'' Caixin, 25 February 15.
    \17\ See, e.g., Jiangxi Province Public Security Bureau, 
Implementing Opinion on Further Carrying Out Household Registration 
System Reform (Draft for Public Comment) [Guanyu jinyibu tuijin huji 
zhidu gaige de shishi yijian (zhengqiu yijian gao)], issued 12 November 
14, 2(3); Qinghai Province People's Government Implementing Opinion on 
Further Deepening Household Registration System Reform [Qinghai sheng 
renmin zhengfu guanyu jinyibu shenhua huji zhidu gaige de shishi 
yijian], issued and effective 27 January 15, 2(4). See also Gao Jian, 
``Beijing Categorized as Megacity, Plans Points-Based Settlement'' 
[Beijing shu chaoda chengshi ni jifen luohu], Beijing Daily, 5 December 
14; Shi Rui et al., ``Gov't Support for Beijing Firms Hiring Locals `Is 
Discrimination,' '' Caixin, 6 April 15.
    \18\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Public Comment) [Juzhuzheng 
guanli banfa (zhengqiu yijian gao)], issued 4 December 14, arts. 12, 
13; Chun Han Wong, ``Residency Rights May No Longer Be a Pipe Dream for 
Beijing's Migrant Workers,'' Wall Street Journal, China Real Time 
Report (blog), 10 February 15.
    \19\ State Council Legislative Affairs Office, Measures for 
Management of Residence Permits (Draft for Public Comment) [Juzhuzheng 
guanli banfa (zhengqiu yijian gao)], issued 4 December 14.
    \20\ See, e.g., Heilongjiang Province People's Government Circular 
on Further Carrying Out Work on Household Registration System Reform 
[Heilongjiang sheng renmin zhengfu guanyu jinyibu tuijin huji zhidu 
gaige gongzuo de tongzhi], issued 31 October 14, 2(1).
    \21\ See, e.g., Henan Province People's Government Implementing 
Opinion on Deepening Household Registration System Reform [Henan sheng 
renmin zhengfu guanyu shenhua huji zhidu gaige de shishi yijian], 
issued 4 November 14, 4(15); Xinjiang Uyghur Autonomous Region People's 
Government, Implementing Opinion on Further Carrying Out Household 
Registration Management System Reform in the XUAR [Guanyu jinyibu 
tuijin woqu huji guanli zhidu gaige de shishi yijian], issued 30 
September 14, 3(8); Jilin Province People's Government Opinion on 
Further Carrying Out Household Registration System Reform [Jilin sheng 
renmin zhengfu guanyu jinyibu tuijin huji zhidu gaige de yijian], 
issued 21 January 15, 3(8); Shaanxi Province People's Government 
Opinion on Further Carrying Out Household Registration System Reform 
[Shanxi sheng renmin zhengfu guanyu jinyibu tuijin huji zhidu gaige de 
yijian], issued 19 March 15, 3(7).
    \22\ See, e.g., Henan Province People's Government Implementing 
Opinion on Deepening Household Registration System Reform [Henan sheng 
renmin zhengfu guanyu shenhua huji zhidu gaige de shishi yijian], 
issued 4 November 14, 4(16); Sichuan Province Implementing Plan for 
Further Carrying Out Household Registration System Reform [Sichuan 
sheng jinyibu tuijin huji zhidu gaige shishi fang'an], issued 22 
November 14, 3(2.2); Shanxi Province People's Government Implementing 
Opinion on Further Carrying Out Household Registration System Reform 
[Shanxi sheng renmin zhengfu guanyu jinyibu tuijin huji zhidu gaige de 
shishi yijian], issued 14 January 15, 3(9). See also Zhang Wei, ``7 
Provinces and Municipalities To Specify Concrete Measures This Year for 
Launching Household Registration System Reform'' [7 sheng shi mingque 
jinnian chutai huji gaige juti cuoshi], Legal Daily, 4 March 15.
    \23\ ``17 Provinces Operate on Hukou System, Abolish Agricultural 
and Non-Agricultural Hukou Differences'' [17 sheng xiang huji zhidu 
kaidao quxiao nongye feinongye hukou xingzhi qufen], CCTV, 10 June 15.
    \24\ State Council, Opinion on Further Carrying Out Household 
Registration System Reform [Guowuyuan guanyu jinyibu tuijin huji zhidu 
gaige de yijian], 30 July 14, para. 3; PRC Central People's Government, 
``National New-Type Urbanization Plan (2014-2020)'' [Guojia xinxing 
chengzhenhua guihua (2014-2020 nian)], reprinted in Xinhua, 16 March 
14; Liu Yichen et al., ``NDRC: Beijing's Tongzhou and 61 Other Areas To 
Pilot Points-Based Settlement'' [Guojia fagaiwei: beijing tongzhou deng 
62 di jiang shidian jifen luohu], China National Radio, 7 February 15.
    \25\ National Development and Reform Commission et al., ``National 
New-Type Urbanization Comprehensive Pilot Plan'' [Guojia xinxing 
chengzhenhua zonghe shidian fang'an], 29 December 14, 6.
    \26\ Ibid., 2.
    \27\ Ibid., 3-4.
    \28\ Liu Yichen et al., ``NDRC: Beijing's Tongzhou and 61 Other 
Areas To Pilot Points-Based Settlement'' [Guojia fagaiwei: beijing 
tongzhou deng 62 di jiang shidian jifen luohu], China National Radio, 7 
February 15.
    \29\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2).
    \30\ Ibid., art. 12(3).
    \31\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], passed 
29 April 06, effective 1 January 07, art. 13(7); PRC Exit and Entry 
Administration Law [Zhonghua renmin gongheguo chujing rujing guanli 
fa], issued 30 June 12, effective 1 July 13, art. 12(5-6). Article 
13(7) of the PRC Passport Law holds that ``[u]nder any of the following 
circumstances, the passport issuance departments shall not issue any 
passport to the applicant: . . . The competent organs of the State 
Council believe that his leaving China will do harm to the state 
security or result in serious losses to the benefits of the state.'' 
Article 12(5-6) of the PRC Exit and Entry Administration Law provides 
that ``[u]nder any of the following circumstances, Chinese citizens are 
not allowed to exit China: . . . May endanger national security or 
interests, and are not allowed to exit China upon decision by competent 
departments under the State Council . . . Other circumstances in which 
exit from China is not allowed in accordance with laws or 
administrative regulations.''
    \32\ See, e.g., Rights Defense Network, ``Li Xiaoling of Zhuhai, 
Guangdong, Restricted From Leaving Country, Rule by Law Becomes 
Decoration'' [Guangdong zhuhai li xiaoling bei xianzhi chujing, yifa 
zhiguo cheng baishe], 26 October 14; Rights Defense Network, ``Lawyer 
Cheng Hai Prevented From Leaving Country'' [Cheng hai lushi bei jinzhi 
chujing], 18 November 14; ``Women's Rights Advocate Guo Jing Forbidden 
To Travel Abroad, Five Women's Rights Advocates Demand Dismissal of 
Their Case'' [Nuquanzhe guo jing bei jin chujing luyou 5 nuquan yaoqiu 
che an], Radio Free Asia, 26 May 15.
    \33\ See, e.g., ``Popular Tibetan Village Leader Is Killed in 
Detention in Driru,'' Radio Free Asia, 15 December 14; Tibetan Centre 
for Human Rights and Democracy, ``Two Monks Detained, Many Others 
Beaten and Detained in Ngaba,'' 29 December 14; ``Tibetan Monks, Nuns 
Are Denied Passports in Serthar,'' Radio Free Asia, 16 January 15; 
``Self-Immolation to Death Protest in Security Heavy Ngaba,'' Voice of 
America, 9 March 15.
    \34\ See, e.g., ``Hotan County Local Officials Think of 
`Investigation Form for Those Leaving the Country' '' [Xoten 
nahiyesining ``chetelge chiqqughuchilarni tekshurush jedweli''ge yerlik 
emeldarlar piker qildi], Radio Free Asia, 15 December 14; ``Uyghurs 
Face Seizure of Land, Personal Property Under Tough New Rules,'' Radio 
Free Asia, 17 December 14; Michael Martina, ``China Investigates 32 for 
Graft Linked to Xinjiang Muslim Pilgrims,'' Reuters, 15 January 15.
    \35\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2013, China 
(Includes Tibet, Hong Kong and Macau),'' 27 February 14, 41; ``Mainland 
Tibetans' Passports Confiscated for 3 Years So Far'' [Dalu zangren 
huzhao quanmin bei moshou zhijin 3 nian], Radio Free Asia, 20 March 15; 
``China Denying Passports To Restrict Critics, Minorities,'' Associated 
Press, reprinted in New York Times, 20 May 15.
    \36\ Human Rights Watch, ``One Passport, Two Systems: China's 
Restrictions on Foreign Travel by Tibetans and Others,'' July 2015, 1-
3, 8, 11-13.
    \37\ Emma Graham-Harrison, ``Chinese Police Order Yining Residents 
To Hand in Passports in Latest Crackdown,'' Guardian, 13 May 15; Edward 
Wong, ``Chinese Police Order Residents in a Xinjiang Prefecture To Turn 
in Passports,'' New York Times, 14 May 15.
    \38\ Xinjiang Uyghur Autonomous Region Regulations on Religious 
Affairs [Xinjiang weiwu'er zizhiqu zongjiao shiwu tiaoli], issued 28 
November 14, effective 1 January 15, art. 35; ``China Punishes 
Officials for Abuses in Arranging Pilgrimages,'' Associated Press, 
reprinted in New York Times, 15 January 15.
    \39\ Tibetan Centre for Human Rights and Democracy, 
``Discriminatory Chinese Passport Regulations Violate Tibetans' Right 
To Travel,'' 5 May 15.
    \40\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(4).
    \41\ See, e.g., Lai Ying-kit, ``Four More Occupy Student Protesters 
`Barred From Entering Mainland China,'' South China Morning Post, 17 
November 14; William Wan and Kris Cheng Lok-chit, ``Hong Kong 
Protesters Denied Entry Into China,'' Washington Post, 24 November 14; 
Tony Cheung and Elizabeth Cheung, ``Mainland Travel Ban on Protesters 
Is `Burning Bridges' With Hong Kong Youth,'' South China Morning Post, 
11 December 14; ``Scholarism's Tiffany Chin Sze-man Refused Entry to 
Kunming, Returned to Hong Kong, Another Member Wong Wai-kei Refused 
Entry to Shenzhen'' [Xuemin sichao qian siwen rujing kunming bei ju fan 
xianggang ling yi chengyuan huang weiji bei ju rujing shenzhen], Radio 
Free Asia, 19 February 15.
    \42\ Jess Macy Yu, ``Chinese AIDS Activist Says She Was Kept From 
U.N. Conference,'' New York Times, Sinosphere (blog), 23 October 14; 
``Chinese Authorities Hold HIV Activist Ahead of World AIDS Day,'' 
Radio Free Asia, 1 December 14.
    \43\ Jess Macy Yu, ``Chinese AIDS Activist Says She Was Kept From 
U.N. Conference,'' New York Times, Sinosphere (blog), 23 October 14; 
Simon Denyer, ``China Bars AIDS Activist From Traveling Despite Talk of 
Ending Discrimination,'' Washington Post, 23 October 14.
    \44\ Civil Rights & Livelihood Watch, ``News Flash: Rights Defender 
Lawyer Sui Muqing Again Illegally Intercepted When Leaving Country'' 
[Kuaixun: weiquan sui muqing lushi chujing zai zao feifa lanjie], 25 
March 15; ``Guangzhou Lawyer Sui Muqing Again Restricted From Leaving 
Country, Rights Defender Guo Chunping Again `Forced To Travel' After 
Release'' [Guangzhou lushi sui muqing zai bei xianzhi chujing weiquan 
renshi guo chunping huoshi hou you ``bei luyou''], Radio Free Asia, 26 
March 15. For more information on Sui Muqing, see the Commission's 
Political Prisoner Database record 2015-00281.
    \45\ ``Guangzhou Lawyer Sui Muqing Again Restricted From Leaving 
Country, Rights Defender Guo Chunping Again `Forced to Travel' After 
Release'' [Guangzhou lushi sui muqing zai bei xianzhi chujing weiquan 
renshi guo chunping huoshi hou you ``bei luyou''], Radio Free Asia, 26 
March 15.
    \46\ Jonathan Kaiman, ``China Jails Four More New Citizens Movement 
Activists,'' Guardian, 18 April 14. For more information on Ding Jiaxi, 
see the Commission's Political Prisoner Database record 2013-00307.
    \47\ ``Guo Feixiong Criminally Detained Possibly Over Citizen 
Social Movement, Hunan Authorities Escalate Pressure on Rights 
Activists'' [Guo feixiong bei xingju huo yin gongmin shehui yundong 
hunan dangju daya weiquan renshi xingdong shengji], Radio Free Asia, 18 
August 13. For more information on Guo Feixiong, see the Commission's 
Political Prisoner Database record 2005-00143.
    \48\ Tom Phillips, ``Chinese Poet Faces Jail for Possession of 
Umbrella,'' Telegraph, 7 October 14. For more information on Wang Zang, 
see the Commission's Political Prisoner Database record 2014-00420.
    \49\ Rights Defense Network, ``Sichuan's Deng Chuanbin, Because of 
Participating in International Rights Organization's Rights Knowledge 
Training, Illegally Summoned, Passport, HK-Macau Travel Permit, 
Communications Equipment Confiscated'' [Sichuan deng chuanbin yin 
canjia guoji renquan jigou zhuban de renquan zhishi peixun zao feifa 
chuanhuan huzhao, gang'ao tongxingzheng, tongxun shebei bei kou], 8 
June 15.
    \50\ Deng Chuanbin, ``Activist Interrogated and Prevented From 
Attending Human Rights Training in Geneva,'' China Change, 11 June 15.
    \51\ ``Seized or Summoned Lawyers and Citizens Increase to 234 
People'' [Bei daizou huo chuanhuan de lushi ji gongmin zeng zhi 234 
ren], Radio Free Asia, 17 July 15.
    \52\ For more information, see the Commission's Political Prisoner 
Database records 2015-00252 on Wang Yu and 2015-00253 on Bao Longjun.
    \53\ Philip Wen, ``Teen Bound for Melbourne School Stranded After 
Chinese Authorities Arrest Parents,'' The Age, 2 August 15; ``New Trend 
in China's Oppression of Lawyers, Using `Endangering State Security' To 
Prevent Children From Leaving the Country'' [Zhongguo daya lushi xian 
xin dongxiang yi ``weihai guojia anquan'' jinzhi zinu chujing], Radio 
Free Asia, 4 August 15.
    \54\ Philip Wen, ``Teen Bound for Melbourne School Stranded After 
Chinese Authorities Arrest Parents,'' The Age, 2 August 15.
    \55\ Ibid.
    \56\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(1).
    \57\ See, e.g., ``APEC Restrictions `Worse Than Prison': China 
Dissident,'' Agence France-Presse, reprinted in Global Post, 7 November 
14; Rights Defense Network, ``APEC Convenes, Tianjin's Zhang Lanying, 
First Person To Publicly Resign from CCP, in Soft Detention'' [APEC 
zhaokai, tianjin gongkai tuidang diyiren zhang lanying bei ruanjin], 8 
November 14; Rights Defense Network, ``Beijing APEC Begins, Tiananmen 
Busy Seizing Petitioners'' [Beijing APEC kaihui, tiananmen mangzhe zhua 
fangmin], 10 November 14; Rights Defense Network, ``Beijing Petitioner 
Ge Zhihui Held at Home in Soft Detention for 10 Days Because of APEC 
Convening'' [Beijing fangmin ge zhihui yin APEC zhaokai yi bei ruanjin 
jiazhong 10 tian], 12 November 14.
    \58\ See, e.g., ``On Eve of Two Sessions, 5,000 People Gather at 
Letters and Calls Bureau, in Beijing Clearances, Petitioners From 
Across China Again Met With Forceful Stability Maintenance'' [Lianghui 
qianxi 5000 ren ju xinfang ju hanyuan beijing qingchang gedi fangmin 
zai zao qiangli weiwen], Radio Free Asia, 2 March 15; Rights Defense 
Network, ``Two Sessions Stability Maintenance: Beijing Forced 
Demolition Victim Ge Zhihui Held by Police in Soft Detention at Home'' 
[Lianghui weiwen: beijing baoli qiangchai shouhai ren ge zhihui bei 
jingcha ruanjin jiazhong], 4 March 15.
    \59\ See, e.g., ``Guo Chunping Sent Back for `June 4' Post Online, 
Su Changlan Asked To Write `Repentance Letter' in Prison'' [Guo 
chunping yin fa ``liu si'' wang tie bei qianfan su changlan yu zhong 
bei yaoqiu xie ``huiguo shu''], Radio Free Asia, 26 May 15; ``As 26th 
Anniversary of `June 4' Approaches, Tiananmen Mothers Closely Watched 
by Police'' [Beijing ``liu si'' 26 zhounian linjin tiananmen muqin bei 
gong'an kanshou], Radio Free Asia, 26 May 15.
    \60\ ``RFA Exclusive: Gao Zhisheng Out of Prison for 5 Months Still 
Under Soft Detention'' [RFA dujia: gao zhisheng chuyu wu ge yue reng 
zao ruanjin], Radio Free Asia, 8 January 15; ``Geng He: Gao Zhisheng's 
Health Is Starting To Recover; He Still Has Self-Confidence and Is 
Optimistic'' [Geng he: gao zhisheng shenti kaishi huifu reng baochi 
zixin leguan], Radio Free Asia, 9 February 15. For more information on 
Gao Zhisheng, see the Commission's Political Prisoner Database record 
2005-00291.
    \61\ ``Beijing Court Withdraws Probation on Ex-Lawyer,'' Xinhua, 
reprinted in China Internet Information Center, 16 December 11.
    \62\ Charles Hutzler, ``AP Exclusive: Missing Chinese Lawyer Told 
of Abuse,'' Associated Press, reprinted in ChinaAid, 10 January 11.
    \63\ ``Beijing Court Withdraws Probation on Ex-Lawyer,'' Xinhua, 
reprinted in China Internet Information Center, 16 December 11.
    \64\ ``Press Statement by Wife of Gao Zhisheng, on 9/8/2014,'' 
China Change, 12 September 14; Julie Makinen, ``In China, Human Rights 
Lawyer Leaves Prison, but Has No Freedom,'' Los Angeles Times, 12 
September 14.
    \65\ ``Mongolian Dissident Calls for Help To Leave China With 
Family,'' Radio Free Asia, 17 December 14; ``Officials Delay Issuance 
of Identity Card, Hada Claims He Is Under De Facto Soft Detention'' 
[Dangju tuoyan bu fa shenfenzheng hada zhi bianxiang ruanjin], Radio 
Free Asia, 30 January 15. For more information on Hada, see the 
Commission's Political Prisoner Database record 2004-02045.
    \66\ ``Mongolian Dissident Calls for Help To Leave China With 
Family,'' Radio Free Asia, 17 December 14.
    \67\ ``Officials Delay Issuance of Identity Card, Hada Claims He Is 
Under De Facto Soft Detention'' [Dangju tuoyan bu fa shenfenzheng hada 
zhi bianxiang ruanjin], Radio Free Asia, 30 January 15.
    \68\ ``Mongolian Dissident Hada Denied ID Card, Bank Account After 
Interview,'' Radio Free Asia, 23 January 15.
    \69\ Southern Mongolian Human Rights Information Center, ``Hada, 
Discharged From `Black Jail,' But Not Free,'' 10 December 14; Southern 
Mongolian Human Rights Information Center, ``Video Statements by Hada 
and Xinna,'' 14 December 14; ``Hada Is Issued Identity Card and Plans 
To Apply for Passport in Order To Go Abroad, Donations From Overseas 
Are Again Frozen by Authorities'' [Hada huo fa shenfenzheng jiang 
shenqing chuguo huzhao jingwai juankuan zai bei dangju dongjie], Radio 
Free Asia, 26 March 15; ``China Denies Ethnic Mongolian Dissident a 
Passport To Seek Medical Help,'' Radio Free Asia, 30 April 15.
    \70\ ``China Denies Ethnic Mongolian Dissident a Passport To Seek 
Medical Help,'' Radio Free Asia, 30 April 15.

                            Status of Women


                          Public Participation


                        POLITICAL DECISIONMAKING

    The Chinese government is obligated under its international 
commitments \1\ and domestic laws \2\ to ensure gender-equal 
political participation; however, women remain underrepresented 
in political decisionmaking positions. Female representation 
remains low or non-existent in key Communist Party and 
government leadership positions, including ministerial 
positions; \3\ provincial leadership; \4\ and membership in the 
Political Bureau of the Communist Party Central Committee 
(Politburo),\5\ Politburo Standing Committee,\6\ and National 
People's Congress.\7\ Representation at both upper and lower 
levels of government continues to fall short of the 30 percent 
target recommended by the UN Commission on the Status of 
Women.\8\

                             CIVIL SOCIETY

    During the Commission's 2015 reporting year, Chinese non-
governmental organizations (NGOs) and women's advocates saw 
positive developments within a climate of increasing state 
control. For the first time, domestic NGOs submitted reports to 
the UN Committee on the Elimination of Discrimination against 
Women (Committee) for its October 2014 review of China's 
compliance with the Convention on the Elimination of all Forms 
of Discrimination against Women (CEDAW).\9\ The Chinese 
government reportedly did not allow domestic NGOs to submit 
reports for prior Committee reviews.\10\ In November 2014, the 
State Council issued a draft PRC Anti-Domestic Violence 
Law,\11\ following over a decade of advocacy both within the 
government and by civil society.\12\ After its release, lawyers 
and advocates held conferences,\13\ gave interviews,\14\ 
submitted comments to the State Council,\15\ and wrote opinion 
pieces assessing the draft law and suggesting improvements.\16\
    Women's rights advocates in China faced numerous 
restrictions in the past year. Chinese authorities reportedly 
censored NGO reports submitted to the Committee \17\ and 
prevented at least two women from participating in 
international women's rights forums, including the CEDAW 
review.\18\ Authorities also detained women's rights advocates 
in the days preceding International Women's Day.\19\ [See box 
titled Detentions of Women's Rights Advocates below.] These 
actions violated China's obligations under international 
standards \20\ and went against the Committee's recommendation 
to China to ``protect women human rights defenders.'' \21\

------------------------------------------------------------------------
                 Detentions of Women's Rights Advocates
-------------------------------------------------------------------------
  On March 6 and 7, 2015, police in three major Chinese cities detained
 10 women \22\ who planned to raise awareness about sexual harassment on
 public transportation by distributing stickers and pamphlets on March
 8, International Women's Day.\23\ After releasing five of the women,
 police from Beijing municipality criminally detained the remaining
 five--Li Tingting,\24\ Wang Man,\25\ Wei Tingting,\26\ Wu Rongrong,\27\
 and Zheng Churan \28\--on suspicion of ``picking quarrels and provoking
 trouble,'' which they later changed to ``gathering a crowd to disturb
 order in a public place.'' \29\ Authorities subjected the women to
 lengthy interrogations and sleep deprivation.\30\ Following widespread
 domestic \31\ and international outcry,\32\ authorities released the
 five on April 13.\33\ The women were released on bail,\34\ however,
 meaning their freedom remains curtailed and police are closely
 monitoring them.\35\ While observers noted surprise at the detentions--
 the government had previously tolerated some advocacy on women's issues
 \36\--they also viewed the detentions as part of a broader crackdown on
 civil society.\37\ All five women worked for NGOs,\38\ including the
 Beijing Yirenping Center, a public health and anti-discrimination NGO
 \39\ that Chinese authorities have recently targeted.\40\ The NGO
 Weizhiming, which Wu Rongrong founded and for which Zheng Churan also
 worked, closed on May 29 under pressure from authorities.\41\ [For more
 information on the crackdown on Yirenping and other NGOs, see Section
 III--Civil Society.]
------------------------------------------------------------------------

                      Gender-Based Discrimination


                       EMPLOYMENT DISCRIMINATION

    Women's labor force participation in China is relatively 
high \42\--64 percent in 2013 according to the World Bank 
\43\--however, women continue to face challenges such as 
discrimination in hiring,\44\ a growing pay gap,\45\ and 
underrepresentation in management positions.\46\ During this 
reporting year, Chinese courts heard at least two lawsuits for 
gender-based discrimination in hiring: In November 2014, a 
woman won a case against the Hangzhou New East Cuisine School 
for discriminatory hiring practices.\47\ In March 2015, the 
Shunyi District People's Court in Beijing municipality heard 
another such case brought against a courier company, but the 
Commission had not observed reports of a verdict as of August 
2015.\48\ China's first gender-based employment discrimination 
lawsuit concluded with a settlement in December 2013.\49\
    In their submissions to the Committee on the Elimination of 
Discrimination against Women, several Chinese NGOs noted 
concerns over employers' discriminating against pregnant 
women.\50\ Domestic and international media also reported cases 
of employers pressuring women to sign ``no pregnancy'' 
agreements as part of employment contracts \51\ and pushing 
pregnant women to resign in order to avoid paying for maternity 
benefits.\52\ China is obligated under its international 
commitments \53\ and domestic laws \54\ to eliminate 
discrimination against women, including discrimination against 
women based on pregnancy.\55\ Provisions in the PRC Labor Law 
and other regulations forbid women, including pregnant women, 
from performing certain jobs.\56\

                        EDUCATION DISCRIMINATION

    Chinese women and girls generally match or exceed their 
male peers in terms of enrollment rates in primary,\57\ 
secondary,\58\ and tertiary education; \59\ however, rural 
girls reportedly have higher school drop-out rates than their 
male and urban peers.\60\ While the PRC Education Law prohibits 
gender-based discrimination in education,\61\ the government 
allows limits on female enrollment in certain fields such as 
military and public security.\62\

                     PROPERTY RIGHTS DISCRIMINATION

    Chinese law guarantees equal property rights for women and 
men; \63\ in practice, however, Chinese women's property rights 
lack adequate protection. For example, in rural areas, land 
contracts are issued to households rather than individuals,\64\ 
and as of 2011, only 17 percent of land contracts included 
women's names.\65\ Rural women are vulnerable to loss of land 
rights in the event of marriage, divorce, or the death of a 
spouse.\66\ When rural governments appropriate land rights, 
women are reportedly less likely than men to receive 
compensation.\67\ In one such case in November 2014, domestic 
and international media reported that 92 women in Hainan 
province sued their village committee when, following forced 
relocation, the committee compensated only male villagers.\68\
    A 2011 Supreme People's Court interpretation of the PRC 
Marriage Law stated that in a divorce, property should go to 
the party whose name appears on the deed.\69\ Reports, however, 
indicate that urban women often contribute financially to the 
purchase of a home without having their names on the deed.\70\ 
The UN Committee on the Elimination of Discrimination against 
Women found in November 2014 that this interpretation 
``indirectly discriminat[es] against women.'' \71\

                         Violence Against Women


                           DOMESTIC VIOLENCE

    For over a decade, women's rights advocates and NGOs in 
China have called for a national-level domestic violence 
law.\72\ On November 25, 2014, the State Council Legislative 
Affairs Office issued a draft PRC Anti-Domestic Violence Law 
for public comment.\73\ The draft law clearly defined domestic 
violence \74\ and contained provisions on prevention,\75\ 
handling domestic violence cases,\76\ and issuing restraining 
orders.\77\ Chinese domestic violence experts and women's 
rights advocates described the draft law as ``significant'' and 
a ``milestone.'' \78\
    Many advocates and lawyers suggested revisions to the draft 
law, including: expanding the definition of domestic violence 
to include sexual violence; \79\ adding cohabiting couples 
within the scope of ``family members'' (jiating chengyuan) 
protected by the law; \80\ and allowing domestic violence 
victims to apply for restraining orders directly, as the draft 
required restraining orders be part of a civil suit.\81\ In 
September 2015, the National People's Congress Standing 
Committee issued for public comment a revised draft law \82\ 
that does not define ``family members.'' \83\ One commentator 
argued this omission might allow for a broader the scope of 
those covered by the law.\84\ In addition, unlike the earlier 
draft, the revised draft law omitted emotional--or 
psychological--abuse (jingshen baoli) from the definition of 
domestic violence.\85\ The revised draft also no longer linked 
restraining orders to civil suits, allowing domestic violence 
victims or individuals facing the threat of domestic violence 
to apply directly to the courts for restraining orders.\86\
    In March 2015, the Supreme People's Court (SPC) and other 
government entities jointly issued a Guiding Opinion on 
Handling Criminal Domestic Violence Cases in Accordance with 
the Law (the Opinion) \87\ that included cohabiting couple 
violence within the definition of domestic violence.\88\ The 
Opinion also instructed courts to show lenience in cases in 
which victims of domestic violence harm their abusers.\89\ In 
April, the Sichuan Province High People's Court issued a 
suspended death sentence in the high-profile retrial of Li 
Yan,\90\ who killed her husband in 2010 after enduring months 
of spousal abuse.\91\ In 2012, the same court had upheld Li's 
death sentence on appeal,\92\ but in June 2014, the SPC ordered 
a retrial \93\ following Chinese and international advocates' 
calls for a sentence commutation.\94\ Li is now unlikely to 
face execution,\95\ but many Chinese advocates still expressed 
disappointment with the severity of the sentence.\96\

                           SEXUAL HARASSMENT

    Chinese law prohibits sexual harassment, yet it lacks a 
clear legal definition and standards for prevention, reporting, 
and punishment.\97\ In November 2014, the Committee on the 
Elimination of Discrimination against Women (the Committee) 
urged China to require employers to assume legal liability for 
sexual harassment occurring in the workplace.\98\ In March 
2015, the government-affiliated All-China Federation of Trade 
Unions put forward a proposal to the National People's Congress 
and the Chinese People's Political Consultative Conference 
suggesting that local governments should clearly define sexual 
harassment, and firms should create mechanisms for preventing 
sexual harassment.\99\ Also in March, a group of women issued 
an open letter to the Guangzhou Municipal People's Congress in 
Guangdong province calling for sexual harassment prevention 
training for public transportation workers.\100\

                       STATE-AUTHORIZED VIOLENCE

    Officials in China reportedly continued to use coercion 
\101\ and violence \102\ against women while implementing 
family planning policies, in contravention of international 
standards.\103\ Following its October 2014 review of China, the 
Committee noted its concern over ``illegal practices such as 
forced abortion and sterilization.'' \104\ [For more 
information, see Section II--Population Planning.]
    In an October 2014 report, the NGO Chinese Human Rights 
Defenders noted that the ``great majority'' of detainees held 
in extralegal detention facilities known as ``black jails'' 
(hei jianyu) were women.\105\ These women were at great risk of 
physical and sexual violence.\106\ In fall 2014, other NGOs and 
the Committee also voiced concern over arbitrary detention and 
reports of violence against women in ``custody and education'' 
facilities.\107\
    Notes to Section II--Status of Women

    \1\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 7. Under Article 7 of CEDAW, 
China is committed to ensuring the right of women, on equal terms with 
men, ``to participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform all public 
functions at all levels of government.'' United Nations Treaty 
Collection, Chapter IV, Human Rights, Convention on the Elimination of 
All Forms of Discrimination against Women, last visited 23 June 15. 
China signed the convention on July 17, 1980, and ratified it on 
November 4, 1980.
    \2\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, art. 11; PRC Electoral 
Law of the National People's Congress and Local People's Congresses 
[Zhonghua renmin gongheguo quanguo renmin daibiao dahui he difang geji 
renmin daibiao dahui xuanju fa], passed 1 July 79, amended 10 December 
82, 2 December 86, 28 February 95, 27 October 04, 14 March 10, art. 6. 
Both of these laws stipulate that an ``appropriate number'' of female 
deputies should serve at all levels of people's congresses.
    \3\ ``China Political Leaders'' [Zhongguo zhengyao], Chinese 
Communist Party News, People's Daily, last visited 25 March 15. Out of 
25 ministries and ministry-level agencies, 2 have female leaders.
    \4\ Ibid. Out of 31 provinces, provincial-level municipalities, and 
special autonomous regions, 1 has a woman serving as governor, and none 
have women serving as provincial Party Secretaries.
    \5\ Ibid.; ``Chinese Communist Party 17th Congress Central 
Leadership Organization Members'' [Zhongguo gongchandang di shiqi jie 
zhongyang lingdao jigou chengyuan], China Internet Information Center, 
last visited 23 June 15; ``Chinese Communist Party Central Committee 
(7th Session-17th Session)'' [Zhongguo gongchandang zhongyang 
weiyuanhui (diqi jie-dishiqi jie)], Xinhua, last visited 19 May 15. In 
the 12 sessions of the Politburo since 1945, not including alternate 
members, at most there have been two women serving at a time (9th and 
18th); 4 sessions included one woman (10th, 12th, 16th, and 17th), and 
6 sessions had no women members (7th, 8th, 11th, 13th, 14th, and 15th).
    \6\ Ibid.; ``Chinese Communist Party Central Committee (7th 
Session-17th Session)'' [Zhongguo gongchandang zhongyang weiyuanhui 
(diqi jie-dishiqi jie)], Xinhua, last visited 19 May 15. In the 12 
sessions of the Politburo since 1945, there has never been a female 
member of the Politburo Standing Committee.
    \7\ Women Studies Institute of China, ``The Shadow Report of 
Chinese Women's NGOs on the Combined Seventh and Eighth Periodic Report 
Submitted by China Under Article 19 of the Convention on the 
Elimination of All Forms of Discrimination against Women: Temporary 
Special Measures and the Political and Public Life (Article 4 & 7),'' 
September 2014, 1. Women held 23.4 percent of seats in the 12th 
National People's Congress, which began in 2013. According to the 2014 
China Statistical Yearbook, female representation in the National 
People's Congress has remained around 21 percent since the late 1970s. 
National Bureau of Statistics of China, ``Number of Deputies to All the 
Previous National People's Congresses,'' China Statistical Yearbook 
2014, 2014, Table 24-1.
    \8\ Women Studies Institute of China, ``The Shadow Report of 
Chinese Women's NGOs on the Combined Seventh and Eighth Periodic Report 
Submitted by China Under Article 19 of the Convention on the 
Elimination of All Forms of Discrimination against Women: Temporary 
Special Measures and the Political and Public Life (Article 4 & 7),'' 
September 2014, 1-2; Introductory Statement by H.E. Mme. Song Xiuyuan, 
Head of the Chinese Delegation, at Consideration of China's Combined 
Seventh and Eighth Periodic Reports by the Committee on the Elimination 
of Discrimination against Women, item 3. Women made up 23.4 percent of 
the 12th National People's Congress and 22.6 percent of village 
committee members. ``Target: 30 Percent of Leadership Positions to 
Women by 1995--United Nations Commission on the Status of Women,'' UN 
Chronicle, June 1990, reprinted in Popline. The target of 30 percent 
female representation in leadership positions by 1995 was recommended 
by the UN Commission on the Status of Women at its 34th session in 
1990.
    \9\ See, e.g., Anti-Domestic Violence Network/Beijing FanBao, 
Beijing Zhongze Women's Legal Consulting Services Center, and China 
Women's University, ``The Shadow Report of Chinese Women's NGOs on the 
Combined Seventh and Eighth Periodic Report Submitted by China Under 
Article 18 of the Convention on the Elimination of All Forms of 
Discrimination against Women: Violence Against Women (General 
Recommendation No.19),'' September 2014; Beijing Cultural Development 
Center for Rural Women, ``The Shadow Report of Chinese Women's NGOs on 
the Combined Seventh and Eighth Periodic Report Submitted by China 
Under Article 18 of the Convention on the Elimination of All Forms of 
Discrimination against Women: The Rights of Migrant Women,'' September 
2014; China LBT Rights Initiative, ``Shadow Report: Implementation of 
the Convention to Eliminate All Forms of Discrimination against Women 
in the PRC,'' September 2014. For access to the complete list of NGO 
submissions to CEDAW, see United Nations Office of the High 
Commissioner for Human Rights, ``CEDAW--Convention on the Elimination 
of All Forms of Discrimination against Women, 59th Session (20 Oct 
2014-7 Nov 2014),'' last visited 18 March 15.
    \10\ Ye Shan and Yao Yao, ``Making Progress,'' Women of China 
English Monthly, February 2015, reprinted in All-China Women's 
Federation, 25 May 15; Women in a Changing China, Staff Roundtable of 
the Congressional-Executive Commission on China, 8 March 10, Katherine 
Zhao, Division of Social Sciences, University of Chicago, Remarks 
during Question and Answer Period; Women in a Changing China, Staff 
Roundtable of the Congressional-Executive Commission on China, 8 March 
10, Rangita de Silva de Alwis, Director of International Human Rights 
Policy Programs, Wellesley Centers for Women, Remarks during Question 
and Answer Period.
    \11\ State Council Legislative Affairs Office, PRC Anti-Domestic 
Violence Law (Draft) [Zhonghua renmin gongheguo fan jiating baoli fa 
(cao'an)], issued 25 November 14.
    \12\ Feng Yuan, ``Reprint: Feng Yuan: What To Make of the Anti-
Domestic Violence Law Comment Draft? A Detailed Interpretation'' 
[Zhuanzai: feng yuan: ruhe lijie fan jiabao fa zhengqiu yjian gao? chao 
xiangxi jiedu], Nuquan Zhi Sheng, reprinted in Rights Defense Network, 
18 December 14; ``Home Truths,'' Economist, 6 December 14; Zhou 
Hongshuang, ``Each Year All-China Women's Federation Receives 50,000 
Domestic Violence Complaints; How Many Hurdles Remain in Combating 
Domestic Violence?'' [Meinian fulian jie jiating baoli tousu da 5 wan 
jian fan jiabao yao guo ji daokan?], Guangming Daily, 12 January 15; 
Didi Kirsten Tatlow, ``Pushing for a Law Against Domestic Violence in 
China,'' New York Times, Sinosphere (blog), 26 February 14.
    \13\ Yang Changping, ``Anti-Domestic Violence Law Enters 
Legislative Process, Experts Recommend: Sexual Violence Should Be 
Considered Domestic Violence'' [Fan jiating baoli fa jinru lifa chengxu 
zhuanjia jianyi: xing baoli yingdang suan jiabao], Beijing Evening 
News, 14 December 14; Feng Xixi, ``Draft Anti-Domestic Violence Law Is 
Out, Boyfriends Beating Girlfriends Should Be Considered Domestic 
Violence'' [Fan jiabao lifa cao'an chulu nanyou ouda nuyou ying suan 
jiating baoli], Yangcheng Evening News, 21 November 14; Hou Jianbin, 
``Academy of Social Sciences Institute of Law Holds Anti-Domestic 
Violence Law Conference'' [She ke yuan faxue suo juban fan jiabao lifa 
yantaohui], Legal Daily, 14 January 15.
    \14\ See, e.g., ``China's Domestic Violence Law `Needs Detailed 
Work': Experts,'' Radio Free Asia, 2 December 14; Zhang Hui, ``Experts 
Say Draft Domestic Violence Law Far From Perfect,'' Global Times, 4 
December 14; Lijia Zhang, ``New Domestic Violence Law Won't Change 
Chauvinistic Attitudes of China's Men,'' South China Morning Post, 8 
December 14; Yang Changping, ``Anti-Domestic Violence Law Enters 
Legislative Process, Experts Recommend Sexual Violence Should Be 
Considered Domestic Violence'' [Fan jiating baoli fa jinru lifa chengxu 
zhuanjia jianyi xing baoli yingdang suan jiabao], Beijing Evening News, 
14 December 14.
    \15\ Legal Center for NGO, ``Comments and Suggestions on Modifying 
the Anti-Domestic Violence Law (Draft) Comment Draft'' [Guanyu dui 
``fan jiating baoli fa (cao'an) zhengqiu yijian gao'' de xiugai yijian 
he jianyi], reprinted in NGO Development Exchange Network, 31 December 
14; Leadership Matrix Network, ``18 Organizations Jointly Submit 
Revision Suggestions for Anti-Domestic Violence Law Comment Draft'' [18 
jia jigou lianhe tijiao ``fan jiating baoli fa'' (zhengqiu yijian gao) 
de xiugai jianyi], 20 January 15.
    \16\ See, e.g., Feng Yuan, ``Reprint: Feng Yuan: What To Make of 
the Anti-Domestic Violence Law Comment Draft? A Detailed 
Interpretation'' [Zhuanzai: feng yuan: ruhe lijie fan jiabao fa 
zhengqiu yijian gao? chao xiangxi jiedu], Nuquan Zhi Sheng, reprinted 
in Rights Defense Network, 18 December 14; Deng Xueping, `` `Anti-
Domestic Violence' Law Still Clearly Conservative'' [``Fan jiabao'' 
lifa reng xian baoshou], Beijing News, 26 November 14.
    \17\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
32.
    \18\ Jess Macy Yu, ``Chinese AIDS Activist Says She Was Kept From 
U.N. Conference,'' New York Times, Sinosphere (blog), 23 October 14; 
Chinese Human Rights Defenders, ``[CHRB] Women's Rights Defenders Face 
Reprisals Over UN Review (10/31-11/6/2014),'' 6 November 14; ``Chinese 
Authorities Slap Travel Ban on Outspoken Women's Rights Activist,'' 
Radio Free Asia, 13 November 14; ``Meet the 5 Female Activists China 
Has Detained,'' New York Times, 6 April 15. Chinese authorities 
prevented Wang Qiuyun from attending China's review by the Committee on 
the Elimination of Discrimination against Women in October 2014, and 
prevented another activist, Zheng Churan, from attending a UN-sponsored 
women's rights event in Thailand in November 2014. Zheng Churan was 
also among the five women's rights advocates detained prior to 
International Women's Day. For more information on China's use of 
travel restrictions against dissidents and others, see Section II--
Freedom of Residence and Movement.
    \19\ Edward Wong, ``China Releases 5 Women's Rights Activists 
Detained for Weeks,'' New York Times, 13 April 15; Chinese Human Rights 
Defenders, ``[CHRB] 5 Women's and LGBT Rights Activists Detained in 
Escalating Clampdown on NGOs (3/6-12/15),'' 12 March 15.
    \20\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
13(2), 20(1); International Covenant on Civil and Political Rights 
(ICCPR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, arts. 21, 22(1). China has 
signed but not ratified the ICCPR. See United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 29 May 15.
    \21\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
33(a).
    \22\ Edward Wong, ``China Releases 5 Women's Rights Activists 
Detained for Weeks,'' New York Times, 13 April 15; Chinese Human Rights 
Defenders, ``[CHRB] 5 Women's and LGBT Rights Activists Detained in 
Escalating Clampdown on NGOs (3/6-12/15),'' 12 March 15.
    \23\ Ibid.; Sophie Richardson, Human Rights Watch, ``Dispatches: 
China--How Not To Observe International Women's Day,'' 10 March 15.
    \24\ For more information on Li Tingting, see the Commission's 
Political Prisoner Database record 2015-00116.
    \25\ For more information on Wang Man, see the Commission's 
Political Prisoner Database record 2015-00115.
    \26\ For more information on Wei Tingting, see the Commission's 
Political Prisoner Database record 2015-00114.
    \27\ For more information on Wu Rongrong, see the Commission's 
Political Prisoner Database record 2015-00117.
    \28\ For more information on Zheng Churan, see the Commission's 
Political Prisoner Database record 2015-00118.
    \29\ ``Detained Women's Rights Activist's Liver Disease Worrying, 
Outside World Urges Authorities To Provide Humanitarian Treatment'' 
[Bei ju nuquanzhe ganbing kanyou waijie cu dangju rendao yizhi], Voice 
of America, 23 March 15; Sui-Lee Wee, ``China Frees Five Women 
Activists on Bail After Outcry,'' Reuters, 13 April 15; ``Women's 
Rights Advocate Guo Jing Forbidden To Travel Abroad, Five Women's 
Rights Advocates Demand Dismissal of Their Case'' [Nuquanzhe guo jing 
bei jin chujing luyou 5 nuquan yaoqiu che an], Radio Free Asia, 26 May 
15. The five women were reportedly involved in a range of advocacy 
activities: Li Tingting (also known as Li Maizi) is known for street 
performances such as ``Occupy the Men's Toilet'' and managed the LGBT 
program at the Beijing Yirenping Center; Wang Man worked on gender and 
poverty issues for the Global Call to Action Against Poverty; Wei 
Tingting worked for the LGBT rights NGO Ji'ande; prior to founding the 
NGO Weizhiming, Wu Rongrong previously worked for the health advocacy 
NGO Beijing Aizhixing Institute and the Beijing Yirenping Center; and 
Zheng Churan (also known as Datu) advocated for victims of domestic 
violence and women with disabilities. See Chinese Human Rights 
Defenders, ``[CHRB] 5 Women's and LGBT Rights Activists Detained in 
Escalating Clampdown on NGOs (3/6-12/15),'' 12 March 15; ``Meet the 5 
Female Activists China Has Detained,'' New York Times, 6 April 15; 
Tania Branigan, ``Five Chinese Feminists Held Over International 
Women's Day Plans,'' Guardian, 12 March 15.
    \30\ ``Chinese Feminist Subjected to `Extreme' Interrogations: 
Lawyer,'' Radio Free Asia, 26 March 15; Simon Denyer, ``China Releases 
Five Women's Rights Activists After Global Uproar,'' Washington Post, 
13 April 15.
    \31\ Wei Zhili, ``Workers Support Feminists Trapped in Prison--
Workers Show Support for Women's Rights Activists Detained on March 7'' 
[Nuquan xian laoyu gongren lai shengyuan--gongren shengyuan 3 yue 7 ri 
bei daizou de nuquan xingdongzhe], New Media Women, reprinted in 
iLabour.org, 10 March 15; ``Out of the Window: Support Sun Yat-sen 
University Alumna and Women's Rights Advocate--Sun Yat-sen Students Add 
Names in Solidarity'' [Chuangwai shi zhichi zhongda xiaoyou ji nuquan 
gongyiren--zhongda xuezi de lianming shengyuan], edaily, reprinted in 
China Digital Times, 12 March 15; Rights Defense Network, ``Letter by 
34 Women Lawyers From 18 Provinces and Cities Denouncing Detention of 
Several Women's Rights Advocates'' [Quanguo shiba sheng shi sanshisi 
ming nu lushi jiu shu ming nuxing quanyi changdaozhe bei jiya de jubao 
xin], 15 March 15; Sui-Lee Wee, ``China Frees Five Women Activists on 
Bail After Outcry,'' Reuters, 13 April 15.
    \32\ Oiwan Lam, ``Five Young Feminists Still Missing in China,'' 
Global Voices, 16 March 15; Simon Denyer, ``China Releases Five Women's 
Rights Activists After Global Uproar,'' Washington Post, 13 April 15; 
Sui-Lee Wee, ``China Frees Five Women Activists on Bail After Outcry,'' 
Reuters, 13 April 15.
    \33\ Edward Wong, ``China Releases 5 Women's Rights Activists 
Detained for Weeks,'' New York Times, 13 April 15; Sui-Lee Wee, ``China 
Frees Five Women Activists on Bail After Outcry,'' Reuters, 13 April 
15; Rights Defense Network, ``Feminist Five Case News Flash: Wei 
Tingting, Wang Man, and Zheng Churan Released; Li Maizi and Wu Rongrong 
Still Detained (Latest Information: Li Maizi and Wu Rongrong Also 
Released. Currently, All Five Have Been Released.)'' [Nuquan wu jiemei 
an kuaixun: wei tingting, wang man he zheng chu [sic] san ren bei fang 
li maizi he wu rongrong liang ren reng zai ya (zuixin xiaoxi: li maizi 
he wu rongrong ye yi shifang. daoci, wu ren yijing quanbu shifang.)], 
13 April 15.
    \34\ Human Rights in China, ``HRIC Law Note: Five Detained Women 
Released on `Guarantee Pending Further Investigation,' '' 13 April 15; 
Edward Wong, ``China Releases 5 Women's Rights Activists Detained for 
Weeks,'' New York Times, 13 April 15. The women were released on bail 
(qubao houshen), which Human Rights in China translates as ``release on 
guarantee pending further investigation.'' By releasing the women on 
bail, authorities may continue to restrict their freedom of movement, 
summon the women for further questioning, and monitor the women. For 
relevant Chinese legal provisions, see PRC Criminal Procedure Law 
[Zhonghua renmin gongheguo xingshi susong fa], passed 1 July 79, 
amended 17 March 96, 14 March 12, effective 1 January 13, arts. 68-69; 
Ministry of Public Security, Public Security Procedural Regulations on 
Handling Criminal Cases [Gong'an jiguan banli xingshi anjian chengxu 
guiding], issued 13 December 12, effective 1 January 13, arts. 77, 85-
86, 89.
    \35\ ``Beijing Stomps on Civil Society,'' Wall Street Journal, 15 
April 15; Human Rights in China, ``HRIC Law Note: Five Detained Women 
Released on `Guarantee Pending Further Investigation,' '' 13 April 15; 
``China's Five Women's Rights Activists Return Home, Immediately Under 
Close Surveillance'' [Zhongguo wu nuquan huodong renshi huijia ji shou 
yanmi jiankong], Radio Free Asia, 14 April 15; Edward Wong, ``China 
Releases 5 Women's Rights Activists Detained for Weeks,'' New York 
Times, 13 April 15.
    \36\ Yaxue Cao, ``Detention of Five Chinese Feminist Activists at 
the Juncture of Beijing+20--An Interview With Gender Scholar Wang 
Zheng,'' China Change, 11 April 15; Emily Rauhala, ``Five Feminists 
Remain Jailed in China for Activities the Government Supports,'' Time, 
19 March 15; Rachel Lu, `` `They Are the Best Feminist Activists in 
China,' '' Foreign Policy, 17 March 15.
    \37\ Elizabeth Lynch, ``The Future Is Already Present? How the 
Draft Foreign NGO Management Law Could Be Applied,'' China Law & Policy 
(blog), 11 May 15; Simon Denyer, ``China Releases Five Women's Rights 
Activists After Global Uproar,'' Washington Post, 13 April 15; Yaxue 
Cao, ``Detention of Five Chinese Feminist Activists at the Juncture of 
Beijing+20--An Interview With Gender Scholar Wang Zheng,'' China 
Change, 11 April 15; Chinese Human Rights Defenders, ``[CHRB] 5 Women's 
& LGBT Rights Activists Detained in Escalating Clampdown on NGOs (3/6-
12/15),'' 12 March 15.
    \38\ Chinese Human Rights Defenders, ``[CHRB] 5 Women's & LGBT 
Rights Activists Detained in Escalating Clampdown on NGOs (3/6-12/
15),'' 12 March 15; Simon Denyer, ``China Releases Five Women's Rights 
Activists After Global Uproar,'' Washington Post, 13 April 15; 
Weizhiming, ``Statement on Hangzhou Weizhiming Women's Organization 
Forced Closure'' [Hangzhou weizhiming funu jigou jiang bei po guanbi 
shengming], reprinted in Feminists Activists Delicious [Nuquan 
xingdongpai hen hao chi], WeChat post, 29 May 15; ``Chinese Women's 
Rights Group Collapses Under Official Pressure,'' Associated Press, 
reprinted in Guardian, 5 June 15.
    \39\ Ibid.; Edward Wong, ``China Releases 5 Women's Rights 
Activists Detained for Weeks,'' New York Times, 13 April 15; Yaxue Cao, 
``Detention of Five Chinese Feminist Activists at the Juncture of 
Beijing+20--An Interview With Gender Scholar Wang Zheng,'' China 
Change, 11 April 15; ``China Targets Rights Group Yirenping After 
Activists' Release,'' BBC, 15 April 15.
    \40\ William Wan, ``China Raids NGO Offices in Latest Sign of 
Crackdown on Dissent,'' Washington Post, 26 March 15; Yaxue Cao, 
``Detention of Five Chinese Feminist Activists at the Juncture of 
Beijing+20--An Interview With Gender Scholar Wang Zheng,'' China 
Change, 11 April 15; ``China Targets Rights Group Yirenping After 
Activists' Release,'' BBC, 15 April 15; Sui-Lee Wee, ``Chinese Police 
Detain Two Activists Linked to Prominent NGO,'' Reuters, 15 June 15; 
Didi Kirsten Tatlow, ``Lawyer Charged After Trying To Defend June 4 
Commemorators,'' New York Times, Sinosphere (blog), 7 July 14.
    \41\ Weizhiming, ``Statement on the Forced Closure of Hangzhou 
Weizhiming Women's Organization'' [Hangzhou weizhiming funu jigou jiang 
bei po guanbi shengming], reprinted in Feminists Activists Delicious 
[Nuquan xingdongpai hen hao chi], WeChat post, 29 May 15; Vanessa Piao, 
``Pressure From Chinese Authorities Forces Ex-Detained Feminist To 
Shutter Organization,'' New York Times, Sinosphere (blog), 5 June 15. 
See also ``Chinese Women's Rights Group Collapses Under Official 
Pressure,'' Associated Press, reprinted in Guardian, 5 June 15.
    \42\ China ranks 56th for labor force participation out of 142 
countries in the World Economic Forum Global Gender Gap Report 2014. 
World Economic Forum, ``The Global Gender Gap Report 2014,'' 28 October 
14, 150.
    \43\ World Bank, ``Labor Force Participation Rate, Female (% of 
Female Population Ages 15+) (Modeled ILO Estimate),'' last visited 7 
May 15.
    \44\ See, e.g., ``Building a Society With Equal Employment for 
Women,'' Sina, translated by and reprinted in Women of China, All-China 
Women's Federation, 6 February 15; Liu Yang, ``Rejected After Trial 
Period, Girl Sues Postal Express for Employment Discrimination'' 
[Shiyong hou zaoju nuhai gao youzheng sudi jiuye qishi], Beijing News, 
31 March 15; Zhou Dongxu, ``Female University Students Suffer 
Employment Discrimination, the Higher the Level of Education the More 
Severe [the Discrimination]'' [Nu daxuesheng jiuye zao qishi xueli yue 
gao yue yanzhong], Caixin, 28 January 15; Zhou Dongxu, ``Men Have 
Better Chance Than Women To Get Job Interview, Study Finds,'' Caixin, 
30 January 15.
    \45\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
36(a); All-China Women's Federation and National Bureau of Statistics 
of China, ``Report on Major Results of the Third Wave Survey on the 
Social Status of Women in China'' [Disan qi zhongguo funu shehui diwei 
diaocha zhuyao shuju baogao], Chinese Women's Research Network, 26 
October 11, item 3; Christina Larson, ``Why China Needs a `Lean In' 
Movement,'' Bloomberg, 20 May 13.
    \46\ World Economic Forum, ``The Global Gender Gap Report 2014,'' 
28 October 14, 151. 18 percent of firms have female top managers 
according to the World Economic Forum Global Gender Gap Report. An 
analysis of 300 top Chinese firms by the New York Times found that on 
average fewer than 1 in 10 board members were female, and 126 of the 
300 companies had no female board members. Didi Kirsten Tatlow and 
Michael Forsythe, ``In China's Modern Economy, a Retro Push Against 
Women,'' New York Times, 20 February 15.
    \47\ See, e.g., Lijia Zhang, ``China's Savvy Young Women Begin To 
Tear Down the Walls of Gender Discrimination,'' South China Morning 
Post, 12 January 15; Yao Yao, ``Apology Asked for in Zhejiang's First 
Gender Discrimination Case Retrial,'' Women of China, All-China Women's 
Federation, 11 January 15; ``Zhejiang Province's First Gender 
Discrimination Case Won'' [Zhejiang sheng diyi lie xingbie qishi an 
shengsu], Radio Free Asia, 13 November 14.
    \48\ Liu Yang, ``Rejected After Trial Period, Girl Sues Postal 
Express for Employment Discrimination'' [Shiyong hou zaoju nuhai gao 
youzheng sudi jiuye qishi], Beijing News, 31 March 15; Liu Yang, 
``Female University Student Sues `Post' for Employment Discrimination, 
Case Has Been Filed'' [Nu daxuesheng qisu ``youzheng'' jiuye qishi huo 
li'an], Beijing News, 1 February 15; `` `Recruiting Female Couriers Is 
Illegal,' Taken to Court on Accusations of Gender-Based Discrimination, 
Beijing Post Refuses To Admit Wrongdoing'' [``Zhao nu kuaidiyuan shi 
weifa'', xingbie qishi beigao shang fating, beijing youzheng ju bu 
rencuo], Nuquan Zhi Sheng, reprinted in Chuansongmen, 20 April 15.
    \49\ ``Building a Society With Equal Employment for Women,'' Sina, 
translated by and reprinted in Women of China, All-China Women's 
Federation, 6 February 15; Zhang Ling and Zhang Shuling, ``Girl Who 
Sued Giant for Employment Discrimination Will Receive Compensation'' 
[Nusheng gao juren jiuye qishi huozeng zijin], Beijing News, 19 
December 13; Peng Xiaofei, ``Amicable Settlement in First Gender-Based 
Employment Discrimination Case'' [Jiuye xingbie qishi diyi an hejie], 
Beijing Morning Post, 19 December 13.
    \50\ Chinese Working Women Network et al., ``A Joint Parallel 
Report Concerning the People's Republic of China for Consideration by 
the United Nations Committee on the Elimination of All Forms of 
Discrimination against Women at its 59th Session,'' 23 September 14, 
paras. 26-28, 30; Network of Chinese Human Rights Defenders and a 
Coalition of NGOs, ``Civil Society Report Submitted to the Committee on 
the Elimination of Discrimination against Women For Its Review at the 
59th Session of the Combined 7th and 8th Report by the People's 
Republic of China on Its Implementation of the Convention on the 
Elimination of All Forms of Discrimination against Women,'' 30 
September 14, para. 33.
    \51\ Zhou Jing, ``Female Worker Forced To Quit After Becoming 
Pregnant, How To Protect Women's Rights and Interests?'' [Nugong 
huaiyun bei bi cizhi, funu quanyi ruhe baozhang?], Xinhua, 10 March 15.
    \52\ Gao Weiqiang, ``All-China Federation of Trade Unions 
Publicizes 10 Typical Illegal Labor Cases: Gender Employment 
Discrimination Is the First Case'' [Quanzong gongbu shi da laodong 
weifa dianxing an: jiuye xingbie qishi diyi an pai shouwei], CCTV, 2 
February 15; Sarah O'Meara, ``Women Cheated of Maternity Benefits in 
China,'' Telegraph, 3 March 15; Xu Yihang and Xu Ridan, ``Within the 
Law Remain Provisions [That Are] Difficult To Implement; NPC and CPPCC 
In-Depth Analysis of Reasons'' [Falu zhong cunzai nanyi luoshi de 
fatiao daibiao weiyuan shenru pouxi yuanyin], Justice Net, 11 May 15.
    \53\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 7. China signed the 
ICESCR on October 27, 1997, and ratified it on March 27, 2001. See 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Economic, Social and Cultural Rights, last 
visited 14 July 15. Convention on the Elimination of All Forms of 
Discrimination against Women, adopted and opened for signature, 
ratification, and accession by UN General Assembly resolution 34/180 of 
18 December 79, entry into force 3 September 81, art. 11.1. China 
signed the convention on July 17, 1980, and ratified it on November 4, 
1980. See United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention on the Elimination of All Forms of Discrimination against 
Women, last visited 14 September 12.
    \54\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 48; PRC Labor Law 
[Zhongghua renmin gongheguo laodong fa], passed 5 July 94, effective 1 
January 95, art. 13; PRC Law on the Protection of Women's Rights and 
Interests [Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 
April 92, effective 1 October 92, amended 28 August 05, art. 2.
    \55\ PRC Labor Law [Zhongghua renmin gongheguo laodong fa], passed 
5 July 94, effective 1 January 95, art. 29(3); PRC State Council, 
Special Provisions for the Work Protection of Female Employees [Nu 
zhigong laodong baohu tebie guiding], issued and effective 28 April 12, 
art. 5.
    \56\ Ibid., arts. 59, 60, 63; Ibid., Appendix, paras. 1, 2. See 
also China Labour Bulletin, ``Workplace Discrimination in China,'' last 
visited 28 May 15.
    \57\ United Nations Educational, Scientific and Cultural 
Organization (UNESCO) Institute for Statistics, ``Ratio of Female to 
Male Primary Enrollment,'' reprinted in World Bank, last visited 8 May 
15.
    \58\ United Nations Educational, Scientific and Cultural 
Organization (UNESCO) Institute for Statistics, ``Ratio of Female to 
Male Secondary Enrollment,'' reprinted in World Bank, last visited 2 
April 15.
    \59\ United Nations Educational, Scientific and Cultural 
Organization (UNESCO) Institute for Statistics, ``Ratio of Female to 
Male Tertiary Enrollment,'' reprinted in World Bank, last visited 2 
April 15.
    \60\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
34; China Women's University, ``The Shadow Report of Chinese Women's 
NGOs on the Combined Seventh and Eighth Periodic Report Submitted by 
China Under Article 18 of the Convention on the Elimination of All 
Forms of Discrimination against Women: Equal Right in Education 
(Article 10),'' September 2014, 2; Institute of Sociology under the 
Yunnan Academy of Social Sciences, Gender and Development in China 
Network, Beijing Zhongze Women's Legal Consulting Services Center, 
``The Shadow Report of Chinese Women's NGOs on the Combined Seventh and 
Eighth Periodic Report Submitted by China Under Article 18 of the 
Convention on the Elimination of All Forms of Discrimination against 
Women: Rural Women (Article 14),'' September 2014, 4.
    \61\ PRC Education Law [Zhonghua renmin gongheguo jiaoyu fa], 
passed 18 March 95, effective 1 September 95, amended 27 August 09, 
art. 9.
    \62\ UN Committee on the Elimination of Discrimination against 
Women, List of Issues and Questions in Relation to the Combined Seventh 
and Eighth Periodic Reports of China, Addendum, Replies of China, 
CEDAW/C/CHN/Q/7-8/Add.1, 15 August 14, para. 14(1).
    \63\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, art. 30.
    \64\ PRC Rural Land Responsibility Law [Zhonghua renmin gongheguo 
nongcun tudi chengbao fa], passed 29 August 02, effective 1 March 03, 
art. 15; Tania Branigan, ``For Richer, For Poorer: How China's Laws Put 
Women Second,'' Guardian, 24 February 15. See also Xiaobei Wang, Rights 
and Resources Initiative, ``Ensuring Poor Rural Women Benefit From 
Forestland Reform in China: Summary of Field Research and Policy 
Recommendations,'' July 2012, sec. 2.
    \65\ Landesa, ``Summary of 2011 17-Province Survey's Findings 
Insecure Land Rights: The Single Greatest Challenge Facing China's 
Sustainable Development and Continued Stability,'' 26 April 12. See 
also Tim Hanstad, ``Depriving Women Farmers of Land Rights Will Set 
Back China,'' South China Morning Post, 4 November 14.
    \66\ Institute of Sociology Under the Yunnan Academy of Social 
Sciences, Gender and Development in China Network, Beijing Zhongze 
Women's Legal Consulting Services Center, ``The Shadow Report of 
Chinese Women's NGOs on the Combined Seventh and Eighth Periodic Report 
Submitted by China Under Article 18 of the Convention on the 
Elimination of All Forms of Discrimination against Women: Rural Women 
(Article 14),'' September 2014, 3; UN Committee on the Elimination of 
Discrimination against Women, Concluding Observations on the Combined 
Seventh and Eighth Periodic Reports of China, Adopted by the Committee 
at its 59th Session (20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 
14 November 14, para. 44; Tim Hanstad, ``Depriving Women Farmers of 
Land Rights Will Set Back China,'' South China Morning Post, 4 November 
14; Sun Jiawei, ``Who Will Protect Their Land Rights?'' [Shui lai baohu 
tamen de tudi quanyi?], Heilongjiang Daily, 7 May 15.
    \67\ Tim Hanstad, ``Depriving Women Farmers of Land Rights Will Set 
Back China,'' South China Morning Post, 4 November 14; Institute of 
Sociology under the Yunnan Academy of Social Sciences, Gender and 
Development in China Network, Beijing Zhongze Women's Legal Consulting 
Services Center, ``The Shadow Report of Chinese Women's NGOs on the 
Combined Seventh and Eighth Periodic Report Submitted by China Under 
Article 18 of the Convention on the Elimination of All Forms of 
Discrimination against Women: Rural Women (Article 14),'' September 
2014, 3-4.
    \68\ Ren Mingchao, ``Nearly 100 Female Villagers Sue Village 
Committee for Gender Discrimination'' [Jin bai nu cunmin zhuanggao 
cunweihui xingbie qishi], China Youth Daily, 26 November 14; Tania 
Branigan, ``For Richer, For Poorer: How China's Laws Put Women 
Second,'' Guardian, 24 February 15.
    \69\ Supreme People's Court, ``Supreme People's Court Guidance on 
Various Issues Regarding the Application of the PRC Marriage Law 
(Three)'' [Zuigao renmin fayuan guanyu shiyong ``zhonghua renmin 
gongheguo hunyin fa'' ruogan wenti de jieshi (san)], issued 9 August 
11, art. 10. See also, Elizabeth M. Lynch, ``Heaven Help the Working 
Girl: The Impact of the Law on Women in China,'' China Law & Policy 
(blog), 28 January 15; UN Committee on the Elimination of 
Discrimination against Women, Concluding Observations on the Combined 
Seventh and Eighth Periodic Reports of China, Adopted by the Committee 
at its 59th Session (20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 
14 November 14, para. 44.
    \70\ ``Watering the Gardens of Others,'' Economist, 12 June 15; 
Tania Branigan, ``For Richer, For Poorer: How China's Laws Put Women 
Second,'' Guardian, 24 February 15.
    \71\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th Session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
44.
    \72\ Feng Yuan, ``Reprint: Feng Yuan: What To Make of the Anti-
Domestic Violence Law Comment Draft? A Detailed Interpretation'' 
[Zhuanzai: feng yuan: ruhe lijie fan jiabao fa zhengqiu yjian gao? chao 
xiangxi jiedu], Nuquan Zhi Sheng, reprinted in Rights Defense Network, 
18 December 14; ``Home Truths,'' Economist, 6 December 14; Zhou 
Hongshuang, ``Each Year All-China Women's Federation Receives Up to 
50,000 Domestic Violence Complaints; How Many Hurdles Remain in 
Combating Domestic Violence?'' [Meinian fulian jie jiating baoli tousu 
da 5 wan jian fan jiabao yao guo ji daokan?], Guangming Daily, 12 
January 15; Wang Xiaodong, ``Law To Get Tough on Domestic Violence,'' 
China Daily, 5 March 15.
    \73\ State Council Legislative Affairs Office, ``Legislative 
Affairs Office of the State Council Circular Publicly Requesting 
Comments on PRC Anti-Domestic Violence Law (Draft for Comment)'' 
[Guowuyuan fazhi bangongshi guanyu ``zhonghua renmin gongheguo fan 
jiating baoli fa (zhengqiu yijian gao)'' gongkai zhengqiu yijian de 
tongzhi], 25 November 14; State Council Legislative Affairs Office, PRC 
Anti-Domestic Violence Law (Draft for Comment) [Zhonghua renmin 
gongheguo fan jiating baoli fa (zhengqiu yijian gao)], 25 November 14.
    \74\ State Council Legislative Affairs Office, PRC Anti-Domestic 
Violence Law (Draft for Comment) [Zhonghua renmin gongheguo fan jiating 
baoli fa (zhengqiu yijian gao)], 25 November 14, art. 2.
    \75\ Ibid., chap. 2.
    \76\ Ibid., chap. 3.
    \77\ Ibid., chap. 4.
    \78\ Yang Changping, ``Anti-Domestic Violence Law Enters 
Legislative Process, Experts Recommend Sexual Violence Be Considered 
Domestic Violence'' [Fan jiating baoli fa jinru lifa chengxu zhuanjia 
jianyi xing baoli yingdang suan jiabao], Beijing Evening News, 14 
December 14; Tania Branigan, ``First Women To Benefit From New Chinese 
Laws on Domestic Violence,'' Guardian, 31 December 14; Lijia Zhang, 
``New Domestic Violence Law Won't Change Chauvinistic Attitudes of 
China's Men,'' South China Morning Post, 8 December 14; Zhou 
Hongshuang, ``Each Year All-China Women's Federation Receives 50,000 
Domestic Violence Complaints, How Many Hurdles Remain in Combating 
Domestic Violence?'' [Meinian fulian jie jiating baoli tousu da 5 wan 
jian fan jiabao yao guo ji daokan?], Guangming Daily, 12 January 15.
    \79\ Kaiser Kuo and Jeremy Goldkorn, ``Domestic Abuse in China,'' 
Asia Society, ChinaFile (blog), Sinica Podcast, 5 December 14, 23:09; 
Lijia Zhang, ``New Domestic Violence Law Won't Change Chauvinistic 
Attitudes of China's Men,'' South China Morning Post, 8 December 14; 
Yang Changping, ``Anti-Domestic Violence Law Enters Legislative 
Process, Experts Recommend Sexual Violence Be Considered Domestic 
Violence'' [Fan jiating baoli fa jinru lifa chengxu zhuanjia jianyi 
xing baoli yingdang suan jiabao], Beijing Evening News, 14 December 14.
    \80\ Feng Yuan, ``Reprint: Feng Yuan: What To Make of the Anti-
Domestic Violence Law Comment Draft? A Detailed Interpretation'' 
[Zhuanzai: feng yuan: ruhe lijie fan jiabao fa zhengqiu yjian gao? chao 
xiangxi jiedu], Nuquan Zhi Sheng, reprinted in Rights Defense Network, 
18 December 14; Deng Xueping, `` `Anti-Domestic Violence' Law Still 
Conservative'' [``Fan jiabao'' lifa reng xian baoshou], Beijing News, 
26 November 14; Yang Changping, ``Anti-Domestic Violence Law Enters 
Legislative Process, Experts Recommend Sexual Violence Be Considered 
Domestic Violence'' [Fan jiating baoli fa jinru lifa chengxu zhuanjia 
jianyi xing baoli yingdang suan jiabao], Beijing Evening News, 14 
December 14.
    \81\ Kaiser Kuo and Jeremy Goldkorn, ``Domestic Abuse in China,'' 
Asia Society, ChinaFile (blog), Sinica Podcast, 5 December 14, 27:38; 
Feng Yuan, ``Reprint: Feng Yuan: What To Make of the Anti-Domestic 
Violence Law Comment Draft? A Detailed Interpretation'' [Zhuanzai: feng 
yuan: ruhe lijie fan jiabao fa zhengqiu yjian gao? chao xiangxi jiedu], 
Nuquan Zhi Sheng, reprinted in Rights Defense Network, 18 December 14; 
Yang Changping, ``Anti-Domestic Violence Law Enters Legislative 
Process, Experts Recommend Sexual Violence Be Considered Domestic 
Violence'' [Fan jiating baoli fa jinru lifa chengxu zhuanjia jianyi 
xing baoli yingdang suan jiabao], Beijing Evening News, 14 December 14; 
State Council Legislative Affairs Office, PRC Anti-Domestic Violence 
Law (Draft for Comment) [Zhonghua renmin gongheguo fan jiating baoli fa 
(zhengqiu yijian gao)], 25 November 14, chap. 4, art. 27.
    \82\ National People's Congress Standing Committee, PRC Anti-
Domestic Violence Law (Draft) [Zhonghua renmin gongheguo fan jiating 
baoli fa (cao'an)], released for public comment 8 September 15; 
``Soliciting Opinions on Draft Laws'' [Falu cao'an zhengqiu yijian], 
National People's Congress, last visited 24 September 15.
    \83\ National People's Congress Standing Committee, PRC Anti-
Domestic Violence Law (Draft) [Zhonghua renmin gongheguo fan jiating 
baoli fa (cao'an)], released for public comment 8 September 15, art. 2; 
State Council Legislative Affairs Office, PRC Anti-Domestic Violence 
Law (Draft) (Draft for Comment) [Zhonghua renmin gongheguo fan jiating 
baoli fa (cao'an) (zhengqiu yijian gao)], 25 November 14, art. 2. 
Article 2 of the November 2014 draft included a definition of ``family 
members,'' but this definition did not appear in the September 2015 
draft.
    \84\ ``What's New in the New Domestic Violence Law Draft?'' China 
Law Translate (blog), 16 September 15.
    \85\ National People's Congress Standing Committee, PRC Anti-
Domestic Violence Law (Draft) [Zhonghua renmin gongheguo fan jiating 
baoli fa (cao'an)], released for public comment 8 September 15, art. 2; 
State Council Legislative Affairs Office, PRC Anti-Domestic Violence 
Law (Draft) (Draft for Comment) [Zhonghua renmin gongheguo fan jiating 
baoli fa (cao'an) (zhengqiu yijian gao)], 25 November 14, art. 2. 
Article 2 of the November 2014 draft defined domestic violence as 
``physical, emotional, and other abuse by family members.'' The 
September 2015 draft defines domestic violence as, ``abusive behavior 
toward family members, including beating, confining, mutilating, and 
restricting personal freedom.''
    \86\ National People's Congress Standing Committee, PRC Anti-
Domestic Violence Law (Draft) [Zhonghua renmin gongheguo fan jiating 
baoli fa (cao'an)], released for public comment 8 September 15, art. 
23.
    \87\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, and Ministry of Justice, Guiding Opinion 
on Handling Criminal Domestic Violence Cases in Accordance With the Law 
[Guanyu yifa banli jiating baoli fanzui anjian de yijian], issued 2 
March 15.
    \88\ Ibid.
    \89\ Ibid., item 20; ``Interpretation of Guiding Opinion on 
Handling Criminal Domestic Violence Cases in Accordance With the Law'' 
[Guanyu yifa banli jiating baoli fanzui anjian de yijian jiedu], 
Southern Net, 25 March 15.
    \90\ Ren Zhongyuan and Huang Ziyi, ``Protecting Women's Rights and 
Interests in the Shadow of Domestic Violence; The Not Completely 
Overturned Case of Li Yan'' [Jiabao yinying xia de funu quanyi baohu 
wei neng wanquan fanzhuan de li yan an], Southern Weekend, 30 April 15; 
Didi Kirsten Tatlow, ``China, in Suspending Woman's Death Sentence, 
Acknowledges Domestic Abuse,'' New York Times, 24 April 15; Chinese 
Human Rights Defenders, ``China Fails To Right a Wrong, Sentences 
Victim of Domestic Violence to Death a Second Time,'' 24 April 15.
    \91\ Li Haifu and Cai Xiaoli, ``Sichuan Woman Kills Husband Then 
Dismembers, Boils, and Discards Corpse; Claims She Suffered Domestic 
Violence'' [Sichuan nuzi sha fu hou jinxing fenge pengzhu paoshi cheng 
zaoshou jiabao], Sichuan News Net, reprinted in Xinhua, 30 January 13; 
Human Rights Watch, ``China: Commute Death Sentence in Domestic 
Violence Case,'' 30 January 13; Dui Hua Foundation, ``China's Supreme 
Court Overturns Death Sentence of Domestic Violence Survivor,'' 23 June 
14.
    \92\ Li Haifu and Cai Xiaoli, ``Sichuan Woman Kills Husband Then 
Dismembers, Boils, and Discards Corpse; Claims She Suffered Domestic 
Violence'' [Sichuan nuzi sha fu hou jinxing fenge pengzhu paoshi cheng 
zaoshou jiabao], Sichuan News Net, reprinted in Xinhua, 30 January 13; 
Human Rights Watch, ``China: Commute Death Sentence in Domestic 
Violence Case,'' 30 January 13.
    \93\ Emma Graham-Harrison, ``Domestic Violence Victim in China Wins 
Death Sentence Reprieve,'' Guardian, 24 April 15; Dui Hua Foundation, 
``China's Supreme Court Overturns Death Sentence of Domestic Violence 
Survivor,'' 23 June 14.
    \94\ Raymond Li, ``Outcry Over Sichuan Woman's Death Sentence for 
Killing Abusive Husband,'' South China Morning Post, 30 January 13; 
Amnesty International, ``Document--Chinese Woman Faces Imminent 
Execution: Li Yan,'' 24 January 13; Human Rights Watch, ``China: 
Commute Death Sentence in Domestic Violence Case,'' 30 January 13.
    \95\ Amnesty International, ``Good News: Death Sentence for Li Yan 
Overturned,'' 27 April 15; Emma Graham-Harrison, ``Domestic Violence 
Victim in China Wins Death Sentence Reprieve,'' Guardian, 24 April 15; 
Didi Kirsten Tatlow, ``Courts in China Face Balancing Act on Domestic 
Abuse,'' New York Times, Sinosphere (blog), 6 May 15.
    \96\ Didi Kirsten Tatlow, ``China, in Suspending Woman's Death 
Sentence, Acknowledges Domestic Abuse,'' New York Times, 24 April 15; 
Emma Graham-Harrison, ``Domestic Violence Victim in China Wins Death 
Sentence Reprieve,'' Guardian, 24 April 15; Ren Zhongyuan and Huang 
Ziyi, ``Protecting Women's Rights and Interests in the Shadow of 
Domestic Violence; The Not Completely Overturned Case of Li Yan'' 
[Jiabao yinying xia de funu quanyi baohu wei neng wanquan fanzhuan de 
li yan an], Southern Weekend, 30 April 15; Didi Kirsten Tatlow, 
``Courts in China Face Balancing Act on Domestic Abuse,'' New York 
Times, Sinosphere (blog), 6 May 15.
    \97\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, arts. 40, 58; State 
Council, Special Provisions for the Work Protection of Female Employees 
[Nu zhigong laodong baohu tebie guiding], issued and effective 28 April 
12, art. 11.
    \98\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th Session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
37(c).
    \99\ Liu Yunlong, ``All-China Federation of Trade Unions To Put 
Forward Proposal on Sexual Harassment in the Workplace'' [Quanguo zong 
gonghui jiang jiu gongzuo changsuo xingsaorao wenti jinxing ti'an], 
China National Radio, 2 March 15.
    \100\ ``Guangzhou Female Passengers Call on Public Transit System 
To Create Sexual Harassment Prevention Mechanisms To Combat Groping'' 
[Guangzhou nu chengke huyu gonggong jiaotong xitong jian xingsaorao 
fangfan jizhi daji xian zhushou], Radio Free Asia, 16 January 15.
    \101\ Rights Defense Network, ``Hunan Anren County Requires Mothers 
To Get IUD Before Child Can Get Hukou'' [Hunan anren xian guiding muqin 
shanghuan hou xinshenger fangneng shang hukou], 9 October 14; Zhang 
Hongying, ``Shangrao County Villager Detained for Refusing To Pay 
Social Compensation Fee'' [Shangrao xian yi cunmin ju jiao shehui 
fuyang fei bei juliu], Shangrao Evening News, 11 November 14; Nectar 
Gan, ``Chinese Villagers and Infant Illegally Detained for Days After 
Violating One-Child Policy,'' South China Morning Post, 12 December 14; 
Zhao Meng and Zhang Xuan, ``Shandong Linyi Family Planning Office 
Exposed Detaining `Extra Birth Family' Behind 4 Locks; Police Rescue 
[the Family]'' [Shandong linyi jishengban bei pu she 4 dao suo guan 
``chao sheng hu,'' jingfang jieru jiejiu], The Paper, 10 December 14.
    \102\ ``Woman in Lanba Township, Shuicheng County, Guizhou Province 
Detained and Beaten During Forced Pregnancy Inspection'' [Guizhou 
shuicheng xian lanba zhen funu bei qiangzhi cha yun zhong, bei guanya 
ouda], Radio Free Asia, 22 January 15.
    \103\ Beijing Declaration and Platform for Action (1995), adopted 
at the Fourth World Conference on Women on 27 October 95, and endorsed 
by UN General Assembly resolution 50/203 on 22 December 95, paras. 115, 
124(b); UN Women, Convention on the Elimination of All Forms of 
Discrimination against Women, General Recommendations Made by the 
Committee on the Elimination of Discrimination against Women, last 
visited 24 June 15, General Recommendation No. 19 (11th Session, 1992), 
paras. 22, 24(m), General Recommendation No. 21 (13th Session, 1994), 
paras. 21-23.
    \104\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th Session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
24.
    \105\ Chinese Human Rights Defenders, `` `We Can Beat You to Death 
With Impunity' Secret Detention and Abuse of Women in China's `Black 
Jails,' '' October 2014, 1, 4-6.
    \106\ Ibid., 1, 9-12.
    \107\ Network of Chinese Human Rights Defenders and a Coalition of 
NGOs, ``Civil Society Report Submitted to the Committee on the 
Elimination of Discrimination against Women For Its Review at the 59th 
Session of the Combined 7th and 8th Report by the People's Republic of 
China on Its Implementation of the Convention on the Elimination of All 
Forms of Discrimination against Women,'' 30 September 14, para. 10; Dui 
Hua Foundation, ``Submission to the 59th Session of the UN Committee on 
the Elimination of Discrimination against Women,'' 3 October 14, 6; UN 
Committee on the Elimination of Discrimination against Women, 
Concluding Observations on the Combined Seventh and Eighth Periodic 
Reports of China, Adopted by the Committee at its 59th Session (20 
October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
29(c); CECC, 2014 Annual Report, 9 October 14, 83-84. See also Asia 
Catalyst, `` `Custody and Education': Arbitrary Detention for Female 
Sex Workers in China,'' December 2013.

                           Human Trafficking


                                 Trends

    The Commission observed some positive legal developments in 
the area of human trafficking during the 2015 reporting year. 
Nevertheless, China remains a country of origin \1\ and 
destination \2\ for the trafficking of men, women, and 
children, as defined under the UN Protocol to Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and 
Children (UN TIP Protocol).\3\ Men, women, and children are 
reportedly trafficked within China's borders for forced labor, 
including in the construction, manufacturing, brick-making, and 
home care industries.\4\ Women and girls also are reportedly 
trafficked for forced marriage and sexual exploitation.\5\ 
People with disabilities and children reportedly are 
particularly vulnerable to trafficking for the purposes of 
forced begging.\6\
    The Chinese and Southeast Asian governments,\7\ non-
governmental organizations (NGOs),\8\ and the United Nations 
report that cross-border trafficking into China for forced 
marriage and sexual exploitation appears to be increasing.\9\ A 
spokesperson for China's Supreme People's Court said the crime 
of trafficking for commercial sexual exploitation is 
``increasingly prominent,'' and that trafficking of foreign 
women is increasing in some regions of China.\10\ Cambodian and 
international media reported a growing trend of Cambodian women 
being trafficked into China for forced marriage.\11\ The 
Vietnamese government reported a rise in trafficking of 
Vietnamese citizens, saying 85 percent of victims were women 
and children, and 70 percent were trafficked to China.\12\ The 
Vietnam-based NGO Pacific Links Foundation also reported an 
increase in trafficking from Vietnam to China for forced 
marriage.\13\ Burmese media reported that police in Burma 
handled more trafficking cases in 2014 compared to 2013, with 
the majority of these cases involving trafficking to China for 
forced marriage.\14\

                              Risk Factors

    China's ongoing human trafficking problem stems from a 
variety of economic, demographic, and political factors. The 
United Nations Office on Drugs and Crime reports that China is 
a major country of origin for migrants smuggled to other parts 
of Asia, North America, and Europe.\15\ Primarily driven by 
socio-economic factors, these migrants are vulnerable to human 
trafficking.\16\ Within China, domestic migrant workers are 
reportedly vulnerable to being trafficked for forced labor.\17\ 
The children of domestic migrant workers, who are in some cases 
unable to migrate with their parents, are at risk of forced 
labor, forced marriage, and sexual exploitation.\18\ Poverty 
and regional instability \19\ contribute to trafficking from 
Southeast Asia into China for forced labor and sexual 
exploitation.\20\ Amid wage increases and labor shortages,\21\ 
some Chinese factories employ illegal foreign migrant workers 
\22\ who reportedly face exploitative conditions \23\ and are 
at risk of trafficking for forced labor.\24\
    China's sex ratio imbalance--exacerbated by government-
imposed birth limits and in keeping with a traditional bias 
toward sons \25\--has created a demand for marriageable women 
and may contribute to human trafficking for forced 
marriage.\26\ According to estimates by the National Bureau of 
Statistics of China, in 2014, China had nearly 34 million more 
men than women.\27\ The sex ratio at birth, while lower than 
previous years,\28\ remained high at roughly 116 boys born for 
every 100 girls.\29\ According to demographers, a normal sex 
ratio at birth is within the range of 103 to 106 boys born for 
every 100 girls.\30\
    Some Uyghurs from the Xinjiang Uyghur Autonomous Region 
reportedly attempt to flee religious and other forms of 
persecution in China with the help of smugglers in China and 
Southeast Asia,\31\ putting them at risk of human 
trafficking.\32\ According to Reuters, in March 2014, Thai 
authorities intercepted more than 200 Uyghurs held in camps run 
by suspected human traffickers in Thailand.\33\ Thai 
authorities subsequently held many of the Uyghurs in reportedly 
poor conditions in detention facilities.\34\ In late June 2015, 
Thai authorities reportedly allowed 173 of the refugees to 
leave Thailand and go to Turkey,\35\ but forcibly returned 
another 109 refugees to China, where many reportedly remained 
in detention as of August 2015.\36\ [For more information, see 
Section IV--Xinjiang.] North Korean refugees who escape into 
China also remain at risk for human trafficking,\37\ although 
border crossings have reportedly decreased in recent years.\38\ 
In February 2015, the independent website NK News reported a 
case of Chinese smugglers forcing North Korean refugees to 
perform sex acts online for a South Korea-based Web 
broadcasting service.\39\ In addition, according to research by 
the Database Center for North Korean Human Rights, the 
government of the Democratic People's Republic of Korea 
reportedly sends North Korean laborers abroad, including to 
China, under conditions that may constitute trafficking.\40\

                        Anti-Trafficking Efforts

    During the 2015 reporting year, the Chinese government 
continued to cooperate with its neighbors to combat human 
trafficking by signing a new anti-trafficking agreement with 
the Laotian government in September 2014 \41\ and by working 
with the five other member countries of the Coordinated Mekong 
Ministerial Initiative Against Trafficking (COMMIT) \42\ to 
draft COMMIT's fourth Sub-Regional Plan of Action, adopted in 
April 2015.\43\ The Chinese government also provided logistical 
support and significant funding for COMMIT-related workshops 
and activities in 2014, according to the UN Action for 
Cooperation against Trafficking in Persons annual report.\44\
    While China's domestic legislation remains inconsistent 
with UN TIP Protocol standards,\45\ the Chinese government took 
steps to improve its laws and regulations on human trafficking. 
In August 2015, the National People's Congress Standing 
Committee issued the Ninth Amendment to the PRC Criminal Law, 
effective November 1, 2015,\46\ that included a change to 
Article 241.\47\ Based on the current version of Article 241, 
buyers of trafficked women and children can avoid criminal 
liability if they have not harmed or prevented authorities from 
rescuing the victim.\48\ The amended law provides that buyers 
face criminal liability,\49\ although they may still receive a 
lighter punishment.\50\ Additionally, in December 2014, the 
central government issued an opinion that allows authorities to 
terminate custody rights of parents who sell their 
children,\51\ and in February 2015, the Supreme People's Court 
published eight model cases that provided sentencing guidance 
for trafficking cases.\52\
    In recent years, the Chinese government has undertaken two 
potentially positive reforms; these reforms, however, did not 
appear to significantly reduce the problem of human trafficking 
during the reporting year. In late 2013, the government 
abolished the reeducation through labor (RTL) system,\53\ a 
form of arbitrary detention in which individuals were detained 
without trial \54\ and forced to labor.\55\ RTL detainee labor 
constituted forced labor as defined by the 1930 International 
Labour Organization Forced Labor Convention,\56\ and 
constituted trafficking as defined by the UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children (UN TIP Protocol).\57\ Since the abolition 
of RTL, authorities have reportedly continued the use of other 
forms of administrative detention, including ``custody and 
education'' facilities and compulsory drug detoxification 
centers,\58\ where detainees perform forced labor.\59\ At a 
press conference in November 2014, the vice minister of China's 
Ministry of Justice said that the ``vast majority'' of China's 
RTL facilities had been converted to compulsory drug 
detoxification centers.\60\
    The second reform, a November 2013 adjustment to China's 
population planning policy, allowed married couples in which 
one parent is an only child to bear a second child.\61\ Some 
experts suggested this reform had the potential to ameliorate 
China's sex ratio imbalance, in turn reducing demand for 
trafficking for forced marriage.\62\ Most couples eligible to 
have a second child under the new exception reside in 
cities,\63\ and while data from China's 2010 census show that 
cities have sex ratio imbalances, in 27 out of 31 provincial-
level jurisdictions, the largest imbalances were found in 
townships or villages.\64\ Many residents of these areas were 
already allowed to have a second child under existing policy 
exceptions.\65\ The dean of the Renmin University School of 
Society and Population and other observers have argued that the 
2013 policy adjustment alone is unlikely to reverse China's sex 
ratio imbalance.\66\ [For more information on China's sex ratio 
imbalance, see Section II--Population Control.]

                      Anti-Trafficking Challenges

    In its Concluding Observations on the Combined Seventh and 
Eighth Periodic Reports of China, issued November 7, 2014, the 
UN Committee on the Elimination of Discrimination against Women 
noted its concern over ``the lack of clarity as to whether 
domestic law criminalizes all forms of trafficking . . . .'' 
\67\ The UN TIP Protocol definition of human trafficking 
involves three components: the action of recruitment, transfer, 
harboring, or receipt of persons; the means of force, coercion, 
fraud, deception, or control; and ``the purpose of 
exploitation,'' including sexual exploitation or forced 
labor.\68\ Although the PRC Criminal Law prohibits human 
trafficking,\69\ China's domestic legislation remains 
inconsistent with UN TIP Protocol standards.\70\ For example, 
the current definition of trafficking under Chinese law \71\ 
does not clearly cover certain types of non-physical coercion 
\72\ or offenses against male victims.\73\ These forms of 
trafficking are covered under Article 3 of the UN TIP 
Protocol.\74\ Although the State Council's China Action Plan To 
Combat Trafficking in Persons (2013-2020), issued in January 
2013, revised the Chinese term for trafficking to include all 
persons (guaimai renkou),\75\ both the current version of the 
PRC Criminal Law \76\ and the Ninth Amendment to the PRC 
Criminal Law refer only to women and children.\77\
    The PRC Criminal Law is also overly broad compared with the 
UN TIP Protocol in that its definition of trafficking includes 
the purchase or abduction of children for subsequent sale 
without specifying the end purpose of these actions.\78\ Under 
the UN TIP Protocol, illegal adoptions are considered 
trafficking only if the end purpose of the sale is 
exploitation, such as sexual exploitation or forced labor.\79\ 
Due to these inconsistencies between China's legal definition 
of human trafficking and international standards, official 
reports and statistics do not provide an accurate picture of 
the number of trafficking cases China's criminal justice system 
handles.\80\

------------------------------------------------------------------------
    Representative Human Trafficking Cases Published During  the 2015
                             Reporting Year
-------------------------------------------------------------------------
<bullet> Shanghai municipality. According to Chinese media reports, in
 October 2014, police rescued 11 girls, aged 13 to 17, from Chongqing
 municipality and Sichuan province who had been trafficked to Shanghai
 municipality and forced into commercial sexual exploitation.\81\ The
 youngest victim, aged 13, used a client's cell phone to text her mother
 for help.\82\ Authorities detained eight suspects in connection with
 the case.\83\
<bullet> Inner Mongolia Autonomous Region. In November 2014, Chinese
 police disclosed that they had broken up an international criminal
 trafficking syndicate, rescuing 14 women and detaining 31 suspects.\84\
 According to media reports, traffickers promised the women jobs or
 holiday tours and then sold the women into forced marriages in rural
 China.\85\ Eleven of the 14 rescued women were from Burma, 5 of whom
 were under 18.\86\
<bullet> Anhui province. Chinese media reported in November 2014 that
 police in Anhui province broke up a criminal syndicate that was
 targeting women who appeared to suffer from ``mental disorders,'' \87\
 detaining eight suspects.\88\ The traffickers reportedly detained,
 beat, raped, and sold the women.\89\ Police found contracts in one
 suspect's home promising buyers that the women were able to bear
 children and were not married.\90\ Police believe the syndicate
 trafficked at least 10 women.\91\
------------------------------------------------------------------------

                               Hong Kong

    Hong Kong is a transit point and destination for human 
trafficking.\92\ An April 2015 UN report noted that Hong Kong's 
international airport is an important point of transit for 
migrant smuggling,\93\ and that these migrants are at risk of 
human trafficking.\94\ Migrant domestic workers in Hong Kong 
are particularly vulnerable to exploitation and abuse.\95\ 
These workers often arrive in Hong Kong owing large debts to 
employment agencies,\96\ and employers and placement agencies 
frequently confiscate the workers' passports.\97\ In a February 
2015 report, Amnesty International estimated that ``[t]housands 
of the approximately 300,000 migrant domestic workers . . . in 
Hong Kong were trafficked for exploitation and forced labor . . 
. .'' \98\ The anti-trafficking non-governmental organization 
(NGO) Justice Centre Hong Kong attributed the lack of precise 
data on the extent of human trafficking in Hong Kong in part to 
the absence of comprehensive anti-trafficking legislation.\99\ 
The UN Committee on the Elimination of Discrimination against 
Women as well as domestic and international NGOs expressed 
concern that Hong Kong's laws do not adequately address human 
trafficking,\100\ as the definition of human trafficking in 
Hong Kong's Crimes Ordinance covers only the transboundary 
movement of persons ``for the purpose of prostitution,'' not 
forced labor or other forms of trafficking.\101\ The Chinese 
central government has not extended the UN TIP Protocol to 
apply to Hong Kong.\102\ [For more information on Hong Kong, 
see Section VI--Developments in Hong Kong and Macau.]
    Notes to Section II--Human Trafficking

    \1\ See, e.g., Humanitarian Organization for Migrant Economics, 
``Shadow Report to 59th Session of the Committee of Elimination of All 
Forms of Discrimination against Women,'' October 2014, 3; Justin 
McIntosh, ``The Stubborn Cycle of Massage Parlor Trafficking,'' 
Columbus Monthly, May 2015; United Nations Action for Cooperation 
against Trafficking in Persons, ``Annual Progress Report 2014,'' 20 May 
15, 9; Sarah Lazarus, ``Slavery at Sea: Human Trafficking in the 
Fishing Industry Exposed,'' South China Morning Post, Post Magazine, 14 
June 15.
    \2\ See, e.g., Ligia Kiss et al., ``Health of Men, Women, and 
Children in Post-Trafficking Services in Cambodia, Thailand, and 
Vietnam: An Observational Cross-Sectional Study,'' Lancet Global 
Health, Vol. 3, March 2015, 156; ``Cambodian Trafficking Victim Warns 
Others Not To Succumb to Brokers,'' Radio Free Asia, 2 February 15; 
Nirmal Ghosh, ``Bride or Brothel--The Choice for Duped Vietnamese Women 
Trafficked to China in Thriving Industry,'' Straits Times, 7 December 
14; United Nations Action for Cooperation against Trafficking in 
Persons, ``Annual Progress Report 2014,'' 20 May 15, 9.
    \3\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 3(a). This protocol is also commonly referred to 
as the Palermo Protocol because it was adopted in Palermo, Italy. 
United Nations Treaty Collection, Chapter XVIII, Penal Matters, 12.a., 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime, last visited 26 May 
15. China acceded to the Protocol on February 8, 2010.
    \4\ Walk Free Foundation, ``The Global Slavery Index 2014,'' 13 
November 14, 102.
    \5\ Accountability and Transformation: Tier Rankings in the Fight 
Against Human Trafficking, Hearing of the Subcommittee on Africa, 
Global Health, Global Human Rights, and International Organizations, 
Committee on Foreign Affairs, U.S. House of Representatives, 22 April 
15, Testimony of Mark Lagon, President, Freedom House, 3; Charles 
Custer, ``Missing, Kidnapped, Trafficked: China Has a Problem With Its 
Children,'' Guardian, 12 March 15; Chen Huizhi, ``11 Girls Rescued From 
Child Prostitution Ring,'' Shanghai Daily, 1 April 15; Subin Kim, 
``Operators of Webcam Site Exploiting Defector Women Indicted,'' NK 
News, 24 February 15.
    \6\ Charles Custer, ``Missing, Kidnapped, Trafficked: China Has a 
Problem With Its Children,'' Guardian, 12 March 15; Walk Free 
Foundation, ``The Global Slavery Index 2014,'' 13 November 14, 102.
    \7\ Zhang Lei, ``Over 7,700 Trafficking Cases, Over Half Sentenced 
Harshly'' [7700 yu guaimai an zhongxing lu chao yiban], Beijing Evening 
News, 27 February 15; Minh Hung, ``Kidneys, Newborns, Wives for Sale: 
Human Trafficking on the Rise in Vietnam,'' Thanh Nien News, 21 April 
15; ``Human Trafficking Peaks in 2014,'' Eleven, 13 January 15; ``China 
Returns 6 Trafficked Vietnamese Women,'' Xinhua, 6 May 15.
    \8\ Sarah Lazarus, ``How Asia Is a Hub for `Silent Crime' of 
Modern-Day Slavery,'' South China Morning Post, Post Magazine, 7 June 
15; Nirmal Ghosh, ``Bride or Brothel--The Choice for Duped Vietnamese 
Women Trafficked to China in Thriving Industry,'' Straits Times, 7 
December 14; Network of Chinese Human Rights Defenders and a Coalition 
of NGOs, ``Civil Society Report Submitted to the Committee on the 
Elimination of Discrimination against Women for Its Review at the 59th 
Session of the Combined 7th and 8th Report by the People's Republic of 
China on Its Implementation of the Convention on the Elimination of All 
Forms of Discrimination against Women,'' 30 September 14, para. 16.
    \9\ United Nations Action for Cooperation against Trafficking in 
Persons, ``Annual Progress Report 2014,'' 20 May 15, 9.
    \10\ Hu Yongping and Sun Mantao, ``Supreme People's Court: Domestic 
and International Collusion in Crime of Trafficking and Kidnapping 
Foreign Women Increasing'' [Zuigao fa: guoneiwai bufa zhe goujie 
guaimai guaipian waiji funu fanzui zengduo], China Internet Information 
Center, 27 February 15.
    \11\ Manabu Ito, ``Dearth of Wives for Chinese Men Prompts Bride 
Trafficking,'' Nikkei Asian Review, 9 April 15; Khuon Narim and Simon 
Henderson, ``Nine Cambodian Women Seek Refuge in China,'' Cambodia 
Daily, 29 November 14; Jina Moore, ``Cambodia Is China's Newest Market 
for Foreign Brides,'' BuzzFeed, 5 February 15.
    \12\ Minh Hung, ``Kidneys, Newborns, Wives for Sale: Human 
Trafficking on the Rise in Vietnam,'' Thanh Nien News, 21 April 15.
    \13\ Nirmal Ghosh, ``Bride or Brothel--The Choice for Duped 
Vietnamese Women Trafficked to China in Thriving Industry,'' Straits 
Times, 7 December 14.
    \14\ ``Human Trafficking Peaks in 2014,'' Eleven, 13 January 15; 
Pyae Thet Phyo, ``Human Trafficking Cases Rise in 2014,'' Myanmar 
Times, 15 December 14; ``Myanmar Arrests 93 Traffickers, But None From 
Rakhine,'' Agence France-Presse, reprinted in Express Tribune, 8 June 
15. According to Agence France-Presse, official figures on trafficking 
cases in Burma do not include cases involving the Rohingya minority.
    \15\ United Nations Office on Drugs and Crime, ``Migrant Smuggling 
in Asia: Current Trends and Related Challenges,'' April 2015, 73, 78, 
80, 82.
    \16\ Ibid., 73, 77-78, 80, 82.
    \17\ Walk Free Foundation, ``The Global Slavery Index 2014,'' 13 
November 14, 102-103.
    \18\ Ibid., 103. See also ``The Problems of Left Behind Children'' 
[Liushou ertong wenti], Radio Free Asia, 12 December 14; `` `Child 
Laborers,' How Should We Rescue You?'' [``Tonggong'', women gai ruhe 
jiejiu ni?], Xinhua, 29 December 14.
    \19\ See, e.g., Women's League of Burma, ``Ongoing Sexual Violence 
Highlights Urgent Need for Burma Army To Stop Offensives and Pull Back 
Troops From Kachin Areas,'' 22 January 15; ``Hundreds Flee New Fighting 
in Myanmar's North,'' Al Jazeera, 16 January 15; ``Thousands Flee 
Myanmar Conflict as State of Emergency Imposed in Kokang,'' Agence 
France-Presse, reprinted in South China Morning Post, 19 February 15.
    \20\ United Nations Action for Cooperation against Trafficking in 
Persons, ``COMMIT SOM/IMM Concluded,'' 5 May 15; Jina Moore, ``Cambodia 
Is China's Newest Market for Foreign Brides,'' BuzzFeed, 5 February 15; 
Kachin Women's Association Thailand, ``Pushed to the Brink: Conflict 
and Human Trafficking on the Kachin-China Border,'' June 2013, 13; 
``Human Trafficking Peaks in 2014,'' Eleven, 13 January 15; Nirmal 
Ghosh, ``Bride or Brothel--The Choice for Duped Vietnamese Women 
Trafficked to China in Thriving Industry,'' Straits Times, 7 December 
14.
    \21\ Duncan Hewitt, ``Illegal Foreign Workers on the Rise in China 
as Factories Face Labor Shortages,'' International Business Times, 1 
April 15; ``Labor Shortages Reported Across China,'' Want China Times, 
27 August 14.
    \22\ Duncan Hewitt, ``Illegal Foreign Workers on the Rise in China 
as Factories Face Labor Shortages,'' International Business Times, 1 
April 15; Frank Sieren, ``Sieren's China: Stopgap Workers,'' Deutsche 
Welle, 28 April 15.
    \23\ Ibid.
    \24\ Bureau of International Labor Affairs, U.S. Department of 
Labor, ``Reducing Child Labor and Forced Labor Toolkit: Risk and Impact 
Information Gathering,'' last visited 22 April 15; United Nations 
Office on Drugs and Crime, ``Migrant Smuggling in Asia: Current Trends 
and Related Challenges,'' April 2015, I.
    \25\ Andrea M. Den Boer, Valerie M. Hudson, and Jenny Russell, 
``China's Mismatched Bookends: A Tale of Birth Sex Ratios in South 
Korea and Vietnam,'' Paper prepared for the meeting of the 
International Studies Association, New Orleans, Louisiana, February 
2015, 5-6; Liberty Asia and Thomson Reuters Foundation, ``From Every 
Angle: Using the Law To Combat Human Trafficking in Southeast Asia,'' 
November 2014, 44; Population Reference Bureau, ``PRB Discuss Online: 
Will China Relax Its One-Child Policy?'' 22 February 11.
    \26\ Liberty Asia and Thomson Reuters Foundation, ``From Every 
Angle: Using the Law To Combat Human Trafficking in Southeast Asia,'' 
November 2014, 44; Accountability and Transformation: Tier Rankings in 
the Fight Against Human Trafficking, Hearing of the Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations, Committee on Foreign Affairs, U.S. House of 
Representatives, 22 April 15, Written Testimony of Mark Lagon, 
President, Freedom House, 3; Manabu Ito, ``Dearth of Wives for Chinese 
Men Prompts Bride Trafficking,'' Nikkei Asian Review, 9 April 15.
    \27\ National Bureau of Statistics of China, ``2014 National 
Economic and Social Development Statistics Bulletin'' [2014 nian guomin 
jingji he shehui fazhan tongji gongbao], 26 February 15. See also Yuen 
Yeuk-laam, ``China Census Shows Continuing Gender Imbalance, Aging 
Population,'' Global Times, 21 January 15.
    \28\ Chen Xianling, ``China's Sex Ratio Highest in the World, In 34 
Years 30 Million `Extra' Men Born'' [Woguo xingbiebi pian gao shijie 
diyi 34 nian ``duo'' chu 3000 wan nanxing], Southern Metropolitan 
Daily, 11 February 15; National Health and Family Planning Commission, 
``Interpretation of Document `Circular on Strengthening the Striking 
and Prevention of Behaviors of Fetal Gender Identification Through 
Drawing Blood' '' [``Guanyu jiaqiang daji fang kong cai xie jianding 
tai'er xingbie xingwei de tongzhi'' wenjian jiedu], 21 January 15; 
``China's Sex Ratio at Birth Declines 4 Years in a Row,'' Xinhua, 5 
March 13.
    \29\ Hu Hao, ``China's Sex Ratio at Birth Falls Sixth [Year] in a 
Row'' [Woguo chusheng renkou xingbiebi liu lian jiang], Xinhua, 4 
February 15; Yuen Yeuk-laam, ``China Census Shows Continuing Gender 
Imbalance, Aging Population,'' Global Times, 21 January 15; Chen 
Xianling, ``China's Sex Ratio Highest in the World, In 34 Years 30 
Million `Extra' Men Born'' [Woguo xingbiebi pian gao shijie diyi 34 
nian ``duo'' chu 3000 wan nanxing], Southern Metropolitan Daily, 11 
February 15.
    \30\ See, e.g., Christophe Z. Guilmoto, ``Skewed Sex Ratios at 
Birth and Future Marriage Squeeze in China and India, 2005-2100,'' 
Demography, Vol. 49 (2012), 17 December 11, 77-78; Stuart Basten and 
Georgia Verropoulou, `` `Maternity Migration' and the Increased Sex 
Ratio at Birth in Hong Kong SAR,'' Population Studies, Vol. 67, No. 3 
(2013), 325; Population Control in China: State-Sponsored Violence 
Against Women and Children, Hearing of the Congressional-Executive 
Commission on China, 30 April 15, Testimony of Dr. Nicholas Eberstadt, 
Henry Wendt Chair in Political Economy, American Enterprise Institute 
for Public Policy Research, 2.
    \31\ ``Uyghurs Rely on Chinese Smugglers To Travel to Turkey,'' 
Radio Free Asia, 28 May 15; Sumeyye Ertekin, ``Uighurs Flee China for 
Turkey in Search of Peace,'' Al Jazeera America, 3 February 15; 
``Dismal Conditions Push Uyghurs To Escape From Thai Facility,'' Radio 
Free Asia, 17 November 14; Michael Martina et al., ``China Rebukes 
Turkey for Offer To Shelter Uighur Refugees,'' Reuters, 28 November 14.
    \32\ United Nations Office on Drugs and Crime, ``Human Trafficking 
FAQs,'' last visited 29 May 15; United Nations Office on Drugs and 
Crime, ``Migrant Smuggling in Asia: Current Trends and Related 
Challenges,'' April 2015, I.
    \33\ Andrew R.C. Marshall, ``Suspected Uighurs Rescued From Thai 
Trafficking Camp,'' Reuters, 14 March 14; Reuters, Chutima Sidasathian, 
and Alan Morison, ``200 `Turkish Refugees' Rescued From Thai Slave Camp 
Turn Out To Be Uygurs,'' South China Morning Post, 14 March 14; ``China 
Wants Uighur Refugees Back From Thailand,'' Associated Press, reprinted 
in Daily Mail, 15 November 14; Andrew R.C. Marshall and Amy Sawitta 
Lefevre, ``Special Report: Flaws Found in Thailand's Human-Trafficking 
Crackdown,'' Reuters, 10 April 14.
    \34\ UN Human Rights Council, Communications Report of Special 
Procedures, A/HRC/29/50, 2 June 15, 57; ``Uyghur Girl Appeals for Help 
in Freeing Family From Thai Detention Center,'' Radio Free Asia, 16 
June 15; ``Illnesses, Deaths Among Uyghur Refugees in Thai Detention 
Centers,'' Radio Free Asia, 7 January 15.
    \35\ ``Group of 173 Uyghurs Freed From Thai Detention Arrive in 
Turkey,'' Radio Free Asia, 1 July 15.
    \36\ Michael Martina, ``Returning Uighurs Attacked Thai, Chinese 
Police, China Says,'' Reuters, 4 August 15; ``Uighurs Deported From 
Thailand to China Remain in Detention,'' Voice of America, 5 August 15; 
Simon Denyer, ``Uighurs Face `Grim' Return to China as Authorities 
Level Terrorism Claims,'' Washington Post, 10 July 15.
    \37\ Han Dong-ho et al., Korea Institute for National Unification, 
``White Paper on Human Rights in North Korea 2014,'' 15 September 14, 
561-62; United Nations Office on Drugs and Crime, ``Migrant Smuggling 
in Asia: Current Trends and Related Challenges,'' April 2015, 82; 
Madison Park, ``Women Activists' Plans To Cross Korea's DMZ Draws 
Ire,'' CNN, 24 May 15; Subin Kim, ``Operators of Webcam Site Exploiting 
Defector Women Indicted,'' NK News, 24 February 15.
    \38\ Ju-min Park and James Pearson, ``Bugged Phones and Double 
Barbed Wire: Far Fewer North Koreans Defect,'' Reuters, 21 May 15.
    \39\ Subin Kim, ``Operators of Webcam Site Exploiting Defector 
Women Indicted,'' NK News, 24 February 15.
    \40\ Sarah E. Mendelson, ``Outsourcing Oppression: Trafficked Labor 
From North Korea,'' Foreign Affairs, 28 May 15. Mendelson notes that 
these North Korean laborers are often misled about the conditions they 
will face abroad, and that ``government minders apparently use force, 
fraud, deception, and coercion to exploit laborers once they've reached 
their destination.'' Scott A. Snyder, ``Human Rights Conditions of 
Overseas Laborers From North Korea,'' Council on Foreign Relations, 
Asia Unbound (blog), 22 May 15.
    \41\ Agreement Between the Government of the Lao People's 
Democratic Republic and the Government of the People's Republic of 
China on Cooperation in Preventing and Combating Trafficking in 
Persons, signed 1 September 14, reprinted in UN Action for Cooperation 
against Trafficking in Persons.
    \42\ Memorandum of Understanding on Cooperation against Trafficking 
in Persons in the Greater Mekong Sub-Region, signed 29 October 04, 
reprinted in UN Action for Cooperation against Trafficking in Persons. 
The six signatories to the MOU were Cambodia, China, Laos, Burma 
(Myanmar), Thailand, and Vietnam.
    \43\ Coordinated Mekong Ministerial Initiative Against Trafficking, 
COMMIT 4th Sub-Regional Plan of Action (SPAIV 2015-2018), signed 29 
April 15, reprinted in UN Action for Cooperation against Trafficking in 
Persons, 3. See also ``Six GMS Countries Sign Joint Declaration, 
Reaffirming Anti-Human Trafficking Commitment,'' Xinhua, 30 April 15; 
United Nations Action for Cooperation against Trafficking in Persons, 
``COMMIT SOM/IMM Concluded,'' 5 May 15; Charles Parkinson and Pech 
Sotheary, ``Kingdom Backs Regional Human Trafficking Plan,'' Phnom Penh 
Post, 1 May 15.
    \44\ United Nations Action for Cooperation against Trafficking in 
Persons, ``Annual Progress Report 2014,'' 20 May 15, 13.
    \45\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240; UN Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 00, entry into force 25 December 03, arts. 3(a), 
6.3. Topics that need to be addressed in domestic legislation to bring 
it into compliance with the UN TIP Protocol include protection and 
rehabilitation of victims of trafficking, addition of non-physical 
forms of coercion into the legal definition of trafficking, and 
trafficking of men.
    \46\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15; National People's 
Congress Standing Committee, PRC Criminal Law Amendment (Nine) (Draft) 
[Zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)], issued 3 
November 14; National People's Congress Standing Committee, PRC 
Criminal Law Amendment (Nine) (Draft) (Second Reading) [Zhonghua renmin 
gongheguo xingfa xiuzheng'an (jiu) (cao'an) (erci shenyi gao)], issued 
6 July 15. The National People's Congress Standing Committee issued the 
first draft of the Ninth Amendment to the PRC Criminal Law in November 
2014 and a second draft in July 2015.
    \47\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 15.
    \48\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 241; Sun Gan and 
Sun Siya, ``Men Also Included as a Vulnerable Group in Indecency Law'' 
[Nanxing ye bei naru weixie zui shouhai qunti], Beijing Times, 28 
October 14.
    \49\ ``China Focus: China Adopts Amendments to Criminal Law,'' 
Xinhua, 29 August 15. See also Guo Peiqing, ``To Curb the Crime of 
Trafficking Children, Amend the Law To Punish Buyers'' [Ezhi guaimai 
ertong fanzui xu xiu fa yancheng maifang], Beijing Youth Daily, 5 June 
15; Sun Gan and Sun Siya, ``Men Also Included as a Vulnerable Group in 
Indecency Law'' [Nanxing ye bei naru weixie zui shouhai qunti], Beijing 
Times, 28 October 14; Chen Liping, ``Pointing Out Seven Major 
Highlights of the Criminal Law Amendment (Nine) Draft'' [Dianji xingfa 
xiuzheng'an (jiu) cao'an de qi da liangdian], Legal Daily, 28 October 
14.
    \50\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 15; National 
People's Congress Standing Committee, PRC Criminal Law Amendment (Nine) 
(Draft) [Zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)], 
issued 3 November 14, item 13; National People's Congress Standing 
Committee, PRC Criminal Law Amendment (Nine) (Draft) (Second Reading) 
[Zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an) (erci 
shenyi gao)], issued 6 July 15, item 15. The final wording differs 
slightly from earlier drafts of the amendment. The first draft provided 
that buyers of trafficked women who did not prevent the women from 
returning home and buyers of children who had not harmed them could 
receive a light or reduced punishment, or be exempt from punishment. 
The second draft provided that buyers could receive a light or reduced 
punishment in cases involving trafficked children, or be exempt from 
punishment in cases that involved trafficked women.
    \51\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of Civil Affairs, Opinion on 
Handling Certain Issues of Guardians' Violations of Minors' Rights and 
Interests in Accordance With the Law [Guanyu yifa chuli jianhuren 
qinhai wei chengnianren quanyi xingwei ruogan wenti de yijian], issued 
18 December 14, effective 1 January 15, 35(1); United Nations Action 
for Cooperation against Trafficking in Persons (UN-ACT), ``UN-ACT 
January 2015 Newsletter,'' January 2015.
    \52\ Zhou Bin, ``SPC Circulates Model Cases of Punishment for 
Trafficking Women and Children'' [Zuigaofa tongbao chengzhi guaimai 
funu ertong fanzui dianxing anli], Legal Daily, 27 February 15.
    \53\ National People's Congress Standing Committee Decision on 
Abolishing Laws and Regulations Regarding Reeducation Through Labor 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu feizhi youguan 
laodong jiaoyang falu guiding de jueding], reprinted in Xinhua, issued 
and effective 28 December 13; Office To Monitor and Combat Trafficking 
in Persons, U.S. Department of State, ``Trafficking in Persons 
Report,'' June 2014, 132.
    \54\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 5; Human Rights Watch, ``China: Fully Abolish 
Re-Education Through Labor,'' 8 January 13; State Council, Decision on 
the Issue of Reeducation Through Labor [Guowuyuan guanyu laodong 
jiaoyang wenti de jueding], reprinted in National People's Congress, 
issued 3 August 57, item 3; State Council, Supplementary Provisions on 
Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang de buchong 
guiding], reprinted in National People's Congress, issued 29 November 
79, items 
1-2.
    \55\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' ASA 17/
042/2013, 17 December 13, 17-18; State Council, Decision on the Issue 
of Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang wenti 
de jueding], reprinted in National People's Congress, issued 3 August 
57, item 2.
    \56\ ILO Convention (No. 29) Concerning Forced or Compulsory 
Labour, 28 June 30, 39 U.N.T.S. 55, art. 2. Article 2.1 of the 
Convention defines ``forced or compulsory labour'' as ``all work or 
service which is exacted from any person under the menace of any 
penalty and for which the said person has not offered himself 
voluntarily.'' Article 2.2 (c) makes an exception for ``[a]ny work or 
service extracted from any person as a consequence of a conviction in a 
court of law . . . .'' As RTL inmates were detained without trial, this 
exception did not apply. See also Amnesty International, `` `Changing 
the Soup but Not the Medicine?': Abolishing Re-Education Through Labour 
in China,'' ASA 17/042/2013, 17 December 13, 17.
    \57\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 3(a). RTL inmate labor can be viewed as 
constituting trafficking under Article 3(a) of the UN TIP Protocol, as 
RTL facility authorities engaged in the ``harbouring'' and ``receipt of 
persons, by means of the threat or use of force . . . for the purpose 
of exploitation.'' According to Article 3(a), exploitation includes 
``forced labour.'' For more information on conditions RTL inmates 
faced, including ``the threat or use of force,'' see, e.g., Amnesty 
International, `` `Changing the Soup but Not the Medicine?': Abolishing 
Re-Education Through Labour in China,'' ASA 17/042/2013, 17 December 
13, 5, 17-30; Human Rights Watch, ``China: Fully Abolish Re-Education 
Through Labor,'' 8 January 13; Office To Monitor and Combat Trafficking 
in Persons, U.S. Department of State, ``Trafficking in Persons 
Report,'' June 2013, 129.
    \58\ Amnesty International, ``Amnesty International Report 2014/15: 
The State of the World's Human Rights,'' 25 February 15, 108; Dui Hua 
Foundation, ``Submission to the 59th Session of the UN Committee on the 
Elimination of Discrimination against Women,'' 3 October 14, 
5-6; John Ruwitch, ``A Jail by Another Name: China Labor Camps Now Drug 
Detox Centers,'' Reuters, 2 December 13.
    \59\ Ministry of Justice, Judicial Administrative Agencies 
Compulsory Drug Detoxification Work Regulations [Sifa xingzheng jiguan 
qiangzhi geli jiedu gongzuo guiding], issued 3 April 13, effective 1 
June 13, art. 43; Human Rights Watch, `` `Where Darkness Knows No 
Limits': Incarceration, Ill-Treatment, and Forced Labor as Drug 
Rehabilitation in China,'' January 2010, 27-31; Dui Hua Foundation, 
``Submission to the 59th Session of the UN Committee on the Elimination 
of Discrimination against Women,'' 3 October 14, 6; Asia Catalyst, `` 
`Custody and Education': Arbitrary Detention for Female Sex Workers in 
China,'' December 2013, 8, 25-27.
    \60\ Sun Ying, ``Ministry of Justice: Most of Nation's Former 
Reeducation Through Labor Centers Have Been Turned Into Compulsory Drug 
Detoxification Centers'' [Sifabu: quanguo jueda duoshu yuan laojiao 
changsuo zhuan wei qiangzhi geli jiedu changsuo], China National Radio, 
5 November 14.
    \61\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13, para. 46. See also ``One Year Later, 
Initial Impact of China's Population Planning Policy Adjustment Smaller 
Than Expected,'' Congressional-Executive Commission on China, 9 
December 14.
    \62\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2014, 132, 
134; National Health and Family Planning Commission, ``National Health 
and Family Planning Commission Deputy Director Wang Pei'an Answers 
Reporters' Questions About Maintaining the Basic National Family 
Planning Policy and Launching the Implementation of the Two-Child 
Policy for Single-Only-Child Couples'' [Guojia weisheng jisheng wei fu 
zhuren wang pei'an jiu jianchi jihua shengyu jiben guoce qidong shishi 
dandu lianghai zhengce da jizhe wen], 16 November 13; Population 
Reference Bureau, ``PRB Discuss Online: Will China Relax Its One-Child 
Policy?'' 22 February 11; Gretchen Livingston, Pew Research Center, 
``Will the End of China's One-Child Policy Shift Its Boy-Girl Ratio?'' 
Fact Tank (blog), 15 November 13.
    \63\ Sun Renbin et al., ``Single Only [Child Couples] Two-Child 
Policy Gradually Implemented, Why Has the Expected ``Baby Boom'' Not 
Happened?'' [Dandu erhai zhengce zhubu fangkai weihe wei xian yuqi 
``ying'er chao''?], Xinhua, 10 November 14; Wang Qingyun, ``Second-
Child Policy Having Limited Effect,'' China Daily, 11 July 14; Liu 
Baijun, ``Yunnan Province `Single Only [Child Couples] Two Children' 
Policy Starts, Mainly Affects Non-Rural Population'' [Yunnan sheng 
``dandu erhai'' zhengce qidong zhuyao sheji feinong renkou], Legal 
Daily, 31 March 14.
    \64\ National Bureau of Statistics of China, ``Tabulation on the 
2010 Population Census of the People's Republic of China'' [Zhongguo 
2010 nian renkou pucha ziliao], 2010, Part 2, Vol. 6, Tables 6-1(a-c), 
last visited 24 April 15.
    \65\ See, e.g., Heilongjiang Province People's Congress Standing 
Committee, Heilongjiang Province Population and Family Planning 
Regulations [Heilongjiang sheng renkou yu jihua shengyu tiaoli], issued 
18 October 02, amended 22 April 14, arts. 13(3), 17; Hainan Province 
People's Congress Standing Committee, Hainan Province Population and 
Family Planning Regulations [Hainan sheng renkou yu jihua shengyu 
tiaoli], effective 1 December 03, amended 30 May 14, effective 1 June 
14, art. 17; Fujian Province People's Congress Standing Committee, 
Fujian Province Population and Family Planning Regulations [Fujian 
sheng renkou yu jihua shengyu tiaoli], issued 29 April 88, amended 28 
June 91, 25 October 97, 18 November 00, 26 July 02, 14 December 12, 29 
March 14, art. 10; Guangdong Province People's Congress Standing 
Committee, Guangdong Province Population and Family Planning 
Regulations [Guangdong sheng renkou yu jihua shengyu tiaoli], issued 2 
February 80, amended 17 May 86, 28 November 92, 1 December 97, 18 
September 98, 21 May 99, 25 July 02, 28 November 08, 27 March 14, art. 
19(8).
    \66\ Long Yuqin et al., ``Current Situation of `More Boys Fewer 
Girls' Difficult To Change, Fears That Sex Ratio Target of 12th Five-
Year Plan Difficult To Meet'' [``Nanduo nushao'' xianzhuang nan gai 
shi'erwu chusheng xingbiebi mubiao kong nan wancheng], Southern 
Metropolitan Daily, 11 August 14; Nuquan Zhi Sheng, ``Sex Ratio at 
Birth Close to 116, Gender Discrimination To Blame'' [Chusheng 
xingbiebi jin 116, xingbie qishi re de huo], Weibo post, 21 January 15, 
10:29 a.m.; Sui-Lee Wee, ``China Says Its Gender Imbalance `Most 
Serious' in the World,'' Reuters, 21 January 15. See also Charis Loh 
and Elizabeth J. Remick, ``China's Skewed Sex Ratio and the One-Child 
Policy,'' China Quarterly, Vol. 222 (June 2015), 295, 300, 306, 315.
    \67\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th Session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
28.
    \68\ United Nations Office on Drugs and Crime, ``What Is Human 
Trafficking?'' last visited 27 May 15; UN Protocol to Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention against Transnational 
Organized Crime (UN TIP Protocol), adopted by General Assembly 
resolution 55/25 of 15 November 00, entry into force 25 December 03, 
art. 3(a).
    \69\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240.
    \70\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entry into force 25 December 03. Topics that need to be addressed 
in domestic legislation to bring it into compliance with the UN TIP 
Protocol include protection and rehabilitation of victims of 
trafficking (UN TIP Protocol, Article 6.3), addition of non-physical 
forms of coercion into the legal definition of trafficking (UN TIP 
Protocol, Article 3(a)), and trafficking of men (covered under the 
definition of ``trafficking in persons'' in Article 3(a) of the UN TIP 
Protocol).
    \71\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240. Article 240 
defines trafficking as ``abducting, kidnapping, buying, trafficking in, 
fetching, sending, or transferring a woman or child, for the purpose of 
selling the victim.''
    \72\ Ibid., arts. 240, 244, 358. See also Office To Monitor and 
Combat Trafficking in Persons, U.S. Department of State, ``Trafficking 
in Persons Report,'' 19 June 13, 130. According to this report, ``it 
remains unclear whether [articles 240, 244, and 358] have prohibited 
the use of common non-physical forms of coercion, such as threats of 
financial or reputational harm, or whether acts such as recruiting, 
providing, or obtaining persons for compelled prostitution are 
covered.''
    \73\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240. The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling the victim.'' See also Walk Free Foundation, 
``The Global Slavery Index 2014,'' 13 November 14, 102.
    \74\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entry into force 25 December 03, art. 3(a). See also United Nations 
Office on Drugs and Crime, ``What Is Human Trafficking?'' last visited 
27 May 15.
    \75\ State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13.
    \76\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240.
    \77\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15; PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240. The amendment did not include a change to 
Article 240 of the PRC Criminal Law, which defines human trafficking 
using the term ``trafficking in women and children'' (guaimai funu 
ertong). Item 15 of the Ninth Amendment to the PRC Criminal Law 
revising Article 241 of the PRC Criminal Law refers only to women and 
children.
    \78\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 240. The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling the victim.''
    \79\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entry into force 25 December 03, art. 3(a, c). The end result of 
exploitation is one of the required elements of a trafficking case 
under Article 3 of the UN TIP Protocol. See also UN General Assembly, 
Report of the Ad Hoc Committee on the Elaboration of a Convention 
against Transnational Organized Crime on the Work of Its First to 
Eleventh Sessions, Addendum, Interpretative Notes for the Official 
Records (Travaux Preparatoires) of the Negotiation of the United 
Nations Convention against Transnational Organized Crime and the 
Protocols Thereto, A/55/383/Add.1, 3 November 00, para. 66.
    \80\ See, e.g., Zhou Bin, ``Supreme People's Court Circulates Model 
Cases of Punishment for Trafficking Women and Children'' [Zuigaofa 
tongbao chengzhi guaimai funu ertong fanzui dianxing anli], Legal 
Daily, 27 February 15; ``Women, Children Trafficking Cases Drop in 
China,'' Xinhua, 27 February 15; Zhang Lei, ``Over 7,700 Trafficking 
Cases, Over Half Sentenced Harshly'' [7700 yu guaimai an zhongxing lu 
chao yiban], Beijing Evening News, 27 February 15.
    \81\ Chen Huizhi, ``11 Girls Rescued From Child Prostitution 
Ring,'' Shanghai Daily, 1 April 15; Zeng Ye et al., ``Trafficked 13-
Year-Old Luzhou Girl Borrows Phone To Text Location, Finally Rescued by 
Police'' [Luzhou 13 sui bei guaimai shaonu jie shouji fa dizhi zhong 
huo jingfang jiejiu], Sichuan Television, 31 March 15.
    \82\ Ibid.
    \83\ Ibid.
    \84\ ``Burmese Girls `Sold as Brides' in Rural China,'' BBC, 24 
November 14; Paul Carsten, ``China Seizes 31 Trafficking Suspects 
Holding Myanmar Women,'' Reuters, 24 November 14; ``Inner Mongolia 
Police Crack International Trafficking of Women Case, 14 Women 
Rescued'' [Neimenggu jingfang po teda kuaguo guaimai funu an 14 ming 
funu huojiu], Xinhua, reprinted in People's Daily, 24 November 14.
    \85\ Ibid.
    \86\ Ibid.
    \87\ Zheng Yujia, ``Many Women With Mental Disorders Sexually 
Exploited'' [Duo ming jingshen zhang'ai nuzi zao maimai jianyin], 
Beijing Times, 18 November 14. See also ``Anhui Police Uncover Gang 
Trafficking Women With Mental Disorders'' [Zhongguo anhui jingfang 
pohuo zhuanmen guaimai jingshen zhang'ai funu tuanhuo], Radio Free 
Asia, 19 November 14.
    \88\ ``Anhui Police Uncover Gang Trafficking Women With Mental 
Disorders'' [Zhongguo anhui jingfang pohuo zhuanmen guaimai jingshen 
zhang'ai funu tuanhuo], Radio Free Asia, 19 November 14.
    \89\ Zheng Yujia, ``Many Women With Mental Disorders Sexually 
Exploited'' [Duo ming jingshen zhang'ai nuzi zao maimai jianyin], 
Beijing Times, 18 November 14; ``Anhui Police Uncover Gang Trafficking 
Women With Mental Disorders'' [Zhongguo anhui jingfang pohuo zhuanmen 
guaimai jingshen zhang'ai funu tuanhuo], Radio Free Asia, 19 November 
14.
    \90\ Zheng Yujia, ``Many Women With Mental Disorders Sexually 
Exploited'' [Duo ming jingshen zhang'ai nuzi zao maimai jianyin], 
Beijing Times, 18 November 14.
    \91\ Ibid.
    \92\ See, e.g., Office To Monitor and Combat Trafficking in 
Persons, U.S. Department of State, ``Trafficking in Persons Report,'' 
July 2015, 180; Amnesty International, ``China: Hong Kong SAR 
Submission to the United Nations Committee on the Elimination of 
Discrimination against Women: 59th Session, 20 October-7 November 
2014,'' 3 October 14, 5; Astrid Zweynert, ``Interview: Lawyers Seek New 
Ways To Help Hong Kong's Human Trafficking Victims,'' Thomson Reuters 
Foundation, 22 June 15.
    \93\ United Nations Office on Drugs and Crime, ``Migrant Smuggling 
in Asia: Current Trends and Related Challenges,'' April 2015, 78.
    \94\ Ibid., I, 82.
    \95\ Amnesty International, ``China: Hong Kong SAR: Submission to 
the United Nations Committee on the Elimination of Discrimination 
against Women: 59th Session, 20 October-7 November 2014,'' 3 October 
14, 5. See also ``Hong Kong Maid's Employer Found Guilty of Severe 
Physical Abuse,'' Guardian, 9 February 15; Jennifer Ngo and Chris Lau, 
``Hong Kong Maid Dies Five Days After Being Crushed by Falling Concrete 
Slab,'' South China Morning Post, 17 March 15; Astrid Zweynert, 
``Interview: Lawyers Seek New Ways To Help Hong Kong's Human 
Trafficking Victims,'' Thomson Reuters Foundation, 22 June 15.
    \96\ Leslie Shaffer, ``Debt Bondage Behind Hong Kong Sex Trade,'' 
CNBC, 7 December 14; Amnesty International, ``China: Hong Kong SAR: 
Submission to the United Nations Committee on the Elimination of 
Discrimination against Women: 59th Session, 20 October-7 November 
2014,'' 3 October 14, 9; Centre for Comparative and Public Law, Faculty 
of Law, University of Hong Kong et al., ``Submission to CEDAW Pre-
Sessional Working Group on the Implementation of CEDAW in Hong Kong,'' 
January 2014, 14.
    \97\ Amnesty International, ``China: Hong Kong SAR: Submission to 
the United Nations Committee on the Elimination of Discrimination 
against Women: 59th Session, 20 October-7 November 2014,'' 3 October 
14, 8; Centre for Comparative and Public Law, Faculty of Law, 
University of Hong Kong et al., ``Submission to CEDAW Pre-Sessional 
Working Group on the Implementation of CEDAW in Hong Kong,'' January 
2014, 14; Jennifer Ngo and Chris Lau, ``Hong Kong Maid Dies Five Days 
After Being Crushed by Falling Concrete Slab,'' South China Morning 
Post, 17 March 15.
    \98\ Amnesty International, ``Amnesty International Report 2014/15: 
The State of the World's Human Rights,'' 25 February 15, 112.
    \99\ Aleta Miller, Justice Centre Hong Kong, ``Justice for Erwiana: 
A Long Way To Go,'' Justice Centre Hong Kong (blog), 13 February 15. 
See also Justice Centre Hong Kong, ``Human Trafficking Labour Research 
Project,'' last visited 10 September 15.
    \100\ UN Committee on the Elimination of Discrimination against 
Women, Concluding Observations on the Combined Seventh and Eighth 
Periodic Reports of China, Adopted by the Committee at its 59th Session 
(20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 14, para. 
56; Liberty Asia and Thomson Reuters Foundation, ``From Every Angle: 
Using the Law To Combat Human Trafficking in Southeast Asia,'' November 
2014, 6; Centre for Comparative and Public Law, Faculty of Law, 
University of Hong Kong et al., ``Submission to CEDAW Pre-Sessional 
Working Group on the Implementation of CEDAW in Hong Kong,'' January 
2014, 14.
    \101\ Legislative Council of the Hong Kong Special Administrative 
Region, Crimes Ordinance (Cap. 200) [Di 200 zhang xingshi zuixing 
tiaoli], amended 2 August 12, sec. 129(1); Hong Kong Bar Association, 
``Submission of the Hong Kong Bar Association to the UN Committee on 
the Elimination of Discrimination against Women (`Committee'),'' 10 
January 14, para. 10; Liberty Asia and Thomson Reuters Foundation, 
``From Every Angle: Using the Law To Combat Human Trafficking in 
Southeast Asia,'' November 2014, 6.
    \102\ United Nations Treaty Collection, Chapter XVIII, Penal 
Matters, 12.a., Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, last visited 
29 April 15. See also UN Committee on the Elimination of Discrimination 
against Women, Concluding Observations on the Combined Seventh and 
Eighth Periodic Reports of China, Adopted by the Committee at its 59th 
Session (20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 
14, para. 56.

                     North Korean Refugees in China


                              Introduction

    Throughout the Commission's 2015 reporting year, the 
Chinese government continued to detain and repatriate North 
Korean refugees to the Democratic People's Republic of Korea 
(DPRK), despite substantial evidence that repatriated persons 
face torture, imprisonment, and other inhuman treatment.\1\ The 
Chinese government maintains that North Koreans who enter China 
without proper documentation are illegal economic migrants and 
continues to forcibly repatriate them based on a 1961 treaty 
and 1986 border protocol with the DPRK.\2\ China's repatriation 
of North Korean refugees contravenes its international 
obligations under the 1951 UN Convention relating to the Status 
of Refugees (1951 Convention) and its 1967 Protocol.\3\ China 
is also obligated under the UN Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment to 
refrain from repatriating persons if there are ``grounds for 
believing that [they] would be in danger of being subject to 
torture.'' \4\
    The UN Special Rapporteur on the Situation of Human Rights 
in the Democratic People's Republic of Korea has called ``the 
current handling of the movement of people across [the China-
North Korea border] far from ideal,'' stating that the present 
situation ``can easily lead to abuses.'' \5\ Despite being a 
State Party to both the 1951 Convention and 1967 Protocol, 
China has not enacted formal legislation or administrative 
provisions for determining the status of refugees and granting 
asylum.\6\
    China continues to be a main transit point for North Korean 
refugees.\7\ Information on the number of North Korean refugees 
residing in China remains difficult to ascertain due in part to 
the Chinese government's refusal to allow the UN High 
Commissioner for Refugees access to these North Korean 
refugees.\8\ A resolution adopted by the UN General Assembly in 
December 2014 called on all States ``to ensure unhindered 
access to the UN High Commissioner for Refugees and his Office 
[to North Korean refugees].'' \9\

                       Increased Border Security

    Throughout the reporting year, heightened security and 
instability along the China-North Korea and China-Southeast 
Asia borders increased the dangers North Korean refugees face. 
Chinese authorities reportedly strengthened security along the 
China-North Korea border following three incidents between 
September 2014 and April 2015 in which rogue North Korean 
soldiers killed at least 10 Chinese citizens.\10\ In June 2015, 
Chinese border guards shot and killed an unidentified North 
Korean border crosser.\11\ A South Korean media outlet 
identified the border crosser as a North Korean civilian and 
indicated Chinese border security was operating under new 
orders to shoot all illegal border crossers refusing 
arrest.\12\ Concerns over cross-border drug smuggling and human 
trafficking have also reportedly led Chinese authorities to 
install new barbed-wire fencing.\13\
    Along the border with Southeast Asia, Chinese authorities 
reportedly stepped up efforts to combat illegal border 
crossings. In a case reported by South Korean media in October 
2014, Chinese authorities detained 11 North Koreans as they 
attempted to cross into Burma from Yunnan province.\14\ 
International experts indicate that Southeast Asia remains a 
main transit point for North Korean refugees, with a large 
number of refugees reportedly passing through the region en 
route to South Korea.\15\ In January 2015, Chinese authorities 
reported that a campaign initiated in May 2014 had uncovered 
several hundred human trafficking cases along the border with 
Southeast Asia and resulted in the detention of over a thousand 
unidentified persons.\16\
    Heightened border security could be limiting the outflow of 
refugees from the DPRK, as demonstrated by the smaller number 
of refugees reaching South Korea. According to the South Korean 
Ministry of Unification, the number of refugees who reached 
South Korea decreased from 1,514 in 2013 to 1,397 in 2014,\17\ 
continuing the trend of a significant decline in the number of 
refugees entering South Korea since 2011.\18\

                    Crackdown on Foreign Aid Workers

    A reported crackdown by Chinese and North Korean 
authorities this past year on organizations and individuals 
assisting North Korean refugees has made it increasingly 
difficult for refugees to flee the DPRK. Individuals and groups 
including foreign aid workers, Christian missionaries, South 
Korean churches, and non-governmental organizations have had a 
crucial role in assisting and facilitating the movement of 
North Korean refugees outside the DPRK.\19\ Greater scrutiny 
and monitoring by Chinese authorities has reportedly led to the 
closure of many aid groups operating within China \20\ and 
resulted in the detention of several foreign nationals, 
highlighted below.

        <bullet> Peter Hahn. Chinese authorities formally 
        arrested Peter Hahn, a U.S. citizen, in December 2014 
        reportedly on charges of ``embezzlement and 
        counterfeiting receipts.'' \21\ Hahn reportedly ran a 
        Christian aid agency in Tumen city, Yanbian Korean 
        Autonomous Prefecture, Jilin province, and had 
        previously managed several projects that provided 
        assistance to North Koreans, including refugees.\22\ 
        Authorities released Hahn on August 17, 2015, on the 
        basis of time served, after he received a nine-month 
        sentence for ``counterfeiting receipts.'' \23\
        <bullet> Kevin and Julia Garratt. Chinese authorities 
        placed Kevin and Julia Garratt, Canadian citizens, 
        under ``residential surveillance'' beginning in August 
        2014 on ``suspicion of engaging in activities 
        endangering national security.'' \24\ In February 2015, 
        authorities criminally detained Kevin on ``suspicion of 
        stealing national secrets,'' while Julia was released 
        on bail.\25\ They operated a coffee shop near the North 
        Korean border in Liaoning province, and were reportedly 
        involved with organizations assisting North Koreans and 
        sheltering refugees from the DPRK.\26\

                   Trafficking of North Korean Women

    North Korean women who enter China illegally remain 
particularly vulnerable to human trafficking. Experts indicate 
that the majority of North Korean refugees entering China are 
women,\27\ with some estimates suggesting that between 70 and 
90 percent become victims of human trafficking.\28\ The Chinese 
government's refusal to recognize these women as refugees 
denies them legal protections and encourages the trafficking of 
North Korean women and girls within China.\29\ The demand for 
trafficked women has been linked to a sex ratio imbalance in 
China driven by the Chinese government's population planning 
policies.\30\ Many women are trafficked by force or deception 
from the DPRK into or within China for the purposes of forced 
marriage.\31\ In other cases, women become victims of sex 
trafficking and are forced into commercial sexual 
exploitation.\32\ China is obligated under the Convention on 
the Elimination of All Forms of Discrimination against Women 
and the UN Protocol to Prevent, Suppress and Punish Trafficking 
in Persons, Especially Women and Children to take measures to 
safeguard trafficking victims and suppress all forms of 
trafficking in women.\33\

                                Children

    Many children born to Chinese fathers and North Korean 
mothers remain deprived of basic rights to education and other 
public services, owing to a lack of legal resident status in 
China. The PRC Nationality Law provides that all children born 
in China are entitled to Chinese nationality if either parent 
is a Chinese citizen.\34\ Despite this stipulation, Chinese 
authorities in practice continue to largely deprive these 
children of their rights to birth registration and 
nationality.\35\ Without proof of resident status, these 
children are unable to access education and other public 
services.\36\ In some cases, bribery of local officials has 
allowed some children to obtain identification documents, but 
the bribes are reportedly high and attempting to negotiate with 
local officials risks exposing the North Korean mother to 
arrest and repatriation.\37\ The denial of nationality rights 
and access to education for these children contravenes China's 
obligations under international law, including the Convention 
on the Rights of the Child and the International Covenant on 
Economic, Social and Cultural Rights.\38\
    Notes to Section II--North Korean Refugees in China

    \1\ UN Human Rights Council, Report of the Detailed Findings of the 
Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, paras. 116-122, 405-
442; Lu Shan et al., ``North Korean Woman Illegally Enters Country, 
Luannan Police Deport Her'' [Chaoxian nuzi feifa rujing luannan minjing 
qiansong chujing], Tangshan Labor Daily, reprinted in Huan Bohai News, 
28 May 15.
    \2\ Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Areas, signed 12 August 86, 
art. 4, reprinted in North Korea Freedom Coalition. The protocol 
commits each side to treat as illegal those border crossers who do not 
have proper visa certificates, except in cases of ``calamity or 
unavoidable factors.'' James D. Seymour, ``China: Background Paper on 
the Situation of North Koreans in China,'' commissioned by UNHCR, 
Protection Information Section, January 2005, 13. According to a report 
commissioned by the UN High Commissioner for Refugees (UNHCR), the 
validity of ``[the Protocol] cannot be authenticated, but it does not 
seem implausible.'' UN Human Rights Council, Report of the Detailed 
Findings of the Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, Annex II--Correspondence with China, A/HRC/
25/63, 7 February 14, 33. In a January 2014 letter addressed to the 
United Nations Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea Chairman Michael Kirby, China's Deputy 
Permanent Representative to the United Nations Office in Geneva Wu 
Haitao indicated that ``China has repeatedly made clear, on various 
occasions, its position that DPRK citizens who have entered China 
illegally do it for economic reasons.''
    \3\ UN Convention Relating to the Status of Refugees (1951 
Convention), adopted on 28 July 51 by the UN Conference of 
Plenipotentiaries on the Status of Refugees and Stateless Persons 
convened under General Assembly resolution 429(V) of 14 December 50, 
entry into force 22 April 54, arts. 1, 33. Article 1 of the 1951 
Convention defines a refugee as someone who, ``owing to well-founded 
fear of being persecuted for reasons of race, religion, nationality, 
membership of a particular social group or political opinion, is 
outside the country of his nationality and is unable or, owing to such 
fear, is unwilling to avail himself of the protection of that country . 
. . .'' Article 33 of the 1951 Convention mandates that, ``No 
Contracting State shall expel or return (`refouler') a refugee in any 
manner whatsoever to the frontiers of territories where his life or 
freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' UN Protocol Relating to the Status of Refugees (1967 
Protocol), adopted by UN General Assembly resolution A/RES/2198 of 16 
December 66, entry into force 4 October 67. The Chinese government 
acceded to the 1951 Convention and the 1967 Protocol in September 1982, 
but has not adopted legislation to implement the treaties.
    \4\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by the UN General Assembly 
10 December 84, entry into force 26 June 87, art. 3. Article 3 states 
that, ``No State Party shall expel, return (`refouler') or extradite a 
person to another State where there are substantial grounds for 
believing that he would be in danger of being subjected to torture.'' 
The Chinese government ratified the Convention on October 4, 1988.
    \5\ Marzuki Darusman, Report of the Special Rapporteur on the 
Situation of Human Rights in the Democratic People's Republic of Korea, 
UN General Assembly, A/69/548, 24 October 14, para. 36.
    \6\ UN Office of the High Commissioner for Refugees, ``The People's 
Republic of China: Fact Sheet,'' September 2014, 2; ``Uncovering the 
Two Routes `North Korean Refugees' Use To Pass Through China on Their 
Way to South Korea'' [Jiemi zai hua ``tuobeizhe'' zhanzhuan fu han 2 
luxian], Phoenix Television, 21 October 14; UN Office of the High 
Commissioner for Refugees, ``UNHCR 2014-2015 Global Appeal: East Asia 
and the Pacific,'' last visited 24 July 15, 2-3.
    \7\ United Nations Office on Drugs and Crime, ``Migrant Smuggling 
in Asia: Current Trends and Related Challenges,'' April 2015, 76; 
Marzuki Darusman, Special Rapporteur on the Situation of Human Rights 
in the Democratic People's Republic of Korea, UN General Assembly, A/
69/548, 24 October 14, para. 24.
    \8\ UN Human Rights Council, Report of the Detailed Findings of the 
Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, paras. 395, 444.
    \9\ Situation of Human Rights in the Democratic People's Republic 
of Korea, adopted by UN General Assembly resolution 69/188 of 18 
December 14, item 2(iv).
    \10\ Qiao Jianjun and Liu Senlin, ``Yanbian, Jilin Tightens Control 
on Chinese-Russian and Chinese-North Korean Borders, 24-Hour Video 
Monitoring'' [Jilin yanbian yanguan zhong'e zhongchao bianjing 24 
xiaoshi shipin jiankong], China Defense News, reprinted in China News 
Service, 14 January 15; Sui-Lee Wee and Megha Rajagopalan, ``China 
Enlists Citizens To Patrol Border With North Korea--State Media,'' 
Reuters, 15 January 15; Yang Feng, ``Official Confirms 3 Killed in 
Village on China-Korea Border, Third Incident in 8 Months'' [Guanfang 
zhengshi zhongchao bianjing cunzhuang 3 ren yuhai xi 8 ge yue lai disan 
qi], Beijing News, 29 April 15.
    \11\ Austin Ramzy, ``China Says It Killed North Korean Suspected of 
Illegally Crossing Border,'' New York Times, 11 June 15; ``Troops 
Garrisoned in Yanbian, Jilin Shoot Dead Suspected Illegal Border 
Crosser'' [Jilin yanbian zhujun guanbing jibi 1 ming yi si feifa 
yuejingzhe], People's Daily, 11 June 15.
    \12\ Lee Sang Yong, ``Civilian Not Soldier Shot in Helong,'' Daily 
NK, 15 June 15; Stephan Haggard, Peterson Institute for International 
Economics, ``Shoot To Kill on the China-DPRK Border?'' North Korea: 
Witness to Transformation (blog), 19 June 15.
    \13\ ``North Korean Authorities Offer Rewards for Informing on 
Defectors, Smugglers,'' Radio Free Asia, 3 March 15.
    \14\ ``11 N. Korean Defectors Arrested in China,'' Yonhap News 
Agency, 31 October 14.
    \15\ UN Human Rights Council, Report of the Detailed Findings of 
the Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, paras. 159, 393-394; 
United Nations Office on Drugs and Crime, ``Migrant Smuggling in Asia: 
Current Trends and Related Challenges,'' April 2015, 79; Rohan Radheya, 
``Refugee in Laos Awaits Chance To Reach S. Korea,'' NK News, 5 
November 14; Robert Lauler, ``North Korean Defectors SK-Bound After 
Laos Release,'' NK News, 20 October 14. According to published 
estimates, 90 percent of North Korean refugees pass from China through 
Laos on their way to the Republic of Korea.
    \16\ ``Massive Exodus of Uyghurs Suspected of `Jihad Migration''' 
[Weizu daju waitao yi ``qianxi shengzhan''], Oriental Daily News, 20 
January 15; Kor Kian Beng, ``China Cracks Down on Uighur Exodus,'' 
Straits Times, reprinted in AsiaOne, 22 January 15.
    \17\ Ministry of Unification of the Republic of Korea, ``Korean 
Peninsula Information: North Korean Refugees Current Situation'' 
[Hanbandao xinxi: tuobei jumin xiankuang], last visited 10 June 15.
    \18\ Ibid.
    \19\ United Nations Office on Drugs and Crime, ``Migrant Smuggling 
in Asia: Current Trends and Related Challenges,'' April 2015, 83-84; 
Matthew Bell, ``China Is Cracking Down on the Missionary Lifeline That 
Helps North Korean Refugees,'' Public Radio International, 5 December 
14.
    \20\ Matthew Bell, ``China Is Cracking Down on the Missionary 
Lifeline That Helps North Korean Refugees,'' Public Radio 
International, 5 December 14; Megha Rajagopalan, ``Canadian Couple 
Accused of Spying in China Held in Near Isolation, Son Says,'' Reuters, 
24 October 14.
    \21\ Megha Rajagopalan, ``China Arrests American Christian Aid 
Worker Near North Korean Border,'' Reuters, 19 December 14; Philip Wen, 
``Peter Hahn, Korean-American Aid Worker, Held in China,'' The Age, 20 
November 14.
    \22\ Jane Perlez, ``China Detains U.S. Aid Worker Who Assisted 
North Koreans,'' New York Times, 20 November 14; Philip Wen, ``Peter 
Hahn, Korean-American Aid Worker, Held in China,'' The Age, 20 November 
14; Megha Rajagopalan, ``China Arrests American Christian Aid Worker 
Near North Korean Border,'' Reuters, 19 December 14.
    \23\ Michael Martina, ``China Releases Korean-American Missionary: 
Lawyer,'' Reuters, 7 September 15; ``Fraud Convict Peter Hahn Let Go,'' 
Standard, 7 September 15.
    \24\ Ministry of Foreign Affairs, ``February 5, 2015, Ministry of 
Foreign Affairs Spokesman Hong Lei Holds Routine Press Conference'' 
[2015 nian 2 yue 5 ri waijiaobu fayanren hong lei zhuchi lixing 
jizhehui], 5 February 15.
    \25\ Ibid.
    \26\ Dan Levin, ``China Holds Canadian on Suspicion of Stealing 
State Secrets,'' New York Times, 5 February 15; Stephan Haggard, 
Peterson Institute for International Economics, ``Detainee Update: 
Peter Hahn and the Garratt Case,'' North Korea: Witness to 
Transformation (blog), 11 February 15.
    \27\ Lisa Curtis and Olivia Enos, Heritage Foundation, ``Combating 
Human Trafficking in Asia Requires U.S. Leadership,'' 26 February 15; 
Kyla Ryan, ``The Women Who Escape From North Korea,'' The Diplomat, 24 
November 14; Olivia Enos, ``Human Trafficking Thrives Where Rule of Law 
Ends,'' The Diplomat, 16 March 15.
    \28\ Ibid.
    \29\ Gary Chodorow, ``China Police Search for 100 Missing 
Vietnamese Brides,'' U.S. and China Visa Law (blog), 15 December 14; 
Olivia Enos, ``Human Trafficking Thrives Where Rule of Law Ends,'' The 
Diplomat, 16 March 15.
    \30\ Madeline Fetterly, ``Sex Trafficking and China's One Child 
Policy,'' The Diplomat, 6 November 14; Kyla Ryan, ``The Women Who 
Escape From North Korea,'' The Diplomat, 24 November 14; Olivia Enos, 
``Human Trafficking Thrives Where Rule of Law Ends,'' The Diplomat, 16 
March 15.
    \31\ Liberty Asia, ``From Every Angle: Using the Law To Combat 
Human Trafficking in Southeast Asia,'' November 2014, 44; Amnesty 
International, ``The Other Interview: Escape From North Korea,'' 6 
February 15; Sylvia Wassermann, ``A Fugitive's Harrowing Flight From 
North Korea,'' Deutsche Welle, 3 May 15; Lisa Curtis and Olivia Enos, 
Heritage Foundation, ``Combating Human Trafficking in Asia Requires 
U.S. Leadership,'' 26 February 15.
    \32\ Madeline Fetterly, ``Sex Trafficking and China's One Child 
Policy,'' The Diplomat, 6 November 14; Subin Kim, ``Operators of Webcam 
Site Exploiting Defector Women Indicted,'' NK News, 24 February 15.
    \33\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 00, entry into force 25 December 03, arts. 6, 9.
    \34\ PRC Nationality Law [Zhonghua renmin gongheguo guoji fa], 
passed, issued, and effective 10 September 80, art. 4.
    \35\ UN Human Rights Council, Report of the Detailed Findings of 
the Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, items 139-141, 472-
477; Stephanie Gordon, ``Children of North Koreans, Living Between 
Borders,'' NK News, 4 March 15.
    \36\ UN Human Rights Council, Report of the Detailed Findings of 
the Commission of Inquiry on Human Rights in the Democratic People's 
Republic of Korea, A/HRC/25/CRP.1, 7 February 14, items 139-141, 472-
477.
    \37\ Stephanie Gordon, ``Children of North Koreans, Living Between 
Borders,'' NK News, 4 March 15.
    \38\ Convention on the Rights of the Child, adopted by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2(1), 7, 28(1a). Under the Convention on the Rights 
of the Child, China is obligated to register children born within the 
country immediately after birth and also provide all children with 
access to education without discrimination on the basis of nationality. 
International Covenant on Economic, Social and Cultural Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 3 January 76, art. 13. Under Article 13, China recognizes 
that everyone has a right to education, including a free and compulsory 
primary education.

                             Public Health


                              Introduction

    Although the prevalence of infectious disease continues to 
be a public health concern in China,\1\ increasing rates of 
non-communicable diseases, such as diabetes,\2\ chronic kidney 
disease,\3\ and mental health conditions \4\ pose challenges to 
Chinese policymakers and government officials. With the prior 
round of health care reform in China focused on expanding 
health insurance coverage,\5\ the State Council issued a new 
five-year (2015-2020) plan in March 2015 that addresses ongoing 
challenges in accessing medical care.\6\ These include the 
uneven distribution of health care resources between rural and 
urban areas,\7\ the high cost of medical treatment,\8\ and 
public hospitals that reportedly have given priority to profits 
over patient needs.\9\

                CONCERNS OVER THE ORGAN DONATION SYSTEM

    China faces a significant public health problem in meeting 
the needs of individuals who need organ transplants, a problem 
exacerbated by an organ donation system still at an early stage 
of development.\10\ The disparity between supply and demand for 
organ transplants in China is large, with estimates of one 
million people in need of organ transplants, among whom 300,000 
are medically eligible for them, according to a March 2015 
report in Caixin.\11\ Approximately 10,000 transplants have 
been performed annually in recent years,\12\ relying heavily on 
organs harvested from executed prisoners.\13\ A top Chinese 
health official acknowledged international concerns and, since 
at least 2012, has stated repeatedly that the Chinese 
government would phase out the country's dependence on executed 
prisoners as a source of organs for transplant.\14\
    State-run media reported the end of harvesting organs from 
executed prisoners with a move to a fully voluntary organ 
donation system in January 2015.\15\ Death row prisoners, 
however, remain ``among the qualified candidates for donations, 
but their organs will be registered in the computerized system 
instead of being used for private trades.'' \16\ International 
medical professionals and human rights advocates raised doubts 
about the ``voluntary'' nature of such donations, and 
emphasized that the use of prisoners' organs violates 
international ethical standards in transplantation.\17\

              Implementation of the PRC Mental Health Law

    Forcibly committing individuals without mental illness to 
psychiatric facilities (bei jingshenbing), including 
``government critics'' and petitioners with ``grievances 
against officials,'' reportedly continued during the 
Commission's 2015 reporting year \18\ despite the PRC Mental 
Health Law's (MHL) provisions to prevent such abuse.\19\ 
Microblogger Shi Genyuan \20\ and activist Song Zaimin \21\ 
were released from forcible hospitalization in October and 
November 2014, respectively. The Chinese human rights 
organization Civil Rights & Livelihood Watch also documented 
cases of forced commitment before major political meetings this 
past year.\22\
    The Chinese government at central and local levels made 
efforts to strengthen implementation of the MHL. In November 
2014, Shanghai municipality issued mental health regulations 
that updated municipal regulations from 2001, thus issuing the 
first local mental health regulations in China since the MHL 
came into effect in 2013.\23\ Beijing municipality and Hangzhou 
municipality, Zhejiang province, reportedly considered whether 
to revise regulations that pre-date the MHL.\24\ In June 2015, 
the State Council issued a five-year work plan on mental health 
that would expand access to treatment and services, increase 
the number of mental health professionals and organizations 
providing services, and offer more public outreach on mental 
health, among other aims.\25\
    According to Chinese experts, most local regulations do not 
yet have ``effective oversight and review mechanisms for 
involuntary admission, clear time limitation [sic] for such 
admissions, and specific discharge procedures,'' due, in part, 
to difficulties in balancing medical needs and legal 
protections, as well as community safety concerns and the 
rights of individuals with mental illness.\26\ For example, 
Shanghai's regulations maintain a limit of 72 hours for initial 
diagnosis in cases of involuntary admission,\27\ whereas the 
MHL lacks a specific timeframe,\28\ leaving open the potential 
for an unlimited period of commitment. The delimited time 
period was a feature of Shanghai's earlier mental health 
regulations (2001) \29\ and is in keeping with international 
standards.\30\ The non-governmental organization Chinese Human 
Rights Defenders raised concerns during this reporting year 
that the MHL leaves persons subjected to involuntary 
hospitalization for mental illness ``vulnerable to human rights 
violations,'' including violating provisions in the Convention 
on the Rights of Persons with Disabilities (CRPD).\31\ Articles 
12 and 14 of the CRPD, for example, stipulate people with 
psychosocial disabilities shall ``enjoy legal capacity on an 
equal basis with others'' and ``enjoy the right to liberty and 
security of person.'' \32\
    The broad rights and responsibilities of guardians of 
persons with mental illness came into focus in April 2015 when 
a plaintiff in Shanghai lost a lawsuit for deprivation of 
liberty against his guardian and a psychiatric facility in a 
case reported to be the first lawsuit under the MHL.\33\ The 
plaintiff in the Shanghai case spent more than 12 years 
involuntarily committed to a psychiatric facility even though 
his illness reportedly was under control.\34\ In cases of 
involuntary commitment, patients may not discharge themselves 
on their own recognizance.\35\ Despite efforts by the 
psychiatric facility to facilitate the plaintiff's release, his 
guardian reportedly claimed he was unable to care for the 
plaintiff and refused to authorize discharge.\36\ One 
commentator noted weak protocols at psychiatric hospitals and 
the courts' ``lack [of] authority'' to determine legal relief 
were factors in the plaintiff's case.\37\

                         Public Health Advocacy

    Although the Chinese government encouraged the development 
of non-governmental organizations (NGOs) to provide public 
health and social welfare services,\38\ the government's 
sanction of service provision did not extend to non-
governmental advocacy it deemed to be politically 
sensitive.\39\ Chinese officials harassed public health 
advocates, for example, by preventing the HIV/AIDS advocate 
Wang Qiuyun from traveling to Geneva, Switzerland, in October 
2014 to attend a UN conference \40\ and detaining anti-health 
discrimination advocates Guo Bin and Yang Zhanqing in June 
2015.\41\ In March 2015, public security authorities from 
Beijing municipality raided the Beijing Yirenping Center, an 
NGO that advocates for employment equality and anti-
discrimination for persons with infectious diseases and 
disabilities.\42\ [For further information on the harassment of 
Yirenping during this reporting year, see Section III--Civil 
Society.]
    Barriers in access to justice in cases of employment 
discrimination based on health conditions \43\ include 
difficulties in filing cases,\44\ relying on mediation over 
adjudication,\45\ and financial burdens.\46\ Chinese media 
reported on individual and group health advocacy during this 
reporting year, including these examples:

        <bullet> A woman who was denied employment in Chengdu 
        municipality, Sichuan province, because a pre-
        employment physical exam revealed she carried Hepatitis 
        B, brought her case to court in December 2014.\47\
        <bullet> Two HIV-positive people whose discrimination 
        cases had been rejected by local courts in Guizhou 
        province reportedly advocated for their right to sue in 
        a November 2014 letter to the president of the Supreme 
        People's Court.\48\
        <bullet> In February 2015, plaintiffs in six AIDS-
        related employment discrimination cases wrote to the 
        All-China Federation of Trade Unions \49\ to call on 
        employers, particularly government and public 
        institutions, to discontinue use of discriminatory 
        physical eligibility standards when hiring.\50\
    Notes to Section II--Public Health

    \1\ See, e.g., Laurie Garrett, Council on Foreign Relations, ``The 
Year of the Flu,'' 4 February 15; Gabriel Dominguez, ``WHO: `China Is 
Witnessing an Evolving HIV Epidemic,'' Deutsche Welle, 3 December 14; 
Cesar Chelala, ``Tuberculosis Showing a Resurgence in China,'' Japan 
Times, 30 March 15.
    \2\ ``Diabetes in China: Mapping the Road Ahead,'' Lancet (Diabetes 
& Endocrinology), 11 September 14; Sabrina Tavernise, ``Global Diabetes 
Rates Are Rising as Obesity Spreads,'' New York Times, 8 June 15.
    \3\ Luxia Zhang, Fang Wang et al., ``Prevalence of Chronic Kidney 
Disease in China: A Cross-Sectional Survey,'' Lancet, Vol. 379, No. 
9818, 3 March 12.
    \4\ Cheng Huang, Hai Yu, and Jeffrey P. Kaplan, ``Can China 
Diminish Its Burden of Non-Communicable Diseases and Injuries by 
Promoting Health in Its Policies, Practices, and Incentives?'' Lancet, 
Vol. 384, 30 August 14, 784.
    \5\ David Blumenthal and William Hsiao, ``International Health Care 
Systems: Lessons From the East--China's Rapidly Evolving Health Care 
System,'' New England Journal of Medicine, Vol. 372, No. 14, 2 April 
15.
    \6\ State Council General Office, ``National Medical and Health 
Services System Plan (2015-2020)'' [Quanguo yiliao weisheng fuwu tixi 
guihua gangyao], 6 March 15.
    \7\ Zhou Tian, ``Gains and Losses in Health Care Reform in 2014 
(Part 2)'' [2014 nian yigai deshi (xia)], Caixin, 23 December 14; David 
Blumenthal and William Hsiao, ``International Health Care Systems: 
Lessons From the East--China's Rapidly Evolving Health Care System,'' 
New England Journal of Medicine, Vol. 372, No. 14, 2 April 15.
    \8\ Zhou Tian, ``Gains and Losses in Health Care Reform in 2014 
(Part 2)'' [2014 nian yigai deshi (xia)], Caixin, 23 December 14.
    \9\ Chou Yi et al., ``Health Insurance Reform, Clinical Care, and 
`Public' Hospitals--Delegates Look at Three Major Directions of 
Deepening China's Health Care Reforms'' [Yibao gaige, fenji zhenliao, 
``gongyi'' yiyuan--daibiao weiyuan jujiao woguo shenhua yigai san da 
fangxiang], Xinhua, 11 March 15.
    \10\ Olivia Geng and Fanfan Wang, ``China Sheds Light on Organ 
Donor Program,'' Wall Street Journal, China Real Time Report (blog), 12 
March 15; Jia Peng, ``Dialogue: Huang Jiefu: Two Months Since the Use 
of Executed Prisoners' Organs Stopped, Public Donates 937 Organs'' 
[Duihua: huang jiefu: siqiu qiguan tingyong liangyue gongmin juan 937 
ge qiguan], Beijing News, 6 March 15.
    \11\ Shi Rui, ``Huang Jiefu: Stopping the Use of Executed 
Prisoners' Organs Will Not Create a Shortage'' [Huang jiefu: tingyong 
siqiu qiguan buhui yinqi duanque], Caixin, 11 March 15.
    \12\ Adnan Sharif et al., ``Organ Procurement From Executed 
Prisoners in China,'' American Journal of Transplantation, Vol. 14, 
Issue 10, October 2014; ``China To Scrap Organ Harvesting From Executed 
Prisoners,'' China Daily, 4 December 14; Zhang Jin, ``Closer Look: 
Changing Hearts on the Organ Transplant System,'' Caixin, 15 December 
14.
    \13\ ``China To Scrap Organ Harvesting From Executed Prisoners,'' 
China Daily, 4 December 14; Zhang Jin, ``Closer Look: Changing Hearts 
on the Organ Transplant System,'' Caixin, 17 December 14.
    \14\ ``China To Abolish Transplanting Organs From Condemned 
Prisoners Within 3-5 Years,'' Xinhua, 22 March 12; Wei Mingyan, 
``Within Two Years, Organ Donation Will Replace Executed Prisoners as 
Donors'' [Qiguan juanxian liangnian nei qudai siqiu gongti], Beijing 
News, 15 August 13; Adnan Sharif et al., ``Organ Procurement From 
Executed Prisoners in China,'' American Journal of Transplantation, 
Vol. 14, Issue 10, October 2014.
    \15\ ``China Will Completely Stop Use of Executed Prisoners' Organs 
as Donor Source of Organ Transplants'' [Zhongguo jiang quanmian tingzhi 
shiyong siqiu qiguan zuowei yizhi gongti laiyuan], China National 
Radio, reprinted in Xinhua, 2 January 15; ``China To Scrap Organ 
Harvesting From Executed Prisoners,'' China Daily, 4 December 14. See 
also ``Weaning China Off Organs From Executed Prisoners,'' Lancet, Vol. 
385, No. 9962, 3 January 15.
    \16\ ``China To Scrap Organ Harvesting From Executed Prisoners,'' 
China Daily, 4 December 14; Adnan Sharif et al., ``Organ Procurement 
From Executed Prisoners in China,'' American Journal of 
Transplantation, Vol. 14, Issue 10, October 2014.
    \17\ Torsten Trey et al., ``Correspondence: Organ Transplantation 
in China: Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 
854; Huige Li et al., ``Correspondence: Organ Transplantation in China: 
Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 855-56; 
Jacob Lavee and Vivekanand Jha, ``Correspondence: Organ Transplantation 
in China: Concerns Remain,'' Lancet, Vol. 385, No. 9971, 7 March 15, 
855; Liz Kerr and Deborah Collins-Perrica, ``Correspondence: Organ 
Transplantation in China: Concerns Remain,'' Lancet, Vol. 385, No. 
9971, 7 March 15, 856; Adnan Sharif et al., ``Organ Procurement From 
Executed Prisoners in China,'' American Journal of Transplantation, 
Vol. 14, Issue 10, October 2014; Francis L. Delmonico et al. on behalf 
of the Transplantation Society and the Declaration of Istanbul 
Custodian Group, ``Open Letter to President of China,'' Transplantation 
Society Tribune, Vol. 11, Issue 1, Spring 2014, 10.
    \18\ Chinese Human Rights Defenders, ``[CHRB] Forced Psychiatric 
Detention Persists 2 Years After China Enacted Mental Health Law (5/8-
14/2015),'' 15 May 15; Civil Rights & Livelihood Watch, ``2014 Year-End 
Report on Mental Health and Human Rights in China (Forced 
Hospitalization)'' [2014 nian zhongguo jingshen jiankang yu renquan 
(bei jingshenbing) nianzhong baogao], 14 January 15, sec. 1(6). 
Additional examples during this reporting year include Xu Dajin and Shi 
Youfang. Civil Rights & Livelihood Watch, ``Forcibly Hospitalized 
Jiangxi Petitioner Xu Dajin Again Sent for `Medical Treatment' by 
Police'' [Jiangxi bei jingshenbing fangmin xu dajin zai bei jingfang 
song qu ``zhibing''], 6 April 15 (case of Xu Dajin); Civil Rights & 
Livelihood Watch, ``Anhui Petitioner Shi Youfang Forced To Undergo 
Psychiatric Assessment After Detention'' [Anhui fangmin shi youfang bei 
juliu hou qiangzhi zuo jingshenbing jianding], 26 February 15 (case of 
Shi Youfang).
    \19\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1).
    \20\ Civil Rights & Livelihood Watch, ``Fujian Blogger Talks About 
How Shi Genyuan Was Forcibly Committed to Psychiatric Hospital and Most 
Recent Conditions'' [Fujian wangyou tan shi genyuan bei jingshenbing de 
jingguo he zui xin qingkuang], 4 September 14; Rights Defense Network, 
``News Flash: Shi Genyuan (Chronology Project) Released Today'' 
[Kuaixun: shi genyuan (duandai gongcheng) jin bei shifang], 11 October 
14. For more information on Shi Genyuan, see the Commission's Political 
Prisoner Database record 2014-00343.
    \21\ ``Beijing Democracy Rights Defender Song Zaimin Has Been Held 
at Pinggu Psychiatric Hospital for More Than One Month Already'' 
[Beijing minzhu weiquan renshi song zaimin yi bei guan pinggu 
jingshenbing yuan 1 ge duo yue], Boxun, 16 September 14; ``After Being 
Forcibly Committed, Song Zaimin Has Left the Hospital and Returned 
Home: Wu Jinsheng'' [Bei jingshenbing song zaimin yijing chuyuan 
huijia: wu jinsheng], Boxun, 6 November 14. For more information on 
Song Zaimin, see the Commission's Political Prisoner Database record 
2014-00346.
    \22\ Civil Rights & Livelihood Watch (CRLW), ``2014 Year-End Report 
on Mental Health and Human Rights in China (Forced Hospitalization)'' 
[2014 nian zhongguo jingshen jiankang yu renquan (bei jingshenbing) 
nianzhong baogao], 14 January 15. The CRLW report specified that forced 
commitments increased around the time of the Fourth Plenum of the 18th 
National Congress Central Committee in November 2014 and the annual 
meetings of the National People's Congress and the Chinese People's 
Political Consultative Conference in March 2015.
    \23\ Shanghai Municipal People's Congress, Shanghai Municipality 
Mental Health Regulations [Shanghai shi jingshen weisheng tiaoli], 
issued 20 November 14, effective 1 March 15; Wei Yan, `` `Shanghai 
Municipality Mental Health Regulations' `Upgraded' Within the Year, 
Free Counseling for Depression'' [``Shanghai shi jingshen weisheng 
tiaoli'' niannei ``kaiji'' yiyuzheng ke mianfei xinli zixun], East Day, 
10 October 14.
    \24\ See, e.g., Beijing Municipal People's Congress Standing 
Committee, `` `Beijing Mental Health Regulations' Post-Legislative 
Assessment Work Team Conducts Investigation at Anding Hospital'' 
[``Beijing shi jingshen weisheng tiaoli'' lifa hou pinggu gongzuo zu 
gua anding yiyuan diaoyan], 18 September 14; Hangzhou Municipal Health 
and Family Planning Commission, ``Hangzhou Municipality's Essential 
Work for Health and Planning in 2015'' [2015 nian hangzhou shi weisheng 
jisheng gongzuo yaodian], 22 December 14, item 3.
    \25\ State Council General Office, ``National Mental Health Work 
Plan (2015-2020)'' [Quanguo jingshen weisheng gongzuo guihua (2015-
2020)], 4 June 15, item 2(3); Hu Huo et al., ``Who Will Help Society's 
Marginalized `Spiritual Wanderers?'--A Focused Look at the National 
Mental Health Work Plan'' [Shei lai bangzhu shehui bianyuan de 
``jingshen liulangzhe''?--jujiao quanguo jingshen weisheng gongzuo 
guihua], Xinhua, 18 June 15.
    \26\ Yang Shao and Bin Xie, ``Approaches to Involuntary Admission 
of the Mentally Ill in the People's Republic of China: Changes in 
Legislation From 2002 to 2012,'' Journal of the American Academy of 
Psychiatry and the Law, Vol. 43, No. 1, 1 March 15.
    \27\ Shanghai Municipal People's Congress, Shanghai Municipality 
Mental Health Regulations [Shanghai shi jingshen weisheng tiaoli], 
issued 20 November 14, effective 1 March 15, art. 32. Article 32 of the 
Shanghai regulations limits emergency observation to 72 hours after 
which discharge is required.
    \28\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, art. 30; Jeremy 
Daum, ``Still Crazy After All These Years,'' China Law Translate 
(blog), 20 May 13. As China law scholar Jeremy Daum noted in 2013, 
``[i]n earlier drafts of the MHL, the period for diagnosis was limited 
to 72 hours, but the final text does not contain this requirement and 
only requires that diagnosis be performed without delay.'' See also 
Yang Shao and Bin Xie, ``Operationalizing the Involuntary Treatment 
Regulations of China's New Mental Health Law,'' Shanghai Archives of 
Psychiatry, Vol. 25, No. 6, December 2013, 385, sec. 4.
    \29\ Shanghai Municipality Mental Health Regulations [Shanghai shi 
jingshen weisheng tiaoli], issued 28 December 01, effective 7 April 02, 
art. 31.
    \30\ World Health Organization, ``Mental Health Legislation & Human 
Rights,'' Mental Health Policy and Service Guidance Package, 2003, 24. 
Emergency procedures ``should allow the compulsory evaluation of 
persons with mental disorders and/or admission for 48-72 hours to allow 
assessment by a mental health specialist if there is a reasonable 
suspicion of an immediate risk to their health or safety.''
    \31\ Chinese Human Rights Defenders, ``CHRD Information Submission 
to the UN Committee Against Torture for Consideration in List of 
Issues--February 2015,'' 17 February 15, para. 29(a).
    \32\ Convention on the Rights of Persons with Disabilities, adopted 
by UN General Assembly resolution 61/106 of 13 December 06, entry into 
force 3 May 08, arts. 12, 14. See also Chinese Human Rights Defenders, 
`` `The Darkest Corners': Abuses of Involuntary Psychiatric Commitment 
in China,'' August 2012, 13.
    \33\ Wang Yejie and Zhou Kai, ``Shanghai: Person Suffering From 
Schizophrenia Wants To `Fly Out of the Cuckoo's Nest' '' [Shanghai yi 
jingshen fenliezheng huanzhe yu ``feiyue fengren yuan''], China Youth 
Daily, 15 April 15. For a recent article on concerns about the power of 
guardians, see Zhao Han, ``Public Interest Organization Calls for 
Reform of Adult Guardianship System in the Civil Code'' [Gongyi jigou 
hu minfa dian bianzuan ying gaige chengren jianghu zhidu], Caixin, 23 
May 15. See also CECC, 2013 Annual Report, 10 October 13, 121-22.
    \34\ Liu Xin, ``Mentally-Ill Patient Loses Lawsuit Seeking To Leave 
Shanghai Hospital,'' Global Times, 16 April 15. According to the Global 
Times, Xu's lawyer said, ``Xu's illness has been controlled and he is 
now able to live a normal life. Xu has the right to leave the 
hospital.''
    \35\ Yang Shao and Bin Xie, ``Operationalizing the Involuntary 
Treatment Regulations of China's New Mental Health Law,'' Shanghai 
Archives of Psychiatry, Vol. 25, No. 6, December 2013, 385, sec. 5.
    \36\ Wang Yejie and Zhou Kai, ``Person From Shanghai Suffering From 
Schizophrenia Wants To `Fly Out of the Cuckoo's Nest' '' [Shanghai yi 
jingshen fenliezheng huanzhe yu ``feiyue fengren yuan''], China Youth 
Daily, 15 April 15.
    \37\ Wang Cailiang, ``In a First, Demolition Case Included in Top 
Ten Public Interest Cases for 2014'' [Chaiqian anjian shouci ruxuan 
2014 zhongguo shi da gongyi susong], Caijing (Wang Cailiang blog), 11 
February 15.
    \38\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13, sec. 13(48); Ministry of Finance, 
Ministry of Civil Affairs, and State Administration of Industry and 
Commerce, Government Service Procurement Management Measures (Interim) 
[Zhengfu goumai fuwu guanli banfa (zhanxing)], issued 15 December 14, 
effective 1 January 15, art. 14(1-2).
    \39\ Andrew Jacobs and Chris Buckley, ``In China, Civic Groups' 
Freedom, and Followers, Are Vanishing,'' New York Times, 26 February 
15.
    \40\ Jess Macy Yu, ``Chinese AIDS Activist Says She Was Kept From 
U.N. Conference,'' New York Times, Sinosphere (blog), 23 October 14; 
Simon Denyer, ``China Bars AIDS Activist From Traveling Despite Talk of 
Ending Discrimination,'' Washington Post, 23 October 14.
    \41\ Rights Defense Network, ``Authorities' Suppression of 
Grassroots NGOs Continues, NGO Directors Guo Bin and Yang Zhanqing 
Detained'' [Dangju dui minjian NGO zhenya jixu NGO fuzeren guo bin, 
yang zhanqing zao jubu], 13 June 15; Tom Phillips, ``Fears of New 
Crackdown as China Holds Two Former Members of Rights Group,'' 
Guardian, 15 June 15.
    \42\ Beijing Yirenping Center, ``Yirenping: Anti-Discrimination 
Public Interest Organization Raided While Calling for Release of Five 
Women's Rights Activists,'' reprinted in Rights Defense Network, 26 
March 15; ``China's Fear of Women With Pamphlets,'' New York Times, 27 
March 15. For information on the harassment of Zhengzhou Yirenping in 
2014, see CECC, 2014 Annual Report, 9 October 14, 126, 134. See also Fu 
Hualing, ``Embedded Socio-Legal Activism in China: The Case of 
Yirenping,'' reprinted in Social Sciences Research Network, 5 November 
12, last visited 27 April 15.
    \43\ National laws and regulations that prohibit health-based 
discrimination include the PRC Law on the Protection of Persons With 
Disabilities [Zhonghua renmin gongheguo canjiren baozhang fa], passed 
28 December 90, amended 24 April 08, effective 1 July 08, arts. 3, 30-
40; PRC Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin 
fa], passed 30 August 07, effective 1 January 08, arts. 3, 29, 30; 
State Council, Regulations on the Treatment and Control of HIV/AIDS 
[Aizibing fangzhi tiaoli], issued 18 January 06, effective 1 March 06, 
art. 3; State Council, Regulations on the Employment of Persons With 
Disabilities [Canjiren jiuye tiaoli], issued 14 February 07, effective 
1 May 07, arts. 3, 27.
    \44\ Shao Xi, ``Guizhou Again Refuses Case-Filing of AIDS 
Employment Discrimination, Plaintiff Appeals'' [Guizhou zai ju aizi 
jiuye qishi li'an yuangao shangsu], Caixin, 6 November 14; ``Rule of 
Law News: Guizhou Allows Filing of HIV/AIDS Employment Discrimination 
Case for the First Time'' [Fazhi xixun: guizhou shouci shouli aizi 
jiuye qishi an], New Citizens Movement (blog), 27 January 15.
    \45\ Shao Xi, ``Guizhou Again Refuses Case-Filing of AIDS 
Employment Discrimination, Plaintiff Appeals'' [Guizhou zai ju aizi 
jiuye qishi li'an yuangao shangsu], Caixin, 6 November 14; Yu Yingbo, 
``In Jiangsu's First AIDS Employment Discrimination Case Decision, 
Plaintiff Compensated 40,000 [Yuan]'' [Jiangsu shouli aizi jiuye qishi 
an jie'an yuangao huo pei 4 wan], Legal Daily, 9 October 14.
    \46\ ``Jiangsu's First Case of AIDS Employment Discrimination 
Receives Compensation'' [Jiangsu shouli aizi jiuye qishi an huo pei], 
Radio Free Asia, 9 October 14; Wu Liufeng and Yang Xue, ``Woman College 
Student Refused Employment Due to Hepatitis B, Women's Federation `Goes 
to Court' To Help Her With Lawsuit'' [Nu daxuesheng yin yigan bei jupin 
fulian ``chuting'' bang ta da guansi], West China City Daily, 4 
December 14.
    \47\ Wu Liufeng and Yang Xue, ``Woman College Student Refused 
Employment Due to Hepatitis B, Women's Federation `Goes to Court' To 
Help Her With Lawsuit'' [Nu daxuesheng yin yigan bei jupin fulian 
``chuting'' bang ta da guansi], West China City Daily, 4 December 14; 
Feng Dan, ``Hepatitis B Anti-Discrimination Case Goes to Court in 
Chengdu, First Time for Mass Organization To Support Litigation'' 
[Chengdu fan yigan qishi an kaiting shenli, quntuan zuzhi shouci zhichi 
susong], NGO Development Exchange Network, 5 December 14.
    \48\ Yu Yingbo, ``Plaintiffs in Two Cases of AIDS-Related 
Employment Discrimination in Guizhou Send Letter to SPC President'' 
[Guizhou liang aizi jiuye qishi an dangshiren zhixin zuigaoyuan 
yuanzhang], Legal Daily, 30 November 14. The New Citizens Movement blog 
reported in January 2015 that a local court in Guizhou province allowed 
the case to be filed. ``Rule of Law News: Guizhou Allows Filing of HIV/
AIDS Employment Discrimination Case for the First Time'' [Fazhi xixun: 
guizhou shouci shouli aizi jiuye qishi an], New Citizens Movement 
(blog), 27 January 15.
    \49\ Wan Jing, ``Litigants Recommend ACFTU Pay Attention to AIDS-
Based Employment Discrimination'' [Dangshiren jianyi quanzong guanzhu 
aizi jiuye qishi], Legal Daily, 3 February 15. See also Dong Jun, 
``ACFTU: Employer Discrimination a Prominent Problem'' [Quanzong: 
yongren danwei jiuye qishi wenti tuchu], Xinhua, 2 February 15. An 
ACTFU official noted health and disability cases among typical cases of 
employment discrimination.
    \50\ Wan Jing, ``Litigants Recommend ACFTU Pay Attention to AIDS-
Based Employment Discrimination'' [Dangshiren jianyi quanzong guanzhu 
aizi jiuye qishi], Legal Daily, 3 February 15. See also LGBTRights, 
``Plaintiffs in Six AIDS Discrimination Cases Name the All-China 
Federation of Trade Unions, How About It?'' [Aizi qishi liu yuangao 
dianming zhonghua quanguo zonggong hui, yue ma?], Aiweibang, 5 February 
15.

                            The Environment


                        Environmental Challenges

    During the Commission's 2015 reporting year, reports of 
widespread and severe environmental challenges confronting 
China focused on soil,\1\ air,\2\ marine,\3\ and surface and 
groundwater pollution,\4\ as well as the potential effects of 
pollution on citizens' health.\5\ Although the number of 
pollution incidents reportedly declined in 2014 compared to 
2013, authorities had to respond to hundreds of environmental 
accidents throughout the year.\6\ One such incident involved 
pollution from a mining company that contaminated a reservoir 
in Chongqing municipality, which affected the drinking water 
supply for 50,000 people.\7\ In addition, environmental 
authorities acknowledged that the relocation of polluting 
industries to less developed areas--known as dirty migration--
and inadequate environmental protection in rural villages 
remain problematic.\8\ Reports noted increasing numbers of 
pollution sources in villages,\9\ which have left rural 
residents more vulnerable to the effects of pollution over time 
when compared with urban residents.\10\

            Growing Public Concern, Environmental Protests, 
                        and Official Suppression

    Amid these serious environmental challenges, Chinese 
citizens have become more environmentally aware and concerned 
about pollution.\11\ For example, after hundreds of millions of 
viewers reportedly watched Chinese journalist Chai Jing's 
online documentary on air pollution, ``Under the Dome,'' \12\ 
authorities ordered its removal from the Internet.\13\ As 
environmental awareness has grown, 
authorities have sought to promote the ``orderly development'' 
of public participation in the environmental sector,\14\ 
including the supervision of environmental legal 
enforcement.\15\ In July 2015, the Ministry of Environmental 
Protection issued the Measures for Public Participation in 
Environmental Protection,\16\ which reaffirm existing 
provisions providing for participation in rulemaking.\17\ The 
Measures, however, narrow the scope of public participation 
\18\ and pre-participation information-sharing requirements for 
officials when compared with an earlier draft of the 
Measures.\19\ The new Measures also provide for the supervision 
of ``illegal behavior,'' \20\ and for the first time provide 
for ``participation'' in the ``implementation'' of 
administrative licenses and punishments.\21\ The Measures do 
not, however, specifically provide for the supervision of 
environmental protection agencies or main emissions of key 
polluting work units as stipulated in the April draft of the 
Measures.\22\

                      LIMITS TO OFFICIAL TOLERANCE

    During this reporting year, authorities in some locations 
attempted to silence environmental advocates. Authorities in 
Zhoutie township, Yixing city, Wuxi municipality, Jiangsu 
province, continue to monitor, restrict the movements of, and 
interfere with the livelihood of environmentalist Wu Lihong, a 
long-term advocate of cleaning up pollution in Lake Tai in 
Jiangsu.\23\ Authorities sentenced Wu to three years in prison 
in 2007 on reportedly trumped-up charges of extortion and fraud 
after a torture-induced confession.\24\ In March 2015, 
authorities in Guangzhou municipality, Guangdong province, 
administratively detained a woman for 14 days for reposting 
information on social media about a group of mothers concerned 
about air pollution.\25\ Also in March, authorities in Xi'an 
municipality, Shaanxi province, detained Zhang Hui and Feng 
Honglian for a day after they held up placards with anti-
pollution slogans in public.\26\
    Citizen anti-pollution protests in some locations 
throughout the year were censored and ended with authorities' 
violent suppression, including the detention, injury, or death 
of protesters in several known cases. Nationally, the number of 
environmentally focused ``mass incidents'' (large-scale 
protests) reportedly has increased annually by 29 percent on 
average since 1996,\27\ and pollution problems have been among 
the primary triggers of ``mass incidents.'' \28\ The Commission 
observed authorities' efforts to silence expression of 
environmental grievances and to violently suppress anti-
pollution protests in the Inner Mongolia,\29\ Tibet,\30\ and 
Xinjiang Uyghur Autonomous Regions,\31\ as well as in Shanghai 
municipality,\32\ and Guangdong,\33\ Hubei,\34\ Hebei,\35\ 
Sichuan,\36\ Anhui,\37\ Fujian,\38\ Shanxi,\39\ Hunan,\40\ and 
Qinghai provinces.\41\ The status of individuals detained by 
authorities for participating in these environment-related 
protests remains unclear.

                      Underdeveloped Court System

    This past year, reports highlighted Chinese authorities' 
progress in building an environmental court system. In total, 
by March 2015, there were 382 environmental courts of various 
types at or below the intermediate court level in 18 
provinces,\42\ compared to 5 courts in 2 provinces operating on 
a trial basis in 2009.\43\ High courts, however, are just 
beginning to establish special environmental tribunals,\44\ 
following the lead and directive of the Supreme People's 
Court.\45\ As of March 2015, high courts in only 11 provinces 
had created such tribunals.\46\ Despite growth in the number of 
environmental courts, the trend in past years has been that 
courts hear a low number of environmental cases.\47\ In 2014, 
however, courts adjudicated 16,000 cases related to 
environmental offenses, 8.5 times more than the previous year, 
and courts adjudicated 3,331 civil lawsuits, a more than 50-
percent increase over the previous year.\48\
    News reports also highlighted problems affecting 
environmental litigation processes and barriers to utilizing 
the courts to resolve environmental grievances.\49\ Local 
government officials in some locations continue to interfere 
with environmental judicial cases \50\ and pressure citizens 
not to file environmental lawsuits.\51\ In one example, in 
March 2015, a court in Hengyang municipality, Hunan province, 
initially accepted lawsuits brought against Hengyang Meilun 
Chemical Company by 53 parents of children who suffered from 
high blood lead levels.\52\ Subsequently, local officials 
reportedly used threats, intimidation tactics, and court delays 
to pressure the parents to withdraw their legal complaints.\53\ 
When the open trial began in June, only 13 plaintiffs 
remained.\54\

          Public Interest Litigation: Opportunities and Limits

    The Supreme People's Court (SPC) and the central government 
took steps to establish a legal framework to make it easier for 
environmental organizations to file environmental public 
interest lawsuits under prescribed circumstances,\55\ ending a 
multi-year debate regarding the establishment of such a 
system.\56\ The revised PRC Environmental Protection Law, which 
took effect in January 2015, and the SPC Interpretation on 
Certain Issues Related to Application of the Law in 
Environmental Civil Public Interest Litigation, issued the same 
month, clarified provisions of the PRC Civil Procedure Law 
related to environmental public interest lawsuits.\57\ During 
this reporting period, central government and judicial 
authorities also issued several documents that have the 
potential to further strengthen the legal foundation for 
environmental public interest litigation.\58\ In addition, 
central authorities plan to explore the establishment of 
systems for procuratorates to raise public interest 
lawsuits.\59\ Prior to these efforts, few public interest 
lawsuits related to the environment made it into the courts; 
between 2000 and 2013, courts heard fewer than 60 environmental 
public interest lawsuits.\60\ Local procuratorates, 
administrative agencies, and other government organizations 
filed most of them,\61\ while environmental ``social 
organizations'' filed only eight lawsuits (just over 13 
percent).\62\
    Despite these developments, reports note that numerous 
challenges to environmental public interest litigation remain. 
Most environmental organizations reportedly do not meet the 
criteria to file environmental public interest lawsuits \63\--
only about 700 of the 7,000 registered environmental ``social 
organizations'' fulfill the requirements.\64\ In addition, 
Chinese estimates assert that of these 700 groups, fewer than 
30 groups have the capacity \65\ and less than 2 percent are 
willing to file such lawsuits.\66\ Other reported challenges to 
a functioning environmental public interest law system include:

        <bullet>  Courts' reluctance to accept lawsuits \67\ 
        and Chinese government and Communist Party pressure on 
        courts not to accept lawsuits; \68\
        <bullet>  Difficulties with determining losses in 
        environmental cases; \69\ and
        <bullet>  Hurdles faced by environmental groups when 
        filing environmental public interest lawsuits, 
        including difficulty obtaining evidence,\70\ lack of 
        qualified legal and scientific personnel,\71\ and 
        shortage of material and financial resources.\72\

         Regulatory Developments and Challenges to Rule of Law

    The Communist Party Central Committee and the State Council 
signaled their support for strengthening rule of law in the 
environmental sector within the larger context of efforts to 
``maintain social stability'' \73\ and to build an ``ecological 
civilization'' as part of achieving the ``Chinese dream.'' \74\
    In line with these commitments, central authorities 
continued to build China's environmental protection regulatory 
framework, although gaps remain.\75\ Throughout the reporting 
period, authorities drafted or were in the process of drafting 
or revising numerous laws, measures, and plans related to 
soil,\76\ air,\77\ and water pollution \78\ and wildlife 
protection.\79\ Official policy statements and initiatives also 
focused on energy development,\80\ green gross domestic 
product,\81\ environmental emergencies,\82\ environmental 
protection taxes,\83\ liability insurance,\84\ public-private 
partnerships to fund environmental protection projects,\85\ 
property rights over natural assets,\86\ corporate social 
responsibility,\87\ and the devolution of power for approving 
additional categories of environmental impact assessments to 
provincial authorities.\88\ In addition, on November 11, 2014, 
the U.S. and Chinese governments made a joint announcement 
regarding their respective pledges to address their greenhouse 
gas emissions.\89\ The Chinese government pledged to cap total 
coal consumption at approximately 4.2 billion tons by 2020, 
peak greenhouse gas emissions around 2030, and ``make best 
efforts to peak early . . . .'' \90\

                   PLEDGES TO IMPROVE LAW ENFORCEMENT

    During the Commission's 2015 reporting year, authorities 
reiterated pledges \91\ to improve legal enforcement in the 
environmental sector. In October 2014, the Party Central 
Committee emphasized a ``focus on carrying out comprehensive 
law enforcement in [the areas of] . . . resources and the 
environment . . .,'' \92\ including building regulatory 
structures to restrain exploitative behavior, strengthening 
producers' legal liability for environmental protection, and 
substantially raising the costs of violating the law.\93\ In 
November 2014, the State Council General Office issued a 
circular \94\ that reportedly will facilitate the 
implementation of the PRC Environmental Protection Law.\95\ The 
circular includes provisions that stipulate ``zero tolerance'' 
toward illegal pollution emissions and dumping, allow for 
public disclosure of ``blacklists'' naming violators,\96\ 
specify that local officials should abolish all policies that 
have hindered enforcement of environmental laws,\97\ and 
mandate improved professional standards for environmental 
enforcement personnel.\98\

            ENFORCEMENT, ACCOUNTABILITY, AND IMPLEMENTATION

    Throughout this reporting year, sources noted some positive 
developments in legal enforcement of environmental laws and 
regulations. In 2014, authorities investigated 20 percent more 
environmental and natural resources violations than in 2013 
\99\ and handed out 83,195 administrative penalty decisions, a 
25.5-percent increase over 2013.\100\ In one landmark case, 
authorities levied the largest fines to date against six 
polluting firms in Jiangsu province, which one Chinese expert 
said is ``a signal that the use of public interest litigation 
to impose higher costs on polluting firms is now normal.'' 
\101\ A February 2015 Xinhua article reported that in 2014, 
public security officials ``arrested'' six times as many 
individuals associated with environmental crimes nationally as 
in the previous year.\102\ This development follows a June 2013 
judicial interpretation clarifying the application of criminal 
provisions to environmental violations \103\ and a December 
2013 opinion that outlined closer cooperation between the 
environmental protection and public security ministries in 
enforcing environmental laws.\104\
    These largely positive developments notwithstanding, 
official accountability mechanisms in the environmental sector 
remain underdeveloped. In March 2015, Chen Jining, the new 
Minister of Environmental Protection, noted that mechanisms for 
incorporating environmental protection into government 
officials' professional assessments are still in a trial 
phase.\105\ One news article noted that Lanzhou municipality, 
Gansu province, and Shandong and Guizhou provinces are piloting 
various types of government environmental auditing 
systems.\106\ During this process, they have faced several 
challenges, including determining values of waterways and other 
natural resources, quantifying baselines from which to measure 
performance, coordinating audits among multiple ministries, and 
creating ``corruption-proof'' audit procedures.\107\
    Media reports from the past year indicated that corruption 
within environmental agencies \108\ and related state-owned 
enterprises \109\ remained a problem. Environmental impact 
assessment (EIA) agencies came under public scrutiny after an 
October 2014 investigation by Southern Weekend found that, of 
the over 5,000 registered EIA engineers in 11 provinces, 16 
percent could be falsely registered.\110\ In February 2015, 
central Chinese Communist Party anticorruption officials 
reportedly reprimanded the Ministry of Environmental Protection 
(MEP) for a series of problems including interfering in 
EIAs.\111\ In August 2015, reports highlighted concerns over 
official improprieties associated with the August 12 explosions 
in Tianjin municipality.\112\
    Implementation challenges, lax enforcement of environmental 
laws and policies, and data falsification remained problematic, 
hindering the development of the rule of law in the 
environmental protection sector. In November 2014, an MEP 
official noted that enforcement of environmental laws and 
regulations has not been sufficiently strict.\113\ Moreover, in 
some places, government officials have limited the number of 
inspections environmental departments can undertake and 
prohibited environmental protection officials from directly 
imposing fines on companies.\114\ Chinese official and media 
sources noted other problems with data falsification,\115\ lax 
implementation,\116\ and enforcement,\117\ and an international 
scientific journal pointed out that officials face challenges 
putting the recently revised PRC Environmental Protection Law 
into practice.\118\
    Noncompliance with environmental laws and regulations also 
remained problematic. A State Council circular issued in 
November 2014 noted difficulties with environmental supervision 
and legal enforcement in some locations and pointed out that 
environmental violations occurred frequently.\119\ Numerous 
news reports carried stories of industry- or company-specific 
instances of noncompliance.\120\ One environmental non-
governmental organization reported that as of early December 
2014, 1,069 companies, about 40 percent of all the companies 
listed on Chinese stock exchanges, had unfavorable 
environmental records.\121\ Official documents noted instances 
of disregard for environmental enforcement personnel, violence 
against environmental officials, and resistance to authorized 
inspections.\122\

           Environmental Transparency: Advances and Setbacks

    During this reporting year, Chinese media highlighted 
measures intended to improve transparency. These measures 
included a major Chinese Communist Party decision issued in 
October 2014 that reiterated the call for the general 
advancement of open government affairs,\123\ and a State 
Council opinion that called for greater transparency regarding 
legal enforcement.\124\ In March and April 2015, environmental 
authorities announced that 338 cities were disclosing real-time 
environmental monitoring data \125\ and issued plans to 
establish a unified platform to disclose environmental impact 
assessment information.\126\
    Official censorship, however, persisted. In March 2015, 
authorities reportedly ordered some media outlets to remove 
articles discussing an online documentary about air pollution--
``Under the Dome'' \127\--and later required them to remove the 
video from websites.\128\ In other examples, in 2015, central 
and local officials censored information about and prohibited 
news sites from independently reporting on the August 12 
explosions in Tianjin municipality,\129\ local authorities 
reportedly tried to limit independent reporting of anti-
pollution protests in the Inner Mongolia Autonomous 
Region,\130\ and central officials sought to censor information 
regarding the explosion of a paraxylene (PX) chemical factory 
in Fujian province.\131\ A ``relevant government department'' 
reportedly told the creator of an air quality data phone 
application that he had to stop providing data collected by the 
U.S. Embassy in Beijing municipality around the time of U.S. 
President Barack Obama's visit to China and the Asia-Pacific 
Economic Cooperation summit in November 2014.\132\
    In addition, Chinese citizens continued to face obstacles 
in accessing environmental information from government 
agencies.\133\ In one example, after the World Health 
Organization reported in March 2015 that glyphosate, an 
ingredient in Monsanto's herbicide Roundup, was ``classified as 
probably carcinogenic to humans,'' \134\ three individuals sued 
the Ministry of Agriculture (MOA) for refusing an open 
government information request for access to a 27-year-old 
toxicology report on Roundup.\135\ This case followed a Beijing 
court's ruling against lawyer Huang Leping, who sought to 
compel the MOA to disclose information on the importation of 
genetically modified (GM) crops and the Chinese government's 
plans for domestic cultivation of GM crops.\136\
    Notes to Section II--The Environment

    \1\ See, e.g., ``Pollution and Health in China: Confronting the 
Human Crisis,'' China Dialogue, 7 September 14; He Guangwei, ``Special 
Report: The Victims of China's Soil Pollution Crisis,'' China Dialogue, 
30 June 14; Cherie Chan, ``Soil Contamination Found Near Huge Mine in 
Western China,'' New York Times, Sinosphere (blog), 12 June 14; Cui 
Zheng, ``China Draft Proposes Tougher Curbs on Soil Pollution,'' China 
Dialogue, 29 January 15; Wu Jingjing, ``Ministry of Environmental 
Protection: China Plans To Use Six or Seven Years To Curb the Trend of 
Worsening Soil Pollution'' [Huanbaobu: zhongguo ni yong liu qi nian 
shijian ezhi turang wuran ehua qushi], Xinhua, 11 July 15.
    \2\ ``Ministry of Environmental Protection: Serious Air Pollution 
Affects 560,000 Square Kilometers in October'' [Huanbaobu: 10 yue zhong 
wuran yingxiang mianji da 56 wan pingfang gongli], Beijing Youth Daily, 
reprinted in Xinhua, 26 October 14; Li Jing, ``670,000 Smog-Related 
Deaths a Year: The Cost of China's Reliance on Coal,'' South China 
Morning Post, 5 November 14; ``Smog Causes Lung Cancer: Lawmaker,'' 
Xinhua, 30 October 14; ``Chen Jining Answers Journalists' Questions 
With Regard to Comprehensively Strengthening Environmental Protection'' 
[Chen jining jiu quanmian jiaqiang huanjing baohu da jizhe wen], 
National People's Congress, 7 March 15.
    \3\ See, e.g., State Oceanic Administration, `` `2014 Bulletin on 
the Status of China's Marine Environment' Issued'' [``2014 nian 
zhongguo haiyang huanjing zhuangkuang gongbao'' fabu], 11 March 15; 
Beth Walker, ``Most of China's Coastal Waters Heavily Polluted,'' China 
Dialogue, 11 March 15; Robert Lee Hotz, ``Which Countries Create the 
Most Ocean Trash?'' Wall Street Journal, 12 February 15.
    \4\ See, e.g., State Council, ``Water Pollution Prevention and 
Control Action Plan'' [Shui wuran fangzhi xingdong jihua], reprinted in 
Ministry of Environmental Protection, 2 April 15; ``Nationally, the 
Water Quality in More Than a Tenth of Water Sources Does Not Meet 
Standards, Water Departments Detail Reasons'' [Quanguo shuiyuan di 
shuizhi yu yicheng wei dabiao shuili bumen xiang jie qiyin], Xinhua, 19 
November 14.
    \5\ See, e.g., Li Jing, ``670,000 Smog-Related Deaths a Year: The 
Cost of China's Reliance on Coal,'' South China Morning Post, 5 
November 14; ``Pollution and Health in China: Confronting the Human 
Crisis,'' China Dialogue, 7 September 14.
    \6\ Ministry of Environmental Protection (MEP), ``MEP Bulletin on 
the Basic Situation of Sudden Environmental Incidents in 2014'' 
[Huanjing baohu bu tongbao 2014 nian tufa huanjing shijian jiben 
qingkuang], 23 January 15.
    \7\ Du Ximeng, ``Public Report on the Results of the Investigation 
Into the Qianzhangyan Reservoir Pollution Incident: 50,000 People 
Facing Drinking Water Problems'' [Qianzhangyan shuiku shou wuran 
shijian diaocha jieguo gongbu zhi 5 wan ren yin shui kunnan], China 
Broadcast Network, reprinted in Xinhua, 21 January 15.
    \8\ ``Chen Jining Answers Journalists' Questions With Regard to 
Comprehensively Strengthening Environmental Protection'' [Chen jining 
jiu quanmian jiaqiang huanjing baohu da jizhe wen], National People's 
Congress, 7 March 15.
    \9\ Ibid.
    \10\ Liu Hongqiao, ``China Set To Miss Safe Rural Drinking Water 
Targets,'' China Dialogue, 5 March 15; Rachel Lu, ``China's Real 
Inconvenient Truth: Its Class Divide,'' Foreign Policy, 6 March 15; He 
Guangwei, ``Special Report: The Victims of China's Soil Pollution 
Crisis,'' China Dialogue, 30 June 14; Luna Lin, ``Chinese Countryside 
Facing More Serious Drinking Water Crisis Than Cities,'' China Dialogue 
(blog), 7 May 14; Gao Jianghong, ``Scholar Says Water Quality Situation 
Is a Disaster, But Worse Are State Secrets'' [Xuezhe cheng shuizhi 
qingkuang hen zaogao dan duo zao shi guojia jimi], 21st Century 
Business Herald, reprinted in Sina, 27 April 14.
    \11\ Liu Jingqi, ``Is the Distance From Participation to Public 
Interest Near or Far?'' [Canyu li gongyi shi jin haishi yuan?], China 
Environmental News, 2 September 14; Daniel K. Gardner, ``China's 
Environmental Awakening,'' New York Times, 14 September 14; ``China's 
Environmental Supervision Is Grim, People's Reaction Is Strong'' [Woguo 
huanjing jianguan xingshi yanjun baixing fanying qianglie], PRC Central 
People's Government, 9 December 14.
    \12\ Heng Shao, ``Only in China: Why a Smog Documentary Sent 
Chinese Stocks Soaring to Trading Limit,'' Forbes, 2 March 15; Ben 
Beaumont-Thomas, ``Smash-Hit Chinese Pollution Doc Under the Dome Taken 
Offline by Government,'' Guardian, 10 March 15.
    \13\ Ben Beaumont-Thomas, ``Smash-Hit Chinese Pollution Doc Under 
the Dome Taken Offline by Government,'' Guardian, 9 March 15; 
``Minitrue: Delete `Under the Dome,' '' China Digital Times, 7 March 
15.
    \14\ See, e.g., Ministry of Environmental Protection, Measures for 
Public Participation in Environmental Protection [Huanjing baohu 
gongzhong canyu banfa], issued 13 July 15, effective 1 September 15, 
art. 1.
    \15\ State Council General Office, Circular Regarding Strengthening 
Environmental Supervision and Law Enforcement [Guanyu jiaqiang huanjing 
jianguan zhifa de tongzhi], issued 12 November 14.
    \16\ Ministry of Environmental Protection, Measures for Public 
Participation in Environmental Protection [Huanjing baohu gongzhong 
canyu banfa], issued 13 July 15, effective 1 September 15, art. 1.
    \17\ Ibid., art. 2. Other previous laws, regulations, and measures 
already stipulate that citizens may participate in rulemaking and in 
environmental impact assessments. See, e.g., Ministry of Environmental 
Protection, Guiding Opinion Regarding Advancing Public Participation in 
Environmental Protection [Guanyu tuijin huanjing baohu gongzhong canyu 
de zhidao yijian], issued 22 May 14, reprinted in Ecology Net, item 
4(1-4).
    \18\ Ministry of Environmental Protection, Circular Regarding 
Public Solicitation of Comments on the ``Measures for Public 
Participation in Environmental Protection (Provisional)'' (Comment 
Solicitation Draft) [Guanyu ``huanjing baohu gongzhong canyu banfa 
(shixing)'' (zhengqiu yijian gao) gongkai zhengqiu yijian de tongzhi], 
13 April 15, art. 3(3); Ministry of Environmental Protection, Measures 
for Public Participation in Environmental Protection [Huanjing baohu 
gongzhong canyu banfa], issued 13 July 15, effective 1 September 15. 
The draft measures issued in April 2015 stipulated for the first time 
that citizens may participate in the investigation and management of 
some serious environmental incidents, but this stipulation was not 
included in the final measures issued in July.
    \19\ Ibid., arts. 8, 10. The April 2015 draft of the measures 
stipulated that environmental officials should use channels convenient 
for the public when disclosing related environmental information. Such 
information would include background on the project or issue, possible 
environmental impacts, and information regarding the necessity for and 
feasibility of the project or issue. Ibid., art. 5. In contrast, the 
final version of the measures do not stipulate that officials must use 
channels convenient for the public when disclosing information. Rather, 
officials are only required to provide information on the background of 
the project or issue, the time period for accepting suggestions, the 
methods by which the public may submit opinions and suggestions, and 
the methods of contacting the relevant agency.
    \20\ Ministry of Environmental Protection, Measures for Public 
Participation in Environmental Protection [Huanjing baohu gongzhong 
canyu banfa], issued 13 July 15, effective 1 September 15, art. 2.
    \21\ Ibid.
    \22\ Ministry of Environmental Protection, Circular Regarding 
Public Solicitation of Comments on the ``Measures for Public 
Participation in Environmental Protection (Provisional)'' (Comment 
Solicitation Draft) [Guanyu ``huanjing baohu gongzhong canyu banfa 
(shixing)'' (zhengqiu yijian gao) gongkai zhengqiu yijian de tongzhi], 
13 April 15, arts. 3(4), 16, 17.
    \23\ Andrew Jacobs, ``Despite Persecution, Guardian of Lake Tai 
Spotlights China's Polluters,'' New York Times, 23 November 14. See 
also CECC, 2007 Annual Report, 10 October 07, 138-40. For more 
information on Wu Lihong, see the Commission's Political Prisoner 
Database record 2007-00162.
    \24\ Ibid. See also CECC, 2007 Annual Report, 10 October 07, 138-
40.
    \25\ Brian Wu, ``China Wants Cleaner Air Without an Environmental 
Movement,'' Science Times, 16 March 15.
    \26\ Verna Yu, ``Two Held for Pollution Protest Released, Activists 
Say,'' South China Morning Post, 11 March 15; Tom Phillips, ``China 
Arrests Anti-Smog Campaigners,'' Telegraph, 9 March 15.
    \27\ ``Environmental Dispute Litigation Difficulties Urgently Need 
To Change, Ecological Justice Reforms Enter a Window of Opportunity'' 
[Huanjing jiufen susong nan jidai gaibian shengtai sifa gaige jinru 
chuangkou qi], Economic Information Daily, reprinted in Xinhua, 8 
October 14.
    \28\ Luna Lin, ``China's Water Pollution Will Be More Difficult To 
Fix Than Its Dirty Air,'' China Dialogue (blog), 17 February 14; 
Benjamin Haas and Henry Sanderson, ``China Outsourcing Smog to West 
Region Stirs Protest,'' Bloomberg, 6 March 14; ``Chinese Anger Over 
Pollution Becomes Main Cause of Social Unrest,'' Bloomberg, 6 March 13. 
For a discussion of mass incidents in general, including environmental 
incidents, see Chen Rui, ``2012 Mass Incident Research Report'' [2012 
nian quntixing shijian yanjiu baogao], Legal Daily, 27 December 12, 
sec. 3. See also ``Reported PRC Civil Disturbances in 2012,'' Open 
Source Center, 7 May 13, 12-13.
    \29\ See, e.g., ``Residents of `Cancer Village' Protest Air, Water 
Pollution,'' Boxun, 24 November 14; ``Dozens Held After Pollution 
Protests in China's Inner Mongolia,'' Radio Free Asia, 6 April 15; Ben 
Blanchard, ``One Reported Dead After Pollution Protest in Northern 
China,'' Reuters, reprinted in New York Times, 6 April 15; Simon 
Denyer, ``In China's Inner Mongolia, Mining Spells Misery for 
Traditional Herders,'' Washington Post, 7 April 15; Simon Denyer, ``In 
China, a Tug of War Over Coal Gas: Cleaner Air but Worse for the 
Climate,'' Washington Post, 5 May 15.
    \30\ ``Tibetans Arrested After Mining Protest in Kham Gonjo,'' 
Voice of America, 1 May 15. In April 2015, authorities reportedly 
detained 10 Tibetans in Gongjue (Gonjo) county, Changdu (Chamdo) 
prefecture, Tibet Autonomous Region, after a protest against a 
government mining and road-building project near a local sacred 
mountain.
    \31\ ``Polluting Factories Wreak Havoc in Xinjiang's Once-Fertile 
Township,'' Radio Free Asia, 5 November 14. Dirty migration reportedly 
affected ethnic minority residents in the Xinjiang Uyghur Autonomous 
Region, where authorities reportedly told those affected that they were 
barred from petitioning for the closure of several factories.
    \32\ Liu Qin, ``Shanghai Residents Throng Streets in 
`Unprecedented' Anti-PX Protest,'' China Dialogue, 2 July 15. The 
number of protesters reportedly peaked at 50,000. Celia Hatton, ``Armed 
Police Move in Against Chinese Anti-Plant Protesters,'' BBC, China Blog 
(blog), 29 June 15. In the last week of June 2015, residents in Jinshan 
district, Shanghai municipality, took to the streets in a multi-day 
protest because they believed the government planned to build a 
paraxylene (PX) plant or refinery in the area, already home to numerous 
chemical plants. After six days, police broke up the protests, 
reportedly detaining dozens of people. John Ruwitch, ``Shanghai 
Chemical Plant Protesters Warned To End Demonstrations,'' Reuters, 29 
June 15. Authorities reportedly warned the protesters to end their 
demonstrations and called the protests illegal. The Jinshan News 
reportedly ran an editorial claiming that unnamed persons were rumor-
mongering, committing libel and instigation, and had ``seriously 
disrupted the productive life of the Jinshan people . . . , hurting 
normal social order.'' Vivienne Zeng, ``Shanghai Government Struggles 
To Get Environmental Protesters Off the Street,'' Hong Kong Free Press, 
29 June 15. Authorities reportedly censored news of the protests.
    \33\ Chris Buckley, ``In Southern China, Residents Wary of the 
Government Protest a Plan To Burn Waste,'' New York Times, 14 September 
14. Authorities reportedly detained two dozen people in Boluo county, 
Huizhou municipality, Guangdong province, during multiple 
demonstrations involving thousands of people against a trash 
incinerator. ``Police Detain `At Least 10' in Clashes With Pollution 
Protesters in China's Guangdong,'' Radio Free Asia, 15 April 15. In 
April 2015, authorities in a village near Qingyuan municipality, 
Guangdong, reportedly detained 10 people following a conflict that 
broke out during a protest against pollution they believed was linked 
to an iron works plant.
    \34\ Liu Qin, ``China's Top Court May Lean on Local Govt To Enforce 
Environmental Law,'' China Dialogue, 11 February 15. A source reported 
in February 2015 that authorities in Wuhan municipality, Hubei 
province, had detained local residents who protested against pollution 
from trash incinerators. The courts declined to accept a case brought 
by residents in the area. Xi Fanchao, ``Wuhan Residents' Lawsuit 
Against Guodingshan Trash Incinerator Related to Pollution Accepted, 
Compensation of 7 Yuan'' [Wuhan jumin gao guodingshan laji fenhuichang 
wuran huo li'an, suopei 7 yuan], The Paper, 18 April 15. The local 
court eventually accepted the environmental case.
    \35\ ``Tangshan Villagers' Protest of Polluting Businesses Sets Off 
Clashes, More Than Ten Arrested and Many Beaten'' [Tangshan cunmin 
kangyi wuran qiye baofa chongtu shi yu ren bei zhua duo ren bei da], 
Radio Free Asia, 19 April 15.
    \36\ ``Thousands Protest, Riot in China's Sichuan After Coking 
Plant Leak,'' Radio Free Asia, 14 April 15. In April 2015, thousands of 
people joined a multi-day demonstration against a toxic gas leak in 
Neijiang city, Sichuan province. Police reportedly detained ``more than 
a dozen'' people, and authorities censored news about the protest.
    \37\ ``More Than 20 Villagers Detained Blocking Imposed 
Construction of a Chemical Plant in Kouzi Township in Fuyang, Anhui'' 
[Anhui fuyang kouzi zhen qiang zheng jianzao huagongchang cunmin zulan 
ershi yu ren bei zhua], Radio Free Asia, 27 March 15. In March 2015, 
authorities detained several protesters demonstrating against a 
chemical plant in Anhui, but reports did not indicate if police took 
further action.
    \38\ ``Over a Thousand Villagers Demonstrate; Concerned That 
Pharmaceutical Company Is Polluting the Environment'' [Qian duo cunmin 
shiwei you yaochang wuran huanjing], Radio Free Asia, 17 March 15. In 
March 2015, authorities reportedly detained more than 20 villagers in 
Fuzhou municipality, Fujian province, who joined a protest with more 
than 1,000 people who were demonstrating against the construction of a 
pharmaceutical factory.
    \39\ ``Pollution Protest Actions Occur One After Another, Huilong 
Villagers in Shanxi Surround Polluting Aluminum Plant'' [Kangyi wuran 
xingdong ciqibifu shanxi huilong cunmin weidu paiwu lu chang], Radio 
Free Asia, 20 April 15. In April 2015, authorities in Huilong village, 
Jiaokou county, Luliang municipality, Shanxi province, detained more 
than 10 people who had joined a multi-day protest of several hundred 
people demonstrating against pollution linked to an aluminum plant.
    \40\ Tom Phillips, ``Inside China's Toxic Village of Widows,'' 
Telegraph, 16 February 15. A villager from a polluted village outside 
of Zhuzhou city, Hunan province, reportedly stated that police 
maintained a presence at the village's entrance out of concern that the 
villagers would protest against pollution or that journalists would try 
to report on health impacts that the villagers alleged were due to 
pollution.
    \41\ ``Tibetans Decry Pollution, Damage to Land From Chinese 
Mining,'' Radio Free Asia, 20 January 15. In January, authorities in a 
Tibetan autonomous area in Qinghai province reportedly took a man into 
custody after he represented villagers and raised complaints regarding 
mining pollution.
    \42\ Xi Jianrong, ``Environmental Enforcement From Weak to Strong, 
Judiciary Actively Involved'' [Huanbao zhifa you ruo zhuan qiang sifa 
jiji jieru], Legal Daily, 3 March 15.
    \43\ See, e.g., Linden Ellis, ``Giving the Courts Green Teeth: 
Current Developments in Environmental Enforcement in China,'' Woodrow 
Wilson International Center for Scholars, China Environment Forum, 22 
October 08.
    \44\ Wu Bin, ``22 Provincial-Level High Courts Have Not Established 
Environmental and Resources Trial Mechanisms'' [22 sheng ji gaoyuan wei 
she huanjing ziyuan shenpan jigou], Southern Metropolitan Daily, 20 
September 14; Li Zenghui, ``Hebei Province High Court Establishes 
Environmental Protection Tribunal'' [Hebei sheng gaoyuan chengli 
huanjing baohu shenpanting], People's Daily, 19 March 15; Zhu Guoliang, 
``Jiangsu High Court Establishes Environment and Resources Tribunal'' 
[Jiangsu gaoyuan zu jian huanjing ziyuan shenpanting], Xinhua, 4 
December 14.
    \45\ Bao Xiaodong et al., ``(Green Times) Environmental Public 
Interest Litigation, Where Are Crucial Points of Reform? Dialogue With 
SPC Environmental and Resources Tribunal Presiding Judge Zheng Xuelin'' 
[(Luse shijian) huanjing gongyi susong, gaige guanjian zai na duihua 
zuigaofa huanjing ziyuan shenpanting tingzhang zheng xuelin], Southern 
Weekend, 26 September 14; David Stanway, ``China Supreme Court Appoints 
Top Environmental Judge,'' Reuters, 30 June 14. See also ``SPC 
Establishes Environmental and Resources Tribunal in Response to New 
Expectations of the Judiciary, Mainly Trying Environmental Pollution 
and Natural Resources Civil Cases'' [Zuigaofa chengli huanzi 
shenpanting huiying sifa xin qidai zhu shen huanjing wuran ziran ziyuan 
min an], Legal Daily, 4 July 14; CECC, 2014 Annual Report, 9 October 
14, 129; Gu Min, ``Jiangsu Province High People's Court Adds 
Environmental and Resources Tribunal'' [Jiangsu sheng gaoji renmin 
fayuan zengshe huanjing ziyuan shenpanting], Xinhua, reprinted in Sina, 
19 October 14.
    \46\ Wu Bin, ``22 Provincial-Level High Courts Have Not Established 
Environmental and Resources Trial Mechanisms'' [22 sheng ji gaoyuan wei 
she huanjing ziyuan shenpan jigou], Southern Metropolitan Daily, 20 
September 14; ``Hebei Province High Court Establishes Environmental 
Protection Tribunal'' [Hebei sheng gaoyuan chengli huanjing baohu 
shenpanting], People's Daily, 19 March 15; Zhu Guoliang, ``Jiangsu High 
Court Establishes Environment and Resources Tribunal'' [Jiangsu gaoyuan 
zu jian huanjing ziyuan shenpanting], Xinhua, 4 December 14.
    \47\ Bao Xiaodong et al., ``(Green Times) Environmental Public 
Interest Litigation, Where Are Crucial Points of Reform? Dialogue With 
SPC Environmental and Resources Tribunal Presiding Judge Zheng Xuelin'' 
[(Luse shijian) huanjing gongyi susong, gaige guanjian zai na duihua 
zuigaofa huanjing ziyuan shenpanting tingzhang zheng xuelin], Southern 
Weekend, 26 September 14; ``Current Problems and Remedies in 
Environmental and Resources Type Cases'' [Dangqian huanjing ziyuan lei 
anjian cunzai de wenti yu duice], People's Court News, reprinted in 
Tianjin Court Net, 13 November 14; Yang Xueying, ``How Pollution 
Victims Have Power'' [Wuran shouhaizhe ruhe you liliang], Dazhong 
Daily, reprinted in Center for Legal Aid to Pollution Victims, China 
University of Political Science and Law, 14 May 15.
    \48\ ``Zhou Qiang Gives Supreme People's Court Work Report'' [Zhou 
qiang zuo zuigao renmin fayuan gongzuo baogao], Caixin, 12 March 15; 
Te-Ping Chen, ``China Sees Surge in Court Cases Against Polluters,'' 
Wall Street Journal, 12 March 15.
    \49\ Bao Xiaodong et al., ``(Green Times) Environmental Public 
Interest Litigation, Where Are Crucial Points of Reform? Dialogue With 
SPC Environmental and Resources Tribunal Presiding Judge Zheng Xuelin'' 
[(Luse shijian) huanjing gongyi susong, gaige guanjian zai na duihua 
zuigaofa huanjing ziyuan shenpanting tingzhang zheng xuelin], Southern 
Weekend, 26 September 14; ``Environmental Public Interest Litigation 
Will Have Operational Rules of Procedure'' [Huanjing gonggong susong 
jiang you ke caozuoxing chengxu guize], Legal Daily, 12 November 14; 
``Current Problems and Remedies in Environmental and Resources Type 
Cases'' [Dangqian huanjing ziyuan lei anjian cunzai de wenti yu duice], 
People's Court News, reprinted in Tianjin Court Net, 13 November 14; 
Yang Xueying, ``How Pollution Victims Have Power'' [Wuran shouhaizhe 
ruhe you liliang], Dazhong Daily, reprinted in Center for Legal Aid to 
Pollution Victims, China University of Political Science and Law, 14 
May 15; Christopher Beam, ``China Tries a New Tactic To Combat 
Pollution: Transparency,'' New Yorker, 6 February 15; Zhang Chun, 
``Growing Pains for China's New Environmental Courts,'' China Dialogue, 
17 June 15. Previous reports illustrate the ongoing nature of these 
barriers. See, e.g., Feng Jun, ``Citizens Fight Haze'' [Minjian kang 
mai], Southern Metropolitan Daily, 10 March 14; Rachel E. Stern, ``Poor 
Rural Residents in China Seen as Easy Target for Environmental 
Lawsuits,'' China Dialogue, 24 April 13; Hu Zhonghua, ``The Limitations 
to China's Environmental Public Interest Litigation System'' [Woguo 
huanjing gongyi susong zhidu de xiandu], Journal of the Wuhan 
University of Technology (Social Science Edition), Vol. 24, No. 6, 
reprinted in China Environment and Resources Law Network, 26 November 
12.
    \50\ Li Jing, ``Chinese Environmental Lawyer Takes on the Powerful 
To Give Voice to Vulnerable Pollution Victims,'' South China Morning 
Post, 22 March 15; Bao Xiaodong et al., ``(Green Times) Environmental 
Public Interest Litigation, Where Are Crucial Points of Reform? 
Dialogue With SPC Environmental and Resources Tribunal Presiding Judge 
Zheng Xuelin'' [(Luse shijian) huanjing gongyi susong, gaige guanjian 
zai na duihua zuigaofa huanjing ziyuan shenpanting tingzhang zheng 
xuelin], Southern Weekend, 26 September 14.
    \51\ Li Jing, ``Chinese Environmental Lawyer Takes on the Powerful 
To Give Voice to Vulnerable Pollution Victims,'' South China Morning 
Post, 22 March 15; Xue Xiaolin, ``Withdrawing Legal Complaint Is 
Current Trend in Hunan Children's Lead Poisoning Cases, Working Group: 
If Not Withdrawn Then Will Withhold Subsistence Allowance'' [Hunan 
ertong xue qian an xian che su chao gongzuozu: bu che quxiao dibao], 
The Paper, reprinted in Tencent, 14 May 15.
    \52\ Xue Xiaolin, ``Withdrawing Legal Complaint Is Current Trend in 
Hunan Children's Lead Poisoning Cases, Working Group: If Not Withdrawn 
Then Will Withhold Subsistence Allowance'' [Hunan ertong xue qian an 
xian che su chao gongzuozu: bu che quxiao dibao], The Paper, reprinted 
in Tencent, 14 May 15.
    \53\ Ibid.
    \54\ Alexandra Harney, ``Pollution Trial Offers Rare Glimpse Into a 
Chinese Courtroom,'' Reuters, 13 June 15; Xue Xiaolin, ``Withdrawing 
Legal Complaint Is Current Trend in Hunan Children's Lead Poisoning 
Cases, Working Group: If Not Withdrawn Then Will Withhold Subsistence 
Allowance'' [Hunan ertong xue qian an xian che su chao gongzuozu: bu 
che quxiao dibao], The Paper, reprinted in Tencent, 14 May 15.
    \55\ Barbara Finamore, ``How China's Top Court Is Encouraging More 
Lawsuits Against Polluters,'' National Resources Defense Council, 
Switchboard Blog (Barbara Finamore's blog), 26 January 15.
    \56\ Kong Lingyu, ``The Years-Long Debate Over Environmental Public 
Interest Litigation Comes to an End'' [Huanjing gongyi susong zhenglun 
shu nianzhong luodi], Caixin, 7 January 15.
    \57\ PRC Civil Procedure Law [Zhonghua renmin gongheguo minshi 
susong fa], passed 9 April 91, amended 28 October 07, 31 August 12, 
effective 1 January 13, art. 55; PRC Environmental Protection Law 
[Zhonghua renmin gongheguo huanjing baohu fa], passed 26 December 89, 
amended 24 April 14, effective 1 January 15, art. 58. See also Supreme 
People's Court, Interpretation Regarding Certain Issues Related to 
Application of the Law in Environmental Civil Public Interest 
Litigation [Guanyu shenli huanjing minshi gongyi susong anjian shiyong 
falu ruogan wenti de jieshi], issued 6 January 15; CECC, 2014 Annual 
Report, 9 October 14, 128-29. For a general overview of the SPC 
Interpretation, see Susan Finder, ``Why the Supreme People's Court Is 
Harnessing the NGO `Genie,' '' Supreme People's Court Monitor (blog), 
26 January 15.
    \58\ Supreme People's Court, Ministry of Civil Affairs, and 
Ministry of Environmental Protection, Circular on Implementing the 
Civil Environmental Public Interest Litigation System [Guanyu guanche 
shishi huanjing minshi gongyi susong zhidu de tongzhi], issued 26 
December 14; Susan Finder, ``Supreme People's Court Interprets the 
Civil Procedure Law,'' Supreme People's Court Monitor (blog), 4 
February 15.
    \59\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, item 
4(2.5). See also Chinese Communist Party Central Committee, ``CCP 
Central Committee Decision Concerning Some Major Questions in 
Comprehensively Moving Governing the Country According to the Law 
Forward,'' translated in China Copyright and Media (blog), 28 October 
14, item 4(2.5); ``China To Pilot Reform on Public Interest 
Litigations,'' Xinhua, 21 May 15.
    \60\ ``Environmental Dispute Litigation Difficulties Urgently Need 
To Change, Ecological Justice Reforms Enter a Window of Opportunity'' 
[Huanjing jiufen susong nan jidai gaibian shengtai sifa gaige jinru 
chuangkou qi], Economic Information Daily, reprinted in Xinhua, 8 
October 14.
    \61\ Ibid.
    \62\ Ibid.
    \63\ Ibid. ``Wang Ming: NGOs Need To Improve Their Professional 
Standards in Environmental Public Interest Litigation'' [Wang ming: NGO 
huanjing gongyi susong xu tigao zhuanye shuizhun], China Charity 
Alliance, 10 March 15.
    \64\ Yang Fenglin, ``Environmental Public Interest Litigation Not 
Subject to Regional Restrictions'' [Huanjing gongyi susong bu shou diyu 
xianzhi], Jinghua News, 7 January 15. For more information on these 
criteria, see Supreme People's Court, Interpretation Regarding Certain 
Issues Related to Application of the Law in Environmental Civil Public 
Interest Litigation [Guanyu shenli huanjing minshi gongyi susong anjian 
shiyong falu ruogan wenti de jieshi], issued 6 January 15, effective 7 
January 15.
    \65\ He Zhen, ``Will the Phenomenon of Excessive Public Interest 
Lawsuits Emerge?'' [Gongyi susong hui chuxian lan su xianxiang ma?], 
China Environmental News, 4 February 15.
    \66\ ``Wang Ming: NGOs Need To Improve Their Professional Standards 
in Environmental Public Interest Litigation'' [Wang ming: NGO huanjing 
gongyi susong xu tigao zhuanye shuizhun], China Charity Alliance, 10 
March 15.
    \67\ Chang Jiwen, ``New Environmental Protection Law Encounters 
Implementation Problems'' [Xin huanbao fa zaoyu shishi nanti], Economic 
Information Daily, 8 April 15; Yang Fonglin, ``Environmental Public 
Interest Litigation Not Subject to Regional Restrictions'' [Huanjing 
gongyi susong bu shou diyu xianzhi], Jinghua News, 7 January 15; 
``Tenggeli Desert Pollution Public Interest Case Not Accepted, 
Plaintiff Declared Ineligible To File Lawsuit'' [Tenggeli shamo wuran 
gongyi susong wei bei shouli yuangao bei zhi meiyou qisu zige], China 
National Radio, 23 August 15. In this example, a court in the Ningxia 
Hui Autonomous Region did not accept a public interest lawsuit brought 
by an environmental group against eight companies suspected of dumping 
pollutants in a desert area because the group did not specifically 
state in its charter that its scope of work included public interest 
litigation.
    \68\ Chang Jiwen, ``New Environmental Protection Law Encounters 
Implementation Problems'' [Xin huanbao fa zaoyu shishi nanti], Economic 
Information Daily, 8 April 15.
    \69\ Bao Xiaodong et al., ``(Green Times) Environmental Public 
Interest Litigation, Where Are Crucial Points of Reform? Dialogue With 
SPC Environmental and Resources Tribunal Presiding Judge Zheng Xuelin'' 
[(Luse shijian) huanjing gongyi susong, gaige guanjian zai na duihua 
zuigaofa huanjing ziyuan shenpanting tingzhang zheng xuelin], Southern 
Weekend, 26 September 14.
    \70\ ``Environmental Dispute Litigation Difficulties Urgently Need 
To Change, Ecological Justice Reforms Enter a Window of Opportunity'' 
[Huanjing jiufen susong nan jidai gaibian shengtai sifa gaige jinru 
chuangkou qi], Economic Information Daily, reprinted in Xinhua, 8 
October 14. See also Pan Congwu, ``Environmental Protection Public 
Interest Litigation Needs To Break Through the Difficult Situation of 
Collecting Evidence'' [Huanbao gongyi susong jidai tupo quzheng nan 
kunju], Legal Daily, 11 April 15.
    \71\ Tong Ke'nan, ``Does Environmental Public Interest Litigation 
Appear Satisfactory?'' [Huanjing gongyi susong kanshangqu hen mei?], 
China Environmental News, 11 March 15.
    \72\ Ibid. ``Environmental Dispute Litigation Difficulties Urgently 
Need To Change, Ecological Justice Reforms Enter a Window of 
Opportunity'' [Huanjing jiufen susong nan jidai gaibian shengtai sifa 
gaige jinru chuangkou qi], Economic Information Daily, reprinted in 
Xinhua, 8 October 14.
    \73\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, items 
1.3, 5(4.4). In November 2014, the Party Central Committee emphasized 
an ``imperative to have the rule of law play a greater role in leading 
and standardizing practices in order to realize . . . ecological 
welfare.'' The Committee called on authorities to ``strengthen 
governance over key problems such as . . . harm to the ecological 
environment,'' within the broader context of efforts to ``guard 
against, diffuse, and control problems influencing social stability.''
    \74\ Chinese Communist Party Central Committee and State Council, 
Opinion on Accelerating Advancement in Building an Ecological 
Civilization [Guanyu jiakuai tuijin shengtai wenming jianshe de 
yijian], issued 25 April 15, reprinted in Xinhua, 5 May 15.
    \75\ Wang Kunting, ``Promote Ecological Transformation of Laws and 
Regulations'' [Tuijin falu fagui shengtaihua], China Environmental 
News, 10 December 14.
    \76\ Chen Liping, ``Drafting Work Proceeding Steadily'' [Qicao 
gongzuo zhengzai jiji wen bu tuijin], Legal Daily, 19 January 15. This 
article discusses the status of a possible soil pollution prevention 
and control law. `` `Soil Environmental Quality Standard' Revision 
Draft Open for Public Comment'' [``Turang huanjing zhiliang biaozhun'' 
xiuding cao'an gongkai zhengqiu yijian], China Environmental News, 15 
January 15; Cui Zheng, ``China Draft Proposes Tougher Curbs on Soil 
Pollution,'' China Dialogue, 29 January 15. Authorities issued a draft 
of the new soil pollution standards in January that places greater 
limits on pollutants.
    \77\ State Council Legislative Affairs Office, PRC Air Pollution 
Prevention and Control Law (Amendment Draft for Public Comment) 
[Zhonghua renmin gongheguo daqi wuran fangzhi fa (xiuding cao'an 
zhengqiu yijian gao)], issued 9 September 14.
    \78\ State Council, ``Water Pollution Prevention and Control Action 
Plan'' [Shui wuran fangzhi xingdong jihua], issued 2 April 15, 
reprinted in Ministry of Environmental Protection, 16 April 15. The 
plan outlines concrete water pollution control targets and introduces 
new plans for public-private project funding arrangements. See also 
Ministry of Environmental Protection and Ministry of Finance, 
Implementing Opinion on Advancing Government and Social Capital 
Cooperation in the Area of Water Pollution Prevention and Control 
[Guanyu tuijin shui wuran fangzhi lingyu zhengfu he shehui ziben hezuo 
de shishi yijian], issued 9 April 15; Xie Jiali, ``Explanation of `Ten 
Water Articles': Where Is the Funding Coming From To Implement the `Ten 
Water Articles?' '' [Jiedu ``shui shi tiao'': luoshi ``shui shi tiao'' 
zijin cong nali lai?], China Environmental News, 5 May 15.
    \79\ ``Changes to Wildlife Protection Law on Horizon, NPC Deputy 
Says,'' Caixin, 13 March 15. The National People's Congress's Standing 
Committee has put revisions to the PRC Wildlife Protection Law on the 
2015 legislative agenda.
    \80\ State Council General Office, ``Energy Development Strategic 
Action Plan (2014-2020)'' [Nengyuan fazhan zhanlue xingdong jihua 
(2014-2020 nian)], issued 19 November 14.
    \81\ Ministry of Environmental Protection, ``Accelerate and Advance 
Construction of an Ecological Civilization, Effectively Push Forward 
Implementation of New `Environmental Protection Law,' Ministry of 
Environmental Protection Relaunches Research on Green GDP'' [Jiakuai 
tuijin shengtai wenming jianshe you xiao tuidong xin ``huanbao fa'' 
luoshi huanjing baohubu chongqi luse GDP yanjiu], 30 March 15. The MEP 
relaunched research on green GDP with the aim of establishing new pilot 
projects by 2017. Huang Jijun, ``Green Development Report Regarded as 
Settling the Development Debt'' [Luse fazhan baogao suanqing fazhan 
zhang], China Environmental News, 13 May 15.
    \82\ Ministry of Environmental Protection, Sudden Environmental 
Incident Investigation and Management Measures [Tufa huanjing shijian 
diaocha chuli banfa], issued 15 December 14, effective 1 March 15. 
While Article 17 of the Measures stipulates that environmental 
protection bureaus should release to the public information about 
sudden environmental incidents, Article 6 stipulates that such 
information may not be released without approval from the leader of the 
environmental incident investigative group. State Council General 
Office, National Plan on Emergency Preparedness for Environmental 
Sudden Incidents [Guojia tufa huanjing shijian yingji yu an], issued 29 
December 14, reprinted in PRC Central People's Government, 3 February 
15. The plan, revised from a 2005 version, includes provisions 
regarding providing timely information to higher level authorities and 
the public, as well as for ``guiding public opinion.''
    \83\ ``Environmental Protection Tax Takes Shape in a Draft 
Proposal, National People's Congress Finance and Economic Committee 
Recommends Deliberation as Soon as Possible'' [Huanjing baohu shuifa 
xingcheng cao'an gao quanguo renda caijing wei jianyi jinzao tiqing 
shenyi], Xinhua, 3 November 14; Kathy Chen and David Stanway, ``China 
Issues Draft Environmental Tax Law,'' Reuters, reprinted in New York 
Times, 10 June 15; Kong Lingyu, ``Amid Worsening Pollution, Gov't Moves 
Toward Law on Ecotaxes,'' Caixin, 19 March 15. Such a tax would replace 
many pollution fees but may mean less revenue for environmental 
departments to reduce pollution, and some environmentalists are 
concerned that the taxation officials do not know enough about 
pollution issues.
    \84\ ``China: 28 Provinces in Environmental Liability Insurance 
Trials,'' Asian Insurance Review, 4 June 15.
    \85\ Xie Jiali, ``Explanation of `Ten Water Articles': Where Is the 
Funding Coming From To Implement the `Ten Water Articles?' '' [Jiedu 
``shui shi tiao'': luoshi ``shui shi tiao'' zijin cong nali lai?], 
China Environmental News, 5 May 15.
    \86\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, item 
2(4.7). According to Item 2(4.7),``Build and complete legal structures 
for property rights over natural assets, perfect legal structures in 
the area of State land exploitation and protection, formulate and 
perfect laws and regulations for ecological compensation, the 
prevention of soil, water, and air pollution, and the protection of the 
maritime ecological environment, to stimulate the construction of an 
ecological civilization.''
    \87\ Ibid., item 2(4.2). See also Chinese Communist Party Central 
Committee, ``CCP Central Committee Decision Concerning Some Major 
Questions in Comprehensively Moving Governing the Country According to 
the Law Forward,'' translated in China Copyright and Media (blog), 28 
October 14, item 2(4.2).
    \88\ Kou Jiangze and Deng Xu, ``Authority To Approve EIAs Given to 
Lower Levels, How To Seize Effective Control'' [Huanping shenpi quan 
xiafang, ruhe jie zhuguan hao], People's Daily, 6 May 15. Officials are 
devolving authority to approve 6 additional project categories of 
environmental impact assessments to provincial authorities in addition 
to the existing 25 categories. For information on previous measures, 
see Ministry of Environmental Protection, ``Announcement Regarding 
Ministry of Environmental Protection Delegation of Authority To Examine 
and Approve Environmental Impact Assessment Documents for Certain 
Construction Projects'' [Huanjing baohubu guanyu xiafang bufen jianshe 
xiangmu huanjing yingxiang pingjia wenjian shenpi quanxian de gonggao], 
15 November 13. This announcement states that the Ministry of 
Environmental Protection will delegate authority to provincial 
governments to assess and approve environmental impact assessments 
(EIA) for certain projects. Ministry of Environmental Protection, 
``Government Information Disclosure Guide for Construction Project 
Environmental Impact Assessments (Provisional)'' [``Jianshe xiangmu 
huanjing yingxiang pingjia zhengfu xinxi gongkai zhinan (shixing)''], 
14 November 13, item 4(1.6). This document guides authorities' 
disclosure of full EIA reports and other documents. Ministry of 
Environmental Protection, Circular Regarding Earnestly Strengthening 
Environmental Impact Assessment Supervision and Administration Work 
[Guanyu qieshi jiaqiang huanjing yingxiang pingjia jiandu guanli 
gongzuo de tongzhi], issued 15 November 13. This circular seeks to 
strengthen the supervision and administration of EIAs.
    \89\ Office of the Press Secretary, The White House, ``Fact Sheet: 
U.S.-China Joint Announcement on Climate Change and Clean Energy 
Cooperation,'' 11 November 14.
    \90\ Ibid.; Office of the Press Secretary, The White House, ``U.S.-
China Joint Announcement on Climate Change,'' 12 November 14; World 
Resources Institute, ``Taking Stronger Action on Climate Change: China 
and the United States,'' ChinaFAQs, 6 February 15, 2; Shannon Tiezzi, 
``In New Plan, China Eyes 2020 Energy Cap,'' The Diplomat, 20 November 
14.
    \91\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13. The Decision urged authorities to 
``strengthen grassroots law enforcement in . . . environmental 
protection'' (item 31). State Council, Certain Opinions on Promoting 
Fair Market Competition and Maintaining the Normal Market Order [Guanyu 
cujin shichang gongping jingzheng weihu shichang zhengchang zhixu de 
ruogan yijian], issued 8 July 14.
    \92\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, item 
3(3.2). See also Chinese Communist Party Central Committee, ``CCP 
Central Committee Decision Concerning Some Major Questions in 
Comprehensively Moving Governing the Country According to the Law 
Forward,'' translated in China Copyright and Media (blog), 28 October 
14, item 3(3.2).
    \93\ Ibid., item 2(4.7); Ibid., item 2(4.7).
    \94\ State Council General Office, Circular Regarding Strengthening 
Environmental Supervision and Law Enforcement [Guanyu jiaqiang huanjing 
jianguan zhifa de tongzhi], issued 12 November 14.
    \95\ ``State Council General Office Demands `Zero Tolerance' for 
Environmental Violations, Experts: Reflects Determination To Control 
Environmental Pollution'' [Guo ban yaoqiu dui huanjing weifa ``ling 
rongren'' zhuanjia: tixian zhili huanjing wuran juexin], China National 
Radio, 28 November 14.
    \96\ State Council General Office, Circular Regarding Strengthening 
Environmental Supervision and Law Enforcement [Guanyu jiaqiang huanjing 
jianguan zhifa de tongzhi], issued 12 November 14, art. 5.
    \97\ Ibid., art. 11.
    \98\ Yang Yiping, ``Strict Law Enforcement Is Necessary To 
Guarantee Law Is Substantial and Reaches the Ground'' [Yange zhifa 
caineng baozhang falu jianshi luodi], China Environmental News, 23 
December 14; State Council General Office, Circular Regarding 
Strengthening Environmental Supervision and Law Enforcement [Guanyu 
jiaqiang huanjing jianguan zhifa de tongzhi], issued 12 November 14, 
art. 14.
    \99\ Supreme People's Procuratorate, ``Cao Jianming Gives the 
Supreme People's Procuratorate Work Report'' [Cao jianming zuo zuigao 
renmin jianchayuan gongzuo baogao], reprinted in Caixin, 12 March 15; 
Te-Ping Chen, ``China Sees Surge in Court Cases Against Polluters,'' 
Wall Street Journal, 12 March 15.
    \100\ Tong Ke'nan, ``Bulletin on the Status of Administrative 
Penalties and Environmental Criminal Cases Handed Over Last Year'' 
[Tongbao qunian xingzheng chufa he huanjing fanzui anjian yi song 
qingkuang], China Environmental News, 15 April 15.
    \101\ Zhang Chun, ``China's Polluters Hit With Biggest-Ever 
Fines,'' China Dialogue (blog), 6 January 15.
    \102\ ``Chinese Police See Soaring Environmental Crimes,'' Xinhua, 
6 February 15.
    \103\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Related to Laws Applicable in Criminal 
Cases of Environmental Pollution [Guanyu banli huanjing wuran xingshi 
anjian shiyong falu ruogan wenti de jieshi], issued 8 June 13, 
effective 19 June 13. For more information on the Interpretation, see 
CECC, 2013 Annual Report, 10 October 13, 125.
    \104\ Wang Erde, ``Within Half a Year, 247 Environmental Criminal 
Cases Filed'' [Bannian nei huanjing xing'an li'an 247 qi], 21st Century 
Business Herald, reprinted in China Environmental News, 4 December 13.
    \105\ ``Chen Jining Answers Journalists' Questions With Regard to 
Comprehensively Strengthening Environmental Protection'' [Chen jining 
jiu quanmian jiaqiang huanjing baohu da jizhe wen], National People's 
Congress, 7 March 15.
    \106\ Chang Chun, ``China Trials Environmental Audits To Hold 
Officials to Account,'' China Dialogue, 18 June 15.
    \107\ Ibid.
    \108\ Ben Blanchard and Judy Hua, ``China Slates Environment 
Ministry After Graft Probe,'' Reuters, 10 February 15.
    \109\ Guo Yongfang, ``70 Listed Companies Caught in Anticorruption 
Storms--Natural Resources Companies Accounted for About One in Four'' 
[70 jia shangshi gongci juan ru fanfu fengbao ziyou lei zhan si fen zhi 
yi zuoyou], Beijing News, reprinted in Caijing, 9 February 15.
    \110\ Bao Xiaodong, ``Five Thousand EIA Engineers, More Than 16 
Percent? Violate the Law? Search for `Shadow EIA Engineers' '' [Wu qian 
huanpingshi, wei gui gaoda 16%? souxun ``yingzi huanpingshi''], 
Southern Weekend, 17 October 14.
    \111\ Ben Blanchard and Judy Hua, ``China Slates Environment 
Ministry After Graft Probe,'' Reuters, 10 February 15.
    \112\ Niu Jiwei et al., ``Xinhua Exclusive Gets to the Bottom of 
Rui Hai Company: Who Is the Mystery Person in Control?'' [Xinhua dujia 
qidi rui hai gongsi: shei shi shenmi kongzhi ren?], Xinhua, 19 August 
15; ``China Explosions: Potent Chemical Mix Behind Tianjin Blasts,'' 
BBC, 15 August 15.
    \113\ ``State Council General Council Demands `Zero Tolerance' for 
Environmental Violations, Experts: Reflects Determination To Control 
Environmental Pollution'' [Guo ban yaoqiu dui huanjing weifa ``ling 
rongren'' zhuanjia: tixian zhili huanjing wuran juexin], China National 
Radio, 28 November 14.
    \114\ Ibid.
    \115\ ``338 Cities' Environmental Monitoring Data Released in Real 
Time, Pollution Sources Have Nowhere To Hide'' [338 ge chengshi 
huanjing jiance shuju shishi fabu wuranyuan wuchu cangshen], People's 
Daily, 2 April 15. In 2015, an official investigation into 72 
monitoring stations in 12 provincial-level areas reportedly found that 
some local governments had directed environmental monitoring stations 
to fake monitoring data. Yang Weihan, ``China Will Launch Special 
Investigation To Crack Down on `Falsification' of Air Quality 
Monitoring Data'' [Zhongguo jiang kaizhan zhuanxiang jiancha yanda 
kongqi zhiliang jiance shuju ``zao jia''], Xinhua, 1 April 15; Liu 
Shixin, ``Some Locations Still Fake Environmental Monitoring Data'' 
[Bufen difang rengcun huanjing jiance shuju zaojia], China Youth Daily, 
2 April 15.
    \116\ Wan Ganjiang and Chen Liezi, ``What Bottlenecks Are There in 
the Implementation of the New Environmental Protection Law?'' [Xin 
huanbaofa shishi zhong cunzai na xie pingjing?], China Environmental 
News, 8 April 15; Chang Jiwen, ``New Environmental Protection Law 
Encounters Implementation Problems'' [Xin huanbaofa zaoyu shishi 
nanti], Economic Information Daily, 8 April 15.
    \117\ Ministry of Environmental Protection, ``Ministry of 
Environmental Protection Bulletin on Progress Since the New 
Environmental Protection Law Went into Effect, New Leadership To Place 
More Importance on Environmental Rule by Law'' [Huanjing baohu bu 
tongban xin ``huanbao fa'' shengxiao yilai jinzhan qingkuang xin 
lingdao banzi jiang geng jia zhongshi huanjing fazhi], 2 March 15; Li 
Jing, ``China's Pollution High on Agenda for Country's Top Political 
Consultation Body,'' South China Morning Post, 3 March 15; State 
Council General Office, Circular Regarding Strengthening Environmental 
Supervision and Law Enforcement [Guanyu jiaqiang huanjing jianguan 
zhifa de tongzhi], issued 12 November 14.
    \118\ Bao Zhang and Cong Cao, ``Policy: Four Gaps in China's New 
Environmental Law,'' Nature, 21 January 15.
    \119\ State Council General Office, Circular Regarding 
Strengthening Environmental Supervision and Law Enforcement [Guanyu 
jiaqiang huanjing jianguan zhifa de tongzhi], issued 12 November 14.
    \120\ ``Company Probed for Dumping 200 Tons of Toxic Waste Daily,'' 
Global Times, 13 April 15. The Global Times reported that one company 
secretly discharged 200 tons of landfill leachate into wells daily for 
several years. ``Tougher Environmental Law Pressures China Steel 
Mills,'' Reuters, 4 February 15; ``Chinese Police See Soaring 
Environmental Crimes,'' Xinhua, 6 February 14.
    \121\ Institute of Public and Environmental Affairs, ``Green Stocks 
Report Issue No. 2: Smog Risk of Listed Companies'' [Luse zhengquan 2 
qi baogao: shangshi gongsi de wumai fengxian], 9 December 14, 2-3; 
Stuart Leavenworth, ``Chinese Environmentalists Accuse 1,000 Companies 
of Polluting,'' McClatchy Newspapers, 9 December 14.
    \122\ ``State Council General Council Demands `Zero Tolerance' of 
Environmental Violations, Experts: Reflects Determination To Control 
Environmental Pollution'' [Guo ban yaoqiu dui huanjing weifa ``ling 
rongren'' zhuanjia: tixian zhili huanjing wuran juexin], China National 
Radio, 28 November 14; Ministry of Environmental Protection, ``Ministry 
of Environmental Protection Bulletin Regarding Handling of Two 
Instances of Violent Resistance Against Environmental Enforcement 
Personnel'' [Huanjing baohu bu tongbao liang qi huanjing zhifa renyuan 
shoudao baoli kang fa shijian de chuli qingkuang], 26 February 15.
    \123\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
3(6.1); Jamie P. Horsley, ``China's Leaders Endorse Disclosure as the 
`Norm,' '' Freedominfo.org, 4 November 14.
    \124\ State Council, Certain Opinions on Promoting Fair Market 
Competition and Maintaining the Normal Market Order [Guanyu cujin 
shichang gongping jingzheng weihu shichang zhengchang zhixu de ruogan 
yijian], issued 8 July 14, para. 19.
    \125\ ``338 Cities' Environmental Monitoring Data Announced in Real 
Time, Pollution Sources Have Nowhere To Hide'' [338 ge chengshi 
huanjing jiance shuju shishi fabu wuranyuan wuchu cangshen], People's 
Daily, 2 April 15.
    \126\ Zou Chunxia, ``Ministry of Environmental Protection: An 
Integrated Public Platform Will Be Built To Disclose EIA Information'' 
[Huanbaobu: huanping xinxi jiang jian tongyi gongkai pingtai], Beijing 
Youth Daily, 20 March 15.
    \127\ Te-Ping Chen, ``Beijing Quietly Curbs Discussion of 
Documentary on Air Pollution,'' Wall Street Journal, 2 February 15.
    \128\ ``Minitrue: Delete `Under the Dome,' '' China Digital Times, 
7 March 15; Edward Wong, ``China Blocks Web Access to `Under the Dome' 
Documentary on Pollution,'' New York Times, 6 March 15.
    \129\ ``Minitrue: Media Directives on Tianjin Port Explosion,'' 
China Digital Times, 13 August 15; Gabriel Dominguez, ``China's 
Official Response to Emergencies Is `Censorship,' '' Deutsche Welle, 18 
August 15.
    \130\ Simon Denyer, ``Inner Mongolian Herders Feel Force of China's 
Hunger for Minerals,'' Guardian, 10 April 15; Simon Denyer, ``In 
China's Inner Mongolia, Mining Spells Misery for Traditional Herders,'' 
Washington Post, 7 April 15; ``Detained Inner Mongolian Herder 
Monitored Following Release'' [Neimenggu bei ju mumin huoshi hou zao 
jiankong], Radio Free Asia, 17 February 15; Southern Mongolian Human 
Rights Information Center, ``Mongolian Herders Held Simultaneous 
Protests,'' 21 January 15.
    \131\ ``Minitrue: Fujian PX Explosion,'' China Digital Times, 7 
April 15.
    \132\ Andrew Jacobs, ``Air Quality App Forced To Stop Providing 
Data From U.S. Embassy,'' New York Times, Sinosphere (blog), 10 
November 14.
    \133\ Gong Zhihong, ``Not Disclosing Environmental Information, 
Environmental Protection Departments Taken to Court'' [Bu gongkai 
huanjing xinxi huanbao bumen bei gao shang fating], Xinhua, 19 January 
15; Huang Fang, ``Environmental Organization Makes Open Information 
Requests to 43 Counties, Environmental Protection Bureau Asked `Hostile 
Force or Not' '' [Huanbao zuzhi xiang 43 xian shenqing xinxi gongkai, 
zao huanbaoju wen ``shifou didui shili''], The Paper, 22 January 15.
    \134\ International Agency for Research on Cancer, World Health 
Organization, ``IARC Monographs Volume 112: Evaluation of Five 
Organophosphate Insecticides and Herbicides,'' 20 March 15, 1.
    \135\ Dominique Patton, ``Chinese Citizens Sue Government Over 
Transparency on Monsanto Herbicide,'' Reuters, 8 April 15.
    \136\ Ibid.

                  III. Development of the Rule of Law


                             Civil Society


            Intensified Crackdown on NGOs and Civil Society

    Chinese non-governmental organizations (NGOs) provide 
social services \1\ and engage in public outreach,\2\ 
education,\3\ and issue advocacy.\4\ NGOs work in a variety of 
sectors, including labor, environment, poverty alleviation, 
health, education, and gender.\5\ Prior to President and 
Communist Party General Secretary Xi Jinping's transition to 
power, NGOs were able to operate more freely in some sectors 
that authorities considered less politically sensitive,\6\ 
including women's rights advocacy.\7\ Due to government 
pressure, Chinese rights defenders tend to work in loose and 
decentralized networks rather than formal NGOs.\8\
    During the Commission's 2015 reporting year, the central 
government narrowed the already restricted space within which 
NGOs are allowed to work. A government crackdown on NGOs and 
civil society networks that began in 2013 intensified this past 
year,\9\ reportedly making the climate for civil society one of 
the worst in recent years.\10\ The international human rights 
NGO Chinese Human Rights Defenders reported 995 arbitrary 
detention cases of rights defenders in 2014, nearly as many as 
the two-year total of 1,160 from 2012 to 2013.\11\ Authorities, 
moreover, targeted some NGOs and their staff throughout the 
past year, as represented in the following developments: \12\

        <bullet>  In September 2014, Liren Rural Library,\13\ a 
        Chinese NGO that established a network of 22 libraries 
        across rural China, closed in the face of government 
        pressure.\14\ In October and November, authorities 
        temporarily detained individuals associated with Liren, 
        including Ling Lisha,\15\ Liu Jianshu,\16\ and Xu 
        Xiao.\17\
        <bullet> In October 2014, authorities in Beijing 
        municipality reportedly shut down Transition Institute 
        (TI),\18\ an NGO think tank dedicated to educational 
        and economic policy,\19\ and detained several of its 
        staff members.\20\ In January 2015, 87 days after their 
        detention, the police formally arrested and charged two 
        TI leaders, Guo Yushan \21\ and He Zhengjun,\22\ with 
        ``illegal business activity.'' \23\ Authorities also 
        held Huang Kaiping, TI's managing director, 
        incommunicado for 110 days before releasing him in 
        January 2015.\24\ When Huang's lawyer asked Huang if he 
        was tortured, Huang reportedly responded, ``Let's not 
        talk about that now, you understand.'' \25\ Torture is 
        in violation of China's obligation as a State Party 
        \26\ to the Convention against Torture and Other Cruel, 
        Inhuman or Degrading Treatment or Punishment.\27\ 
        Authorities took into custody in March 2015 and 
        released at an unknown date \28\ another TI staff 
        member, Yang Zili, a former political prisoner.\29\ In 
        their handling of the cases of Guo, He, and Huang, 
        authorities violated the PRC Criminal Procedure Law, 
        which requires that a suspect be released after 37 days 
        if the procuratorate does not authorize the arrest.\30\ 
        Guo and He were released on ``bail'' the week before 
        Chinese President Xi Jinping's state visit to the 
        United States in September 2015.\31\
        <bullet>  In March 2015, security officials in Beijing 
        reportedly raided the office of the Beijing Yirenping 
        Center,\32\ a public health and anti-discrimination NGO 
        whose founders had received several awards from Chinese 
        state-run news media.\33\ This was the second time in 
        two years that authorities had targeted the group.\34\ 
        In April 2015, the Ministry of Foreign Affairs publicly 
        accused Yirenping of unspecified legal violations,\35\ 
        which an Yirenping statement indicated could have been 
        linked to the group's advocacy on behalf of five 
        women's rights advocates whom authorities detained 
        earlier in March.\36\ Three of the five are either 
        current or former employees of Yirenping.\37\ Released 
        on bail in April 2015,\38\ the five women continued to 
        face police surveillance.\39\ [For more information, 
        see box on Detentions of Women's Rights Advocates in 
        Section II--Status of Women.] Later in June, 
        authorities detained two former Yirenping employees, 
        Guo Bin and Yang Zhanqing, on charges of ``illegal 
        business activity,'' according to their lawyers.\40\ 
        Officials released Guo and Yang in July.\41\
        <bullet>  In June 2015, Weizhiming, a women's rights 
        organization led by Wu Rongrong, one of the five women 
        detained in March 2015, shut down after police began 
        investigating four of its six staff members.\42\

    Many Chinese rights advocates have observed that the 
crackdown on NGOs and rights defenders has exerted a 
``chilling'' effect on civil society.\43\ The targeting of 
these NGOs calls into question Chinese authorities' commitment 
to uphold the rights guaranteed in China's Constitution, 
including the right to freedom of assembly,\44\ as well as 
international standards on freedom of speech and association 
outlined in the International Covenant on Civil and Political 
Rights \45\ and the Declaration on Human Rights Defenders.\46\

                      Government and Party Control

    The regulatory environment for independent Chinese NGOs 
continues to be challenging for NGOs to navigate. Central 
authorities require some NGOs to secure the sponsorship of a 
governmental or quasi-governmental organization in order to be 
eligible for registration under the Ministry of Civil Affairs 
(MCA).\47\ This ``dual management system'' imposes 
differentiated treatment of NGOs based on how politically 
sensitive the authorities believe them to be.\48\ According to 
Chinese NGO workers, although central authorities pledged 
reform, the registration process remained closed to NGOs that 
work on rights issues or are otherwise deemed to be 
sensitive.\49\ One of China's few independent NGOs that monitor 
human rights \50\ applied for registration four times between 
2013 and March 2015, but the Beijing municipal civil affairs 
bureau refused to register the group each time.\51\ Since the 
government restricts the growth of civil society organizations, 
independent NGOs are often forced to remain unregistered or 
register as businesses.\52\ Both options leave them hampered 
and at risk of prosecution,\53\ as with the accusations of 
``illegal business activity'' against Transition Institute \54\ 
and Yirenping employees.\55\ In May 2015, Party authorities 
reportedly decided to strengthen requirements to establish 
Party groups ``in social, economic and cultural 
organizations.'' \56\ An international law expert observed that 
in previous Party-building efforts, NGOs were encouraged to 
form internal Party groups, but the May requirements make them 
mandatory.\57\ A Chinese rights advocate speculated that the 
decision may result in Party selection and appointment of some 
NGO personnel.\58\
    In terms of fundraising and government procurement, 
independent NGOs are at a disadvantage vis-a-vis quasi-
governmental or government-organized non-governmental 
organizations (GONGOs). Under Chinese law, only a few quasi-
governmental foundations are allowed to raise funds from the 
public.\59\ A 2014 Chinese Academy of Social Sciences Blue Book 
reportedly found that government organizations' monopoly over 
fundraising is one of the reasons independent NGOs receive 
little funding.\60\ In October 2014, the MCA allocated 200 
million yuan (US$32.2 million) to procure services and training 
from NGOs for 2015,\61\ at approximately the same level as from 
2012 to 2014.\62\ In December 2014, the MCA and other 
government agencies issued provisional Government Service 
Procurement Management Measures (Measures).\63\ The Measures 
predicate funding on an organization's registration status and 
allow quasi-governmental organizations to compete for service 
bids.\64\ In January 2015, a public management professor who 
teaches at Tsinghua University expressed concern about the 
Measures, calling for more public participation in building 
accountability mechanisms.\65\ Other Chinese commentators found 
the participation of quasi-governmental organizations to have a 
crowding-out effect for independent NGOs,\66\ including a 
sociology professor in Beijing who said the government should 
slow the pace of procurement until a fair and effective 
assessment system is in place.\67\
    Chinese government funding restrictions limited the 
independence of most Chinese NGOs and deepened their reliance 
on international funding. For example, the Measures on 
government procurement issued in December 2014 designated 
social services as procurement areas, with only limited mention 
of legal aid and services and no mention of human rights.\68\ A 
British academic observed that government funds disbursed in 
2012 led labor NGOs ``to limit their activities to safe agendas 
and to become more adjutants of the government rather than of 
workers.'' \69\ According to sources cited in a November 2014 
Radio Free Asia report, one consequence of regulatory 
restrictions and domestic funders' reluctance to fund projects 
the government deems politically sensitive \70\ is that 
independent NGOs--especially those that advocate for human and 
civil rights--rely more heavily on international funding.\71\
    The number and strength of independent NGOs in China, 
though open to debate, remain limited, according to some 
observers. Statistics from the Ministry of Civil Affairs show 
that by the end of 2014, China had 600,000 registered ``social 
organizations,'' of which 30,000 were able to register without 
a sponsor.\72\ International media and Chinese scholarly 
estimates of independent unregistered NGOs range from 1.2 
million to 8 million,\73\ yet few met the criteria of being 
``voluntary, private, non-profit, and self-governing.'' \74\ 
Two NGO directories that collected information on both 
registered and unregistered NGOs in 2014 and 2015 identified 
approximately 3,000 independent NGOs.\75\ In a 2014 report, a 
Chinese NGO expert noted that despite estimates of millions of 
NGOs, he counted 6,000 to 7,000 ``weak and scattered'' 
grassroots NGOs.\76\ A Shanghai-based consultant estimated that 
3,000 to 5,000 independent NGOs in China ``have achieved a 
basic degree of scale,'' and ``only one or two hundred are in a 
position to significantly innovate, expand, and/or replicate.'' 
\77\ A 2014 study reportedly found that the number of 
independent NGOs shrank over the last seven years and 
attributed the decrease to the difficulty of obtaining 
funding.\78\ Moreover, according to one Chinese NGO, publicly 
available information about such NGOs is often ``vague'' and 
``varies widely'' because so many Chinese NGOs are unable to 
formally register.\79\

                   Regulatory and Legal Developments

    The Chinese government has not released draft revisions, 
originally slated for release in 2013, to three regulations 
which Chinese officials say are key to the current legal 
framework for non-governmental organizations (NGOs).\80\ These 
State Council regulations are the Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises, Regulations on the Registration and Management of 
Social Organizations, and Regulations on the Management of 
Foundations.\81\ In March 2015, a National People's Congress 
(NPC) delegate who is an expert on civil society in China urged 
the government to finish revising the regulations soon, saying 
``social organizations . . . have operated de facto without 
laws'' since 2013.\82\ Another NPC delegate called for a 
``Social Organizations Law'' to strengthen governance norms, 
including oversight and independence of NGOs.\83\ An official 
said in March 2015 that the NPC would review the draft national 
charity law, first drafted in 2005,\84\ by late 2015.\85\ A 
Chinese researcher suggested adding a clause allowing human 
rights advocacy to the law.\86\
    In January 2015, authorities in Guangzhou municipality, 
Guangdong province, issued Measures for the Management of 
Social Organizations (Guangzhou Measures).\87\ The central 
government often chooses certain cities for piloting new 
regulations or measures that are later introduced 
nationwide,\88\ such as its choice of Guangzhou for pilot NGO 
registration measures in 2012 and 2013.\89\ The Guangzhou 
Measures require NGOs to report foreign funding or subsidies 15 
days before receipt,\90\ and allow the government to confiscate 
the property of NGOs if they are not registered or if they 
undertake activities under their organizational name without 
first getting permission to do so.\91\ NGOs using international 
funding for activities that ``endanger national security'' may 
face loss of registration, fines, orders to dismiss and replace 
the organization's personnel, or criminal charges for the 
organization's responsible parties.\92\ After public input, 
Guangzhou authorities removed controversial provisions from the 
draft Guangzhou Measures that would have banned efforts to 
start NGOs \93\ or prohibit NGOs that are funded or connected 
to foreign organizations.\94\ Voice of America reported in 
March 2015 that the Guangzhou Measures would likely restrict 
funding for labor NGOs in a sector that largely relies on 
outside funding.\95\

        Government Efforts To Control Foreign and Domestic NGOs

    During the reporting year, the Chinese government 
considered laws that may have negative consequences for Chinese 
civil society, including a draft PRC Counterterrorism Law \96\ 
and a draft PRC Overseas Non-Governmental Organizations (NGO) 
Management Law.\97\ [See box on the Draft PRC Overseas NGO 
Management Law below.] The draft PRC Counterterrorism Law 
stipulates NGOs that fail to report their funding sources to 
the government may be fined up to 50,000 yuan (US$8,000),\98\ 
and requires banks to monitor the ``financial flow'' of both 
Chinese and overseas NGOs.\99\ Human Rights Watch called for an 
overhaul of the draft PRC Counterterrorism Law, warning that 
otherwise, Chinese civil society may face even more 
``politically motivated arrests and prosecutions.'' \100\

------------------------------------------------------------------------
                  Draft PRC Overseas NGO Management Law
-------------------------------------------------------------------------
  According to the draft PRC Overseas NGO Management Law, authorities
 aim to ``regulate and guide activities'' of overseas \101\ NGOs. Key
 provisions include:
 
  <bullet>  Requiring overseas NGOs that establish permanent offices in
   China to register with public security authorities at the provincial
   level or above, and to secure a sponsor organization and approval
   from relevant government agencies or government-approved
   organizations; \102\
  <bullet>  Forbidding overseas NGOs within China from carrying out
   activities that ``endanger'' interests such as ``China's national
   unity,'' ``national interests,'' ``public interest,'' ``public
   order,'' and ``culture.'' \103\ Overseas NGOs are also forbidden from
   undertaking or funding ``political activities or illegal religious
   activities''; \104\
  <bullet>  Requiring overseas NGOs without branch offices to find
   Chinese partner organizations and obtain temporary activity permits
   in order to engage in activities in China; \105\
  <bullet>  Forbidding Chinese individuals and organizations from
   accepting funding from or ``covertly represent[ing]'' overseas NGOs
   that have not established a branch office or obtained a temporary
   activity permit; \106\
  <bullet>  In most cases forbidding overseas NGOs from soliciting
   contributions or accepting donations within China; \107\
  <bullet>  Requiring overseas NGOs to hire and recruit volunteers in
   China through government-approved intermediaries,\108\ and to cap the
   percentage of foreign staff at overseas NGOs at 50 percent; \109\
  <bullet>  Adding administrative burdens, including submission of
   activity and work reports,\110\ yearly activity plans,\111\ mandatory
   reregistration every five years,\112\ and financial reporting; \113\
   and
  <bullet>  Permitting public security agencies to inspect the offices
   of overseas NGOs, seal or seize documents, venues, facilities, or
   property,\114\ and freeze bank accounts of NGOs and affiliated
   individuals under investigation.\115\
------------------------------------------------------------------------


------------------------------------------------------------------------
            Draft PRC Overseas NGO Management Law--Continued
-------------------------------------------------------------------------
  International human rights organizations urged the Chinese government
 to withdraw or substantially revise the draft law out of concern that
 its provisions contravene the right to freedom of association contained
 in both international law \116\ and China's Constitution.\117\ Chinese
 and international commentators noted that under the draft PRC Overseas
 NGO Management Law, registration and oversight authority of overseas
 NGOs would transfer from the Ministry of Civil Affairs to the Ministry
 of Public Security.\118\ Commentators stated that this may make the
 environment for overseas NGOs, especially legal and civil rights NGOs,
 more restrictive.\119\ Chinese observers said the draft law's broad and
 vague language would make it difficult to enforce \120\ and allow for
 selective enforcement.\121\ Maya Wang of Human Rights Watch said the
 draft law would give ``China's police veto power over international
 groups and their decisions.'' \122\
  Chinese and international civil society organizations deemed the draft
 PRC Overseas NGO Management Law detrimental to Chinese NGOs and to
 China's broad range of trade and exchange activities with the world.
 International human rights groups and Chinese observers asserted that
 the loss of international funding is likely to set back independent
 Chinese NGOs,\123\ especially those that engage in rights
 advocacy.\124\ International news media reported that some
 international NGOs may curtail or end their work in China.\125\
 Scholars and advocates warned that common ``international cultural,
 educational and technical exchanges'' could decline, and universities
 and other organizations could face significant hurdles in conducting
 activities in China.\126\ In a joint letter to the National People's
 Congress, dozens of U.S. trade and lobby groups, including the U.S.
 Chamber of Commerce, predicted that the draft law, if passed in its
 current form, would ``have a significant adverse impact on the future
 of U.S.-China relations.'' \127\
------------------------------------------------------------------------

    Notes to Section III--Civil Society

    \1\ Reza Hasmath and Jennifer Y. J. Hsu, ``Communities of Practice 
and the NGO Sector in China,'' Association for Research on Nonprofit 
Organizations and Voluntary Action Annual Conference (Chicago, USA), 
November 2015, Introduction. According to Hasmath and Hsu, social 
services outsourcing refers to the provision of public funds by the 
government to a non-profit organization or business to deliver public 
goods and services.
    \2\ See Zhang Xiong, ``To Serve the Girls'' [Wei xiaojie fuwu], 
Southern People Weekly, 11 March 15; Zhang Ren, ``Research Report on 
the Status and Development of Grassroots Organizations Serving 
Substance Abuse Population in Beijing Municipality'' [Beijing shi 
chengyin renqun caogen zuzhi xianzhuang ji fazhan diaoyan baogao], 
China Drug Banning Exhibition Center, 15 June 15.
    \3\ See, e.g., Love Save Pneumoconiosis, ``Introduction to the 
Foundation'' [Jijin jianjie], last visited 3 August 15; Amity 
Foundation, ``Who We Are,'' last visited 3 August 15; Beijing LGBT 
Center, ``Introduction to the Center'' [Zhongxin jiangjie], last 
visited 3 August 15.
    \4\ See, e.g., Guo Ting, ``To Promote Law and Abolish the Custody 
System: Public Interest Actors' Uphill Efforts'' [Tuijin fazhi feizhi 
shourong gongyi ren de jiannan xingdong], Asia Development Brief, 15 
December 14.
    \5\ Isabel Hilton et al., ``The Future of NGOs in China: A 
ChinaFile Conversation,'' Asia Society, ChinaFile (blog), 14 May 15.
    \6\ Teng Biao, ``Review of Draft Overseas NGO Management Law and 
National Security Law'' [Ping jingwai feizhengfu zuzhi guanlifa he 
guojia anquan fa cao'an], Independent Chinese PEN Center, 30 June 15; 
Yang Guang, ``Yang Guang: Stifling NGOs Shows Totalitarian Mindset'' 
[Yang guang: esha NGO shi jiquan zhuyi siwei], Directions Magazine, 
reprinted in New Century Net, 3 July 15.
    \7\ Rui Di, ``Zhao Sile: Feminist Action Is the Most Active and 
Visible Social Movement in China'' [Zhao sile: nuquan xingdong zhongguo 
zui huoyue zui kejian de shehui yundong], Radio France International, 
14 April 15; Isabel Hilton et al., ``The Future of NGOs in China: A 
ChinaFile Conversation,'' Asia Society, ChinaFile (blog), 14 May 15.
    \8\ See, e.g., Guo Feixiong, ``My Rights Defense Resume and 
Thoughts on Political Strategies--From Guo Feixiong's Self Defense in 
Court'' [Wode weiquan yundong jianshi ji zhengzhi caozuo linian--zhai 
zi guo feixiong fating bianhuci], New Citizens' Movement, 28 February 
15; ``Interview With `Super Vulgar Butcher' Wu Gan, To Discuss Freedom 
in Hong Kong and Occupy Central'' [Zhuanfang ``chaoji disu tufu'' wu 
gan tan xianggang ziyou he zhan zhong], Boxun, 28 February 14; Xiao 
Shu, ``Xiao Shu Special Column: 26 Years Later, They Are Still Willing 
To Be Cannon Fodder'' [Xiao shu zhuanlan zouguo 26 nian tamen yijiu gan 
dang paohui], Storm Media, 4 June 15.
    \9\ Chen Yizhong, ``Interview With Xiao Shu: Citizens' Movement and 
China's Transition '' [Zhuanfang xiao shu: gongmin yundong yu zhongguo 
zhuanxing], Financial Times, 12 June 15; Human Rights Watch, ``World 
Report 2015,'' 2015, China, 155-57; Elizabeth Whitman, ``Obama China 
President Meeting: Petition Seeks To Cancel Meeting From Xi Jinping, 
Citing Dozens of Arrests,'' International Business Times, 14 July 15.
    \10\ Human Rights Watch, ``World Report 2015,'' 2015, China, 155; 
Jennifer Duggan, ``China Targets Lawyers in New Human Rights 
Crackdown,'' Guardian, 13 July 15; ``Human Rights Abuses in China `At 
Worst Since 1989': Report,'' Radio Free Asia, 16 February 15; ``Xi 
Jinping Intensifies Crackdown on Rights Activists (Yu Ying-shih)'' [Xi 
jinping qianghua dui weiquan renshi de daya (yu yingshi)], Radio Free 
Asia, 9 June 15.
    \11\ Chinese Human Rights Defenders, ``Silencing the Messenger: 
2014 Annual Report on the Situation of Human Rights Defenders in 
China,'' 15 March 15.
    \12\ Zeng Jinyan, ``Guo Yushan and the Predicament of NGOs,'' Probe 
International, 21 May 15.
    \13\ For information about Liren Rural Library, see Liren Rural 
Library [Liren xiangcun tushuguan], China Development Brief, last 
visited 31 July 15. According to its profile at China Development 
Brief, Liren Rural Library uses the English name China Rural Library.
    \14\ Vanessa Piao, ``Liren Library Closes, Citing `Tremendous 
Pressure,' '' New York Times, Sinosphere (blog), 22 September 14.
    \15\ Didi Kirsten Tatlow, ``Young, Idealistic, and Caught Up in a 
Wave of Detentions,'' New York Times, Sinosphere (blog), 10 December 
14; Zhen Shuji, ``Supporter of Occupy Central, Artist Ling Lisha, 
Released, Guo Yushan Still Missing'' [Shengyuan xianggang zhan zhong 
yishujia ling lisha huoshi guo yushan reng shizong], Radio France 
International, 13 December 14. Authorities released Ling on bail in 
December 2014 after 70 days in detention. For more information on Ling 
Lisha, see the Commission's Political Prisoner Database record 2015-
00044.
    \16\ Didi Kirsten Tatlow, ``Young, Idealistic, and Caught Up in a 
Wave of Detentions,'' New York Times, Sinosphere (blog), 10 December 
14; Lu Yang, ``Public Interest Worker Liu Jianshu Released'' [Gongyi 
renshi liu jianshu huoshi], Voice of America, 24 December 14. 
Authorities released Liu Jianshu on bail in December 2014. For more 
information on Liu Jianshu, see the Commission's Political Prisoner 
Database record 2015-00044.
    \17\ ``Chinese Journalist Xu Xiao Detained on Suspicion of Harming 
National Security'' [Zhongguo meiti ren xu xiao shexian weihai guojia 
anquan bei zhua], Radio Free Asia, 1 December 14; ``Famous Publishing 
Figure and Writer Xu Xiao Released After Nearly One Month and Returned 
Home'' [Zhuming chubanren zuojia xuxiao bei daizou jin yi ge yue hou 
huoshi huijia], Radio France International, 24 December 14. Authorities 
released Xu on bail in December 2014. For more information on Xu Xiao, 
see the Commission's Political Prisoner Database record 2014-00419.
    \18\ Chinese Human Rights Defenders, ``[CHRB] Beijing Police Detain 
Outspoken Intellectuals, Close Two Independent Groups (11/21-12/4, 
2014),'' 21 December 14.
    \19\ Human Rights Watch, ``China: Release Leading Rule of Law 
Activists,'' 22 January 15; Andrew Jacobs and Chris Buckley, ``In 
China, Civic Groups' Freedom, and Followers, Are Vanishing,'' New York 
Times, 26 February 15.
    \20\ Josh Chin, ``China Detains Legal Activist Guo Yushan,'' Wall 
Street Journal, 12 October 14.
    \21\ Edward Wong, ``China Arrests Activist Amid a Crackdown,'' New 
York Times, 7 January 15; ``Guo Yushan, He Zhengjun `Illegal Business 
Activity Case' Developments'' [Guo yushan he zhengjun ``feifa jingying 
an'' jinzhan], Boxun, 4 April 15. For more information on Guo Yushan, 
see the Commission's Political Prisoner Database record 2014-00370.
    \22\ Rights Defense Network, ``Lawyer Xi Xiangdong: Record of a 
Meeting With He Zhengjun of the `Transition Institute,' Detained on 
Suspicion of Operating an Illegal Business'' [Xi xiangdong lushi: 
``chuanzhixing'' he zhengjun shexian feifa jingying an huijian ji], 7 
January 15; ``Guo Yushan, He Zhengjun `Illegal Business Activity Case' 
Developments'' [Guo yushan he zhengjun ``feifa jingying an'' jinzhan], 
Boxun, 4 June 15. For more information on He Zhengjun, see the 
Commission's Political Prisoner Database record 2015-00003.
    \23\ Human Rights Watch, ``China: Release Leading Rule of Law 
Activists: Impending Decisions Spotlight Harsh Crackdown on Critics,'' 
22 January 15; ``Guo Yushan, He Zhengjun `Illegal Business Activity 
Case' Developments'' [Guo yushan he zhengjun ``feifa jingying an'' 
jinzhan], Boxun, 4 June 15.
    \24\ Chinese Human Rights Defenders, ``CHRD Information Submission 
to the UN Committee against Torture for Consideration in List of 
Issues--February 2015,'' 17 February 15; Li Zhongqian, ``Beijing 
Transition Institute Director Huang Kaiping Released'' [Beijing 
chuanzhixing suozhang huang kaiping huoshi], Storm Media, 28 January 
15. For more information on Huang Kaiping, see the Commission's 
Political Prisoner Database record 2015-00004.
    \25\ Li Zhongqian, ``Beijing Transition Institute Director Huang 
Kaiping Released'' [Beijing chuanzhixing suozhang huang kaiping 
huoshi], Storm Media, 28 January 15.
    \26\ United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, last visited 4 August 15. China signed the CAT 
on December 12, 1986, and ratified it on October 4, 1988.
    \27\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, arts. 
2, 11.
    \28\ Civil Rights & Livelihood Watch, ``News Flash: Citizen Yang 
Zili and Bengbu Associate Detained by Police'' [Kuaixun: gongmin yang 
zili bengbu huiyou bei jingfang zhuazou], 24 March 15; Yang Zili, 
``Yang Zili: Some Government Departments Are Shameless: On Seeing 
Butcher on CCTV'' [Yang zili: cong tufu shang yangshi kan mouxie bumen 
de wuchi], New Citizens' Movement, 31 May 15.
    \29\ Xiao Shu, ``Yang Zili and the Paranoid Regime: A Journalist's 
Plight Demonstrates the Depth of China's Present Illness,'' Wall Street 
Journal, 29 January 15. For more information on Yang Zili, see the 
Commission's Political Prisoner Database record 2004-04188.
    \30\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 89.
    \31\ ``China Releases Two NGO Activists `On Bail' Ahead of 
President's US Trip,'' Radio Free Asia, 15 September 15.
    \32\ Andrew Jacobs, ``China Raids Offices of Rights Group as 
Crackdown on Activism Continues,'' New York Times, 26 March 15.
    \33\ ``Yirenping Introduction'' [Yirenping jianjie], Yirenping 
Website, last visited 10 July 15. Yirenping has received awards from 
China Central Television (CCTV) and People's Court Web, among others.
    \34\ CECC, 2014 Annual Report, 9 October 14, 134.
    \35\ ``China Targets Rights Group Yirenping After Activists' 
Release,'' BBC, 15 April 15.
    \36\ Beijing Yirenping Center, ``Response to China's Ministry of 
Foreign Affairs Accusation Against Yirenping,'' translated in China 
Change, 15 April 15; ``Chinese Authorities Want To Punish NGO 
Advocating for Five Feminists'' [Zhongguo dangju yu chengchu shengyuan 
nuquan wu jiemei de NGO], Voice of America, 15 April 15; Chinese Human 
Rights Defenders, ``[CHRB] 5 Women's and LGBT Rights Activists Detained 
in Escalating Clampdown on NGOs (3/6-12/15),'' 12 March 15; ``Meet the 
5 Female Activists China Has Detained,'' New York Times, 6 April 15; 
Tania Branigan, ``Five Chinese Feminists Held Over International 
Women's Day Plans,'' Guardian, 12 March 15. The five women were 
reportedly involved in a range of advocacy activities: Li Tingting (Li 
Maizi) is known for street performances such as ``Occupy the Men's 
Toilet'' and managed the LGBT program at the Beijing Yirenping Center; 
Wang Man worked on gender and poverty issues for Global Call to Action 
Against Poverty; Wei Tingting worked for the LGBT rights NGO Ji'ande; 
prior to founding the NGO Weizhiming, Wu Rongrong worked for the health 
advocacy NGO Beijing Aizhixing Institute and the Beijing Yirenping 
Center; and Zheng Churan (also known as Datu) advocated for victims of 
domestic violence and women with disabilities. For more information, 
see the following records in the Commission's Political Prisoner 
Database: 2015-00114 on Wei Tingting, 2015-00115 on Wang Man, 2015-
00116 on Li Tingting, 2015-00117 on Wu Rongrong, and 2015-00118 on 
Zheng Churan.
    \37\ Elizabeth M. Lynch, ``Update: Good or Bad? Five Female 
Activists Released on Bail,'' China Law & Policy (blog), 14 April 15.
    \38\ ``Why China Arrested, Then Released, Five Feminists,'' 
Economist, The Economist Explains (blog), 27 April 15.
    \39\ Steven Jiang, ``Released Feminists: Out of Jail but Not 
Free,'' CNN, 14 April 15; ``Women's Rights Advocate Guo Jing Forbidden 
To Travel Abroad, Five Women's Rights Advocates Demand Dismissal of 
Their Case'' [Nuquanzhe guo jing bei jin chujing luyou 5 nuquan yaoqiu 
che an], Radio Free Asia, 26 May 15.
    \40\ Tom Phillips, ``Fears of New Crackdown as China Holds Two 
Former Members of Rights Group,'' Guardian, 15 June 15.
    \41\ Rights Defense Network, ``Public Interest Workers Guo Bin, 
Yang Zhanqing Released on Bail Today'' [Gongyi renshi guo bin, yang 
zhanqing jinri qubao huoshi], 11 July 15.
    \42\ Vanessa Piao, ``Pressure From Chinese Authorities Forces Ex-
Detained Feminist To Shutter Organization,'' New York Times, Sinosphere 
(blog), 5 June 15.
    \43\ Sang Pu, ``The Tyranny That Disregards the Law and Imprisons 
Gao Yu'' [Jianjin gao yu de famang baozheng], Stand News, 21 April 15; 
Lin Feng, ``NGOs Face Hard Times,'' Voice of America, 11 March 15; 
Wuyue Huahao, ``The Long Winter for Civil Society'' [Gongmin shehui de 
manchang handong], 8090 Net, 14 May 15.
    \44\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \45\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 19, 21, 22; UN GAOR, Hum. Rts. 
Coun. 25th Sess., Agenda Item 6, Universal Periodic Review, Report of 
the Working Group on the Universal Periodic Review--China, A/HRC/25/5, 
4 December 13, para. 153. China signed the ICCPR in 1998, and the 
Chinese government has stated its intent to ratify it. During the UN 
Human Rights Council's Universal Periodic Review of the Chinese 
government's human rights record in October 2013, China stated it is 
``making preparations for the ratification of ICCPR and will continue 
to carry out legislative and judicial reforms.''
    \46\ UN General Assembly, 53rd Sess., Declaration on the Right and 
Responsibility of Individuals, Groups and Organs of Society To Promote 
and Protect Universally Recognized Human Rights and Fundamental 
Freedoms (Declaration on Human Rights Defenders), A/RES/53/144, 8 March 
99, art. 5(a-c).
    \47\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, art. 6; Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Enterprise 
Institutions [Minban feiqiye danwei dengji guanli zanxing tiaoli], 
issued and effective 25 October 98, arts. 6-7.
    \48\ Teng Biao, ``Review of Draft Overseas NGO Management Law and 
National Security Law'' [Ping jingwai feizhengfu zuzhi guanli fa he 
guojia anquan fa cao'an], Independent Chinese PEN Center, 30 June 15.
    \49\ ``China's NGOs and Civil Society (II): Numerous Forbidden 
Areas Prevent NGOs From Promoting Development of Civil Society'' 
[Zhongguo de NGO yu gongmin shehui (er) jinqu linli zu'ai NGO tuidong 
gongmin shehui fazhan], Radio Free Asia, 11 November 14; Feng Renke and 
Li Linjin, ``The Plight of Chinese Worker Rights Groups'' [Zhongguo 
laogong weiquan NGO de kunjing], Financial Times, 2 March 15.
    \50\ For more information on human rights groups in China, see, 
e.g., Human Rights Watch, ``World Report 2014,'' 2014, China, 320. For 
examples of official harassment of rights activists and organizations, 
see, e.g., Rights Defense Network, ``China Civil Society Development 
and Freedom of Association Research Report'' [Zhongguo minjian zuzhi 
fazhan yu gongmin jieshe ziyou xianzhuang baogao], 8 January 14. For 
more information on China Human Rights Watch and its founder Qin 
Yongmin, see Qin Yongmin, ``Introduction to China Human Rights Watch 
Founder Qin Yongmin'' [Zhongguo renquan guancha jubanren qin yongmin 
jianjie], Rose China, 21 August 14. For more information on Qin 
Yongmin, see the Commission's Political Prisoner Database record 2004-
02138.
    \51\ China Human Rights Watch, ``China Human Rights Watch 
Registration Notice: MCA Illegally Rejects Third Application'' 
[Zhongguo renquan guancha zhuce wengao: minzhengbu feifa jujue zhongguo 
renquan guancha disan ci zhuce shenqing], Uphold the Constitution and 
Defend Rights Net, 27 September 14; Zhang Jiarui and Pan Lu, ``On 
Fourth Time in Beijing To Register, `China Human Rights Watch' Refused 
by Authorities'' [``Zhongguo renquan guancha'' disi ci jin jing zhuce 
bei dangju jujue], Rose China, 24 March 15.
    \52\ Wan Yanhai, ``Wan Yanhai Special Column: Sounding the Alarm 
Bell Over Transition Institute's `Illegal Business Activity' '' [Wan 
yanhai zhuanlan: chuanzhixing ``feifa jingying zui'' qiaoxiang de 
jingzhong], Storm Media, 1 May 15.
    \53\ See, e.g., He Qinglian, ``An Analysis of Xi Jinping's `High 
Pressure Cooker' Style of Governance'' [Jiexi xi jinping de 
``gaoyaguo'' zhili moshi], Human Rights in China Biweekly, Vol. 154, 16 
April 15. For a history of the legal changes that forced groups to 
register as businesses, see Wan Yanhai, ``Wan Yanhai Special Column: 
Sounding the Alarm Bell Over Transition Institute's `Illegal Business 
Activity' '' [Wan yanhai zhuanlan: chuanzhixing ``feifa jingying zui'' 
qiaoxiang de jingzhong], Storm Media, 1 May 15.
    \54\ Chinese Human Rights Defenders, ``Silencing the Messenger: 
2014 Annual Report on the Situation of Human Rights Defenders in 
China,'' 15 March 15, 15.
    \55\ Tom Phillips, ``Fears of New Crackdown as China Holds Two 
Former Members of Rights Group,'' Guardian, 15 June 15.
    \56\ Didi Kirsten Tatlow, ``For NGOs in China, a Sense of Party 
Creep,'' New York Times, Sinosphere (blog), 3 June 15.
    \57\ Stanley Lubman, ``China Asserts More Control Over Foreign and 
Domestic NGOs,'' Wall Street Journal, China Real Time Report (blog), 16 
June 15.
    \58\ Wan Yanhai, ``Wan Yanhai Special Column: Chinese Communist 
Party Wants To Absorb `Non-State-Owned' Organizations Into Its System'' 
[Wan yanhai zhuanlan: zhonggong yu ba ``feiguoyou'' zuzhi naru tizhi], 
Storm Media, 19 June 15.
    \59\ Yang Xiaohong and Song Jia, ``Charity Waiting for Its 
Breakthrough'' [Dengdai tuwei de cishan], Chuansongmen, 4 January 15.
    \60\ Jiang Tao, ``CASS Report: China's Civil Society Organizations 
Face Five Predicaments'' [Shekeyuan baogao: zhongguo minjian zuzhi 
mianlin wu da kunjing], China News Net, 25 December 14.
    \61\ Ministry of Civil Affairs, Implementation Plan for 2015 
Central Government Financial Support for Social Organization 
Participation in Social Service Projects [2015 nian zhongyang caizheng 
zhichi shehui zuzhi canyu shehui fuwu xiangmu shishi fang'an], issued 
29 October 14.
    \62\ Ministry of Civil Affairs, Implementation Plan for 2014 
Central Government Financial Support for Social Organization 
Participation in Social Service Projects [2014 nian zhongyang caizheng 
zhichi shehui zuzhi canyu shehui fuwu xiangmu shishi fang'an], issued 
25 November 13, item 1; Ministry of Civil Affairs, Implementation Plan 
for 2013 Central Government Financial Support for Social Organization 
Participation in Social Service Projects [2013 nian zhongyang caizheng 
zhichi shehui zuzhi canyu shehui fuwu xiangmu shishi fang'an], issued 
13 December 12; State Civil Organization Administration, ``Project 
Announcement of Central Government Financial Support for Social 
Organization Participation in Social Service Projects'' [Zhongyang 
caizheng zhichi shehui zuzhi canyu shehui fuwu xiangmu lixiang 
gonggao], 20 April 12, reprinted in Hainan Province Social Organization 
Net, 27 September 12. The allocation was also 200 million yuan for 2012 
to 2014.
    \63\ Ministry of Finance, Ministry of Civil Affairs, and State 
Administration of Industry and Commerce, ``Government Service 
Procurement Management Measures (Interim)'' [Zhengfu goumai fuwu guanli 
banfa (zanxing)], issued 15 December 14, effective 1 January 15, art. 
14(2, 5).
    \64\ Ibid., art. 6.
    \65\ Wang Ming, ``Wang Ming: Government Procurement of Services 
Should Establish Social Accountability Mechanisms'' [Wang ming: zhengfu 
goumai fuwu ying jianli shehui wenze jizhi], China Charity Alliance, 6 
January 15.
    \66\ Xu Yongguang, ``Planned Economy Mentality Melts Away Space for 
Growth of Social Organizations'' [Jihua jingji siwei tunshi dalu shehui 
zuzhi shengzhang kongjian], Phoenix Weekly, 14 November 14.
    \67\ Li Guang, ``Government Should Slow Procurement of Public 
Services'' [Zhengfu goumai gonggong fuwu yi fanghuan], Phoenix Weekly, 
22 November 14.
    \68\ Ministry of Finance, Ministry of Civil Affairs, and State 
Administration of Industry and Commerce, Government Service Procurement 
Management Measures (Interim) [Zhengfu goumai fuwu guanli banfa 
(zanxing)], issued 15 December 14, effective 1 January 15, art. 14(2, 
5).
    \69\ Jude Howell, ``Shall We Dance? Welfarist Incorporation and the 
Politics of State-Labour NGO Relations in China,'' London School of 
Economics Research Online, November 2014, 19.
    \70\ Xiao Shu, ``It's Not Necessary To Oppose All Things Foreign in 
the Public Interest Sphere'' [Gongyi lingyu bubi fengyang bifan], 
Financial Times, 26 November 14; Song Zhibiao (Jiuwenpinglun), ``Draft 
Law on Overseas NGO Management: Indiscriminately Pounding Mentors to 
Death'' [Jingwai NGO fa an: luanquan dasi shifu], WeChat post, 9 May 
15.
    \71\ ``China's NGOs and Civil Society (One): Besieged and Surviving 
in the Crevice'' [Zhongguo de NGO yi gongmin shehui (yi) chongwei nanpo 
zai jiafeng zhong qiusheng], Radio Free Asia, 10 November 14; Jia Ping, 
``Jia Ping: A Chinese Example of Ineffective Control: Commentary on the 
Second Review Draft of the Draft Overseas NGO Management Law'' [Jia 
ping: wuxiao guanzhi de zhongguo yangben--``jingwai feizhengfu zuzhi 
guanli fa'' (cao'an dierci shenyi gao) pingshu], NGO Development 
Exchange Network (blog), 22 May 15; Wu Shan, ``Setting Laws and Limits 
on Overseas NGOs'' [Ligui jingwai NGO], Caijing, 25 May 15. According 
to Caijing, international funders spend several hundred million dollars 
in China each year working in more than 20 areas, including poverty 
aid, education, disability, and gender. See also Guo Hong, ``Guo Hong: 
More Important Than Funding: Overseas NGOs Bring Beliefs and Ideas'' 
[Guo hong: biqi zijin jingwai zuzhi dailai geng zhongyaode shi linian], 
NGO Development and Exchange Network (blog), 12 June 15. For example, 
in low-income areas in Daliangshan, Leibo county, Liangshan Yi 
Autonomous Preference, Sichuan province, overseas funding has been key 
in supporting poverty aid, harm reduction, and services for leprosy 
patients.
    \72\ Wang Yong, ``More Than 30,000 Social Organizations Throughout 
the Country Have Directly Registered'' [Quanguo zhijie dengji shehui 
zuzhi yi chao 3 wan], China Philanthropy Times, 18 March 15.
    \73\ ``Chinese Civil Society: Beneath the Glacier,'' Economist, 12 
April 14; Kristie Lu Stout, ``People Power in the People's Republic of 
China,'' CNN, 26 June 14. In 2014, the Economist estimated that there 
may be as many as 1.5 million unregistered groups while CNN reported an 
estimate by the Economist's Beijing Bureau Chief of close to 2 million. 
Li Fan, ``The Current State of Civil Society in China'' [Li fan: woguo 
gongmin shehui de xianzhuang], Tianze Economic Research Institute 
(Unirule), Biweekly Forum, 12 September 14. Li Fan, director of World 
and China Institute, a Chinese NGO research center, estimated that 
China may have up to 8 million unregistered social organizations, while 
Hu Xingdou, an economics professor at the Beijing Institute of 
Technology, and Xu Xin, a law professor at Beijing Institute of 
Technology, both questioned Li's estimate, saying that Li's definition 
of what constitutes an NGO was too broad. Shawn Shieh and Amanda Brown-
Inz, ``A Special Report: Mapping China's Public Interest NGOs,'' China 
Development Brief, 14 January 13. These estimates include groups such 
as quasi-governmental mass organizations, spun-off government units, 
business associations, recreational clubs, virtual groups, and rural 
mutual aid groups.
    \74\ Shawn Shieh and Amanda Brown-Inz, ``A Special Report: Mapping 
China's Public Interest NGOs,'' China Development Brief, 14 January 13, 
8.
    \75\ China Development Brief, ``NGO Directory,'' last visited 1 
June 15. See also Shawn Shieh and Amanda Brown-Inz, ``A Special Report: 
Mapping China's Public Interest NGOs,'' China Development Brief, 14 
January 13, 8; NGO2.0 and Chinese Public Interest Charity Research 
Center, Sun Yat-sen University, ``Civil Society Public Interest Group 
Database Analytical Report'' [Zhongguo minjian gongyi zuzhi jichu 
shujuku shuju fenxi baogao], April 2014. The criteria both directories 
employ to define NGOs are largely similar. The Civil Society Public 
Interest Group Database focused on voluntary, non-profit groups that 
are unaffiliated with the government, while the China Development Brief 
Directory focused on ``voluntary, private, non-profit and self-
governing'' groups.
    \76\ Deng Guosheng, ``Why Can't We See the Function of Grassroots 
NGOs? '' [Caogen zuzhi de zuoyong weishenme kanbujian?], China 
Philanthropy Advisors, 20 May 14.
    \77\ Brent Fulton, ``How Many NGOs Does China Really Have? '' China 
Source (blog), 7 July 14. The consultant cited reportedly defined ``a 
basic degree of scale'' for ``independently run'' organizations in 
terms of years of operation, staff size, and project implementation 
experience.
    \78\ Han Yan, ``China's Public Interest Sector: Five Bumpy Years'' 
[Zhongguo gongyi, gougou kankan zhe wu nian], Social Entrepreneur 
Institute, 16 December 14.
    \79\ ``Whither Institutional Reform for Social Organizations in 
Light of Three Government Initiatives? '' [San jian qi fa shehui zuzhi 
de zhidu gaige lu zai hefang?] NGO Development Exchange Network, 15 
July 15.
    \80\ ``Jiusan Society Provincial Party Committee Proposal at the 
Second Meeting of the 11th Guangdong Province People's Political 
Conference'' [She shengwei tijiao sheng zhengxie shiyi jie erci huiyi 
ti'an], Jiusan Society Guangdong Province Party Committee, 22 January 
14. The Jiusan Society, one of China's ``eight democratic parties'' 
under the umbrella of the Chinese People's Political Consultative 
Conference, submitted a proposal in 2014 to the Guangdong Political 
Consultative Conference noting that three sets of regulations currently 
constitute the legal framework for Chinese ``social organizations,'' 
but that actual practice has outpaced the regulations, and revisions 
are urgently needed.
    \81\ Ibid.
    \82\ Zhang Mulan and Zhang Xuetao, ``Voices About the Public 
Interest'' [Naxie gen gongyi youguan de shengyin], China Philanthropy 
Times, 12 March 15.
    \83\ Zhang Yuan, ``Formulate Social Organization Law To Break 
Through Development Bottleneck'' [Zhiding shehui zuzhi fa tupo fazhan 
pingjing], Legal Daily, 13 March 15.
    \84\ Han Xu, ``The Public Discusses Charity Law'' [Zhongyi cishan 
fa], Southern Metropolitan Public Interest, 6 February 15. See Yu Lu, 
``Where Did All the NGOs Go? Five Questions on the Legislative 
Consultation for the `Charity Law' '' [Minjian zuzhi qu nale? wuwen 
``cishan fa'' lifa zixun], NGO Development Exchange Network, 19 March 
15. Grassroots groups were as a rule not invited to closed-door 
meetings to discuss the Charity Law with the government, and were not 
privy to advance viewing of the draft law.
    \85\ ``Draft Charity Enterprises Law May Be Reviewed by Year-End; 
Will Specify Management and Use of Charity Assets and Disclosure 
Requirements'' [Cishan shiye fa cao'an niandi youwang shenyi: jiang 
zhuanzhang guiding cishan caichan guanli shiyong he xinxi gongkai], 
Beijing Times, 11 March 15. Civil society observers refer to the draft 
law as the Charity Law, while the Chinese Government refers to it as 
the ``Charity Enterprises Law.'' See, e.g., Yu Lu, ``Where Did All the 
NGOs Go? Five Questions on the Legislative Consultation for the 
`Charity Law' '' [Minjian zuzhi qu nale? wuwen ``cishan fa'' lifa 
zixun], NGO Development Exchange Network, 19 March 15.
    \86\ Bai Xin, ``Charity Law Legislation Should Not Just Be About 
Poverty and Disaster Aid'' [Cishan fa lifa buying zhishi fupin jikun], 
Sohu News, 17 March 15.
    \87\ Guangzhou Municipal People's Government, Guangzhou 
Municipality Measures for the Management of Social Organizations 
[Guangzhou shi shehui zuzhi guanli banfa], issued 30 October 14, 
effective 1 January 15.
    \88\ Chen Xueyang, ``From Pilots to Legislation: The Logic of 
China's Reform'' [Cong shidian dao lifa de zhongguo gaige luoji], 
Financial Times, 10 March 15.
    \89\ For Guangzhou's pilot status, see ``Special Edition on the 
Development of Social Organizations in China,'' China Philanthropy 
Times, 2013.
    \90\ Guangzhou Municipal People's Government, Guangzhou 
Municipality Measures for the Management of Social Organizations 
[Guangzhou shi shehui zuzhi guanli banfa], issued 30 October 14, 
effective 1 January 15, art. 42, item 3.
    \91\ Ibid., art. 52. Article 52 of the Guangzhou Measures does not 
specify from which entity or entities NGOs are required to get 
permission to hold activities.
    \92\ Ibid., art. 53.
    \93\ Li La, ``Guangzhou Definition of `Illegal Social Organization' 
May Change'' [Feifa shehui zuzhi dingyi huo shan'gai], Southern 
Metropolitan Daily, 6 November 14. The measures that went into effect 
on January 1, 2015, do not contain the provision in question.
    \94\ Chinese Human Rights Defenders, ``Silencing the Messenger: 
2014 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2015, 17.
    \95\ ``China's NGOs Face Hard Times'' [Duli NGO zai zhongguo zao 
handong], Voice of America, 11 March 15.
    \96\ National People's Congress Standing Committee, PRC 
Counterterrorism Law (Draft), [Zhongguo renmin gongheguo fan kongbu 
zhuyi fa (cao'an)], 3 November 14.
    \97\ National People's Congress Standing Committee, PRC Overseas 
Non-Governmental Organizations Management Law (Draft) (Second Reading 
Draft) [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi guanli fa 
(cao'an) (erci shenyi gao)], 5 May 15.
    \98\ National People's Congress Standing Committee, PRC 
Counterterrorism Law (Draft), [Zhongguo renmin gongheguo fan kongbu 
zhuyi fa (cao'an)], 3 November 14, art. 95.
    \99\ Ibid., chap. 3, art. 21.
    \100\ Human Rights Watch, ``China: Draft Counterterrorism Law a 
Recipe for Abuses: Major Overhaul Needed for Law To Conform with 
International Legal Obligations,'' 20 January 15.
    \101\ Donald Clarke, ``China's Draft Law on Overseas NGOs,'' China 
Law Prof (blog), 13 May 15. The word ``overseas'' includes Hong Kong. 
An Zijie, ``Hong Kong NGO Conference: Feedback on `Overseas Non-
Governmental Organizations Management Law (Draft)' (Second Reading 
Draft)'' [Xianggang NGO yantaohui: guanyu ``jingwai feizhengfu zuzhi 
guanli fa (cao'an)'' (erci shenyi gao) de yijian fankui], NGO 
Development Exchange Network, reprinted in China Development Brief, 25 
May 15. Hong Kong groups convened a conference on May 25, 2015, to 
discuss recommendations on revising the law.
    \102\ National People's Congress Standing Committee, PRC Overseas 
Non-Governmental Organizations Management Law (Draft) (Second Reading 
Draft) [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi guanli fa 
(cao'an) (erci shenyi gao)], 5 May 15, arts. 7, 11-12, 19-20. For an 
English translation, see China Development Brief, ``CDB English 
Translation of the Overseas NGO Management Law (Second Draft),'' 21 May 
15.
    \103\ Ibid., art. 5; Ibid.
    \104\ Ibid., art. 59; Ibid.
    \105\ Ibid., arts. 5, 6, 18, 59; Ibid.
    \106\ Ibid., art. 38; Ibid.
    \107\ Ibid., art. 26; Ibid.
    \108\ Ibid., art. 32; Ibid.
    \109\ Ibid., art. 35; Ibid.
    \110\ Ibid., art. 36-37; Ibid.
    \111\ Ibid., art. 24; Ibid.
    \112\ Ibid., art. 15; Ibid.
    \113\ Ibid., arts. 29, 37; Ibid.
    \114\ Ibid., art. 49; Ibid.
    \115\ Ibid., art. 50; Ibid.
    \116\ Human Rights in China, ``HRIC Law Note: Draft Law on Foreign 
NGOs Undermines Chinese Civil Society and China's International 
Engagement,'' 21 May 15; Human Rights Watch, ``Submission by Human 
Rights Watch to the National People's Congress Standing Committee on 
the Second Draft of the Foreign Non-Governmental Organizations 
Management Law,'' 1 June 15; Amnesty International, ``China: Submission 
to the NPC Standing Committee's Legislative Affairs Commission on the 
Second Draft Foreign Non-Governmental Organizations Management Law,'' 
June 2015, 3-4. These organizations noted China's obligation to ensure 
freedom of association under the Universal Declaration of Human Rights 
and the International Covenant on Civil and Political Rights. Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, art. 20(1); 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 22. See also UN Human Rights Council, Report of 
the Special Rapporteur on the Rights to Freedom of Peaceful Assembly 
and of Association, Maina Kiai, A/HRC/23/39, 24 April 13.
    \117\ Amnesty International, ``China: Submission to the NPC 
Standing Committee's Legislative Affairs Commission on the Second Draft 
Foreign Non-Governmental Organizations Management Law,'' June 2015, 3. 
Amnesty International notes that article 35 of the PRC Constitution 
guarantees that Chinese citizens ``enjoy freedom of speech, of the 
press, of assembly, of association, of procession and of 
demonstration.'' PRC Constitution, issued 4 December 82, amended 12 
April 88, 29 March 93, 15 March 99, 14 March 04, art. 35.
    \118\ Teng Biao, ``Review of Draft Overseas NGO Management Law and 
National Security Law'' [Ping jingwai feizhengfu zuzhi guanli fa he 
guojia anquan fa cao'an], Independent Chinese PEN Center, 30 June 15; 
Yao Yao, ``Yao Yao: Public Security Supervises, Overseas NGOs Stuck: On 
the Expulsion of Overseas NGOs Management Law (1)'' [Yao yao: gong'an 
jianguan jingwai zuzhi yanfu--ping quzhu jingwai feizhengfu zuzhi 
guanli fa (yi)], NGO Development Exchange Network, 18 May 15; Maya 
Wang, Human Rights Watch, ``China Tightens Screws on Civil Society,'' 
Dispatches (blog), 8 May 15; National People's Congress Standing 
Committee, PRC Overseas Non-Governmental Organizations Management Law 
(Draft) (Second Reading Draft) [Zhonghua renmin gongheguo jingwai 
feizhengfu zuzhi guanli fa (cao'an) (erci shenyi gao)], 5 May 15, art. 
7.
    \119\ Teng Biao, ``Review of Draft Overseas NGO Management Law and 
National Security Law'' [Ping jingwai feizhengfu zuzhi guanli fa he 
guojia anquan fa cao'an], Independent Chinese PEN Center, 30 June 15; 
Yao Yao, ``Yao Yao: Public Security Supervises, Overseas NGOs Stuck: On 
the Expulsion of Overseas NGOs Management Law (1)'' [Yao yao: gong'an 
jianguan jingwai zuzhi yanfu--ping quzhu jingwai feizhengfu zuzhi 
guanli fa (yi)], NGO Development Exchange Network, 18 May 15; Maya 
Wang, Human Rights Watch, ``China Tightens Screws on Civil Society,'' 
Dispatches (blog), 8 May 15.
    \120\ New Citizens Movement, ``Legal Proposal on Suspension of 
`Overseas Non-Governmental Organization Management Law' '' [Guanyu 
zanting zhiding ``jingwai feizhengfu zuzhi guanli fa'' de falu jianyi 
shu], 3 June 15; ``NGO Figure: Overseas NGO Management Law Is an 
Example of Ineffective Governance'' [NGO renshi: jingwai NGO guanli fa 
shi wuxiao guanzhi yangban], Voice of America, 4 June 15.
    \121\ Globalization Monitor, ``China Established Law To Limit 
Overseas Non-Governmental Groups'' [Zhongguo lifa xianzhi jingwai 
feizhengfu zuzhi], Independent Media HK, 9 June 15; @Luo Luo, ``Jia 
Xijin: Do Not Manage Overseas Non-Governmental Groups With a National 
Security Perspective'' [Jia xijin: wuyong guo'an siwei guanli jingwai 
zuzhi], NGO Development Exchange Network, 12 May 15; ``Special Issue: 
Intensifying Policy Controls on Overseas NGOs Described as Considerable 
Backslide'' [Zhuanti jiaqiang jiankong jingwai NGO zhengce beizhi 
dadaotui], Radio Free Asia, 20 May 15.
    \122\ Maya Wang, Human Rights Watch, ``China Tightens Screws on 
Civil Society,'' Dispatches (blog), 8 May 15.
    \123\ Human Rights in China, ``HRIC Law Note: Draft Law on Foreign 
NGOs Undermines Chinese Civil Society and China's International 
Engagement,'' 21 May 15; Elizabeth Lynch, ``A Slow Death? China's Draft 
Foreign NGO Management Law,'' China Law & Policy (blog), 10 May 15.
    \124\ Human Rights Watch, ``China: Scrap Repressive Foreign 
Organizations Law: Draft Law Would Severely Undermine Groups With Ties 
Abroad,'' 1 June 15; Song Zhibiao (Jiuwenpinglun), ``Draft Law on 
Overseas NGO Management: Indiscriminately Pounding Mentors to Death'' 
[Jingwai NGO fa an: luanquan dasi shifu], WeChat post, 9 May 15.
    \125\ Andrew Jacobs, ``Foreign Groups Fear China Oversight Plan,'' 
New York Times, 17 June 15.
    \126\ Ira Belkin and Jerome A. Cohen, ``Will China Close Its Doors? 
'' New York Times, 1 June 15; Donald Clarke, ``China's Draft Law on 
Overseas NGOs,'' Chinese Law Prof Blog, 13 May 15; Carl Minzner, Teng 
Biao, Isabel Hinton, and Zhou Dan, ``L'Eggo My NGO! A Draft Law 
Designed To Counter the Influence of Foreign Organizations May Choke 
Chinese Civil Society Instead,'' Foreign Policy, 19 May 15; Is Academic 
Freedom Threatened by China's Influence on U.S. Universities?, Hearing 
of the Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations, Committee on Foreign Affairs, U.S. House 
of Representatives, 25 June 15, Testimony of Jeffrey S. Lehman, Vice 
Chancellor, NYU Shanghai.
    \127\ Simon Denyer, ``Proposed Chinese Security Laws Rattle U.S. 
and European Businesses,'' Washington Post, 10 June 15.

                 Institutions of Democratic Governance


 Context for Governance: Political Power and Ideological Reach of the 
                            Communist Party

    In China's one-party, authoritarian political system,\1\ 
the Chinese Communist Party dominates the state and society.\2\ 
The Party continues to grow and is known to penetrate and exert 
its influence on politics and society at all levels through 
Party groups in governmental agencies \3\ and in a variety of 
organizations,\4\ including many businesses.\5\ International 
experts asserted that under Party General Secretary and 
President Xi Jinping, there is less separation of Party and 
government.\6\ During the Commission's 2015 reporting year, 
central Party authorities emphasized ``rectifying'' weak 
grassroots-level Party organizations \7\ and stressed the goal 
of further strengthening Party leadership over the government's 
administrative, judicial, legislative, and other 
institutions.\8\ Central Party leaders also expressed the 
intention to use the law as a tool to achieve those goals and 
impose the Party's will, saying: ``. . . the Party . . . acting 
within the scope of the Constitution and the law . . ., [will] 
be effective at making the Party's standpoints become the 
national will through statutory procedures, be effective at 
ensuring that the candidates recommended by Party organizations 
become leaders in State political bodies through statutory 
procedures, be effective at implementing Party leadership over 
the country and society through State political bodies, and be 
effective at utilizing democratic centralist principles to 
safeguard the authority of the center . . . .'' \9\ In 
addition, they stressed ``strengthen[ing] Party leadership over 
legislative work'' \10\ and maintaining the Party's role in 
coordinating ``all sides with people's congresses, governments, 
consultative conferences, trial bodies and prosecutorial bodies 
. . . .'' \11\
    During the reporting period, central Party leaders also 
further emphasized adherence to Party ideology. Party 
authorities, recalling the important role Party branches played 
during China's ``revolution, construction, and reform'' 
periods, stressed requirements to establish Party branches in 
all state-affiliated agencies and organizations, as well as in 
``economic, cultural, social, and other organizations'' in 
order ``to ensure the implementation of the Party's ideology, 
principles, and policy directions through these important 
channels.'' \12\ Party leaders particularly underscored the 
Party's leadership and control over, or the demand for, 
adherence to Party ideology by state-owned enterprises,\13\ 
universities,\14\ the military,\15\ the courts,\16\ the 
media,\17\ and think tanks.\18\ Authorities reportedly also 
encouraged programs for artists to uphold the ``correct view'' 
of art.\19\ In addition, articles documented a ``hardening'' of 
political discourse,\20\ a tightening of ideological 
control,\21\ and an emphasis on ``ideological security.'' \22\
    Reports described the Party's insistence on drawing clear 
distinctions between Chinese and Western ideology,\23\ norms 
and values,\24\ and notions of judicial independence.\25\ 
State-run media reportedly emphasized that China's ``governing 
in accord with the constitution'' is not the same as 
``constitutional democracy'' in Western nations.\26\ Reports 
also noted an upswing in demonizing the West \27\ and blaming 
overseas forces for China's domestic problems.\28\ The 
definition of national security in the new PRC National 
Security Law passed in July 2015 is very broad \29\ and 
includes ``political,'' ``economic,'' and ``international'' 
security, as well as ``cultural and social security.'' \30\ One 
Chinese security expert reportedly explained that to ensure 
``cultural security'' Chinese authorities needed to promote 
traditional Chinese culture while repelling other perspectives 
including some Western values incompatible with Chinese core 
values.\31\
    The Party made efforts to enforce prescribed ideological 
norms within academic and research circles, and repel Western 
ideals. These efforts included mandating quotas for student 
Internet propaganda workers and issuing directives to report on 
ideological trends among students.\32\ News reports noted 
attacks on academics and social commentators for voicing their 
opinions.\33\ An official internal document--``Document No. 
30''--reportedly called for a purge of ``Western-inspired 
liberal ideas'' from universities.\34\ There has been some 
pushback against the Party's efforts.\35\ Chinese lawyers, for 
example, inquired into the legal basis of the restrictions on 
teaching materials,\36\ and students, academics, and others 
raised questions about imposing ideological restrictions and 
launching attacks on Western ideology.\37\
    Central authorities provided more details about the 
government-controlled ``social credit'' system first introduced 
in 2014. Authorities intend the ``social credit'' scheme to be 
part of China's socialist market economic and ``social 
governance'' systems,\38\ to ``strengthen sincerity in 
government affairs,'' and to improve commercial and social 
``sincerity'' and ``judicial credibility.'' \39\ One journalist 
commented that by making information available to the public 
regarding legal compliance, the new system may be ``a proxy for 
an underdeveloped legal system.'' \40\ The ``social credit'' 
system will include a numerical index to evaluate individuals 
and organizations, including companies, on their financial 
standing, and social and moral behavior.\41\ It also will 
include an information database linked to citizen 
identification cards tracking citizens' financial data, 
criminal records, travel history, and perhaps even Internet 
purchases and online behavior.\42\ An international China 
expert asserted that this system is similar to one formerly 
employed by the East German government that was intended to 
prevent a revolt against the state, but ``the Chinese aim is 
far more ambitious: it is clearly an attempt to create a new 
citizen'' by ``incentivizing specific behaviors.'' \43\

Intensified Crackdown on Democracy Advocates, Free Speech, Association, 
                              and Assembly

    Under Chinese Communist Party General Secretary and 
President Xi Jinping, Party repression reportedly has 
intensified \44\ and the ongoing crackdown is stronger than 
``anything since the Mao era.'' \45\ Other reports assert that 
human rights abuses in China are ``the cruelest we have seen 
since 1989,'' \46\ that the ``persecution of human rights 
defenders in 2014 was as severe as it has been since the mid-
1990s,'' \47\ and that there has been a narrowing of tolerance 
for civic activism.\48\ Under Xi Jinping, there reportedly has 
been ``suppression of previously tolerated activities, topics, 
and individuals.'' \49\ A disturbing trend is Chinese 
authorities' increasing use of retaliation against individuals 
who plan to or have reached out to UN human rights bodies, 
including preventing citizens from traveling abroad to attend 
UN treaty body reviews of China by confiscating their passports 
and other means.\50\ Those individuals include Wang Qiuyun, a 
member of the Women's Network Against HIV/AIDS whom authorities 
prevented from attending a review of China before the Committee 
on the Elimination of Discrimination against Women,\51\ and 
Deng Chuanbin, who had planned to attend a human rights 
training session in Geneva, Switzerland, before authorities 
confiscated his passport.\52\
    Chinese authorities also continued to harass, detain, and 
impose prison sentences on democracy advocates who exercised 
their rights to freedom of speech, assembly, association, and 
demonstration, including individuals who advocated for 
democracy in Hong Kong.\53\ Representative cases of democracy 
advocates targeted by authorities are noted below:

        <bullet> Chen Shuqing. In September 2014, authorities 
        detained Chen on suspicion of ``inciting subversion of 
        state power'' for participating in activities 
        associated with the banned China Democracy Party.\54\
        <bullet> Zhao Haitong. In November 2014, authorities 
        sentenced Zhao to 14 years' imprisonment for ``inciting 
        subversion of state power'' for participating in 
        peaceful demonstrations and for advocating for 
        democratic reforms.\55\
        <bullet> Shen Yongping. In December 2014, authorities 
        sentenced Shen, a filmmaker, to one year's imprisonment 
        for ``illegal business activity'' for making available 
        online for free his documentary about historical 
        efforts to establish constitutional government in 
        China.\56\
        <bullet> Yao Lifa. In late 2014, authorities held Yao 
        in detention for over a month, possibly because he was 
        invited to provide assistance to an election candidate 
        in Shandong province, among other possible reasons.\57\

    Authorities persecuted individuals for participating in 
memorial events in remembrance of the victims of the violent 
suppression of the 1989 Tiananmen protests. During the lead-up 
to the 26th anniversary of the Tiananmen protests, authorities 
questioned, held in custody,\58\ criminally detained,\59\ sent 
on forced ``vacation,'' \60\ or harassed \61\ individuals and 
warned or pressured artists and historians not to document the 
lives of Tiananmen protesters.\62\ Authorities also pursued 
criminal cases against people detained prior to the 25th 
anniversary in 2014.\63\ Below are some representative cases of 
people affected by the ongoing crackdown.

        <bullet> Pu Zhiqiang. Authorities detained Pu on May 6, 
        2014, after he had attended a gathering in someone's 
        home during which participants discussed topics related 
        to the 1989 Tiananmen protests.\64\ Pu also made videos 
        of his interviews with officials under suspicion of 
        corruption who allege they had been tortured during 
        their detention.\65\ According to the May 2015 
        indictment, the charges against Pu were ``picking 
        quarrels and provoking trouble'' and ``inciting ethnic 
        hatred.'' Officials dropped two other charges.\66\
        <bullet> Tang Jingling. Authorities detained Tang in 
        May 2014 and later charged him with ``inciting 
        subversion of state power'' related to his role in a 
        ``June Fourth Meditation'' activity commemorating the 
        1989 Tiananmen protests through meditation.\67\ His 
        trial began on June 19, 2015, but ended after he 
        dismissed his attorneys to protest procedural 
        violations.\68\
        <bullet> Yu Shiwen and Chen Wei (husband and wife). 
        Authorities detained Yu and Chen in May 2014 after the 
        couple reportedly organized a memorial service in Henan 
        province in February 2014 that commemorated former 
        Party leaders Hu Yaobang and Zhao Ziyang and victims of 
        the crackdown on the 1989 Tiananmen protests.\69\ 
        Authorities later arrested them on the charge of 
        ``picking quarrels and provoking trouble.'' Officials 
        released Chen on bail in September 2014 but continued 
        to hold Yu.\70\
        <bullet> Chen Yunfei. Authorities detained Chen on 
        March 25, 2015, and formally arrested him on April 30 
        on the charges of ``inciting subversion of state 
        power'' and ``picking quarrels and provoking trouble'' 
        following his visit to the burial site of a 1989 
        Tiananmen democracy protest crackdown victim.\71\

Reform: Pledge To Expand ``Socialist Political Democratic Consultative 
                              Processes''

    During the reporting year, central Party authorities did 
not pledge to undertake any significant democratic political 
reforms.\72\ They did, however, pledge to improve and develop 
the existing ``socialist political democratic consultative 
system'' \73\ in order to strengthen Party leadership. Chinese 
officials describe China's political system as a ``socialist 
democracy'' with ``multi-party cooperation'' and ``political 
consultation'' under the leadership of the Communist Party.\74\ 
Previously, types of ``consultation'' have included: input 
(intraparty) on decisions about Party cadre appointments; input 
on development projects at grassroots levels; input on some 
draft laws; and discussions between Party representatives and 
the national Chinese People's Political Consultative Conference 
(CPPCC) and the eight ``democratic'' minor parties under the 
CPPCC umbrella.\75\
    In line with the pledge to improve China's ``socialist 
political democratic consultative system,'' in February 2015, 
authorities issued an opinion stipulating improvement of 
vaguely defined Party-led \76\ ``democratic consultation'' 
channels while ``using promotion of consultative democracy to 
improve and strengthen the Party's leadership and consolidate 
the Party's hold on power.'' \77\ The opinion emphasized 
allowing mass organizations \78\ to fully develop as Party 
conduits to the public,\79\ and stipulated strengthening 
consultation between the CPPCC and eight ``democratic'' minor 
parties and the judiciary and government.\80\ The opinion also 
called for gradual exploration of the involvement of ``social 
organizations''--non-governmental groups, professional 
associations, and non-profit groups able to register with the 
government \81\--in undefined consultation processes.\82\

       Reform: Party Promotes ``Administration According to Law''

    During the reporting period, central Party leaders 
emphasized government reforms promoting ``administration 
according to law'' \83\ and ``modernizing government and 
governing capacity'' \84\ in the Decision on Several Major 
Issues in Comprehensively Advancing Governance of the Country 
According to Law (Decision) passed at the Fourth Plenum of the 
18th National Congress of the Chinese Communist Party Central 
Committee in October 2014 (Fourth Plenum).\85\ The Fourth 
Plenum Decision emphasized components of ``administration 
according to law,'' such as strengthening legal enforcement; 
\86\ improving the organization of government and bolstering 
administrative procedure systems of law; \87\ and developing 
statutory procedures for incorporating public and expert 
participation, risk assessments, and collective discussion 
during certain administrative policy decisionmaking 
processes.\88\ The Decision also mandated improving 
administrative procedural transparency and tightening 
restraints on and supervision over the use of government 
administrative authority.\89\ In addition, it specified the 
establishment of top-down systems whereby government leaders 
would ``assume lifelong accountability for major policy 
decisions and a mechanism for tracking down and investigating 
those responsible for the decisionmaking'' even after they 
leave office.\90\

               Local Elections in China's One-Party State

    Chinese leaders continued to encourage some popular 
participation in elections at local levels, but China's 
political institutions remain out of compliance with 
international human rights standards. In China, elections are 
held at the very lowest administrative levels for rural village 
and urban community residents' committees.\91\ Elections for 
local people's congresses exist but take place only at the 
county level and below.\92\ The Chinese Communist Party employs 
both ``intraparty'' elections and selection processes at local 
and national levels,\93\ but use of the term ``intraparty 
democracy'' in recent years reportedly has reached a low point 
in the media discourse of Chinese leaders.\94\ There are no 
national-level elections for government officials.\95\ Chinese 
political institutions do not meet the standards defined in 
Article 25 of the International Covenant on Civil and Political 
Rights,\96\ which China has signed and declared an intention to 
ratify.\97\ Chinese political institutions also remain out of 
compliance with the standards set forth in Article 21 of the 
Universal Declaration of Human Rights, which stipulates that 
the ``will of the people'' should be ``expressed in periodic 
and genuine elections which shall be by universal and equal 
suffrage.'' \98\
    Chinese authorities claimed that, by the end of 2013, 98 
percent of villages directly elected their Party 
committees,\99\ but this figure does not reflect the quality of 
those elections, which in some cases may not be free or fair. 
During the reporting year, for example, Party authorities in a 
prefecture in the Tibet Autonomous Region discriminated against 
certain types of individuals through codified restrictions on 
village committee and Party committee election candidates.\100\ 
Prefectural authorities mandated that village committee 
candidates be members or soon-to-be members of the Communist 
Party and cannot have ``practiced evil religions'' or 
``attended overseas `religious gatherings' organized by the 
Fourteenth Dalai,'' among other restrictions.\101\ Other 
reports highlighted additional problems with local village 
committee elections, including interference from 
officials,\102\ gender inequality,\103\ irregular election 
procedures,\104\ failure to recognize election outcomes,\105\ 
silencing candidates whom Party authorities deem to be 
challenging,\106\ and physical violence.\107\

       Open Government Affairs and Citizen Access to Information

    Chinese authorities reiterated their intent to improve 
``open government affairs'' (proactive government transparency) 
and to aim for information disclosure as the norm.\108\ The 
Fourth Plenum Decision urged transparency, especially in 
government finances and budgets, distribution of public 
funding, approval and implementation of major construction 
projects, and public interest affairs.\109\ In November 2014, 
the State Council General Office issued an opinion calling on 
government agencies to improve their websites, strengthen 
public trust in the government, and make government websites 
the primary source of government information.\110\ In April 
2015, the State Council issued a decision calling on government 
agencies to make available to the public lists itemizing their 
administrative powers--including compulsory enforcement, 
administrative fines, and other related information--in an 
attempt to improve transparency, promote administrative reform, 
and restrain arbitrary authority.\111\
    Despite these policy and regulatory measures, transparency 
and access to government data is still lacking and government 
implementation of the 2008 Open Government Information 
Regulations \112\ remains problematic. A source noted that it 
is getting more difficult for Chinese scientists to obtain 
good-quality public data, most of which are held by government 
departments.\113\ The lack of regulatory transparency 
reportedly has contributed to the complexity of the environment 
for U.S. businesses in China.\114\ In August 2015, authorities 
called on the media to use only approved story lines, tried to 
censor news reports, and blocked journalists from reporting on 
the August 12 chemical fire and explosions in Tianjin 
municipality that reportedly caused the death of 173 
people.\115\ Before and after restrictions took effect and 
government agencies issued statements, however, social media 
and mainstream media reported on the disaster.\116\

                               Corruption

    Widespread corruption continued to be a serious challenge 
facing China, alarming both Chinese leaders and members of the 
international community.\117\ News sources reported on 
corruption related to the procurement of government and 
military equipment and services,\118\ as well as corruption in 
the media,\119\ sports,\120\ art,\121\ and intelligence and 
security \122\ sectors. News reports also highlighted serious 
problems with the buying and selling of official positions 
\123\ and collusion between business and government 
officials.\124\

                      SNARING ``TIGERS AND FLIES''

    During the reporting year, Chinese leaders' wide-reaching 
anticorruption campaign continued snaring so-called ``flies'' 
and ``tigers,'' \125\ including high-level officials in the 
government,\126\ people's congresses,\127\ the Chinese People's 
Political Consultative Conference,\128\ the military,\129\ 
state-owned enterprises,\130\ the media,\131\ the Party's 
discipline inspection apparatus,\132\ and the state security 
apparatus.\133\ According to Xinhua, the Supreme People's 
Procuratorate's corruption probe data indicated that in 2014, 
procuratorates investigated a total of 55,101 people in 41,487 
cases of violations related to their official jobs, an increase 
of 7.4 percent over the previous year.\134\
    The highest ranking official snared in the anticorruption 
campaign was Zhou Yongkang, a former member of the Standing 
Committee of the Political Bureau of the Communist Party 
Central Committee and head of the Party Central Committee 
Political and Legal Affairs Commission.\135\ On June 11, 2015, 
the Tianjin No. 1 Intermediate People's Court sentenced Zhou to 
life imprisonment and loss of political rights for life, and 
confiscated his personal assets for the crimes of accepting 
bribes, abuse of power, and intentionally leaking state 
secrets, following a closed trial that began on May 22.\136\ 
Other high-level officials suspected of corruption included Xu 
Caihou \137\ and Guo Boxiong, both former vice chairmen of the 
Central Military Commission,\138\ and Ling Jihua, a key aide to 
former Party General Secretary and President Hu Jintao.\139\

                        ANTICORRUPTION MEASURES

    The anticorruption campaign in China continued, but 
authorities persisted in punishing citizen anticorruption 
advocacy efforts. The Fourth Plenum Decision called for 
``acceleration'' of anticorruption legislation.\140\ 
Authorities reportedly announced that the anticorruption drive 
would become more ``targeted and focused,'' \141\ while other 
sources indicated authorities would focus on political factions 
and organized corruption within the Party.\142\ Anticorruption 
authorities reportedly called for more public participation in 
the campaign against corruption but emphasized that the 
campaign would not lead to ``mass movements'' that disrupt 
social stability.\143\ At the same time, anticorruption 
advocates Ding Jiaxi,\144\ Liu Ping,\145\ and Huang Wenxun 
\146\ remained imprisoned.
    The anticorruption campaign also included several specific 
Party and governmental anticorruption measures and 
institutional changes. The Supreme People's Procuratorate (SPP) 
set up Party discipline inspection offices inside all of the 
approximately 140 central Party and government agencies as well 
as central legislative and consultative bodies.\147\ Central 
authorities also overhauled the anticorruption bureau under the 
SPP, elevating its status, and renaming it the General Office 
of Anticorruption.\148\ In addition, authorities instituted a 
national real estate registry \149\ and stepped up efforts to 
locate and bring to justice Chinese nationals living overseas 
who are corruption suspects.\150\ To ensure smooth development 
of corruption informant tip procedures, the SPP issued a 
revised version of the SPP Informant Tip Work Provisions.\151\ 
These rules further clarified the rights of informants,\152\ 
increased reward amounts for informants,\153\ and toughened 
legal liabilities for individuals who threaten 
whistleblowers.\154\
    Despite the seriousness of anticorruption efforts at the 
central level, preventing corruption remains challenging,\155\ 
and reports highlighting the darker sides of the anticorruption 
drive continued to surface. One article noted President Xi 
Jinping's vulnerability to claims that political motives may be 
driving decisions about corruption investigation targets.\156\ 
Other articles raised ongoing accounts of torture \157\ and 
abnormal deaths of officials,\158\ including alleged 
``suicides.'' \159\ One Chinese news article reported that 
government institutions were ordered to collect data on 
officials who died ``unnatural'' deaths and noted that, based 
on a survey of news articles, an estimated 50 Party officials 
died unnatural deaths between November 2012 and December 
2014.\160\ An opinion piece in China Daily reported an increase 
in the occurrence of suicides by officials over the last few 
years, approximately 30 percent of which have been linked to 
corruption investigations.\161\
    Notes to Section III--Institutions of Democratic Governance

    \1\ Jidong Chen et al., ``Sources of Authoritarian Responsiveness: 
A Field Experiment in China,'' American Journal of Political Science 
(forthcoming), reprinted in Social Science Research Network, last 
visited 28 April 15; Jin Kai, ``No, China Isn't `Fascist': Once Again, 
Western Media Misunderstands China's Political System,'' The Diplomat, 
5 March 15.
    \2\ Susan V. Lawrence and Michael F. Martin, Congressional Research 
Service, ``Understanding China's Political System,'' 20 March 13, 
summary.
    \3\ Ibid., 3-4; ``Chinese Communist Party Has 87,793,000 Party 
Members and 4,360,000 Grassroots Organizations'' [Zhongguo gongchandang 
you dangyuan 8779.3 wan ming jiceng dang zuzhi 436.0 wan ge], Xinhua, 
29 June 15. By the end of 2014, there were reportedly 7,565 urban 
neighborhood Communist Party organizations, 32,753 township 
organizations, 92,581 community (residential) committees, and 577,273 
village committees. In addition, by the end of 2014, the Party 
reportedly had over 87.7 million party members in total, compared with 
over 77.9 million at the end of 2009. For the 2009 figure, see Gao Lei, 
``At the End of 2009 Total Number of Party Members Throughout the 
Country Reaches 77,995,000'' [Jiezhi 2009 niandi quanguo dangyuan 
zongshu da 7799.5 wan ming], Chinese Communist Party Information Net, 
28 June 10. Party branches are within public institutions (including 
hospitals, schools, and research institutes) as well as within 
government departments.
    \4\ ``Chinese Communist Party Has 87,793,000 Party Members and 
4,360,000 Grassroots Organizations'' [Zhongguo gongchandang you 
dangyuan 8779.3 wan ming jiceng dang zuzhi 436.0 wan ge], Xinhua, 29 
June 15. By the end of 2014, there were Party organizations in 184,000 
``social organizations'' (shehui zuzhi), covering about 41.9 percent of 
all ``social organizations.''
    \5\ Ibid. By the end of 2014, there were reportedly 194,900 
publicly-owned enterprises and over 1,579,000 private enterprises with 
Party organizations, amounting to over 91 percent and 53 percent of 
such enterprises, respectively.
    \6\ Christopher K. Johnson and Scott Kennedy, ``China's Un-
Separation of Powers: The Blurred Lines of Party and Government,'' 
Foreign Affairs, 24 July 15.
    \7\ Sheng Ruowei, ``More Than 60,000 Weak and Lax Grassroots Party 
Organizations Rectified'' [Liuwan duo ge ruanruo huansan jiceng dang 
zuzhi bei zhengdun], People's Daily, 31 May 14.
    \8\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, items 
1(8), 2(2). See also Chinese Communist Party Central Committee, ``CCP 
Central Committee Decision Concerning Some Major Questions in 
Comprehensively Moving Governing the Country According to the Law 
Forward,'' translated in China Copyright and Media (blog), 28 October 
14, item 2(2).
    \9\ Ibid., item 1(8); Ibid., item 1(8).
    \10\ Ibid., item 2(2); Ibid., item 2(2).
    \11\ Ibid., item 1(8); Ibid., item 1(8).
    \12\ ``Xi Jinping Convenes Chinese Communist Party Politburo 
Meeting, Deliberates `Chinese Communist Party Party Organization Work 
Regulations (Provisional)' '' [Xi jinping zhuchi zhongyang zhengzhiju 
huiyi shenyi ``zhongguo gongchandang dangzu gongzuo tiaoli 
(shixing)''], Xinhua, 29 May 15.
    \13\ ``Xi Jinping: Deepen Reforms and Vigorously Expand 
Consolidated Achievements, Continue To Thoroughly Struggle Against 
Corruption'' [Xi jinping: shenhua gaige gonggu chengguo jiji tuozhan 
buduan ba fan fubai douzheng yin xiang shenru], Xinhua, 13 January 15; 
Li Tao, ``Xi Stresses CPC's Leadership, Supervision Over SOEs,'' 
Xinhua, 13 January 15; ``China Tightens Communist Party Leadership at 
State Firms,'' Reuters, reprinted in New York Times, 5 June 15.
    \14\ Chinese Communist Party Central Committee General Office and 
State Council General Office, Opinions Concerning Further Strengthening 
and Improving Propaganda and Ideology Work in Higher Education Under 
New Circumstances [Guanyu jinyibu jiaqiang he gaijin xin xingshi xia 
gaoxiao xuanchuan sixiang gongzuo de yijian], reprinted in Xinhua, 19 
January 15. See also ``Opinions Concerning Further Strengthening and 
Improving Propaganda and Ideology Work in Higher Education Under New 
Circumstances,'' translated in China Copyright and Media (blog), 16 
February 15; ``Central Organization Department and Ministry of 
Education Responsible Persons Answer Questions About `College 
Presidents Responsibility System' '' [Zhongzubu, jiaoyubu fuzeren jiu 
``xiaozhang fuze zhi'' da jizhe wen], Caixin, 16 October 14.
    \15\ Minnie Chan, ``Communist Party `Controls the Gun,' PLA Top 
Brass Reminded,'' South China Morning Post, 5 November 14; ``Party 
Media Analyzes `New Gutian Meeting,' Releases Signal: Show Your Colors 
and Oppose Nationalization of the Military'' [Dang mei jiedu ``xin 
gutian huiyi'' shifang xinhao: qizhi xianming fandui jundui guojiahua], 
The Paper, 2 November 14.
    \16\ Chris Buckley, ``China Is Said To Be Doing Away With Goals for 
Arrests and Convictions,'' New York Times, 21 January 15.
    \17\ ``China's Xi Urges Young, New Media Workers To Lead 
Rejuvenation of Nation,'' Reuters, 21 May 15; Bob Dietz, Committee to 
Protect Journalists, ``In China, Mainstream Media as Well as Dissidents 
Under Increasing Pressure,'' 17 December 14; ``Central United Front 
First-Ever Training for New Media Professionals, Including Chen Tong, 
Zhang Yiming, Deng Fei, and Others'' [Zhongyang tongzhanbu shou du 
lunxun xin meiti congye renyuan, chen tong zhang yiming deng fei deng 
zai lie] The Paper, 19 May 15.
    \18\ ``CCP General Office and State Council General Office Opinions 
Concerning Strengthening the Construction of New Types of Think Tanks 
With Chinese Characteristics,'' translated in China Copyright and Media 
(blog), 21 January 15. China Copyright and Media's translation is an 
unofficial translation. ``China To Instill National Characteristics in 
Think Tanks,'' Xinhua, 20 January 15.
    \19\ ``China To Send Artists To Live in Grassroots Communities,'' 
Xinhua, 1 December 14.
    \20\ Qian Gang, ``Reading Chinese Politics in 2014,'' China Media 
Project, 30 December 14.
    \21\ ``China's Xi Calls for Tighter Ideological Control in 
Universities,'' Reuters, 29 December 14; ``Analysts Say Chinese 
Politics Will Continue To Turn Left in 2015'' [Fenxi renshi 2015 nian 
zhongguo zhengzhi jixu zuo zhuan], Voice of America, 1 March 15; 
``Chinese Authorities Blocked History Websites, Chinese Communist Party 
Strengthens Ideological Control'' [Zhongguo dangju feng lishi wangzhan 
zhonggong jiaqiang yishi xingtai kongzhi], Radio Free Asia, 16 February 
15.
    \22\ Simon Tisdall, ``Chinese Repression of Dissent Intensifies 
Under Ruthless Xi Jinping,'' Guardian, 30 December 14.
    \23\ Peter Ford, ``China Targets `Hostile Foreign Forces' in 
Crescendo of Accusations,'' Christian Science Monitor, 9 November 14.
    \24\ Cao Siqi, ``Cultural Security Stressed in Law,'' Global Times, 
21 April 15; Chinese Communist Party Central Committee General Office 
and State Council General Office, Opinion on Strengthening Construction 
of a Public Security Prevention and Control System [Guanyu jiaqiang 
shehui zhi'an fangkong tixi jianshe de yijian], reprinted in Xinhua, 
issued 13 April 15, para. 15.
    \25\ Liu Ruifu, ``Fundamental Differences Between Our Nation's 
Independent and Just Judiciary and Western Nations' `Judicial 
Independence' '' [Woguo duli gongzheng sifa yu xifang guojia ``sifa 
duli'' de genben qubie], Seeking Truth, 25 December 14.
    \26\ ``Authoritative Interview: China's `Govern According to the 
Constitution' Is Not Western `Constitutional Democracy' '' [Quanwei 
fangtan: zhongguo de ``yi xian zhizheng'' bushi xifang de ``xianzheng 
minzhu''], CCTV, 5 November 14; Qian Gang, ``Reading Chinese Politics 
in 2014,'' China Media Project, 30 December 14.
    \27\ David Bandurski, ``The `Cancer' of All Things Western,'' China 
Media Project, 24 March 15; Christopher Bodeen, ``China State Media 
Seen Stepping-Up Anti-Western Rhetoric,'' Associated Press, reprinted 
in Yahoo! News, 2 March 15; Sui-Lee Wee, ``China's Top Court Says No to 
West's Model of Judicial Independence,'' Reuters, 26 February 15.
    \28\ Peter Ford, ``China Targets `Hostile Foreign Forces' in 
Crescendo of Accusations,'' Christian Science Monitor, 9 November 14.
    \29\ ``UN Rights Chief Concerned by `Broad Scope' of China's New 
Security Law,'' UN News Centre, 7 July 15.
    \30\ PRC National Security Law [Zhonghua renmin gongheguo guojia 
anquan fa], passed and effective 1 July 15, art. 3.
    \31\ Cao Siqi, ``Cultural Security Stressed in Law,'' Global Times, 
21 April 15.
    \32\ ``Quotas for University Youth League Propaganda Work,'' China 
Digital Times, 5 February 15.
    \33\ Chris Buckley and Andrew Jacobs, ``Maoists in China, Given New 
Life, Attack Dissent,'' New York Times, 4 January 15; Megha 
Rajagopalan, ``Chinese Academic Bemoans `Narrow-Minded . . . 
Repressive' Attacks,'' Reuters, reprinted in New York Times, 26 January 
15.
    \34\ Chris Buckley and Andrew Jacobs, ``Maoists in China, Given New 
Life, Attack Dissent,'' New York Times, 4 January 15.
    \35\ Joanna Chiu, ``Students in China Rail Against Government 
Restrictions,'' Deutsche Presse-Agentur, 23 February 15; Megha 
Rajagopalan, ``Chinese Academic Bemoans `Narrow-Minded . . . 
Repressive' Attacks,'' Reuters, reprinted in New York Times, 26 January 
15.
    \36\ ``Nine Lawyers File FOIA Request Demanding Legal Basis for 
Banning the Spread of Western Value Systems in China's Universities,'' 
Fei Chang Dao (blog), 22 February 15.
    \37\ Joanna Chiu, ``Students in China Rail Against Government 
Restrictions,'' Deutsche Presse-Agentur, 23 February 15; Dan Levin, 
``China Tells Schools To Suppress Western Ideas, With One Big 
Exception,'' New York Times, 9 February 15; Liang Pan, ``Signs of 
Resistance to China's Latest Ideological Crackdown,'' Foreign Policy, 3 
March 15.
    \38\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], reprinted in PRC Central People's Government, 27 
June 14, para. 1; State Council, ``Planning Outline for the 
Construction of a Social Credit System (2014-2020),'' translated in 
China Copyright and Media (blog), 25 April 15, para. 1.
    \39\ Ibid., para. 3; Ibid., para. 3.
    \40\ Sara Hsu, ``China's New Social Credit System,'' The Diplomat, 
10 May 15.
    \41\ Michelle FlorCruz, ``China To Use Big Data To Rate Citizens in 
New `Social Credit System,' '' International Business Times, 28 April 
15; Sara Hsu, ``China's New Social Credit System,'' The Diplomat, 10 
May 15.
    \42\ `` `21 Articles for Maintaining Stability' Promote Information 
`Single Card,' Triggering Polarized Commentary'' [``Weiwen 21 tiao'' 
tui xinxi ``yikatong'' yinfa liangji pinglun], Radio Free Asia, 15 
April 15; Chinese Communist Party Central Committee General Office and 
State Council General Office, Opinion on Strengthening Construction of 
a Public Security Prevention and Control System [Guanyu jiaqiang shehui 
zhi'an fangkong tixi jianshe de yijian], reprinted in Xinhua, issued 13 
April 15, para. 15; Sara Hsu, ``China's New Social Credit System,'' The 
Diplomat, 10 May 15.
    \43\ Michelle FlorCruz, ``China To Use Big Data To Rate Citizens in 
New `Social Credit System,' '' International Business Times, 28 April 
15.
    \44\ Sarah Cook, Freedom House, ``The Politburo's Predicament: 
Confronting the Limitations of Chinese Communist Party Repression,'' 
January 2015, 3.
    \45\ ``Tighter Online Controls in China Point to Wider Clampdown,'' 
Associated Press, reprinted in New York Times, 16 February 15.
    \46\ ``Human Rights Abuses in China `At Worst Since 1989': 
Report,'' Radio Free Asia, 16 February 15.
    \47\ Chinese Human Rights Defenders, ``Silencing the Messenger: 
2014 Annual Report on the Situation of Human Rights Defenders in 
China,'' 15 March 15, 1.
    \48\ Josh Chin, ``China Cracks Down on Foreign Nonprofits,'' Wall 
Street Journal, 6 March 15.
    \49\ Sarah Cook, ``The Risks of Expanding Repression in China,'' 
The Diplomat, 8 April 15.
    \50\ Chinese Human Rights Defenders, ``Silencing the Messenger: 
2014 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2015, 1, 4, 24-25.
    \51\ Jess Macy Yu, ``Chinese AIDS Activist Says She Was Kept From 
U.N. Conference,'' New York Times, Sinosphere (blog), 23 October 14.
    \52\ Rights Defense Network, ``Sichuan's Deng Chuanbin, Because of 
Participating in International Rights Organization's Rights Knowledge 
Training, Illegally Summoned, Passport, HK-Macau Travel Permit, 
Communications Equipment Confiscated'' [Sichuan deng chuanbin yin 
canjia guoji renquan jigou zhuban de renquan zhishi peixun zao feifa 
chuanhuan huzhao, gang ao tongxingzheng, tongxun shebei bei kou], 8 
June 15.
    \53\ Chinese Human Rights Defenders, ``Individuals Detained in 
Mainland China for Supporting Hong Kong Pro-Democracy Protests,'' 9 
July 15.
    \54\ Chinese Human Rights Defenders, ``[CHRB] Torture & Ill-
Treatment of Detainees & Political Charges Returning Under Xi (1/8-15/
2015),'' 15 January 15; Rights Defense Network, `` `Subversion of State 
Power Case' of Zhejiang China Democracy Party Members Lu Gengsong, Chen 
Shuqing, Trial To Begin July 23, 2015'' [Zhejiang minzhudang ren lu 
gengsong, chen shuqing ``dianfu zhengquan an,'' jiang yu 2015 nian 7 
yue 23 ri kaiting], 18 July 15. Authorities reportedly were to hold 
Chen's trial on July 23, 2015, though authorities sent the case to 
court in February. For more information on Chen Shuqing, see the 
Commission's Political Prisoner Database record 2006-00509.
    \55\ Rights Defense Network, ``Zhao Haitong Sentenced to 14 Years 
for Inciting Subversion of State Power'' [Zhao haitong bei yi shandong 
dianfu guojia zhengquan zui panxing shisi nian], 7 November 14; ``Zhao 
Haitong Arrested for Inciting Subversion of State Power'' [Zhao haitong 
she shandong dianfu guojia bei bu], Radio Free Asia, 4 November 13. For 
more information about Zhao's background and case, see ``Activist Zhao 
Haitong'' [Xingzhe zhao haitong], Boxun, 10 November 13; Rights Defense 
Network, ``Xinjiang Democracy and Rights Activist Zhao Haitong Indicted 
on Suspicion of `Inciting Subversion of State Power' '' [Xinjiang 
minzhu weiquan renshi zhao haitong bei yi shexian ``shandong dianfu 
guojia zhengquan zui'' qisu], 22 June 14. For more information on Zhao 
Haitong, see the Commission's Political Prisoner Database record 2014-
00400.
    \56\ Edward Wong, ``Prison Sentence for Maker of Documentary on 
Chinese Constitutional Rule,'' New York Times, Sinosphere (blog), 30 
December 14. For more information on Shen Yongping, see the 
Commission's Political Prisoner Database record 2014-00389.
    \57\ Rights Defense Network, ``Hubei Election Expert Yao Lifa 
Returns Home After Being Taken Away and Detained for Over a Month'' 
[Hubei xuanju zhuanjia yao lifa bei daizou kongzhi yi ge yu yue hou 
fanjia], 18 November 14. For more information on Yao Lifa, see the 
Commission's Political Prisoner Database record 2011-00532.
    \58\ ``Chinese Police Jail Activists for `Troublemaking' Over June 
4 Anniversary,'' Radio Free Asia, 5 June 15; ``China Holds Activist Who 
Posted Umbrella Selfie on Tiananmen Square on June 4,'' Radio Free 
Asia, 9 June 15; ``More Than 10 Guangxi Human Rights Activists on a 
Hunger Strike in Remembrance of `June 4,' Continue To Be Summoned'' 
[Guangxi shi duo wei renquan huodong zhe jueshi jinian ``liu si'' bei 
chuanhuan xu], Boxun, 5 June 15; ``Guo Chunping Sent Back for `June 4' 
Post Online, Su Changlan Asked To Write `Repentance Letter' in Prison'' 
[Guo chunping yin fa ``liu si'' wang tie bei qianfan su changlan yu 
zhong bei yaoqiu xie ``huiguo shu''], Radio Free Asia, 26 May 15; 
``China Detains Dissidents, Rights Activists Ahead of June 4 
Anniversary,'' Radio Free Asia, 2 June 15; ``During 26th Anniversary of 
June 4, Many Rights and Democracy Figures in Guizhou and Zhejiang in 
Soft Detention or Forced To Travel'' [Liu si 26 zhounian qijian guizhou 
zhejiang duo ming renquan ji minzhu renshi zao ruanjin huo bei luyou], 
Radio Free Asia, 8 June 15.
    \59\ ``China Formally Detains Sichuan Activist for `Subversion' 
After Tiananmen Memorial Visit,'' Radio Free Asia, 7 April 15; Rights 
Defense Network, ``Sichuan Rights Defender Pei Li (Cheng Wanyun or 
Cheng Aihua) Criminally Detained for Wearing Black To Commemorate June 
4'' [Sichuan renquan hanweizhe pei li (cheng wanyun huo cheng aihua) 
chuan hei yi jinian liu si zao xingju], 13 June 15.
    \60\ ``China Detains Dissidents, Rights Activists Ahead of June 4 
Anniversary,'' Radio Free Asia, 2 June 15; ``During 26th Anniversary of 
June 4, Many Rights and Democracy Figures in Guizhou and Zhejiang in 
Soft Detention or Forced To Travel'' [Liu si 26 zhounian qijian guizhou 
zhejiang duo ming renquan ji minzhu renshi zao ruanjin huo bei luyou], 
Radio Free Asia, 8 June 15.
    \61\ Jack Chang and Isolda Morillo, ``Secret Historians Preserve 
Past in China Amid State Amnesia,'' Associated Press, 11 March 15; 
``Several Autumn Rain Blessing Church Members Questioned on June 4, 
Wang Debang Harassed'' [Qiu yu zhi fu jiaohui duo ren liu si bei 
chuanhuan wang debang zao saorao], Boxun, 5 June 15.
    \62\ ``Chinese Artist `Warned Off' 1989 Tiananmen Activist Photo 
Project,'' Radio Free Asia, 6 May 15; Jack Chang and Isolda Morillo, 
``Secret Historians Preserve Past in China Amid State Amnesia,'' 
Associated Press, 11 March 15.
    \63\ Chinese Human Rights Defenders, ``[CHRB] End Persecution of 
Participants in 1989 Pro-Democracy Movement for Their Ongoing 
Activism,'' 3 June 15.
    \64\ ``Pu Zhiqiang Arrested on Suspicion of Picking Quarrels and 
Provoking Trouble, Illegally Obtaining Citizen Information'' [Pu 
zhiqiang shexian xunxin zishi, feifa huoqu gongmin xinxi zui bei 
daibu], China News Service, 13 June 14; ``Families `Shocked' Over 
Subversion Charge for Chinese Rights Lawyers,'' Radio Free Asia, 23 
June 14. For more information on Pu Zhiqiang, see the Commission's 
Political Prisoner Database record 2014-00174.
    \65\ ``Pu's Video Workshop Exposed Party Abuses,'' Pu Zhiqiang, The 
Lawyer, 22 August 14.
    \66\ Verna Yu, ``Chinese Human Rights Lawyer Pu Zhiqiang Indicted 
for `Inciting Ethnic Hatred,' Faces Up to 8 Years' Jail,'' South China 
Morning Post, 15 May 15; Chris Buckley, ``Chinese Rights Lawyer 
Detained in 2014 Will Stand Trial,'' New York Times, 15 May 15; Rights 
Defense Network, ``Pu Zhiqiang Indictment'' [Pu zhiqiang qisushu], 20 
May 15.
    \67\ ``In Tang Jingling Case, Second Instance Supplemental 
Investigation Situation Unclear, Lawyer for Guo Feixiong Plans To Sue 
Tianhe Court'' [Tang jingling an erci tui zhen qingkuang bu minglang, 
guo feixiong lushi ni konggao tianhe fayuan], Radio Free Asia, 17 March 
15; ``Subversion, Public Order Cases of Tiananmen Anniversary Activists 
Move Closer to Trial,'' Radio Free Asia, 23 April 15. For more 
information on Tang Jingling, see the Commission's Political Prisoner 
Database record 2011-00255.
    \68\ Didi Tang, ``Trial of Chinese Activists Halted After They 
Dismiss Lawyers,'' Associated Press, reprinted in Washington Post, 19 
June 15.
    \69\ ``Prominent 1989ers Voice Support for Yu Shiwen, Detained for 
Commemorating the Tiananmen Movement,'' China Change, 12 January 15. 
For more information, see the Commission's Political Prisoner Database 
records 2014-00192 on Yu Shiwen and 2014-00191 on Chen Wei.
    \70\ Rights Defense Network, ``Zhengzhou's Yu Shiwen `Picking 
Quarrels and Provoking Trouble' Case Has Been Transferred to the Court 
for a Month, Judge Has Not Given the Lawyers Any Documents'' [Zhengzhou 
yu shiwen ``xunxin zishi'' an yisong fayuan yi ge yue, faguan hai bu 
gei lushi yuejuan], 19 March 15; Rights Defense Network, ``Zhengzhou 
Case News Flash: This Morning Chen Wei, Ji Laisong, and Fang Yan Were 
Released!'' [Zhengzhou an kuaixun: jinzao chen wei, ji laisong, fang 
yan huoshi!], 2 September 14. For more information on Yu Shiwen and 
Chen Wei, see the Commission's Political Prisoner Database records 
2014-00192 and 2014-00191, respectively.
    \71\ Chinese Human Rights Defenders, ``[CHRB] `Inciting Subversion' 
Cases Move Forward; Pu Zhiqiang Still in Legal Limbo (4/23-5/7/15),'' 7 
May 15; ``China Formally Detains Sichuan Activist for `Subversion' 
After Tiananmen Memorial Visit,'' Radio Free Asia, 7 April 15; Rights 
Defense Network, ``News Flash: Authorities Implement Arrest of Mr. Chen 
Yunfei on Two Crimes of `Inciting Subversion' and `Picking Quarrels and 
Provoking Trouble' '' [Kuaixun: chen yunfei xiansheng bei yi dangju yi 
``shandong dianfu zui'', ``xunxin zishi zui'' liang zui ming zhixing 
daibu], 3 May 15. For more information on Chen Yunfei, see the 
Commission's Political Prisoner Database record 2010-00014.
    \72\ Qian Gang, ``Reading Chinese Politics in 2014,'' China Media 
Project, 30 December 14.
    \73\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, item 
2(4). See also Chinese Communist Party Central Committee, ``CCP Central 
Committee Decision Concerning Some Major Questions in Comprehensively 
Moving Governing the Country According to the Law Forward,'' translated 
in China Copyright and Media (blog), 28 October 14, item 2(4).
    \74\ State Council Information Office, ``White Paper on China's 
Political Party System'' [Zhongguo de zhengdang zhidu baipishu], China 
Internet Information Center, 15 November 07, preface.
    \75\ David Shambaugh, ``Let a Thousand Democracies Bloom,'' 
International Herald Tribune, reprinted in Brookings Institution, 6 
July 07.
    \76\ Chinese Communist Party Central Committee, Opinion on 
Strengthening Construction of Socialist Consultative Democracy [Guanyu 
jiaqiang shehui zhuyi xieshang minzhu jianshe de yijian], reprinted in 
Xinhua, issued 9 February 15, para. 4.
    \77\ Ibid., para. 24.
    \78\ Embassy of the People's Republic of China in the Federal 
Democratic Republic of Nepal, ``Major Mass Organizations,'' 27 October 
04. Mass organizations are described by the Chinese government as ``a 
bridge linking the CPC [Communist Party of China] and government with 
the people. They are [an] important social support for State power, 
playing a vital role in socialist democratic life.'' Anthony J. Spires, 
``Contingent Symbiosis and Civil Society in an Authoritarian State: 
Understanding the Survival of China's Grassroots NGOs,'' American 
Journal of Sociology, Vol. 117, No. 1 (July 2011), 9.
    \79\ Chinese Communist Party Central Committee, Opinion on 
Strengthening Construction of Socialist Consultative Democracy [Guanyu 
jiaqiang shehui zhuyi xieshang minzhu jianshe de yijian], reprinted in 
Xinhua, issued 9 February 15, paras. 19-20.
    \80\ Ibid., paras. 9, 13.
    \81\ For more information on regulation of China's ``social 
organizations,'' see State Council, Regulations on the Registration and 
Management of Social Organizations [Shehui tuanti dengji guanli 
tiaoli], issued and effective 25 October 98, arts. 2-3, 6, 9. China's 
``social organizations'' (shehui tuanti) are the type of organization 
that most closely correspond to the Western concept of a non-
governmental organization. ``Social organizations'' are voluntary 
organizations. They include academic, professional, or trade 
organizations, as well as voluntary associations of individuals with a 
common interest.
    \82\ Chinese Communist Party Central Committee, Opinion on 
Strengthening Construction of Socialist Consultative Democracy [Guanyu 
jiaqiang shehui zhuyi xieshang minzhu jianshe de yijian], reprinted in 
Xinhua, issued 9 February 15, para. 23.
    \83\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, item 3. 
For a discussion of the difference between ``rule of law'' and ``rule 
by law,'' see Josh Chin, `` `Rule of Law' or `Rule by Law'? In China, a 
Preposition Makes All the Difference,'' Wall Street Journal, China Real 
Time Report (blog), 14 October 14.
    \84\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, item 
1(1); Qian Gang, ``Reading Chinese Politics in 2014,'' China Media 
Project, 30 December 14.
    \85\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14.
    \86\ Ibid., item 3(3, 4). See also Chinese Communist Party Central 
Committee, ``CCP Central Committee Decision Concerning Some Major 
Questions in Comprehensively Moving Governing the Country According to 
the Law Forward,'' translated in China Copyright and Media (blog), 28 
October 14, item 3(3, 4).
    \87\ Ibid., item 3(1); Ibid., item 3(1).
    \88\ Ibid., item 3(2); Ibid., item 3(2).
    \89\ Ibid., items 3(2), 3(5), 3(6); Ibid., items 3(2), 3(5), 3(6).
    \90\ Ibid., item 3(2); Ibid., item 3(2).
    \91\ PRC Organic Law of Village Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhi fa], passed 4 November 98, amended 28 
October 10, 2; Cheng Li, ``China's Village Elections and Political 
Climate in 2010,'' in Final Report of the Carter Center Limited 
Assessment Mission to the March 2010 Village Committee Elections in 
Yunnan Province, China, Carter Center, May 2010, 15; Village Elections 
in China, Staff Roundtable of the Congressional-Executive Commission on 
China, 8 July 02, Testimony of Elizabeth Dugan, Director, Asia 
Division, International Republican Institute; Kevin J. O'Brien and 
Lianjiang Li, ``Accommodating `Democracy' in a One-Party State: 
Introducing Village Elections in China,'' China Quarterly, No. 162 
(June 2000), 465-89.
    \92\ PRC Election Law of the National People's Congress and the 
Various Levels of Local People's Congresses [Zhonghua renmin gongheguo 
quanguo renmin daibiao dahui he difang geji renmin daibiao dahui xuanju 
fa], passed 1 July 79, amended 10 December 82, 2 December 86, 28 
February 95, 27 October 04, 14 March 10, art. 2; Liu Yawei, Carter 
Center, ``China's Township People's Congress Elections: An 
Introduction,'' last visited 19 June 15.
    \93\ Cheng Li, ``From Selection to Election? Experiments in the 
Recruitment of Chinese Political Elites,'' China Leadership Monitor, 
Hoover Institution, Stanford University, No. 26 (Fall 2008), 2 
September 08, 1; Cheng Li, ``Intra-Party Democracy in China: Should We 
Take It Seriously?'' China Leadership Monitor, Hoover Institution 
Stanford University, No. 30 (Fall 2009), 19 November 09, 7-9.
    \94\ Qian Gang, ``Reading Chinese Politics in 2014,'' China Media 
Project, 30 December 14.
    \95\ PRC Organic Law of Village Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhi fa], passed 4 November 98, amended 28 
October 10, 2; Village Elections in China, Staff Roundtable of the 
Congressional-Executive Commission on China, 8 July 02, Testimony of 
Elizabeth Dugan, Director, Asia Division, International Republican 
Institute; Kevin J. O'Brien and Lianjiang Li, ``Accommodating 
`Democracy' in a One-Party State: Introducing Village Elections in 
China'' China Quarterly, No. 162 (June 2000), 465-489; Cheng Li, 
``China's Village Elections and Political Climate in 2010,'' in Final 
Report of the Carter Center Limited Assessment Mission to the March 
2010 Village Committee Elections in Yunnan Province, China, Carter 
Center, May 2010, 15.
    \96\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25; UN Office of the High 
Commissioner for Human Rights, General Comment No. 25: The Right To 
Participate in Public Affairs, Voting Rights and the Right of Equal 
Access to Public Service, CCPR/C/21/Rev.1/Add.7, 12 July 96. Article 25 
of the ICCPR stipulates that citizens be permitted to ``take part in 
the conduct of political affairs'' and ``to vote and to be elected at 
genuine periodic elections'' (para. 1). The language requires that: 
``where citizens participate in the conduct of public affairs through 
freely chosen representatives, it is implicit in article 25 that those 
representatives do in fact exercise governmental power and that they 
are accountable through the electoral process for their exercise of 
that power'' (para. 7). The language also requires that ``the right to 
vote at elections and referenda must be established by law and may be 
subject only to reasonable restrictions . . . [p]arty membership should 
not be a condition of eligibility to vote, nor a ground of 
disqualification'' (para. 10). In addition, Article 25 stipulates that 
``freedom of expression, assembly and association are essential 
conditions for the effective exercise of the right to vote and must be 
fully protected . . . .'' (para. 12); and an ``independent electoral 
authority should be established to supervise the electoral process and 
to ensure that it is conducted fairly, impartially and in accordance 
with established laws which are compatible with the Covenant . . . .'' 
(para. 20).
    \97\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25. China has signed, but has 
not yet ratified, the ICCPR. In the 2009-2010 National Human Rights 
Action Plan issued by the Chinese government in April 2009, officials 
stated that the ``essentials'' of the ICCPR were some of the 
``fundamental principles'' on which the plan was framed, and that the 
government ``will continue legislative, judicial and administrative 
reforms to make domestic laws better linked with this Covenant, and 
prepare the ground for approval of the ICCPR.'' State Council 
Information Office, ``National Human Rights Action Plan of China (2009-
2010),'' reprinted in Xinhua, 13 April 09, Introduction, sec. V(1).
    \98\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
21. ``Everyone has the right to take part in the government of his 
country, directly or through freely chosen representatives . . . . The 
will of the people shall be the basis of the authority of government, 
this will shall be expressed in periodic and genuine elections which 
shall be by universal and equal suffrage and shall be held by secret 
vote or by equivalent free voting procedures.''
    \99\ Guo Likun and Tian Ying, ``China on Track To Meet Human Rights 
Plan Goals,'' Xinhua, 23 December 14.
    \100\ International Campaign for Tibet, ``New Conditions for 
Village Committees Candidates Exclude Tibetans Who `Secretly' Hold 
Sympathy for the `Dalai Clique,' '' 25 September 14.
    \101\ Ibid.
    \102\ ``Tibetan Youth Is Killed by Police During Election Clash in 
Golog,'' Radio Free Asia, 19 December 14; ``Nearly 70 Tibetans Detained 
Following Clash Over Forced Vote,'' Radio Free Asia, 7 January 15.
    \103\ Rights Defense Network, ``China Election Monitor (2015) No. 
4--Hebei Baoding Anxin County Government-Led Village Election, 
Discriminates Against Women (Picture) (No. 2)'' [Zhongguo xuanju 
guancha (2015) zhi si--hebei baoding anxin xian zhengfu zhidao de 
cunguan xuanju qishi funu (tu) (zhi er)], 6 April 15; Rights Defense 
Network, ``China Election Monitor (2014) No. 63--Guangxi Guilin 
Quanzhou County Government-Led Village Official Election Discriminated 
Against Women'' [Zhongguo xuanju guancha (2014) zhi liushi san--guangxi 
guilin quanzhou xian zhengfu zhidao de cunguan xuanju qishi funu], 15 
February 15; Rights Defense Network, ``China Election Monitor (2014) 
No. 60--Henan Ye County Government-Led Village Election Discriminated 
Against Women'' [Zhongguo xuanju guancha (2014), zhi liu shi--henan 
sheng ye xian zhengfu zhidao de cunguan xuanju qishi funu], 25 January 
15.
    \104\ Rights Defense Network, ``China Election Monitor (2015) No. 
8--Hunan Hengyang County Villagers Again Collectively Petition Against 
Illegal Election'' [Zhongguo xuanju guancha (2015) zhi ba--hunan 
hengyang xian nongmin zai ci jiti shangfang konggao feifa xuanju], 22 
April 15.
    \105\ Rights Defense Network, ``China Election Monitor, No. 28--
Shandong Province, Liaocheng City, Shen County, Xuzhuang Town: Ignores 
Election Results, Violate Election Laws, Trample Voters Rights'' 
[Xuanju guancha jianbao zhi ershi ba--shandong sheng liaocheng shi shen 
xian xuzhuang zhen: wushi xuanju jieguo, weifan xuanju falu jianta 
xuanmin quanli], 16 April 15.
    \106\ ``China Jails Two Former Wukan Village Protest Leaders for 
`Graft,' '' Radio Free Asia, 10 October 14; Echo Hui, ``Wukan Protest 
Leader Yang Semao Arrested, Accused of Taking Bribes,'' South China 
Morning Post, 14 March 14; ``Second Wukan Leader Held Ahead of Closed-
Door Elections,'' Radio Free Asia, 20 March 14.
    \107\ ``Tibetan Youth Is Killed by Police During Election Clash in 
Golog,'' Radio Free Asia, 19 December 14; ``Nearly 70 Tibetans Detained 
Following Clash Over Forced Vote,'' Radio Free Asia, 7 January 15.
    \108\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
3(6.1); Jamie P. Horsley, ``China's Leaders Endorse Disclosure as the 
`Norm,' '' Freedominfo.org, 4 November 14.
    \109\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
item 3(6.1). See also Chinese Communist Party Central Committee, ``CCP 
Central Committee Decision Concerning Some Major Questions in 
Comprehensively Moving Governing the Country According to the Law 
Forward,'' translated in China Copyright and Media, 28 October 14, item 
3(6.1).
    \110\ State Council General Office, Opinion Regarding Strengthening 
Information Content on Government Websites [Guanyu jiaqiang zhengfu 
wangzhan xinxi neirong jianshe de yijian], 1 December 14, sec. 1(2.2).
    \111\ Chinese Communist Party Central Committee General Office and 
State Council General Office, Guiding Opinion on Carrying Out the 
System of Itemizing the Powers of Local Government Working Departments 
at All Levels [Guanyu tuixing difang geji zhengfu gongzuo bumen quanli 
qingdan zhidu de zhidao yijian], Xinhua, 24 March 15, preface and arts. 
1, 3, 4, 7; ``Use `System Rationale' To Restrain `Capricious 
Authority'--Three Questions About the System of Itemizing Local 
Powers'' [Yong ``zhidu lixing'' ezhi ``quanli renxing''--san wen defang 
quanli qingdan zhidu], Xinhua, 24 March 15.
    \112\ State Council, PRC Regulations on Open Government Information 
[Zhonghua renmin gongheguo zhengfu xinxi gongkai tiaoli], issued 5 
April 07, effective 1 May 08. See also ``China Commits to `Open 
Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \113\ Zheng Wan, ``China's Scientific Progress Hinges on Access to 
Data,'' Nature, 28 April 15.
    \114\ American Chamber of Commerce in Shanghai, ``The American 
Chamber of Commerce in Shanghai 2015 China Business Report,'' 4 March 
15, 9.
    \115\ See, e.g., ``Minitrue: Media Directives on Tianjin Port 
Explosions,'' China Digital Times, 13 August 15; Gabriel Dominguez, 
``China's Official Response to Emergencies Is `Censorship,' '' Deutsche 
Welle, 18 August 15; United Nations Office of the High Commissioner for 
Human Rights, ``China: UN Human Rights Expert Calls for Greater 
Transparency in the Wake of Tragic Tianjin Explosion,'' 19 August 15; 
Liu Lin, ``Number of Tianjin Port Explosion Accident Victims Rises to 
At Least 129'' [Tianjin gang baozha shigu yunan renshu shangsheng zhi 
129 ren], Xinhua, 24 August 15; Mark Hanrahan, ``Tianjin Blasts: 
Chinese Authorities Call Off Search for Missing, Put Final Death Toll 
at 173,'' International Business Times, 12 September 15; Tianjin 
Explosion: China Sets Final Death Toll at 173, Ending Search for 
Survivors,'' Associated Press, reprinted in Guardian, 12 September 15.
    \116\ Han Xiao, ``Chinese Media and the Tianjin Disaster,'' China 
Media Project, 20 August 15.
    \117\ ``People's Daily Commentator: What Is Done Cannot Be Undone'' 
[Renmin ribao pinglunyuan: kai gong meiyou huitou jian], People's 
Daily, 16 January 15; Daniel A. Bell, ``Why China's Leaders See 
Corruption as a Mortal Threat,'' Huffington Post, 17 February 15.
    \118\ Susan Finder, ``Ruling the PLA According to the Law,'' The 
Diplomat, 4 February 15; Wang Kun and Pan Ye, ``Government Procurement 
of Services May Become Corruption's New Disaster Area Some Projects' 
Kickbacks Exceed 40 Percent'' [Zhengfu goumai fuwu kong cheng fubai xin 
zaiqu yixie xiangmu huikou gaoda 40%], Economic Observer Daily, 
reprinted in Xinhua, 3 July 14.
    \119\ David Bandurski, ``China Leads the World in Media Corruption, 
Says Expert,'' China Media Project, 23 January 15.
    \120\ ``Chinese Sports Authorities Map Out Measures in Fight 
Against Corruption and Match-Fixing,'' Xinhua, 26 January 15.
    \121\ ``Central Discipline Inspection Commission Fifth Plenary 
Session Closes: Literature and Art Circles Lined Up To Be Target of 
Investigation'' [Zhonggong jiwei wu zhong quanhui bimu: wenyi quan 
jiang lie diaocha duixiang], Radio Free Asia, 15 January 15.
    \122\ Chun Han Wong, ``China Antigraft Agency Investigates 
Intelligence Official,'' Wall Street Journal, 16 January 15.
    \123\ Matt Sheehan, ``How To Bribe Your Way Into the Chinese 
Government,'' Huffington Post, 1 December 14; Mark O'Neill, ``Chinese 
Officials Sell Govt Posts for Millions,'' EJ Insight, 24 November 14.
    \124\ Mark O'Neill, ``Chinese Officials Sell Govt Posts for 
Millions,'' EJ Insight, 24 November 14; ``People's Daily Commentator: 
What is Done Cannot Be Undone'' [Renmin ribao pinglun yuan: kai gong 
meiyou huitou jian], People's Daily, 16 January 15.
    \125\ Yuwen Wu, ``Cracking China's Corruption: Huge Hauls and Long 
Falls, BBC, 18 January 15. For more information on specific cases of 
corruption and the timeline of investigations, see ``Tigers and 
Flies,'' South China Morning Post, 6 November 14.
    \126\ See, e.g., ``China Jails Ex-Vice Governor 17 Years on Graft 
Charges,'' Associated Press, reprinted in New York Times, 27 February 
15; Yuwen Wu, ``Cracking China's Corruption: Huge Hauls and Long Falls, 
BBC, 18 January 15.
    \127\ See, e.g., ``More Than 30 Allegedly Corrupt Representatives 
and Members Will Miss the Two Sessions'' [30 duo shexian tanfu de 
daibiao, weiyuan jiang quexi lianghui], Voice of America, 1 March 15; 
``CPC Expels Three Officials,'' Xinhua, 13 February 15.
    \128\ See, e.g., Su Rong, ``China Takes Down Senior Leader Amid 
Anti-Corruption Campaign,'' Associated Press, reprinted in ABC News, 16 
February 15; ``More Than 30 Allegedly Corrupt Representatives and 
Members Will Miss the Two Sessions'' [30 duo shexian tanfu de daibiao, 
weiyuan jiang quexi lianghui], Voice of America, 1 March 15.
    \129\ See, e.g., Susan Finder, ``Shoring Up the `Rule of Law' in 
China's Military,'' The Diplomat, 4 February 15. For information on 
specific cases, see Ben Blanchard and Benjamin Kang Lim, ``Exclusive: 
China Investigates Second Top Officer for Graft--Sources,'' Reuters, 3 
March 15.
    \130\ See, e.g., Joanne Chiu, ``More China Southern Executives 
Removed in Graft Probe,'' Wall Street Journal, 16 January 15; ``Xinhua 
Commentary: Don't Let `State-Owned Enterprise Worms' Gnaw Away at 
State-Owned Assets'' [Xinhua shiping: buneng ren you ``guoqi zhuchong'' 
zhu kong guoyou zichan], Xinhua, 7 February 15; Guo Yongfang, ``70 
Listed Companies Caught Up in Anti-Corruption Storms--Natural Resources 
Companies Accounted for About One in Four'' [70 jia shangshi gongsi 
juanru fanfu fengbao ziyuan lei zhan si fen zhi yi zuoyou], Beijing 
News, reprinted in Caijing, 9 February 15; James T. Areddy, ``China 
Graft Buster Wants Targets To Fear `Sword of Damocles,' '' Wall Street 
Journal, China Real Time Report (blog), 12 February 15.
    \131\ See, e.g., Edward Wong, ``CCTV, China's Propaganda Tool, 
Finds Itself at Center of Antigraft Drive,'' New York Times, 13 
February 15; Alice Yan, ``China To Step Up Anti-Graft Drive in Media 
and Broadcasting Sector,'' South China Morning Post, 30 January 15.
    \132\ Ye Jingsi, ``China Anticorruption: Last Year Discipline 
Inspection System Investigated Nearly 1,600 People Internally'' 
[Zhongguo fan fubai: qu nian jijian xitong neibu chachu jin 1600 ren], 
BBC, 7 January 15.
    \133\ Sui-Lee Wee, ``China Ejects Spy Chief From Group of Advisers: 
Xinhua,'' Reuters, 25 February 15; Chun Han Wang, ``China Antigraft 
Agency Investigates Intelligence Official,'' Wall Street Journal, 16 
January 15.
    \134\ ``China Enhances Crackdown on Corruption: Reports,'' Xinhua, 
12 March 15.
    \135\ ``Tianjin Procuratorate Files Charges Against Zhou Yongkang'' 
[Tianjin jiancha jiguan gongsu zhou yongkang], Beijing Times, 4 April 
15.
    \136\ ``Zhou Yongkang Sentenced to Life Imprisonment in First 
Instance Trial'' [Zhou yongkang yishen bei panchu wuqi tuxing], Xinhua, 
11 June 15.
    \137\ Teddy Ng, ``Former Top General Xu Caihou To Be Charged With 
Bribery Offenses,'' South China Morning Post, 29 October 14.
    \138\ Ma Xueling, ``Eight High Ranking Officials Seized in the Past 
37 Days, China Sweeps Up Another Wave of `Tigers' '' [37 tian qin xia 8 
ming gaoguan zhongguo zai xian yi bo ``da hu'' gaochao], Xinhua, 1 
August 15.
    \139\ Brian Spegele, ``China's Investigation of Ex-President's Aide 
Marks New Phase in War on Corruption,'' Wall Street Journal, 23 
December 14.
    \140\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
item 2(4.3).
    \141\ Andrea Chen and Mimi Lau, ``Chinese Graft Busters Launch 
`Targeted' Inspections of Government and State Firms,'' Wall Street 
Journal, 18 November 14.
    \142\ Cary Huang and Laura Zhou, ``China's Anti-Graft Agency To 
Focus on Political Factions and Organized Corruption,'' South China 
Morning Post, 13 January 15; Jeremy Page, ``China Anticorruption 
Campaign Targets Party `Cliques,' '' South China Morning Post, 2 March 
15.
    \143\ ``Corruption Fight Needs Public Support: CCDI,'' Xinhua, 
reprinted in China Daily, 14 January 15.
    \144\ Jonathan Kaiman, ``China Jails Four More New Citizens' 
Movement Activists,'' Guardian, 18 April 14, reprinted in Chinese Human 
Rights Defenders, 12 May 14. Authorities sentenced Ding Jiaxi on the 
charge of ``gathering a crowd to disrupt order in a public place.'' For 
additional information on Ding's case, see Beijing Municipal Haidian 
District People's Procuratorate, ``Indictment of Ding Jiaxi and Li Wei 
by Beijing Municipal Haidian District People's Procuratorate,'' 
translation posted on China Change, 21 December 13. See also the 
Commission's Political Prisoner Database record 2013-00307 on Ding 
Jiaxi.
    \145\ Josh Chin, ``China Hands Out Harsh Sentences to 
Anticorruption Activists,'' Wall Street Journal, 19 June 14. 
Authorities sentenced Liu, Wei, and Li for ``picking quarrels and 
provoking trouble'' and in addition sentenced Liu and Wei on the 
additional charges of ``gathering a crowd to disrupt order in a public 
place'' and ``organizing and using a cult to undermine implementation 
of the law.'' Rights Defense Network, ``Rights Defense Network 
Statement: Strongly Protests Jiangxi, Xinyu Authorities' Heavy 
Sentences for Liu Ping, Wei Zhongping, and Li Sihua'' [Weiquanwang 
shengming: qianglie kangyi jiangxi xinyu dangju zhong pan liu ping, wei 
zhongping, li sihua], 19 June 14. According to Rights Defense Network, 
officials originally arrested Liu for ``inciting subversion of state 
power.'' Rights Defense Network, ``Liu Ping, Wei Zhongping, Li Sihua 
Court of Second Instance Refuses To Hold Court Hearing and Upholds 
Original Verdict, Liu Ping Sent to a Women's Prison in Jiangxi 
Province'' [Liu ping, wei zhongping, li sihua jin er shen ju bu kaiting 
weichi yuanpan liu ping ru jiangxi sheng nujian], 11 August 14.
    \146\ Chinese Human Rights Defenders, ``[CHRB] Activist Said To Be 
Secretly Sentenced to 4 Years, Enforced Disappearance of Tibetan Monk 
(7/10-17/2014),'' 17 July 14. According to the CHRD article, 
authorities may have secretly sentenced Huang Wenxun to four years' 
imprisonment for ``inciting subversion of state power'' but his 
sentence has not been confirmed by authorities. Chinese Human Rights 
Defenders, `` `Five Gentlemen From Chibi on Illuminating China Travels' 
Chen Jianxiong and Li Yinli Released'' [``Guangming zhongguoxing chibi 
wu junzi'' chen jianxiong, li yinli huoshi], 13 July 13; China Human 
Rights Defenders, ``[CHRB] Police Seize Lawyer After Blocking Visit to 
Detained Activist Xu Zhiyong (7/12-18, 2013),'' 19 July 13. For more 
information on Huang Wenxun, see China Political Prisoner of Concern, 
``Huang Wenxun (CPPC #00069)'' 10 March 14. See also the Commission's 
Political Prisoner Database record 2013-00231.
    \147\ ``Discipline Inspectors Set Up Offices in More Top Organs,'' 
Xinhua, 31 March 15.
    \148\ Li Jing, ``China To Reform Anti-Corruption Bureau To Help in 
the Fight Against Graft,'' South China Morning Post, 3 November 14.
    \149\ Michael Cole, ``China Property Registration To Begin in March 
in Corruption Crackdown,'' Mingtiandi, 3 December 14.
    \150\ Keira Lu Huang, ``More Than 100 Corruption Suspects Seized 
Abroad in China's `Fox Hunt' Campaign,'' South China Morning Post, 30 
October 14.
    \151\ Supreme People's Procuratorate, People's Procuratorate 
Informant Tip Work Provisions [Renmin jianchayuan jubao gongzuo 
guiding], issued 18 July 96, amended 8 April 09, 21 July 14, effective 
30 September 14, arts. 1, 8, reprinted in Procuratorial Daily; 
``Closely Rely on the Masses To Construct a `Four-Pronged Integrated' 
System of Informant Reports'' [Jinmi yikao renmin qunzhong goujian 
``siwei yiti'' jubao tixi], Procuratorial Daily, 28 October 14.
    \152\ Ibid., art. 8; Ibid.
    \153\ Ibid., arts. 66-70; Ibid.
    \154\ Ibid., arts. 58-65, 76-77; Ibid.
    \155\ Russell Leigh Moses, ``After the `Shock and Awe': China's 
Anti-Corruption Quagmire,'' Wall Street Journal, China Real Time Report 
(blog), 18 December 14.
    \156\ Elizabeth C. Economy, ``Time for Xi To Reform His Reforms,'' 
Council on Foreign Relations, Asia Unbound (blog), 6 February 15.
    \157\ Andrew Jacobs and Chris Buckley, ``Presumed Guilty in China's 
War on Corruption, Targets Suffer Abuses,'' New York Times, 19 October 
14.
    \158\ Wang Linuo, ``Media: An Official Stripped Naked Put in Ice 
Bucket Smothers to Death'' [Meiti: you guanyuan bei tuoguang fang 
bingtong men si], Caijing, reprinted in Phoenix Net, 1 March 15.
    \159\ Xie Yanzong, ``Discipline Inspection Official From Bengbu, 
Anhui Died During Interrogation, Family Says the Deceased Had Four 
Fractured Ribs'' [Anhui bengbu jijian ganbu tanhua qijian siwang, 
jiashu cheng sizhe si gen leigu duanlie], The Paper, 16 January 15; Tom 
Phillips, ``Communist Party Official `Attempts To Throw Himself to 
Death To Avoid Downfall,' '' Telegraph, 26 January 15; ``Zisha Shouyi: 
Suicide Benefits,'' China Daily, 26 January 15.
    \160\ Guo Qingyuan, ``Amid Graft Fight, Communist Party Wants Count 
of `Unnatural Deaths,' '' Caixin, 29 January 15.
    \161\ ``Zisha Shouyi: Suicide Benefits,'' China Daily, 26 January 
15; Tom Phillips, ``Communist Party Official `Attempts To Throw Himself 
to Death To Avoid Downfall,' '' Telegraph, 26 January 15.

                         Commercial Rule of Law


                              Introduction

    During the Commission's 2015 reporting year the Chinese 
government's discrimination against foreign companies,\1\ 
targeted enforcement of vague and unwritten rules,\2\ 
censorship and blocking of international websites,\3\ and 
problems engendered by a lack of government \4\ and corporate 
transparency \5\ appear to have continued unabated. In December 
2001, China acceded to the World Trade Organization (WTO) and 
agreed to comply with its WTO commitments.\6\ During the 2015 
reporting year, negotiations for a Bilateral Investment Treaty 
(BIT) between China and the United States continued,\7\ and 
both countries agreed to pursue a BIT that ``embodies the 
principles of non-discrimination, fairness, openness, and 
transparency.'' \8\ China, however, has failed to comply with 
many similar WTO commitments.\9\ State-owned enterprises 
continued to play a major role in China's economy,\10\ the 
Chinese government made unprecedented interventions in the 
stock market in July and August 2015,\11\ and the Chinese 
government significantly devalued the yuan in August 2015; \12\ 
these developments raised concerns about the Chinese 
government's commitment to market-based reforms.\13\ U.S. 
regulators continued to face difficulties in obtaining audit 
documents for Chinese-based companies listed on U.S. capital 
markets.\14\ Intellectual property theft originating in China 
remained a significant concern,\15\ and in May 2015, the U.S. 
Department of Justice announced the indictment of three Tianjin 
University professors on charges that included economic 
espionage.\16\

                      WTO Commitments and Disputes

    During this reporting year, China continued to fail to 
comply with many of its WTO commitments, including those 
related to transparency, subsidies notification, and 
translation. In a 1992 Memorandum of Understanding with the 
United States, the Chinese government agreed to ``publish on a 
regular and prompt basis all laws, regulations, rules, decrees, 
administrative guidance and policies'' that impacted trade.\17\ 
Further, in 2014, China asserted that it ``has fully honored 
its extensive commitments of the WTO accession'' \18\ and that 
``local governments also fulfilled the responsibility to comply 
with WTO rules.'' \19\ In a December 2014 report, the Office of 
the U.S. Trade Representative (USTR), however, noted problems 
related to transparency: The ``absence of the rule of law in 
China . . . fosters the use of vague and unwritten policies and 
does not provide for meaningful administrative or judicial 
review of Chinese regulatory actions.'' \20\ In February 2015, 
USTR and the U.S. Department of Commerce highlighted in an 
annual subsidies report to Congress their efforts ``to hold 
China accountable'' for its ``transparency obligations under 
the WTO Subsidies Agreement,'' and noted that since April 2012, 
the United States has issued two ``counter notifications'' to 
the WTO detailing 300 subsidies unreported by China.\21\ The 
report found that China's subsidies notifications remained 
``significantly incomplete.'' \22\ Analysis by the US-China 
Business Council found that in 2014, China's compliance with 
regulatory transparency commitments remained ``far below 
China's commitments for nearly all government entities.'' \23\ 
In March 2015, the State Council announced plans to translate 
trade-related measures into English.\24\ China previously 
committed to do so in 2001.\25\ In September 2014, China 
claimed that ``constraints on administrative resources'' had 
prevented fulfillment of this WTO commitment.\26\
    Challenging China's noncompliance with WTO commitments has 
been slow and difficult for the United States and Europe, 
although during the reporting year USTR initiated a formal WTO 
dispute against China for the first time since September 
2012.\27\ As of July 2015, the United States had initiated 16 
dispute proceedings against China in the WTO since 2004.\28\ 
According to USTR, as of December 2014, 8 of 15 disputes 
initiated before February 2015 were still active, including a 
dispute initiated in 2007 that challenged Chinese barriers to 
film distribution.\29\ On February 11, 2015, the United States 
initiated a 16th dispute against a Chinese export subsidy 
program called ``Demonstration Bases--Common Service Platform'' 
\30\ for noncompliance with China's commitments under the WTO 
Subsidies and Countervailing Measures Agreement.\31\ The 
Chinese government described the dispute as ``groundless.'' 
\32\ In July 2015, a WTO compliance report again found that 
China's import duties on high-tech U.S. steel imports were 
inconsistent with China's WTO commitments.\33\ China began 
imposing the duties in April 2010 resulting in more than US$250 
million in annual export losses for U.S. producers.\34\ In 
October 2014, the European Commission dropped an investigation 
into export subsidies for Chinese telecommunication companies 
Huawei and ZTE.\35\ European officials reportedly believed that 
a WTO dispute would be too slow, and European companies 
reportedly feared retaliation in China.\36\

 Censorship and Non-Transparency of Commercial and Economic Information

    During the 2015 reporting year, Chinese authorities 
continued to censor the Internet \37\ in a manner that 
negatively impacted U.S. businesses and violated China's WTO 
commitments.\38\ An American Chamber of Commerce survey 
published in February 2015 found that 83 percent of surveyed 
companies believed Internet censorship negatively affected 
their business.\39\ According to the European Union Chamber of 
Commerce in China, ``restrictions on access to legitimate 
sources of information [impede] normal business functions . . . 
.'' \40\ At an April 2015 event in Shanghai municipality, U.S. 
Secretary of Commerce Penny Pritzker said a free and open 
Internet is ``an absolute necessity.'' \41\ According to a 
senior official quoted in China Daily in September 2014, 
foreign Internet companies are required to safeguard ``the 
interests of China'' and ``the interests of Chinese 
consumers.'' \42\ According to a computer industry association 
representative, ``trade law scholars have agreed years ago that 
[Internet censorship] is a violation of international trade law 
obligations . . . the question is really whether or not the 
U.S. can politically afford to make a trade dispute over online 
censorship.'' \43\ In October 2011, USTR, under WTO rules, 
requested detailed information from China on Internet 
restrictions that allow Chinese authorities to block websites 
of U.S. companies, including the possibility of administrative 
and judicial appeals for blocked U.S. service providers.\44\ In 
December 2014, USTR reported that outreach to China to discuss 
the seemingly ``arbitrary'' censorship had continued, although 
no improvements have been reported.\45\
    U.S. regulators and investors continued to have difficulty 
obtaining accurate information on Chinese companies and China's 
economy. In January 2014, the U.S. Securities and Exchange 
Commission (SEC) suspended activities of the Chinese affiliates 
of the accounting companies KPMG, PricewaterhouseCoopers, Ernst 
& Young, and Deloitte for refusing to provide audit documents 
on SEC-registered Chinese companies due to concerns over state 
secrets.\46\ In February 2015, the SEC settled the charges 
against the accounting companies without including Chinese 
authorities in the settlement or providing for increased access 
to audit documents.\47\ The Wall Street Journal criticized the 
SEC for this settlement that leaves investors in U.S. markets 
without ``basic protection against Chinese fraudsters . . . .'' 
\48\ The Public Company Accounting Oversight Board, established 
by Congress to oversee public company audits, reported 
difficulties in its negotiations with Chinese regulators and 
faced difficulties obtaining legal and financial documents from 
China. As of October 2014, 548 China-based companies were 
listed in the United States.\49\ Cayman Islands-registered 
Chinese company Alibaba Group \50\ raised US$25 billion in the 
largest initial public offering in history in a September 2014 
offering on the New York Stock Exchange.\51\ During the 
reporting year, international media reports expressed concerns 
with the accuracy of Chinese economic reporting,\52\ and in 
July 2015, the Chinese government reportedly censored critical 
stock market coverage.\53\ A June 2015 World Bank report found 
that the Chinese government had ``formal ownership of 65 
percent of commercial bank assets and de facto control of 95 
percent of these assets'' and quoted earlier World Bank 
analysis that China's financial system is ``unbalanced, 
repressed, costly to maintain, and potentially unstable;'' \54\ 
several days after publication, the World Bank deleted the 
critical chapter of the report.\55\

            Criminal Cases Involving Commercial Information

    During this reporting year, there were developments in 
three corporate criminal cases involving former Chinese 
nationals that raised rule of law concerns. In April 2015, 
American geologist Xue Feng was released from a Beijing prison 
and deported to the United States.\56\ In November 2007, 
Chinese authorities detained Xue and later sentenced him to 
eight years' imprisonment based on charges that included 
illegally providing state secrets \57\ related to the purchase 
of a commercial database containing information on 30,000 oil 
wells.\58\ In 2011, U.S. President Barack Obama raised Xue's 
case with former Chinese President Hu Jintao,\59\ and U.S. 
embassy officials reportedly visited Xue 87 times during his 
detention.\60\ In March 2015, a report indicated that the 
mining company Rio Tinto decided not to support their employee 
and Australian citizen Stern Hu, whom authorities detained in 
2009 and later sentenced to 10 years' imprisonment for stealing 
commercial secrets and bribery, due to his confession.\61\ Hu's 
confession, however, was reportedly based on a promise that 
Chinese authorities would immediately deport him to Australia 
if he confessed.\62\ In June 2015, British citizen Peter 
Humphrey and his wife, naturalized U.S. citizen Yu Yingzeng, 
were released from prison.\63\ They had run a business in China 
helping corporate clients prevent fraud.\64\ The Shanghai No. 1 
Intermediate People's Court sentenced them in August 2014 for 
purchasing private information.\65\ Chinese officials 
reportedly withheld medical treatment during Humphrey's 
detention and incarceration because he refused to admit 
guilt.\66\ Humphrey described his and Yu's televised 
confessions as ``heavily cut and pasted'' and ``heavily 
distorted.'' \67\

------------------------------------------------------------------------
 Draft PRC Overseas NGO Management Law and Business  Community Response
-------------------------------------------------------------------------
  In May 2015, the National People's Congress published a second draft
 of the PRC Overseas Non-Governmental Organizations (NGO) Management Law
 for public comment.\68\ The draft law broadly defines NGOs, places
 registration under the oversight of public security agencies, and
 requires permits for temporary activities in China.\69\ In June 2015,
 45 U.S. business groups submitted comments to the National People's
 Congress that stated foreign non-profits play ``an integral part'' in
 their daily operations and urged revisions to the law.\70\
------------------------------------------------------------------------

                Foreign Investment and Free Trade Zones

    During the 2015 reporting year, negotiations for a 
Bilateral Investment Treaty (BIT) between the United States and 
China continued, the Chinese government published draft 
revisions to the PRC Foreign Investment Law, and the State 
Council announced new free trade zones.\71\ Negotiations for a 
BIT have been ongoing since 2008,\72\ and U.S. businesses 
expressed disappointment with the slow progress.\73\ In June 
2015, China reportedly provided a draft BIT ``negative list'' 
to the United States.\74\ As of August 2015, China has signed a 
total of 130 BITs with other countries, of which 108 were in 
force.\75\
    In January 2015, the Chinese government proposed 
significant revisions to the PRC Foreign Investment Law \76\ 
that may make some variable-interest entities (VIEs) 
illegal,\77\ and made revisions to China's foreign investment 
catalogue. VIEs utilize contractual agreements between offshore 
holding companies and Chinese companies to allow foreign 
investment in areas in which foreigners are restricted from 
directly investing.\78\ As of 2013, 95 of 200 Chinese companies 
listed on the New York Stock Exchange reportedly used a 
VIE.\79\ In March 2015, the Chinese government issued revisions 
to the Catalogue of Industries for Guiding Foreign Investment 
(2015 Catalogue).\80\ The 2015 Catalogue classifies industries 
into three sectors--``encouraged,'' ``restricted,'' and 
``prohibited''--and is used to promote China's industrial 
policies and economic development plans.\81\ Although 
authorities reduced the number of restricted industries in the 
2015 Catalogue, higher education and preschool education 
investments must now be Chinese-controlled.\82\ Foreign 
investment in media-related entities continues to be 
``prohibited'' in the 2015 Catalogue.\83\ According to the US-
China Business Council, the revisions ``lack substantive 
impact.'' \84\ During the reporting year, the Chinese 
government also proposed a new cybersecurity review process 
that met with substantial foreign opposition.\85\ In July 2015, 
the National People's Congress (NPC) passed a new PRC National 
Security Law,\86\ which according to a senior U.S. Department 
of the Treasury official, may block investments in China on 
grounds ``beyond genuine national security considerations.'' 
\87\ In July 2015, the NPC also released a draft of the PRC 
Cybersecurity Law for public comment; \88\ according to the 
proposed law, companies would be required to store certain 
types of ``important information'' exclusively in China.\89\
    In April 2015, the State Council announced more detailed 
plans for free trade zones (FTZ) in Guangdong and Fujian 
provinces and Tianjin municipality.\90\ The Chinese government 
reportedly will give foreign investors equal treatment in FTZs 
outside the list of prohibited sectors, commonly referred to as 
a ``negative list.'' \91\ The Shanghai FTZ opened in 2013; a 
March 2015 survey, however, found three-quarters of U.S. 
respondents operating in China believed the FTZ provided ``no 
tangible benefits.'' \92\

  Administrative Enforcement Commitments and Discriminatory Practices

    During this reporting year, the Chinese government 
reiterated its commitments to improving rule of law, 
transparency, and non-discrimination; \93\ according to the 
Office of the U.S. Trade Representative (USTR), however, ``the 
overall investment environment is not yet improving for [U.S.] 
companies.'' \94\ U.S. companies initially were buoyed by 
Chinese official statements that needed economic reforms would 
finally occur,\95\ but by April 2015, U.S. companies reported 
the impact of the reforms were between ``limited'' and 
``none.'' \96\
    In September 2014, Premier Li Keqiang claimed Chinese 
authorities conducted investigations ``legally, transparently 
and fairly''; \97\ domestic and foreign companies, however, 
believe they have been treated unfairly.\98\ When China joined 
the World Trade Organization, the Chinese government committed 
to ``apply and administer in a uniform, impartial and 
reasonable manner all its laws, regulations and other 
measures.'' \99\ In December 2014, the Chinese government 
further agreed that Chinese agencies would ``strictly follow 
statutory limits on their authority, procedures, and 
requirements.'' \100\ U.S. officials documented, however, that 
Chinese authorities still provide limited transparency 
regarding administrative actions and warnings to ``cooperate'' 
or face ``steep fines.'' \101\
    Amid concerns about transparency and equal treatment of 
overseas companies, Chinese authorities issued record fines to 
foreign companies in antimonopoly and corruption 
investigations.\102\ According to many companies, there is an 
``absence of recourse'' if administrative regulators exceed 
their authority or do not follow the law.\103\ In February 
2015, Chinese authorities fined U.S.-based company Qualcomm 
nearly US$1 billion, and significant restrictions were placed 
on Qualcomm's China operations for alleged anticompetitive 
activities.\104\ According to a U.S. expert, ``the clear 
perception is that Qualcomm's travails are part of an 
inquisition against foreign companies, particularly American 
ones.'' \105\ In September 2014, Chinese authorities fined 
GlaxoSmithKline nearly US$500 million after five senior 
employees received sentences of up to four years' imprisonment 
for bribery following a one-day closed trial.\106\ According to 
New York Times reporters, the GlaxoSmithKline fine may be a 
sign of China's ``rising economic nationalism.'' \107\

              State-Owned Enterprises and Corruption Cases

    During this past reporting year, the Chinese government 
committed to deepening the reform of state-owned enterprises 
(SOEs), although results were limited, and SOEs continued to 
play a major role in China's economy and stock markets. In 
March 2015, at the annual meetings of the National People's 
Congress and Chinese People's Political Consultative Congress, 
Premier Li Keqiang reiterated plans first announced in 2013 to 
take ``systematic steps to 
implement the reform of introducing mixed ownership to 
SOEs . . . .'' \108\ According to the Financial Times, recent 
developments indicate ``privatization will play at most a 
subsidiary role in broader efforts to boost the efficiency of 
SOEs,'' and state groups will maintain majority stakes. Unfair 
competition by SOEs undermines a rules-based system and creates 
an uneven playing field for business.\109\ News articles noted 
that the merger of two of China's largest train companies and 
the potential merger of two of China's largest oil companies 
likely indicate increasing consolidation among SOEs to make 
them more competitive globally.\110\ In the 2015 Fortune Global 
500 list, 76 of 98 Chinese companies included were SOEs.\111\ 
As of December 2014, SOEs comprised over three-quarters of the 
market capitalization in two of the major Chinese stock 
indices.\112\ In July and August 2015, after significant losses 
in the Chinese stock markets, the Chinese government made 
``unprecedented'' interventions to support stock prices.\113\
    Chinese anticorruption efforts focused in part on SOEs. In 
June 2015, Zhou Yongkang, former member of the Standing 
Committee of the Political Bureau of the Chinese Communist 
Party Central Committee, former Minister of Public Security, 
and also previously the general manager of China National 
Petroleum Company (CNPC), received a life sentence following a 
closed trial for crimes that included taking bribes of 
approximately US$118,000 and assisting his family in 
accumulating assets of over US$300 million.\114\ Zhou's 
position and connections with CNPC reportedly contributed to 
his political rise, and Zhou's family members reportedly took 
bribes from CNPC officials.\115\ In April 2015, the Hanjiang 
Intermediate People's Court in Hubei province tried Jiang 
Jiemin, who once oversaw state-owned companies and was 
previously the top official at CNPC, on corruption and abuse of 
power charges.\116\

              Intellectual Property Rights and Cyber Theft

    During the reporting year, U.S. companies faced significant 
difficulties related to intellectual property rights in China. 
In 2014, 88 percent of counterfeit goods seized by U.S. Customs 
and Border Protection were from China (63 percent) and Hong 
Kong (25 percent),\117\ compared to 93 percent in 2013 (China, 
68 percent and Hong Kong, 25 percent),\118\ and 84 percent in 
2012 (China, 72 percent and Hong Kong, 12 percent).\119\ In 
2015, China remained on the Office of the U.S. Trade 
Representative's (USTR) Priority Watch List for concerns 
including reported deficiencies in trade secret protection, 
``indigenous innovation'' policies, and market access 
barriers.\120\ According to USTR, ``[p]hysical markets in China 
continue to facilitate the distribution of significant 
quantities of counterfeit merchandise for consumption in China 
and abroad.'' \121\ USTR also noted concerns voiced by Chinese 
regulators about counterfeit and pirated products available 
through Alibaba's e-commerce website Taobao.\122\
    The Chinese government continued to take steps to improve 
the protection of intellectual property in China. In fall 2014, 
Chinese authorities opened specialized intellectual property 
courts in Beijing and Shanghai municipalities and Guangzhou 
municipality, Guangdong province.\123\ These specialized courts 
will have jurisdiction over certain types of patent and 
technology secrets cases, some civil and administrative cases, 
and some well-known trademark cases.\124\ In 2014, Chinese 
courts accepted 133,863 new intellectual property cases, 
representing an increase of 19.5 percent from 2013.\125\ In 
2014, the number of trademark applications in China increased 
by over 21 percent compared to 2013, reaching nearly 2.3 
million.\126\ In April 2015, the State Intellectual Property 
Office began to solicit public comments on draft revisions to 
the PRC Patent Law.\127\ According to USTR, however, the draft 
revisions ``appear not to address concerns identified by the 
United States and industry.'' \128\ In May 2015, the Beijing 
No. 1 Intermediate People's Court was scheduled to hold a 
hearing in a US$450 million trade secrets civil lawsuit by the 
U.S.-based AMSC against the Chinese company Sinovel.\129\
    In April 2015, President Obama issued an executive order 
allowing for the ``blocking'' of transactions involving the 
property of individuals or entities involved in cyber 
theft.\130\ In May 2015, the U.S. Department of Justice (DOJ) 
announced the indictment of six Chinese nationals, including 
three Tianjin University professors, for ``economic espionage 
and theft of trade secrets'' and related crimes that may 
benefit Chinese government-controlled companies and 
universities.\131\ The Chinese government reportedly refused to 
restart a bilateral cyber working group unless DOJ dropped a 
May 2014 indictment of five People's Liberation Army officials 
for cyber espionage.\132\ The Chinese state-owned enterprises 
State Nuclear Power Technology, Baosteel Group, and the 
Aluminum Corporation of China reportedly benefited from the 
hacking, although they were not named in the indictment.\133\ 
In July 2015, the U.S. Federal Bureau of Investigation (FBI) 
reported that there had been a 53-percent increase in economic 
espionage cases under investigation over the past year \134\ 
and that an FBI survey had found 95 percent of victim companies 
surveyed suspected that individuals associated with the Chinese 
government were responsible.\135\ In January 2015, Ren 
Zhengfei, the chairman of the telecommunications company 
Huawei, stated at an online event during the World Economic 
Forum in Davos, that Huawei ``has never been asked by 
[the Chinese] government to spy,'' but as a Chinese company, 
``we definitely advocate the Chinese Communist [P]arty, we love 
our country . . . .'' \136\ In an interview with the Australian 
Financial Review in July 2013, General Michael Hayden, the 
former director of both the National Security Agency and the 
Central Intelligence Agency, had agreed that Huawei represented 
an ``unambiguous national security threat'' to the United 
States and Australia.\137\ Hayden further asserted in that 
interview that the Chinese government defines the targets of 
its ``legitimate espionage'' to include ``intellectual 
property, commercial trade secrets, and the negotiating 
positions of private entities.'' \138\

          Record Trade Deficit and Chinese Outbound Investment

    During the 2015 reporting year, the trade deficit between 
the United States and China reached record highs as Chinese 
authorities maintained currency controls. In December 2001, 
China acceded to the World Trade Organization (WTO) and made 
commitments to improve transparency, strengthen the rule of 
law, and open its markets.\139\ In 2014, the U.S. goods trade 
deficit with China reached a record US$342.6 billion, up 
US$23.9 billion from 2013.\140\ In the 12-month period from 
July 2014 through June 2015, U.S. goods exports to China 
decreased by US$4.2 billion compared to the previous 12-month 
period.\141\ Between 2001 and the end of 2014, U.S. imports 
from China increased from US$102 billion to US$467 billion, 
while U.S. exports to China only increased from US$19 billion 
to US$124 billion.\142\ A December 2014 analysis by the 
Economic Policy Institute asserted that the growth in the U.S. 
goods trade deficit with China between 2001 and 2013 eliminated 
or displaced 3.2 million U.S. jobs.\143\ According to the U.S. 
Department of the Treasury, the Chinese yuan remained 
``significantly undervalued'' and in 2014, the yuan depreciated 
2.4 percent against the U.S. dollar.\144\ In May 2015, 
International Monetary Fund officials, based on their own 
analysis and following discussions with senior Chinese 
officials, stated that the yuan is no longer undervalued.\145\ 
On August 11, 2015, the Chinese government devalued the yuan by 
1.9 percent, the largest one-day decline in value in over 20 
years.\146\ According to a Chinese government official and some 
Chinese exporters, a depreciated yuan will increase Chinese 
exports.\147\
    During the reporting year, the Chinese government actively 
promoted foreign investment and Chinese exports. In March 2015, 
Premier Li Keqiang announced plans to speed up implementation 
of China's ``go global'' strategy to support and promote 
foreign investment by Chinese companies.\148\ According to a 
Chinese official, there will soon be a ``historical turning 
point'' when China's outbound investment exceeds inbound 
investment.\149\

------------------------------------------------------------------------
    Asian Infrastructure and Investment Bank (AIIB) and  Other Funds
-------------------------------------------------------------------------
  In October 2014, 21 Asian countries signed a memorandum of
 understanding on establishing the China-led Asian Infrastructure
 Investment Bank (AIIB).\150\ In April 2015, 57 countries, including the
 United Kingdom, Germany, and France, were approved as AIIB founding
 members.\151\ The U.S. Government expressed concerns with transparency
 and the AIIB governance structure to Germany \152\ and other
 countries.\153\ China reportedly has plans for a New Development Bank
 with Brazil, Russia, India, and South Africa, and a Silk Road
 development fund.\154\ In March 2015, at the Boao Forum for Asia,
 President Xi Jinping described the potential of China's ``Belt and
 Road'' initiatives, including a Silk Road Economic Belt and a maritime
 Silk Road.\155\
------------------------------------------------------------------------

                          Food and Drug Safety

    During the reporting year, food and drugs from China 
continued to be an issue of concern in the United States. The 
U.S. Food and Drug Administration (FDA) continued to have 
difficulty obtaining visas for inspections in China, although 
new implementing arrangements were signed with Chinese partners 
in November and December 2014, and foreign companies expressed 
concerns over administrative enforcement and also libel by 
Chinese companies.\156\ According to a January 2015 report, in 
2014 the FDA conducted 66 inspections of food facilities in 
China that export to the United States, up from 59 inspections 
in 2013.\157\ According to the FDA, however, U.S. inspectors at 
times were required to rely on translators supplied by the 
firms being inspected.\158\ In December 2014, the FDA sent a 
warning letter to an active pharmaceutical ingredients (APIs) 
supplier based in Wuxi municipality, Jiangsu province, that 
noted concerns with the ``authenticity and reliability'' of 
data collected and APIs produced by the subject company.\159\ 
Reports also indicated a growing problem with the online sale 
of illegal drugs from China to the United States.\160\ In 
summer 2014, Chinese media reported food safety violations at a 
Shanghai facility owned by Illinois-based OSI Group; OSI Group 
reportedly lost ``hundreds of millions of dollars'' in revenue 
as a result.\161\ In January 2015, OSI Group criticized the 
Shanghai Food and Drug Administration for a ``very misleading'' 
statement that certain OSI Group products were ``questionable 
products.'' \162\ In June 2015, KFC filed litigation in 
Shanghai against three companies for posting over 4,000 
messages spreading online rumors, including that KFC used 
genetically modified chickens.\163\
    In April 2015, the National People's Congress (NPC) passed 
amendments to the PRC Food Safety Law to include stronger 
penalties for violations and additional requirements.\164\ 
According to Chinese media, the revised law will be ``the 
strictest food safety law in history.'' \165\ The same month, 
the NPC passed revisions to the PRC Advertising Law,\166\ 
including higher penalties for false advertising and a specific 
prohibition on advertisements that claim infant formula can 
replace breast milk.\167\
    Notes to Section III--Commercial Rule of Law

    \1\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``2015 China Business Climate Survey Report,'' 11 
February 15, 4, 27; European Union Chamber of Commerce in China and 
Roland Berger Strategy Consultants, ``European Business in China: 
Business Confidence Survey 2015,'' 10 June 15, 4, 41.
    \2\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``2015 China Business Climate Survey Report,'' 11 
February 15, 25; Office of the U.S. Trade Representative, ``2014 Report 
to Congress on China's WTO Compliance,'' December 2014, 49, 88.
    \3\ Reporters Without Borders, ``2015 World Press Freedom Index,'' 
12 February 15. In 2015, China ranked 176th out of 180 countries for 
press freedom. See also Michael Forsythe, ``Alibaba Says It Relies on 
Markets, Not Connections,'' New York Times, DealBook (blog), 21 July 
14. The New York Times has been blocked in China since 2012.
    \4\ Transparency International, ``Corruption Perceptions Index 
2014: Clean Growth at Risk,'' 3 December 14. China's ranking 
deteriorated in 2014 from 2013, despite China's ongoing anticorruption 
campaign. US-China Business Council, ``China 2015 Regulatory 
Transparency Scorecard,'' March 2015.
    \5\ Transparency International, ``Transparency in Corporate 
Reporting,'' 5 November 14, 3. Seven of the 12 worst-performing 
companies in the Transparency International index were Chinese, 
including Bank of China, Bank of Communications, Agricultural Bank of 
China, China Construction Bank, CNOOC Limited, China Shenhua Energy 
Group, and Industrial and Commercial Bank of China. See also ``The SEC 
Caves on China,'' Wall Street Journal, 26 February 15.
    \6\ World Trade Organization, ``Protocols of Accession for New 
Members Since 1995, Including Commitments in Good and Services,'' last 
visited 5 May 15. China became a member of the World Trade Organization 
(WTO) on December 11, 2001. A list of members and their dates of 
membership is available on the WTO website.
    \7\ ``China, US Basically Complete Text Negotiation on BIT,'' 
Xinhua, reprinted in PRC Central People's Government, 7 March 15.
    \8\ Office of the Press Secretary, The White House, ``Fact Sheet: 
U.S.-China Economic Relations,'' 12 November 14.
    \9\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China, Minutes of the Meeting, Addendum, WT/TPR/M/300/
Add.1, 9 September 14, 185-237, 431-439. The United States raised 88 
questions to China regarding the Secretariat Report and 8 questions 
regarding the Government Report, and also a total of 25 follow-up 
questions regarding potential areas where China was not in compliance 
with its trade obligations as identified in the Trade Policy Review. 
Office of the U.S. Trade Representative, ``2014 Report to Congress on 
China's WTO Compliance,'' December 2014, 21-26.
    \10\ Scott Cendrowski, ``China's Global 500 Companies Are Bigger 
Than Ever--And Mostly State-Owned,'' Fortune, 22 July 15; ``Big State-
Owned Enterprises Pillar of Economy in China,'' Xinhua, 23 August 15.
    \11\ Li Xiang, ``Stock Crisis Buffer Fund Proposed,'' China Daily, 
13 July 15; Wayne M. Morrison and Gabriel M. Nelson, Congressional 
Research Service, ``China's Recent Stock Market Volatility: What Are 
the Implications?'' 20 July 15; Heather Timmons, ``China's Stock Market 
Stimulus Has Cost Over $1 Trillion So Far,'' Quartz, 5 August 15. 
Quartz cites Christopher Balding, a Peking University political 
economics professor, as saying that the stimulus provided to date had 
already reached US$1.3 trillion. Balding described the stimulus as 
``far and away the largest economic support package in history.'' 
Patrick Chovanec, ``China Destroyed Its Stock Market in Order To Save 
It,'' Foreign Policy, 16 July 15.
    \12\ James K. Jackson, Congressional Research Service, ``China's 
Currency Devaluation,'' 17 August 15; ``The Battle of Midpoint,'' 
Economist, 15 August 15.
    \13\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], 12 November 13, sec. 1(2); Wayne M. Morrison and Gabriel M. 
Nelson, Congressional Research Service, ``China's Recent Stock Market 
Volatility: What Are the Implications?'' 20 July 15; U.S. Department of 
the Treasury, ``Readout From a Treasury Spokesperson on a Call Between 
Secretary Jacob J. Lew and Chinese Vice Premier Wang Yang,'' 21 August 
15.
    \14\ ``The SEC Caves on China,'' Wall Street Journal, 26 February 
15; James R. Doty, Remarks on Public Company Accounting Oversight Board 
(PCAOB) Standing Advisory Group Meeting Webcast, 20 November 14.
    \15\ Felicia Schwartz and Ian Talley, ``U.S. Officials Warn Chinese 
Cyber Espionage Imperils Ties,'' Wall Street Journal, 23 June 15.
    \16\ Office of Public Affairs, U.S. Department of Justice, 
``Chinese Professors Among Six Defendants Charged With Economic 
Espionage and Theft of Trade Secrets for Benefit of People's Republic 
of China,'' 19 May 15. The three indicted Tianjin University professors 
were Hao Zhang, Wei Pang, and Jinping Chen. There were a total of six 
individuals indicted, including the three Tianjin University 
professors.
    \17\ Memorandum of Understanding Between the Government of the 
United States of America and the Government of the People's Republic of 
China Concerning Market Access, 10 October 92, art. 1.
    \18\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, Report by China, WT/TPR/G/300, 27 May 14, 23.
    \19\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China, Minutes of the Meeting, Addendum, WT/TPR/M/300/
Add.1, 9 September 14, 207.
    \20\ Office of the U.S. Trade Representative, ``2014 Report to 
Congress on China's WTO Compliance,'' 18 December 14, 88.
    \21\ Office of the U.S. Trade Representative and U.S. Department of 
Commerce, ``Subsidies Enforcement Annual Report to the Congress,'' 
February 2015, iii.
    \22\ Ibid., 10.
    \23\ US-China Business Council, ``China 2015 Regulatory 
Transparency Scorecard,'' March 2015, 1.
    \24\ State Council, ``China To Translate Trade-Related Rules Into 
English,'' 23 March 15; State Council General Office, Circular on 
Translation of Trade-Related Measures Into English [Guowuyuan 
bangongting guanyu zuohao yu maoyi xiangguan bumen guizhang yingwen 
fanyi gongzuo de tongzhi], issued 23 March 15. The English version does 
not include an attachment listing the types of measures to be 
translated.
    \25\ World Trade Organization, Report on the Working Party on the 
Accession of China, WT/ACC/CHN/49, 1 October 01, 334.
    \26\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China, Minutes of the Meeting, Addendum, WT/TPR/M/300/
Add.1, 9 September 14, 188. China's WTO commitment was to make 
translations available in one of the official WTO languages; 
translation into English is not required.
    \27\ World Trade Organization, ``Disputes by Country/Territory,'' 
last visited 24 June 15; World Trade Organization, DS450, China--
Certain Measures Affecting the Automobile and Automobile-Parts 
Industries, Request for Consultations by the United States, WT/DS450/1, 
WTO Doc. No. 12-506, 17 September 12; World Trade Organization, DS489, 
China--Measures Related to Demonstration Bases and Common Service 
Platforms Programmes, Request for Consultations by the United States, 
WT/DS489/1, WTO Doc. No. 15-1009, 11 February 15. The United States 
requested consultations with China for DS450 on September 17, 2012. The 
United States next requested new consultations with China for DS489 on 
February 11, 2015.
    \28\ World Trade Organization, ``Disputes by Country/Territory,'' 
last visited 24 June 15.
    \29\ Office of the U.S. Trade Representative, ``2014 Report to 
Congress on China's WTO Compliance,'' 18 December 14, 36-37.
    \30\ Office of the U.S. Trade Representative, ``United States 
Launches Challenge to Extensive Chinese Export Subsidy Program,'' 11 
February 15.
    \31\ World Trade Organization, DS489, China--Measures Related to 
Demonstration Bases and Common Service Platforms Programmes, Dispute 
Settlement, WT/DS489/1, last visited 1 May 15.
    \32\ Dinny McMahon, ``China Calls U.S. Complaint on Subsidies 
`Groundless,' '' Wall Street Journal, 7 March 15.
    \33\ Press Office, Office of the U.S. Trade Representative, ``U.S. 
Wins Trade Enforcement Challenge to China's Duties on Steel,'' 31 July 
15.
    \34\ Ibid.
    \35\ Robin Emmott and Francesco Guarascio, ``Exclusive: China, EU 
Close to Deal on Telecoms Trade Dispute--Sources,'' Reuters, 8 October 
14.
    \36\ Ibid.
    \37\ Reporters Without Borders, ``2015 World Press Freedom Index,'' 
12 February 15. In 2015, China ranked 176th out of 180 countries for 
press freedom. See also Michael Forsythe, ``Alibaba Says It Relies on 
Markets, Not Connections,'' New York Times, DealBook (blog), 21 July 
14. The New York Times has been blocked in China since 2012.
    \38\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``2015 China Business Climate Survey Report,'' 11 
February 15, 30; Commercial Cyber Espionage and Barriers to Digital 
Trade in China, Hearing of the U.S.-China Economic and Security Review 
Commission, 15 June 15, Testimony of Matthew Schruers, Vice President 
for Law & Policy, Computer and Communications Industry Association.
    \39\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``2015 China Business Climate Survey Report,'' 11 
February 15, 30.
    \40\ European Union Chamber of Commerce, Beijing Position Paper 
2015/2016, 9 April 15, 12.
    \41\ Office of Public Affairs, U.S. Department of Commerce, 
``Commerce Secretary Penny Pritzker Highlights Importance of 
Entrepreneurship at China Executive Leadership Academy Pudong,'' 16 
April 15.
    \42\ Li Jiabao, ``Foreign Firms `Must Follow Chinese Law,' '' China 
Daily, 11 September 14. The senior official quoted was Lu Wei, Director 
of the Office of the Chinese Communist Party Central Leading Group for 
Cyberspace Affairs and of the Cyberspace Administration of China. See 
also ``Lu Wei: Curriculum Vitae'' [Lu wei jianli], Cyberspace 
Administration of China, last visited 21 September 15.
    \43\ Commercial Cyber Espionage and Barriers to Digital Trade in 
China, Hearing of the U.S.-China Economic and Security Review 
Commission, 15 June 15, Testimony of Matthew Schruers, Vice President 
for Law & Policy, Computer & Communications Industry Association.
    \44\ Office of the U.S. Trade Representative, ``United States Seeks 
Detailed Information on China's Internet Restrictions,'' October 2011.
    \45\ Office of the U.S. Trade Representative, ``2014 Report to 
Congress on China's WTO Compliance,'' 18 December 14, 139-140.
    \46\ U.S. Securities and Exchange Commission, In the Matter of BDO 
China Dahua CPA Co., Ltd., et al., Initial Decision (Public), File Nos. 
3-14872, 3-15116, Release No. 553 Administrative Proceeding File, 22 
January 14, 3.
    \47\ ``The SEC Caves on China,'' Wall Street Journal, 26 February 
15; Wang Zichen, ``Xinhua Insight: SEC vs. Big Four, Dust Has Yet To 
Settle,'' Xinhua, 19 February 15.
    \48\ ``The SEC Caves on China,'' Wall Street Journal, 26 February 
15.
    \49\ George W. Russell, ``An Interview With James R. Doty, Chairman 
of the Public Company Accounting Oversight Board,'' Journal of the 
Global Accounting Alliance, 14 October 14.
    \50\ U.S. Securities and Exchange Commission, Amendment No. 7 to 
Form F-1 Registration Statement Under the Securities Act of 1933: 
Alibaba Group Holding Limited, Registration No. 333-195736, 15 
September 14, 1.
    \51\ Leslie Picker and Lulu Yilun Chen, ``Alibaba's Banks Boost IPO 
Size to Record of $25 Billion,'' Bloomberg, 22 September 14; Paul 
Gillis, ``Son of Enron? Alibaba's Risky Corporate Structure,'' Foreign 
Affairs, 28 October 14.
    \52\ Greg Ip and Bob Davis, ``For All Its Heft, China's Economy Is 
a Blackbox,'' Wall Street Journal, 24 August 15; David Keohane, 
``Quickly Revisiting Those Dodgy China Growth Stats,'' Financial Times, 
FT Alphaville (blog), 22 July 15; ``Unemployment in China: Trying To 
Count China's Jobless,'' Economist, Free Exchange Economics (blog), 19 
August 15; ``China's Response to a Stock Market Plunge? Censor, Spin, 
Restrict Selling,'' Los Angeles Times, 14 July 15.
    \53\ ``Minitrue: Rules on Stock Market Reporting,'' China Digital 
Times, 9 July 15.
    \54\ World Bank, ``China Economic Update--June 2015, Special Topic: 
Reform Priorities in China's Financial Sector,'' reprinted in DocIn, 
June 2015, 30, 38; Shawn Donnan and Gabriel Wildau, ``World Bank Denies 
China Sought To Have Critical Report Censored,'' Financial Times, 3 
July 15.
    \55\ World Bank, ``China Economic Update--June 2015,'' 3 July 15. 
According to the World Bank, ``[T]he financial sector that was 
previously included in this report was removed because it had not gone 
through the World Bank's usual internal review and clearance 
procedures.'' See also Shawn Donnan and Gabriel Wildau, ``World Bank 
Denies China Sought To Have Critical Report Censored,'' Financial 
Times, 3 July 15.
    \56\ James T. Areddy, ``U.S. Geologist Expresses Gratitude After 
Release From Chinese Prison,'' Wall Street Journal, China Real Time 
Report (blog), 6 April 15; ``Beijing Court Upholds Eight-Year Sentence 
for American Geologist,'' Congressional-Executive Commission on China, 
23 February 11; ``Beijing Court Sentences American Geologist to Eight 
Years for State Secrets,'' CECC China Human Rights and Rule of Law 
Update, No. 7, 2010, 2-3.
    \57\ Beijing No. 1 Intermediate People's Court, Criminal Verdict 
No. 1881 (2009) [(2009) yizhong xing chuzi di 1881 hao], 25 July 10, 
23; Catherine Matacic, ``Geologist Reflects on Life Behind Bars in 
China,'' Science, ScienceInsider (blog), 6 July 15.
    \58\ Ibid., 4, 16-17; Ibid.
    \59\ Charles Hutzler, ``China Holds, Mistreats U.S. Man on Secrets 
Charge,'' Associated Press, reprinted in U.S. News & World Report, 19 
November 09.
    \60\ Xue Feng, ``Thank You,'' reprinted in Faculty Page of David 
Rowley, Department of Geophysical Sciences, University of Chicago, 4 
April 15.
    \61\ John Garnaut, ``Henry Kissinger Paid $5m To Steer Rio Tinto 
Through Stern Hu Debacle and Consolidate China Links,'' Sydney Morning 
Herald, 29 March 15.
    \62\ John Garnaut, ``Jailed Rio Tinto Executive Stern Hu Wants Tony 
Abbott's Help,'' The Age, 5 April 15.
    \63\ Denise Roland, ``British Investigator Says Chinese Officials 
Tried To Force Confession,'' Wall Street Journal, 18 June 15; ``UK 
Investigator Says Chinese Officials Mistreated Him To Get GSK 
Confession,'' Reuters, reprinted in New York Times, 18 June 15.
    \64\ Carrie Grace, ``Investigator Peter Humphrey Warns Over GSK 
China Ordeal,'' BBC, 10 July 15.
    \65\ Shanghai No. 1 Intermediate People's Court, Weibo post, 8 
August 14, 10:57 p.m. The Shanghai No. 1 Intermediate People's Court 
sentenced Yu Yingzeng to two years' imprisonment and a criminal fine of 
150,000 yuan (US$24,000) for illegally obtaining personal information, 
and sentenced Peter Humphrey to two years and six months' imprisonment, 
a criminal fine of 200,000 yuan (US$32,000), and deportation upon 
completion of his sentence for illegally obtaining personal 
information. See also Carrie Grace, ``Investigator Peter Humphrey Warns 
Over GSK China Ordeal,'' BBC, 10 July 15.
    \66\ Denise Roland, ``British Investigator Says Chinese Officials 
Tried To Force Confession,'' Wall Street Journal, 18 June 15; ``UK 
Investigator Says Chinese Officials Mistreated Him To Get GSK 
Confession,'' Reuters, reprinted in New York Times, 18 June 15.
    \67\ Ibid.
    \68\ National People's Congress Standing Committee, PRC Overseas 
Non-Governmental Organizations Management Law (Draft) (Second Reading 
Draft) [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi guanli fa 
(cao'an) (erci shenyi gao)], issued 5 May 15.
    \69\ Ibid., arts. 2, 7, 18.
    \70\ Gillian Wong, ``U.S. Business, Professional Groups Sign Letter 
Opposing Draft China NGO Law,'' Wall Street Journal, 4 June 15.
    \71\ Office of the Press Secretary, The White House, ``Fact Sheet: 
U.S.-China Economic Relations,'' 12 November 14; Ministry of Commerce, 
PRC Foreign Investment Law (Draft for Public Comment) [Zhonghua renmin 
gongheguo waiguo touzi fa (cao'an zhengqiu yijian gao)], issued 19 
January 15; ``China Announces Plans for Pilot Free Trade Zones,'' 
Xinhua, 20 April 15.
    \72\ James Zimmerman, ``Beijing's Negative Stance on Investment,'' 
Wall Street Journal, 1 April 15; Office of the Press Secretary, The 
White House, ``Fact Sheet: U.S.-China Economic Relations,'' 12 November 
14.
    \73\ James Zimmerman, ``Beijing's Negative Stance on Investment,'' 
Wall Street Journal, 1 April 15.
    \74\ Michael Martina, ``Update 1--China, U.S. Swap Investment 
Treaty `Negative Lists,' '' Reuters, reprinted in CNBC, 12 June 15.
    \75\ United Nations Conference on Trade and Development, 
``International Investment Agreements Navigator,'' last visited 1 
September 15. China's 130 Bilateral Investment Treaties do not include 
those that ``have been denounced, terminated by mutual consent or 
renegotiated.''
    \76\ Ministry of Commerce, PRC Foreign Investment Law (Draft for 
Public Comment) [Zhonghua renmin gongheguo waiguo touzi fa (cao'an 
zhengqiu yijian gao)], issued 19 January 15; Dinny McMahon, ``China 
Looking To Ease Foreign-Investment Rules Covering Internet Companies,'' 
Wall Street Journal, 21 January 15.
    \77\ Dinny McMahon, ``China Looking To Ease Foreign-Investment 
Rules Covering Internet Companies,'' Wall Street Journal, 21 January 
15; Gregory J. Millman, ``Foreign Companies at Risk From Proposed 
Chinese Law,'' Wall Street Journal, 19 April 15.
    \78\ U.S. Securities and Exchange Commission, Amendment No. 7 to 
Form F-1 Registration Statement Under the Securities Act of 1933: 
Alibaba Group Holding Limited, Registration No. 333-195736, 15 
September 14, 10-11.
    \79\ ``Alibaba's VIE Structure,'' Reuters, reprinted in Daily Mail, 
9 September 14.
    \80\ National Development and Reform Commission and Ministry of 
Commerce, ``Foreign Investment Guidance Catalogue (2015 Revision)'' 
[Waishang touzi chanye zhidao mulu (2015 nian xiuding)], issued 10 
March 15, effective 10 April 15.
    \81\ Ashwin Kaja and Shirleen Hong, Covington & Burling LLP, 
``Chinese Government Issues 2015 Foreign Investment Catalogue--
Effective April 10, 2015,'' reprinted in National Law Review, 25 March 
15.
    \82\ Ibid. The number of restricted industries was reduced from 44 
in the 2011 Catalogue to 35 in the 2015 Catalogue.
    \83\ National Development and Reform Commission and Ministry of 
Commerce, ``Foreign Investment Guidance Catalogue (2015 Revision)'' 
[Waishang touzi chanye zhidao mulu (2015 nian xiuding)], issued 10 
March 15, effective 10 April 15, 24, sec. 11, items 25-28.
    \84\ ``Finalized Catalogue Guiding Foreign Investment in Industry 
Falls Short,'' US-China Business Council, 18 March 15.
    \85\ Carlos Tejada, ``U.S. Business Groups Ask China To Postpone 
New Cybersecurity Review,'' Wall Street Journal, 29 January 15.
    \86\ PRC National Security Law [Zhonghua renmin gongheguo guojia 
anquan fa], passed and effective 1 July 15.
    \87\ ``Treasury Sees Chinese `National Security' Review Tools 
Undercutting BIT,'' China Trade Extra, 17 July 15; PRC National 
Security Law [Zhonghua renmin gongheguo guojia anquan fa], passed and 
effective 1 July 15, art. 59; Covington & Burling LLP, ``China Enacts 
New National Security Law,'' 2 July 15.
    \88\ PRC Cyber Security Law (Draft) [Zhonghua renmin gongheguo 
wangluo anquan fa (cao'an)], 6 July 15.
    \89\ Ibid., art. 31; King & Wood Mallesons, ``Cyber Security Draft 
Law Tightens Rules on China's Network Security--What Does It Mean for 
You?'' 29 July 15.
    \90\ ``China Announces Plans for Pilot Free Trade Zones,'' Xinhua, 
20 April 15.
    \91\ Ibid.
    \92\ ``Shanghai Free-Trade Zone No Big Deal, Say US Firms,'' Agence 
France-Presse, reprinted in South China Morning Post, 4 March 15.
    \93\ Office of Public Affairs, U.S. Department of Commerce, ``Fact 
Sheet: 25th U.S.-China Joint Commission on Commerce and Trade,'' 19 
December 14.
    \94\ Office of the U.S. Trade Representative, ``Remarks by 
Ambassador Michael Froman to AmCham China and the U.S. Chamber of 
Commerce,'' 27 April 15.
    \95\ Chinese Communist Party Central Committee, Decision on Some 
Major Issues Concerning Comprehensively Deepening the Reform, reprinted 
in China Internet Information Center, 16 January 14, chap. 3, paras. 9-
13.
    \96\ Office of the U.S. Trade Representative, ``Remarks by 
Ambassador Michael Froman to AmCham China and the U.S. Chamber of 
Commerce,'' 27 April 15.
    \97\ ``China's Antitrust Regulators Defend Probes; Qualcomm Inquiry 
Nearly Over,'' Reuters, 11 September 14.
    \98\ Office of the U.S. Trade Representative, ``2014 Report to 
Congress on China's WTO Compliance,'' December 2014, 3-4. See also 
Hearing on the Foreign Investment Climate in China: Present Challenges 
and Potential for Reform, Hearing of the U.S.-China Economic and 
Security Review Commission, 28 January 15, Testimony of Dan Harris, 
Founder/Partner, Harris Moure.
    \99\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A), 2.
    \100\ Office of Public Affairs, U.S. Department of Commerce, 
``U.S.-China Joint Fact Sheet on 25th Joint Commission on Commerce and 
Trade,'' 29 December 14.
    \101\ Office of the U.S. Trade Representative, ``2014 Report to 
Congress on China's WTO Compliance,'' December 2014, 27, 88.
    \102\ Adam Jourdan and Ben Hirschler, ``China Hands Drugmaker GSK 
Record $489 Million Fine for Paying Bribes,'' Reuters, 19 September 14; 
Keith Bradsher, ``No Longer Business as Usual in China,'' New York 
Times, 9 November 14.
    \103\ Covington & Burling LLP, ``Measures and Practices Restraining 
Foreign Investment in China,'' Prepared for the European Commission 
Directorate-General for Trade, 10 August 14, 63.
    \104\ U.S. Securities and Exchange Commission, Form 10-Q, Qualcomm, 
Inc., 22 April 15, 13; Price Monitoring Office, National Development 
and Reform Commission, NDRC Administrative Penalty Decision, Price 
Monitoring Office Penalty, 2015 No. 1 [Xingzheng chufa jueding shu, fa 
gai ban jia jian chufa (2015) 1 hao], 2 March 15.
    \105\ William Pesek, ``China Will Pay Most for Qualcomm Fines,'' 
Bloomberg, 10 February 15.
    \106\ Keith Bradsher and Chris Buckley, ``China Fines 
GlaxoSmithKline Nearly $500 Million in Bribery Case,'' New York Times, 
19 September 14.
    \107\ Ibid.; Keith Bradsher, ``No Longer Business as Usual in 
China,'' New York Times, 9 November 14.
    \108\ State Council, ``Report on the Work of the Government,'' 
reprinted in Xinhua, 16 March 15, sec. 3.
    \109\ Office of the U.S. Trade Representative, ``Remarks by 
Ambassador Michael Froman to AmCham China and the U.S. Chamber of 
Commerce,'' 27 April 15.
    \110\ Jing Yang, ``Merger of Train Giants CSR and CNR Flags 
Consolidation in China State Sector,'' South China Morning Post, 1 
January 15; Lingling Wei and Brian Spegele, ``China Considering Mergers 
Among Its Big State Oil Companies,'' Wall Street Journal, 17 February 
15.
    \111\ Scott Cendrowski, ``China's Global 500 Companies Are Bigger 
Than Ever--And Mostly State-Owned,'' Fortune, 22 July 15.
    \112\ Grace Tam et al., J.P. Morgan Asset Management, ``Market 
Insights: Market Bulletin,'' 30 March 15, 3. Seventy-seven percent of 
the market capitalization for the CSI 300 index and 87 percent of the 
Hang Seng China Enterprise Index are SOEs.
    \113\ Li Xiang, ``Stock Crisis Buffer Fund Proposed,'' China Daily, 
13 July 15; Wayne M. Morrison and Gabriel M. Nelson, Congressional 
Research Service, ``China's Recent Stock Market Volatility: What Are 
the Implications?'' 20 July 15; Petar Kunjundzic, ``China's Stock 
Market Stimulus Has Cost Over $1 Trillion So Far,'' Reuters, 5 August 
15. The article cites Christopher Balding, a Peking University 
political economics professor, as saying that the stimulus provided as 
of August 5, 2015, had already reached US$1.3 trillion. Balding 
described the stimulus as ``far and away the largest economic support 
package in history.'' Patrick Chovanec, ``China Destroyed Its Stock 
Market in Order To Save It,'' Foreign Policy, 16 July 15.
    \114\ James T. Areddy, ``China's Former Security Chief Zhou 
Yongkang Sentenced to Life in Prison,'' Wall Street Journal, 11 June 
15.
    \115\ David Lague et al., ``Special Report: Inside Xi Jinping's 
Purge of China's Oil Mandarins,'' Reuters, 25 July 14; ``China Ex-
Security Chief Zhou Yongkang Sentenced to Life in Prison, Will Not 
Appeal,'' South China Morning Post, 11 June 15.
    \116\ ``China's Jiang Jiemin Raises No Objections at His Trial for 
Corruption and Bribery,'' South China Morning Post, 15 April 15.
    \117\ Office of International Trade, U.S. Customs and Border 
Protection, U.S. Department of Homeland Security, ``Intellectual 
Property Rights Seizure Statistics Fiscal Year 2014,'' last visited 23 
July 15, 10. These percentages are based on manufacturers' suggested 
retail prices (MSRP).
    \118\ Office of International Trade, U.S. Customs and Border 
Protection, U.S. Department of Homeland Security, ``Intellectual 
Property Rights Fiscal Year 2013 Seizure Statistics,'' last visited 23 
July 15, 11. These percentages are based on manufacturers' suggested 
retail prices (MSRP).
    \119\ Office of International Trade, U.S. Customs and Border 
Protection, U.S. Department of Homeland Security, ``Intellectual 
Property Rights Fiscal Year 2012 Seizure Statistics,'' last visited 23 
July 15, 10. These percentages are based on manufacturers' suggested 
retail prices (MSRP).
    \120\ Office of the U.S. Trade Representative, ``2015 Special 301 
Report,'' April 2015, 1, 32-43.
    \121\ Office of the U.S. Trade Representative, ``2014 Out-of-Cycle 
Review of Notorious Markets,'' 5 March 15, 20.
    \122\ Ibid., 13-14.
    \123\ Keith Zhai, ``China Opens Intellectual Property Courts To 
Improve Image,'' Bloomberg, 3 November 14.
    \124\ Supreme People's Court, Provisions on the Jurisdiction of 
Beijing, Shanghai, and Guangzhou Intellectual Property Court Cases 
[Guanyu beijing, shanghai, guangzhou zhishi chanquan fayuan anjian 
guanxia de guiding], issued 31 October 14, effective 3 November 14, 
art. 1.
    \125\ Supreme People's Court, ``The Status of Judicial Protection 
for Intellectual Property Protection in Chinese Courts in 2014'' 
[Zhongguo fayuan zhishi chanquan sifa baohu zhuangkuang (2014)], 20 
April 15.
    \126\ State Administration for Industry and Commerce, ``Annual 
Development Report on China's Trademark Strategy in 2014'' [Zhongguo 
shangbiao zhanlue niandu fazhan baogao (2014)], April 2015, 5.
    \127\ State Intellectual Property Office, `` `PRC Patent Law (Draft 
for Comment)' Comparison of Provisions'' [``Zhonghua renmin gongheguo 
zhuanli fa xiugai cao'an (zhengqiu yijian gao)'' tiaowen duizhao], 1 
April 15.
    \128\ Office of the U.S. Trade Representative, ``2015 Special 301 
Report,'' April 2015, 33-34.
    \129\ ``AMSC Provides Update on Sinovel Litigation,'' Globe 
Newswire, reprinted in AMSC, 23 April 15.
    \130\ Office of the Press Secretary, The White House, ``Executive 
Order--Blocking the Property of Certain Persons Engaging in Significant 
Malicious Cyber-Enabled Activities,'' 1 April 15, secs. 1, 6(a). The 
Executive Order states, ``All property and interests in property that 
are in the United States, that hereafter come within the United States, 
or that are or hereafter come within the possession or control of any 
United States person of the following persons are blocked and may not 
be transferred, paid, exported, withdrawn, or otherwise dealt in: . . . 
.'' Ellen Nakashima, ``U.S. To Establish Sanctions Program To Combat 
Cyberattacks, Cyberspying,'' Washington Post, 1 April 15.
    \131\ Office of Public Affairs, U.S. Department of Justice, 
``Chinese Professors Among Six Defendants Charged With Economic 
Espionage and Theft of Trade Secrets for Benefit of People's Republic 
of China,'' 19 May 15. Jinping Chen was only charged with conspiracy to 
commit the crimes.
    \132\ Adam Segal, ``Was There Progress on Cyber at the U.S.-China 
Strategic and Economic Dialogue?'' Council on Foreign Relations, Net 
Politics (blog), 25 June 15; ``China Suspends Cyber Working Group 
Activities With US To Protest Cyber Theft Indictment,'' Xinhua, 
reprinted in China Daily, 20 May 14.
    \133\ Ellen Nakashima and William Wan, ``U.S. Announces First 
Charges Against Foreign Country in Connection With Cyberspying,'' 
Washington Post, 19 May 14. See also Chinese Communist Economic 
Espionage Sanctions Act of 2014, H.R. 5103, 113th Cong., 14 July 14. 
H.R. 5103 was not enacted.
    \134\ Gina Chon, ``FBI Blames China for 53% Spy Case Surge,'' 
Financial Times, 23 July 15; Wesley Bruer, ``FBI Sees Chinese 
Involvement Amid Sharp Rise in Economic Espionage Cases,'' CNN, 24 July 
15.
    \135\ Ibid.
    \136\ Charles Clover, ``Ren Zhengfei Rebuts Accusations That Huawei 
Spies for China,'' Financial Times, 22 January 15.
    \137\ Christopher Joye, ``Transcript: Interview With Former CIA, 
NSA Chief Michael Hayden,'' Australian Financial Review, 19 July 13.
    \138\ Ibid.
    \139\ World Trade Organization, ``Protocols of Accession for New 
Members Since 1995, Including Commitments in Goods and Services,'' last 
visited 15 July 15; U.S. Government Accountability Office, ``World 
Trade Organization: Analysis of China's Commitments to Other Members,'' 
October 2002, 12-13. The GAO analysis found that ``China made 685 WTO 
commitments, including 77 transparency commitments, 57 commitments 
related to laws and regulations, and 67 nondiscrimination 
commitments.''
    \140\ Office of the U.S. Trade Representative, ``2015 National 
Trade Estimate Report on Foreign Trade,'' 1 April 15, 69.
    \141\ U.S. Census Bureau, ``Trade in Goods With China,'' last 
visited 23 June 15.
    \142\ Ibid.
    \143\ Will Kimball and Robert E. Scott, Economic Policy Institute, 
``China Trade, Outsourcing and Jobs,'' 11 December 14, 10.
    \144\ Office of International Affairs, U.S. Department of the 
Treasury, ``Report to Congress on International Economic and Exchange 
Rate Policies,'' 9 April 15, 3, 13-14.
    \145\ International Monetary Fund, ``IMF Staff Completes the 2015 
Article IV Consultation Mission to China,'' Press Release No. 15/237, 
26 May 15; Ian Talley, ``IMF to Brighten View of China's Yuan,'' Wall 
Street Journal, 3 May 15. See also Office of International Affairs, 
U.S. Department of the Treasury, ``Report to Congress on International 
Economic and Exchange Rate Policies,'' 9 April 15, 3, 13-14.
    \146\ James K. Jackson, Congressional Research Service, ``China's 
Currency Devaluation,'' 17 August 15; Heather Stewart, ``Eight Reasons 
Why China's Currency Crisis Matters to Us All,'' Observer, reprinted in 
Guardian, 15 August 15.
    \147\ Guo Liqin, ``Ministry of Commerce Official: Renminbi 
Devaluation Good for Exports, Impact on Investment Limited'' [Shangwubu 
guanyuan: renminbi bianzhi li hao chukou dui touzi yingxiang youxian], 
First Financial, reprinted in Sina, 12 August 15; Brian Spegele, ``Yuan 
Devaluation Won't Fix All for China's Exporters,'' Wall Street Journal, 
11 August 15. See also James K. Jackson, Congressional Research 
Service, ``China's Currency Devaluation,'' 17 August 15.
    \148\ State Council, ``Report on the Work of the Government,'' 
reprinted in Xinhua, 16 March 15, 3.
    \149\ State Council, ``Full Transcript of Policy Briefing of the 
State Council on Jan 16, 2015,'' 16 January 15.
    \150\ ``21 Asian Countries Sign MOU on Establishing Asian 
Infrastructure Investment Bank,'' Xinhua, 24 October 14.
    \151\ Cary Huang, ``57 Nations Approved as Founder Members of 
China-Led AIIB,'' South China Morning Post, 27 April 15.
    \152\ Andrew Higgins and David E. Sanger, ``3 European Powers Say 
They Will Join China-Led Bank,'' New York Times, 17 March 15.
    \153\ Brenda Goh et al., ``Three Major Nations Absent as China 
Launches World Bank Rival in Asia,'' Reuters, 4 November 14.
    \154\ ``Asian Infrastructure Investment Bank: Following the 
Money,'' Economist, 17 March 15.
    \155\ ``Xi Jinping Speech at Opening Ceremony of Boao Forum for 
Asia'' [Xi jinping bo'ao yazhou luntan kaimushi shang de yanjiang], 
CCTV, reprinted in China Daily, 30 March 15.
    \156\ Ed Silverman, ``FDA Warns Chinese Ingredients Maker About 
`Basic' Manufacturing Problems,'' Wall Street Journal, Pharmalot 
(blog), 5 January 15; OSI Group, ``OSI China Ready for a Restart,'' 
South China Morning Post, 19 January 15; ``KFC Sues Chinese Companies 
for Online Rumors About Its Food,'' Associated Press, reprinted in 
CNBC, 1 June 15.
    \157\ U.S. Government Accountability Office, ``Food Safety: 
Additional Actions Needed To Help FDA's Foreign Offices Ensure Safety 
of Imported Food,'' January 2015, 10.
    \158\ Ibid., 23.
    \159\ U.S. Food and Drug Administration, U.S. Department of Health 
and Human Services, Novacyl Wuxi Pharmaceutical Co., Ltd. 12/19/14, 
``Warning Letter, WL: 320-15-04,'' 19 December 14.
    \160\ Dan Levin, ``In China, Illegal Drugs Are Sold Online in an 
Unbridled Market,'' New York Times, 21 June 15; Abigail Hauslohner and 
Peter Hermann, ``The Scariest Thing About Synthetic Drugs Is Everything 
That's Unknown,'' Washington Post, 18 July 15.
    \161\ Laurie Burkitt, ``Food Processor OSI Faces Fresh Setback in 
China,'' Wall Street Journal, 6 January 15; OSI Group, ``OSI China 
Ready for a Restart,'' South China Morning Post, 19 January 15.
    \162\ Laurie Burkitt, ``Food Processor OSI Faces Fresh Setback in 
China,'' Wall Street Journal, 6 January 15.
    \163\ KFC, ``Striking Back Against Internet Rumors: KFC Files 
Lawsuit Against 10 Weixin Accounts'' [Daxiang wangluo yaoyan fanji zhan 
kendeji jiang 10 ge weixin zhanghao gaoshang fayuan], June 2015; ``KFC 
Sues Chinese Companies for Online Rumors About Its Food,'' Associated 
Press, reprinted in CNBC, 1 June 15.
    \164\ PRC Food Safety Law [Zhonghua renmin gongheguo shipin anquan 
fa], passed 28 February 09, amended 24 April 15, effective 1 October 
15; ``China's Legislature Passes Toughest Food Safety Law Amendment,'' 
Xinhua, 24 April 15.
    \165\ ``Strictest `Food Safety Law' in History Effective October 
1'' [Shishang zuiyan ``shiping anquan fa'' 10 yue 1 ri shishi], Daily 
News, reprinted in Xinhua, 2 May 15.
    \166\ PRC Advertising Law [Zhonghua renmin gongheguo guanggao fa], 
passed 27 October 94, amended 24 April 15, effective 1 September 15.
    \167\ Ibid., art. 20; John Ruwitch, ``Amended China Law Curbs 
Tobacco Ads in Land of Smokers,'' Reuters, 24 April 15; John Balzano, 
``Revised Food Safety Law in China Signals Many Changes and Some 
Surprises,'' Forbes, 3 May 15.

                           Access to Justice


                              Introduction

    Chinese citizens continued to turn to the legal system for 
help when they were harmed by environmental hazards,\1\ unsafe 
food,\2\ discrimination,\3\ and other causes.\4\ Chinese law 
allows citizens to use the legal system to dispute unlawful 
government acts.\5\ International human rights instruments, 
such as the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, likewise 
call for the ability of citizens to obtain effective legal 
remedies when their rights are violated.\6\ During the 2015 
reporting year, however, the Commission observed a persistent 
gap between the Chinese government's rhetoric regarding the 
importance of laws and the actual ability of citizens to use 
the legal system to protect their rights.\7\ Recent judicial 
reforms indicate recognition by the Chinese government that the 
current system is dysfunctional,\8\ and official media has 
touted that the revised PRC Administrative Litigation Law 
``will make it easier for citizens to take the government to 
court.'' \9\ It is too soon, however, to determine fully the 
impact of these developments. Teng Biao, a Chinese lawyer, 
explained that ``[t]he major problem with rule of law in 
mainland China is not establishing legal provisions but rather 
implementing laws.'' \10\

                 The Fourth Plenum and Judicial Reforms

    In October 2014, the Chinese Communist Party's leaders 
gathered for the Fourth Plenum of the 18th Party Congress 
Central Committee and issued the Decision on Several Major 
Issues in Comprehensively Advancing Governance of the Country 
According to Law (Fourth Plenum Decision).\11\ The purposes of 
the Fourth Plenum Decision, according to the government's June 
2015 report on ``Progress in China's Human Rights in 2014,'' 
were ``to protect civic rights, to defend human dignity and to 
put basic human rights into practice.'' \12\ The Fourth Plenum 
Decision reportedly underscored President and Party General 
Secretary Xi Jinping's effort to boost public confidence in the 
legal system \13\ by outlining a number of structural reforms 
to judicial institutions, including: \14\

        <bullet>  Emphasizing that judges should not be removed 
        except for legal reasons and unless legal procedures 
        are followed; \15\
        <bullet>  Creating a ``lifetime'' (zhongshen) 
        responsibility system whereby judges are responsible 
        throughout their careers for cases that they 
        adjudicated; \16\
        <bullet>  Ensuring that courtroom hearings play a 
        decisive role in ascertaining facts and impartial 
        adjudication,\17\ which could entail reconsidering the 
        role of court ``adjudication committees'' (shenpan 
        weiyuanhui) that currently can instruct judges on how 
        to decide certain cases; \18\
        <bullet>  Introducing a model whereby judges are 
        promoted from lower courts; \19\
        <bullet>  Changing from a ``case filing review system'' 
        (li'an shencha zhi) to a ``case filing registration 
        system'' (li'an dengji zhi); \20\ and
        <bullet>  Establishing ``circuit tribunals'' (xunhui 
        fating) to try major administrative or civil commercial 
        cases involving more than one province.\21\ Two of 
        these tribunals reportedly heard their first cases by 
        May 2015.\22\

    The Fourth Plenum Decision also endorsed improving the 
legal aid system and expanding the scope of aid, with the 
stated objective of ensuring that citizens may obtain timely 
and effective legal assistance when their rights were infringed 
upon.\23\ This past year, the Commission observed efforts with 
respect to the provision of legal aid in at least one domestic 
violence case,\24\ a development that coincided with the public 
release of the draft PRC Anti-Domestic Violence Law.\25\ At 
present, however, the scope of government-funded legal aid 
remains limited. For example, free legal assistance is 
available to criminal defendants only when the defendant is 
facing life imprisonment or death \26\ or when certain 
vulnerable populations like minors or people who are blind, 
deaf, or mute are involved.\27\ Amendments to the laws 
governing civil and administrative cases that restrict the 
ability of non-lawyers to represent parties also reportedly may 
cause citizens to try to resolve their grievances outside the 
legal system.\28\ Such ``barefoot'' non-lawyers offer an 
alternative source of assistance when litigants cannot afford 
or find lawyers to take their cases.\29\
    In February 2015, the Supreme People's Court (SPC) publicly 
released its fourth five-year reform plan (SPC Reform 
Plan),\30\ which echoed themes in the Fourth Plenum 
Decision.\31\ The SPC Reform Plan called for establishing 
mechanisms to prevent official interference in judicial 
activities,\32\ but articles in state- and Party-run Chinese 
media emphasized that the Chinese government was not adopting a 
model of judicial independence based on the United States or 
other Western nations.\33\ SPC President Zhou Qiang said that 
courts must ``resolutely resist the influence of mistaken 
Western viewpoints and ways of thinking . . . .'' \34\ The 
Fourth Plenum Decision indicated the Party's continuing 
interaction with the courts by calling on the Party to 
``support the courts and procuratorates in exercising their 
functions and authorities independently and fairly according to 
the law.'' \35\ Furthermore, the Fourth Plenum Decision called 
on the Party's political-legal committees to continue to 
``ensure that China's Constitution and laws are implemented 
correctly and uniformly.'' \36\ Reports indicate that the 
committees' interference might be decreasing,\37\ but a spate 
of recent resignations by judges \38\ is attributed in part to 
complaints about outside interference in their work.\39\
    During the reporting year, the government and Party 
similarly took a hardline stance against ``Western'' 
constitutionalism,\40\ despite the Fourth Plenum Decision's use 
of language on the importance of China's Constitution \41\ and 
the Chinese government's declaration that ``Constitution Day'' 
would be commemorated on December 4.\42\ The ability of 
citizens to invoke the Constitution as a basis for challenging 
government actions remains limited.\43\ The National People's 
Congress Standing Committee has exclusive power to interpret 
and supervise enforcement of China's Constitution.\44\
    The extent to which the Fourth Plenum Decision and SPC 
Reform Plan will ultimately translate into concrete 
improvements in the judicial system remains unclear. Scholars 
have debated the significance of the Fourth Plenum Decision--
including what is meant by ``advancing governance of the 
country according to law'' \45\--when, as noted by scholars in 
a July 2015 Asia Policy roundtable, the Decision ``also 
underscores the [Party's] sustained leadership over the Chinese 
legal system.'' \46\ One U.S. expert on Chinese law raised 
questions concerning how to reconcile the Fourth Plenum 
Decision's support for the importance of the legal system with 
the crackdown on freedoms of expression, assembly, and 
association observed this past year.\47\

                         Judicial Transparency

    The theme of government transparency runs throughout the 
Fourth Plenum Decision.\48\ The Chinese government began 
implementing the Open Government Information Regulations in 
2008,\49\ but citizens have continued to face substantial 
obstacles when seeking information from the government.\50\ The 
SPC had likewise previously been slow to increase transparency 
and did not create a national online database until 2013.\51\ 
[For more information on government transparency, see Section 
III--Institutions of Democratic Governance.]
    This past year, the judiciary emphasized mechanisms for 
enhancing transparency. In March 2015, the SPC issued a white 
paper on judicial transparency that called for greater access 
to trials, increased use of electronic filing systems, and 
expanded access to case decisions.\52\ When releasing the white 
paper, He Xiaorong, office director of the SPC Judicial Reform 
Leading Group, told reporters that, by the end of 2014, Chinese 
courts had uploaded nearly six million court judgments to the 
public database.\53\ Access to such a vast pool of cases could 
help to ``develop a body of precedents to guide the legal 
community and create judicial transparency and accountability 
to address public concerns about the fairness of the litigation 
system,'' according to a December 2014 post on the American 
Chamber of Commerce in Shanghai website.\54\
    The SPC released its 10th batch of ``guiding cases'' in 
April 2015.\55\ In June 2015, the SPC issued rules specifying 
how judges should refer to guiding cases in subsequent 
cases.\56\ The rules explained that judges should respond when 
parties raise guiding cases when arguing their positions to the 
court,\57\ and SPC officials reportedly ``stressed the use of 
referential precedent to ensure fairer judgements.'' \58\

                 Citizen Petitioning and Revisions to 
                   the Administrative Litigation Law

    The PRC Administrative Litigation Law (ALL),\59\ which 
provides a framework for citizens to challenge government 
actions in court,\60\ underwent significant revisions during 
the past reporting year.\61\ Application of the law, which 
initially took effect 25 years ago,\62\ was hindered by common 
barriers referred to as the ``three difficulties'' (san nan): 
difficulties in filing cases, trying cases, and enforcing 
judgments.\63\ Following passage by the National People's 
Congress Standing Committee in November 2014, revisions to the 
ALL took effect on May 1, 2015.\64\ Revised provisions 
included, among others:

        <bullet> Expanding the scope of permitted cases by 
        eliminating the ``specific administrative act'' 
        requirement in the previous version of the ALL; \65\
        <bullet> Listing 12 areas for which legal proceedings 
        may be launched against the government, such as alleged 
        violations of agreements on land and housing 
        compensation, disputes over administrative detention, 
        and abuse of administrative power; \66\ and
        <bullet> Requiring that a representative of the 
        relevant administrative agency appear in court.\67\

    Announcement of the amendments was followed by an April 
2015 SPC interpretation that provided additional guidance on 
issues such as procedures for filing cases and examples of 
litigation demands that meet the legal standard.\68\ The 
Commission has not observed statistics establishing whether 
these recent reforms have begun to address long-standing 
obstacles to administrative cases.
    Chinese official media expressed hope that a byproduct of 
the ALL revisions would be to increasingly funnel citizen 
complaints away from the petitioning (xinfang) system--through 
which individuals with grievances seek redress from government 
officials \69\--and toward the courts.\70\ According to a 
November 2014 media report, more than 4 million petitions 
involving administrative disputes have been filed annually.\71\ 
Wang Cailiang, a lawyer and deputy director of the All China 
Lawyers Association Administrative Law Committee, told the 
media, ``With the [ALL] amendment, many more people would see 
the courts as an avenue to seek justice, instead of going to 
Beijing hoping to talk to officials.'' \72\
    The basic legal framework for the petitioning system--the 
2005 Regulations on Letters and Visits (2005 Regulations)--
remained unchanged during the 2015 reporting year.\73\ The 
Party and government continued to discuss proposals that were 
addressed during the 2014 reporting year,\74\ including with 
respect to channeling law- and litigation-related petitions 
through legal channels \75\ and increasing the use of online 
petitioning.\76\ In May 2015, the Ministry of Justice issued 
the Opinion Regarding Further Strengthening Law- and 
Litigation-Related Petition Work and the Measures on Judicial 
and Administrative Agencies To Conclude Petitioning 
Matters.\77\ Also in May 2015, the State Bureau for Letters and 
Visits announced plans to consider drafting a petitioning law 
to improve the 2005 Regulations.\78\

                 Harassment and Abuse of Human Rights 
                      and Public Interest Lawyers

    During the 2015 reporting year, the Chinese government used 
criminal investigations and charges against citizens who 
engaged in activities that allegedly threatened the existing 
political system.\79\ Lawyers who represented people seeking to 
safeguard their rights \80\ also faced reprisals.\81\ In 
December 2014, for example, hundreds of lawyers signed a letter 
protesting the detention of lawyer Zhang Keke after he openly 
invoked in court the rights to freedom of speech and religion 
provided for in China's Constitution.\82\ In May 2015, the 
government charged public interest lawyer Pu Zhiqiang with 
``inciting ethnic hatred'' \83\ and ``picking quarrels and 
provoking trouble'' \84\ related to comments from his microblog 
accounts.\85\ Pu was among the 14 Chinese civil rights 
advocates profiled in a 2005 issue of the Hong Kong-based Asia 
Weekly.\86\ According to the Economist, ``All of the activists 
pictured on the magazine's cover have since been imprisoned, 
detained, beaten or threatened, except for one lawyer who had 
already fled the country into exile in Canada.'' \87\
    Other cases of concern during the 2015 reporting year 
included:

        <bullet>  Xia Lin. Public security officers in Beijing 
        municipality took lawyer Xia Lin into custody in 
        November 2014 and subsequently criminally detained him 
        on suspicion of ``fraud.'' \88\ Chinese Human Rights 
        Defenders raised concerns that Xia's ongoing detention 
        may be retaliation for representing Pu Zhiqiang and Guo 
        Yushan, founder of the NGO Transition Institute.\89\
        <bullet> Tang Jingling. In May 2014, public security 
        officials in Baiyun district, Guangzhou city, Guangdong 
        province, took human rights lawyer Tang Jingling from 
        his home and later criminally detained him on suspicion 
        of ``picking quarrels and provoking trouble.'' \90\ 
        Authorities arrested Tang on the charge of ``inciting 
        subversion of state power.'' \91\ The trial of Tang and 
        two other rights advocates concluded in July 2015,\92\ 
        but authorities had not announced a verdict as of 
        September 2015. Tang gained prominence as a rights 
        lawyer working on cases related to land seizures and 
        corruption.\93\ His 2014 detention reportedly was 
        linked to a larger crackdown around the 25th 
        anniversary of the violent suppression of the 1989 
        Tiananmen protests.\94\
        <bullet> Yu Wensheng. In October 2014, authorities 
        criminally detained Yu Wensheng, a well-known human 
        rights lawyer, on suspicion of ``picking quarrels and 
        provoking trouble.'' \95\ Reports suggested that Yu's 
        detention was linked to his efforts to meet with a 
        client whom authorities detained for his support of the 
        2014 pro-democracy protests in Hong Kong.\96\ 
        Authorities released Yu in January 2015,\97\ but his 
        wife issued a statement in June 2015 reporting that 
        domestic security officials had been harassing Yu and 
        his family at their home.\98\
        <bullet> Qu Zhenhong. In May 2014, public security 
        officials in Beijing took into custody lawyer Qu 
        Zhenhong, the niece and defense counsel for Pu 
        Zhiqiang, on suspicion of ``illegally gathering 
        citizens' information.'' \99\ Following her formal 
        arrest, authorities released Qu on bail in May 
        2015.\100\

    Despite the personal risks underscored by the cases 
described above, lawyers continued to provide advice to 
citizens who sought to access the legal system during this 
reporting year in cases that involve issues such as religious 
freedom,\101\ opposition to forced eviction,\102\ and freedom 
of speech and association.\103\ The mainland China-based China 
Human Rights Lawyers Group, members of which provide legal 
services to citizens who have been detained for exercising 
their civil rights,\104\ marked its one-year anniversary in 
September 2014 with 225 participating lawyers.\105\

          JULY 2015 CRACKDOWN ON RIGHTS LAWYERS AND ADVOCATES

    Beginning on July 9, 2015, Chinese authorities took into 
custody more than 200 lawyers and rights advocates within a 48-
hour time period in what appeared to be a nationwide, 
coordinated crackdown.\106\ As of September 1, 2015, 
authorities from 24 provinces and provincial-level 
municipalities had summoned for questioning, harassed, 
prevented from leaving China, or had taken into custody at 
least 300 lawyers, law firm staff, rights advocates, and some 
of their family members; 23 remained in detention or were being 
held under `` `residential surveillance' in unknown 
locations,'' according to Chinese Human Rights Defenders.\107\ 
The crackdown received widespread condemnation from foreign 
governments,\108\ international non-governmental organizations 
and bar associations,\109\ and scholars.\110\ In a letter to 
Chinese President and Communist Party General Secretary Xi 
Jinping that urged the immediate release of all of the detained 
individuals in the crackdown, the New York City Bar Association 
noted, ``Chinese law and international standards protect the 
rights of lawyers in China both to practice their profession 
and to carry out their professional duties to clients free of 
government interference. These detentions violate those 
standards and undermine the rule of law.'' \111\ [For 
information on some of the detained lawyers' cases, see Section 
I--Findings--Access to Justice.]
    Notes to Section III--Access to Justice

    \1\ ``Landmark Case on Lead Poisoning in Children Begins in 
China,'' Reuters, reprinted in Guardian, 12 June 15; Alexandra Harney, 
``Lead Poisoning Lawsuit Tests China's Resolve Over Pollution,'' 
Reuters, reprinted in The Age, 6 May 15; ``Wuhan Residents' Pollution 
Case Filed Against Guodingshan Garbage Incinerator Plant Seeking 7 Yuan 
Compensation'' [Wuhan jumin gao guodingshan laji fenshao chang wuran 
huo li'an, suopei 7 yuan], The Paper, 18 April 15; ``5 Lanzhou 
Residents Suing `Lanzhou Veolia' Are Finally Able To File Case'' 
[Lanzhou 5 shimin su ``yang shuiwu'' zhong huo li'an], Legal Daily, 26 
February 15. For other examples of citizens attempting to use the legal 
system to address environmental concerns, see Dominique Patton, 
``Chinese Citizens Sue Government Over Transparency on Monsanto 
Herbicide,'' Reuters, 8 April 15; ``Court Hearing China's Landmark NGO 
Environmental Lawsuit,'' China Daily, 15 May 15.
    \2\ Zheng Caixiong, ``Half of Poisoned Food Cases Involved Pork,'' 
China Daily, 10 July 15. Under the revised PRC Food Safety Law, 
violators are liable for compensation when they cause harm to 
consumers. National People's Congress, PRC Food Safety Law [Zhonghua 
renmin gongheguo shipin anquan fa], passed 28 February 09, amended 24 
April 15, effective 1 October 15, arts. 126, 147, 148.
    \3\ China Labour Bulletin, ``Plaintiff Awarded 2,000 Yuan by Court 
in Hangzhou Gender Discrimination Case,'' 13 November 14; China Labour 
Bulletin, ``Plaintiff Obtains 30,000 Yuan in China's First Gender 
Discrimination Lawsuit,'' 9 January 14.
    \4\ Supreme People's Court, Supreme People's Court Work Report 
[Zuigao renmin fayuan gongzuo baogao], 12 March 15, 39. See also Susan 
Finder, ``Supreme People's Court President Says Court Reforms in `Deep 
Water Area,' '' Supreme People's Court Monitor (blog), 15 March 15.
    \5\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, amended 1 November 14, 
effective 1 May 15, art. 11; Supreme People's Court Interpretation 
Regarding Several Questions on the Application of the PRC 
Administrative Litigation Law [Zuigao renmin fayuan guanyu shiyong 
``zhonghua renmin gongheguo xingzheng susong fa'' ruogan wenti de 
jieshi], issued 20 April 15, effective 1 May 15, art. 1. See also Kevin 
J. O'Brien and Li Lianjiang, ``Suing the State: Administrative 
Litigation in Rural China,'' China Journal, No. 51 (January 2004).
    \6\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 8; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 2. China signed the ICCPR in 1998 but has 
not yet ratified it. ``Over One Hundred Lawyers and Citizens Urge 
National People's Congress To Ratify International Conventions on Human 
Rights and Enact Press Laws'' [Yu bai lushi ji gongmin yu renda pizhun 
guoji gongyue baozhang renquan ji banbu xinwen fa], Radio Free Asia, 10 
March 15.
    \7\ Rachel Lu, ``China's President Raises Eyebrows With Sharp 
Rhetoric on Rule of Law,'' Foreign Policy, TeaLeafNation (blog), 3 
February 15; Stanley Lubman, ``Chinese Rule of Law: The Rhetoric and 
the Reality,'' Wall Street Journal, China Real Time Report (blog), 4 
April 11.
    \8\ Susan Finder, ``China's Master Plan for Remaking Its Courts,'' 
The Diplomat, 26 March 15.
    \9\ Zhou Yu, ``Newly Amended Law Empowers Private Citizens To Sue 
Government,'' Global Times, 6 April 15. See also ``China Adopts 
Amendment to Administrative Procedure Law,'' Xinhua, 1 November 14; 
``Amendment to Administrative Procedure Law Hailed in China,'' Xinhua, 
24 December 13.
    \10\ ``Experts Pessimistic on CCP Fourth Plenum Proposals on Ruling 
the Country According to Law'' [Zhuanjia bu kanhao zhonggong si zhong 
quanhui tichu de yifa zhiguo], Radio Free Asia, 28 October 14.
    \11\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14. Various 
government agencies have issued follow-on documents. See, e.g., Supreme 
People's Procuratorate, Opinion Concerning Implementation of the 
``Chinese Communist Party Central Committee, Decision on Several Major 
Issues in Comprehensively Advancing Governance of the Country According 
to Law'' [Zuigao renmin jianchayuan guanyu guanche luoshi ``zhonggong 
zhongyang guanyu quanmian tuijin yifa zhiguo ruogan zhongda wenti de 
jueding'' de yijian], reprinted in Procuratorial Daily, 5 February 15; 
Supreme People's Court, Opinion Concerning Comprehensively Deepening 
People's Courts' Reform [Zuigao renmin fayuan guanyu quanmian shenhua 
renmin fayuan gaige de yijian], issued 26 February 15.
    \12\ State Council Information Office, ``Progress in China's Human 
Rights in 2014,'' reprinted in Xinhua, 8 June 15.
    \13\ ``Xi Stresses Boosting Public Confidence in Judicial System,'' 
Xinhua, 25 March 15; Luo Shuzhen, ``Have Strength To Reform and 
Innovate; Continue To Improve Judicial Credibility, Allow the People in 
Each Judicial Case To Have the Feeling of Fair Justice'' [Yongyu gaige 
chuangxin buduan tigao sifa gongxinli rang renmin qunzhong zai mei yi 
ge sifa tiaojian zhong dou ganshou dao gongping zhengyi], China Court 
Net, 8 May 15.
    \14\ For additional judicial reforms raised in the Fourth Plenum 
Decision, see Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
sec. 4 (``Guarantee Judicial Fairness, Raise Judicial Credibility''). 
The Fourth Plenum Decision did not propose increased centralization of 
court finances; instead, only limited local experimentation is 
underway. Wang Guibin, ``Shanghai Legal System Reform: Legal Inspection 
of Budget by Municipal Finance Bureau Administration'' [Shanghai sifa 
tizhi gaige: fajian yusuan you shi caizheng ju zhi guan], Beijing News, 
19 January 15; Supreme People's Court, ``Shanghai Deploys Pilot Program 
To Comprehensively Advance Legal System Reforms'' [Shanghai bushu 
quanmian tuijin sifa tizhi gaige shidian gongzuo], 24 April 15; Carl 
Minzner, ``Legal Reform in the Xi Jinping Era,'' Asia Policy, No. 20 
(July 2015), 6-7. Professor Donald Clarke noted that the centralization 
up to the provincial level of court finances and personnel appointments 
``is popular among [Chinese] legal academics but controversial among 
judges.'' Donald Clarke, ``The Fourth Plenum's `Decision': My Take,'' 
Chinese Law Prof Blog, 29 October 14. The centralization of court 
finances was reportedly considered following the Third Plenum of the 
18th Party Congress. See John Wagner Givens, Jamestown Foundation, 
``Fleshing Out the Third Plenum: The Direction of China's Legal 
Reform,'' China Brief, Vol. 14, No. 6, 21 March 14, 10.
    \15\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
4(1.3).
    \16\ Ibid., sec. 4(3.3).
    \17\ Ibid., sec. 4(3.2).
    \18\ Susan Finder, ``Where Is the Supreme People's Court Headed 
With Judicial Committee Reform?'' Supreme People's Court Monitor 
(blog), 21 December 14. For more information regarding the adjudication 
committee system and calls for its reform, see Zhu Lei, ``Committee 
Member Shi Jie's Proposal: Further Reform the System of Adjudication 
Committees'' [Shi jie weiyuan jianyi: jinyibu gaige shenpan weiyuanhui 
zhidu], Legal Daily, 6 March 15; Procedural Law Research Institute, 
China University of Political Science and Law, ``Consensus and 
Disagreement: Concerning Reform of the Court Adjudication Committee 
System'' [Gongshi yu fenqi: guanyu shenpan weiyuanhui zhidu gaige], 5 
May 15; ``Chen Ruihua: Mistakes in Justice--Comments on Court 
Adjudication Committee System'' [Chen ruihua: zhengyi de wuqu--ping 
fayuan shenpan weiyuanhui zhidu], Ai Sixiang, 11 October 11; Xin Frank 
He, ``China and Its Adjudication Committees,'' East Asia Forum, 3 
December 11.
    \19\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
6(1.3).
    \20\ Ibid., sec. 4(2.4). The Supreme People's Court subsequently 
issued provisions in April 2015. Zhang Ziyang, ``Supreme People's Court 
Issues `Provisions on Several Issues Regarding Case Registration and 
Filing' '' [Zuigao renmin fayuan gongbu ``guanyu renmin fayuan dengji 
li'an ruogan wenti de guiding''], Xinhua, reprinted in China News Net, 
16 April 15; Susan Finder, ``New Docketing Procedures Come to the 
Chinese Courts,'' Supreme People's Court Monitor (blog), 18 June 15.
    \21\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
4(2.3); Shannon Tiezzi, ``4 Things We Learned From China's 4th 
Plenum,'' The Diplomat, 23 October 14.
    \22\ ``Gavel Falls on Supreme People's Court First Circuit Court's 
First Case'' [Zuigao renmin fayuan diyi xunhui fating shou an luochui], 
People's Court Daily, reprinted in Xinhua, 5 May 15; ``Supreme People's 
Court Second Circuit Court Hears First Case in Shenyang'' [Zuigaofa 
di'er xunhui fating zai shenyang jin shen diyi an], China News Net, 
reprinted in People's Daily, 10 March 15.
    \23\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
5(3).
    \24\ See, e.g., ``Bozhou Establishes First Domestic Violence 
Shelter, Women Injured by Domestic Violence Can Receive Legal Aid'' 
[Bozhou chengli shoujia fan jiabao bihusuo; jiabao shouhai funu ke huo 
de falu yuanzhu], Bozhou Daily, reprinted in Hefei Hotline, 5 May 15.
    \25\ State Council Legislative Affairs Office, PRC Anti-Domestic 
Violence Law (Draft) (Draft for Comment) [Zhonghua renmin gongheguo fan 
jiating baoli fa (cao'an) (zhengqiu yijian gao)], 25 November 14; Simon 
Denyer, ``Battered Women in China Could Finally Get a Measure of Legal 
Protection,'' Washington Post, 6 March 15; ``China's Draft Domestic 
Violence Law `Largely Cosmetic': Feminists,'' Radio Free Asia, 30 July 
15; Liu Rong, ``Standing Committee of the National People's Congress 
Today Convened Its 16th Meeting, Anti-Domestic Violence Law Is Publicly 
Revealed'' [Quanguo renda changweihui jin zhaokai 16 ci hui fan jiabao 
fa chu liangxiang], People's Daily, reprinted in National People's 
Congress News Net, 24 August 15. For a report on how ordinary Chinese 
view domestic violence, see ``Heard in the Hutong: How Chinese View 
Domestic Violence,'' Wall Street Journal, China Real Time Report 
(blog), 8 May 15.
    \26\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34. See also Dui Hua Foundation, ``China's 
New Criminal Procedure Law: Death Penalty Procedures,'' Dui Hua Human 
Rights Journal, 3 April 12.
    \27\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 34, 266. See also ``New Issues and 
Countermeasures for Criminal Law Legal Aid System Following Revisions'' 
[Xingshi falu yuanzhu zhidu xiuding hou de xin wenti ji duice], China 
Court Net, reprinted in China Legal Aid Net, 13 May 14. For an example 
of a pro bono legal aid program see `` `Assistance Plan for the 
Wronged' Starting on Friday'' [``Mengyuanzhe yuanzhu jihua'' ben zhouwu 
qidong], Beijing Shangquan Law Firm (blog), 20 May 14.
    \28\ Aaron Halegua, ``China's Restrictions on Barefoot Lawyers 
Could Backfire,'' South China Morning Post, 29 March 15.
    \29\ Ibid.
    \30\ Supreme People's Court, Opinion on Comprehensively Deepening 
Reform of the People's Courts--Fourth Five-Year Outline for Reform of 
the People's Courts (2014-2018) [Zuigao renmin fayuan guanyu quanmian 
shenhua renmin fayuan gaige de yijian--renmin fayuan disi ge wu nian 
gaige gangyao (2014-2018)], 4 February 15; Xu Juan, ``Supreme People's 
Court Releases Post-Revision `Fourth Five-Year Reform Plan' '' 
[Zuigaofa fabu xiuding hou de ``si wu gaige gangyao''], People's Daily, 
27 February 15. The Ministry of Public Security, Supreme People's 
Procuratorate, and the Ministry of Justice also issued reform plans. 
``Comprehensively Deepening Public Security Reform Includes 
Cancellation of Temporary Residency Permit System Among 15 Prominent 
Highlights'' [Quanmian shenhua gong'an gaige han'gai quxiao zanzhuzheng 
zhidu deng 15 ge tuchu liangdian], People's Daily, reprinted in Legal 
Daily, 16 February 15; ``Opinion Concerning Deepening Procuratorial 
Reforms (2013-2017 Work Plan) (2015 Revised Edition)'' [Guanyu shenhua 
jiancha gaige de yijian (2013-2017 nian gongzuo guihua) (2015 nian 
xiudingban)], Procuratorial Daily, 26 February 15; ``Outline of the 
Procuratorate Reform Plan,'' translated in China Law Translate (blog), 
27 February 15; Ministry of Justice, ``Ministry of Justice: Fully Exert 
Judicial and Administrative Offices' Functional Roles, Earnestly 
Complete Comprehensive Advancements Towards Rule of Law in All Work'' 
[Sifabu: chongfen fahui sifa xingzheng jiguan zhineng zuoyong, renzhen 
zuo hao quanmian tuijin yifa zhiguo gexiang gongzuo], 17 March 15.
    \31\ See, e.g., Supreme People's Court, Opinion on Comprehensively 
Deepening Reform of the People's Courts--Fourth Five-Year Outline for 
Reform of the People's Courts (2014-2018) [Zuigao renmin fayuan guanyu 
quanmian shenhua renmin fayuan gaige de yijian--renmin fayuan disi ge 
wu nian gaige gangyao (2014-2018)], 4 February 15, sec. 3(3)17; Chinese 
Communist Party Central Committee, Decision on Several Major Issues in 
Comprehensively Advancing Governance of the Country According to Law 
[Zhonggong zhongyang guanyu quanmian tuijin yifa zhiguo ruogan zhongda 
wenti de jueding], issued 23 October 14.
    \32\ Supreme People's Court, Opinion on Comprehensively Deepening 
Reform of the People's Courts--Fourth Five-Year Outline for Reform of 
the People's Courts (2014-2018) [Zuigao renmin fayuan guanyu quanmian 
shenhua renmin fayuan gaige de yijian--renmin fayuan disi ge wu nian 
gaige gangyao (2014-2018)], 4 February 15, para. 55. See also ``China 
Regulates Against Officials' Judicial Meddling,'' Xinhua, 30 March 15; 
Xing Shiwei, ``Leading Cadres' Lawbreaking and Judicial Interference 
Can Lead to Criminal Responsibility'' [Lingdao ganbu weifa ganyu sifa 
ke zhui xing ze], Beijing News, 31 March 15.
    \33\ Zhang Chunxian, ``Zhang Chunxian: Comprehensively Advance 
Ruling Xinjiang According to Law'' [Zhang chunxian: quanmian tuijin 
yifa zhi jiang], People's Daily, 7 January 15; Liu Ruifu, ``The 
Fundamental Differences Between China's Independent, Impartial Justice 
and Western Countries' `Judicial Independence' '' [Woguo duli gongzheng 
sifa yu xifang guojia ``sifa duli'' de genben qubie], Seeking Truth, 
reprinted in Xinhua, 26 December 14. See also Qian Gang, ``Who Gave 
`Judicial Independence' a Death Sentence?'' China Media Project, 14 
January 15; Sui-Lee Wee, ``China's Top Court Says No to West's Model of 
Judicial Independence,'' Reuters, 26 February 15.
    \34\ Wen Yaqiong, ``Supreme People's Court: Distinguish Clearly 
Between Western `Judicial Independence' and `Separation of Powers' '' 
[Zuigaofa: huaqing yu xifang ``sifa duli'' ``san quan dingli,'' 
jiexian], China Internet Information Center, 25 February 15; Josh Chin, 
``Don't Call It Western, China's Top Court Unveils Vision for Reform,'' 
Wall Street Journal, China Real Time Report (blog), 26 February 15.
    \35\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
4(1).
    \36\ Ibid., sec.7(1).
    \37\ ``Political-Legal Committees Carry Out 11 Reforms This Year: 
Leaders' Interference in Judicial Process Will Be Recorded'' 
[Zhengfawei jinnian jinxing 11 xiang gaige: lingdao ganyu sifa yao 
jilu], Xinhua, reprinted in Sina, 22 January 15; Qiu Rui, ``Mainland 
Political-Legal Committees Show Signs of Reform'' [Dalu zhengfawei 
xianlu gaige jixiang], Phoenix Weekly, 19 January 15; Keith Zhai, 
``Communist Party Committees Are Meddling Less in Courtrooms: Judges,'' 
South China Morning Post, 12 December 13; Song Shijing and Li 
Xiangrong, ``Politics and Law Committee Reform Accelerates, Advocating 
Rule of Law Thinking and Non-Intervention in Specific Cases'' 
[Zhengfawei gaige jiasu, changdao fazhi siwei bu jieru juti anjian], 
Beijing News, reprinted in People's Daily, 23 October 14. For a report 
on opposing views, see ``China's Judicial Reforms Won't Shake Party 
Hold on Courts: Experts,'' Radio Free Asia, 31 March 15.
    \38\ Ren Zhongyuan and Huang Ziyi, ``Shortage of Judges, Court 
Panic: Things Are Changing'' [Faguan huang, fayuan huang: shiqing zheng 
zai qi bianhua], Southern Weekend, 17 April 15; Wu Lina, ``Loss of 
Judges Serious, Can Salary Alone Get Modern `Judge Bao' To Stay?'' 
[Faguan liushi yanzhong dandu xinchou nengfou liuzhu xiandai ``bao 
gong''], Xinhua, reprinted in China Court Network, 15 April 15.
    \39\ Tan Mintao, ``Judicial Reforms Are Coming, Why Do Judges Still 
Want To Resign? '' [Sifa gaige lai le, faguan weihe hai yao cizhi?], 
Consensus Net, 16 April 15; Stanley Lubman, ``China's Exodus of 
Judges,'' Wall Street Journal, China Real Time Report (blog), 4 May 15. 
See also ``Legal Window: Resignations of Chinese Judges Reflect Deep 
Problems'' [Falu chuangkou: zhongguo faguan cizhi zheshe shengce 
wenti], Voice of America, 5 June 15.
    \40\ ``People's Daily: Blindly Following Western So-Called 
`Constitutional Government' Is Nothing More Than Cutting Feet To Fit 
the Shoes'' [Renmin ribao: mangmu gen xifang suowei ``xianzheng'' pao 
wuyi xuezushilu], People's Daily, reprinted in China News, 5 February 
15; Minxin Pei, ``China's War on Western Values,'' Project Syndicate, 
10 February 15. See also Jacques deLisle, ``The Rule of Law with Xi-Era 
Characteristics: Law for Economic Reform, Anticorruption, and Illiberal 
Politics,'' Asia Policy, No. 20 (July 2015), 28. For a contrasting view 
on recent discussions of constitutionalism, see Cheng Li, ``Fourth 
Plenum Has Opened Up Discourse on Constitutionalism, Governance,'' 
China's Transition, Bloomberg Brief, October 2014, 8.
    \41\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 2.
    \42\ Guo Junkui, `` `National Constitution Day' Strengthens the 
Constitution's Supreme Idea'' [``Guojia xianfa ri'' qianghua xianfa 
zhishang de linian], People's Daily, 4 December 14; State Council 
Information Office, ``Progress in China's Human Rights in 2014,'' 
reprinted in Xinhua, 8 June 15, sec. 3(1). See also ``On China's First 
Constitution Day, Distance From Constitutional Rule Remains Great'' 
[Zhongguo shou ge xianfa ri juli xingzheng reng yaoyuan], Radio Free 
Asia, 4 December 14.
    \43\ ``China's Constitution `Useless' Without Enforcement: 
Lawyers,'' Radio Free Asia, 4 December 14; Otto Malmgren, ``Article 37: 
The Right to Liberty of Person Under the Chinese Constitution,'' China-
EU Law Journal, Vol. 2, No. 1-2 (September 2013), 42-43; Jerome A. 
Cohen, ``A Constitutional Court for China? Taiwan's Example,'' US-Asia 
Law Institute, New York University School of Law, 28 October 09. See 
also Joanna Chiu, ``China's Constitutional Crisis,'' Atlantic, 3 
September 13.
    \44\ ``NPC's Power of Supervision,'' Xinhua, reprinted in China 
Daily, 3 March 15; Keith J. Hand, ``An Assessment of Socialist 
Constitutional Supervision Models and Prospects for a Constitutional 
Supervision Committee in China: The Constitution as Commander?'' Social 
Science Research Network, 29 June 15, revised 25 July 15, last visited 
3 August 15, 1. See also Gui Tiantian, ``Former Supreme People's Court 
President Proposes Adding Constitutional Committee to the National 
People's Congress'' [Zuigao fayuan yuan yuanzhang jianyi zai quanguo 
renda zengshe xianfa weiyuanhui], Beijing Youth Daily, reprinted in 
People's Daily, 8 November 14. China does not have a constitutional 
court or specialized committee within the National People's Congress 
for examining constitutional issues.
    \45\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14. See, 
e.g., Jerome A. Cohen, ``China's Socialist Rule of Law Still Offers 
Real Hope of Improvements to Legal System,'' New York University School 
of Law, US-Asia Law Institute, 5 November 14; Elizabeth C. Economy, 
``Is China Committed to Rule of Law?'' Council on Foreign Relations, 29 
October 14; ``YCW Conversation--Legal Reform in China,'' Young China 
Watchers, 28 April 15.
    \46\ ``Roundtable: The Future of `Rule According to Law' in 
China,'' Asia Policy, No. 20 (July 2015), 3. Participants in the 
roundtable were Carl Minzner, Donald Clarke, Ling Li, Jacques deLisle, 
Kjeld Erik Brog<dsgaard, and Stanley Lubman. See also Donald Clarke, 
``China's Legal System and the Fourth Plenum,'' Asia Policy, No. 20 
(July 2015), 10; Fang Yiyan, ``Looking Over `Rule of Law,' Dirt on the 
Back of the Coin'' [Fankan ``yifa zhiguo'' yingbi beimian de wugou], 
Human Rights in China Chinese Biweekly Journal, No. 146, 25 December 
14.
    \47\ Stanley Lubman, ``As China Cracks Down on Dissidents, It Also 
Promises Legal Reform,'' Wall Street Journal, China Real Time Report 
(blog), 28 November 14.
    \48\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, secs. 1, 
2, 3, 4(4). See also Jamie P. Horsely, ``China's Leaders Endorse 
Disclosure as the `Norm,' '' FreedomInfo.Org, 4 November 14.
    \49\ ``China Commits to `Open Government Information' Effective May 
1, 2008,'' CECC China Human Rights and Rule of Law Update, May 2008, 2.
    \50\ ``Right To Know,'' Economist, 3 May 14. For reports on the 
success of lawsuits filed against the government, see Zhao Fuduo, 
``Provincial Success Rates of `Citizens Suing Officials' Show Large 
Differences'' [``Min gao guan'' shengsulu shengji chayi da], Caixin, 12 
December 14; Fang Qing, ``In Government Information Disclosure 
Lawsuits, 12 Percent of Citizens Suing Officials Are Successful'' 
[Zhengfu xinxi gongkai susong 12% ``min gao guan'' shengsu], Guangzhou 
Daily, 23 January 15. A notable information disclosure request from the 
reporting year was that of the mother of Xu Chunhe, a man shot by 
police on a train platform in Heilongjiang province. ``Qing'an Police 
Accept Lawyer's Information Disclosure Application in Shooting Case'' 
[Qing'an jingfang jieshou qiangji an lushi xinxi gongkai shenqing], 
Sina, 11 May 15; ``Official Publication of Xu Chunhe Video Fails To 
Quell Controversy, Lawyer Applies to Police for Information 
Disclosure'' [Guanfang gongbu xu chunhe shipin reng wei neng pingxi 
zhengyi lushi xiang jingfang shenqing xinxi gongkai], Radio Free Asia, 
15 May 15. See also ``Woman To Sue Over Police Killing of Her Son in 
China's Heilongjiang,'' Radio Free Asia, 12 May 15; Xu Ai and Cheng 
Zilong, ``On the Trail of the `Qing'an Train Station Incident' '' 
[``Qing'an huoche zhan shijian'' zhuizong], Xinhua, 14 May 15; Kiki 
Zhao, ``China Clears Police Officer in Death of Unarmed Man, but 
Controversy Isn't Over,'' New York Times, Sinosphere (blog), 15 May 15. 
For another example of citizens trying to use the courts to obtain 
information from a government agency, see ``Lawyer Requests Publication 
of Information on Train Ticket Refund Fee Hikes Case'' [Lushi shenqing 
huoche tuipiao fei zhangjia xinxi gongkai an], Southern Weekend, 22 
December 14; Wan Xuezhong and Yu Yingbo, ``Refund Ticket Fee Hike 
Information Publication Trial Suspended'' [Tuipiao fei zhangjia xinxi 
gongkai an zhongzhi shenli], Legal Daily, 12 December 14.
    \51\ ``Chinese Courts Publish Judgement Documents Online,'' Xinhua, 
27 November 13; Riva Gold, ``Big Move? China's Highest Court Flirts 
With Transparency,'' Wall Street Journal, China Real Time Report 
(blog), 4 July 13. See also Dui Hua Foundation, ``China Plots National 
Verdict Database,'' Dui Hua Human Rights Journal, 14 May 13; Liu 
Changsong, ``Publishing Court Decisions Will Help Reduce Judicial 
Corruption'' [Gongkai caipan wenshu liyu jianshao sifa fubai], Beijing 
News, 12 May 13.
    \52\ Supreme People's Court, Judicial Transparency of Chinese 
Courts: Chinese-English Juxtaposed [Zhongguo fayuan de sifa gongkai: 
hanying duizhao] (Beijing: People's Court Press, 2015), 38-41, 44-46. 
See also Supreme People's Court, ``Press Release Draft on the Situation 
Regarding Judicial Transparency of Chinese Courts (White Paper)'' 
[Guanyu zhongguo fayuan de sifa gongkai (baipishu) youguan qingkuang de 
xinwen fabu gao], 10 March 15; ``China Issues White Paper on Judicial 
Transparency,'' Xinhua, reprinted in China Daily, 10 March 15; 
``China's Supreme People's Court Issues First Judicial Transparency 
White Paper'' [Zhongguo zuigaofa fabu shou ge sifa gongkai baipishu], 
Radio Free Asia, 10 March 15.
    \53\ Supreme People's Court, ``Press Release Draft on the Situation 
Regarding Judicial Transparency of Chinese Courts (White Paper)'' 
[Guanyu zhongguo fayuan de sifa gongkai (baipishu) youguan qingkuang de 
xinwen fabu gao], 10 March 15. See also ``China Voice: Achievements 
Made in Building Transparent Judicial System,'' Xinhua, 10 March 15; 
Supreme People's Court, Judicial Opinions of China, last visited 18 
July 15.
    \54\ Michael Vella and Vincent Li, ``Judicial Reform Brings Rule of 
Law Under Spotlight,'' Insight: The Voice of the American Chamber of 
Commerce in Shanghai, 8 December 14.
    \55\ Supreme People's Court Circular Regarding Publication of Tenth 
Batch of Guiding Cases [Zuigao renmin fayuan guanyu fabu dishi pi 
zhidaoxing anli de tongzhi], issued 15 April 15. When issuing the first 
set of cases, the Supreme People's Court (SPC) noted the role of the 
guiding case system in helping all walks of life understand the courts' 
work. Circular of the Supreme People's Court on Issuing the First Set 
of Guiding Cases [Zuigao renmin fayuan guanyu fabu diyi pi zhidaoxing 
anli de tongzhi], issued 20 December 11. For a discussion of the 
reasons why the SPC initiated the guiding case system, see Wang Hong, 
``Building a Guiding Precedents System With Chinese Characteristics,'' 
Mirror, 7 December 12, translated in Dui Hua Foundation, ``Can China's 
Legal Reform Survive Without Judicial Independence?'' Dui Hua Human 
Rights Journal, 20 December 12.
    \56\ Supreme People's Court, Implementing Details on the Supreme 
People's Court Provisions on Case Guidance Work [Zuigao renmin fayuan 
guanyu anli zhidao gongzuo de guiding shishi xize], issued 13 May 15, 
reprinted in China Internet Information Center; Stanford University Law 
School, ``Breaking News: China's Supreme Court Explains How To Cite 
Guiding Cases,'' China Guiding Cases Project (blog), 5 June 15.
    \57\ Supreme People's Court, Implementing Details on the Supreme 
People's Court Provisions on Case Guidance Work [Zuigao renmin fayuan 
guanyu anli zhidao gongzuo de guiding shishi xize], issued 13 May 15, 
reprinted in China Internet Information Center, art. 11.
    \58\ ``China's Top Court Stresses Referential Precedent for 
Justice,'' Xinhua, reprinted in China Daily, 2 June 15. See also 
``China's Supreme Court Launches Case-Tracking Website,'' Xinhua, 14 
November 14. According to this Xinhua report, the courts also increased 
transparency of the adjudication process by introducing a website that 
allows parties to track the progress of their cases.
    \59\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, amended 1 November 14, 
effective 1 May 15. The Chinese government also passed revisions to the 
PRC Legislation Law during the 2015 reporting year. PRC Legislation Law 
[Zhonghua renmin gongheguo lifa fa], passed 15 March 00, amended and 
effective 15 March 15. See also ``Authorized Release of the Two 
Sessions: Decision of the National People's Congress Concerning 
Revision of the `PRC Legislation Law' '' [Lianghui shouquan fabu: 
quanguo renmin daibiao dahui guanyu xiugai ``zhonghua renmin gongheguo 
lifa fa'' de jueding], Xinhua, 15 March 15; ``China Adopts Revision to 
Legislation Law,'' Xinhua, 15 March 15; Jiang Ling et al., 
``Legislative Law Revised, Where Are the Highlights'' [Xiugai lifa fa 
liangdian dou zai na], People's Daily, 9 March 15. The revised law 
includes provisions on releasing draft laws for public comment. PRC 
Administrative Litigation Law [Zhonghua renmin gongheguo xingzheng 
susong fa], passed 4 April 89, amended 1 November 14, effective 1 May 
15, art. 37; Qiu Shi and Laney Zhang, Law Library of Congress, ``China: 
Law on Legislation Amended,'' Library of Congress Global Legal Monitor, 
8 July 15. The Chinese government has not yet passed the long-discussed 
Administrative Procedure Law. Xing Shiwei, ``Professor of Law: China 
Should Quickly Enact the `Administrative Procedure Law' '' [Fa da 
jiaoshou: woguo ying zhuajin zhiding ``xingzheng chengxu fa''], Beijing 
News, 31 October 14.
    \60\ Peng Dongyu, ``Strengthening Protection of Citizens' 
Administrative Litigation Power'' [Qianghua dui gongmin xingzheng 
susong quanli de baohu], China National People's Congress Magazine, No. 
22, reprinted in National People's Congress, December 2012; ``Editor's 
Notes: PRC, Administrative Litigation Law,'' China Law & Practice, last 
visited 18 July 15; Kevin J. O'Brien and Li Lianjiang, ``Suing the 
Local State: Administrative Litigation in Rural China,'' China Journal, 
No. 51 (January 2004).
    \61\ Wang Cailiang, ``Amended Administrative Litigation Law and 
Administrating in Accordance With Law'' [Xingzheng susong fa xiugai yu 
yifa xingzheng], Caijing, Wang Cailiang (blog), 3 May 15; Wu Peng and 
Hu Jinguang, ``The Amended `Administrative Litigation Law' and 
Constructing a Rule of Law Country'' [``Xingzheng susong fa'' xiugai yu 
fazhi guojia jianshe], Journal of the Chinese Academy of Governance, 
reprinted in People's Daily, Chinese Communist Party News, 30 January 
15.
    \62\ PRC Administrative Litigation Law [Zhonghua renmin gongheguo 
xingzheng susong fa], passed 4 April 89, amended 1 November 14, 
effective 1 May 15.
    \63\ Sun Ying, ``Hopes That the New `Administrative Litigation Law' 
and the Implementation of Judicial Interpretations Will Resolve the 
Three Difficulties of Administrative Lawsuits Against Officials'' [Xin 
``xingzheng susong fa'' ji sifa jieshi shixing youwang jiejue min gao 
guan san nan], China National Radio, reprinted in China Daily, 1 May 
15. See also He Haibo, ``Litigations Without a Ruling: The Predicament 
of Administrative Law in China,'' Tsinghua China Law Review, Vol. 3, 
No. 2 (2011), 257.
    \64\ ``National People's Congress Standing Committee Decision 
Concerning Revision of the `PRC Administrative Litigation Law' '' 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiugai 
``zhonghua renmin gongheguo xingzheng susong fa'' de jueding], Xinhua, 
reprinted in National People's Congress, 1 November 14.
    \65\ Ibid., item 60.
    \66\ Ibid., item 4.
    \67\ Ibid., item 3. See also ``China Amends Law To Support Citizens 
Suing Gov't,'' Xinhua, reprinted in China Daily, 1 November 14.
    \68\ Supreme People's Court, ``Supreme People's Court 
Interpretation Regarding Several Questions on the Application of the 
PRC Administrative Litigation Law'' [Zuigao renmin fayuan guanyu 
shiyong zhonghua renmin gongheguo xingzheng susong fa ruogan wenti de 
jieshi], 27 April 15; ``Courts Can Judge the Legality of Red-Header 
Documents'' [Fayuan ke panding hongtou wenjian shifou hefa], China 
Youth Daily, 28 April 15.
    \69\ Carl F. Minzner, ``Xinfang: An Alternative to Formal Chinese 
Legal Institutions,'' Stanford Journal of International Law, Vol. 42 
(2006), 103-79.
    \70\ ``Amending the Administrative Litigation Law: Getting Through 
the `Three Difficulties' Will Allow People To Trust the Law Instead of 
Petitions'' [Xingzheng susong xiu fa: datong ``san nan'' rang 
laobaixing xinfa bu xinfang], Procuratorate Daily, reprinted in 
People's Daily, National People's Congress News, 3 November 14. See 
also He Haibo, ``Expectations Following the `Administrative Litigation 
Law' Revision'' [``Xingzheng susong fa'' xiugai zhihou de xuannian], 
Caixin, 5 December 14.
    \71\ Sun Gan, `` `Citizens Suing Officials: Petition Cases Exceed 4 
Million Annually'' [``Min gao guan'' xinfang anjian nian chao 400 wan 
jian], Beijing Times, 5 November 14.
    \72\ Adrian Wan, ``Revised Law Means It's Now Easier To Sue Than 
Petition Governments,'' South China Morning Post, 2 November 14.
    \73\ State Council, Regulations on Letters and Visits [Xinfang 
tiaoli], issued 5 January 05, effective 1 May 05.
    \74\ CECC, 2014 Annual Report, 9 October 14, 158-59.
    \75\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, sec. 
5(4.2); Ministry of Justice, ``Ministry of Justice Issues a Set of 
Documents on Law- and Litigation-Related Petitions Reforms'' [Sifabu 
yinfa shefa shesu xinfang gaige peitao wenjian], 6 May 15; State Bureau 
for Letters and Visits, ``Publicity Announcement for the 10th 
Anniversary of the Revision of the `Petition Regulations' '' [``Xinfang 
tiaoli'' xiuding shishi 10 zhounian xuanchuan zuopin zhengji qishi], 24 
March 15. See also State Bureau for Letters and Visits, ``Announcement 
Evaluating the Results of the Collecting of Works for `These Ten Years 
of the Regulations' '' [``Tiaoli zhe shi nian'' zhengji zuopin pingshen 
jieguo gongbao], 24 April 15. For examples of articles in state- and 
Party-run media on protracted efforts to reform the petitioning system, 
see Bai Yang, ``China's Petitioning Reforms Strive To Break Through 
Petitioning's `Last Kilometer' '' [Woguo xinfang gaige litu datong 
xinfang ``zuihou yi gongli zhi du''], Xinhua, 31 May 15; Li Bin, 
``Petitioning Reforms Are Aimed at a Rule of Law Target'' [Xinfang 
gaige dang miaozhun fazhi de baxin], People's Daily, 4 June 15.
    \76\ Huang Lu, ``During Inspection of Provincial Bureau of Letters 
and Visits, Fu Dehui Emphasizes: Make Online Petitioning the Main 
Channel for Petitioning'' [Fu dehui diaoyan sheng xinfang ju shi 
qiangdiao: ba wangshang xinfang da zaocheng xinfang gongzuo zhu qudao], 
Sina News, 10 July 15; Wang Jianhua, ``Build Rule of Law Petitioning, 
Sunshine Petitioning, and Responsible Petitioning'' [Dazao fazhi 
xinfang, yangguang xinfang he zeren xinfang], State Bureau for Letters 
and Visits, 8 June 15.
    \77\ Ministry of Justice, ``Ministry of Justice Issues a Set of 
Documents on Law- and Litigation-Related Petitions Reforms'' [Sifabu 
yinfa shefa shesu xinfang gaige peitao wenjian], 6 May 15. See also 
``Chinese Judicial Departments To Better Handle Petitions,'' Xinhua, 8 
May 15; ``Ministry of Justice Clarifies Standards for Finalizing 
Petitioner Matters: Guarding Against Unlimited Appeals Without a Final 
Resolution'' [Sifabu mingque xinfang shixiang zhongjie biaozhun; fang 
zhong er bu jie wuxian shensu], Xinhua, 6 May 15.
    \78\ Sun Wenjing, ``Cabinet Said To Approve Study for Law on 
Public's Gripes Against Gov't,'' Caixin, 14 May 15; State Council, 
Regulations on Letters and Visits [Xinfang tiaoli], issued 5 January 
05, effective 1 May 05.
    \79\ See, e.g., ``Police in China's Guangdong Move Ahead With 
Activist's Subversion Trial,'' Radio Free Asia, 30 April 15; ``Sichuan 
Rights Defense Advocate Chen Yunfei Formally Arrested After 35 Days in 
Custody'' [Sichuan weiquan renshi chen yunfei juya 35 tian hou zao 
pibu], BBC, 3 May 15; Tom Phillips, ``Chinese Police Seize `Warm-
Hearted' Tiananmen Activist,'' Telegraph, 2 April 15; Didi Kirsten 
Tatlow, ``Beijing Police Recommend Charges Against Civil Society 
Advocates,'' New York Times, Sinosphere (blog), 28 April 15. In June 
2015, two former senior staff members of the non-governmental 
organization Beijing Yirenping Center were detained on suspicion of 
``illegal business activity.'' ``Refile: China Detains Two Rights 
Activists in Widening Crackdown,'' Deutsche Presse-Agentur 
International, 15 June 15; ``Two Public Interest Figures Taken Into 
Custody for `Illegal Business Activity' '' [Liang gongyi renshi bei yi 
``feifa jingying zui'' zhuabu], Radio Free Asia, 14 June 15. See also 
Xin Lin and Wen Jian, ``More Than 1,000 Supporters Call for the Release 
of Rights Activist,'' Radio Free Asia, 3 July 15; Rights Defense 
Network, ``Parents of Those Harmed by Vaccines Start Donation 
Activities in Support of Public Interest Volunteer Yang Zhanqing'' 
[Yimiao shouhai jiazhang faqi juankuan shengyuan gongyi zhiyuanzhe yang 
zhanqing xingdong], 24 June 15; Tom Phillips, ``Fears of New Crackdown 
as China Holds Two Former Members of Rights Group,'' Guardian, 15 June 
15.
    \80\ For academic analyses on the various types of Chinese lawyers 
involved in cases that fall under the general umbrella of rights 
protection, see, e.g., Fu Hualing, ``Human Rights Lawyering in Chinese 
Courtrooms,'' Chinese Journal of Comparative Law, Vol. 2, No. 2 
(October 2014), 270-88 (analyzing human rights lawyering in China based 
on three ideal types: moderate lawyering, critical lawyering, and 
radical lawyering); Eva Pils, China's Human Rights Lawyers: Advocacy 
and Resistance (New York: Routledge, 2015), 47-51; Fu Hualing and 
Richard Cullen, ``Weiquan (Rights Protection) Lawyering in an 
Authoritarian State: Building a Culture of Public Interest Lawyering,'' 
China Journal, No. 59 (January 2008), 111; Sida Liu and Terence C. 
Halliday, ``Political Liberalism and Political Embeddedness: 
Understanding Politics in the Work of Chinese Criminal Defense 
Lawyers,'' Law & Society Review, Vol. 45, No. 4 (December 2011), 831-
66.
    \81\ ``China's Legal Profession Had `Worst Year Ever' in 2014,'' 
Radio Free Asia, 20 January 15.
    \82\ ``Chinese Lawyer Detained for Invoking Constitution,'' 
Associated Press, 12 December 14.
    \83\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 249.
    \84\ Ibid., art. 293; Interpretation of the Supreme People's Court 
and the Supreme People's Procuratorate on Several Issues Concerning the 
Application of Law in the Handling of Criminal Cases of Picking 
Quarrels and Provoking Trouble [Zuigao renmin fayuan, zuigao renmin 
jianchayuan guanyu banli xunxin zishi xingshi anjian shiyong falu 
ruogan wenti de jieshi], 15 July 13; Jeremy Daum, ``Quick Note on 
`Picking Quarrels,' '' China Law Translate (blog), 6 May 14.
    \85\ ``VOA Connects: Pu Zhiqiang Charged on Suspicion of Inciting 
Ethnic Hatred, Picking Quarrels and Provoking Trouble'' [VOA lianxian: 
pu zhiqiang bei yi shexian shandong minzu chouhen, xunxin zishi zui 
qisu], Voice of America, 15 May 15; Zhang Qianfan, ``Conviction for 
One's Words Is a Legal Travesty'' [Yi yan dingzui shi fazhi daji], 
Financial Times, 22 May 15; Perry Link, ``China: Inventing a Crime,'' 
New York Review of Books (blog), 9 February 15.
    \86\ ``China's Rights Defense Lawyers Elected as `Men of the Year' 
'' [Zhongguo weiquan lushi dangxuan ``fengyun renwu''], Radio Free 
Asia, 19 December 05.
    \87\ ``And the Law Won,'' Economist, 23 May 15. For more 
information on several of these individuals, see the following records 
in the Commission's Political Prisoner Database: 2005-00291 on Gao 
Zhisheng, 2011-00183 on Teng Biao, 2004-04744 on Zheng Enchong, 2014-
00174 on Pu Zhiqiang, 2005-00027 on Guo Guoting, 2005-000198 on Zhu 
Jiuhu, 2005-00199 on Xu Zhiyong, 2005-00143 on Yang Maodong (also known 
as Guo Feixiong), 2005-00001 on Li Baiguang, 2010-00738 on Fan Yafeng, 
and 2005-00126 on Chen Guangcheng.
    \88\ ``Rights Defense Lawyer Xia Lin Criminally Detained on 
Suspicion of `Fraud' '' [Weiquan lushi xia lin yin she ``zhapian zui'' 
bei xingju], Radio Free Asia, 17 November 14. For more information on 
Xia Lin, see the Commission's Political Prisoner Database record 2014-
00432.
    \89\ Chinese Human Rights Defenders, ``Authorities Retaliate 
Against 2 Lawyers for Representing Detained Activists,'' 14 November 
14; Chinese Human Rights Defenders, ``Xia Lin,'' 16 February 15.
    \90\ Rights Defense Network, ``Guangzhou Tang Jingling, Yuan 
Xinting Arrests Approved by Authorities on Suspicion of `Inciting 
Subversion of State Power' '' [Guangzhou tang jingling, yuan xinting 
bei dangju yi shexian ``shandong dianfu guojia zhengquan zui'' pi bu], 
21 June 14. For more information on Tang Jingling, see the Commission's 
Political Prisoner Database record 2011-00255.
    \91\ Rights Defense Network, ``Tang Jingling Inciting Subversion 
Case Trial Opens in Guangzhou, Adjourns Midday Without Judgment'' [Tang 
jingling dianfu an guangzhou kaishen, zhongwu xiuting wei panjue], 19 
June 15.
    \92\ Tang Jingling, ``Excerpt from Tang Jingling's Self Defense and 
Final Statement at Trial'' [Tang jingling zai fating shang suo zuode 
``ziwo bianhu he zuihou chenshu''], reprinted in Human Rights in China, 
24 July 15; ``Former Teacher Tells Court of Torture as Guangzhou Three 
Subversion Trial Ends,'' Radio Free Asia, 24 July 15; Mimi Lau, ``Tight 
Security as Trial Resumes of Chinese Rights Lawyer and Activists 
Charged With Subversion,'' South China Morning Post, 23 July 15; Dan 
Levin, ``Trial of Chinese Rights Campaigners on Subversion Charges 
Continues,'' New York Times, 24 July 15.
    \93\ ``Rights Lawyer Tang Jingling Detained Ahead of Tiananmen 
Anniversary,'' Associated Press and Agence France-Presse, reprinted in 
South China Morning Post, 16 May 14.
    \94\ Ibid.
    \95\ ``Human Rights Lawyer Yu Wensheng Criminally Detained for 
Dispute at Fengtai Detention Center for Attempting To Exercise Right of 
Lawyer To Meet With Client'' [Renquan lushi yu wensheng beijing fengtai 
kanshousuo zheng lushi huijian quan bei xingju], Boxun, 24 October 14; 
Civil Rights & Livelihood Watch, ``Lawyer Wang Cheng and Citizen Song 
Ze Seized in Beijing With Lawyer Yu'' [Wang cheng lushi gongmin song ze 
zai beijing yu yu lushi yitong bei zhua], 14 October 14. For more 
information on Yu Wensheng, see the Commission's Political Prisoner 
Database record 2014-00387.
    \96\ Rights Defense Network, ``Solemn Declaration Strongly 
Condemning Beijing Municipality Police's Illegal Seizure of Lawyer Yu 
Wensheng'' [Guanyu qianglie qianze beijing shi jingfang feifa zhuabu yu 
wensheng lushi de yanzheng shengming], 13 October 14.
    \97\ Rights Defense Network, ``Rights Defense Lawyer Yu Wensheng 
Released From Prison on January 20: 29 Citizens Still Locked Up in This 
Wave'' [Weiquan lushi yu wensheng 1 yue 20 ri huoshi chuyu: ci bo bei 
zhua gongmin hai you 29 ren bei guanya], 22 January 15.
    \98\ ``Lawyer's Wife Xu Yan Issues Statement Protesting State 
Security Captain's Harassment and Threats'' [Lushi qizi xu yan fabiao 
shengming kangyi guobao duizhang saorao weixie], Radio Free Asia, 16 
June 15.
    \99\ ``China Holds Two More Rights Lawyers Under Criminal 
Detention,'' Radio Free Asia, 16 May 14. For more information on Qu 
Zhenhong, see the Commission's Political Prisoner Database record 2014-
00179.
    \100\ ``Pu Zhiqiang's Niece, Qu Zhenhong, Released on Bail'' [Pu 
zhiqiang waishengnu qu zhenhong qubao huoshi], BBC, 18 May 15.
    \101\ See, e.g., Yaxue Cao and Yaqiu Wang, ``14 Cases Exemplify the 
Role Played by Lawyers in the Rights Defense Movement, 2003-2015,'' 
China Change, 19 August 15; ``Announcement on the Establishment of a 
Legal Backup Group for the Jiansanjiang Cases'' [Jiansanjiang anjian 
falu houyuantuan chengli gonggao], Boxun, 7 January 15; Luo Ya, ``Eight 
Lawyers Brave Possible Beating To Defend Falun Gong,'' Epoch Times, 18 
December 14.
    \102\ See, e.g., Yaxue Cao and Yaqiu Wang, ``14 Cases Exemplify the 
Role Played by Lawyers in the Rights Defense Movement, 2003-2015,'' 
China Change, 19 August 15.
    \103\ See, e.g., ``Tohti Verdict Upheld,'' Global Times, 22 
November 14; ``Human Rights Lawyer Yu Wensheng Criminally Detained for 
Dispute at Fengtai Detention Center for Attempting To Exercise Right of 
Lawyer To Meet With Client'' [Renquan lushi yu wensheng beijing fengtai 
kanshousuo zheng lushi huijian quan bei xingju], Boxun, 24 October 14; 
``In One Step Forward, Chinese Authorities Release Zhang Miao, an 
Employee at the German Weekly Die Zeit, and in One Step Backward, 
[They] Arrest Zhang Miao's Rights Lawyer Zhou Shifeng'' [Zhongguo 
dangju qianjiao shifang wei deguo shidai zhoukan gongzuo de zhang miao 
houjiao jiu daibu zhang miao de weiquan lushi zhou shifeng], Radio 
France Internationale, 10 July 15.
    \104\ Rights Defense Network, ``Mainland Lawyers Issue Public 
Announcement Regarding Formation of the Chinese Lawyers Group for the 
`Protection of Human Rights' '' [Dalu lushi fabu zhongguo ``baozhang 
renquan'' lushi fuwutuan chengli gonggao], 14 September 13.
    \105\ ``China Human Rights Lawyers Group Celebrates First 
Anniversary With 225 Members'' [Zhongguo renquan lushi tuan chengli yi 
zhou nian chengyuan zeng zhi 225 ren], Radio Free Asia, 13 September 
14.
    \106\ Josh Chin and Te-Ping Chen, ``China Targets Human-Rights 
Lawyers in Crackdown,'' Wall Street Journal, 12 July 15; Human Rights 
Watch, ``China: Secretly Detained Lawyers at Risk of Torture,'' 20 July 
15. See also ``China's Missing Rights Lawyers,'' New York Times, 8 
August 15; China Human Rights Lawyers Concern Group, ``As of 20:00 25 
July 2015, At Least 255 Lawyers/Law Firm Staff/Human Rights Activists 
Have Been Detained/Arrested/Incommunicado/Summoned/Restricted Freedom 
Temporarily,'' 25 July 15.
    \107\ For the total number of individuals detained as of September 
1, 2015, see Chinese Human Rights Defenders, ``Individuals Affected by 
July 10 Crackdown on Rights Lawyers,'' 13 July 15, last visited 1 
September 15. See also Chinese Human Rights Lawyers Concern Group, ``As 
of 18:00 28th August 2015, At Least 277 Lawyers/Law Firm Staff/Human 
Right[s] Activists/Family Members Have Been Detained/Arrested/
Incommunicado/House Arrested/Forbidden To Leave the Country/Questioned/
Summoned/Restricted Freedom Temporarily,'' 28 August 15.
    \108\ See, e.g., John Kirby, U.S. Department of State, ``U.S. 
Condemns Detention of Human Rights Defenders in China,'' 12 July 15; 
Canada Department of Foreign Affairs, Trade and Development, ``Canada 
Gravely Concerned by Detention and Disappearance of Lawyers and 
Activists in China,'' 16 July 15; Department of Foreign Affairs and 
Trade, Commonwealth of Australia, ``Recent Human Rights Developments in 
China,'' 17 July 15; Federal Foreign Office, Federal Republic of 
Germany, ``Human Rights Commissioner Strasser Condemns the Arrest of 
Scores of Lawyers in China,'' 14 July 15. Intergovernmental 
organizations also expressed concerns about the arrests. See, e.g., 
European External Action Service, European Union, ``Statement by the 
Spokesperson on Recent Developments in the Human Rights Situation in 
China,'' 17 July 15; United Nations Office of the High Commissioner for 
Human Rights, `` `Lawyers Need To Be Protected Not Harassed'--UN 
Experts Urge China To Halt Detentions,'' 16 July 15.
    \109\ See, e.g., China Labour Bulletin et al., ``China: Open Letter 
to States for Joint Action To Address Worsening Crackdown on Human 
Rights Defenders and Lawyers,'' 10 August 15, reprinted in Chinese 
Human Rights Defenders, 12 August 15 (joint letter from China Labour 
Bulletin, Chinese Human Rights Defenders, Federation Internationale des 
Droits de l'Homme, Human Rights in China, Human Rights Watch, 
International Campaign for Tibet, International Service for Human 
Rights); Freedom House, ``China Detentions and Repatriations Violate 
Basic Rights,'' 14 July 15; Amnesty International, ``China: Lawyers 
Face 15 Years in Jail on `Chilling' State Security Charges,'' 16 July 
15; The Law Society of England and Wales, ``Law Society Urges China To 
Release Lawyers Arrested in `Crackdown,' '' 15 July 15; Japan 
Federation of Bar Associations, ``Bar Federation Condemns China's 
Detention of Lawyers,'' 26 July 15; Law Council of Australia, ``Law 
Council Deeply Concerned with `Crackdown' Against Lawyers in China,'' 
17 July 15; New York City Bar Association, ``City Bar Voices Grave 
Concern Over Treatment of Rights Lawyers in China,'' 44th Street Blog, 
10 August 15; American Bar Association, ``ABA President William C. 
Hubbard Statement on Lawyers in China,'' 3 August 15. Organizations 
based in Hong Kong and Taiwan also expressed concerns about the 
arrests. See Foreign Correspondents' Club, Hong Kong, ``FCCHK Statement 
on the Detention of Human Rights Lawyers in China,'' 17 July 15; Hong 
Kong Bar Association, ``Statement of Hong Kong Bar Association on 
Reports of Multiple Arrests Made of Mainland Legal Professionals,'' 18 
July 15; Taiwan Bar Association, ``Statement of the Entire Association 
on Mainland China's Arrests and Other [Measures Against] Rights Defense 
Lawyers'' [Jiu zhongguo dalu dui weiquan lushi jin daibu deng zhi quan 
lianhui shengming shu], 21 July 15.
    \110\ ``Dozens of Human Rights Groups Condemn China's Repeated 
Violations of Legal Procedures, Hong Kong Academics Join for First Time 
To Petition for Detained Lawyers'' [Shushi renquan tuanti qianze 
zhongguo zaici weifan falu chengxu xianggang xuejie shou canyu lianshu 
shengyuan lushi], Radio Free Asia, 12 July 15; ``China's `Rule by Law' 
Takes an Ugly Turn: A ChinaFile Conversation,'' Asia Society, ChinaFile 
(blog), 14 July 15; Josh Chin and Te-Ping Chen, ``China Targets Human-
Rights Lawyers in Crackdown,'' Wall Street Journal, 12 July 15. As 
reported in the Wall Street Journal, Professor Jerome Cohen of New York 
University School of Law ``described the recent sweep as `insane,' '' 
noting that ``China's leaders must be in desperate straits to engage in 
this extraordinary, coordinated attack on human-rights lawyers.''
    \111\ New York City Bar Association, ``City Bar Voices Grave 
Concern Over Treatment of Rights Lawyers in China,'' 44th Street Blog, 
10 August 15.

                              IV. Xinjiang


                              Introduction

    During the Commission's 2015 reporting year, authorities in 
the Xinjiang Uyghur Autonomous Region (XUAR) emphasized the 
implementation of top-down security and development initiatives 
in the region, enforcing policies some observers said could 
exacerbate existing ethnic tensions. International journalists 
and rights groups provided accounts of violent clashes 
throughout the reporting year that differed significantly from 
official accounts, and included reports of Chinese authorities' 
excessive use of force and extrajudicial killings in addition 
to attacks committed by Uyghurs. Central government lawmakers 
considered counterterrorism legislation that critics said could 
provide officials with unprecedented authority to commit rights 
abuses, including in the XUAR. Regional lawmakers enacted new 
regulations regarding religious affairs that increased 
officials' ability to monitor and control Uyghurs' religious 
practices. XUAR authorities also tightened regulations on 
online speech and continued to restrict independent media 
coverage of violent incidents in the region.

                     Security Measures and Conflict

    During this reporting year, regional authorities continued 
to implement repressive security measures targeting Uyghur 
communities. In January 2015, XUAR Communist Party Secretary 
Zhang Chunxian called for a renewed push against terrorism in 
the XUAR.\1\ Reports from international media and rights 
advocates documented arbitrary detentions; \2\ police, People's 
Armed Police, and People's Liberation Army (PLA) checkpoints 
and patrols; \3\ and searches of Uyghur homes.\4\ In November 
2014, officials began to recruit at least 3,000 former members 
of the PLA to serve as ``community workers'' in Urumqi city in 
order to ``maintain stability.'' \5\ International observers 
expressed concerns over security measures and the excessive use 
of force in the region.\6\ In conjunction with security 
measures, authorities launched activities aimed at eradicating 
``religious extremism,'' \7\ which international media and 
other observers argued frequently targeted Uyghurs' peaceful 
Islamic religious practices.\8\
    International media and rights advocates also raised 
concerns about Chinese authorities' failure to report 
information and attempts to suppress information regarding 
deadly clashes involving Uyghurs.\9\ An April 2015 Agence 
France-Presse report cast doubt on the Chinese government's 
account of July 28, 2014, violence in Yarkand (Shache) county, 
Kashgar prefecture, citing villagers who said security 
personnel shot and killed protesters and ``disappeared'' 
hundreds of others who were protesting against religious 
restrictions.\10\ Officials called the incident, likely the 
deadliest of 2014, a terrorist attack in which militants from 
outside the area had ``incited rioters to attack police.'' \11\ 
On September 21, 2014, in Bugur (Luntai) county, Bayingol 
Mongol Autonomous Prefecture, more than 50 people died and 50 
others were injured, according to official figures, after 
residents reportedly raided government buildings and a police 
station and set off explosive devices.\12\ Authorities 
initially reported that only two people had died in the 
violence.\13\ An official media report in Tianshan Net 
describing the incident as a ``terrorist attack'' differed 
markedly from a Radio Free Asia (RFA) report that did not 
explicitly label the clash a terrorist attack, and that quoted 
a source who said it was sparked by anger over forced 
evictions.\14\
    Throughout this reporting year, more than 160 people died 
in violent clashes in the XUAR that likely involved ethnic or 
political tensions. Representative cases follow:

        <bullet> On October 12, 2014, in Maralbeshi (Bachu) 
        county, Kashgar, 22 people died, including the 
        assailants, after 4 Uyghur men with knives and 
        explosives attacked police officers and Han Chinese 
        stall owners at a farmers' market.\15\ Officials 
        reportedly instructed state media not to report on the 
        incident.\16\
        <bullet> On November 28, 2014, in Yarkand county, 
        Kashgar, 15 people died, including 11 attackers shot by 
        police, and 14 others were injured. The assailants 
        reportedly used knives and explosives to attack and 
        kill people on a street with food vendors.\17\
        <bullet> On February 17, 2015, in Bay (Baicheng) 
        county, Aksu prefecture, 17 people died, including 9 
        attackers shot by police, when Uyghurs inside a house 
        clashed with police conducting house-to-house 
        searches.\18\ According to RFA, the dead included the 
        local police chief and three other police officers, 
        nine attackers and four ``passersby'' who were killed 
        by police gunfire.\19\
        <bullet> On June 23, 2015, in Kashgar city, Kashgar 
        prefecture, between 18 and 28 people died when a group 
        of Uyghurs with knives and explosives attacked police 
        at a traffic checkpoint.\20\ The dead reportedly 
        included up to 5 police officers and 15 attackers, as 
        well as a number of bystanders.\21\

    In at least three fatal attacks during the reporting year, 
Uyghur attackers specifically targeted local officials. On 
February 24, 2015, in Guma (Pishan) county, Hotan prefecture, a 
young Uyghur man reportedly stabbed a population planning 
official to death.\22\ On March 8, 2015, in Yarkand, Kashgar, 
Uyghur attackers killed a local police commander and two of his 
family members, as well as a security guard.\23\ According to 
RFA, the attackers came from a nearby township where, days 
earlier, the police commander had been involved in the shooting 
of a Uyghur woman.\24\ On May 15, 2015, a young Uyghur man 
reportedly stabbed a township head to death in Hotan county, 
Hotan prefecture.\25\ In March 2015 in Hotan county, an 
unidentified group of Uyghurs kidnapped the chief of public 
security in a local village, after which police detained more 
than 200 suspects and conducted raids of local homes to 
investigate the kidnapping.\26\
    In addition to attacks that took place within the XUAR 
during the reporting year, Uyghurs reportedly carried out 
attacks outside of the XUAR. Several witnesses stated that 
Uyghurs were responsible for a March 6, 2015, knife attack that 
injured nine people at the railway station in Guangzhou 
municipality, Guangdong province.\27\ Police shot and killed 
one of the attackers.\28\ On March 26, police in Kaiyuan city, 
Yunnan province, reportedly shot and killed one Uyghur after he 
and three other Uyghurs attacked a public security 
checkpoint.\29\

                Legal and Counterterrorism Developments

    According to the XUAR annual work report on the region's 
courts, XUAR authorities oversaw a 40-percent rise in concluded 
criminal trials in 2014 and carried out nearly twice as many 
arrests as compared to the previous year.\30\ The U.S.-based 
human rights organization Dui Hua Foundation stated that the 
increase in criminal trials indicated ``heightened . . . 
suppression of human rights activism and dissent in Xinjiang.'' 
\31\ In the spring of 2014, central and regional government 
officials launched a year-long crackdown on terrorism in the 
XUAR,\32\ following a series of violent clashes and attacks in 
the region.\33\ Amnesty International expressed concern that 
under the crackdown, authorities would not try defendants 
according to due process of law.\34\ In late 2014, state media 
reported that as part of the crackdown, XUAR authorities had 
destroyed 115 alleged ``terrorist cells,'' detained 238 people 
who had provided religious instruction or sites for religious 
instruction, and shut down 171 ``religious training sites.'' 
\35\ In May 2015, XUAR officials announced that they had broken 
up 181 ``terrorist groups'' as part of the crackdown.\36\ In 
December 2014, Supreme People's Court President Zhou Qiang said 
authorities must ``crack down harshly and quickly'' on 
terrorism cases, as well as on cases involving national 
security and social stability.\37\ In addition, in January 
2015, XUAR Party Secretary Zhang Chunxian wrote in an article 
discussing the rule of law and stability in the region that 
rule of law in China is not based on ``separation of powers,'' 
and China should not emulate Western ``judicial independence'' 
and ``judicial neutrality.'' \38\

------------------------------------------------------------------------
                     Draft PRC Counterterrorism Law
-------------------------------------------------------------------------
  In November 2014, the Chinese government made public for consultation
 a draft of the PRC Counterterrorism Law,\39\ legislation described by
 Chinese scholars and lawmakers as necessary to protect the country
 against terrorism.\40\ The wide-ranging law seeks to define what
 constitutes terrorist activity, and lays out a framework for
 establishing counterterrorism institutions, enhancing security, and
 coordinating intelligence gathering and emergency response, among other
 areas.\41\ Human rights organizations and other critics warned that the
 law fails to conform to international legal standards and provides
 officials with a pretext to commit human rights abuses in the name of
 counterterrorism, including in the XUAR.\42\ During a February 2015
 review, authorities removed a reference to ``thought'' in the draft
 law's definition of terrorism,\43\ a definition that Human Rights Watch
 (HRW) had warned was ``overly broad.'' \44\ The Commission did not
 observe reports of the removal of other language in the draft law that
 HRW cautioned could be used to carry out rights abuses in the XUAR.\45\
 For instance, under Article 24, minors' participation in religious
 activity could be characterized as ``terrorist or extremist
 tendencies.'' \46\
------------------------------------------------------------------------

    In December 2014, the Urumqi Intermediate People's Court 
sentenced six Uyghurs and one member of the Yi ethnic minority 
to prison terms ranging from three to eight years on the charge 
of ``separatism,'' \47\ a crime falling under the category of 
``endangering state security.'' \48\ The seven individuals had 
reportedly been students of Uyghur scholar Ilham Tohti, and at 
least some had contributed to the website Uyghur Online, which 
Tohti founded.\49\ In November 2014, the XUAR High People's 
Court upheld Tohti's life sentence, rejecting an appeal filed 
by his lawyers.\50\ The court announced its decision on the 
appeal inside the Urumqi No. 1 Public Security Bureau Detention 
Center,\51\ where Tohti was being held, a move his lawyers and 
international rights groups said violated normal judicial 
procedures.\52\
    On May 31, 2015, authorities released from prison Ablikim 
Abdureyim, the son of U.S.-based Uyghur rights advocate Rebiya 
Kadeer, who had served nine years for ``instigating and 
engaging in secessionist activities.'' \53\ Kadeer attributed 
her son's survival in prison, where he was reportedly tortured, 
to ``the concern shown by the international community and 
rights organizations, as well as pressure from western 
governments on Beijing.'' \54\

                           Development Policy

    During the Commission's 2015 reporting year, central 
government and regional authorities continued to focus on 
cultivating the XUAR as a central point of China's new ``Silk 
Road'' development strategy, promoting extensive ``Silk Road'' 
projects for their ability to simultaneously stimulate economic 
growth and ``maintain stability'' in the region.\55\ Some 
observers expressed concern over the environmental impact of 
new and ongoing development projects in the XUAR.\56\ Other 
observers raised concerns that development initiatives could 
further exacerbate existing regional economic inequality and 
ethnic tensions.\57\
    In November 2014, President Xi Jinping announced that 
central government authorities would spend US$40 billion to 
establish a Silk Road Fund,\58\ including US$16.3 billion in 
funds for infrastructure projects.\59\ In April 2015, during a 
two-day visit to Pakistan, Xi announced a US$46 billion package 
of development projects, including energy, rail, road, and 
other infrastructure projects linking the XUAR to Pakistan's 
Gwadar port.\60\ During the visit, Xi Jinping and Pakistani 
leaders also stressed the importance of bilateral efforts to 
fight terrorism.\61\
    Central and regional authorities continued investing 
substantial funds in the XUAR to extract coal and gas, as well 
as to construct oil and gas pipelines and high-voltage 
electricity lines to transport energy resources between the 
XUAR and other parts of China and Central Asia.\62\ In November 
2014, authorities launched the XUAR's first high-speed rail 
line, which cut the travel time by around half between Qumul 
(Hami) city and the regional capital Urumqi.\63\ In February 
2015, central government authorities announced a financial 
support package for southern areas of the XUAR designed to 
``stimulate economic development and safeguard social 
stability.'' \64\
    As part of policy measures President Xi introduced in May 
2014 that were reportedly aimed at employing and educating 
Uyghurs in Han Chinese areas, as well as strengthening ``ethnic 
unity,'' \65\ authorities continued to bring groups of Uyghurs 
from the XUAR to areas on China's east coast to work in factory 
jobs.\66\ The government of Guangdong province, which 
reportedly planned to bring 5,000 workers from the XUAR in the 
three years beginning in 2014,\67\ issues payments to companies 
employing the workers.\68\
    In 2015, regional officials began the second round of the 
``Down to the Grassroots'' campaign,\69\ which officials and 
Party-run media billed as aiming to boost development, improve 
people's livelihoods, and enhance stability and ``ethnic 
unity.'' \70\ Under the program, which began in 2014, 70,000 
XUAR officials assume one-year ``grassroots'' positions in 
villages throughout the region,\71\ as part of a three-year 
regional plan to dispatch 200,000 ``grassroots'' cadres.\72\ In 
one village in Ghulja (Yining) municipality, Ili Kazakh 
Autonomous Prefecture, authorities reported that officials 
cleared a landfill site and improved public transport for local 
children, among other tasks.\73\ A British reporter found that 
the 12 officials stationed in Bayandai village in Ghulja were 
equipped with riot shields, helmets, and spears at their base 
at the local population planning clinic, and they had set up a 
closed-circuit television camera and a temporary police station 
in front of the village mosque.\74\

                          Freedom of Religion

    This past reporting year, XUAR authorities increased their 
ability to regulate and penalize Uyghurs for Muslim religious 
practices and the expression of their religious identity. In 
November 2014, the XUAR People's Congress amended the Xinjiang 
Uyghur Autonomous Region Regulations on Religious Affairs 
(RRA), which took effect on January 1, 2015.\75\ The RRA were 
first issued in 1994 \76\ and last amended in 2001.\77\ The 
newly amended regulations broaden XUAR officials' authority to 
limit religious practices, control online expression, and 
restrict wearing beards or attire perceived to have religious 
connotations.\78\ The 2015 RRA amendments codify a number of 
guidelines previously implemented only as policy directives or 
by local authorities.\79\
    Authorities throughout the XUAR also continued to implement 
other policies and regulations restricting Uyghur Muslims' 
attire, appearance, and behavior. In January 2015, the XUAR 
People's Congress Standing Committee approved a ban on wearing 
face-covering veils in public in Urumqi municipality,\80\ which 
followed similar restrictions drafted or enforced in 2014 in 
Qaramay (Kelamayi) city \81\ and Turpan prefecture.\82\ 
Authorities continued to promote a regional ``beauty project,'' 
under which authorities urge Muslim women to dress in a 
``modern'' fashion and not to wear veils and other clothing 
that may be associated with Islamic beliefs or a Muslim 
cultural identity.\83\ In December 2014, authorities in some 
parts of the XUAR issued a brochure listing 75 forms of 
``extreme religious activities.'' \84\ The 75 listed activities 
included wearing veils and abusing or threatening people who 
dress ``fashionably,'' in addition to reading extremist 
websites, abstaining from alcohol, and other types of 
behavior.\85\ In April 2015, authorities in Hotan county, Hotan 
prefecture, reportedly ordered Uyghur shopkeepers to stock 
alcohol and cigarettes in a campaign to ``weaken religion,'' as 
many local residents refrained from drinking and smoking for 
religious reasons.\86\
    Authorities in some locations in the XUAR tightened 
restrictions on minors' observance of Islamic religious 
practices.\87\ In October 2014, more than 1,000 school 
principals in Kashgar prefecture, for instance, signed a pledge 
to ``resist the infiltration of religion on campus.'' \88\ 
Authorities also targeted what they termed ``religious 
extremism,'' and local governments throughout the XUAR enforced 
campaigns to ``eradicate extremism'' throughout the reporting 
year.\89\ In June 2015, XUAR Communist Party Secretary Zhang 
Chunxian delivered a speech on religion in which he warned 
against ``religious extremism'' and emphasized the role of 
Chinese culture and ``Chinese socialism'' in guiding religion 
in China.\90\ In June 2015, a court in Atush (Atushi) city, 
Kizilsu (Kezilesu) Kirghiz Autonomous Prefecture, reportedly 
sentenced five Uyghurs to terms of between one and three years 
for engaging in ``religious extremism,'' after they attended 
``unsanctioned'' sermons and wore ``crescent moon-shaped'' 
beards.\91\ In addition, state media reported in March 2015 
that the XUAR People's Congress was planning to draft, by 2016, 
regulations specifically targeting ``religious extremism.'' 
\92\
    Some Uyghur Muslims and Christians continued to serve 
prison sentences for the peaceful observance of their religious 
beliefs.\93\ In March 2015, an online state media outlet 
published an article reporting that a court in Kashgar 
prefecture sentenced a man to six years in prison for wearing a 
long beard and sentenced his wife to two years for wearing a 
burqa.\94\ The state media website later deleted the article, 
reportedly due to censorship instructions from government 
authorities.\95\ On March 21, 2015, authorities in Hanerik 
(Han'airike) township, Hotan county, reportedly sentenced 
Uyghur religious scholar Qamber Amber to nine years' 
imprisonment, following a public trial, for defying official 
instructions to stop giving speeches at religious ceremonies 
and for otherwise ``refusing to cooperate'' with 
authorities.\96\
    As in the previous reporting year,\97\ local government 
officials throughout the XUAR reportedly maintained 
restrictions on Uyghurs' observance of Ramadan, forbidding 
government employees, students, and teachers from fasting.\98\ 
In Keriya (Yutian) county, Hotan prefecture, authorities 
forbade food establishments from shutting down or refusing to 
serve food during Ramadan.\99\ Hotan prefecture's Quality and 
Technology Supervision Bureau announced in June that, as in 
previous years, it would carry out special educational 
activities regarding atheism for the bureau's cadres and 
workers during Ramadan.\100\ In addition, authorities 
reportedly restricted imams in the XUAR to one hour of 
preaching on Fridays, the Muslim holy day, during the Ramadan 
period.\101\

                         Freedom of Expression

    During the reporting period, regional officials restricted 
the flow of information, including media reports and Internet 
communications. Foreign journalists reported that security 
officials monitored them and attempted to restrict their 
coverage when they reported from the XUAR.\102\ Government 
authorities also periodically issued instructions to domestic 
media outlets not to report on violent incidents involving 
Uyghurs.\103\ International reports cited a statement from 
Radio Free Asia (RFA) that Chinese authorities had sentenced 
one of Uyghur-American RFA journalist Shohret Hoshur's brothers 
to prison in 2014 on ``state security'' charges, likely in 
retaliation for his coverage of news in the XUAR.\104\ 
Authorities reportedly scheduled an August 2015 trial for 
another of Hoshur's brothers on charges of ``leaking state 
secrets,'' with a third brother potentially set to be tried 
soon afterwards on the same charge \105\--both of whom were 
reportedly detained after discussing their brother's 2014 trial 
in a telephone call with Hoshur.\106\
    The XUAR government also tightened measures to control and 
monitor online speech. In December 2014, regional officials 
issued new restrictions requiring Internet service providers to 
provide their encryption technology to the government, locate 
their servers within the XUAR, and obtain information about 
users' real identities.\107\ According to an international 
rights group, the restrictions are a continuation of the 
Chinese government's strategy of ``combining broad-based 
definitions of `terrorism' and what it styles as `religious 
extremism' with highly restrictive [I]nternet regulation.'' 
\108\ In January 2015, state media reported new regulations 
requiring anyone selling a mobile phone or computer in the XUAR 
to provide the purchaser's personal details to police.\109\ 
State media described the measures as tools to combat terrorism 
and other crimes,\110\ but overseas rights groups voiced 
concerns over the scope of the restrictions.\111\

                          Freedom of Movement

    In October 2014, XUAR authorities issued new guidelines for 
the region's household registration (hukou) system, relaxing 
restrictions on people settling in southern parts of the XUAR 
but limiting migration to the more developed northern cities of 
Urumqi and Qaramay.\112\ Local police officials reportedly said 
the relaxation of guidelines was aimed at facilitating Han 
Chinese migration to certain areas in the XUAR, and that 
Uyghurs were less likely to qualify for hukou in areas such as 
Urumqi and Qaramay under the guidelines.\113\ According to an 
Australian scholar, officials intended the new rules to 
encourage Han Chinese to migrate to southern parts of the XUAR, 
even if they did not overtly state this aim.\114\ Regional 
authorities promoted the plan, which facilitates migration to 
areas predominantly populated by Uyghurs,\115\ as aimed at 
boosting ``the establishment of mixed communities.'' \116\
    During this reporting year, authorities limited Uyghurs' 
ability to travel, both domestically and abroad. Reports 
indicated officials continued to restrict Uyghurs' access to 
hotels in areas outside of the XUAR.\117\ In December 2014, 
Radio Free Asia reported that authorities in Hotan prefecture 
had begun enforcing rules making it more difficult for local 
Uyghurs to obtain passports in order to travel abroad.\118\ In 
April 2015, authorities in Ili Kazakh Autonomous Prefecture 
ordered residents to turn in passports to police by May 15, and 
said border control officials would cancel passports that were 
not turned in.\119\
    In August 2015, in a potentially positive development, XUAR 
authorities announced they would simplify the region's passport 
application process and facilitate international travel for 
XUAR residents of different ethnic groups.\120\

                   Uyghur Refugees in Southeast Asia

    During this reporting year, international media reports 
highlighted a trend of Uyghurs traveling from the XUAR to 
Southeast Asian countries in hopes of later finding refuge in 
Turkey.\121\ This migration came amid a period of security 
crackdowns in the XUAR and restrictions on Uyghur Muslims' 
religious practices.\122\ In particular, reports highlighted 
the situation of hundreds of individuals believed to be Uyghurs 
whom Thai authorities were holding in detention 
facilities.\123\ Thai authorities intercepted and held more 
than 400 Uyghurs beginning in March 2014, including large 
numbers of women and children,\124\ although some reportedly 
fled from Thai detention facilities in November 2014.\125\ In 
March 2015, a Thai court rejected the claims of 17 Uyghurs held 
in Thailand that immigration authorities had illegally detained 
them.\126\ In late June 2015, Thai authorities allowed 173 
Uyghur women and children to leave Thailand and travel to 
Turkey, where they planned to resettle.\127\ The group 
reportedly included some of the 17 Uyghurs who had appealed to 
the Thai court.\128\
    On July 9, 2015, Thai authorities forcibly deported 109 
Uyghurs to China,\129\ in spite of widespread concern on the 
part of rights groups that Chinese authorities would persecute 
them upon their return.\130\ Chinese officials had reportedly 
pressured Thai authorities to deport the Uyghurs.\131\ The U.S. 
State Department,\132\ the United Nations High Commissioner for 
Refugees (UNHCR),\133\ and some international rights groups 
\134\ condemned the deportation, describing it as a violation 
of international law and warning that Chinese authorities were 
likely to subject them to harsh treatment. As of July 9, 2015, 
between 50 and 67 Uyghurs reportedly remained in Thai detention 
facilities.\135\
    In addition, in October 2014, rights groups urged Malaysian 
authorities not to deport 155 Uyghurs, including 76 children, 
who had fled to Malaysia from China.\136\ In December 2012, 
Malaysian authorities deported six Uyghur asylum seekers to 
China, although the UNHCR was still reviewing their asylum 
claims.\137\
    In January 2015, Chinese authorities said that since they 
began cracking down on ``human smuggling'' in southern border 
regions in May 2014, they had detained 1,204 people for their 
role in ``human smuggling'' or for trying to cross the border 
illegally.\138\ Reports attributed the crackdown largely to 
officials' attempts to block Uyghurs they said were connected 
with violence or terrorism from crossing the border.\139\ 
Chinese police used lethal force in at least three incidents 
involving individuals who were likely Uyghurs attempting to 
cross the border into Vietnam and who, in at least two of the 
incidents, authorities said attacked police.\140\

                         Other Social Policies

    During this reporting year, Chinese officials linked the 
implementation of social policies in the areas of education, 
population planning, and labor to the preservation of stability 
in the XUAR. In December 2014, Yu Zhengsheng, a member of the 
Standing Committee of the Political Bureau of the Communist 
Party Central Committee and Chairman of the Chinese People's 
Political Consultative Conference (CPPCC),\141\ stated that 
``bilingual education'' was important to the maintenance of 
``social stability'' and ``ethnic unity'' in the XUAR.\142\ 
Under ``bilingual education,'' class instruction takes place 
primarily in Mandarin Chinese, largely replacing instruction in 
languages spoken by ethnic minority groups.\143\ In January 
2015, Hou Hanmin, a CPPCC delegate and Party Secretary of the 
XUAR Women's Federation,\144\ called for measures to lower 
birth rates in southern parts of the XUAR.\145\ Hou voiced 
concern that high birth rates, in addition to a high number of 
early marriages and high divorce rates, ``pos[ed] risks to 
social stability.'' \146\ In June 2015, officials in Toqsu 
(Xinhe) county, Aksu prefecture, reportedly said they had 
ordered local Uyghur farmers to engage in hashar, a type of 
forced group labor for public works projects, in part to 
promote stability in the area.\147\
    While authorities sent some Uyghur workers outside of the 
XUAR to participate in programs reportedly aimed at promoting 
``ethnic unity,'' \148\ some government and private employers 
within the XUAR discriminated against non-Han job 
applicants.\149\ As in past reporting years,\150\ the 
Commission observed employment advertisements that set aside 
positions exclusively for Han Chinese, including civil servant 
and private-sector positions, contravening Chinese labor 
law.\151\ Private and public employers also continued to 
reserve some positions exclusively for men, leaving non-Han 
women to face both ethnic and gender discrimination in the 
hiring process.\152\
    Notes to Section IV--Xinjiang

    \1\ ``Zhang Chunxian Publishes Signed Article in the People's 
Daily: Fully Promote the Rule of Xinjiang According to Law'' [Zhang 
chunxian zai renmin ribao fabiao shuming wenzhang: quanmian tuijin yifa 
zhi jiang], People's Daily, 7 January 15. Zhang's article followed 
central and regional government officials' launch, in the spring of 
2014, of a year-long crackdown on terrorism in the XUAR. See ``Legal 
and Counterterrorism Developments'' in this section for information on 
the crackdown.
    \2\ Simon Denyer and Xu Yangjingjing, ``China Jails a Muslim for 
Six Years--For Refusing To Shave His Beard,'' Washington Post, 30 March 
15; ``China's Jailing of Man Who Grew Beard `Absurd,' '' Agence France-
Presse, reprinted in Daily Mail, 30 March 15; ``China Forces Shot 
Protesters: Xinjiang Residents,'' Agence France-Presse, reprinted in 
Daily Mail, 28 April 15.
    \3\ ``Five Dead After Security Checkpoint Clash in Xinjiang's Hoten 
Prefecture,'' Radio Free Asia, 30 January 15; Huang Mingjian and Wang 
Yiming, ``Impregnable Barrier Built on the Edge of the Desert To Fight 
Terror and Safeguard Stability'' [Shamo fudi zhu qi fankong weiwen de 
tongqiang tiebi], China Police Net, 16 February 15; ``China's Drive To 
Settle New Wave of Migrants in Restive Xinjiang,'' Agence France-
Presse, reprinted in South China Morning Post, 8 May 15; Cui Jia and 
Zhao Lei, ``PLA Strengthens Xinjiang Forces To Foil Terror Attacks,'' 
China Daily, 23 January 15; ``At Least Eight Uyghurs Shot Dead by 
Chinese Authorities in Xinjiang,'' Radio Free Asia, 19 June 15.
    \4\ Simon Denyer, ``From Burqas to Boxing Gloves, China's 75 Tips 
for Spotting Extremist Muslims,'' Washington Post, WorldViews (blog), 
12 December 14; ``Hacking, Shooting Incident Leaves 17 Dead in 
Xinjiang's Aksu Prefecture,'' Radio Free Asia, 20 February 15; ``Police 
Conduct Raids in Xinjiang a Year After Flag Burning at Mosque,'' Radio 
Free Asia, 16 April 15.
    \5\ Jia Mengyan, ``Urumqi City Recruiting 3,000 Former Soldiers, 
They Can Have Residency and Take Civil Service Exam'' [Wushi zhao 
sanqian tuiyi bing ke luohu canjia nabian kao], Urumqi Evening News, 26 
November 14; Zhang Dongmei, ``Urumqi To Recruit 3,000 Former Soldiers 
From Throughout Xinjiang, They Can Have Residency and Take the Civil 
Service Examination'' [Wulumuqi mianxiang quan jiang zhao sanqian tuiyi 
bing ke luohu he canjia nabian kaoshi], Yaxin Net, 26 November 14. See 
also Tom Phillips, ``China Sends Thousands of Troops To Combat Xinjiang 
Violence,'' Telegraph, 28 November 14.
    \6\ Andrew Jacobs, ``6 Men, Said To Have Attacked the Police, Are 
Killed in China's Far West,'' New York Times, 12 January 15; Uyghur 
Human Rights Project, ``Legitimizing Repression: China's `War on 
Terror' Under Xi Jinping and State Policy in East Turkestan,'' 3 March 
15; ``China Clamps Down on `Underage Religion' Among Muslim Uyghurs,'' 
Radio Free Asia, 30 October 14.
    \7\ Liu Xia, ``Remarkable Results From Hotan Prefecture Launch of 
All-Out `Eradicate Extremism' Work'' [Hetian diqu quanli kaizhan ``qu 
jiduanhua'' gongzuo chengxiao xianzhu], Tianshan Net, 4 February 15; Li 
Chunling, ``To `Eradicate Extremism,' the `Three Not Managed' Problem 
Must Be Resolved'' [``Qu jiduanhua'' yao jiejue hao ``san bu guan'' 
wenti], Xinjiang Daily, 6 February 15; Yang Jie, ``Akto County Launches 
`Seven Advanced Homes' Activity To `Eradicate Extremism' '' [Aketao 
xian kaizhan ``qi jin jiating'' huodong ``qu jiduanhua''], Xinjiang 
Daily, reprinted in Xinhua, 6 February 15; ``New Xinjiang Islamic 
Association Issues Proposals to Islamic Clergy and the Muslim Public To 
Thoroughly Carry Out Activities To Eliminate Religious Extremism and 
Resolutely Eradicate Religious Extremist Thinking'' [Xin xinjiang 
yisilan jiao xiehui xiang yisilan jiao jie renshi he musilin qunzhong 
fachu changyi shenru kaizhan qu zongjiao jiduanhua huodong jianjue 
chanchu zongjiao jiduan sixiang], Xinjiang Daily, 10 December 14; Lin 
Wei, ``Using `Individual Actions' To Accumulate Positive Energy That 
`Eradicates Extremism' '' [Yong ``wei xingdong'' huiju ``qu jiduanhua'' 
de zheng nengliang], Tianshan Net, 14 October 14; Liu Xia, ``Kizilsu 
Kirgiz Autonomous Prefecture Promotes `Eradicate Extremism' Propaganda 
Education Work Meeting by Convening On-Site'' [Kezhou tuijin ``qu 
jiduanhua'' xuanchuan jiaoyu gongzuo xianchang hui zhaokai], Tianshan 
Net, 3 February 15.
    \8\ Simon Denyer and Xu Yangjingjing, ``China Jails a Muslim for 
Six Years--For Refusing To Shave His Beard,'' Washington Post, 
WorldViews (blog), 30 March 15; UN GAOR, Hum. Rts. Coun., 28th Sess., 
Agenda Item 3, Promotion and Protection of All Human Rights, Civil, 
Political, Economic, Social and Cultural Rights, Including the Right to 
Development, Written Statement Submitted by the Society for Threatened 
Peoples, a Non-Governmental Organization in Special Consultative 
Status, A/HRC/28/NGO/68, 20 February 15, 2, 3; World Uyghur Congress, 
``2014 Report on Human Rights Violations in East Turkestan,'' 19 
February 15, 7-8.
    \9\ Michael Forsythe, ``Deadly Attacks in Xinjiang Go Unreported in 
China,'' New York Times, Sinosphere (blog), 26 February 15; Carrie 
Gracie, ``The Twilight World of China's Wild West,'' BBC, 7 December 
14; ``China Forces Shot Protesters: Xinjiang Residents,'' Agence 
France-Presse, reprinted in Daily Mail, 28 April 15; Benjamin Haas, 
``Hear This Now: Propaganda Drive in Xinjiang Village,'' Agence France-
Presse, 28 April 15; ``Six Uyghurs Die in Village Police Operation in 
Xinjiang,'' Radio Free Asia, 1 May 15; Uyghur Human Rights Project, 
``Legitimizing Repression: China's `War on Terror' Under Xi Jinping and 
State Policy in East Turkestan,'' 3 March 15.
    \10\ ``China Forces Shot Protesters: Xinjiang Residents,'' Agence 
France-Presse, reprinted in Daily Mail, 28 April 15; Benjamin Haas, 
``Hear This Now: Propaganda Drive in Xinjiang Village,'' Agence France-
Presse, 28 April 15.
    \11\ Ibid.
    \12\ Tian Shan, ``Police Reveal Situation of Serious Violent 
Terrorist Attack Case in Luntai County, Xinjiang'' [Jingfang pilu 
xinjiang luntai xian yanzhong baoli kongbu xiji an qingkuang], Tianshan 
Net, 25 September 14; Dan Levin, ``At Least 50 Killed in Xinjiang 
Violence, Officials Say,'' New York Times, 25 September 14; ``Official 
Death Toll in Xinjiang's Bugur Violence Climbs to 50,'' Radio Free 
Asia, 25 September 14; ``Innocent Bystander Shot by Police in 
Xinjiang's Bugur Violence,'' Radio Free Asia, 3 October 14.
    \13\ Dan Levin, ``At Least 50 Killed in Xinjiang Violence, 
Officials Say,'' New York Times, 25 September 14.
    \14\ Ibid. ``Official Death Toll in Xinjiang's Bugur Violence 
Climbs to 50,'' Radio Free Asia, 25 September 14; Tian Shan, ``Police 
Reveal Situation of Serious Violent Terrorist Attack Case in Luntai 
County, Xinjiang'' [Jingfang pilu xinjiang luntai xian yanzhong baoli 
kongbu xiji an qingkuang], Tianshan Net, 25 September 14.
    \15\ ``22 Killed in Farmers' Market Attack in Xinjiang's Kashgar 
Prefecture,'' Radio Free Asia, 18 October 14; ``Violent Attack Takes 
Place in Bachu County, Xinjiang, Attackers Are Killed at the Scene'' 
[Xinjiang bachu xian fasheng baoli xiji shijian xijizhe bei dangchang 
jibi], Radio Free Asia, 19 October 14.
    \16\ China Digital Times, ``Minitrue: Violent Incident in 
Kashgar,'' 20 October 14.
    \17\ ``Xinjiang Shache County Decisively Handles a Violent 
Terrorist Attack'' [Xinjiang shache xian guoduan chuzhi yiqi baokong 
xiji an], Tianshan Net, 29 November 14; Chris Buckley, ``Attack in 
Western China Leaves at Least 15 People Dead,'' New York Times, 29 
November 14; ``15 Dead in Attack in West China's Xinjiang Region,'' 
Associated Press, reprinted in New York Times, 29 November 14.
    \18\ ``Hacking, Shooting Incident Leaves 17 Dead in Xinjiang's Aksu 
Prefecture,'' Radio Free Asia, 20 February 15.
    \19\ Ibid.
    \20\ ``At Least 18 Dead in Ramadan Attack on Police Checkpoint in 
Xinjiang,'' Radio Free Asia, 23 June 15; Michael Forsythe, ``Deadly 
Clash Between Police and Ethnic Uighurs Reported in Xinjiang Region of 
China,'' New York Times, 24 June 15.
    \21\ Ibid.
    \22\ ``Two Attacks in Pishan County, Xinjiang in Half a Month, 
Family Planning Official Killed'' [Xinjiang pishan xian ban yue liang 
xiji jisheng guanyuan bei sha], Radio Free Asia, 25 February 15.
    \23\ ``Chinese Police Shoot Seven Uyghurs Dead Following Fatal 
Xinjiang Knife Attack,'' Radio Free Asia, 18 March 15.
    \24\ Ibid.
    \25\ ``Han Chinese Head of Xinjiang Township Stabbed to Death by 
Uyghur Man,'' Radio Free Asia, 27 May 15.
    \26\ ``Police Raids Yield No Clues About Kidnapped Uyghur Village 
Police Chief,'' Radio Free Asia, 23 March 15; ``Xinjiang Police Chief 
Kidnapped for Half a Month, Motive Unknown'' [Xinjiang jingcha suozhang 
bei bangjia ban yue dongji weiming], Radio Free Asia, 24 March 15; 
``Xinjiang Hotan Uyghur Village Security Team Leader Kidnapped, 
Residents Reveal Details of Shache Attack Incident'' [Xinjiang hetian 
weizu cun bao'an duizhang bei bangjia minzhong pilu shache xiji shijian 
xijie], Radio Free Asia, 24 March 15.
    \27\ Mimi Lau and Stephen Chen, ``Knifeman at Large After Attack at 
Guangzhou Railway Station Leaves Nine Injured,'' South China Morning 
Post, 6 March 15. See also ``Knife Attack at China Train Station Leaves 
9 Injured,'' Associated Press, reprinted in New York Times, 6 March 15.
    \28\ Mimi Lau and Stephen Chen, ``Knifeman at Large After Attack at 
Guangzhou Railway Station Leaves Nine Injured,'' South China Morning 
Post, 6 March 15; ``Knife Attack at China Train Station Leaves 9 
Injured,'' Associated Press, reprinted in New York Times, 6 March 15.
    \29\ ``Another Attack by Uyghurs on Security Forces in Yunnan, One 
Dead and Three Escaped'' [Yunnan zai you weiren xiji gong'an 1 si 3 
tao], Radio Free Asia, 26 March 15.
    \30\ ``Annual Work Report of Xinjiang Courts (2014)'' [Xinjiang 
fayuan gongzuo niandu baogao (2014 nian)], Xinjiang Court Net, 22 
January 15; Dui Hua Foundation, ``Xinjiang State Security Trials Flat, 
Criminal Trials Soar in 2014,'' Dui Hua Human Rights Journal, 10 March 
15; Edward Wong, ``Criminal Trials Rose Sharply in China's Far West in 
2014, Group Says,'' New York Times, 11 March 15; Cui Jia, ``Xinjiang 
Arrests Nearly Doubled,'' China Daily, 23 January 15; James T. Areddy, 
``Xinjiang Arrests Nearly Doubled in '14, Year of `Strike-Hard' 
Campaign,'' Wall Street Journal, China Real Time Report (blog), 23 
January 15.
    \31\ Dui Hua Foundation, ``Xinjiang State Security Trials Flat, 
Criminal Trials Soar in 2014,'' Dui Hua Human Rights Journal, 10 March 
15.
    \32\ ``Xinjiang Is the Battlefront in Year-Long Crackdown on 
Violent Terrorism'' [Yanda baokong yi nian yi xinjiang wei zhu 
zhanchang], Beijing Times, 26 May 14; ``With Xinjiang as the Main 
Battleground, China Launches a One-Year Crackdown Special Operation on 
Violence and Terrorism'' [Yi xinjiang wei zhu zhanchang zhongguo 
kaizhan weiqi yi nian yanda baokong zhuanxiang xingdong], China News 
Service, 25 May 14.
    \33\ For information on these violent clashes and attacks, see 
CECC, 2014 Annual Report, 9 October 14, 162-65.
    \34\ Amnesty International, ``Amnesty International Report 2014/15: 
The State of the World's Human Rights,'' 25 February 15, 107-13.
    \35\ Dai Lan and Li Ya'nan, ``In Special Action, Achieving Widely 
Known Justice (Hot Topic Analysis)'' [Zhuanxiang xingdong, dachu 
shengwei zhengyi (redian jiedu)], People's Daily, 9 December 14; 
``China Announces Net Results of Xinjiang `Strike Hard' Campaign,'' UCA 
News, 25 November 14.
    \36\ Chen Heying, ``Xinjiang Busts 181 Terror Groups in Intense 
Year-Long Crackdown,'' Global Times, 26 May 15; Angela Meng, ``China 
Breaks Up `181 Terrorist Groups' in Xinjiang,'' South China Morning 
Post, 25 May 15; Christopher Bodeen, ``China Touts Success of Crackdown 
in Restive Muslim Region,'' Associated Press, reprinted in Washington 
Post, 27 May 15.
    \37\ Ben Blanchard, ``China's Top Judge Urges Swift, Severe 
Sentences in Xinjiang,'' Reuters, 18 December 14; Xu Juan, ``Zhou Qiang 
Requests Courts When Doing Aid Xinjiang Work To Improve Overall 
Standards of Xinjiang Courts' Work and Properly Try All Types of Cases 
Involving Xinjiang'' [Zhou qiang jiu fayuan yuanjiang gongzuo yaoqiu 
tisheng xinjiang fayuan gongzuo zhengti shuiping tuoshan shenli gelei 
she jiang anjian], People's Daily, 19 December 14.
    \38\ ``Zhang Chunxian Publishes Signed Article in People's Daily: 
Fully Promote the Rule of Xinjiang According to Law'' [Zhang chunxian 
zai renmin ribao fabiao shuming wenzhang: quanmian tuijin yifa zhi 
jiang], People's Daily, 7 January 15. See also ``Xinjiang Faces 
`Intense Struggle' Says Region's Top Communist,'' Agence France-Presse, 
reprinted in Global Post, 7 January 15.
    \39\ Michael Martina, ``Draft Chinese Law Paves Way for Counter-
Terror Operations Abroad,'' Reuters, 27 February 15; National People's 
Congress Standing Committee, PRC Counterterrorism Law (Draft) [Zhonghua 
renmin gongheguo fan kongbu zhuyi fa (cao'an)], National People's 
Congress, issued 3 November 14. See also ``Counter-Terrorism Law 
(Initial Draft),'' China Law Translate (blog), 8 November 14.
    \40\ An Baijie and Cui Jia, ``State Intelligence Center To Counter 
Terror Threat,'' China Daily, 28 October 14; ``Chinese Legislators To 
Amend Counter-Terrorism Law,'' CCTV, 25 February 15; ``China To Set Up 
Anti-Terror Intelligence Gathering Center,'' Xinhua, 27 October 14.
    \41\ National People's Congress Standing Committee, PRC 
Counterterrorism Law (Draft) [Zhonghua renmin gongheguo fan kongbu 
zhuyi fa (cao'an)], National People's Congress, issued 3 November 14. 
See also ``Counter-Terrorism Law (Initial Draft),'' China Law Translate 
(blog), 8 November 14. See chapter 6 for defining what constitutes 
terrorist activity; chapter 2 for guidelines regarding establishing 
counterterrorism institutions and for enhancing security; chapter 4 for 
coordinating intelligence gathering; and chapter 5 for emergency 
response.
    \42\ Human Rights Watch, ``China: Draft Counterterrorism Law a 
Recipe for Abuses,'' 20 January 15; Chinese Human Rights Defenders, 
``China: Revise Draft Anti-Terrorism Law To Protect Freedom of 
Expression, Association and Dissent,'' 22 January 15; Simon Denyer, 
``China's New Terrorism Law Provokes Anger in U.S., Concern at Home,'' 
Washington Post, 5 March 15; Zunyou Zhou, ``How China Defines 
Terrorism,'' The Diplomat, 13 February 15. See also Human Rights Watch 
et al., ``Joint Letter Regarding the 2015 US-China Strategic & Economic 
Dialogue,'' 17 June 15.
    \43\ Zhu Ningning, ``Draft Counterterrorism Law Is Newly Revised To 
Further Clarify the Definition of Terrorism'' [Fan kongbu zhuyi fa 
cao'an you xin xiugai jinyibu mingque kongbu zhuyi dingyi], Legal 
Daily, reprinted in National People's Congress, 26 February 15; Laura 
Zhou, ``China Narrows Definition of Terrorism by Deleting `Thought' 
From List of Crimes,'' South China Morning Post, 26 February 15. For a 
reference to Article 104 in the draft law, see Human Rights Watch, 
``China: Draft Counterterrorism Law a Recipe for Abuses,'' 20 January 
15.
    \44\ Human Rights Watch, ``China: Draft Counterterrorism Law a 
Recipe for Abuses,'' 20 January 15.
    \45\ Ibid.
    \46\ Ibid. See also National People's Congress Standing Committee, 
PRC Counterterrorism Law (Draft) [Zhonghua renmin gongheguo fan kongbu 
zhuyi fa (cao'an)], National People's Congress, issued 3 November 14, 
art. 24(5).
    \47\ Bai Tiantian, ``Ilham Tohti Students Sentenced,'' Global 
Times, 9 December 14; Luo Ling, ``Seven College Students From Minzu 
University Sentenced for `Splitting the Country' '' [Zhongyang minzu 
daxue qi ming xuesheng ``fenlie guojia'' bei panxing], BBC, 8 December 
14; Alexa Olesen, ``After Sentencing for `Separatism,' Finding the 
Humans Behind the Bars,'' Foreign Policy, TeaLeafNation (blog), 18 
December 14.
    \48\ Josh Chin, ``China's New Strategy in Prosecuting Critics,'' 
Wall Street Journal, China Real Time Report (blog), 13 March 14.
    \49\ Alexa Olesen, ``After Sentencing for `Separatism,' Finding the 
Humans Behind the Bars,'' Foreign Policy, TeaLeafNation (blog), 18 
December 14; ``No News on Ilham Tohti, One Student Is Detained in 
Urumqi'' [Yilihamu reng wu yinxun yi xuesheng bei guan wulumuqi], Radio 
Free Asia, 29 January 14. For Commission analysis, see ``Chinese 
Authorities Arrest Uyghur Scholar Ilham Tohti and Students,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 5 March 14.
    \50\ ``Tohti Verdict Upheld,'' Global Times, 22 November 14; 
``Chinese Court Upholds `Separatism' Verdict, Life Term for Uyghur 
Scholar,'' Radio Free Asia, 21 November 14.
    \51\ Ibid.
    \52\ ``Chinese Courts Reject Uighur Scholar's Appeal, Try 
Journalist,'' Deutsche Welle, 21 November 14; Human Rights Watch, 
``China: Xinjiang Verdict Upholds Unjust Life Sentence,'' 21 November 
14; Uyghur American Association, ``Denial of Ilham Tohti's Appeal 
Against Separatism Charges a Travesty of Justice,'' 21 November 14.
    \53\ ``Exiled Uyghur Leader's Son Released From Xinjiang Prison,'' 
Radio Free Asia, 3 June 15. For more information on Ablikim Abdureyim, 
see the Commission's Political Prisoner Database record 2006-00084.
    \54\ Ibid.
    \55\ See, e.g., ``Chinese Leaders Urge Efforts on Poverty 
Eradication, Economic Restructuring,'' Xinhua, 9 March 15; Su Yuting, 
``Interview: Xinjiang Official on Development and Stability,'' CCTV, 15 
March 15.
    \56\ Tang Liming, ``Why Xinjiang's Economy Is Sputtering,'' Caixin, 
15 May 15; ``Polluting Factories Wreak Havoc in Xinjiang's Once-Fertile 
Township,'' Radio Free Asia, 5 November 14; Edward Wong, ``China 
Invests in Region Rich in Oil, Coal and Also Strife,'' New York Times, 
20 December 14.
    \57\ Dexter Roberts, ``China Tries To Bring Growth to Its Restless 
Xinjiang Region,'' Bloomberg, 11 December 14; Edward Wong, ``China 
Invests in Region Rich in Oil, Coal and Also Strife,'' New York Times, 
20 December 14; Benjamin Shook, ``Kashgar, Nanjiang,'' China in Central 
Asia (blog), 6 October 14.
    \58\ Jeremy Page, ``China Sees Itself at Center of New Asian 
Order,'' Wall Street Journal, 9 November 14; Min Ye, ``China's Silk 
Road Strategy,'' Foreign Policy, 10 November 14.
    \59\ Ting Shi and Steven Yang, ``China Said To Plan $16.3 Billion 
Fund for `New Silk Road,' '' Bloomberg, 4 November 14.
    \60\ Salman Masood and Declan Walsh, ``Xi Jinping Plans To Fund 
Pakistan,'' New York Times, 21 April 15; ``Xi Hails Pakistan Security 
Help in West China; Pakistan Vows More,'' Reuters, reprinted in New 
York Times, 21 April 15; Lily Kuo and Heather Timmons, ``China Is 
Investing $46 Billion To Carve Out a Route Through One of the World's 
Most Dangerous Regions,'' Quartz, 20 April 15.
    \61\ Zhao Yanrong and Wu Jiao, ``Fighting Terrorism Remains 
Priority,'' China Daily, 21 April 15. See also ``Xi Hails Pakistan 
Security Help in West China; Pakistan Vows More,'' Reuters, reprinted 
in New York Times, 21 April 15.
    \62\ Edward Wong, ``China Invests in Region Rich in Oil, Coal and 
Also Strife,'' New York Times, 20 December 14.
    \63\ ``Stretch of New High-Speed Rail Opened in Restive Western 
China,'' Reuters, reprinted in New York Times, 16 November 14; Cui Jia, 
``Xinjiang Shifts Into Top Gear With High-Speed Rail,'' China Daily, 17 
November 14; ``Xinjiang's First High-Speed Rail Gets Silk Road Project 
Going,'' Xinhua, reprinted in Global Times, 17 November 14.
    \64\ ``China Strengthens Financial Support to Southern Xinjiang,'' 
Xinhua, 12 February 15. See also Liang Fei, ``Guideline Issued To Help 
South Xinjiang,'' Global Times, 12 February 15; Ben Blanchard, ``China 
To Boost Financial Help for Troubled Xinjiang,'' Reuters, 12 February 
15.
    \65\ Edward Wong, ``To Quell Unrest, Beijing Moves To Scatter 
Uighurs Across China,'' New York Times, 6 November 14; Megha 
Rajagopalan, ``China's Xi Vows To Address Poverty, Ethnic Unity in 
Troubled Xinjiang,'' Reuters, 30 May 14; ``Xi Jinping: Expand the Scale 
of Xinjiang Ethnic Minorities Going Inland To Live'' [Xi jinping: kuoda 
xinjiang shaoshu minzu dao neidi juzhu guimo], Xinhua, 29 May 14.
    \66\ Li Wenfang, ``Xinjiang Workers Begin Their New Life,'' China 
Daily, 3 November 14; Edward Wong, ``To Quell Unrest, Beijing Moves To 
Scatter Uighurs Across China,'' New York Times, 6 November 14; Edward 
Wong and Patrick Zuo, ``Chinese Officials Issue Rules for Employing 
Uighurs in the South,'' New York Times, Sinosphere (blog), 7 November 
14.
    \67\ Li Wenfang, ``Xinjiang Workers Begin Their New Life,'' China 
Daily, 3 November 14; Edward Wong, ``To Quell Unrest, Beijing Moves To 
Scatter Uighurs Across China,'' New York Times, 6 November 14.
    \68\ Edward Wong, ``To Quell Unrest, Beijing Moves To Scatter 
Uighurs Across China,'' New York Times, 6 November 14; Edward Wong and 
Patrick Zuo, ``Chinese Officials Issue Rules for Employing Uighurs in 
the South,'' New York Times, Sinosphere (blog), 7 November 14.
    \69\ Li Jianhua, ``Our School Holds `Visit the People, Benefit the 
People, Gather the People's Hearts' Leading Small Group Work Meeting'' 
[Wo xiao zhaokai ``fang minqing hui minsheng ju minxin'' lingdao xiaozu 
gongzuo huiyi], Xinjiang Medical University, 20 April 15.
    \70\ ``Mass Line Hits Xinjiang,'' Global Times, 21 April 14; Li 
Min, ``In Xinjiang, 200,000 Cadres Go `Down to Grassroots' and Live in 
10,000 Villages'' [Xinjiang 20 wan ming jiguan ganbu xia jiceng zhu wan 
cun], Tianshan Net, 14 February 14. See also Jiang Jie, ``Xinjiang To 
Foster Grass Roots,'' Global Times, 18 February 14.
    \71\ ``Unified Legal Standards Can Help Battle Terror,'' Global 
Times, 11 March 14; ``Mass Line Hits Xinjiang,'' Global Times, 21 April 
14; Lin Meilian, ``Winning Uyghurs' Hearts,'' Global Times, 11 May 14.
    \72\ ``Unified Legal Standards Can Help Battle Terror,'' Global 
Times, 11 March 14.
    \73\ Tom Phillips, ``China Launches Massive Rural `Surveillance' 
Project To Watch Over Uighurs,'' Telegraph, 20 October 14.
    \74\ Ibid.
    \75\ Xinjiang Uyghur Autonomous Region Regulations on Religious 
Affairs [Xinjiang weiwu'er zizhiqu zongjiao shiwu tiaoli], issued 28 
November 14, effective 1 January 15; Cui Jia, ``Curbs on Religious 
Extremism Beefed Up in Xinjiang,'' China Daily, 29 November 14; Li 
Ya'nan, ``Placing Religious Work Under Legal Management (Striding 
Toward a China Ruled by Law)'' [Jiang zongjiao gongzuo naru fazhihua 
guanli (maixiang fazhi zhongguo)], People's Daily, 30 November 14.
    \76\ Xinjiang Uyghur Autonomous Region Regulations on Religious 
Affairs [Xinjiang weiwu'er zizhiqu zongjiao shiwu tiaoli], issued 28 
November 14, effective 1 January 15.
    \77\ Human Rights Watch, ``Devastating Blows: Religious Repression 
of Uighurs in Xinjiang,'' April 2005, 33-42.
    \78\ Julia Famularo, ``Chinese Religious Regulations in the 
Xinjiang Uyghur Autonomous Region: A Veiled Threat to Turkic Muslims?'' 
Project 2049 Institute, 8 April 15, 2-3, 5-6, 8; ``Religious Extremism 
Law Imposes New Restrictions on China's Uyghurs,'' Radio Free Asia, 10 
December 14.
    \79\ Julia Famularo, ``Chinese Religious Regulations in the 
Xinjiang Uyghur Autonomous Region: A Veiled Threat to Turkic Muslims?'' 
Project 2049 Institute, 8 April 15, 1-2.
    \80\ Urumqi Municipal People's Congress Standing Committee, 
Provisions Banning the Wearing of Facial or Body Coverings in Public 
Places in Urumqi City [Wulumuqi shi gonggong changsuo jinzhi chuandai 
mengmian zhaopao de guiding], issued 10 December 14, effective 1 
February 15; XUAR People's Congress Standing Committee, Decision 
Regarding the Approval of the ``Provisions Banning the Wearing of 
Facial or Body Coverings in Public Places in Urumqi City'' [Zizhiqu 
renda changwei hui guanyu pizhun ``wulumuqi shi gonggong changsuo 
jinzhi chuandai mengmian zhaopao de guiding'' de jueding], 10 January 
15, reprinted in Tianshan Net; ``Xinjiang Legislature Approves Burqa 
Ban,'' Xinhua, 10 January 15; Cui Jia, ``Legislature OKs Ban on Full 
Veils, Body Coverings in Urumqi,'' China Daily, 10 January 15. See also 
Jeremy Page and Josh Chin, ``Xinjiang Authorities Ban Wearing of Face-
Covering Veils,'' Wall Street Journal, 11 December 14.
    \81\ Tian Huaying, `` `Five Types of People' Prohibited From Taking 
Public Transportation'' [``Wu zhong renyuan'' jinzhi cheng gongjiao], 
Karamay Daily, 4 August 14; Alexa Olesen, ``In One Xinjiang City, 
Beards and Muslim Headscarves Banned From Buses,'' Foreign Policy, 6 
August 14.
    \82\ Turpan Prefecture People's Congress Work Committee, 
Recommendation Regarding Legislative Regulations on the Wearing of the 
Jilbab and Veil, issued 31 March 14, effective 1 January 15. See also 
Timothy Grose and James Leibold, ``China's Ban on Islamic Veils Is 
Destined To Fail,'' Foreign Policy, 5 February 15; Jeremy Page and Josh 
Chin, ``Xinjiang Authorities Ban Wearing of Face-Covering Veils,'' Wall 
Street Journal, 11 December 14.
    \83\ See, e.g., Liu Xia, ``Kashgar, Xinjiang Holds Conference in 
Recognition of `Visit the People, Care for the People's Livelihoods, 
Win People's Hearts' Workers'' [Xinjiang kashi zhaokai ``fang minqing 
hui minsheng ju minxin'' huodong biaozhang dongyuan dahui], Tianshan 
Net, 27 January 15; Xinjiang Women's Federation, ``XUAR Women's 
Federation Penetrates Into the Grassroots To Launch `Be a Beautiful 
Woman, Display the Great Beauty of Xinjiang'--Xinjiang Women's `Beauty 
Project' Performance Tour'' [Zizhiqu fulian shenru jiceng kaizhan ``zuo 
liangli nuxing zhan damei xinjiang''--xinjiang nuxing ``liangli 
gongcheng'' xunhui yanchu huodong], 16 October 14. For a brief 
description of the aims of the ``beauty project,'' see, e.g., Li Na, 
``Qiemo Township `Let Your Beautiful Hair Fly Freely, Let Your 
Beautiful Face be Revealed' Women's `Beauty Project' Greatly Welcomed 
by Residents'' [Qiemo zhen ``rang meili de toufa piao qilai, rang 
piaoliang de liandan lu chulai'' nuxing ``liangli gongcheng'' shen shou 
jumin huanying], Qiemo County Government, 12 May 14.
    \84\ Cao Siqi, ``Xinjiang Counties Identify 75 Forms of Religious 
Extremism,'' Global Times, 25 December 14; ``Xinjiang Agency Organizes 
the Public To Identify 75 Types of Religious Extremist Activities'' 
[Xinjiang judi zuzhi minzhong shibie 75 zhong zongjiao jiduan huodong], 
Observer, reprinted in Sina, 24 December 14; Simon Denyer, ``From 
Burqas to Boxing Gloves, China's 75 Tips for Spotting Extremist 
Muslims,'' Washington Post, WorldViews (blog), 12 December 14.
    \85\ ``Xinjiang Agency Organizes the Public To Identify 75 Types of 
Religious Extremist Activities'' [Xinjiang judi zuzhi minzhong shibie 
75 zhong zongjiao jiduan huodong], Observer, reprinted in Sina, 24 
December 14; Simon Denyer, ``From Burqas to Boxing Gloves, China's 75 
Tips for Spotting Extremist Muslims,'' Washington Post, WorldViews 
(blog), 12 December 14.
    \86\ ``Chinese Authorities Order Muslim Uyghur Shop Owners To Stock 
Alcohol, Cigarettes,'' Radio Free Asia, 4 May 15.
    \87\ ``China Clamps Down on `Underage Religion' Among Muslim 
Uyghurs,'' Radio Free Asia, 30 October 14; ``China's Xinjiang Schools 
To Discourage Religion at Home,'' Agence France-Presse, reprinted in 
The National, 29 October 14. See also Saibal Dasgupta, ``Muslim Prayers 
Banned in Govt Buildings, Schools in Xinjiang,'' Times of India, 1 
December 14.
    \88\ Chai Lin, ``A Thousand School Principals in Kashgar Prefecture 
Sign a Pledge To Resist the Infiltration of Religion on Campus'' [Kashi 
diqu qianming xiaozhang xuanshi qianming diyu zongjiao xiang xiaoyuan 
shentou], Xinjiang Broadcasting Service, 28 October 14. See also Huang 
Hongying, ``Xinjiang Kashgar No. 1 Middle School Absolutely Must Not 
Let Religion Through the School Gates'' [Xinjiang kashi shi diyi 
zhongxue: jianjue bu neng rang zongjiao zoujin xuexiao de damen], Yaxin 
Net, reprinted in Tianshan Net, 28 October 14.
    \89\ Liu Xia, ``Remarkable Results From Hotan Prefecture Launch of 
All-Out `Eradicate Extremism' Work'' [Hetian diqu quanli kaizhan ``qu 
jiduanhua'' gongzuo chengxiao xianzhu], Tianshan Net, 4 February 15; Li 
Chunling, ``To `Eradicate Extremism,' the `Three Not Managed' Problem 
Must Be Resolved'' [``Qu jiduanhua'' yao jiejue hao ``san bu guan'' 
wenti], Xinjiang Daily, 6 February 15; Yang Jie, ``Akto County Launches 
`Seven Advanced Homes' Activity To Eradicate Extremism'' [Aketao xian 
kaizhan ``qi jin jiating'' huodong ``qu jiduanhua''], Xinjiang Daily, 
reprinted in Xinhua, 6 February 15; ``New Xinjiang Islamic Association 
Issues Proposals to Islamic Clergy and the Muslim Public To Carry Out 
Activities To Eliminate Religious Extremism and Resolutely Eradicate 
Religious Extremist Thinking'' [Xin xinjiang yisilan jiao xiehui xiang 
yisilan jiao jie renshi he musilin qunzhong fachu changyi shenru 
kaizhan qu zongjiao jiduanhua huodong jianjue chanchu zongjiao jiduan 
sixiang], Xinjiang Daily, 10 December 14; Lin Wei, ``Using `Individual 
Actions' To Accumulate Positive Energy That `Eradicates Extremism' '' 
[Yong ``wei xingdong'' huiju ``qu jiduanhua'' de zheng nengliang], 
Tianshan Net, 14 October 14; Liu Xia, ``Kizilsu Kirgiz Autonomous 
Prefecture Convenes On-Site Propaganda Education Work Meeting To 
Promote `Eradicating Extremism' '' [Kezhou tuijin ``qu jiduanhua'' 
xuanchuan jiaoyu gongzuo xianchang hui zhaokai], Tianshan Net, 3 
February 15; Simon Denyer and Xu Yangjingjing, ``China Jails a Muslim 
for Six Years--For Refusing To Shave His Beard,'' Washington Post, 
WorldViews (blog), 30 March 15.
    \90\ Yao Tong and Miriguli Wutuoya, ``Further Utilize the Role of 
Patriotic Religious Figures To Actively Guide Religions To Adapt to 
Socialist Society'' [Jinyibu fahui aiguo zongjiao renshi zuoyong jiji 
yindao zongjiao yu shehui zhuyi shehui xiang shiying], Tianshan Net, 14 
June 15; `` `Sinicise' Religion To Combat `Hostile Forces': Chinese 
Official,'' South China Morning Post, 16 June 15.
    \91\ ``Five Uyghurs With `Crescent Moon-Shaped' Beards on Trial in 
Xinjiang,'' Radio Free Asia, 11 June 15.
    \92\ Cui Jia, ``Anti-Extremism Regulation Taking Shape,'' China 
Daily, 12 March 15.
    \93\ For representative examples, see the following records in the 
Commission's Political Prisoner Database: 2015-00249 on Qamber Amber, 
2009-00314 on Merdan Seyitakhun, 2011-00549 on Qurbanjan Abdusemet, and 
2008-00014 on Alimjan Yimit.
    \94\ Dan Levin, ``Mystery Surrounds Disappearance of Xinjiang 
Article and Related Apology,'' New York Times, Sinosphere (blog), 31 
March 15; Simon Denyer and Xu Yangjingjing, ``China Jails a Muslim for 
Six Years--For Refusing To Shave His Beard,'' Washington Post, 
WorldViews (blog), 30 March 15. See also China Digital Times, 
``Minitrue: Delete News on Uyghur Jailed for Beard,'' 30 March 15.
    \95\ China Digital Times, ``Minitrue: Delete News on Uyghur Jailed 
for Beard,'' 30 March 15. See also Dan Levin, ``Mystery Surrounds 
Disappearance of Xinjiang Article and Related Apology,'' New York 
Times, Sinosphere (blog), 31 March 15; Simon Denyer and Xu 
Yangjingjing, ``China Jails a Muslim for Six Years--For Refusing To 
Shave His Beard,'' Washington Post, WorldViews (blog), 30 March 15.
    \96\ ``Uyghur Religious Scholar Jailed Nine Years for `Refusing To 
Cooperate' With Authorities,'' Radio Free Asia, 8 April 15. For more 
information on Qamber Amber, see the Commission's Political Prisoner 
Database record 2015-00249.
    \97\ CECC, 2014 Annual Report, 9 October 14, 169-70.
    \98\ ``China Bans Ramadan Fasting in Mainly Muslim Region,'' Agence 
France-Presse, reprinted in Al Jazeera, 18 June 15; Charlotte 
Middlehurst, ``Beijing Bans Muslim Officials From Fasting in Ramadan in 
Parts of Xinjiang,'' Telegraph, 18 June 15; ``China Steps Up Controls 
in Unruly Xinjiang as Ramadan Approaches,'' Reuters, reprinted in New 
York Times, 16 June 15.
    \99\ Abudu'aihaiti Abuduwaili, XUAR Federation of Industry and 
Commerce, ``Yutian County Makes Concerted Efforts To Ensure Restaurant 
Industry Does Business Normally During the Ramadan Period'' [Yutian 
xian qi zhua gongguan, quebao zhaiyue qijian canyin ye zhengchang 
yingye], reprinted in All-China Federation of Industry and Commerce, 17 
June 15.
    \100\ Hotan Prefecture Quality and Technology Supervision Bureau, 
``Hotan Prefecture Quality and Technology Supervision Bureau To Carry 
Out Special Educational Activities on Atheism During the Ramadan 
Period'' [Hetian diqu zhijian ju kaizhan zhaiyue qijian wushenlun 
zhuanti jiaoyu huodong], 25 June 15.
    \101\ ``On the Eve of Ramadan in Xinjiang, Authorities Issue New 
Ban, Preaching Must Be Examined and Approved and Must Not Exceed One 
Hour Per Day'' [Xinjiang zhaiyue jianglin dangju chu xin jinling 
xuanjiao xu shenpi meiri jin yi xiaoshi], Radio Free Asia, 6 June 15.
    \102\ See, e.g., Foreign Correspondents' Club of China, ``FCCC 
Annual Working Conditions Report 2015,'' reprinted in Wall Street 
Journal, May 2015; Julie Makinen, ``In Xinjiang, China, Journalists 
Work in the Shadow of Censorship,'' Los Angeles Times, 26 October 14; 
Carrie Gracie, ``The Twilight World of China's Wild West,'' BBC, 7 
December 14; Sarah Scopelianos, ``Chinese Embassy Warns of `Wider 
Implications' Over Foreign Correspondent Story on Xinjiang Conflict,'' 
Australian Broadcasting Corporation, 9 January 15.
    \103\ See, e.g., China Digital Times, ``Minitrue: Violent Incident 
in Kashgar,'' 20 October 14; China Digital Times, ``Minitrue: Do Not 
Report Latest Violence in Shache, Xinjiang,'' 1 December 14.
    \104\ Bob Dietz, Committee to Protect Journalists, ``China's Long-
Distance Tactic To Suppress Uighur Coverage,'' 7 January 15; Simon 
Denyer, ``China Uses Long-Range Intimidation of U.S. Reporter To 
Suppress Xinjiang Coverage,'' Washington Post, 8 January 15.
    \105\ China Digital Times, ``CPJ: RFA Reporter's Brother To Face 
Trial,'' 18 August 15.
    \106\ ``China Exports Repression Beyond Its Borders,'' Washington 
Post, 9 June 15; Michael Forsythe, ``A Voice From China's Uighur 
Homeland, Reporting From the U.S.,'' New York Times, 31 July 15.
    \107\ Xinjiang Uyghur Autonomous Region Government Notice on 
Strengthening the Management of Internet Information Security [Xinjiang 
weiwu'er zizhiqu renmin zhengfu guanyu jiaqiang hulianwang xinxi anquan 
guanli de tonggao], reprinted in Yaxin Net, issued and effective 24 
December 14, paras. 3, 4; Human Rights in China, ``XUAR Government 
Notice on Strengthening the Management of Internet Information 
Security,'' 17 April 15; Gao Bo and Cao Yin, ``Xinjiang Enforces New 
Website Rules,'' China Daily, 9 January 15.
    \108\ Human Rights in China, ``XUAR Government Notice on 
Strengthening the Management of Internet Information Security,'' 17 
April 15.
    \109\ Li Qian, ``No Name, No Phone as Xinjiang Moves To Cut Terror 
Propaganda,'' Shanghai Daily, 30 January 15; Sue-Lin Wong, ``China To 
Curb Phone, Computer Purchases in Restive Xinjiang,'' Reuters, 29 
January 15; ``Xinjiang Again Issues New Regulations: To Operate Mobile 
Phones and Computers, All Must Be `Registered Under Real Names' '' 
[Xinjiang zai chu xin gui: jingying shouji, diannao yilu ``shiming 
dengji''], Radio Free Asia, 29 January 15.
    \110\ See, e.g., Gao Bo and Cao Yin, ``Xinjiang Enforces New 
Website Rules,'' China Daily, 9 January 15; Li Qian, ``No Name, No 
Phone as Xinjiang Moves To Cut Terror Propaganda,'' Shanghai Daily, 30 
January 15.
    \111\ See, e.g., Human Rights in China, ``XUAR Government Notice on 
Strengthening the Management of Internet Information Security,'' 17 
April 15; ``Xinjiang Strengthens Controls on Freedom of Information, 
Causing People To React Negatively'' [Xinjiang jiaqiang qianzhi zixun 
ziyou ling minzhong fantan], Radio Free Asia, 30 January 15.
    \112\ Xinjiang Uyghur Autonomous Region People's Government, 
Implementing Opinion on Further Carrying Out Household Registration 
Management System Reform in the XUAR [Guanyu jinyibu tuijin woqu huji 
guanli zhidu gaige de shishi yijian], reprinted in Tianshan Net, issued 
30 September 14, sec. 2(6, 7); ``Southern Xinjiang Reforms Hukou in 
Effort To Draw Talent, Investment,'' Global Times, reprinted in 
People's Daily, 21 October 14; ``Xinjiang To Promote Reform of Hukou 
System'' [Xinjiang tuixing huji zhidu gaige], Radio Free Asia, 20 
October 14. See also ``China's Drive To Settle New Wave of Migrants in 
Restive Xinjiang,'' Agence France-Presse, reprinted in South China 
Morning Post, 8 May 15.
    \113\ ``Loosened `Hukou' Restrictions in Xinjiang Benefit Hans, Not 
Uyghurs,'' Radio Free Asia, 10 June 15.
    \114\ ``China's Drive To Settle New Wave of Migrants in Restive 
Xinjiang,'' Agence France-Presse, reprinted in South China Morning 
Post, 8 May 15.
    \115\ For information on the population demographics of southern 
areas of the XUAR, see, e.g., Reza Hasmath, ``What Explains the Rise of 
Ethnic Minority Tensions in China?'' American Sociological Association 
Annual Meeting, reprinted in Academia.edu, August 2014, 5-6; ``Circling 
the Wagons,'' Economist, 25 May 13; Stanley Toops, ``Demographics and 
Development in Xinjiang After 1949,'' East-West Center Washington 
Working Papers, No. 1, May 2004.
    \116\ Cui Jia, ``Xinjiang Promotes Mixed Communities,'' China 
Daily, 20 October 14.
    \117\ ``Tibetans, Uyghurs `Blacklisted' at Hotels in Chinese 
Cities,'' Radio Free Asia, 14 May 15; ``China Denying Passports To 
Restrict Critics, Minorities,'' Associated Press, reprinted in New York 
Times, 20 May 15; Didi Kirsten Tatlow, ``Early Lessons in Ethnic 
Stereotypes in China,'' New York Times, Sinosphere (blog), 20 May 15.
    \118\ ``Uyghurs Face Seizure of Land, Personal Property Under Tough 
New Rules,'' Radio Free Asia, 17 December 14.
    \119\ ``Passports in Xinjiang's Ili To Be Handed Into Police 
Stations: China,'' Radio Free Asia, 13 May 15; Edward Wong, ``Chinese 
Police Order Residents in a Xinjiang Prefecture To Turn in Passports,'' 
New York Times, 14 May 15; ``China Denying Passports To Restrict 
Critics, Minorities,'' Associated Press, reprinted in New York Times, 
20 May 15.
    \120\ Ma Kai and Wu Danni, ``Xinjiang Standardizes and Simplifies 
Regular Passport Application Requirements and Handling Procedures for 
Xinjiang Residents'' [Xinjiang guifan he jianhua jiangnei jumin putong 
huzhao shenqing tiaojian he banli chengxu], Xinhua, 6 August 15; 
``Xinjiang To Streamline the Application Process of Passport,'' CRI 
English, 6 August 15.
    \121\ See, e.g., Sumeyye Ertekin, ``Uighurs Flee China for Turkey 
in Search of Peace,'' Al Jazeera, 3 February 15; Julie Makinen and Glen 
Johnson, ``Turkey Embraces Muslim Uighurs Who Made Perilous Escape From 
China,'' Los Angeles Times, 3 February 15; ``Uyghur Refugees Go on 
Hunger Strike in Thai Detention Center,'' Radio Free Asia, 22 January 
15.
    \122\ See, e.g., Sumeyye Ertekin, ``Uighurs Flee China for Turkey 
in Search of Peace,'' Al Jazeera, 3 February 15; ``Uyghurs Rely on 
Chinese Smugglers To Travel to Turkey,'' Radio Free Asia, 28 May 15.
    \123\ See, e.g., ``Uyghur Refugees Go on Hunger Strike in Thai 
Detention Center,'' Radio Free Asia, 22 January 15; ``Turkish NGOs 
Rally for Help to Uighurs in Thailand,'' Daily Sabah, 13 January 15; 
``Dismal Conditions Push Uyghurs To Escape From Thai Facility,'' Radio 
Free Asia, 17 November 14.
    \124\ Steve Herman, ``Suspected Uighurs From China Remain in Limbo 
in Thailand,'' Voice of America, 11 April 14; Alan Morison and Chutima 
Sidasathian, ``Terrorists or Terrified: Unproven Claims About Mystery 
Families Alarm Rights Group,'' Phuketwan, 24 March 14; Edward Wong, 
``Thais Detain More Migrants Believed To Be Ethnic Uighurs,'' New York 
Times, 24 March 14.
    \125\ Edward Wong, ``Thailand Is Searching for Scores of Uighurs 
Who Fled China,'' New York Times, 18 November 14; ``Dismal Conditions 
Push Uyghurs To Escape From Thai Facility,'' Radio Free Asia, 17 
November 14.
    \126\ Amy Sawitta Lefevre, ``Thailand Keeps Suspected Uighurs in 
Custody Amid Turkey-China Tug-of-War,'' Reuters, 27 March 15; ``Thai 
Court Rules Year-Long Detention of Suspected Uyghurs Is Legal,'' Radio 
Free Asia, 27 March 15.
    \127\ ``Group of 173 Uyghurs Freed From Thai Detention Arrive in 
Turkey,'' Radio Free Asia, 1 July 15; Susan Fraser, ``173 Uighur 
Refugees Arrive in Turkey From Thailand,'' Associated Press, 2 July 15.
    \128\ ``Group of 173 Uyghurs Freed From Thai Detention Arrive in 
Turkey,'' Radio Free Asia, 1 July 15.
    \129\ Didi Tang et al., ``Thailand Condemned for Repatriation of 
109 Uighurs to China,'' Associated Press, reprinted in New York Times, 
9 July 15. See also ``Thailand's Move To Return Uighurs to China Is a 
Massive Moral Failure,'' Washington Post, 24 July 15.
    \130\ See, e.g., ``Turkish NGOs Rally for Help to Uighurs in 
Thailand,'' Daily Sabah, 13 January 15; Uyghur American Association, 
``Uyghur American Association Urges UNHCR and the United States To Work 
Closely With Thai Government on Resettlement of Uyghur Refugees,'' 19 
November 14; Human Rights Watch, ``Thailand: Don't Forcibly Return 
Uighurs to China,'' 14 March 14.
    \131\ Jamil Anderlini, ``China Presses Thailand To Return Uighur 
Refugees,'' Financial Times, 3 April 14; ``Send Uyghurs Back Home, Says 
China,'' Associated Press, reprinted in Bangkok Post, 17 November 14; 
Human Rights Watch, ``Thailand: 100 Ethnic Turks Forcibly Sent to 
China,'' 9 July 15.
    \132\ Office of Press Relations, U.S. Department of State, ``U.S. 
Condemns Forced Deportation of Ethnic Uighurs in Thailand to China,'' 9 
July 15.
    \133\ Patsara Jikkham, ``Thailand on Defensive as Activists Slam 
Uighur Deportation,'' Bangkok Post, 9 July 15; ``Thailand Expels Nearly 
100 Uyghurs to Uncertain Fate in China,'' Radio Free Asia, 9 July 15.
    \134\ See, e.g., Human Rights Watch, ``Thailand: 100 Ethnic Turks 
Forcibly Sent to China,'' 9 July 15; Amnesty International, ``Thailand 
Must Not Send Uighurs to Chinese Torture,'' 9 July 15; Uyghur American 
Association, ``Uyghur American Association Strongly Condemns Thai 
Government Decision To Forcibly Return Uyghur Refugees,'' 9 July 15.
    \135\ Amnesty International, ``Thailand Must Not Send Uighurs to 
Chinese Torture,'' 9 July 15; Uyghur American Association, ``Uyghur 
American Association Strongly Condemns Thai Government Decision To 
Forcibly Return Uyghur Refugees,'' 9 July 15.
    \136\ See, e.g., ``Rights Group Urges Malaysia Not To Deport Uygur 
Migrants to China,'' Agence France-Presse, reprinted in South China 
Morning Post, 6 October 14; ``Govt Should Not Be Hasty in Deportation 
of Uighurs to China,'' Rakyat Post, 7 October 14.
    \137\ Human Rights Watch, ``Malaysia: Stop Forced Returns to 
China,'' 3 February 13; Hemananthani Sivanandam and Dorothy Cheng, 
``Six Uighurs Deported for Violating Immigration Laws,'' Sun Daily, 18 
February 13.
    \138\ Zhang Yang, `` `No Return' Under the Spell of Extremist 
Ideology (Closer Look)'' [Jiduan sixiang guhuo xia de ``bu gui lu'' 
(shen yuedu)], People's Daily, 19 January 15; ``Massive Exodus of 
Uyghurs Suspected of `Jihad Migration' '' [Weizu daju waitao yi 
``qianxi shengzhan''], Oriental Daily News, 20 January 15; Kor Kian 
Beng, ``China Cracks Down on Uighur Exodus,'' Straits Times, reprinted 
in AsiaOne, 22 January 15.
    \139\ See, e.g., ``Massive Exodus of Uyghurs Suspected of `Jihad 
Migration' '' [Weizu daju waitao yi ``qianxi shengzhan''], Oriental 
Daily News, 20 January 15; Kor Kian Beng, ``China Cracks Down on Uighur 
Exodus,'' Straits Times, reprinted in AsiaOne, 22 January 15.
    \140\ Ben Blanchard, ``China Police Stop `Extremists' Leaving 
Country, One Shot Dead,'' Reuters, 24 December 14; Chris Buckley, 
``Chinese Police Kill 2 Uighurs Fleeing to Vietnam, Reports Say,'' New 
York Times, 19 January 15; Ben Blanchard, ``China Police Shoot Dead Two 
`Terrorists' on Vietnam Border,'' Reuters, 17 April 15.
    \141\ ``Resume of Comrade Yu Zhengsheng'' [Yu zhengsheng tongzhi 
jianli], People's Daily, March 2013.
    \142\ Ben Blanchard, ``China Says Bilingual Education a Key for 
Xinjiang's Stability,'' Reuters, 10 December 14.
    \143\ For Commission analysis, see ``Xinjiang Authorities 
Accelerate Promotion of Mandarin-Focused Bilingual Education,'' 
Congressional-Executive Commission on China, 10 May 11.
    \144\ Zhu Kaili, ``CPPCC Member Hou Hanmin: It's Difficult for 
Xinjiang `Guli' To Set Up Businesses'' [Zhengxie weiyuan hou hanmin: 
xinjiang ``guli'' chuangye ye shi manpin de], Tianshan Net, 26 January 
15. For a discussion of the use of the Chinese term ``guli''--a 
transliteration of the Turkic suffix ``gul''--in reference to Uyghur 
women, see ``Ancient Beauties & Even Older Stereotypes,'' Sinoglot 
(blog), 17 February 10.
    \145\ ``Xinjiang Official Calls for Fewer Births, Later Marriage in 
Rural South,'' Global Times, 23 January 15; Michael Martina, ``China 
Official Calls for Reduced Birth Rates in Xinjiang,'' Reuters, 23 
January 15.
    \146\ Ibid.
    \147\ ``Forced Labor for Uyghurs in Xinjiang County To Promote 
`Stability,' '' Radio Free Asia, 9 June 15.
    \148\ Edward Wong, ``To Quell Unrest, Beijing Moves To Scatter 
Uighurs Across China,'' New York Times, 6 November 14; ``Xi Jinping: 
Expand the Scale of Xinjiang Ethnic Minorities Going Inland To Live'' 
[Xi jinping: kuoda xinjiang shaoshu minzu dao neidi juzhu guimo], 
Xinhua, 29 May 14. See also Li Wenfang, ``Xinjiang Workers Begin Their 
New Life,'' China Daily, 3 November 14; Edward Wong and Patrick Zuo, 
``Chinese Officials Issue Rules for Employing Uighurs in the South,'' 
New York Times, Sinosphere (blog), 7 November 14.
    \149\ See, e.g., Dominique Patton, ``Top China Cotton Producer 
Resists Reforms in Restive Xinjiang,'' Reuters, 19 February 15; Dexter 
Roberts, ``China Tries To Bring Growth to Its Restless Xinjiang 
Region,'' Bloomberg, 11 December 14.
    \150\ See, e.g., CECC, 2014 Annual Report, 9 October 14, 168; CECC, 
2013 Annual Report, 10 October 13, 167; CECC, 2012 Annual Report, 10 
October 12, 154.
    \151\ ``2015 Xinjiang Bortala Prefecture Jinghe County PSB Police 
Personnel Recruitment Position Table'' [2015 nian xinjiang bozhou 
jinghe xian gong'anju zhaopin jingwu renyuan zhiwei biao], CUG60.com, 
25 April 15; ``Bayangol Mongol Autonomous Prefecture Keda Energy 
Company Ltd. Manager'' [Bazhou keda nengyuan youxian gongsi jingli], 
Nanjing Talent Net, 24 April 15; Anhui Normal University Employment and 
Entrepreneurship Service, ``Xinjiang Aksu Prefecture Intermediate 
Vocational Technical School'' [Xinjiang akesu diqu zhongdeng zhiye 
jishu xuexiao], 16 April 15; Kashgar City Human Resources and Social 
Security Bureau, ``Announcement for 2015 Xinjiang Kashgar Prefecture 
Broadcasting Industry Hotline Professional Job Recruitment for 8 
People'' [2015 xinjiang kashi diqu guangbo hangfeng rexian zhuanye 
gangwei zhaopin 8 ren gonggao], reprinted in Offcn, 15 April 15; 
``Fittings Superintendent'' [Peijian guanli yuan], Yili Talent, 6 April 
15; ``Xinjiang Aerospace Information Company Ltd. Turpan City Branch'' 
[Xinjiang hangtian xinxi youxian gongsi tulufan shi fen gongsi], Turpan 
Talent Net, 19 March 15; Xinjiang Examination Information Center, 
``Xinjiang 2015 Shule County Administrative Career Position Recruits in 
Kashgar Prefecture for 95 Workers . . .'' [Xinjiang 2015 nian shule 
xian xingzheng shiye danwei mianxiang kashi diqu linxuan 95 ming gong . 
. .], reprinted in Niuren Weixin, last visited 24 July 15. For Chinese 
legal provisions that forbid employment discrimination, see, e.g., PRC 
Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 July 94, 
issued and effective 1 January 95, art. 12; PRC Employment Promotion 
Law [Zhonghua renmin gongheguo jiuye cujin fa], passed 30 August 07, 
issued and effective 1 January 08, art. 28.
    \152\ ``2015 Xinjiang Bortala Prefecture Jinghe County PSB Police 
Personnel Recruitment Position Table'' [2015 nian xinjiang bozhou 
jinghe xian gong'anju zhaopin jingwu renyuan zhiwei biao], CUG60.com, 
25 April 15; Kashgar City Human Resources and Social Security Bureau, 
``Announcement for 2015 Xinjiang Kashgar Prefecture Broadcasting 
Industry Hotline Professional Job Recruitment for 8 People'' [2015 
xinjiang kashi diqu guangbo hangfeng rexian zhuanye gangwei zhaopin 8 
ren gonggao], reprinted in Offcn, 15 April 15; ``Xinjiang Aerospace 
Information Company Ltd. Turpan City Branch'' [Xinjiang hangtian xinxi 
youxian gongsi tulufan shi fen gongsi], Turpan Talent Net, 19 March 15; 
Xinjiang Examination Information Center, ``Xinjiang 2015 Shule County 
Administrative Career Position Recruits in Kashgar Prefecture for 95 
Workers . . .'' [Xinjiang 2015 nian shule xian xingzheng shiye danwei 
mianxiang kashi diqu linxuan 95 ming gong . . .], reprinted in Niuren 
Weixin, last visited 24 July 15.

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    Formal dialogue between the Dalai Lama's representatives 
and Chinese Communist Party and government officials has been 
stalled since the January 2010 ninth round,\1\ the longest 
interval since such contacts resumed in 2002.\2\ The Commission 
observed no indication during the 2015 reporting year of 
official Chinese interest in resuming a dialogue that takes 
into account the concerns of Tibetans who live in the Tibetan 
autonomous areas of China.\3\ An April 2015 State Council white 
paper reiterated4 that Chinese officials would ``only talk with 
private representatives of the Dalai Lama'' to discuss ``the 
future of the Dalai Lama and some of his followers.'' \5\ Talks 
would also seek ``solutions'' for how the Dalai Lama would 
``gain the forgiveness of the central government and the 
Chinese people,'' the paper said.\6\
    Under Secretary of State for Civilian Security, Democracy, 
and Human Rights Sarah Sewall, who also serves as the Special 
Coordinator for Tibetan Issues,\7\ referred in June 2015 to 
ongoing Tibetan self-immolation and stated:

        This tragedy underscores the need for the Chinese 
        government to resume direct dialogue, without 
        preconditions, with the Dalai Lama or his 
        representatives. We are very concerned that it has been 
        more than five years since the last round of dialogue. 
        The situation on the ground . . . continues to 
        deteriorate.\8\

            Economic Development, Urbanization, Party Policy

    The Commission observed no evidence during its 2002 to 2015 
period of reporting that the Party or government solicited 
systematic or representative input from the Tibetan population 
on economic development in the Tibetan autonomous areas of 
China.\9\ Commission annual reports have documented 
implementation of a development model--``Chinese 
characteristics with Tibetan traits'' \10\--that effectively 
boosts economic growth \11\ and household income.\12\ At the 
same time, officials deny Tibetans adequate rights to protect 
their culture,\13\ language,\14\ religion,\15\ and 
environment.\16\
    Party officials continued to blame the Dalai Lama and 
entities associated with him for Tibetan unwillingness to 
accept Chinese policies and implementation. In March 2015, for 
example, a senior Tibet Autonomous Region (TAR) official 
reportedly asserted in a televised speech on ``Serfs 
Emancipation Day''--an observance \17\ established after the 
2008 Tibetan protests \18\--that the Party's ``political 
struggle'' with the ``Dalai clique'' is ``related to progress 
and backwardness.'' \19\
    In August 2014, the Communist Party Central Committee 
journal Seeking Truth \20\ cautioned that ``ethnic distribution 
is undergoing profound changes'' and acknowledged that the 
Party faced ``new situations, new problems, and new challenges 
in an unprecedented manner.'' \21\ The article advised that the 
Party must ``maintain strategic assertiveness.'' \22\ This past 
year, the Commission observed reports likely to prove of 
unprecedented consequence to the pace and scale of economic 
development and urbanization on the Tibetan plateau, and to 
Tibetans living there, as well as policy developments with 
potentially significant impact. Such developments include the 
following:

        <bullet> Urbanization. In November 2014, December 2014, 
        and April 2015, respectively, the State Council 
        approved upgrades of Changdu (Chamdo),\23\ Rikaze 
        (Shigatse),\24\ and Linzhi (Nyingtri) \25\ cities--the 
        capitals of TAR prefectures with the same names--to the 
        status of municipalities (prefectural-level cities). 
        Previously, Lhasa, the regional capital, was the only 
        TAR municipality.\26\ All four municipalities are on or 
        near railway lines that either are completed 
        (Lhasa,\27\ Rikaze \28\) or are under construction 
        (Changdu,\29\ Linzhi \30\).
        <bullet> Population. State-run media reported that the 
        officially acknowledged TAR urban population in 2013 
        was 740,000 and that a January 2015 ``urbanization 
        conference'' decided to increase the ``permanent urban 
        population'' by approximately 280,000 by 2020.\31\ The 
        announcement--which preceded the April 2015 upgrade of 
        Linzhi to become the fourth TAR municipality \32\--
        stated that three TAR ``cities or towns'' would each 
        have populations of ``up to 500,000'' by 2020.\33\ The 
        report referred to the Lhasa city population as 
        ``currently . . . less than 300,000,'' \34\ a likely 
        reference to 2013 data.\35\ The Commission noted in its 
        2014 Annual Report that after 2009, TAR yearbooks 
        ceased to report detailed population data, hindering 
        analysis.\36\ The figure ``less than 300,000'' is as 
        much as 60 percent greater than the 186,392 population 
        reported for 2008 in the 2009 TAR yearbook.\37\ The 
        increase is substantial and likely represents five 
        years' growth.\38\
        <bullet> Railways. State-run media reported significant 
        progress in railway construction, though completion 
        will be later than predicted.\39\ Following government 
        approval of a feasibility report in October 2014,\40\ 
        construction began in December 2014 at each end of the 
        Sichuan-Tibet railway: a 402-kilometer (approximately 
        250 miles) link eastward from Lhasa to Linzhi,\41\ and 
        a 42-kilometer (approximately 26 miles) link westward 
        from Chengdu, the Sichuan province capital, to Ya'an 
        city, Sichuan.\42\ The Lhasa-Linzhi railway is 
        scheduled for completion by 2022 and estimated to cost 
        36.6 billion yuan (US$5.89 billion) \43\--more than 
        triple the per kilometer cost of the Golmud-Lhasa 
        railway completed in 2006.\44\ The Lhasa-Linzhi railway 
        will traverse seven TAR counties \45\ south of the 
        Yalunzangbu (Yarlung Tsangpo, or Brahmaputra) river and 
        north of the border with the Indian state of Arunachal 
        Pradesh, which the Chinese government claims as part of 
        China.\46\ Public reports created in cooperation with 
        U.S. military agencies noted regional security issues 
        potentially associated with construction of the Lhasa-
        Linzhi railway.\47\
        <bullet> UFWD. On July 30, 2015, the Communist Party 
        Central Committee Political Bureau (Politburo) met and 
        decided to establish a new central leading small group 
        (gongzuo lingdao xiaozu or gongzuo xietiao xiaozu \48\) 
        to guide the United Front Work Department (UFWD) in its 
        work \49\ implementing Party policies.\50\ On July 10, 
        Party officials representing UFWD offices in the TAR 
        and Sichuan, Gansu, Qinghai, and Yunnan provinces met 
        to discuss coordination on issues including regional 
        and national stability.\51\
        <bullet> Sixth Forum. On August 24-25, 2015, the 
        Standing Committee of the Politburo, chaired by 
        President of China and Party General Secretary Xi 
        Jinping, met for the Sixth Tibet Work Forum (Sixth 
        Forum).\52\ The Fifth Tibet Work Forum took place in 
        January 2010.\53\ At the Sixth Forum, Xi reportedly 
        called for the Party to, among other things:

                <bullet> ``[U]nswervingly carry out propaganda 
                and education activities on Marxist motherland 
                view, views on nation, religious view, cultural 
                view, . . . .''; \54\
                <bullet> ``[C]ontinuously strengthen the 
                identification of the people of various 
                nationalities with the great motherland, with 
                the Chinese nation, with the Chinese culture, 
                with the Communist Party of China, and with 
                socialism with Chinese characteristics''; \55\ 
                and
                <bullet> ``[M]erge socialist core value concept 
                education into the curriculum of various levels 
                and various kinds of schools, promote the 
                state's common language, and strive to nurture 
                socialist cause builders . . . .'' \56\

                        Tibetan Self-Immolation

    The frequency of Tibetan self-immolation reportedly 
focusing on political and religious issues during the 
Commission's 2015 reporting year remained similar to the 2014 
reporting year as security and punitive measures targeting 
self-immolation remained in effect.\57\ During the 12-month 
period September 2014-August 2015, the Commission recorded 11 
self-immolations focused on political and religious issues.\58\ 
During the preceding 12-month period, September 2013-August 
2014, the Commission recorded 10 such self-immolations.\59\ The 
Commission has not observed any sign that Party and government 
leaders intend to respond to Tibetan grievances in a 
constructive manner or accept any accountability for Tibetans' 
rejection of Chinese policies.
    Senior officials continued to blame self-immolation on 
foreign incitement.\60\ For example, on March 11, 2015, Zhu 
Weiqun, currently the Chairperson of the Ethnic and Religious 
Affairs Committee of the Chinese People's Political 
Consultative Conference (CPPCC),\61\ accused the Dalai Lama and 
his supporters of ``inciting self-immolation among the Tibetan 
people'' and urged the Dalai Lama ``to forsake his evil ways.'' 
\62\ He asserted that declining numbers of self-immolations 
demonstrated that the Dalai Lama ``is exerting less influence'' 
among Tibetans.\63\ Zhu formerly was the Executive Deputy Head 
of the Communist Party Central Committee's United Front Work 
Department; \64\ in that capacity he met with the Dalai Lama's 
representatives in sessions of dialogue from 2003 until the 
most recent round in 2010.\65\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The general character of self-immolations in the past 
reporting year--acts committed publicly and featuring calls for 
Tibetan freedom and the Dalai Lama's return \66\--appeared to 
remain consistent with previous years, and were concurrent with 
government use of regulatory measures to control and repress 
principal elements of Tibetan culture and religion, including 
Tibetan Buddhist monastic institutions,\67\ and with the 
apparent collapse of the China-Dalai Lama dialogue.\68\ Fewer 
details on such protests have emerged, however, possibly as a 
result of blocked communications \69\ or fear of criminal 
prosecution and imprisonment for sharing information about a 
self-immolation with entities outside of China.\70\
    Since 2009 and as of August 2015, 137 Tibetans--121 of them 
reportedly deceased--have self-immolated in 10 of 17 Tibetan 
autonomous prefectures (TAPs) and 1 ordinary prefecture.\71\ 
From January 2014 to August 2015, Tibetans self-immolated in 6 
TAPs located in three provinces.\72\ As of July 9, 2015: \73\

        <bullet> 75 of the 137 self-immolators reportedly were 
        laypersons; 62 were current or former monks or nuns;
        <bullet> 69 of the 137 self-immolations reportedly took 
        place in Qinghai and Gansu provinces and the Tibet 
        Autonomous Region; 68 took place in Sichuan province;
        <bullet> 116 of the 137 self-immolators were male; 55 
        were current or former monks; 61 were laypersons; and
        <bullet> 21 of the 137 self-immolators were female; 7 
        were current or former nuns; 14 were laypersons.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

 
    See CECC 2012-2014 Annual Reports for Self-Immolations 1-126 \74\
------------------------------------------------------------------------
                                                     Self-
                                                   Immolation
     Date of Self-   Name Sex /    Occupation       Location
No.    Immolation   Approx. Age    Affiliation      (Prov. /     Status
                                                    Pref. /
                                                    County)
------------------------------------------------------------------------
     2014
------------------------------------------------------------------------
127  September 16   Konchog      Father          Qinghai /      Hospital
                    M/42                          Guoluo /       ized \7
                                                  Gande          5\
------------------------------------------------------------------------
     September 17 12Lhamo Tashi  Student         Gansu /        Deceased
                    M/22                          Gannan /        \76\
                                                  Hezuo
------------------------------------------------------------------------
129  December 16    Sanggye      Father          Gansu /        Deceased
                     Khar                         Gannan /        \77\
                    M/about 34                    Xiahe
------------------------------------------------------------------------
130  December 22    Tsepe Kyi    Nomad           Sichuan / Aba  Deceased
                    F/about 20                    / Aba           \78\
------------------------------------------------------------------------
131  December 23    Kalsang      Monk            Sichuan /      Deceased
                     Yeshe       Nyitso           Ganzi /         \79\
                    M/about 38    Monastery       Ganzi
------------------------------------------------------------------------
     2015
------------------------------------------------------------------------
132  March 5        Norchug      Wife and        Sichuan / Aba  Deceased
                    F/47          mother          / Aba           \80\
------------------------------------------------------------------------
133  April 8        Yeshe        Nun             Sichuan /      Deceased
                     Khadro      Nganggang        Ganzi /         \81\
                    F/47          Nunnery         Ganzi
------------------------------------------------------------------------
134  April 16       Nekyab       Husband and     Sichuan / Aba  Deceased
                    M/mid-40s     father          / Aba           \82\
                     or 50s
------------------------------------------------------------------------
135  May 20         Tenzin       Husband and     Sichuan /      Deceased
                     Gyatso       father          Ganzi /         \83\
                    M/35                          Daofu
------------------------------------------------------------------------
136  May 27         Sanggye Tso  Wife and        Gansu /        Deceased
                    F/36          mother          Gannan /        \84\
                                                  Zhuoni
------------------------------------------------------------------------
137  July 9         Sonam        Monk            Qinghai /      Deceased
                     Tobgyal     Dzongsar         Yushu /         \85\
                    M/26          Monastery       Yushu
------------------------------------------------------------------------

                Religious Freedom for Tibetan Buddhists

    The Chinese Communist Party and government continued 
efforts this past year to deepen the transformation of Tibetan 
Buddhism into a state-managed institution that prioritizes 
adherence to Party and government policies as a principal 
feature of the religion.\86\ The range of religious activity in 
which officials sought to interfere or control, sometimes by 
imposing coercive regulations, ranged from as slight as whether 
a pilgrim could carve or place mani (offering) stones,\87\ to 
as consequential as whether the Dalai Lama would 
reincarnate.\88\
    In March 2015, Zhu Weiqun, Chairperson of the CPPCC Ethnic 
and Religious Affairs Committee \89\ and former counterpart in 
dialogue with the Dalai Lama's envoys,\90\ stated in an 
interview that failure to comply with government-mandated 
procedures for identifying the Dalai Lama's reincarnation would 
be ``illegal'' and that the resultant ``so-called Dalai Lama'' 
would be ``illegal.'' \91\ During the same month, Pema Choling 
(Baima Chilin), Chairman of the Tibet Autonomous Region (TAR) 
People's Congress Standing Committee \92\ and Deputy Secretary 
of the TAR Party Committee,\93\ said the Dalai Lama's remarks 
on reincarnation were ``blasphemy against . . . Tibetan 
Buddhism'' and that the Dalai Lama's reincarnation is ``not up 
to the Dalai Lama.'' \94\ In a 2011 signed declaration, 
however, the Dalai Lama wrote: \95\

        [T]he person who reincarnates has sole legitimate 
        authority over where and how he or she takes rebirth 
        and how that reincarnation is to be recognized.

    An April 2015 State Council white paper outlined the 
rationale for claiming authority over Tibetan Buddhist 
reincarnation, including that of the Dalai Lama, and noted that 
2007 government regulations ``further institutionalize the 
reincarnation process.'' \96\ In his 2011 declaration, the 
Dalai Lama denounced the referenced regulations--titled 
Measures on the Management of the Reincarnation of Living 
Buddhas in Tibetan Buddhism \97\--as ``brazen meddling'' and 
warned that ``it will be impossible'' for Tibetan Buddhists 
``to acknowledge or accept it.'' \98\
    Regulations reportedly issued in September 2014 by the Biru 
(Driru) County People's Government in Naqu (Nagchu) prefecture, 
TAR,\99\ asserted greater control over religious activities. 
Some articles \100\ punish an individual by imposing a ban 
varying from one to three years on harvesting cordyceps 
sinensis (``caterpillar fungus'')--a principal source of income 
for many Tibetan families.\101\ Some articles also impose loss 
of welfare benefits for either one or three years.\102\ Loss of 
income and social support could effectively impose collective 
punishment \103\ by subjecting an entire family to financial 
hardship for the action of one family member.\104\ The 
Commission's 2014 Annual Report included information on a June 
2014 set of ``temporary'' Biru regulations that in some cases 
imposed collective punishment.\105\ Examples from the September 
2014 regulations include the following:

        <bullet> Images. Leaders of township-level Communist 
        Party committees or governments who fail to 
        ``discover'' and punish the possession or display of 
        images of the Dalai Lama will be warned officially; 
        \106\ heads of Monastery Management Committees \107\ 
        who fail to prevent possession or display of such 
        images will be warned officially; \108\ monks and nuns 
        who possess or display such images face expulsion from 
        their monastic institutions and six months' 
        ``education''; \109\ laypersons who possess or display 
        such images face six months' ``education'' and loss of 
        ``the right'' to collect cordyceps sinensis for two 
        years.\110\
        <bullet> Stones. Leaders of township-level Party or 
        government offices who fail to prevent ``unauthorized'' 
        mani stone \111\ carving and cairn building will be 
        warned officially; if the stones are not removed within 
        a ``certain time period,'' officials will lose their 
        rank.\112\ Persons involved in mani stone carving or 
        cairn building face six months' ``education'' and loss 
        of ``the right'' to collect cordyceps sinensis for two 
        years if they fail to ``clean up within a certain 
        period.'' \113\
        <bullet> Movement. The ``leading checkpoint official 
        and police officers on duty'' at checkpoints will 
        receive an ``official warning'' if checkpoints ``fail 
        to properly prevent monastics without full 
        qualifications \114\ from traveling.'' \115\ Similar 
        warnings will occur if ``monastics without proper 
        qualifications'' travel elsewhere for religious study 
        or ``engage in splittist sabotage after reaching other 
        localities.'' \116\

    A document reportedly issued in February 2015 by Party 
officials in Tongren (Rebgong) county, Huangnan (Malho) TAP, 
Qinghai province, outlined 20 points forbidding and penalizing 
activity characterized as related to ``Tibet independence.'' 
\117\ Several points, however, target ordinary Tibetan Buddhist 
activity.\118\ The document also appears to call for collective 
punishment of monastic institutions.\119\
    Representative examples of additional developments 
adversely affecting Tibetans' exercise of freedom of religion 
this past year include the following:

        <bullet> Must-Haves. In April 2015, TAR Party Secretary 
        Chen Quanguo ``reemphasized'' the role of the ``nine 
        must-haves'' (jiu you) \120\--items promoting Party 
        political objectives--within TAR monasteries and 
        nunneries.\121\ The Party reportedly introduced the 
        campaign in December 2011; \122\ Chen described it in 
        September 2012.\123\ In an April 2015 Seeking Truth 
        article, Chen reportedly called on monks and nuns to 
        ``have a personal feeling of the Party and government's 
        care and warmth'' and ``follow the Party's path.'' 
        \124\ Monks and nuns reportedly would face increased 
        ``assessment activities'' to ensure ``harmonious 
        monasteries'' and ``patriotic, law-abiding monks and 
        nuns.'' \125\
        <bullet> Education. Chen announced the same month the 
        launch of a ``legal education campaign'' at TAR 
        monasteries and nunneries.\126\ Such campaigns seek to 
        ``educate'' monks, nuns, religious teachers, and 
        monastic administrators about their obligations under 
        government regulatory measures and about penalties for 
        failing to fulfill them.\127\ The Party launched a 
        similar campaign in 2012.\128\
        <bullet> Intimidation. Reports of deployment of large, 
        intimidating displays of security personnel and 
        equipment at Tibetan Buddhist monasteries on days 
        regarded as among the holiest of the year interfered 
        with peaceful Tibetan Buddhist observances.\129\
        <bullet> Passports. In December 2014, officials in Seda 
        (Serthar) county, Ganzi (Kardze) TAP, Sichuan province, 
        reportedly began to issue passports to ``the general 
        public,'' but not to monks or nuns.\130\
        <bullet> Tenzin Deleg. On July 12, 2015, Tenzin Deleg, 
        recognized by the Dalai Lama as a reincarnated Tibetan 
        Buddhist teacher,\131\ died in prison in Sichuan.\132\ 
        He was sentenced in December 2002 to death with a two-
        year reprieve on charges of inciting ``splittism'' and 
        conspiracy to cause explosions,\133\ charges that he 
        denied in a smuggled audiotape.\134\ Human Rights Watch 
        and the Commission published reports on the case.\135\ 
        In January 2005, the Sichuan Province High People's 
        Court commuted the sentence to life imprisonment.\136\ 
        In 2010, prison officials reportedly informed his 
        relatives that he was ``suffering from ailments related 
        to bones, heart, and blood pressure.'' \137\ Based on 
        government regulations, he became eligible for medical 
        parole in January 2012.\138\ In October 2014, Tibetans 
        in Sichuan province gathered to pray for his release; 
        \139\ he was reported to be seriously ill as recently 
        as April 2015.\140\

                       Status of Tibetan Culture

    The Commission observed no developments this past year 
indicating that Party and government leaders intend to develop 
a ``harmonious society'' that tolerates Tibetan commitment 
toward their culture, language, and environment. In some areas, 
greater obstacles emerged for Tibetans seeking to organize 
efforts to preserve the Tibetan language or protect the 
environment.\141\ Promoting the notion that Tibetans should 
maintain ``unity'' may have played a role in a fatal police 
beating,\142\ a self-immolation,\143\ and an imprisonment.\144\
    In an unusual positive development, a ``collective'' of 
Tibetan journalists associated with China Tibet Online, a 
Party-controlled news website,\145\ posted a Tibetan-language 
statement in September 2014.\146\ According to a High Peaks 
Pure Earth translation,\147\ the group expressed the intent 
``to discard and disavow all of our previous activities of 
propaganda and politico-ideological engagements'' and commit 
``to reporting and writing about real social issues, 
livelihoods of people, conflicts and controversies in Tibet as 
they are.'' \148\ The group asserted they were exercising their 
``rights of journalism and mass media within the limits of the 
Central Government's directives.'' \149\ As of August 2015, the 
Commission had not observed additional reports on the matter.
    Representative examples of developments capable of 
hindering Tibetans' capacity to foster and protect their 
culture, language, and environment included the following:

        <bullet> Ethnicity. An August 2014 article authored by 
        the State Ethnic Affairs Commission Leading Party Group 
        and published in Seeking Truth warned of challenges 
        facing ``ethnic work.'' \150\ ``The more we find 
        ourselves in times like this, the more we should remain 
        politically sober . . . and steadfastly take the 
        correct path, with Chinese characteristics, of handling 
        the ethnic issue.'' \151\ The article urged:

        Promote refining the management of ethnic affairs; 
        improve the formulation of different governing 
        strategies toward different ethnic regions; and improve 
        the use of economic, administrative, legal, cultural, 
        information, media and other means in implementing 
        comprehensive management.\152\

        <bullet> Expression. Officials detained or sentenced 
        Tibetans including Kalsang Yarphel \153\--whose lyrics 
        urged Tibetans to speak Tibetan, unite, and build 
        courage; \154\ Pema Rigzin \155\--who produced 
        ``patriotic'' songs including for Kalsang Yarphel; 
        Druglo (pen name ``Shokjang'') \156\--a writer and 
        intellectual who discussed subjects including China's 
        system of ethnic autonomy; \157\ and blogger Gedun 
        Gyatso (pen name Dademig) \158\--who may have written 
        ``political'' material.\159\
        <bullet> Association. A Tongren (Rebgong) county Party 
        document distributed in February 2015 \160\ forbids and 
        penalizes Tibetan association for various purposes by 
        characterizing it as independence-oriented.\161\ 
        Penalized association involves Tibetan 
        communication,\162\ language,\163\ education,\164\ and 
        the environment,\165\ and appears to provide for 
        collective punishment of families and villages.\166\
        <bullet> Language and education. The role of Tibetan 
        language in education remained an issue this past year. 
        On November 1, 2014, students at the Tibetan Language 
        Middle School in Ruo'ergai (Dzoege) county, Aba (Ngaba) 
        Tibetan and Qiang Autonomous Prefecture (T&QAP), 
        Sichuan province, reportedly protested against a 
        possible change from Tibetan to Chinese as the language 
        of instruction.\167\ According to a January 2015 
        report, authorities shut down a ``winter workshop'' 
        offered by a Yushu (Yulshul) TAP, Qinghai province, 
        monastery to local children for the past 24 years.\168\ 
        Among subjects taught were Tibetan grammar and 
        logic.\169\
        <bullet> Livelihood and environment. Tibetans continued 
        to protest against the loss of their land or 
        environmental damage to it. Examples include reports 
        from: Mozhugongka (Maldro Gongkar) county, Lhasa 
        municipality, TAR, on mining runoff ``destroying fish 
        and crops and causing health problems''; \170\ Nanmulin 
        (Namling) county, Rikaze (Shigatse) municipality, TAR, 
        on ``security forces'' allegedly wounding 13 people 
        after opening fire on Tibetans protesting local mining 
        operations; \171\ Ruo'ergai county, Aba T&QAP, Sichuan, 
        on land seized for a development project; \172\ 
        Rangtang (Dzamthang) county, Aba T&QAP, on police 
        beating members of a family who refused to sell their 
        land for use as a police barracks and other development 
        projects; \173\ Xiahe (Sangchu) county, Gannan (Kanlho) 
        TAP, Gansu province, on road building that prevented 
        access to grazing lands and authorities' failure to 
        provide fair compensation for the land; \174\ Kangtsa 
        (Gangcha) county, Haibei (Tsojang) TAP, Qinghai, on 
        environmental damage in nomadic areas caused by mining 
        and failure to provide payment for land use; \175\ and 
        Chenduo (Tridu) county in Yushu TAP, Qinghai, on 
        officials who seized residency permits and driver's 
        licenses from Tibetan nomads who refused to move from 
        their grazing lands to a newly built town.\176\

    In a positive development, state-run media announced in 
January 2015 that officials will establish a national park that 
includes parts of three counties in Yushu and Guoluo (Golog) 
TAPs, Qinghai,\177\ including an area in Zaduo (Dzatoe) county 
where Tibetans reportedly had ``clashed'' with authorities over 
mining.\178\ According to an October 2014 report, officials 
halted mining in the park area.\179\

         Summary: Tibetan Political Detention and Imprisonment

    As of September 1, 2015, the Commission's Political 
Prisoner Database (PPD) contained 1,834 records--a figure 
certain to be far from complete--of Tibetan political prisoners 
detained on or after March 10, 2008, the beginning of a period 
of mostly peaceful political protests that swept across the 
Tibetan plateau.
    Among the 1,834 PPD records of Tibetan political detentions 
reported since March 2008 are 27 Tibetans ordered to serve 
reeducation through labor (all believed released) and 429 
Tibetans whom courts sentenced to imprisonment (259 are 
believed released upon sentence completion).\180\ Of the 429 
Tibetan political prisoners sentenced to imprisonment since 
March 2008, sentencing information is available for 409 
prisoners, including 5 sentenced to life imprisonment and 404 
sentenced to fixed-term sentences averaging approximately 5 
years and 3 months, based on PPD data as of September 1, 2015.

          CURRENT TIBETAN POLITICAL DETENTION AND IMPRISONMENT

    As of September 1, 2015, the PPD contained records of 646 
Tibetan political prisoners believed or presumed currently 
detained or imprisoned. Of those, 635 are records of Tibetans 
detained on or after March 10, 2008; \181\ 11 are records of 
Tibetans detained prior to March 10, 2008.
    Of the 635 Tibetan political prisoners who were detained on 
or after March 10, 2008, and who were believed or presumed to 
remain detained or imprisoned as of September 1, 2015, PPD data 
indicated that:
        <bullet> 275 (43 percent) are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.\182\
        <bullet> 557 (88 percent) are male, 49 (8 percent) are 
        female, and 29 are of unknown gender.
        <bullet> 258 (41 percent) are believed or presumed 
        detained or imprisoned in Sichuan province and 208 (33 
        percent) in the Tibet Autonomous Region. The rest are 
        believed or presumed detained or imprisoned in Qinghai 
        province (96), Gansu province (71), Beijing 
        municipality (1), and the Xinjiang Uyghur Autonomous 
        Region (1).
        <bullet> Sentencing information is available for 164 
        prisoners: 159 reportedly were sentenced to fixed terms 
        ranging from 1 year and 6 months to 20 years,\183\ and 
        5 were sentenced to life imprisonment.\184\ The average 
        fixed-term sentence is approximately 8 years and 6 
        months. Seventy (43 percent) of the prisoners with 
        known sentences reportedly are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.
    Sentencing information for 8 of the 11 Tibetan political 
prisoners detained prior to March 10, 2008, and believed 
imprisoned as of September 1, 2015, indicates sentences from 9 
years to life imprisonment. The average fixed-term sentence is 
11 years and 9 months.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notes to Section V--Tibet

    \1\ Office of His Holiness the Dalai Lama, ``Press Statement,'' 25 
January 10. According to the January 25 press statement, the Dalai 
Lama's envoys would arrive in China ``tomorrow'' (i.e., January 26, 
2010). For information in Commission annual reports in years with more 
recent examples of dialogue between the Dalai Lama's representatives 
and the Chinese Communist Party and government officials, see CECC, 
2010 Annual Report, 10 October 10, 219-20; CECC, 2009 Annual Report, 10 
October 09, 273-77; CECC, 2008 Annual Report, 31 October 08, 187-88.
    \2\ ``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10. After the ninth round of 
dialogue, Zhu Weiqun referred to the gap between the eighth and ninth 
rounds as ``the longest interval after we resumed contact and talks in 
2002.''
    \3\ For more information on the Tibetan autonomous areas of China, 
see CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-
24. In China there are 1 provincial-level area of Tibetan autonomy, 10 
prefectural-level areas of Tibetan autonomy, and 2 county-level areas 
of Tibetan autonomy. The area of the Tibet Autonomous Region (TAR) 
(approximately 1.2 million square kilometers), the 10 Tibetan 
Autonomous Prefectures (TAPs) (approximately 1.02 million square 
kilometers), and the 2 Tibetan autonomous counties (TACs) 
(approximately 0.019 million square kilometers) totals approximately 
2.24 million square kilometers. The 10 TAPs make up approximately 46 
percent of the TAR/TAP/TAC total area. Steven Marshall and Susette 
Cooke, Tibet Outside the TAR: Control, Exploitation and Assimilation: 
Development With Chinese Characteristics (Washington, DC: Self-
published CD-ROM, 1997), Table 7, citing multiple Chinese sources. 
Table 7 provides the following information. Tibet Autonomous Region 
(1.2 million square kilometers, or 463,320 square miles). Qinghai 
province: Haibei (Tsojang) TAP (52,000 square kilometers, or 20,077 
square miles), Hainan (Tsolho) TAP (41,634 square kilometers, or 16,075 
square miles), Haixi (Tsonub) Mongol and Tibetan AP (325,787 square 
kilometers, or 125,786 square miles), Huangnan (Malho) TAP (17,901 
square kilometers, or 6,912 square miles), Guoluo (Golog) TAP (78,444 
square kilometers, or 30,287 square miles), and Yushu (Yushul) TAP 
(197,791 square kilometers, or 76,367 square miles). Gansu province: 
Gannan (Kanlho) TAP (45,000 square kilometers, or 17,374 square miles) 
and Tianzhu (Pari) TAC (7,150 square kilometers, or 2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP (153,870 square 
kilometers, or 59,409 square miles), Aba (Ngaba) Tibetan and Qiang AP 
(86,639 square kilometers, or 33,451 square miles), and Muli (Mili) TAC 
(11,413 square kilometers, or 4,407 square miles). Yunnan province: 
Diqing (Dechen) TAP (23,870 square kilometers, or 9,216 square miles). 
The table provides areas in square kilometers; conversion to square 
miles uses the formula provided on the website of the U.S. Geological 
Survey: 1 square kilometer = 0.3861 square mile. For population data, 
see Tabulation on Nationalities of 2000 Population Census of China, 
Department of Population, Social, Science and Technology Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Tables 10-1, 10-4. According to 
China's 2000 census data, the Tibetan population of the TAR 
(approximately 2.43 million persons), the 10 TAPs (approximately 2.47 
million persons), and the 2 TACs (approximately 0.11 million persons) 
totaled approximately 5.01 million Tibetans. The Tibetan population of 
the 10 TAPs made up approximately 49 percent of the TAR/TAP/TAC total 
Tibetan population as of 2000. See also Tabulation on the 2010 
Population Census of the People's Republic of China, National Bureau of 
Statistics of China, Department of Population and Employment 
Statistics, Population Census Office Under the State Council, 23 April 
13, Table 2-1. The table titled ``Population by Age, Sex, and 
Nationality'' listed the national Tibetan population as 6,282,187. As 
of June 2014, the Commission had not observed detailed data based on 
the 2010 census for ethnic population in provincial-, prefectural-, and 
county-level administrative areas.
    \4\ For previous reports on official Party and government demands 
of the Dalai Lama during previous sessions of dialogue and limitations 
on topics Chinese officials would discuss, see, e.g., ``Party Official 
Adds More Preconditions Before Dalai Lama Dialogue Can Resume,'' CECC 
China Human Rights and Rule of Law Update, No. 6, 2009; ``China-Dalai 
Lama Dialogue Round Ends: Party Restates Hard Line, Tibetans Begin 
Meeting,'' CECC China Human Rights and Rule of Law Update, November 
2008; ``China Demands That the Dalai Lama Fulfill Additional 
Preconditions to Dialogue,'' Congressional-Executive Commission on 
China, 30 July 08.
    \5\ State Council Information Office, (White Paper) ``Tibet's Path 
of Development Is Driven by an Irresistible Historical Tide,'' 15 April 
15. For additional information on official Chinese statements limiting 
the scope of talks, see, e.g., ``China Willing To Talk to Dalai Lama 
About His Future, Not Tibet,'' Indo-Asian News Service, 15 July 08, 
reprinted in Yahoo!; ``China Demands That the Dalai Lama Fulfill 
Additional Preconditions to Dialogue,'' Congressional-Executive 
Commission on China, 20 July 08. According to the Yahoo! report, Dong 
Yunhu, Director General of the State Council Information Office, said 
the Chinese government ``will never discuss the future of Tibet'' with 
the Dalai Lama but would discuss the Dalai Lama's future and that of 
``some of his supporters.''
    \6\ State Council Information Office, (White Paper) ``Tibet's Path 
of Development Is Driven by an Irresistible Historical Tide,'' 15 April 
15.
    \7\ U.S. Department of State, ``Remarks Delivered at the `Lockdown 
in Tibet' Event,'' 15 June 15.
    \8\ Ibid.
    \9\ For information in recent Commission annual reports on the 
Chinese Communist Party and government approach to economic development 
in autonomous Tibetan areas of China, see CECC, 2014 Annual Report, 9 
October 14, 182-83; CECC, 2013 Annual Report, 10 October 13, 184; CECC, 
2012 Annual Report, 10 October 12, 165-66; CECC, 2011 Annual Report, 10 
October 11, 214-19; and CECC, 2010 Annual Report, 10 October 14, 222-
24.
    \10\ See, e.g., ``Chinese Communist Party Central Committee 
Political Bureau Convenes Meeting To Study, Promote Work on Tibet's 
Development by Leaps and Bounds and Long-Term Order and Stability--
Chinese Communist Party Central Committee General Secretary Hu Jintao 
Presides Over the Meeting'' [Zhonggong zhongyang zhengzhiju zhaokai 
huiyi--yanjiu tuijin xizang kuayueshi fazhan he changzhi jiu'an 
gongzuo--zhonggong zhongyang zongshuji hu jintao zhuchi huiyi], Xinhua, 
8 January 10 (translated in Open Source Center, 8 January 10); Qin 
Jiaofeng, Gama Duoji, and Quan Xiaoshu, ``Make Every Effort To Promote 
Leapfrog Development in Tibet Through Adherence to `Chinese 
Characteristics and Tibetan Traits'--Interview With National People's 
Congress Deputy and Tibet Autonomous Region Chairman Baima Chilin'' 
[Jianchi ``zhongguo tese, xizang tedian'' licu xizang kuayueshi 
fazhan--fang quanguo renda daibiao, xizang zizhiqu zhuxi baima chilin], 
Xinhua, 10 March 10 (translated in Open Source Center, 10 March 10). 
For information on developments at the January 2010 Fifth Tibet Work 
Forum, see ``Communist Party Leadership Outlines 2010-2020 `Tibet Work' 
Priorities at `Fifth Forum,' '' CECC China Human Rights and Rule of Law 
Update, No. 3, 16 March 10.
    \11\ ``Tibet's 2014 GDP Growth Up 12 pct,'' Xinhua, 31 December 14. 
According to the report, the Tibet Autonomous Region ``economy'' grew 
12 percent in 2014 and maintained ``double-digit growth since 1994.''
    \12\ Ibid. According to the report, the per capita net income of 
``farmers and herdsmen'' in the Tibet Autonomous Region rose 14 percent 
in 2014; ``disposable income'' of urban residents rose 8 percent.
    \13\ For reports related to Tibetan culture, see, e.g., Tibetan 
Centre for Human Rights and Democracy, ``TCHRD Condemns Chinese Police 
Shooting of Unarmed Tibetans in Kardze,'' 14 August 14 (interference 
with festival); ``China issues 20 `Illegal Activities Related to the 
Independence of Tibet,' '' Tibet Post International, 25 February 15 
(``protests or gatherings under the banner of . . . food security or 
the protection of animals''); ``Tibetan Musician Who Produced Songs for 
Popular Singer Is Jailed,'' Radio Free Asia, 1 December 14 (``jailed 
for more than two years for producing patriotic Tibetan songs'').
    \14\ For reports related to Tibetan language, see, e.g., 
International Campaign for Tibet, ``Tibetan Demonstrations Over Land, 
Education Policy,'' 4 November 14 (``calling for equality in education 
. . . after an official meeting was held about bilingual education''); 
``China Issues 20 `Illegal Activities Related to the Independence of 
Tibet,' '' Tibet Post International, 25 February 15 (``protests or 
gatherings under the banner of the equality of languages''); ``Tibetan 
Singer Jailed Four Years for Belting Out Patriotic Songs,'' Radio Free 
Asia, 29 November 14 (``songs calling on Tibetans to speak their own 
language'').
    \15\ For reports related to Tibetan Buddhism, see, e.g., 
International Campaign for Tibet, ``Harsh New `Rectification' Drive in 
Driru: Nuns Expelled and Warning of Destruction of Monasteries and 
`Mani Walls,' '' 20 November 14; ``Tibetan Monks, Nuns Are Denied 
Passports in Serthar,'' Radio Free Asia, 16 January 15 (``Chinese 
authorities . . . are refusing to give passports to monks and nuns for 
travel outside China''); Ben Blanchard, ``China Says Dalai Lama 
`Profanes' Buddhism by Doubting His Reincarnation,'' Reuters, 9 March 
15 (Tibet Autonomous Region Communist Party Deputy Secretary and 
Chairman of the TAR People's Congress Pema Choling (Baima Chilin): 
``[the Dalai Lama] is profaning religion and Tibetan Buddhism''). For 
information on Pema Choling's TAR positions, see China Directory 2014 
(Tokyo: Radiopress, December 2013), 433.
    \16\ For reports related to the environment, see, e.g., ``Tibetans 
Decry Pollution, Damage to Land From Chinese Mining,'' Radio Free Asia, 
20 January 15 (``mining operations in a Tibetan-populated region of 
Qinghai province are wrecking the environment''); ``Villagers Protest 
in Tibet's Maldro Gongkar County Over Mine Pollution,'' Radio Free 
Asia, 29 September 14 (``More than 1,000 Tibetan villagers have 
protested against Chinese mining . . . .''); ``Thirteen Wounded as 
Chinese Police Open Fire on Tibetan Anti-Mine Protesters,'' Radio Free 
Asia, 1 October 14 ([Protesters in Rikaze (Shigatse) prefecture] 
``suffered gunshot wounds when Chinese security forces fired into a 
crowd of villagers . . . .'').
    \17\ Laba Ciren and Gama Duoji, ``Setting of `Emancipation Day for 
Millions of Tibetan Serfs' Exposes Reactionary Nature and Darkness of 
Old Tibet's Feudal System,'' Xinhua, 19 January 09 (translated in Open 
Source Center); Bai Xu, Gama Doje, et al., Xinhua, `` `The Day That 
Changed My Life'--Tibet Sets `Serfs Emancipation Day,' '' 19 January 
09. See also ``TAR Creates March 28 Holiday To Celebrate 1959 
Dissolution of Dalai Lama's Government,'' Congressional-Executive 
Commission on China, 10 May 09.
    \18\ For Commission reporting on the March-April 2008 Tibetan 
protests, see ``Protests Fueled by Patriotic Education Continue Amidst 
Lockdowns,'' Congressional-Executive Commission on China, 10 April 08. 
See also, ``Statement of Steven Marshall Before the Senate Foreign 
Relations Committee--April 23, 2008,'' 23 April 08.
    \19\ ``Televised Speech to Commemorate the 56th Anniversary of the 
Liberation of Serfs in Tibet'' [Jinian xizang baiwan nongnu jiefang 56 
zhounian dianshi jianghua], Tibet Daily, 28 March 15 (translated in 
Open Source Center, 4 April 15). Open Source Center attributes the 
speech to ``Losang Jamcan'' [Lobsang Gyaltsen (Luosang Jiangcun)], 
Chairman of the Tibet Autonomous Region People's Government, but the 
basis of the attribution is not apparent.
    \20\ China Directory 2014 (Tokyo: Radiopress, December 2013), 22. 
China Directory lists Seeking Truth (Qiushi) as an organization under 
the Party Central Committee.
    \21\ State Ethnic Affairs Commission Leading Party Group, ``Guide 
to Action for Effectively Conducting Ethnic Work Under the New 
Situation--Studying General Secretary Xi Jinping's Important 
Expositions on Ethnic Work'' [Xin xingshi xia zuo hao minzu gongzuo de 
xingdong zhinan--xuexi xi jinping zongshuji guanyu minzu gongzuo de 
zhongyao lunshu], Seeking Truth, 31 July 14 (translated in Open Source 
Center, 17 December 14). China Directory 2014 (Tokyo: Radiopress, 
December 2013), 13-28. The State Ethnic Affairs Commission Leading 
Party Group is not listed as a group directly under the Party's Central 
Committee.
    \22\ Ibid.
    \23\ Wang Shoubao and Zhang Jingpin, ``Tibet Qamdo Prefecture 
Revocation and Establishment of Municipality Obtains State Council 
Approval'' [Xizang changdu diqu che di she shi huo guowuyuan pifu], 
Xinhua, 3 November 11.
    \24\ ``New City Inaugurated in China's Tibet,'' Xinhua, 19 December 
14 (``Xigaze . . . the third prefecture-level city in the region'').
    \25\ ``New City To Be Established in China's Tibet,'' Xinhua, 3 
April 15 (``Nyingchi . . . the fourth prefecture-level city in the 
region'').
    \26\ ``The Tibet Autonomous Region,'' National People's Congress, 
19 March 09 (``1 prefecture-level city'').
    \27\ ``Qinghai-Tibet Railway Ready for Operation on July 1,'' 
Xinhua, 29 June 06.
    \28\ ``Xinhua Insight: Tibet's Second Railway Line Opens,'' Xinhua, 
15 August 14.
    \29\ Changdu (Chamdo), the capital of Changdu prefecture, is near 
the Sichuan-Tibet railway route but not on it. ``Construction of 
Sichuan-Tibet Railway To Start in Sept,'' China Daily, 1 September 09. 
According to a schematic published in the China Daily article, the 
railway will go through Zuogang (Dzogang) county, Changdu prefecture, 
south of Changdu city. According to the same schematic, the railway 
will go through Litang (Lithang) and Kangding (Dartsedo) counties in 
Ganzi (Kardze) Tibetan Autonomous Prefecture, Sichuan province. See 
``Construction of Lhasa-Nyingchi Railway Begins,'' Xinhua, 19 December 
14 (construction began in December 2014); ``Construction Begins on 
Chengdu-Ya'an Section of Sichuan-Tibet Railway,'' Xinhua, 6 December 
14.
    \30\ ``Construction of Lhasa-Nyingchi Railway Begins,'' Xinhua, 19 
December 14. According to the National Development and Reform 
Commission approved plan, the section would take ``seven years'' to 
complete.
    \31\ ``Tibet's Urbanization Rate Expected To Exceed 30% by 2020,'' 
Xinhua, 14 January 15.
    \32\ ``New City To Be Established in China's Tibet,'' Xinhua, 3 
April 15 (``Nyingchi . . . the fourth prefecture-level city in the 
region'').
    \33\ ``Tibet's Urbanization Rate Expected To Exceed 30% by 2020,'' 
Xinhua, 14 January 15.
    \34\ Ibid.
    \35\ Based on Commission staff research experience, the report's 
assertion that the Lhasa city population was ``currently . . . less 
than 300,000'' likely meant that it was the most current information 
available as of the Xinhua article's January 2015 publication date. The 
most recent publication available in January 2015 would have been 
published in 2014 and reported data for 2013.
    \36\ Commission staff verified that Tibet Statistical Yearbooks did 
not contain county-level population statistics after the 2009 edition.
    \37\ Tibet Statistical Yearbook 2009 (Beijing: China Statistics 
Press, June 2009), Table 3-7, ``Population by Region.''
    \38\ Based on Commission staff research experience, the report's 
assertion that the Lhasa city population was ``currently . . . less 
than 300,000'' likely meant that it was the most current information 
available. The most recent population data available in January 2015 
likely would have been published in 2014 and reported data for 2013.
    \39\ Initial articles predicting completion dates were published in 
2008. ``Qinghai-Tibet Plateau To Embrace 6 More Railway Lines by 
2020,'' China Tibet Online, reprinted in Xinhua, 3 December 08. The 
China Tibet Online report states, ``By 2020, six main railway lines and 
some branches connecting Tibet Autonomous Region and Qinghai Province 
with other parts of China, are expected to be built and put into 
operation.'' Xin Dingding, ``Qinghai-Tibet Railway To Get Six New 
Lines,'' China Daily, 17 August 08. The China Daily report states, 
``The six new tracks include one from Lhasa to Nyingchi [Linzhi] and 
one from Lhasa to Xigaze [Rikaze], both in the Tibet autonomous region. 
Three tracks will originate from Golmud in Qinghai province and run to 
Chengdu in Sichuan province, Dunhuang in Gansu province, and Kuerle 
[Ku'erle] of the Xinjiang Uygur Autonomous Region. The sixth will link 
Xining, capital of Qinghai, with Zhangye in Gansu.'' For an official 
2008 map of planned railways, see National Development and Reform 
Commission, ``Long-Term Railway Network Plan (2008 Revision)'' [Zhong 
changqi tieluwang guihua tu (2008 nian tiaozheng)], last visited 8 
April 15, 7.
    \40\ ``China Approves New Railway in Tibet,'' Xinhua, 31 October 
14.
    \41\ ``Construction of Lhasa-Nyingchi Railway Begins,'' Xinhua, 19 
December 14.
    \42\ ``Construction Begins on Chengdu-Ya'an Section of Sichuan-
Tibet Railway,'' Xinhua, 6 December 14.
    \43\ ``Construction of Lhasa-Nyingchi Railway Begins,'' Xinhua, 19 
December 14. According to the Xinhua report, the section would take 
``seven years'' to complete.
    \44\ Based on information in official reports, the Lhasa-Linzhi 
railway would cost approximately 91 million yuan per kilometer; the 
Golmud-Lhasa railway, completed in 2006, cost approximately 25.8 
million yuan per kilometer. ``Construction of Lhasa-Nyingchi Railway 
Begins,'' Xinhua, 19 December 14. ``Government Scrutinizes Spending on 
Qinghai-Tibet Railway,'' Xinhua, reprinted in People's Daily, 29 June 
06 (29.46 billion yuan for the 1,142 kilometer Golmud-Lhasa section).
    \45\ ``Sichuan-Tibet Railroad Project From Lhasa to Nyingchi Is 
Approved; Overall Investment for the Project Is 36.6 Billion'' [Chuan 
zang tielu lasa zhi linzhi duan xiangmu huo pi xiangmu zong touzi 366 
yi], Xinhua, reprinted in People's Daily, 1 November 14. According to 
the article, although the western terminus is Lhasa, the most western 
point will be 32 kilometers west of Lhasa in ``Xierong.'' Commission 
map research indicates that Xierong (Sheldrong) is located in Qushui 
(Chushur) county, Lhasa municipality. The railway will pass through the 
following seven counties located along the south bank of the 
Yalungzangbu (Yarlung Tsangpo, or Brahmaputra) river prior to reaching 
Linzhi (Nyingtri) county, the capital of Linzhi (Kongpo) prefecture: 
Gongga (Gongkar), Zhanang (Dranang), Naidong (Nedong), Sangri (Zangri), 
and Jiacha (Gyatsa) located in Shannan (Lhoka) prefecture; and Langxian 
(Nang Dzong) and Milin (Minling) located in Linzhi prefecture.
    \46\ ``China Calls in Indian Ambassador To Voice Unhappiness on 
Modi's Visit to Disputed Territory,'' Xinhua, 21 February 15. According 
to the article, ``The so-called `Arunachal Pradesh' was established 
largely on the three areas of China's Tibet . . . currently under 
Indian illegal occupation.''
    \47\ Harsh V. Pant, Strategic Studies Institute and U.S. Army War 
College Press, ``The Growing Complexity of Sino-Indian Ties,'' June 
2014, 12, 14, 27; Rodney Jones, Defense Threat Reduction Agency 
Advanced Systems and Concepts Office and Policy Architects 
International, ``Nuclear Escalation Ladders in South Asia,'' April 
2011, 6, 22.
    \48\ Chinese Communist Party sources can be inconsistent in 
referring to such groups. See, e.g., ``The Political Bureau of the CPC 
Central Committee Holds a Meeting To Analyze and Study the Current 
Economic Situation and the Economic Work and To Study Further Pushing 
Forward the Work of Economic and Social Development and the Long-Term 
Peace, Order, and Stability in Tibet; Xi Jinping, General Secretary of 
the CPC Central Committee, Presides Over the Meeting'' [Zhonggong 
zhongyang zhengzhiju zhaokai huiyi--fenxi yanjiu dangqian jingji 
xingshi he jingji gongzuo--yanjiu jinyibu tuijin xizang jingji shehui 
fazhan he changzhi jiu an gongzuo--zhonggong zhongyang zongshuji xi 
jinping zhuchi huiyi], Xinhua, 30 July 15 (translated in Open Source 
Center, 31 July 15 (uses ``central leading group'' (gongzuo lingdao 
xiaozu)); Zhong Yongyong, ``Chinese Communist Party 18th Central 
Committee,'' Chinese Communist Party 18th Central Committee, reprinted 
in Sina (blog), 18 April 13 (uses ``coordination small group'' or 
``coordination small working group'' (gongzuo xietiao xiaozu) to refer 
to such groups). See also Alice Miller, ``More Already on the Central 
Committee's Leading Small Groups,'' China Leadership Monitor, Hoover 
Institution, Stanford University, No. 44 (Summer 2014), 28 July 14. 
Miller's usage includes ``leading small group'' and ``coordination 
small group.''
    \49\ For a brief state-run media description of the United Front 
Work Department's objective, see ``Chinese Officials Stress Role of 
United Front in Serving Social Management,'' Xinhua, 27 June 11. 
According to the Xinhua report, the United Front Work Department plays 
an important role in Communist Party ``social management'' regarding 
``people of different political parties, ethnic groups, religions and 
social groups at home and abroad.'' See also Chi Hsiao-hua, ``Tibetan 
Promoted as Deputy Head of United Front Work Department,'' Sing Tao 
Daily, 12 September 06 (translated in Open Source Center 15 September 
06). The Sing Tao Daily article states, ``According to the UFWD's 
official website, the department comprises six bureaus, namely Bureau 
One (works with democrats), Bureau Two (works with ethnic minorities 
and representatives of religions), Bureau Three (works with compatriots 
in Hong Kong, Macau, Taiwan and overseas), Bureau Four (selection of 
non-CPC members to fill government posts), Bureau Five (liaison with 
private enterprisers), and Bureau Six (works with intellectuals who are 
not CPC members).''
    \50\ ``The Political Bureau of the CPC Central Committee Holds a 
Meeting To Analyze and Study the Current Economic Situation and the 
Economic Work and To Study Further Pushing Forward the Work of Economic 
and Social Development and the Long-Term Peace, Order, and Stability in 
Tibet; Xi Jinping, General Secretary of the CPC Central Committee, 
Presides Over the Meeting'' [Zhonggong zhongyang zhengzhiju zhaokai 
huiyi--fenxi yanjiu dangqian jingji xingshi he jingji gongzuo--yanjiu 
jinyibu tuijin xizang jingji shehui fazhan he changzhi jiu an gongzuo--
zhonggong zhongyang zongshuji xi jinping zhuchi huiyi], Xinhua, 30 July 
15 (translated in Open Source Center, 31 July 15). For a publicly 
available version of the same Chinese-language report, see ``The 
Political Bureau of the CPC Central Committee Holds a Meeting To 
Analyze and Study the Current Economic Situation and the Economic Work 
and To Study Further Pushing Forward the Work of Economic and Social 
Development and the Long-Term Peace, Order, and Stability in Tibet; Xi 
Jinping, General Secretary of the CPC Central Committee, Presides Over 
the Meeting'' [Zhonggong zhongyang zhengzhiju zhaokai huiyi--fenxi 
yanjiu dangqian jingji xingshi he jingji gongzuo--yanjiu jinyibu tuijin 
xizang jingji shehui fazhan he changzhi jiu an gongzuo--zhonggong 
zhongyang zongshuji xi jinping zhuchi huiyi], Xinhua, 30 July 15.
    \51\ Tang Chaoyang, ``Lhasa and Tibetan Areas in Four Provinces 
Signed a Joint Cooperative Agreement To Ensure Stability'' [Lasa ji si 
sheng zang qu qianshu gong bao wending hezuo xieyi], China News 
Service, 11 July 15 (summarized in Open Source Center, 14 July 15).
    \52\ ``Xi Jinping Stresses at the Sixth Tibet Work Forum--
Administer Tibet According to Law, Increase Tibetans' Wealth Over the 
Long Term--Accelerate the Pace of Comprehensively Building Up a 
Moderately Well-Off Society--Li Keqiang and Yu Zhengsheng Speak; Zhang 
Dejiang, Liu Yunshan, Wang Qishan, Zhang Gaoli Attend'' [Xi jinping zai 
zhongyang di liu ci xizang gongzuo zuotanhui shang qiangdiao--yifa zhi 
zang fumin xing zang changqi jian zang--jia kuai xizang quanmian 
jiancheng xiaokang shehui bufa--li keqiang yu zhengsheng jiang hua--
zhang dejiang liu yunshan wang qishan zhang gaoli chuxi], Xinhua, 25 
August 15, reprinted in People's Daily (translated in Open Source 
Center, 25 August 15).
    \53\ ``The CPC Central Committee and the State Council Hold the 
Fifth Tibet Work Forum'' [Zhonggong zhongyang guo wuyuan zhaokai diwu 
ci xizang gongzuo zuotanhui], Xinhua, 22 January 10 (translated in Open 
Source Center, 25 January 10). See also CECC, 2010 Annual Report, 10 
October 10, 215-19; ``Communist Party Leadership Outlines 2010-2020 
`Tibet Work' Priorities at `Fifth Forum,' '' CECC China Human Rights 
and Rule of Law Update, No. 3, 16 March 10, 2.
    \54\ ``Xi Jinping Stresses at the Sixth Tibet Work Forum--
Administer Tibet According to Law, Increase Tibetans' Wealth Over the 
Long Term--Accelerate the Pace of Comprehensively Building Up a 
Moderately Well-Off Society--Li Keqiang and Yu Zhengsheng Speak; Zhang 
Dejiang, Liu Yunshan, Wang Qishan, Zhang Gaoli Attend'' [Xi jinping zai 
zhongyang di liu ci xizang gongzuo zuotanhui shang qiangdiao--yifa zhi 
zang fumin xing zang changqi jian zang--jia kuai xizang quanmian 
jiancheng xiaokang shehui bufa--li keqiang yu zhengsheng jiang hua--
zhang dejiang liu yunshan wang qishan zhang gaoli chuxi], Xinhua, 25 
August 15, reprinted in People's Daily (translated in Open Source 
Center, 25 August 15).
    \55\ Ibid.
    \56\ Ibid.
    \57\ For information in recent Commission annual reports on Tibetan 
self-immolation, see CECC, 2014 Annual Report, 9 October 14, 172-78; 
CECC, 2013 Annual Report, 10 October 13, 172-81; and CECC, 2012 Annual 
Report, 10 October 12, 156-60.
    \58\ The Commission has posted under Resources, Special Topics on 
its website (www.cecc.gov) a series of lists of Tibetan self-
immolations. ``CECC Update: Tibetan Self-Immolations,'' Congressional-
Executive Commission on China, 22 July 15. The summary contains a list 
showing that self-immolations numbered 127-137 took place during the 
period September 2014-August 2015.
    \59\ Ibid. The summary contains a list showing that self-
immolations numbered 117-126 took place from September 2013-August 
2014.
    \60\ For information in recent Commission annual reports with 
information on officials blaming foreign entities for self-immolation, 
see CECC, 2013 Annual Report, 10 October 13, 174; and CECC, 2012 Annual 
Report, 10 October 12, 157.
    \61\ China Directory 2014, (Tokyo: Radiopress, December 2013), 154. 
See also Han Miao and Li Yunlu, ``Zhu Weiqun: Tibet Getting Better Is 
the Fundamental Reason Why the Dalai Lama Cannot Go Any Further'' [Zhu 
weiqun: xizang yue lai yue hao shi dalai zou buxia xiaqu de genben 
yuanyin], Xinhua, 11 March 15.
    \62\ ``Chinese Official Urges Dalai Lama To `Forsake Evil Ways,' '' 
Xinhua, 11 March 15; Ben Blanchard, ``China Says Dalai Lama Less and 
Less Influential, But Must Reincarnate,'' Reuters, 11 March 15.
    \63\ Ben Blanchard, ``China Says Dalai Lama Less and Less 
Influential, But Must Reincarnate,'' Reuters, 11 March 15. See also 
``Chinese Official Urges Dalai Lama To `Forsake Evil Ways,' '' Xinhua, 
11 March 15.
    \64\ China Directory 2012, (Tokyo: Radiopress, December 2011), 17, 
27. Zhu Weiqun also held the position of Director of the Party's 
General Office of the Central Coordinating Group for Tibet Affairs. 
China Directory 2014, (Tokyo: Radiopress, December 2013). Zhu retired 
from the Central Committee; China Directory 2014 does not indicate that 
he held any Central Committee positions.
    \65\ ``United Front Work Department Executive Deputy Head Reveals 
Inside Story of Communist Party-Dalai Talks'' [Tongzhanbu changwu 
fubuzhang jiemi zhonggong yu dalai tanpan neimu], Phoenix Net, 23 
December 08 (translated in Open Source Center, 25 December 08) (``Since 
2003, Zhu Weiqun has participated in all the subsequent engage-and-talk 
interactions with the Dalai side.''); ``Press Conference on Central 
Govt's Contacts With Dalai Lama (Text),'' China Daily, 11 February 10 
(demonstrates participation in 2010 round of dialogue). For information 
in previous Commission annual reports on Zhu Weiqun's involvement in 
the dialogue between the Dalai Lama's representatives and Party and 
government officials, see, e.g., CECC, 2010 Annual Report, 10 October 
10, 219-20; CECC, 2009 Annual Report, 10 October 09, 274-75; CECC, 2008 
Annual Report, 31 October 08, 187.
    \66\ For reports providing specific detail on self-immolators' 
protests during the period beginning on September 16, 2014 (in 
chronological order), see, e.g., ``Tibetan Man Self-Immolates in Front 
of Police Station in Qinghai,'' Radio Free Asia, 4 October 14 (Konchog 
``burned himself in front of a police station''); ``Tibetan Student 
Perishes in First Self-Immolation in Five Months,'' Radio Free Asia, 21 
September 14 (Lhamo Tashi self-immolated ``shouting slogans in front of 
the . . . police station''); International Campaign for Tibet, ``Self-
Immolation in Eastern Tibet and Major Troop Deployments in Lhasa as 
Tibetans Mark Religious Anniversary,'' 16 December 14 (Sanggye Khar 
``set fire to himself and died . . . outside a police station''); 
International Campaign for Tibet, ``Self-Immolation of Monk Known for 
Protecting Religion and Culture,'' 23 December 14 (Kalsang Yeshe 
``called for the return of the Dalai Lama . . . and for freedom for 
Tibetans''); Tibetan Centre for Human Rights and Democracy, ``Monk Dies 
of Self-Immolation Calling for Dalai Lama's Return to Tibet,'' 24 
December 14 (Kalsang Yeshe ``called for `the return of Dalai Lama to 
Tibet' and `freedom for Tibetans' ''); International Campaign for 
Tibet, ``Tibetan Nun Sets Fire to Herself in Kardze,'' 10 April 15 
(Yeshe Khadro ``called for the long life of the Dalai Lama, for the 
Dalai Lama to be invited to Tibet, and for freedom for Tibet''); 
``Tibetan Man Burns Himself to Death in Front of Makeshift Altar,'' 
Voice of America, 17 April 15 (Nekyab ``set fire to himself after 
calling out some demands''; ``people . . . heard him shout out for the 
return of the Dalai Lama to Tibet''); International Campaign for Tibet, 
``Tibetan Mother Who Self-Immolated Wrote Note Calling for Long Life of 
Dalai Lama,'' 1 June 15 (Sanggye Tso ``left a note calling for the long 
life of the Dalai Lama''); Free Tibet, ``Come Together in the Power of 
Unity for Tibet,'' 20 July 15 (``The central hope of our people is to 
reinstate His Holiness the Dalai Lama in the Potala palace.'').
    \67\ For reports on government repression of religious activity 
during the Commission's 2015 reporting year, see, e.g., International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14; ``Monks, Nuns Forced To Return to Tibet County in 
Religious Life Clampdown,'' Radio Free Asia, 24 October 14. For 
Commission analysis of Chinese government regulatory intrusion upon 
Tibetan Buddhist affairs, see, e.g., ``Special Report: Tibetan Monastic 
Self-Immolations Appear To Correlate With Increasing Repression of 
Freedom of Religion,'' Congressional-Executive Commission on China, 23 
December 11; ``Tibetan Buddhist Affairs Regulations Taking Effect in 
Tibetan Autonomous Prefectures,'' Congressional-Executive Commission on 
China, 10 March 11; ``New Legal Measures Assert Unprecedented Control 
Over Tibetan Buddhist Reincarnation,'' Congressional-Executive 
Commission on China, 22 August 07. For measures issued by China's 
central government, see, e.g., State Administration for Religious 
Affairs, Measures for Evaluating the Credentials of and Appointing 
Monastic Teachers in Tibetan Buddhism [Zangchuan fojiao simiao jingshi 
zige pingding he pinren banfa], passed 25 November 12, effective 3 
December 12; State Administration for Religious Affairs, Management 
Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao simiao 
guanli banfa], passed 29 September 10, effective 1 November 10; State 
Administration for Religious Affairs, Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan fojiao 
huofo zhuanshi guanli banfa], passed 13 July 07, issued 18 July 07, 
effective 1 September 07.
    \68\ During the 2015 reporting year, the Commission did not observe 
indications that dialogue between the Chinese government and the Dalai 
Lama's representatives might soon resume.
    \69\ See, e.g., International Campaign for Tibet, ``Tibetan Man 
Self-Immolates in Golog. Harrowing Image Reaches Tibetans in Exile.,'' 
6 October 14 (regarding Konchog's self-immolation: ``news only reached 
Tibetans in exile [October 5] due to restrictions on information and 
tightened security''); ``Tibetan Man Dies in Self-Immolation Protest in 
Front of Police Station,'' Radio Free Asia, 16 December 14 (regarding 
Sanggye Khar's self-immolation: ``clamped down on communications''); 
``Tibetan Father of Four Self-Immolates in Protest in Sichuan,'' Radio 
Free Asia, 20 May 15 (regarding Tenzin Gyatso's self-immolation: 
``restrictions on movement and communications have been imposed'').
    \70\ See PRC Criminal Law [Zhonghua renmin gongheguo xingfa], 
issued 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, art. 111. The 
statute stipulates punishment for sharing ``state secrets or 
intelligence'' with ``an organ, organization or individual outside the 
territory of China.'' For examples of Tibetans sentenced to 
imprisonment in connection with allegations of sharing self-immolation 
information, see, e.g., the Commission's Political Prisoner Database 
records 2015-00084 on Kalsang Tsering; 2014-00014 on Karma Tsewang; 
2014-00046 on Tobden; 2013-00327 on Tenzin Rangdrol; 2012-00275 on 
Lobsang Jinpa; 2012-00276 on Tsultrim Kalsang; 2012-00278 on Sonam 
Yignyen; 2012-00279 on Sonam Sherab; 2012-00349 on Lobsang Tsering; 
2012-00266 on Lobsang Konchog; 2012-00296 on Lobsang Tashi; and 2012-
00297 on Thubdor.
    \71\ The Commission has posted under the Special Topics section of 
the Resources tab of its website (www.cecc.gov) a series of lists of 
Tibetan self-immolations. See, e.g., ``CECC Update: Tibetan Self-
Immolations,'' Congressional-Executive Commission on China, 22 July 15. 
As of July 9, 137 Tibetan self-immolations reported or believed to 
focus on political and religious issues took place in the following 10 
prefectural-level areas of Tibetan autonomy (arranged in descending 
order by number of self-immolations): Aba (Ngaba) Tibetan and Qiang 
Autonomous Prefecture, Sichuan province, 58 self-immolations; Gannan 
(Kanlho) Tibetan Autonomous Prefecture (TAP), Gansu province, 30 self-
immolations; Huangnan (Malho) TAP, Qinghai province, 18 self-
immolations; Ganzi (Kardze) TAP, Sichuan, 10 self-immolations; Yushu 
(Yulshul) TAP, Qinghai, 6 self-immolations; Naqu (Nagchu) prefecture, 
Tibet Autonomous Region (TAR), 4 self-immolations; Guoluo (Golog) TAP, 
Qinghai, 4 self-immolations; Lhasa municipality, TAR, 3 self-
immolations; Changdu (Chamdo) prefecture, TAR, 1 self-immolation; Haixi 
(Tsonub) Mongol and Tibetan Autonomous Prefecture, Qinghai, 1 self-
immolation. In addition, 2 Tibetans self-immolated in Haidong 
prefecture, Qinghai, which is not an area of Tibetan autonomy. (The 
preceding information does not include the following six self-
immolation protests: Yushu TAP property protests by females Dekyi 
Choezom and Pasang Lhamo on June 27 and September 13, 2012, 
respectively; Yushu property protest by female self-immolator Konchog 
Tsomo in March 2013; Gannan TAP property protest by female Tashi Kyi on 
August 28, 2015; and the April 6, 2012, deaths of a Tibetan Buddhist 
abbot, Athub, and a nun, Atse, in a Ganzi TAP house fire initially 
reported as accidental and later as self-immolation. The Commission 
continues to monitor reports on their deaths.)
    \72\ Ibid. A total of 17 self-immolations numbered 121-137 took 
place from January 2014 through August 2015: Aba Tibetan and Qiang 
Autonomous Prefecture, Sichuan province (122-123, 130, 132, 134); Ganzi 
Tibetan Autonomous Prefecture (TAP), Sichuan (125-126, 131, 133, 135); 
Huangnan TAP, Qinghai province (121, 124); Gannan TAP, Gansu province 
(128-129, 136); Guoluo TAP, Qinghai (127); and Yushu TAP, Qinghai 
(137).
    \73\ ``CECC Update: Tibetan Self-Immolations,'' Congressional-
Executive Commission on China, 22 July 15.
    \74\ CECC, 2014 Annual Report, 9 October 14, 175; CECC, 2013 Annual 
Report, 10 October 13, 174-78; CECC, 2012 Annual Report, 10 October 12, 
157-60.
    \75\ See, e.g., ``Tibetan Man Self-Immolates in Front of Police 
Station in Qinghai,'' Radio Free Asia, 4 October 14; International 
Campaign for Tibet, ``Tibetan Man Self-Immolates in Golog. Harrowing 
Image Reaches Tibetans in Exile,'' 6 October 14; Free Tibet, ``Tibetan 
Man Survives Self-Immolation Protest,'' 6 October 14.
    \76\ See, e.g., ``Tibetan Student Perishes in First Self-Immolation 
in Five Months,'' Radio Free Asia, 21 September 14; International 
Campaign for Tibet, ``Tibetan Student Sets Fire to Himself Outside 
Government Office in Northeastern Tibet,'' 22 September 14; Free Tibet, 
``Student Dies After Setting Himself Alight,'' 21 September 14; 
International Campaign for Tibet, ``Self-Immolation in Eastern Tibet 
and Major Troop Deployments in Lhasa as Tibetans Mark Religious 
Anniversary,'' 16 December 14.
    \77\ See, e.g., ``Tibetan Man Dies in Self-Immolation Protest in 
Front of Police Station,'' Radio Free Asia, 16 December 14; 
International Campaign for Tibet, ``Self-Immolation in Eastern Tibet 
and Major Troop Deployments in Lhasa as Tibetans Mark Religious 
Anniversary,'' 16 December 14; Free Tibet, ``Tibetan Dies in Fatal 
Protest,'' 16 December 14 (``Sangyal Khar'').
    \78\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Tibetan Woman, 19, Dies of Self-Immolation: Police Detain Family 
Members,'' 23 December 14 (``Tsepey''); ``Tibetan Teenage Girl Carries 
Out Self-Immolation Protest,'' Voice of America, 22 December 14 
(``Tsepey''); Free Tibet, ``Tibetan Woman Dies in Self-Immolation 
Protest,'' 22 December 14 (``Tsepe Kyi'').
    \79\ See, e.g., International Campaign for Tibet, ``Self-Immolation 
of Monk Known for Protecting Religion and Culture,'' 23 December 14; 
Tibetan Centre for Human Rights and Democracy, ``Monk Dies of Self-
Immolation Calling for Dalai Lama's Return to Tibet,'' 24 December 14; 
``Tibetan Monk Self-Immolates in Second Protest This Week,'' Radio Free 
Asia, 23 December 14.
    \80\ See, e.g., International Campaign for Tibet, ``Self-Immolation 
and Protest in Tibet Amid Intensified Security in Buildup to March 10 
Anniversary,'' 9 March 15; Tibetan Centre for Human Rights and 
Democracy, ``Tibetan Mother Dies in Self-Immolation Protest: Body 
Quickly Cremated for Fear of Seizure by Police,'' 9 March 15; ``Self-
Immolation to Death Protest in Security Heavy Ngaba,'' Voice of 
America, 9 March 15.
    \81\ See, e.g., ``Tibetan Nun in Kardze Stages Self-Immolation 
Protest Over Chinese Policies,'' Radio Free Asia, 10 April 15 (``Yeshi 
Khando,'' ``Ngagong'' nunnery); International Campaign for Tibet, 
``Tibetan Nun Sets Fire to Herself in Kardze,'' 10 April 15 (``Yeshi 
Kandro''); ``Tibetan Nun Self-Immolates To Protest Chinese Rule in 
Karze,'' Voice of America, 10 April 15 (``Yeshi Khando'').
    \82\ See, e.g., International Campaign for Tibet, ``Tibetan Man 
Sets Fire to Himself Beside Shrine With Religious Offerings 
(Updated),'' 16 April 15 (``Neykyab''); ``Tibetan Man Burns Himself to 
Death in Front of Makeshift Altar,'' Voice of America, 17 April 15 
(``Nikyab''); ``Tibetan Man Dies in Second Self-Immolation Protest This 
Month,'' Radio Free Asia, 16 April 15 (``Nei Kyab'').
    \83\ See, e.g., ``Tibetan Father of Four Self-Immolates in Protest 
in Sichuan,'' Radio Free Asia, 20 May 15; ``Tibetan Mother of Two Burns 
to Death in Protest,'' Radio Free Asia, 27 May 15 (Tenzin Gyatso ``set 
himself on fire and died''); International Campaign for Tibet, 
``Tibetan Father of Four Self-Immolates After Oppressive Measures To 
Prevent Dalai Lama Birthday Celebrations,'' 21 May 15; ``Father of Four 
Self-Immolates in Kham Tawu,'' Voice of America, 21 May 15.
    \84\ See, e.g., International Campaign for Tibet, ``Tibetan Mother 
Who Self-Immolated Wrote Note Calling for Long Life of Dalai Lama,'' 1 
June 15 (``Sangye Tso''); International Campaign for Tibet, ``Tibetan 
Mother of Two Sets Fire to Herself Outside Government Building,'' 27 
May 15; Tibetan Centre for Human Rights and Democracy, ``Tibetan Mother 
Dies of Self-Immolation Protest in Front of Chinese Government 
Office,'' 28 May 15 (``Sangyal Tso'').
    \85\ See, e.g., Free Tibet, ``Come Together in the Power of Unity 
for Tibet,'' 20 July 15 (``Sonam Topgyal''); Tibetan Centre for Human 
Rights and Democracy, ``Monk Stages Burning Protest in Remote Tibetan 
Town as China Imposes Internet Blockade,'' 10 July 15; International 
Campaign for Tibet, ``Tibetan Monk Self-Immolates as Security Tightened 
for Dalai Lama's Birthday,'' 10 July 15.
    \86\ For Commission analysis of Chinese government regulatory 
intrusion upon Tibetan Buddhist affairs, see, e.g., ``Special Report: 
Tibetan Monastic Self-Immolations Appear To Correlate With Increasing 
Repression of Freedom of Religion,'' Congressional-Executive Commission 
on China, 23 December 11; ``Tibetan Buddhist Affairs Regulations Taking 
Effect in Tibetan Autonomous Prefectures,'' Congressional-Executive 
Commission on China, 10 March 11; ``New Legal Measures Assert 
Unprecedented Control Over Tibetan Buddhist Reincarnation,'' 
Congressional-Executive Commission on China, 22 August 07. For measures 
issued by China's central government, see, e.g., State Administration 
for Religious Affairs, Measures for Evaluating the Credentials of and 
Appointing Monastic Teachers in Tibetan Buddhism [Zangchuan fojiao 
simiao jingshi zige pingding he pinren banfa], passed 25 November 12, 
effective 3 December 12; State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10; 
State Administration for Religious Affairs, Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan 
fojiao huofo zhuanshi guanli banfa], passed 13 July 07, issued 18 July 
07, effective 1 September 07.
    \87\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, sec. 17, translated in International Campaign for Tibet, 
``Harsh New `Rectification' Drive in Driru: Nuns Expelled and Warning 
of Destruction of Monasteries and `Mani Walls,' '' 20 November 14. 
Section 17 addresses ``rectifying unauthorised carving of Mani [prayer] 
stones and piling up of Mani walls [traditional walls of mantras carved 
on stone].'' See also ``China Imposes Harsh New Restrictions in Restive 
Tibet County,'' Radio Free Asia, 7 October 14.
    \88\ Han Miao and Li Yunlu, ``Zhu Weiqun: Tibet Getting Better Is 
the Fundamental Reason Why the Dalai Lama Cannot Go Any Further'' [Zhu 
weiqun: xizang yue lai yue hao shi dalai zou buxia qu de genben 
yuanyin], Xinhua, 11 March 15. According to Zhu, ``The power to decide 
on the reincarnation of the Dalai Lama and the abolition or 
continuation of the lineage rests with the central government and not 
on anyone else, not even the Dalai Lama himself.''
    \89\ China Directory 2014, (Tokyo: Radiopress, December 2013), 154. 
See also Han Miao and Li Yunlu, ``Zhu Weiqun: Tibet Getting Better Is 
the Fundamental Reason Why the Dalai Lama Cannot Go Any Further'' [Zhu 
weiqun: xizang yue lai yue hao shi dalai zou buxia qu de genben 
yuanyin], Xinhua, 11 March 15.
    \90\ ``United Front Work Department Executive Deputy Head Reveals 
Inside Story of Communist Party-Dalai Talks'' [Tongzhanbu changwu 
fubuzhang jiemi zhonggong yu dalai tanpan neimu], Phoenix Net, 23 
December 08 (translated in Open Source Center, 25 December 08) (``Since 
2003, Zhu Weiqun has participated in all the subsequent engage-and-talk 
interactions with the Dalai side.''); ``Press Conference on Central 
Govt's Contacts With Dalai Lama (Text),'' China Daily, 11 February 10 
(demonstrates participation in 2010 round of dialogue). For information 
in previous Commission annual reports on Zhu Weiqun's involvement in 
the dialogue between the Dalai Lama's representatives and Party and 
government officials, see, e.g., CECC, 2010 Annual Report, 10 October 
10, 219-20; CECC, 2009 Annual Report, 10 October 09, 274-75; CECC, 2008 
Annual Report, 31 October 08, 187.
    \91\ Han Miao and Li Yunlu, ``Zhu Weiqun: Tibet Getting Better Is 
the Fundamental Reason Why the Dalai Lama Cannot Go Any Further'' [Zhu 
weiqun: xizang yue lai yue hao shi dalai zou bu xiaqu de genben 
yuanyin], Xinhua, 11 March 15.
    \92\ ``Tibetan Official Defends Reincarnation System, Slams Dalai 
Lama,'' Xinhua, 9 March 15.
    \93\ China Directory 2014, (Tokyo: Radiopress, December 2013), 6, 
432. Pema Choling (Baima Chilin) is also a member of the Communist 
Party Central Committee and a Deputy Secretary of the Tibet Autonomous 
Region Party Committee.
    \94\ ``Tibetan Official Defends Reincarnation System, Slams Dalai 
Lama,'' Xinhua, 9 March 15.
    \95\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation,'' 24 September 11. In the statement, after writing, ``I 
make the following declaration,'' he listed the subject, ``The next 
incarnation of the Dalai Lama.'' See also ``Dalai Lama Rejects 
Communist Party `Brazen Meddling' in Tibetan Buddhist Reincarnation,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 24 January 12.
    \96\ State Council Information Office, (White Paper) ``Tibet's Path 
of Development Is Driven by an Irresistible Historical Tide,'' 
reprinted in Xinhua, 15 April 15. For contents of the regulations that 
``further institutionalize the reincarnation process,'' see State 
Administration for Religious Affairs, Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan fojiao 
huofo zhuanshi guanli banfa], passed 13 July 07, issued 18 July 07, 
effective 1 September 07.
    \97\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], passed 13 July 07, 
issued 18 July 07, effective 1 September 07.
    \98\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation,'' 24 September 11. See also ``Dalai Lama Rejects 
Communist Party `Brazen Meddling' in Tibetan Buddhist Reincarnation,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 24 January 12.
    \99\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, translated from Tibetan in International Campaign for 
Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns Expelled and 
Warning of Destruction of Monasteries and `Mani Walls,' '' 20 November 
14.
    \100\ Ibid., arts. 37(5) (two-year ban), 38(2) (one-year ban), 
43(4) (two-year ban), 44(2) (one-year ban), 44(4) (two-year ban), 45(2) 
(three-year ban), 55(2) (three-year ban), translated from Tibetan in 
International Campaign for Tibet, ``Harsh New `Rectification' Drive in 
Driru: Nuns Expelled and Warning of Destruction of Monasteries and 
`Mani Walls,' '' 20 November 14. The ICT translation indicates that 
several pages of the regulations were missing, preventing complete 
analysis.
    \101\ For reports on the value and economic importance of cordyceps 
sinensis to Tibetans in some areas, see, e.g., Huang Jingjing, 
``Physicians Challenge Craze for Exorbitantly Priced TCM Fungus,'' 
Global Times, 30 July 14; Daniel Winkler, ``Yartsa Gunbu (Cordyceps 
sinensis) and the Fungal Commodification of Tibet's Rural Economy,'' 
Economic Botany, Vol. 62, No. 3 (2008), 291; Jonathan Watts, ``Fungus 
Gold Rush in Tibetan Plateau Rebuilding Lives After Earthquake,'' 
Guardian, 17 June 10; Human Rights Watch, `` `They Say We Should Be 
Grateful'--Mass Rehousing and Relocation Programs in Tibetan Areas of 
China,'' 27 June 13.
    \102\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, Arts. 37(3) (three-year ban), 38(2) (one-year ban), 45(2) 
(three-year ban), 55(2) (three-year ban), translated from Tibetan in 
International Campaign for Tibet, ``Harsh New `Rectification' Drive in 
Driru: Nuns Expelled and Warning of Destruction of Monasteries and 
`Mani Walls,' '' 20 November 14. The ICT translation indicates that 
several pages of the regulations were missing, preventing complete 
analysis.
    \103\ For examples of recent precedents in government imposition of 
collective punishment in Tibetan autonomous areas, see, e.g., CECC, 
2014 Annual Report, 9 October 14, 176-78; ``County Government Threatens 
Self-Immolation Communities With Collective Punishment,'' 
Congressional-Executive Commission on China, 14 April 14; Ruo'ergai 
County People's Government, Notice of Interim Anti-Self-Immolation 
Provisions [Guanyu fan zifen gongzuo zanxing guiding de tongzhi], 8 
April 13, reprinted and translated in China Digital Times, ``Community 
Punished for Self-Immolations,'' 18 February 14; Tibetan Centre for 
Human Rights and Democracy, ``China Holds Tibetan Livelihood to Ransom 
To Secure Political Stability,'' 30 July 14.
    \104\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, Arts. 37(5), 38(2), 43(4), 44(2, 4), 45(2), 55(2), 
translated from Tibetan in International Campaign for Tibet, ``Harsh 
New `Rectification' Drive in Driru: Nuns Expelled and Warning of 
Destruction of Monasteries and `Mani Walls,' '' 20 November 14.
    \105\ See CECC, 2014 Annual Report, 9 October 14, 177-78. See also 
Tibetan Centre for Human Rights and Democracy, ``China Holds Tibetan 
Livelihood to Ransom To Secure Political Stability,'' 30 July 14. The 
TCHRD report provided the following translation for the title on the 
cover of the document: ``Information Handbook for the Enforcement of 
Two Separate Regulations Issued by Diru County People's Government'' 
[`Bri-ru rdzong mi-dmangs srid-gzhung gi--''gtan-`bebs khag gnyis'' 
kyi--dril-bsgrags lag-deb]. The date ``June 2014'' is on the cover.
    \106\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, Art. 37(1), translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14.
    \107\ See, e.g., Zou Le, ``Committees To Ensure Stability in 
Tibet's Monasteries,'' Global Times, 15 February 12 (``A [Monastery 
Management Committee] has been established in every monastery in the 
Tibet Autonomous Region''). See also CECC, 2012 Annual Report, 10 
October 12, 161-62, for more information on the establishment of 
Monastery Management Committees in Tibet Autonomous Region monasteries 
and nunneries.
    \108\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, Art. 37(2), translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14.
    \109\ Ibid., Art. 37(4), translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14.
    \110\ Ibid., Art. 37(5), translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14.
    \111\ Based on Commission staff experience in Tibetan autonomous 
areas of China, Nepal, and India, in this context, a ``mani'' stone is 
a stone upon which a Tibetan Buddhist prayer or image has been carved, 
sometimes painted, and that may be left or positioned as an offering. 
For more information on mani stones, see, e.g. British Museum, ``Mani 
Stone,'' last visited 13 July 15; ``Mani Stones in Many Scripts,'' 
BabelStone (blog), 5 November 06.
    \112\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, Art. 44, translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14.
    \113\ Ibid., Art. 44(4), translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14.
    \114\ ``Full qualifications'' may refer to the official 
registration monks and nuns must obtain before they can live legally as 
``professional religious personnel'' at a monastery or nunnery and to 
engage legally in religious activity. For information on regulations on 
monastic matters in the Tibet Autonomous Region including registration 
and travel, see, e.g., Buddhist Association of China, Measures for 
Confirming the Credentials of Tibetan Buddhist Professional Religious 
Personnel [Zangchuan fojiao jiaozhi renyuan zige rending banfa], 
effective 10 January 10; Tibet Autonomous Region Implementing Measures 
for the ``Regulation on Religious Affairs'' (Trial Measures) [Xizang 
zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa (shixing)], issued 19 
September 06, effective 1 January 07, arts. 19, 29, 41-43. See also 
CECC, 2007 Annual Report, Section IV--Tibet: Special Focus for 2007, 10 
October 07, 193-95, on provisions regulating monastic travel.
    \115\ Driru County People's Government, ``Announcement of 
Provisional Implementation of the County Government Decision on 
Rectification of the Religious Sphere and Allocation of 
Responsibilities for Subsequent Maintenance of Standards,'' 12 
September 14, Art. 56, translated from Tibetan in International 
Campaign for Tibet, ``Harsh New `Rectification' Drive in Driru: Nuns 
Expelled and Warning of Destruction of Monasteries and `Mani Walls,' '' 
20 November 14. Based on the translation, the regulations appear not to 
specify the authority that will officially warn police officers and 
``leading checkpost officials'' who fail to prevent a monk or nun from 
traveling. See also CECC, 2007 Annual Report, Section IV--Tibet: 
Special Focus for 2007, 10 October 07, 193-95, on provisions regulating 
monastic travel.
    \116\ Ibid. The translation of the article uses the phrase ``go 
outside of their own accord'' to refer to traveling elsewhere for 
religious study. Based on Commission staff analysis, ``go outside'' 
likely refers to an area ``outside'' the local area but not necessarily 
outside the country. The same article refers separately to ``travel 
illegally cross national borders.'' See also CECC, 2007 Annual Report, 
Section IV--Tibet: Special Focus for 2007, 10 October 07, 193-95, on 
provisions regulating monastic travel.
    \117\ ``Twenty Illegal Activities Related to Tibet Independence,'' 
translated in International Campaign for Tibet, ``Praying and Lighting 
Butter-Lamps for Dalai Lama `Illegal': New Regulations in Rebkong,'' 14 
April 15; Oliver Arnoldi, ``Illegal Activities Related to the 
Independence of Tibet,'' translated in ``China Issues 20 `Illegal 
Activities Related to the Independence of Tibet,' '' Tibet Post 
International, 25 February 15. Based on the reports, the date of issue 
of the document is unknown; ICT states that ``a note at the end of the 
Tibetan version states it was distributed on February 12, 2015 by the 
Communist Party office of Tongren County.'' See also ``China Warns 
Tibetans in Rebgong Against `Separatist' Activities,'' Radio Free Asia, 
23 February 15.
    \118\ Oliver Arnoldi, ``Illegal Activities Related to the 
Independence of Tibet,'' translated in ``China Issues 20 `Illegal 
Activities Related to the Independence of Tibet,' '' Tibet Post 
International, 25 February 15. Based on Commission analysis, points 
that targeted ordinary or long-standing Tibetan practices that are not 
wholly independence activities may include the following: (9) ``To 
legally or illegally travel outside of the state to participate in any 
religious events''; (10) ``To hang images of the 14th Dalai Lama or of 
people fighting for Tibetan independence in public places''; (12) ``To 
pray using butter lamps and smoke offerings, to chant or to free 
animals for self-immolators or to express condolences to their 
families''; (15) ``To use the force of religion and its tenets as well 
as race to destabilise societal order. . . .''; (17) ``To incite or 
plan prayer services for the 14th Dalai Lama at monasteries and public 
places during festivals and other holidays''; (18) ``To incite or plan 
gatherings for praying for the 14th Dalai Lama under the banner of 
religion and tradition''; (19) ``To intentionally create rumours about 
Tibetan independence by publicising messages, images, audio or videos 
of a variety of regular religious and traditional activities. . . .''; 
and (20) ``. . . to participate in festivals when outside forces carry 
out activities related to Tibetan independence. To destabilise the 
social order under the banner of forcing others to only speak Tibetan 
and to kill, sell or free animals.'' See also ``Twenty Illegal 
Activities Related to Tibet Independence,'' translated in International 
Campaign for Tibet, ``Praying and Lighting Butter-Lamps for Dalai Lama 
`Illegal': New Regulations in Rebkong,'' 14 April 15.
    \119\ ``Twenty Illegal Activities Related to Tibet Independence,'' 
translated in International Campaign for Tibet, ``Praying and Lighting 
Butter-Lamps for Dalai Lama `Illegal': New Regulations in Rebkong,'' 14 
April 15. Language indicating that persons who did not carry out an 
``illegal'' activity but who were associated with some who allegedly 
had includes the following: ``Leaders, key actors and their families 
will be disqualified from enjoying the benefits of the public benefit 
policy. . . . Villages in which incidents of instability have occurred, 
and monasteries also, will be subject to intensive comprehensive 
rectification, responsibility will be allocated to officials stationed 
in those townships, villages or monasteries, no work projects or 
expenditure will be sanctioned for the following two years, and those 
already sanctioned will all be wound down.'' See also Oliver Arnoldi, 
``Illegal Activities Related to the Independence of Tibet,'' translated 
in ``China Issues 20 `Illegal Activities Related to the Independence of 
Tibet,' '' Tibet Post International, 25 February 15.
    \120\ Miles Yu, `` `Nine Must-Haves' for Tibetans,'' Washington 
Times, 1 February 12. The article listed the ``nine must-haves'': (1) 
``a composite portrait of Mao Zedong, Deng Xiaoping, Jiang Zemin and Hu 
Jintao, representing four generations of Chinese communist 
leadership''; (2) ``a Chinese national flag known as the Five-Starred 
flag, with the biggest yellow star at the center symbolizing the core 
leadership of the Chinese Communist Party''; (3) ``a road leading to 
the facilities so it is easier for forces from outside to visit''; (4) 
``a supply of water''; (5) ``a source of electricity''; (6) ``radio and 
television sets, which will be powered by the mandatory availability of 
electricity''; (7) ``access to movies''; (8) ``a library''; (9) and 
``copies of the Communist Party of China state-controlled newspapers, 
the People's Daily and Tibet Daily.'' See also State Council 
Information Office, ``Tibet Strengthening and Innovating in Temple 
Management Work, Promoting Religious Harmony'' [Xizang jiaqiang he 
chuangxin simiao guanli gongzuo cujin zongjiao hemu], 25 December 14.
    \121\ Cao Siqi, ``All Tibet Temples Required To Fly National 
Flag,'' Global Times, 9 April 15. According to the Global Times 
article, ``[Chen Quanguo] . . . re-emphasized that all temples will 
have the national flag, communication services, newspapers, book 
stores, water and electrical supply and television broadcasts.'' See 
also Ishaan Tharoor, ``Top Chinese Official in Tibet Wants Buddhist 
Temples To Spread Propaganda,'' Washington Post, 3 April 15; ``Tibet 
Chief Demands Monasteries Display Chinese Flags,'' Associated Press, 
reprinted in New York Times, 9 April 15. See also State Council 
Information Office, ``Tibet Strengthening and Innovating in Temple 
Management Work, Promoting Religious Harmony'' [Xizang jiaqiang he 
chuangxin simiao guanli gongzuo cujin zongjiao hemu], 25 December 14.
    \122\ Miles Yu, `` `Nine Must-Haves' for Tibetans,'' Washington 
Times, 1 February 12; Allen Ai, ``Tibet Daily: Monks Praise 
Government's `9 Must-Haves' Policy, Shanghaiist, 13 February 12.
    \123\ Chen Feiyu, `` `Five Continued Focuses,' Realize Greater 
Development (Under Guidance of Scientific Development Concept)--
Interview With Tibet CPC Secretary Chen Quanguo'' [``Wu ge jixu 
zhuoli'' shixian geng da fazhan (zai kexue fazhan guan zhiyin xia)--
fang xizang zizhiqu dangwei shuji chen quanguo], People's Daily, 4 
September 12 (translated in Open Source Center, 21 September 12). Chen 
stated: ``We have carried out in a down-to-earth way the project of 
ensuring that all monasteries and temples have the portraits of four 
leaders (Mao Zedong, Deng Xiaoping, Jiang Zemin, and Hu Jintao), have 
national flag, have water facility, have power supply, have radio and 
television sets, have movies, have libraries, and have the People's 
Daily Newspaper and Tibet Daily newspaper [jiu you gong cheng].''
    \124\ Ben Blanchard, ``Tibet Party Boss Says Temples Must Be 
Propaganda Centres,'' Reuters, 3 April 15. See also State Council 
Information Office, ``Tibet Strengthening and Innovating in Temple 
Management Work, Promoting Religious Harmony'' [Xizang jiaqiang he 
chuangxin simiao guanli gongzuo cujin zongjiao hemu], 25 December 14.
    \125\ ``China To Test Tibetan Monks and Nuns for Patriotism,'' 
Agence France-Presse, reprinted in Guardian, 8 April 15; China Digital 
Times, ``Monks' Loyalty To Be Tested, Divisive Deity Promoted,'' 8 
April 15. See also State Council Information Office, ``Tibet 
Strengthening and Innovating in Temple Management Work, Promoting 
Religious Harmony'' [Xizang jiaqiang he chuangxin simiao guanli gongzuo 
cujin zongjiao hemu], 25 December 14.
    \126\ Chen Quanguo, ``Overall Situation of the Work of Using `Four 
Comprehensives' To Guide Governance of Borderlands [and] Tibet 
Stability (Deepening Study and Implementation of the Spirit of Comrade 
Xi Jinping's Important Speeches)'' [Yong ``si ge quanmian'' yinling zhi 
bian wen zang de quanju gongzuo (shenru xuexi guanche xi jinping 
tongzhi xilie zhongyao jianghua jingshen)], People's Daily, 8 April 15; 
Cao Siqi, ``All Tibet Temples Required To Fly National Flag,'' Global 
Times, 9 April 15. See also State Council Information Office, ``Tibet 
Strengthening and Innovating in Temple Management Work, Promoting 
Religious Harmony'' [Xizang jiaqiang he chuangxin simiao guanli gongzuo 
cujin zongjiao hemu], 25 December 14; ``China To Test Tibetan Monks and 
Nuns for Patriotism,'' Agence France-Presse, reprinted in Guardian, 8 
April 15.
    \127\ In the Tibet Autonomous Region, the following are some of the 
regulatory measures that establish state control over Tibetan Buddhism: 
State Administration for Religious Affairs, Regulation on Religious 
Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, effective 1 
March 05; State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], passed 13 July 07, 
issued 18 July 07, effective 1 September 07; Buddhist Association of 
China, Measures for Evaluating the Credentials of and Appointing 
Monastic Teachers in Tibetan Buddhism [Zangchuan fojiao simiao jing shi 
zige pingding he pinren banfa], issued and effective 3 December 12. For 
Commission analysis of Chinese government regulatory intrusion upon 
Tibetan Buddhist affairs, see, e.g., ``Special Report: Tibetan Monastic 
Self-Immolations Appear To Correlate With Increasing Repression of 
Freedom of Religion,'' CECC China Human Rights and Rule of Law Update, 
No. 1, 24 January 12; ``Tibetan Buddhist Affairs Regulations Taking 
Effect in Tibetan Autonomous Prefectures,'' Congressional-Executive 
Commission on China, 10 March 11; ``New Legal Measures Assert 
Unprecedented Control Over Tibetan Buddhist Reincarnation,'' 
Congressional-Executive Commission on China, 22 August 07. See also 
State Council Information Office, ``Tibet Strengthening and Innovating 
in Temple Management Work, Promoting Religious Harmony'' [Xizang 
jiaqiang he chuangxin simiao guanli gongzuo cujin zongjiao hemu], 25 
December 14; ``China To Test Tibetan Monks and Nuns for Patriotism,'' 
Agence France-Presse, reprinted in Guardian, 8 April 15.
    \128\ Yu Zhen, ``Tibetan Buddhist Monasteries in the Entire Region 
To Deepen the Carrying Out of Rule-of-Law Propaganda-Themed Education 
Activities'' [Quan qu zangchuan fojiao simiao shenru kaizhan fazhi 
xuanchuan zhuti jiaoyu huodong qidong], Tibet Daily, 11 May 12, 
reprinted in China Tibet News, 12 May 12.
    \129\ International Campaign for Tibet, ``Self-Immolation and 
Protest in Tibet Amid Intensified Security in Buildup to March 10 
Anniversary,'' 9 March 15 (Kumbum Monastery, near Xining city, Qinghai 
province: ``massed ranks of armed troops gathered in a show of 
force''); ``A Show of Force at Tibetan Prayer Festival,'' Voice of 
America, 6 March 15 (Kumbum Monastery); International Campaign for 
Tibet, ``Self-Immolation in Eastern Tibet and Major Troop Deployments 
in Lhasa as Tibetans Mark Religious Anniversary,'' 16 December 14 
(central Lhasa: ``anniversary of the death of Tsongkhapa, founder of 
the Gelugpa . . . school of Tibetan Buddhism''); ``China Deploys Heavy 
Security Presence at Tibetan Religious Festival,'' Radio Free Asia, 26 
August 14 (Drepung Monastery, Lhasa: Shoton festival). The March 9, 
2015, International Campaign for Tibet report provides multiple images 
showing a large deployment of People's Armed Police personnel and 
equipment on March 5, 2015, at Kumbum Monastery, located in Huangzhong 
county, Xining municipality, Qinghai province. In 2015, March 5 was 
Chotrul Duchen, an observance of the 15th day (full moon) of the first 
Tibetan month, a time when large numbers of Tibetan Buddhists visit 
major monasteries. Men-Tsee-Khang Tibetan Medical and Astrological 
Institute, ``Calendar: 2015 Wood-Sheep Year,'' last visited 14 July 15.
    \130\ ``Tibetan Monks, Nuns Are Denied Passports in Serthar,'' 
Radio Free Asia, 16 January 15.
    \131\ The Dalai Lama recognized Tenzin Deleg as a reincarnated 
Tibetan Buddhist teacher (trulku) during the period 1982-1987, when 
Tenzin Deleg was in India. See ``The Execution of Lobsang Dondrub and 
the Case Against Tenzin Deleg: The Law, the Courts, and the Debate on 
Legality,'' Congressional-Executive Commission on China, 10 February 
03, 13; Human Rights Watch, ``Trials of a Tibetan Monk: The Case of 
Tenzin Delek,'' Vol. 16, No.1(c), February 2004, 12.
    \132\ Tibetan Centre for Human Rights and Democracy, ``TCHRD Calls 
for Immediate Investigation Into Death of Prominent Tibetan Reincarnate 
Monk in Chinese Prison,'' 17 July 15; ``Tenzin Delek Rinpoche's Sister, 
Niece Are Detained in Sichuan,'' Radio Free Asia, 17 July 15. According 
to the RFA report, Tenzin Deleg was held in ``Mianyang jail'' (i.e., 
Mianyang Prison).
    \133\ See ``The Execution of Lobsang Dondrub and the Case Against 
Tenzin Deleg: The Law, the Courts, and the Debate on Legality,'' 
Congressional-Executive Commission on China, 10 February 03, 2; Human 
Rights Watch, ``Trials of a Tibetan Monk: The Case of Tenzin Delek,'' 
Vol. 16, No.1(c), February 2004, 5; ``Tibetan Monk Death Penalty 
Commuted to Life in Prison,'' Xinhua, 26 January 05; ``Two Tibetans 
Sentenced to Death in SW China,'' Xinhua, 26 January 03; ``Tibetan Monk 
Protests Innocence in Smuggled Audiotape,'' Radio Free Asia, 21 January 
03.
    \134\ ``Tibetan Monk Protests Innocence in Smuggled Audiotape,'' 
Radio Free Asia, 21 January 03. According to the RFA report, Tenzin 
Deleg reportedly stated on tape: ``Whatever [the authorities] do and 
say, I am completely innocent. . . . I have always urged people to be 
kind-hearted and caring toward others. Everybody knows what I say and 
practice.'' For detailed information, see, e.g., ``The Execution of 
Lobsang Dondrub and the Case Against Tenzin Deleg: The Law, the Courts, 
and the Debate on Legality,'' Congressional-Executive Commission on 
China, 10 February 03; Human Rights Watch, ``Trials of a Tibetan Monk: 
The Case of Tenzin Delek,'' Vol. 16, No.1(c), February 2004. See the 
Commission's Political Prisoner Database record 2004-01950 on Tenzin 
Deleg.
    \135\ ``The Execution of Lobsang Dondrub and the Case Against 
Tenzin Deleg: The Law, the Courts, and the Debate on Legality,'' 
Congressional-Executive Commission on China, 10 February 03; Human 
Rights Watch, ``Trials of a Tibetan Monk: The Case of Tenzin Delek,'' 
Vol. 16, No.1(c), February 2004. See the Commission's Political 
Prisoner Database record 2004-01950 on Tenzin Deleg.
    \136\ ``Tibetan Monk Death Penalty Commuted to Life in Prison,'' 
Xinhua, 26 January 05. See also ``The Execution of Lobsang Dondrub and 
the Case Against Tenzin Deleg: The Law, the Courts, and the Debate on 
Legality,'' Congressional-Executive Commission on China, 10 February 
03; Human Rights Watch, ``Trials of a Tibetan Monk: The Case of Tenzin 
Delek,'' Vol. 16, No.1(c), February 2004.
    \137\ ``Sisters Visit Jailed Monk,'' Radio Free Asia, 11 June 10.
    \138\ Based on the following sources, as of January 26, 2012, 
Tenzin Deleg had served seven years of life imprisonment following the 
January 26, 2005, commutation of his initial January 26, 2003, sentence 
to death with a two-year reprieve to life imprisonment. ``Xinhua: 
Tenzin Deleg Death Penalty Commuted to Life Imprisonment,'' 
Congressional-Executive Commission on China, 26 January 05; ``Tibetan 
Monk Death Penalty Commuted to Life in Prison,'' Xinhua, 26 January 05; 
``Two Tibetans Sentenced to Death in SW China,'' Xinhua, 26 January 03; 
PRC Ministry of Justice, Supreme People's Procuratorate, and Ministry 
of Public Security, Measure on Implementing Medical Parole for 
Prisoners, Document No. 247 (1990), Art. 2, translated in Dui Hua 
Foundation, ``Measure on Implementing Medical Parole for Prisoners,'' 
Dialogue, Issue 7, Spring 2002, 3. The following is an excerpt from the 
Dui Hua translation of Article 2: ``For prisoners sentenced to life 
imprisonment, fixed prison terms or forced labor, if one of the 
following conditions is fulfilled during their reform period, then 
medical parole can be permitted: (ii) A prisoner is serving either a 
life sentence or death sentence with two-year reprieve that has been 
reduced to life imprisonment, and he has served seven years or more of 
his life sentence.''
    \139\ International Campaign for Tibet, ``Tibetans Gather To Pray 
for Imprisoned Tibetan Religious Teacher,'' 17 October 14. Tibetans 
gathered in Yajiang (Nyagchukha) county, Kardze (Ganzi) Tibetan 
Autonomous Prefecture, Sichuan province.
    \140\ Tibetan Centre for Human Rights and Democracy, ``China: 
Release Reincarnated Tibetan Buddhist Monk on Medical Parole,'' 7 April 
15 (``his heart condition has worsened''); International Campaign for 
Tibet, ``Tibetans Gather To Pray for Imprisoned Tibetan Religious 
Teacher,'' 17 October 14 (``believed to be in very poor health in 
prison, with a liver condition and serious problems with his legs'').
    \141\ ``China Warns Tibetans in Rebgong Against `Separatist' 
Activities,'' Radio Free Asia, 23 February 15. According to the RFA 
report, Tongren (Rebgong) county authorities would treat as ``illegal 
associations'' those that are ``formed in the name of the Tibetan 
language, the environment, and education.'' `` `Underage' Tibetan Monks 
Face New Clampdown on Religious Life,'' Radio Free Asia, 24 February 
15. According to the RFA report, officials in Delingha (Terlenkha) and 
Dulan (Tulan) counties in Haixi (Tsonub) Mongol and Tibetan Autonomous 
Prefecture, Qinghai province, banned Tibetan language classes for 
students who had already graduated from school. See also International 
Campaign for Tibet, ``Tibetan Demonstrations Over Land, Education 
Policy,'' 4 November 14.
    \142\ Tibetan Centre for Human Rights and Democracy, 
``Extrajudicial Killing, Arbitrary Detention and Religious Repression 
Continue in Restive Tibetan County,'' 15 December 14. According to the 
TCHRD report, Bachen Gyalwa (``Bachen Gyewa'') was known for promoting 
``the religious, cultural, educational, social and economic wellbeing 
and unity of the people of Ushung village.'' For more information on 
Bachen Gyalwa, see the Commission's Political Prisoner Database record 
2015-00048.
    \143\ International Campaign for Tibet, ``Tibetan Man Sets Fire to 
Himself Beside Shrine With Religious Offerings (Updated),'' 17 April 
15. According to the ICT report, using an alias, Nekyab (``Neykyab'') 
had ``frequently spoken in online forums about the importance of 
unity.''
    \144\ ``Tibetan Singer Jailed Four Years for Belting Out Patriotic 
Songs,'' Radio Free Asia, 29 November 14. According to RFA, Kalsang 
Yarphel performed songs ``calling on Tibetans to speak their own 
language and to forge unity among themselves.'' For more information on 
Kalsang Yarphel, see the Commission's Political Prisoner Database 
record 2013-00274.
    \145\ High Peaks Pure Earth, `` `A Brief Announcement from China 
Tibet Online' by Tibetan Journalists,'' 18 September 14. According to 
the article, ``websites such as China Tibet Online are under the 
control of the United Front.'' The term, ``United Front,'' used in the 
article refers to the Chinese Communist Party Central Committee's 
United Front Work Department. See, e.g., China Directory 2014 (Tokyo: 
Radiopress, December 2013), 16.
    \146\ High Peaks Pure Earth, `` `A Brief Announcement from China 
Tibet Online' by Tibetan Journalists,'' 18 September 14.
    \147\ High Peaks Pure Earth, ``About Us,'' last visited 12 June 15. 
According to the ``about us'' statement, ``High Peaks Pure Earth 
provides insightful commentary on Tibet related news and issues and 
provides translations from writings in Tibetan and Chinese posted on 
blogs from Tibet and the People's Republic of China.''
    \148\ High Peaks Pure Earth, `` `A Brief Announcement from China 
Tibet Online' by Tibetan Journalists,'' 18 September 14.
    \149\ Ibid.
    \150\ State Ethnic Affairs Commission Leading Party Group, ``Guide 
to Action for Effectively Conducting Ethnic Work Under the New 
Situation--Studying General Secretary Xi Jinping's Important 
Expositions on Ethnic Work'' [Xin xingshi xia zuo hao minzu gongzuo de 
xingdong zhinan--xuexi xi jinping zongshuji guanyu minzu gongzuo de 
zhongyao lunshu], Seeking Truth, 31 July 14.
    \151\ Ibid.; China Directory 2014 (Tokyo: Radiopress, December 
2013), 13-28. The State Ethnic Affairs Commission Leading Party Group 
is not listed as a group directly under the Party's Central Committee.
    \152\ State Ethnic Affairs Commission Leading Party Group, ``Guide 
to Action for Effectively Conducting Ethnic Work Under the New 
Situation--Studying General Secretary Xi Jinping's Important 
Expositions on Ethnic Work'' [Xin xingshi xia zuo hao minzu gongzuo de 
xingdong zhinan--xuexi xi jinping zongshuji guanyu minzu gongzuo de 
zhongyao lunshu], Seeking Truth, 31 July 14 (translated in Open Source 
Center, 17 December 14). China Directory 2014 (Tokyo: Radiopress, 
December 2013), 13-28. The State Ethnic Affairs Commission Leading 
Party Group is not listed as a group directly under the Party's Central 
Committee.
    \153\ ``Tibetan Musician Who Produced Songs for Popular Singer Is 
Jailed,'' Radio Free Asia, 1 December 14 (``jailed for four years''); 
``Tibetan Singer Jailed Four Years for Belting Out Patriotic Songs,'' 
Radio Free Asia, 29 November 14 (``songs calling on Tibetans to speak 
their own language and to forge unity among themselves''); Tibetan 
Centre for Human Rights and Democracy, ``China Detains Tibetan Singer 
for `Politically Subversive' Song,'' 9 August 13 (``lyrics were deemed 
`politically subversive' by the Chinese authorities''). For more 
information on Kalsang Yarphel, see the Commission's Political Prisoner 
Database record 2013-00274. Security officials detained Kalsang Yarphel 
on July 14, 2013; the Chengdu Intermediate People's Court sentenced him 
to four years' imprisonment on November 27, 2014.
    \154\ Tibetan Centre for Human Rights and Democracy, ``China 
Detains Tibetan Singer for `Politically Subversive' Song,'' 9 August 
13. The article provides a translation of a song titled, ``Fellow 
Tibetans.''
    \155\ ``Tibetan Musician Who Produced Songs for Popular Singer Is 
Jailed,'' Radio Free Asia, 1 December 14 (``sentenced to two years and 
six months in jail and fined 50,000 yuan''). For more information on 
Pema Rigzin, see the Commission's Political Prisoner Database record 
2015-00078. Security officials detained Pema Rigzin on May 7, 2013; the 
Chengdu Intermediate People's Court sentenced him to two years and six 
months' imprisonment on November 27, 2014.
    \156\ ``Tibetan Writer Believed To Be Jailed in Northwest China 
Province,'' Radio Free Asia, 8 April 15 (Shogjang (``Shokjang'') 
``secretly detained for a second time on March 19''); ``Tibetan Writer 
Shokjung Arrested in Rebkong,'' Voice of America, 8 April 15 (``On 
March 19, 2015, Chinese security police in Rebkong . . . arrested . . . 
writer and blogger Shokjung''). For information on the reaction from 
other Tibetan writers, see, e.g., High Peaks Pure Earth, ``Tashi Rabten 
Remembers Detained Writer Shokjang,'' 9 April 15; High Peaks Pure 
Earth, `` `My Friend Is Innocent. Return Him!' More From Netizens on 
Detained Writer Shokjang,'' 9 April 15. For more information on Druglo 
(Shogjang (``Shokjang'')), see the Commission's Political Prisoner 
Database record 2010-00153.
    \157\ Shokjang, ``Conflict and Resolution: A Response to Liu 
Junning,'' 7 June 14, translated in High Peaks Pure Earth, 2 September 
14.
    \158\ Yeshe Choesang, ``Tibetan Monk Disappeared After Arbitrarily 
Arrested From Chengdu,'' Tibet Post International, 2 February 15. 
According to the article, the basis for the detention was ``unknown'' 
but a source referred to Gedun Gyatso's ``alleged political writings.'' 
For more information on Gedun Gyatso, see the Commission's Political 
Prisoner Database record 2015-00080. Security officials detained Gedun 
Gyatso on January 10, 2015.
    \159\ Ibid.
    \160\ Based on the reports, the date of issue of the document is 
unknown. The ICT report states that ``a note at the end of the Tibetan 
version states it was distributed on February 12, 2015 by the Communist 
Party office of Tongren County.'' ``Twenty Illegal Activities Related 
to Tibet Independence,'' translated in International Campaign for 
Tibet, ``Praying and Lighting Butter-Lamps for Dalai Lama `Illegal': 
New Regulations in Rebkong,'' 14 April 15. Oliver Arnoldi, ``Illegal 
Activities Related to the Independence of Tibet,'' translated in 
``China Issues 20 `Illegal Activities Related to the Independence of 
Tibet,' '' Tibet Post International, 25 February 15. The TPI report 
described the issuing authority as ``Chinese authorities in Rebkong 
County.'' See also ``China Warns Tibetans in Rebgong Against 
`Separatist' Activities,'' Radio Free Asia, 23 February 15.
    \161\ ``Twenty Illegal Activities Related to Tibet Independence,'' 
translated in International Campaign for Tibet, ``Praying and Lighting 
Butter-Lamps for Dalai Lama `Illegal': New Regulations in Rebkong,'' 14 
April 15; Oliver Arnoldi, ``Illegal Activities Related to the 
Independence of Tibet,'' translated in ``China Issues 20 `Illegal 
Activities Related to the Independence of Tibet,' '' Tibet Post 
International, 25 February 15. Based on Commission analysis, although 
the title of the document asserts that the ``illegal activities'' are 
all ``related to Tibetan independence,'' an objective basis to support 
such a broad characterization is unavailable. See also ``China Warns 
Tibetans in Rebgong Against `Separatist' Activities,'' Radio Free Asia, 
23 February 15.
    \162\ Oliver Arnoldi, ``Illegal Activities Related to the 
Independence of Tibet,'' translated in ``China Issues 20 `Illegal 
Activities Related to the Independence of Tibet,' '' Tibet Post 
International, 25 February 15. Based on Commission analysis, the points 
that target ordinary or long-standing Tibetan practices relating to 
Tibetan language may include the following: (3) ``To write, draw, 
announce, sell or distribute books, art, audio recordings or videos 
endorsing ethnic separatism or nationalist views that are expressed too 
forcefully''; (6) ``To use social media including QQ and WeChat . . . 
to spread rumours that undermine national unity or create social unrest 
and ethnic division''; (14) ``To publicise nationalist views that are 
expressed too forcefully and to discuss Tibetan independence in 
schools''; and (19) ``. . . To send biased publicity of legal 
activities--including reeducation campaigns, the closing of illegal 
organisations and the prosecution of criminals--to outside of the state 
and to publicise facilities to outside forces.'' See also ``Twenty 
Illegal Activities Related to Tibet Independence,'' translated in 
International Campaign for Tibet, ``Praying and Lighting Butter-Lamps 
for Dalai Lama `Illegal': New Regulations in Rebkong,'' 14 April 15.
    \163\ Ibid. Based on Commission analysis, the points that may 
target ordinary or long-standing Tibetan practices relating to Tibetan 
language include the following: (3) ``To write, draw, announce, sell or 
distribute books, art, audio recordings or videos endorsing ethnic 
separatism or nationalist views that are expressed too forcefully''; 
(4) ``To establish illegal organisations or activities under the name 
of the Tibetan language, the environment or education''; (5) ``To 
incite, plan or lead illegal activities that include protests or 
gatherings under the banner of the equality of languages, food security 
or the protection of animals''; and (20) ``. . . To destabilise the 
social order under the banner of forcing others to only speak Tibetan 
and to kill, sell or free animals.'' See also ``Twenty Illegal 
Activities Related to Tibet Independence,'' translated in International 
Campaign for Tibet, ``Praying and Lighting Butter-Lamps for Dalai Lama 
`Illegal': New Regulations in Rebkong,'' 14 April 15.
    \164\ Ibid. Based on Commission analysis, the points that may 
target ordinary or long-standing Tibetan practices relating to 
education include the following: (3) ``To write, draw, announce, sell 
or distribute books, art, audio recordings or videos endorsing ethnic 
separatism or nationalist views that are expressed too forcefully''; 
(4) ``To establish illegal organisations or activities under the name 
of the Tibetan language, the environment or education''; and (5) ``To 
incite, plan or lead illegal activities that include protests or 
gatherings under the banner of the equality of languages, food security 
or the protection of animals.'' See also ``Twenty Illegal Activities 
Related to Tibet Independence,'' translated in International Campaign 
for Tibet, ``Praying and Lighting Butter-Lamps for Dalai Lama 
`Illegal': New Regulations in Rebkong,'' 14 April 15.
    \165\ Ibid. Based on Commission analysis, the points that may 
target ordinary or long-standing Tibetan practices relating to care of 
the environment include the following: (4) ``To establish illegal 
organisations or activities under the name of the Tibetan language, the 
environment or education''; (5) ``To incite, plan or lead illegal 
activities that include protests or gatherings under the banner of the 
equality of languages, food security or the protection of animals''; 
and (15) ``To use the force of religion and its tenets as well as race 
to destabilise societal order. Also, under the banner of ethnicity, to 
plan illegal activities toward government officials and the public 
including to warn them, take revenge on them and to consider them as 
enemies.'' See also ``Twenty Illegal Activities Related to Tibet 
Independence,'' translated in International Campaign for Tibet, 
``Praying and Lighting Butter-Lamps for Dalai Lama `Illegal': New 
Regulations in Rebkong,'' 14 April 15.
    \166\ ``Twenty Illegal Activities Related to Tibet Independence,'' 
translated in International Campaign for Tibet, ``Praying and Lighting 
Butter-Lamps for Dalai Lama `Illegal': New Regulations in Rebkong,'' 14 
April 15. ``Leaders, key actors and their families will be disqualified 
from enjoying the benefits of the public benefit policy. . . . Villages 
in which incidents of instability have occurred, and monasteries also, 
will be subject to intensive comprehensive rectification, 
responsibility will be allocated to officials stationed in those 
townships, villages or monasteries, no work projects or expenditure 
will be sanctioned for the following two years, and those already 
sanctioned will all be wound down.'' See also Oliver Arnoldi, ``Illegal 
Activities Related to the Independence of Tibet,'' translated in 
``China Issues 20 `Illegal Activities Related to the Independence of 
Tibet,' '' Tibet Post International, 25 February 15.
    \167\ International Campaign for Tibet, ``Tibetan Demonstrations 
Over Land, Education Policy,'' 4 November 14 (students called for 
``equality of education''); ``Tibetan Students Protest Official's Call 
for Instruction in Chinese,'' Radio Free Asia, 6 November 14 (students 
``staged protests against a possible switch to Mandarin as their 
language of instruction'').
    \168\ ``China Forces Closure of Academic Workshop by a Monastery in 
Kyegudo,'' Phayul, 23 January 15. The Phayul report cited Voice of 
Tibet. Phayul identified the monastery as Dondrubling, near Yushu 
(Kyegudo), the capital of Yushu Tibetan Autonomous Prefecture, Qinghai 
province.
    \169\ Ibid.
    \170\ ``Villagers Protest in Tibet's Maldro Gongkar County Over 
Mine Pollution,'' Radio Free Asia, 29 September 14.
    \171\ ``Thirteen Wounded as Chinese Police Open Fire on Tibetan 
Anti-Mine Protesters,'' Radio Free Asia, 1 October 14.
    \172\ ``Eleven Tibetans Detained in Sichuan Over Land-Grab 
Protest,'' Radio Free Asia, 30 January 15; Phuntsok Yangchen, ``Two 
Tibetans From Chengdu Protest Rearrested in Zoege,'' Phayul, 4 February 
15. For more information, see the Commission's Political Prisoner 
Database records 2015-00111 on Jigdral Kyab and 2015-00112 on Tsepag.
    \173\ ``Four Tibetans `Severely Beaten' for Refusing To Sell 
Land,'' Radio Free Asia, 2 January 15.
    \174\ ``Tibetan Villagers Block Highway Construction in Sit-Down 
Protest,'' Radio Free Asia, 21 April 15 (``proposed extension of a 
Chinese-built highway into nomadic grazing areas''); International 
Campaign for Tibet, ``Tibetan Demonstrations Over Land, Education 
Policy,'' 4 November 14 (``unfair compensation for land in their home 
areas''); ``2 Tibetans Arrested in Sangchu for Protesting Forced 
Landgrab,'' Phayul, 28 April 15. For information on Tibetans detained 
in connection to the protest, see the Commission's Political Prisoner 
Database records 2015-00160 on Sanggye Khar and 2015-00161 on Sonam 
Gyatso.
    \175\ ``Tibetans Decry Pollution, Damage to Land From Chinese 
Mining,'' Radio Free Asia, 20 January 15.
    \176\ ``Tibetan Nomads Resist Relocation, Are Stripped of Personal 
Documents,'' Radio Free Asia, 7 November 14.
    \177\ ``China Plans National Park at Major Riverheads,'' Xinhua, 27 
January 15; ``Chinese Mining Is Ordered Stopped in Tibetan Protest-Hit 
Dzatoe,'' Radio Free Asia, 23 October 14.
    \178\ ``China Plans National Park at Major Riverheads,'' Xinhua, 27 
January 15. According to the report, the three counties that will have 
areas within the national park protected area are ``Madoi'' [Maduo 
(Matoe) county, Guoluo (Golog) TAP], ``Zhidoi'' [Zhiduo (Dritoe) 
county, Yushu (Yulshul) TAP], and ``Zadoi'' [Zaduo (Dzatoe) county, 
Yushu TAP]. For information on a 2013 ``clash,'' see ``Tibetan Mine 
Protesters Vow To Appeal to Beijing,'' Radio Free Asia, 22 August 13.
    \179\ ``Chinese Mining Is Ordered Stopped in Tibetan Protest-Hit 
Dzatoe,'' Radio Free Asia, 23 October 14.
    \180\ In addition to the 429 Tibetans detained on or after March 
10, 2008, whom courts sentenced to imprisonment are 2 Tibetans believed 
charged with a crime and tried with an unknown result; 8 Tibetans 
believed charged (and who may face trial); 1 Tibetan charged and 
released on bail; 3 Tibetans believed charged and then possibly 
released; and 1 who may have been charged, tried, and then died.
    \181\ In addition to the 635 Tibetan political prisoners believed 
or presumed to be currently detained or imprisoned and who were 
detained on or after March 10, 2008, the Commission's Political 
Prisoner Database recorded, as of May 1, 2015, another 1,199 Tibetan 
political prisoners detained or imprisoned on or after March 10, 2008, 
who are believed or presumed to have been released, or who reportedly 
escaped or died.
    \182\ Tibetan Buddhists believe that a trulku is a teacher who is a 
part of a lineage of teachers that are reincarnations.
    \183\ All of the 159 sentences to fixed-term imprisonment were 
judicial.
    \184\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 50. A sentence of 
death with a two-year reprieve may be commuted to life imprisonment 
upon expiration of the two-year reprieve if a prisoner ``commits no 
intentional crime'' during the reprieve. If a prisoner ``has truly 
performed major meritorious service,'' then the sentence may be 
commuted to a fixed-term sentence of 25 years upon expiration of the 
two-year reprieve. If the prisoner ``has committed an intentional 
crime'' during the period of suspension, the death penalty ``shall be 
executed upon verification and approval of the Supreme People's 
Court.''

                VI. Developments in Hong Kong and Macau


                               Hong Kong

    During the Commission's 2015 reporting year, massive pro-
democracy demonstrations (``Occupy Central'' or the ``Umbrella 
Movement'') took place from September through December 2014, 
drawing attention to ongoing tensions over Hong Kong's debate 
on electoral reform and Hong Kong's autonomy from the Chinese 
central government under the ``one country, two systems'' 
approach. The Commission observed developments raising concerns 
that the Chinese and Hong Kong governments may have infringed 
on the rights of the people of Hong Kong, including in the 
areas of political participation and democratic reform, press 
freedom, and freedom of assembly.

                    UNIVERSAL SUFFRAGE AND AUTONOMY

    Hong Kong's Basic Law guarantees freedom of speech, 
religion, and assembly; promises Hong Kong a ``high degree of 
autonomy''; and affirms the International Covenant on Civil and 
Political Rights (ICCPR) applies to Hong Kong.\1\ The Basic Law 
also states that its ``ultimate aim'' is the election of Hong 
Kong's Chief Executive (CE) ``by universal suffrage upon 
nomination by a broadly representative nominating committee in 
accordance with democratic procedures'' and of the Legislative 
Council (LegCo) ``by universal suffrage.'' \2\ The CE is 
currently chosen by a 1,200-member Election Committee,\3\ 
largely consisting of members elected in functional 
constituencies made up of professionals, corporations, 
religious and social organizations, and trade and business 
interest groups.\4\ Forty LegCo members are elected directly by 
voters and 30 by functional constituencies.\5\ The electors of 
many functional constituencies, however, reportedly have close 
ties to or are supportive of the Chinese government.\6\
    Despite committing in principle to allow Hong Kong voters 
to elect the CE by universal suffrage in 2017, the Chinese 
government's framework for electoral reform \7\ restricts the 
ability of voters to nominate CE candidates for election. Under 
this framework, laid out in an August 31, 2014, decision by the 
National People's Congress Standing Committee (NPCSC), a 1,200-
person Nominating Committee (NC), formed similarly to the 
Election Committee,\8\ would select two to three candidates, 
each of whom would ultimately require approval by a majority of 
NC members.\9\ Voters would then choose from among these two to 
three candidates in the CE election.\10\ The current Election 
Committee is dominated by members supportive of the central 
government.\11\ The Hong Kong government announced that any 
potential reforms would be in ``strict conformity'' with the 
NPCSC decision.\12\ Pro-democratic legislators pledged to veto 
any bill adhering to the NPCSC decision,\13\ which some 
described as ``fake universal suffrage,'' \14\ and demanded the 
NPCSC withdraw or revise its decision.\15\
    On June 18, 2015, the LegCo voted down the Hong Kong 
government's electoral reform proposal. All 27 pro-democratic 
legislators and 1 pro-Beijing legislator voted against the 
proposal,\16\ denying the measure the two-thirds majority 
required for passage.\17\ Because the reform proposal was 
defeated, future elections, including the 2017 CE \18\ and 2016 
LegCo \19\ elections, will continue to use the current 
electoral methods. The Hong Kong government rejected calls to 
restart the electoral reform process, saying that doing so 
would be ``legally infeasible and impracticable.'' \20\

                 FALL 2014 PRO-DEMOCRACY DEMONSTRATIONS

    International rights non-governmental organizations (NGOs), 
domestic and international media organizations, and other 
observers expressed concern over aspects of the Hong Kong 
government and police response to massive pro-democracy 
demonstrations in fall 2014,\21\ citing threats to the rights 
of the people of Hong Kong to the freedoms of speech, assembly, 
and association guaranteed under the Basic Law and 
international law.\22\
    Pro-democratic activists called for protests against the 
NPCSC's August 31 decision. The ``Occupy Central with Love and 
Peace'' protest group initially called for limited duration 
civil disobedience demonstrations to begin on a holiday.\23\ A 
separate university student class boycott culminated in 
hundreds of activists attempting to occupy a courtyard outside 
government headquarters on September 26 and 27, 2014.\24\ 
Thousands of people gathered near government headquarters to 
support the students.\25\ On September 28, police fired tear 
gas and pepper spray on crowds that had occupied a major 
thoroughfare near government headquarters,\26\ prompting tens 
of thousands of people to join the demonstrations over the next 
few days and occupy additional major streets in areas beyond 
the initially planned Central District.\27\ Protesters remained 
encamped at three separate protest sites until the Hong Kong 
government enforced a civil court order to clear the majority 
of protesters in November and December.\28\
    During the largely non-violent demonstrations,\29\ there 
were reports of violence between police, protesters, and 
counter-protesters. Some observers reported police at times 
used ``excessive'' \30\ or ``unjustifiable'' \31\ force against 
protesters, journalists, and onlookers.\32\ In one incident, 
police officers were filmed kicking a handcuffed activist.\33\ 
The police officers involved were immediately suspended and 
later arrested on suspicion of assault.\34\ Observers also 
reported several instances of protesters attacking police, 
including one instance on December 1 in which protesters 
reportedly beat a police officer unconscious.\35\ Journalists' 
organizations said that in some instances, police witnessed 
counter-protesters attacking pro-democracy demonstrators, but 
did not protect them or promptly arrest the attackers.\36\ Hong 
Kong police and a police watchdog body received over 2,000 
complaints regarding police conduct during the demonstrations 
and began investigating the complaints.\37\
    Journalists, media organizations, and NGOs reported dozens 
of incidents of attacks and threats against journalists 
covering the demonstrations.\38\ Media organizations reported 
several instances of police intimidating, threatening, or using 
``unnecessary force'' against reporters covering the protests, 
even when reporters displayed press credentials.\39\ Pro-
democracy media websites suffered numerous cyberattacks during 
the demonstrations.\40\
    Hong Kong police reportedly selectively enforced the law, 
arresting pro-democracy advocates and demonstrators as a form 
of harassment and ``political prosecution.'' \41\ Police 
arrested more than 40 protesters, activists, and legislators 
\42\ for unauthorized assemblies,\43\ but released them without 
charge, reserving the right to prosecute them later.\44\ In one 
instance, police charged four prominent protest leaders in July 
2015 with obstructing police officers at a non-violent June 
2014 protest against the central government.\45\ One of the 
protesters said the timing of the charges was meant to ``deter 
[them] from further political protests,'' \46\ while another 
described it as ``white terror.'' \47\ The lawyer of one of the 
protesters said police were holding out the threat of 
additional prosecution against activists and protesters, 
including for actions and events over a year in the past, in 
order to forestall future demonstrations.\48\ Police reportedly 
interpreted Hong Kong's Crimes Ordinance \49\ broadly to 
justify ordering the removal of online content encouraging 
participation in the fall 2014 demonstrations,\50\ 
characterized by police as ``incit[ing] others on the Internet 
to commit illegal acts.'' \51\ Critics worried that by 
exploiting the Ordinance's ambiguous language (regarding 
``access to [a] computer with criminal or dishonest intent'') 
\52\ to arrest some activists, police may be ``criminalizing 
legitimate, protected speech.'' \53\
    Protesters and pro-democracy activists reported sustained 
harassment and intimidation during and after the 
demonstrations, including hacking of their email accounts or 
phones, by groups reportedly connected to the Chinese 
government.\54\ Sources reported Chinese intelligence services 
hired former Hong Kong police officers to surveil people 
perceived to oppose the Chinese government, including pro-
democratic legislators.\55\
    Some protesters and activists were unable to travel to 
mainland China or Macau due to their participation in the 
demonstrations.\56\ In November, Chinese authorities prevented 
three student protest leaders from flying to Beijing 
municipality to meet Chinese officials.\57\ Pro-democracy 
advocates claimed the Chinese and Hong Kong governments had 
assembled ``blacklists'' of activists banned from entering 
mainland China.\58\

                             PRESS FREEDOM

    This past year, continuing pressure from the Chinese and 
Hong Kong governments, including pressure to self-censor, and 
violence and intimidation reportedly resulted in further 
deterioration of Hong Kong's press freedom. Reporters Without 
Borders lowered Hong Kong's ranking from 61st to 70th out of 
180 countries in its 2015 press freedom index.\59\ Nearly 90 
percent of journalists surveyed by a journalists' union 
believed press freedom in Hong Kong worsened over the last 
year.\60\
    Journalists at some publications reported editorial 
interference resulting in self-censorship and punishment. After 
TVB News aired a video reporting the beating of a handcuffed 
activist by several police officers,\61\ an editor temporarily 
deleted the video's voiceover, later altering it to cast doubt 
on police use of force.\62\ TVB management reportedly punished 
several journalists who signed a petition condemning the 
editorial change.\63\ Two of the punished editors and several 
other journalists resigned, claiming dissatisfaction with TVB 
management.\64\ In February 2015, journalists at newspaper Ming 
Pao protested after the editor-in-chief unilaterally decided to 
downplay a report on the violent suppression of the 1989 
Tiananmen protests.\65\
    The Hong Kong and Chinese central governments reportedly 
pressured journalists to give favorable coverage to opponents 
of the pro-democracy demonstrations.\66\ Many media owners have 
commercial interests in mainland China and connections to the 
Chinese government.\67\ Pro-democracy media organizations 
reportedly faced difficulties operating without support from 
government or business patrons.\68\ Pro-democracy media company 
Next Media and its journalists have been the targets of 
repeated attacks, threats, and harassment.\69\ In January 2015, 
attackers firebombed Next Media publication Apple Daily's 
headquarters and the home of its prominent pro-democratic 
publisher.\70\

                                 Macau


                      POLITICAL AND PRESS FREEDOMS

    Although Macau's Basic Law does not mention ``universal 
suffrage,'' \71\ it ensures the applicability of the 
International Covenant on Civil and Political Rights (ICCPR) in 
Macau.\72\ During the Commission's 2015 reporting year, Macau 
did not make progress toward ``an electoral system based on 
universal and equal suffrage . . .'' in line with the ICCPR, 
and no steps were taken to withdraw the reservation to Article 
25(b) of the ICCPR,\73\ as repeatedly recommended by the UN 
Human Rights Committee.\74\ Macau's Legislative Assembly voted 
against discussing electoral reform to further democratize its 
elections, with some lawmakers saying Macau's political 
development depends on central government decisions.\75\ A 
December 2014 opinion survey indicated that 60 percent of Macau 
residents supported universal suffrage for Chief Executive 
elections.\76\
    Civil society activists in Macau reported intimidation \77\ 
from the Macau and Chinese governments meant to pressure 
activists to ``tone down'' their activities, reportedly because 
of fear of pro-democratic unrest in Hong Kong spreading to 
Macau.\78\ The Macau Journalists Association reportedly 
received anonymous complaints from reporters at public 
broadcaster Teledifusao de Macau that self-censorship had 
worsened.\79\
    This past year, Macau authorities blocked some Hong Kong 
journalists, activists, and others from entering the territory 
for political reasons.\80\ Citing threats to internal 
security,\81\ Macau immigration authorities refused to allow 
several Hong Kong reporters to enter Macau to report on Chinese 
President and Communist Party General Secretary Xi Jinping's 
visit in December 2014.\82\ A prominent pro-democratic Hong 
Kong legislator protested after authorities barred her from 
entering Macau ``for security reasons'' while she was on 
vacation in January 2015.\83\ Macau's Secretary for Security 
denied that the Macau government had a ``blacklist'' banning 
certain people from entering Macau.\84\

                    CORRUPTION AND MACAU'S AUTONOMY

    During the Commission's 2015 reporting year, the Macau 
government expanded coordination with Chinese authorities, in 
part to fight financial crimes connected to Macau's gambling 
industry and to cooperate with the central government's 
anticorruption campaign. Macau continued to be a center for 
violations of mainland China's currency controls, in part 
through fraudulent use of UnionPay bank cards at mainland-
registered point-of-sale terminals.\85\ From January to March 
2015, illegal UnionPay transactions in Macau totaled MOP 260 
million (US$32.5 million).\86\ Macau's gambling regulator 
requires gaming operators to report ``high value transactions'' 
\87\ of MOP 500,000 (US$62,000) or greater,\88\ a reporting 
threshold higher than international anti-money laundering 
standards.\89\
    To combat the use of UnionPay bank cards in evading 
mainland China's capital controls, in November 2014, the 
Monetary Authority of Macau announced plans to create a 
``reciprocal surveillance mechanism'' \90\ providing the 
Chinese Ministry of Public Security access to UnionPay money 
transfer data in Macau.\91\ Macau's Commission Against 
Corruption said in April 2015 that Macau authorities would 
cooperate with Chinese authorities in ``fugitive manhunt and 
asset recovery activities.'' \92\ Officials from the Central 
Commission for Discipline Inspection reportedly are stationed 
in the central government's Macau liaison office as part of the 
central government's campaign against corruption.\93\
    Macau officials held talks with Chinese authorities in 
February on potential regulations governing transfer of 
offenders or suspects to mainland China.\94\ The UN Human 
Rights Committee reiterated its concern that implementation of 
these regulations must ensure offenders' protection under the 
ICCPR.\95\ In July, mainland anticorruption authorities 
reportedly worked with Macau law enforcement officials to 
detain a fugitive corruption suspect in Macau, returning him to 
Guangdong province.\96\ Some Macau legal experts criticized 
Macau authorities,\97\ referring to two previous rulings from 
Macau's highest court holding that, due to the lack of an 
extradition agreement between Macau and mainland China, Macau 
authorities were not permitted to detain individuals wanted for 
extradition to mainland China.\98\
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo xianggang tebie 
xingzhengqu jiben fa], passed 4 April 90, effective 1 July 97, arts. 2 
(``high degree of autonomy''), 27 (freedoms of speech and assembly), 32 
(freedom of religion), 39 (applicability of the International Covenant 
on Civil and Political Rights).
    \2\ Ibid., arts. 45 (Chief Executive), 68 (Legislative Council).
    \3\ Ibid., art. 45, annex I, instrument 2.
    \4\ Ibid., art. 45, annex I, instrument 2; Legislative Council of 
the Hong Kong Special Administrative Region, Legislative Council 
Ordinance (Cap. 542) [Di 542 zhang lifa hui tiaoli], amended 17 July 
15, sec. 20; Tanna Chong, ``Legco Election 2016: How a Handful of 
Voters Elect 30 Hong Kong Lawmakers,'' South China Morning Post, 6 
February 14.
    \5\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo xianggang tebie 
xingzhengqu jiben fa], passed 4 April 90, effective 1 July 97, art. 68, 
annex II, instrument 4; Legislative Council of the Hong Kong Special 
Administrative Region, Legislative Council Ordinance (Cap. 542) [Di 542 
zhang lifa hui tiaoli], 1 October 12, secs. 20ZC, 21(c); Tanna Chong, 
``LegCo Election 2016: How a Handful of Voters Elect 30 Hong Kong 
Lawmakers,'' South China Morning Post, 6 February 14; Stuart Lau, ``Can 
Trade-Based Seats Continue To Function?'' South China Morning Post, 8 
February 14.
    \6\ Freedom House, ``Freedom in the World 2014--Hong Kong,'' last 
visited 6 September 14. See also Te-Ping Chen, ``Beijing Debate Stirs 
Hong Kong Poll,'' Wall Street Journal, 6 September 12; ``Hong Kong's 
Pro-Democracy Parties Fail To Capitalize on Anti-Beijing Mood in Key 
Vote,'' Associated Press, reprinted in Washington Post, 10 September 
12.
    \7\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzhengqu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui chansheng banfa de 
jueding], adopted 31 August 14, reprinted in Xinhua.
    \8\ Hong Kong Special Administrative Region Government, ``2017 Make 
It Happen! Method for Selecting the Chief Executive by Universal 
Suffrage, Consultation Report and Proposals,'' April 2015, chap. 4; 
Chris Buckley and Alan Wong, ``Hong Kong Presents Plan for Elections, 
Offering Little to Democrats,'' New York Times, 22 April 15.
    \9\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzhengqu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui chansheng banfa de 
jueding], adopted 31 August 14, reprinted in Xinhua, 2(2). See also 
Hong Kong Special Administrative Region Government, ``2017 Make It 
Happen! Method for Selecting the Chief Executive by Universal Suffrage, 
Consultation Report and Proposals,'' April 2015, chap. 4.
    \10\ Ibid.
    \11\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzhengqu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui chansheng banfa de 
jueding], adopted 31 August 14 reprinted in Xinhua; Michael Martina and 
James Pomfret, ``Hong Kong Braces for Protests as China Rules Out Full 
Democracy,'' Reuters, 31 August 14; Chris Buckley and Michael Forsythe, 
``China Restricts Voting Reforms for Hong Kong,'' New York Times, 31 
August 14.
    \12\ Hong Kong Special Administrative Region Government, ``2017 
Seize the Opportunity--Method for Selecting the Chief Executive by 
Universal Suffrage Consultation Document,'' January 2015, sec. 2.07.
    \13\ Alan Wong, ``Hong Kong Leaders Insist Election Will Follow 
Beijing's Rules,'' New York Times, 6 January 15; ``Govt. Launches 
Second Consultation on Reform,'' Radio Television Hong Kong, 8 January 
15; Joyce Ng, ``27 Pan-Democrat Lawmakers United in Pledge To Veto 
Political Reforms,'' South China Morning Post, 10 March 15. See also 
Emma Graham-Harrison, ``Hong Kong's Draft Election Law Gives Little 
Ground to Protesters' Demands,'' Guardian, 22 April 15.
    \14\ ``Lawmakers Heckle Hong Kong Chief Over Political Reform 
Plan,'' Radio Free Asia, 26 March 15; Tony Cheung et al., ``Hong Kong 
Government Sticks to Rigid Beijing Framework in 2017 Election 
Proposal,'' South China Morning Post, 22 April 15.
    \15\ Joyce Ng, ``27 Pan-Democrat Lawmakers United in Pledge To Veto 
Political Reforms,'' South China Morning Post, 10 March 15; ``Central 
Government: Don't Make Unprincipled Concessions'' [Zhongyang: bu zuo wu 
yuanze rangbu], Ming Pao, 20 April 15.
    \16\ James Pomfret and Clare Baldwin, ``Mystery Walk-Out in Hong 
Kong Vote Brings Heavy Defeat for Beijing,'' Reuters, 18 June 15; 
``Political Reform Rejected by Large 28:8 Margin'' [28:8 zheng gai da 
bi shu foujue], Ming Pao, 18 June 15. The final vote was 8 in favor of 
the proposal and 28 against; 31 pro-Beijing legislators left the LegCo 
chamber as voting was taking place. ``Hong Kong Reform Package Rejected 
as Pro-Beijing Camp Walk Out in `Miscommunication,' '' South China 
Morning Post, 19 June 15.
    \17\ Basic Law of the Hong Kong Special Administrative Region of 
the People's Republic of China [Zhonghua renmin gongheguo xianggang 
tebie xingzhengqu jiben fa], passed 4 April 90, effective 1 July 97, 
annex I(7).
    \18\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzhengqu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui chansheng banfa de 
jueding], adopted 31 August 14, reprinted in Xinhua, sec. 4. See also 
Hong Kong Information Services Department, ``LegCo To Vote on Electoral 
Reform Package To Amend Method for Selection of Chief Executive of 
HKSAR,'' 15 June 15.
    \19\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Methods for Selecting the Chief 
Executive of the Hong Kong Special Administrative Region and for 
Forming the Legislative Council of the Hong Kong Special Administrative 
Region in the Year 2012 and on Issues Relating to Universal Suffrage 
[Quanguo renda changweihui guanyu xianggang tebie xingzhengqu 2012 nian 
xingzheng zhangguan he lifa hui chansheng banfa ji youguan puxuan wenti 
de jueding], adopted 29 December 07, para. 4; Decision of the Standing 
Committee of the National People's Congress on Issues Relating to the 
Selection of the Chief Executive of the Hong Kong Special 
Administrative Region by Universal Suffrage and on the Method for 
Forming the Legislative Council of the Hong Kong Special Administrative 
Region in the Year 2016 [Quanguo renmin daibiao dahui changwu 
weiyuanhui guanyu xianggang tebie xingzhengqu xingzheng zhangguan 
puxuan wenti he 2016 nian lifa hui changsheng banfa de jueding], 
adopted 31 August 14, reprinted in Xinhua, sec. 4.
    \20\ Hong Kong Information Services Department, ``LCQ4: The 
Government's Work on Constitutional Reform,'' 24 June 15; Hong Kong 
Information Services Department, ``LCQ5: Constitutional Development,'' 
24 June 15.
    \21\ See, e.g., Human Rights Watch, ``Hong Kong: Free Peaceful 
Protesters; Avoid Excessive Force,'' 30 September 14; Hong Kong 
Journalists Association, ``Six News Unions Strongly Condemn Assaults on 
Journalists at Blue Ribbons Movement,'' 26 October 14; International 
Federation of Journalists, ``Hong Kong Police Breach Police General 
Orders,'' 27 November 14; Amnesty International, ``Hong Kong: Heavy-
Handed Policing Will Only Inflame Protests,'' 28 November 14; ``Hong 
Kong Lawmakers Arrested Over Democracy Protests,'' Agence France-
Presse, reprinted in Business Insider, 2 March 15.
    \22\ Basic Law of the Hong Kong Special Administrative Region of 
the People's Republic of China [Zhonghua renmin gongheguo xianggang 
tebie xingzhengqu jiben fa], passed 4 April 90, effective 1 July 97, 
arts. 27 (freedoms of speech and assembly), 39 (applicability of 
ICCPR); International Covenant on Civil and Political Rights, adopted 
and proclaimed by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, arts. 19 (freedom of 
speech), 21 (freedom of assembly), 22 (freedom of association).
    \23\ James Pomfret and Yimou Lee, ``Hong Kong Clashes, Arrests 
Kick-Start Plans To Blockade City,'' Reuters, 27 September 14.
    \24\ James Pomfret et al., ``Hong Kong Students Storm Government HQ 
To Demand Full Democracy,'' Reuters, 26 September 14; Phila Siu et al., 
``Occupy Central Won't Start Early, Says Benny Tai, After Student 
Clashes With Police Leave Dozens Injured,'' South China Morning Post, 
27 September 14.
    \25\ Phila Siu et al., ``Occupy Central Won't Start Early, Says 
Benny Tai, After Student Clashes With Police Leave Dozens Injured,'' 
South China Morning Post, 27 September 14.
    \26\ See, e.g., Hong Kong Bar Association, ``Statement of the Hong 
Kong Bar Association on the Use of Force by the Hong Kong Police at 
Harcourt Road on September 28, 2014'' [Xianggang da lushi gonghui 
xinwen fabu xianggang jingfang zai 2014 nian 9 yue 28 ri dui jijie yu 
xiaque dao zhi shiwei renshi shiyong wuli], 29 September 14; Human 
Rights Watch, ``Hong Kong: Free Peaceful Protesters; Avoid Excessive 
Force,'' 30 September 14; Hong Kong Professional Teachers' Union, ``The 
PTU Statement of Strong Condemnation on Violence Imposed by the 
Government on Citizens and Calling for Teachers To Strike,'' 28 
September 14.
    \27\ Chris Buckley and Alan Wong, ``Crackdown on Protests by Hong 
Kong Police Draws More to the Streets,'' New York Times, 28 September 
14; Austin Ramzy and Alan Wong, ``Hong Kong Protesters Defy Officials' 
Call To Disperse,'' New York Times, 29 September 14; Jennifer Ngo and 
Ernest Kao, ``We Only Started Protesting After Police Fired Tear Gas, 
Some Say,'' South China Morning Post, 30 September 14.
    \28\ ``Hong Kong Protest Vote Canceled Amid Warnings, Attacks on 
Journalists,'' Radio Free Asia, 27 October 14; Hong Kong Information 
Services Department, ``Incidents and Cases Relating to Illegal 
Occupation,'' 9 November 14; Chris Buckley and Alan Wong, ``As Hong 
Kong Occupy Protests Wind Down, Many Make One Last Visit,'' New York 
Times, 10 December 14; Samuel Chan et al., `` `Occupy Is Over': Hong 
Kong Chief Executive Announces End to Protests as Causeway Bay Is 
Cleared,'' South China Morning Post, 15 December 14. A handful of 
protesters later returned and set up tents on sidewalks outside the 
Legislative Council building, staying until after the government's 
proposal was defeated in June 2015. Alan Wong, ``Pro-Democracy 
Demonstrators Decamp in Hong Kong,'' New York Times, Sinosphere (blog), 
23 June 15.
    \29\ Chris Buckley and Alan Wong, ``Hong Kong Police Remove 
Protesters' Camp After a Night of Chaotic Clashes,'' New York Times, 25 
November 14.
    \30\ See, e.g., Human Rights Watch, ``Hong Kong: Free Peaceful 
Protesters; Avoid Excessive Force,'' 30 September 14; Maya Wang, Human 
Rights Watch, ``Dispatches: Caught on Film--Excessive Use of Force by 
Hong Kong Police,'' 15 October 14; Emily Tsang, ``More Occupy Central 
Protesters Claim To Have Been Beaten by Police,'' South China Morning 
Post, 3 November 14.
    \31\ Amnesty International, ``Hong Kong: Heavy-Handed Policing Will 
Only Inflame Protests,'' 28 November 14.
    \32\ See, e.g., Jennifer Ngo and Samuel Chan, ``Student Pepper-
Sprayed and Beaten Brands Police a `Gang of Thugs,' '' South China 
Morning Post, 17 October 14; ``Chair of Student-Government Talks 
Pledges To Remain Impartial Despite Past CY Leung Links,'' South China 
Morning Post, 20 October 14; Emily Tsang, ``More Occupy Central 
Protesters Claim To Have Been Beaten by Police,'' South China Morning 
Post, 3 November 14; Amnesty International, ``Hong Kong: Heavy-Handed 
Policing Will Only Inflame Protests,'' 28 November 14.
    \33\ Emily Tsang et al., ``Police Launch Probe After Alleged 
Beating of Civic Party's Ken Tsang Caught on Camera,'' South China 
Morning Post, 15 October 14; ``Police Actions in Hong Kong Protests 
Spark Outrage,'' Associated Press, reprinted in Washington Post, 15 
October 14; Simon Denyer, ``Hong Kong Opens Probe Into `Vicious' Video 
Showing Police Kicking Protester,'' Washington Post, 15 October 14.
    \34\ Michael Forsythe and Austin Ramzy, ``7 Officers Arrested in 
Beating of a Protester in Hong Kong,'' New York Times, 26 November 14. 
The activist criticized authorities' handling of the case, particularly 
police refusal to name the accused officers and the delay in 
prosecution. See Laura Mannering, ``Hong Kong Protester `Beaten by 
Police' Slams Case Delay,'' Agence France-Presse, reprinted in Yahoo! 
News, 17 April 15; ``Ken Tsang, Activists Mark 300 Days of Non-
Action,'' Radio Television Hong Kong, 11 August 15.
    \35\ Danny Lee, ``Caught on Camera: Suspected Police Officer 
Knocked Unconscious by Occupy Protesters as Fighting Erupts,'' South 
China Morning Post, 1 December 14.
    \36\ Andrew Browne et al., ``Clashes Break Out at Hong Kong Protest 
Site,'' Wall Street Journal, 3 October 14; Amnesty International, 
``Hong Kong: Women and Girls Attacked as Police Fail To Protect 
Peaceful Protesters,'' 3 October 14; International Federation of 
Journalists, ``Hong Kong Union Condemns Deliberate Attacks on Media by 
Anti-Occupy Protesters,'' 8 October 14; Foreign Correspondents' Club of 
Hong Kong, ``FCC Condemns Attacks on Journalists Covering H.K. 
Protests,'' last visited 17 October 14; Hong Kong Journalists 
Association et al., ``Letter to Commissioner of Police,'' 26 October 
14.
    \37\ Samuel Chan, ``Police Watchdog Has Reviewed 20 Per Cent of 
Occupy Complaints--But Has Nearly 2,000 Still To Go,'' South China 
Morning Post, 6 March 15.
    \38\ Hong Kong Journalists Association, ``Six News Unions Strongly 
Condemn Assaults on Journalists at Blue Ribbons Movement,'' 26 October 
14; PEN American Center, ``Threatened Harbor: Encroachments on Press 
Freedom in Hong Kong,'' 16 January 15, Appendix, 40-44; International 
Federation of Journalists, ``China's Media War: Censorship, Corruption 
& Control,'' January 2015, 54, 58-59. See also Clare Jim, ``Anti-Occupy 
Mob Roughs Up Hong Kong Journalists,'' Reuters, 25 October 14.
    \39\ See, e.g., Hong Kong Journalists Association et al., ``Six 
Press Unions Complain Against Police Over Use of Force Against 
Journalists,'' 15 October 14; Hong Kong Independent Media Network et 
al., ``Four Online Media Groups' Joint Statement on Clearing of Lung Wo 
Road: Strongly Condemning Violent Police Attack on Journalists, Warning 
Authorities Are Trampling Press Freedom,'' 15 October 14; International 
Federation of Journalists, ``Hong Kong Police Breach Police General 
Orders,'' 27 November 14; Hong Kong Journalists Association, 
``Journalists Caught Between Two Fires: Hong Kong Media Faces Serious 
Harassment and Self-Censorship,'' July 2015, 10-11, 13.
    \40\ Parmy Olson, ``The Largest Cyber Attack in History Has Been 
Hitting Hong Kong Sites,'' Forbes, 20 November 14; PEN American Center, 
``Threatened Harbor: Encroachments on Press Freedom in Hong Kong,'' 16 
January 15, 16-17; Emily Tsang, ``Hong Kong Cyberattacks Spiked During 
Protests, Academic's Study Finds,'' South China Morning Post, 27 
February 15.
    \41\ ``Hong Kong Lawmakers Arrested Over Democracy Protests,'' 
Agence France-Presse, reprinted in Business Insider, 2 March 15.
    \42\ Samuel Chan and Jeffie Lam, ``Eleven More Occupy Activists 
Face `Arrest by Appointment' at Hong Kong Police HQ,'' South China 
Morning Post, 26 February 15; ``Hong Kong Lawmakers Arrested Over 
Democracy Protests,'' Agence France-Presse, reprinted in Business 
Insider, 2 March 15; Hong Kong Information Services Department, ``LCQ7: 
Arrests and Prosecutions in Relation to Public Order Events,'' 25 March 
15.
    \43\ Legislative Council of the Hong Kong Special Administrative 
Region, Public Order Ordinance (Cap. 245) [Di 245 zhang gong'an 
tiaoli], amended 25 April 13, sec. 17A.
    \44\ ``Hong Kong Lawmakers Arrested Over Democracy Protests,'' 
Agence France-Presse, reprinted in Business Insider, 2 March 15; Peter 
So, ``Democratic Party Lawmakers Among Fresh Arrests of Key Occupy 
Central Figures,'' South China Morning Post, 3 March 15.
    \45\ Phila Siu, ``Student Activists Joshua Wong and Nathan Law 
Charged With Obstructing Police in Hong Kong Protest,'' South China 
Morning Post, 14 July 15; Tony Cheung and Joyce Ng, ``Student Activist 
Joshua Wong Faces Charges Over Hong Kong `White Paper' Protest Last 
Year,'' South China Morning Post, 7 July 15. Authorities reportedly 
charged the four protesters under the Offences against the Person 
Ordinance. Legislative Council of the Hong Kong Special Administrative 
Region, Offences against the Person Ordinance (Cap. 212) [Di 212 zhang 
qinhai renshen zui tiaoli], amended 30 June 97, sec. 36(b) (``Any 
person who . . . assaults, resists, or wilfully obstructs any police 
officer in the due execution of his duty or any person acting in aid of 
such officer . . . shall be guilty of an offence . . .''). See also 
``Joshua Wong and Three Others Arraigned Today, Again Protesting and 
Burning `White Paper' '' [Huang zhifeng deng si ren jin titang zaici 
shiwei fenshao ``baipishu''], Ta Kung Pao, 17 July 15.
    \46\ Alan Wong, ``Student Leaders Charged Over Hong Kong Protest,'' 
New York Times, Sinosphere (blog), 14 July 15.
    \47\ Tony Cheung and Joyce Ng, ``Student Activist Joshua Wong Faces 
Charges Over Hong Kong `White Paper' Protest Last Year,'' South China 
Morning Post, 7 July 15.
    \48\ Alan Wong, ``Student Leaders Charged Over Hong Kong Protest,'' 
New York Times, Sinosphere (blog), 14 July 15.
    \49\ Legislative Council of the Hong Kong Special Administrative 
Region, Crimes Ordinance (Cap. 200) [Di 200 zhang xingshi zuixing 
tiaoli], amended 30 June 97, sec. 161.
    \50\ Alan Wong, ``Hong Kong Police Accuse Man of Inciting 
Protests,'' New York Times, 19 October 14; Jennifer Zhang, ``Police Are 
Using Hong Kong's Computer Crime Law To Crack Down on Pro-Democracy 
Organizers,'' Quartz, 27 October 14; Michael Forsythe and Alan Wong, 
``In Hong Kong, Fears of a Police Crackdown Online,'' New York Times, 
28 October 14; Bryan Harris, ``Surge in Web Posts Taken Down by Hong 
Kong Police Sparks Censorship Fears,'' South China Morning Post, 15 
February 15.
    \51\ Hong Kong Information Services Department, ``Opening Remarks 
by Police Chief Superintendent at Press Conferences,'' 19 November 14.
    \52\ Legislative Council of the Hong Kong Special Administrative 
Region, Crimes Ordinance (Cap. 200) [Di 200 zhang xingshi zuixing 
tiaoli], amended 30 June 97, sec. 161.
    \53\ Bai Lin, ``Suspected of Using a Computer With Dishonest 
Intent, Faculty of Orchid Gardening Member Arrested for Saying `Wat 
Wing-yin Should Go to Hell' '' [She bu chengshi shiyong diannao cheng 
``qu yingyan ying miemen'' lanhua xi chengyuan bei bu], Apple Daily, 28 
May 15; Charis Heung, ``Security Bureau Trying To Expand Computer Law, 
Say Experts,'' EJInsight, 2 June 15; Jennifer Zhang, ``Hong Kong Social 
Media Activists Under Fire as Key Electoral Policy Vote Approaches,'' 
Global Voices Online, 11 June 15.
    \54\ Suzanne Sataline, ``Hong Kong Activists Fear They Are Being 
Monitored by Beijing,'' Guardian, 14 December 14; Verna Yu, ``Hong 
Kong's `Occupy' Leaders Now Face Quiet but Persistent Harassment,'' 
Christian Science Monitor, 18 February 15.
    \55\ David Lague et al., ``Special Report--How China Spies on Hong 
Kong's Democrats,'' Reuters, 15 December 14.
    \56\ See, e.g., Lai Ying-kit, ``Four More Occupy Student Protesters 
`Barred From Entering Mainland China,' '' South China Morning Post, 17 
November 14; William Wan and Kris Cheng Lok-Chit, ``Hong Kong 
Protesters Denied Entry Into China,'' Washington Post, 24 November 14; 
Tony Cheung and Elizabeth Cheung, ``Mainland Travel Ban on Protesters 
Is `Burning Bridges' With Hong Kong Youth,'' South China Morning Post, 
11 December 14; ``Scholarism's Tiffany Chin Sze-man Refused Entry to 
Kunming, Returned to Hong Kong, Another Member Wong Wai-kei Refused 
Entry to Shenzhen'' [Xuemin sichao qian siwen rujing kunming bei ju fan 
xianggang ling yi chengyuan huang weiji bei ju rujing shenzhen], Radio 
Free Asia, 19 February 15.
    \57\ ``Hong Kong Democracy Protest Leaders To Fly to Beijing,'' 
Agence France-Presse, reprinted in Channel News Asia, 14 November 14; 
``Hong Kong Activists Denied Permit To Go to Beijing,'' Associated 
Press, reprinted in New York Times, 15 November 14; ``More Hong Kong 
Students on Blacklist as Protesters Await Road Clearances,'' Radio Free 
Asia, 17 November 14.
    \58\ ``Report of Central Government Drawing Up List of Five Hundred 
People Barred From Entering China'' [Chuan zhongyang zao ding jin 
rujing wubai ren mingdan], Sing Tao Daily, 16 November 14; Isabella 
Steger, ``Democracy Activists Worry Hong Kong Government Is Keeping a 
Travel `Blacklist,' '' Wall Street Journal, China Real Time Report 
(blog), 5 January 15.
    \59\ Reporters Without Borders, ``2015 World Press Freedom Index,'' 
12 February 15.
    \60\ Hong Kong Journalists Association, ``Press Freedom Index 
Survey 2014'' [Xinwen ziyou zhishu diaocha 2014], March 2015, 24.
    \61\ ``Open Letter From TVB News Bureau Reporters Group'' [Yi qun 
wuxian xinwen bu jizhe de gongkai xin], InmediaHK, 15 October 14; Hong 
Kong Journalists Association et al., ``Seven News Unions Throw Their 
Weight Behind TVB Journalists,'' 15 October 14; Danny Mok, ``TVB 
Journalists Quit Over Coverage of Alleged Police Attack on Occupy 
Protester,'' South China Morning Post, 26 February 15.
    \62\ Ibid.
    \63\ ``TVB Punishes Staff After Anti-Censorship Petition: Report,'' 
EJInsight, 14 November 14; International Federation of Journalists, 
``Staff Exodus From Hong Kong Broadcaster as News Service 
Compromised,'' 4 March 15.
    \64\ Danny Mok, ``TVB Journalists Quit Over Coverage of Alleged 
Police Attack on Occupy Protester,'' South China Morning Post, 26 
February 15; International Federation of Journalists, ``Staff Exodus 
From Hong Kong Broadcaster as News Service Compromised,'' 4 March 15.
    \65\ ``Removal of Tiananmen Crackdown Story Prompts Questions in 
Hong Kong,'' Radio Free Asia, 3 February 15; ``Ming Pao Staff Question 
Chief Over Tiananmen Story Call,'' EJInsight, 3 February 15; Chris 
Buckley and Alan Wong, ``Hong Kong Newspaper Staff Protests Editor's 
Shifting of Tiananmen Article,'' New York Times, Sinosphere (blog), 4 
February 15.
    \66\ Lam Hei, ``2014: A Watershed Year for Hong Kong Media,'' in 
International Federation of Journalists, ``China's Media War: 
Censorship, Corruption & Control,'' 27 January 15, 64-66.
    \67\ Freedom House, ``Freedom of the Press 2015--Hong Kong,'' 28 
April 15.
    \68\ Madeline Earp, Committee to Protect Journalists, ``For Clues 
to Censorship in Hong Kong, Look to Singapore, Not Beijing,'' 27 April 
15.
    \69\ Hong Kong Journalists Association et al., ``Five Press Unions 
United in Condemning Malicious Harassment of Journalists and the 
Media,'' 13 October 14; Thomas Chan and Danny Mok, ``Apple Daily Boss 
May Take Court Action Over Anti-Occupy Protests at Newspaper,'' South 
China Morning Post, 14 October 14; Samuel Chan, ``Soy Sauce Attack on 
Apple Daily,'' South China Morning Post, 23 October 14; Emily Tsang, 
``Hong Kong Cyberattacks Spiked During Protests, Academic's Study 
Finds,'' South China Morning Post, 27 February 15.
    \70\ ``Attackers Firebomb Home, Offices of Hong Kong Pro-Democracy 
Media Mogul,'' Radio Free Asia, 12 January 15; ``Hong Kong Pro-
Democracy Tycoon's Home, Business Attacked,'' Associated Press, 
reprinted in Washington Post, 12 January 15; International Federation 
of Journalists, ``Death Threats for Pro-Democracy Newspaper Apple Daily 
in Hong Kong,'' 12 January 15.
    \71\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo aomen tebie 
xingzhengqu jiben fa], passed 31 March 93, effective 20 December 99, 
arts. 47, 68, annexes I, II.
    \72\ Ibid., art. 40.
    \73\ International Covenant on Civil and Political Rights (ICCPR), 
adopted and proclaimed by UN General Assembly resolution 2200A (XXI) of 
16 December 66, entry into force 23 March 76, art. 25(b). Article 25(b) 
of the ICCPR guarantees the right ``to vote and to be elected at 
genuine periodic elections which shall be by universal and equal 
suffrage . . . .''
    \74\ UN Human Rights Committee, International Covenant on Civil and 
Political Rights, Concluding Observations on the Initial Report of 
Macao, China, Adopted by the Committee at its 107th Session (11-28 
March 2013), CCPR/C/CHN-MAC/CO/1, 29 April 13, para. 7; UN Human Rights 
Committee, International Covenant on Civil and Political Rights, Report 
on Follow-up to the Concluding Observations of the Human Rights 
Committee, CCPR/C/112/2, 8 December 14, 23.
    \75\ Catarina Pinto, ``Lawmakers Say `No' to Debating Political 
Reform,'' Macau Daily Times, 19 November 14.
    \76\ Catarina Pinto, ``Study: Local Residents Support Universal 
Suffrage,'' Macau Daily Times, 18 December 14; ``Democracy-Lite Still 
on the Menu,'' Macau Business, 19 December 14.
    \77\ Viviana Chan, ``New Macau Fears Greater Intimidation'' [Novo 
macau teme maior intimidacao], Jornal Tribuna de Macau, 12 November 14; 
`` `Apple Daily' Reporter Barred From Entering Macau, Jason Chao: 
Proves HK Gov't Made Blacklist'' [``Pingguo'' jizhe bei ju rujing aomen 
zhou tingxi: zhengming gang fu zhizuo hei mingdan], Apple Daily, 30 
April 15.
    \78\ Jason Chao, ``Human Rights Issues in Macau 2014,'' Jason 
Chao's Pressroom (blog), 11 December 14; Farah Master and James 
Pomfret, ``China Tightens Grip on Macau as Dissent Rises in Gambling 
Hub,'' Reuters, 18 December 14; Andre Jegundo, ``Activists Say That 
Beijing Has Tightened Control'' [Activistas dizem que pequim apertou 
controlo], Jornal Tribuna de Macau, 6 January 15.
    \79\ International Federation of Journalists, ``China's Media War: 
Censorship, Corruption & Control,'' 27 January 15, 63; High 
Representative of the European Union for Foreign Affairs and Security 
Policy, European Commission, ``Joint Report to the European Parliament 
and the Council Macao Special Administrative Region: 2014 Annual 
Report,'' 24 April 15, 5-6.
    \80\ See, e.g., Catarina Pinto, ``HK Activists and Reporters 
Refused Entry,'' Macau Daily Times, 22 December 14; International 
Federation of Journalists, ``China's Media War: Censorship, Corruption 
& Control,'' 27 January 15, 67; Andre Jegundo, ``Abuses in Application 
of Internal Security Law Denounced'' [Denunciados abusos na aplicacao 
da lei da seguranca interna], Jornal Tribuna de Macau, 10 April 15; 
``Already Criticized by Name by CY Leung, Jacky Lim Refused Entry to 
Macau'' [Zeng bei liang zhenying dianming piping lin hongda rujing 
aomen bei ju], Apple Daily, 29 April 15.
    \81\ Internal Security Framework Law of the Macau Special 
Administrative Region [Aomen tebie xingzhengqu neibu bao'an gangyao 
fa], issued and effective 4 December 02, art. 17, para. 1, item 4; 
International Federation of Journalists, ``Macau Government Continues 
To Deny Entry to Journalists,'' 15 December 14.
    \82\ International Federation of Journalists, ``Macau Government 
Continues To Deny Entry to Journalists,'' 15 December 14; Peter So et 
al., ``Hong Kong Activists on Mission To Reach Xi Jinping Turned Back 
at Macau Ferry Terminal,'' South China Morning Post, 20 December 14.
    \83\ ``Emily Lau Prevented From Entering Macau'' [Emily lau 
impedida de entrar em macau], Jornal Ponto Final, 5 January 15; 
Catarina Mesquita, ``Secretary for Security Denies Existence of 
Blacklist'' [Secretario para a seguranca nega existencia de lista 
negra], Jornal Ponto Final, 14 January 15.
    \84\ Catarina Mesquita, ``Secretary for Security Denies Existence 
of Blacklist'' [Secretario para a seguranca nega existencia de lista 
negra], Jornal Ponto Final, 14 January 15; `` `Apple Daily' Reporter 
Barred From Entering Macau, Jason Chao: Proves HK Gov't Made 
Blacklist'' [``Pingguo'' jizhe bei ju rujing aomen zhou tingxi: 
zhengming gang fu zhizuo hei mingdan], Apple Daily, 30 April 15. 
Authorities prevented a one-year-old child from entering Macau because 
his name was similar to that of someone else prohibited from entering 
Macau. ``1-Year-Old Refused Entry to Macau Because of `Constituting 
Threat to Stability,' Father: Absolutely Ridiculous'' [1 sui er yin dui 
``wending goucheng weixie'' bei ju rujing aomen fu: hao huangmiu], 
Apple Daily, 19 December 14; ``Entry Prohibition on Child Was an 
`Error' '' [Proibicao de entrada a crianca foi um ``erro''], Jornal 
Tribuna de Macau, 29 December 14.
    \85\ ``Mainlanders Indicted on Illegal UnionPay Transactions,'' 
Macau Business Daily, 30 January 15; Catarina Pinto, ``UnionPay Bogus 
Transactions Reach MOP260 Million,'' Macau Daily Times, 4 March 15.
    \86\ Catarina Pinto, ``UnionPay Bogus Transactions Reach MOP260 
Million,'' Macau Daily Times, 4 March 15.
    \87\ Gaming Inspection and Coordination Bureau, Instruction No. 2/
2006 Preventive Measures for the Practice of the Crimes of Money 
Laundering and the Financing of Terrorism [Di 2/2006 hao zhishi qingxi 
heiqian ji zizhu kongbu zhuyi fanzui de yufang cuoshi], issued and 
effective 13 November 06, Definitions.
    \88\ Ibid., sec. 6, specifically 6.1.
    \89\ Asia-Pacific Group on Money Laundering and Offshore Group of 
Banking Supervisors, ``Mutual Evaluation Report on Macao, China,'' 24 
July 07, 155, 225.
    \90\ Monetary Authority of Macau, ``Deterrence and Handling of 
Cross-Border Criminal Activities Related to Mainland Bank Cards and 
Mainland POS Machines,'' 21 November 14.
    \91\ Niall Fraser, ``Macau Shares Plunge as China Launches Major 
Crackdown on Flow of Illicit Funds,'' South China Morning Post, 17 
December 14; Niall Fraser, ``Chinese Officials To Meet Macau Regulators 
as Mainland Tightens Screws on Gambling Hub,'' South China Morning 
Post, 18 January 15; Zhang Yan, ``Macao Casinos Targeted in the Fight 
Against Graft,'' China Daily, 21 January 15.
    \92\ Commission Against Corruption, ``Commissioner Cheong Weng Chon 
Pays Visit to Beijing,'' 3 April 15.
    \93\ Farah Master and James Pomfret, ``Beijing's Glare Deepens 
Crisis in Macau,'' Reuters, 18 February 15.
    \94\ Huang Weixiong, ``Mainland and Macau Urge Mutual Assistance in 
Criminal and Judicial Matters'' [Neidi aomen cu xingshi sifa huzhu], 
Macao Daily, 9 March 15; Flora Fong, ``Criminal Accord With Mainland 
Sought'' [Pedido acordo penal com continente], Hoje Macau, 10 March 15. 
See also Sandra Lobo Pimentel, ``Handover of Criminals to Mainland Must 
Follow Humanitarian Tradition'' [Entrega de infractores ao continente 
deve seguir tradicao humanista], Jornal Ponto Final, 25 February 15.
    \95\ UN Human Rights Committee, International Covenant on Civil and 
Political Rights, Report on Follow-up to the Concluding Observations of 
the Human Rights Committee, CCPR/C/112/2, 8 December 14, 23-24; UN 
Human Rights Committee, International Covenant on Civil and Political 
Rights, Concluding Observations on the Initial Report of Macao, China, 
Adopted by the Committee at its 107th Session (11-28 March 2013), CCPR/
C/CHN-MAC/CO/1, 29 April 13, para. 11; UN Human Rights Committee, 
International Covenant on Civil and Political Rights, Concluding 
Observations of the Human Rights Committee--Portugal (Macao), CCPR/C/
79/Add.115, 4 November 99, para. 14.
    \96\ Guangdong Province Discipline Inspection Commission and 
Guangdong Province Supervision Department, ``Guangdong `Red Notice' 
Figure Wu Quanshen Seized and Brought to Justice'' [Guangdong ``hong 
tong'' renyuan wu quanshen bei ji'na gui'an], 23 July 15; He Na, ``One 
of 100 Most-Wanted Fugitives Caught in Macao,'' China Daily, 25 July 
15. Macau's Secretary for Security reportedly said that the fugitive's 
expulsion was due to his lack of residence permit and that he was not 
extradited or handed over to mainland police. Macau authorities 
reportedly canceled the man's temporary Macau residence permit and 
expelled him to mainland China. Lan Huilong, ``Deported by Macau 
Police, Only Village Official Captured Under Red Notice'' [Bei aomen 
jingfang quzhu chujing hongse tongji ling weiyi cunguan luowang], 
Southern Metropolitan Daily, 29 July 15; Patricia Silva Alves, 
``Government Withdraws Residence Permit for Fugitive Wanted by 
Interpol'' [Governo retirou autorizacao de residencia a fugitivo 
procurado pela interpol], Jornal Ponto Final, 30 July 15.
    \97\ Patricia Silva Alves, ``Arrest of Fugitive: Sonia Chan Says 
That Authorities `Will Act in Accordance With the Law' '' [Detencao de 
fugitivo: sonia chan acredita que autoridades ``vao agir de acordo com 
a lei''], Jornal Ponto Final, 28 July 15; Patricia Silva Alves, 
``Government Withdraws Residence Permit for Fugitive Wanted by 
Interpol'' [Governo retirou autorizacao de residencia a fugitivo 
procurado pela interpol], Jornal Ponto Final, 30 July 15.
    \98\ Court of Final Appeal of the Macau Special Administrative 
Region, Case No. 12/2007 [Di 12/2007 hao an], issued 20 March 07, 
Summary; Court of Final Appeal of the Macau Special Administrative 
Region, Case No. 3/2008 [Di 3/2008 hao an], issued 12 February 08, 
Summary, 3. In both cases, the Macau Court of Final Appeal held that 
without explicit extradition guidelines and without an extradition 
agreement between Macau and mainland China, Macau authorities could not 
detain individuals sought by Interpol for handover to mainland China.

                                 <all>
</pre></body></html>
